<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]


 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2019

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
            Prepared Statement of the 1854 Treaty Authority
                         1854 treaty authority
    The 1854 Treaty Authority (Authority) is a Tribal organization 
funded by a Public Law 93-638 contract with the Bureau of Indian 
Affairs (BIA) under its Trust-Natural Resources Management-Rights 
Protection Implementation (RPI) budget.

  --The Authority supports funding of the BIA Rights Protection 
        Implementation Program at the approved fiscal year 2017 level 
        and a proportionate share for the Authority. We believe that 
        the funding (as well as any increase in funding) should be 
        allocated in the same proportions as it has historically been 
        distributed.
  --The Authority supports the full finding of contract support for its 
        Public Law 93-638, Self-Determination contract.
  --The Authority supports maintaining funding for the Great Lakes 
        Restoration Initiative budget at least at its current level.

    The Authority is a Tribal organization responsible for protecting, 
preserving, and regulating the Treaty-reserved hunting, fishing and 
gathering rights in the territory ceded to the United States by the 
Chippewa in the Treaty of September 30, 1854, 10 Stat. 1109. The Bois 
Forte Band and the Grand Portage Band created the authority following 
Federal court affirmation of the rights in 1988. As part of a court-
approved agreement with the State of Minnesota, the Bands have 
obligations to preserve the natural resources in the five (5) million 
acre ceded territory and to regulate the activities of Band members 
through a conservation code, enforcement officers, and a court. The 
Authority has been involved with a variety of inter-agency efforts to 
study the effect of invasive species, climate change, and other 
activities that impact treaty resources.
    Although it has significant responsibilities in a geographic area 
the size of Massachusetts, the Authority has only fourteen (14) full-
time employees. With those limited resources, the Authority has been 
able to collaborate with State, Tribal and Federal agencies to become a 
prominent presence in the conservation of resources critical to the 
subsistence hunting, fishing and gathering activities of the Chippewa. 
The challenges facing all natural resource management agencies mean 
that we need to continue cooperative research and restoration at the 
present level or risk setbacks that have a negative impact on future 
generations.
    The successes of the Authority are overshadowed by the challenges 
facing the trust resources that are at the heart of the Treaty rights. 
For reasons unknown, the Minnesota moose population has declined 
significantly in just a few years and both terrestrial and aquatic 
invasive species and climate change threaten the Treaty fishing and 
wild rice production areas across the ceded territory. In addition, 
human activities continue to deplete or displace wildlife populations.
    The Authority urges the Committee and the Congress to acknowledge 
that the resources we seek to protect are trust resources, reserved in 
treaties that the United States has a legal obligation to protect and 
preserve.

    [This statement was submitted by Millard J. Myers, Executive 
Director.]
                                 ______
                                 
 Prepared Statement of the Aleutian Pribilof Islands Association, Inc.
    The requests of the Aleutian Pribilof Islands Association (APIA) 
for the fiscal year 2019 Indian Health Service (IHS) budget are as 
follows:

  --Fund a health facility replacement project in Atka, Alaska.
  --Fund leases for healthcare facilities under Section 105(l) of the 
        Indian Self-Determination and Education Assistance Act.
  --Continue mandatory funding of the Special Diabetes Program for 
        Indians and fund health education and Community Health 
        Representatives.
  --Place IHS funding on an advance appropriations basis.
  --Continue to fully fund contract support costs.
  --Support ending the cap on telecommunications connectivity 
        subsidies.

    The Aleutian Pribilof Islands Association, Inc. (APIA) is a 
regional non-profit Tribal organization of the Aleut people of Alaska, 
with members consisting of federally recognized Tribes of the Aleutian 
Chain and Pribilof Islands Region. APIA is a co-signer to the Alaska 
Tribal Health Compact with the IHS under Title V of the Indian Self-
Determination and Education Assistance Act (ISDEAA), under which APIA 
provides a comprehensive range of healthcare services to the Alaska 
Natives in the Tribal communities of our Region. APIA also receives 
funding through various non-IHS grants and agreements. Our mission in 
this remote area of the United States is to promote self-sufficiency 
and independence of the Unangan/Unangas; to assist in meeting the 
health, safety and well-being needs of each Unangan/Unangas community; 
to promote, strengthen and ensure the unity of the Unangan; and to 
strengthen and preserve Unangax cultural heritage.
                        atka clinic replacement
    We are requesting funding for a health facility replacement in 
Atka, Alaska.

  --The Atka health clinic is a Community Health Center operated by 
        APIA. The clinic serves the entire community of Atka regardless 
        of race, Tribal affiliation or ability to pay.
  --During World War II, Atka Health Clinic was destroyed along with 
        the entire community by the United States Navy to keep our 
        enemies from using the area.
  --The replacement of the Atka Health Clinic was identified by 
        community members as high priority during a community planning 
        session held in 1994 and again during public meetings held 
        during comprehensive planning sessions held in 2014.
  --The City of Atka initially started planning for replacement of the 
        clinic in 2003. A concept plan that included site selection was 
        done using a First Alaskans Institute grant and City funds.
  --A business plan was approved by the Denali Commission in 2005. The 
        project was ready for the design phase in 2005.
  --Design work was finally started in 2012 and then temporarily halted 
        in 2013 at 65 percent design complete.
  --The City became partners with the Aleutian Pribilof Islands 
        Association on the project in 2014. Through this partnership it 
        was determined that the best approach would be to get design 
        work completed using the funds available.
  --In 2015 design work was restarted. Between the concept plan and 
        design phases the needs of the project changed.
  --The City of Atka, APIA, and Aleutian Pribilof Islands Community 
        Development Association (APICDA) contributed a total of 
        $128,765 to do design work.
  --The total cost of the 3,850 sq. ft. replacement Clinic is 
        $2,734,926. More than 30 funding request letters have been sent 
        to potential funders along with a funder's packet detailing the 
        need for the project.
  --The current Atka health clinic is inadequate to provide the care 
        the community deserves, it is beyond repair and even a simple 
        window replacement cannot be supported with the existing 
        structure. It is vulnerable to weather and the life safety 
        code.
  --We are ready to take this project to the next level to finish the 
        design and begin the construction phase.
  --In Unalaska a Joint Venture Construction Project with the IHS was 
        approved, in which Atka is included in the scope.
  --We are specifically requesting support for construction funding in 
        the amount of $2,734,926
    funding for health facilities leases--section 105(l) agreements
    Section 105(l) of the ISDEAA provides for fully funded leases used 
by Tribes and Tribal organizations for carrying out services under an 
ISDEAA agreement. This funding is critical to being able to operate and 
maintain health clinics, which have typically been severely 
underfunded, to the point that many clinics without having a Section 
105(l) lease in place with the IHS are dangerous or unfit for provision 
of health services. Many clinics have had to be closed. The Federal 
court's decision in Maniilaq Association v. Burwell, 170 F. Supp. 3d 
243 (D.D.C. 2016), has thus identified a key source of funding to 
remedy these problems. Rather than support this funding, the 
administration has again this year asked Congress to amend the ISDEAA 
so that it can avoid providing full compensation for Section 105(l) 
leases. The proposed bill language seeks to overrule the Maniilaq 
decision, in which the court determined that Section 105(l) of the 
ISDEAA provides an entitlement to full compensation for leases of 
Tribal facilities being used to carry out ISDEAA agreements. We ask the 
subcommittees to again treat this year's proposal the same way--decline 
to include the administration's proposed language in the fiscal year 
2019 IHS appropriations bill.
continue mandatory funding for the special diabetes program for indians 
                                 (sdpi)
    APIA wishes to extend our appreciation to Congress for 
reauthorizing the SDPI through fiscal years 2018 and 2019 at the 
mandatory funding level of $150 million each year. Diabetes continues 
to be a major epidemic in our Region, but we have made great strides 
through SDPI funding toward increased access to prevention and 
treatment services.
    We understand that despite these and other victories toward 
combating diabetes, the President's proposed budget for fiscal year 
2019 would change SDPI funding from mandatory appropriations to 
discretionary funding. We join with others in Indian Country to ask 
that the subcommittees reject that proposal and continue to fund the 
SDPI in multi-year authorizations on a mandatory basis. Switching SDPI 
funding to a year-to-year discretionary basis could have disastrous 
outcomes for our ability to hire professionals and staff, and to plan 
for and carry out our diabetes programs. We see no reason to make that 
change, and we look forward to continued improved outcomes in our 
communities. We also request that the SDPI be made permanent at an 
increased funding level of $200 million per year, or higher.
    We also ask that the subcommittees continue to fund other programs 
under the Department of Health and Human Services that have a direct 
impact on the quality of health in our and other Tribal communities 
across the country, including health education, Community Health 
Representatives, Community Services Block Grants, the Supplemental 
Nutrition Assistance Program and the Low Income Home Energy Assistance 
Program.
                       ihs advance appropriations
    As in our previous years' testimony, we continue to ask for your 
support for placing the IHS budget on an advance appropriation basis, 
as Congress has done for the Veterans Administration (VA) health 
accounts. This continues to be important to the predictable and timely 
funding of healthcare for our Alaska Native and American Indian 
patients, particularly in this budget climate of continuing 
resolutions. Under advance appropriations, we would know a year in 
advance what the budget would be. Without having our full year's 
funding secured, and receiving it in bits and pieces over the fiscal 
year, it is making it incredibly difficult for us to effectively use 
our resources, maintain healthcare professionals and plan for the 
future.
              full funding of contract support costs (csc)
    APIA is very thankful to the subcommittee for its support for full 
funding of CSC over the past several fiscal years. We appreciate that 
the current and past administrations have supported that CSC be 
maintained as a separate appropriations account in IHS and that funding 
be indefinite (``such sums are may be necessary''). However, the IHS 
has in the past two appropriations cycles requested limiting language 
from the fiscal year 2016 Appropriations Act that would deny the CSC 
carry-over authority granted by the ISDEAA and would deny CSC for IHS's 
grant programs, including the Domestic Violence Prevention grants and 
the Substance Abuse and Suicide Prevention grants. We believe this is 
contrary to the ISDEAA and ask that Congress again reject the IHS's 
proposals in fiscal year 2019.
       support usac subsidies for telecommunications connectivity
    APIA is very concerned about a development relating to the 
subsidies being provided to APIA and other Tribal health providers in 
rural Alaska for telecommunications connectivity, including Internet 
service, through the Universal Service Administrative Company (USAC). 
The USAC has recently imposed a pro-rata reduction in Rural Health Care 
funding due to a funding cap. This reduction is hitting Alaska very 
hard--it has resulted in what we understand is a $50 million cut to 
subsidies nationwide, of which $18.1 million is an unplanned shortfall 
for connectivity specifically in Alaska for Tribal health programs. 
This cut is impacting us right now, and is expected to double next 
year. We, like other Alaska Tribal health programs, fear that the 
shortage could be more than $35 million next year, all of which has to 
be made up out of our healthcare funding and other limited resources. 
We need Internet connectivity in order to provide health services, 
including telecommunications services and care coordination. We should 
not have to cannibalize our healthcare funding for this critical 
service, but that is in fact what we are now having to do. We thus 
request the subcommittees' support while we advocate with the Federal 
Communications Commission for ending these caps and restoring the USAC 
subsidies.
    We appreciate your consideration of our requests outlined in this 
testimony. On behalf of APIA and all of the people we serve, I would be 
happy to provide any other additional information as desired by the 
subcommittees.

    [This statement was submitted by Dimitri Philemonof, President and 
CEO.]
                                 ______
                                 
           Prepared Statement of the Alliance to Save Energy
    Thank you for the opportunity to provide testimony today in support 
of fiscal year 2019 appropriations for ENERGY STAR and other voluntary 
programs administered by the U.S. Environmental Protection Agency 
(EPA).
    The Alliance to Save Energy is a non-profit, bipartisan coalition 
of business, government, environmental, and consumer-interest leaders 
that advocates for enhanced U.S. energy productivity to achieve 
economic growth; a cleaner environment; and greater energy security, 
affordability, and reliability. The Alliance enjoys the participation 
of nearly 130 businesses and organizations that collectively represent 
more than $870 billion in market capital. The Alliance was founded in 
1977 by Sens. Charles Percy (R-Illinois) and Hubert Humphrey (D-
Minnesota), and today has 15 Members of Congress serving on an Honorary 
Board of Advisors, including Chairwoman Lisa Murkowski (R-Alaska) and 
Sen. Lamar Alexander (R-Tennessee).
    Energy efficiency is our country's greatest energy resource--
creating jobs, stimulating economic activity, enhancing energy 
security, lowering harmful emissions, and improving U.S. 
competitiveness in global markets. Energy efficiency gains made since 
1973 have cut energy waste dramatically to fuel the U.S. economy more 
productively. Thanks in part to Federal energy efficiency programs, 
including ENERGY STAR and other voluntary programs managed by EPA, the 
U.S. today extracts twice as much gross domestic product (GDP) from 
each unit of energy we consume when compared to 1980.\1\
---------------------------------------------------------------------------
    \1\ In 1980, the U.S. consumed 78 quads (quadrillion British 
thermal units (BTUs)) while GDP was $6.4 trillion, which produces an 
energy productivity ratio of 82.6. This compares to energy productivity 
of 176.4 in 2017 (i.e., 96.8 quads and GDP of $17 trillion). Energy 
consumption data is from the Energy Information Administration. GDP 
(real dollars, 2009) is provided by the Bureau of Economic Analysis.
---------------------------------------------------------------------------
    As energy efficiency has increased, so have stable, good-paying 
jobs. More than 2.2 million American workers design, manufacture, 
install, and repair the devices, appliances, equipment and buildings 
that deliver cost-effective savings, representing one-third of the 
entire energy-related workforce. Most of these are construction and 
manufacturing jobs. In fact, members of the Subcommittee on Interior, 
Environment, and Related Agencies represent about 677,000 Americans 
employed in whole or in part in the energy efficiency sector (see Table 
1).\2\
---------------------------------------------------------------------------
    \2\ Environmental Entrepreneurs (E2) and E4TheFuture, ``Energy 
Efficiency Jobs in America,'' December 2016, https://www.e2.org/
energyefficiencyjobs/. Last accessed March 27, 2018.

              TABLE 1. ENERGY EFFICIENCY SECTOR JOBS IN STATES REPRESENTED BY SUBCOMMITTEE MEMBERS
----------------------------------------------------------------------------------------------------------------
             Member                      State          Jobs          Member               State          Jobs
----------------------------------------------------------------------------------------------------------------
Senator Lisa Murkowski,           Alaska............     8,194  Senator Tom Udall,  New Mexico........    13,554
 Chairwoman.                                                     Ranking Member.
Senator Lamar Alexander.........  Tennessee.........    27,529  Senator Dianne      California........   321,177
                                                                 Feinstein.
Senator Roy Blunt...............  Missouri..........    38,146  Senator Patrick J.  Vermont...........     8,585
                                                                 Leahy.
Senator Mitch McConnell.........  Kentucky..........    27,278  Senator Jack Reed.  Rhode Island......     8,112
Senator Steve Daines............  Montana...........     6,101  Senator Jon Tester  Montana...........     6,101
Senator Shelley Moore Capito....  West Virginia.....    20,506  Senator Jeff        Oregon............    26,755
                                                                 Merkley.
Senator Marco Rubio.............  Florida...........   106,491  Senator Chris Van   Maryland..........    46,724
                                                                 Hollen.
Senator Cindy Hyde-Smith........  Mississippi.......     8,455
                                    Total Energy Efficiency Sector Jobs: 676,708
----------------------------------------------------------------------------------------------------------------

    The contributions of Federal energy efficiency programs to the long 
history of economic, environmental and security benefits to our country 
are difficult to overstate. And, notwithstanding the tremendous gains 
already made, the opportunities to continue to drive cost-effective 
energy efficiency improvements are even greater. Therefore, the 
Alliance respectfully urges your support for fiscal year 2019 
appropriations at or above current levels for ENERGY STAR and the 
following voluntary programs:
                              energy star
  --The Alliance recommends at least $46 million for ENERGY STAR in 
        fiscal year 2019.
  --The Alliance opposes the implementation of a fee-based funding 
        model for ENERGY STAR, which is unnecessary, and which would 
        erode the program's integrity.
  --ENERGY STAR enjoys brand awareness of more than 90 percent, which 
        makes it the most widely recognized symbol for energy 
        efficiency, and is extremely cost-effective. For every extra 
        dollar Americans invested in energy efficiency under ENERGY 
        STAR, they reduced their energy bills by an average of $4.50. 
        Since 1992, managed jointly by EPA and the U.S. Department of 
        Energy, ENERGY STAR has helped families and businesses save 
        $430 billion on utility bills, while reducing greenhouse gas 
        emissions by 2.7 billion metric tons.
  --ENERGY STAR serves broad constituencies across every State in the 
        country, working with over 16,000 partners. ENERGY STAR 
        includes over 1,800 manufacturing partners of over 70 different 
        product categories, who sold more than 300 million qualified 
        products in the U.S. in 2015. About 45 percent of the 
        commercial building floor space in the U.S. has been 
        benchmarked for tracking and analyzing energy consumption using 
        ENERGY STAR's Portfolio Manager. ENERGY STAR also counts more 
        than 3,100 home builder partners who constructed almost 1.8 
        million certified new homes since 1995. In 2015, families 
        living in ENERGY STAR certified homes saved over $625 million 
        on utility bills, while 89,000 households hired 1,600 
        contractors to implement improvements and whole-house retrofit 
        projects with Home Performance with ENERGY STAR. States and 700 
        utilities across the country--including 45 local sponsors of 
        Home Performance programs--use ENERGY STAR in their own energy 
        efficiency programs and rely on it to reliably and affordably 
        meet their energy needs.
        other voluntary programs that promote energy efficiency
  --The Alliance recommends at least level funding for Environmental 
        Programs and Management--Clean Air and--Water Quality 
        Protection in fiscal year 2019 accompanied by clear direction 
        to EPA to continue administering its portfolio of voluntary and 
        partnership programs that encourage energy efficiency practices 
        in industry and deliver savings across the energy sector.
  --The Combined Heat and Power Partnership aims to reduce pollution 
        from electricity and thermal power generation by working with 
        industry and other stakeholders to develop new projects.
  --The SmartWay Transport Partnership with the freight transportation 
        industry supports efforts to improve the fuel efficiency of 
        vehicles. This program has worked with more than 3,500 shippers 
        and logistics companies to save almost $28 billion in fuel.
  --Natural Gas STAR is a partnership with industry that supports the 
        identification and implementation of technologies that reduce 
        methane pollution and provides public recognition of high 
        achievements.
  --AgStar promotes the use of biogas recovery systems to reduce 
        methane emissions from livestock waste.
  --WaterSense offers homeowners, consumers, and businesses information 
        about water-efficient products marked by a recognizable and 
        trusted label.
  --Other programs, such as the State and Local Energy and Environment 
        Program and the State and Local Energy Efficiency Action 
        Network, are important collaborations between the public and 
        private sectors that provide specific and tailored technical 
        assistance and platforms for sharing information and best-
        practices.
             national vehicle and fuel emissions laboratory
  --The Alliance recommend at least $117 million in Science and 
        Technology--Clean Air, including at least level funding in 
        vehicle and fuel standards and in greenhouse gas reporting.
  --This laboratory is a global leader that oversees vehicle fuel 
        economy and emissions testing, which are closely related. The 
        laboratory manages programs that also address fuel economy 
        labels, the Green Vehicle Guide, fuel standards, and nonroad 
        engines.

    The Alliance also urges the Subcommittee on Interior, Environment, 
and Related Agencies to oppose the inclusion of any bill amendments or 
report language that could undermine or prevent EPA from continuing to 
successfully manage ENERGY STAR and other voluntary programs. 
Furthermore, in light of the recent Government Accountability Office 
impoundment finding concerning the Advanced Research Projects Agency-
Energy program, the Alliance recommends clear and direct instructions 
to EPA in report language to obligate and expend appropriated funds 
consistent with Congressional intent and in a timely manner.\3\ With 
respect to ENERGY STAR, the Alliance encourages the subcommittee to 
reject the administration's proposal to implement a fee-based mechanism 
to fund the program. Similar proposals have been suggested by previous 
administrations and repeatedly denied by Congress.
---------------------------------------------------------------------------
    \3\ Government Accountability Office, ``Impoundment of the Advanced 
Research Projects Agency-Energy Appropriation Resulting from 
Legislative Proposals in the President's Budget Request for Fiscal Year 
2018,'' B-329092, December 12, 2007, https://www.gao.gov/products/
D18212. Last accessed March 27, 2018.
---------------------------------------------------------------------------
    Unpredictable energy costs and growing consumer and business demand 
make today's investments in energy efficiency ever more vital to 
America's economic health and energy security. It is important to 
emphasize that ENERGY STAR and these other EPA programs are voluntary 
initiatives that work with private-sector partners and support their 
efforts to increase business opportunities while reducing energy waste. 
The wide-ranging benefits of ENERGY STAR and these other voluntary 
programs, realized across the entire U.S. economy and accrued to even 
those who do not choose to participate, are worthy of your support in 
fiscal year 2019.
    Thank you for your consideration.

    [This statement was submitted by Daniel Bresette, Vice President 
for Policy and Research.]
                                 ______
                                 
         Prepared Statement of the American Alliance of Museums
    Chairman Murkowski, Ranking Member Udall, and Members of the 
subcommittee, thank you for allowing me to submit this testimony. My 
name is Laura Lott and I serve as President and CEO of the American 
Alliance of Museums (AAM). We urge your support for at least $155 
million each in fiscal year 2019 for the National Endowment for the 
Arts (NEA) and the National Endowment for the Humanities (NEH), as well 
as sufficient funding for the Smithsonian Institution. We also request 
your support for the Historic Preservation Fund (HPF), including at 
least $55 million for State Historic Preservation Offices (SHPOs), $15 
million for Tribal Historic Preservation Offices (THPOs) and $25 
million to preserve the sites and stories of the Civil Rights Movement. 
We request restored funding of $30 million and $4.6 million 
respectively for the Save America's Treasures (SAT) and Preserve 
America programs.
    Before detailing these funding priorities for the museum field, I 
want to express my deepest appreciation for the increases enacted in 
fiscal year 2018. The additional funds for the NEH, NEA, Smithsonian 
Institution and historic preservation activities will enhance museums' 
work to enrich their communities and preserve our many heritages. The 
subcommittee's choice to make these investments in fiscal year 2018 
speaks volumes about its commitment to our Nation's cultural 
institutions. AAM remains deeply troubled by continuous proposals from 
the Trump administration to slash many of these priorities, and we look 
forward to working with you--our bipartisan allies--to reject them.
    Representing more than 35,000 individual museum professionals and 
volunteers, institutions--including aquariums, art museums, botanic 
gardens, children's museums, cultural museums, historic sites, history 
museums, maritime museums, military museums, natural history museums, 
planetariums, presidential libraries, science and technology centers, 
and zoos--and corporate partners serving the museum field, the Alliance 
stands for the broad scope of the museum community.

    Museums are essential in their communities for many reasons:

  --Museums are economic engines and job creators.--According to 
        Museums as Economic Engines: A National Report, U.S. museums 
        support more than 726,000 jobs and contribute $50 billion to 
        the U.S. economy per year. The economic activity of museums 
        generates more than $12 billion in tax revenue, one-third of it 
        going to State and local governments. For example, the total 
        financial impact that museums have on the economy in the State 
        of Alaska is $280 million, including supporting 3,240 jobs. For 
        New Mexico it is a $298 million impact supporting 4,934 jobs. 
        This impact is not limited to cities: more than 25 percent of 
        museums are in rural areas.
  --Museums are key education providers.--Museums spend more than $2 
        billion yearly on education activities; the typical museum 
        devotes 75 percent of its education budget to K-12 students, 
        and museums receive approximately 55 million visits each year 
        from students in school groups. Children who visited a museum 
        during kindergarten had higher achievement scores in reading, 
        math and science in third grade than children who did not, 
        including children most at risk for delays in achievement. 
        Also, students who attended a half-day field trip to an art 
        museum experienced an increase in critical thinking skills, 
        historical empathy and tolerance. For students from rural or 
        high-poverty regions, the increase was even more significant. 
        Museums help teach the State and local curriculum in subjects 
        ranging from art and science to history, civics, and 
        government. Museums have long served as a vital resource to 
        homeschool learners. For the approximately 1.8 million students 
        who are homeschooled--a population that has increased by 60 
        percent in the past decade--museums are quite literally the 
        classroom. It is not surprising that in a 2017 public opinion 
        survey, 97 percent of respondents agreed that museums were 
        educational assets in their communities. The results were 
        statistically identical regardless of political persuasion or 
        community size.

    The National Endowment for the Humanities is an independent Federal 
agency created by Congress in 1965. Grants are awarded to nonprofit 
educational institutions--including museums, colleges, universities, 
archives, and libraries--for educational programming and the care of 
collections. NEH supports museums as institutions of learning and 
exploration, and as keepers of our cultural, historical, and scientific 
heritages that can foster critical dialogues on challenging issues of 
our time.
    In fiscal year 2017, as a whole, the National Endowment for the 
Humanities awarded 743 grants to institutions across the U.S., 
including museums. These grants total $70,644,137.88. NEH also 
continued its support for the activities of 56 State humanities 
councils in each State and U.S. territory. Many of NEH's divisions and 
offices support museums, including:

  --NEH's Division of Public Programs offers grants that bring the 
        ideas and insights of the humanities to life in museums and 
        other spaces by supporting exhibitions, community 
        conversations, and place-based history. Additionally, Positions 
        in the Public Humanities supplements provide professional 
        development opportunities for new museum professionals.
  --NEH's Division of Preservation and Access provides funding to 
        museums for a variety of efforts--such as audiovisual 
        preservation, digital preservation and preventive 
        conservation--to preserve and provide access to our nation's 
        rich cultural heritage.
  --NEH's Division of Education Programs support efforts to bring 
        educators into museums for intensive summer training programs 
        on humanities topics.
  --NEH's Office of Digital Humanities offers grants to support 
        innovations in technology at museums, universities, and other 
        institutions.
  --Beginning again in 2018, Challenge Grants will offer matching 
        grants to support critical capacity building and infrastructure 
        projects at museums.

    In calendar year 2017, 232 NEH-funded permanent and traveling 
exhibitions were open around the Nation, providing life-long learning 
opportunities to a wide public audience. Humanities councils in every 
state and U.S. territory sponsor family literacy programs, speakers' 
bureaus, cultural heritage tourism, exhibitions, and live performances. 
In 2017, 55 State councils supported 2,222 exhibitions, 185 
preservation projects, and 1,585 local history programs, attracting a 
total audience of close to 7 million people.

    NEH funding has supported museums' work in your communities, 
including:

  --$360,000 for reinstallation of the Gallery of Alaska in the 
        University of Alaska's Museum of the North. The funding will 
        allow the museum to hire an anthropologist, who will visit 
        Native communities to solicit their input into the gallery 
        project, as well as consult with a team of humanities scholars. 
        This funding helped leverage a lead gift of $1 million by 
        longtime museum supporters and $500,000 from smaller individual 
        donations.
  --$150,000 for the Museum of New Mexico's initiative of cultural and 
        educational activities designed to increase knowledge and 
        understanding around the nineteenth-century forced relocation 
        of Navajo and Mescalero Apache peoples from their homelands to 
        Fort Sumner, New Mexico.

    The National Endowment for the Arts makes art accessible to all and 
provides leadership in arts education. Established in 1965, NEA 
supports great art in every congressional district. Its grants to 
museums help them exhibit, preserve, and interpret visual material 
through exhibitions, residencies, publications, commissions, public art 
works, conservation, documentation, services to the field, and public 
programs.
    Since 2010, the National Endowment for the Arts has collaborated 
with Blue Star Families and the U.S. Department of Defense on Blue Star 
Museums, a program which provides free museum admission to active duty 
military and their families all summer long. Each year, more than 2,000 
museums participate, reaching on average more than 856,000 military 
members and their families.
    In 2017, the NEA provided more than 167 awards directly to museums, 
totaling more than $5.1 million. Communities' demands on museums 
continue to climb, increasing pressure to serve more people with 
limited financial and human resources. Receiving a grant from the NEA 
confers prestige on supported projects, strengthening museums' ability 
to attract matching funds from other public and private funders. On 
average, each dollar awarded by the NEA leverages nine dollars from 
other sources, resulting in $500 million in matching support in 2016. 
The Federal role of the National Endowment for the Arts is uniquely 
valuable. No other funder--public or private--funds the arts in every 
State and the U.S. territories. Forty percent of NEA's grant funds are 
distributed to State arts agencies for re-granting.

    NEA funding has supported museums' work in your communities, 
including:

  --The Anchorage Museum received a $60,000 Creativity Connects grant 
        to support a series of programs exploring the ecology of the 
        Artic, in partnership with the University of Alaska Anchorage. 
        The organizations will work with artists and scientists on 
        exhibitions, events, and online presentations to engage the 
        public, conveying the complexity of the northern landscape 
        through curated experiences.
  --The International Folk Art Foundation in Santa Fe, New Mexico 
        received a $60,000 Art Works grant this year to support an 
        exhibit featuring folk art from the United States and 
        international artists. The artists' work may reflect responses 
        to societal crises, such as war, political instability, 
        dislocation, and ecological challenges. The exhibit will be 
        accompanied by artist residencies, lecture, and demonstrations.

    In addition to these direct grants, NEA's Arts and Artifacts 
Indemnity program also allows museums to apply for Federal indemnity on 
major exhibitions, saving them roughly $30 million in insurance costs 
every year and making many more exhibitions available to the public--
all at virtually no cost to the American taxpayer.
    The Smithsonian Institution comprises some of the most visited 
museums in the world. The National Museum of African American History 
and Culture has captivated audiences from around the world, 
underscoring the power of our national museums to educate and inspire. 
We applaud the fiscal year 2018 funding increase and support further 
funding increases that would allow these world-class museums to 
undertake critical collections care, make needed technology upgrades, 
conduct cutting edge research of every type, and increase access for 
all.
    The Historic Preservation Fund is the funding source of 
preservation awards to States, Tribes, local governments, and 
nonprofits. State and Tribal Historic Preservation Offices carry out 
the historic preservation work of the Federal Government on State and 
Tribal lands. These duties include making nominations to the National 
Register of Historic Places, reviewing impacts of Federal projects, 
providing assistance to developers seeking a rehabilitation tax credit, 
working with local preservation commissions, and conducting 
preservation education and planning. This Federal-State-local 
foundation of America's historic preservation program was established 
by the National Historic Preservation Act. Historic preservation 
programs are not only essential to protecting our many heritages; they 
also serve as economic development engines and job creators. We urge 
you to provide $55 million for SHPOs and $15 million for THPOs through 
the Historic Preservation Fund.
    We applaud the fiscal year 2018 restoration of funding for the Save 
America's Treasures program, and urge you to fully restore it to $30 
million in fiscal year 2019. From 1999 to 2010, total Federal funding 
of $315 million for 1,287 Save America's Treasures projects leveraged 
an additional $400 million in non-Federal funds, and created more than 
16,000 jobs nationwide. These projects protected some of America's most 
iconic and endangered artifacts, including Ansel Adams' prints and 
negatives, Frank Lloyd Wright structures including Fallingwater, and 
the American flag that inspired the Star Spangled Banner. We request 
$4.6 million for the Preserve America program, which has not been 
funded in recent years.
    We also applaud the fiscal year 2018 investment in competitive 
grants to preserve the sites and stories of the Civil Rights Movement. 
The initial round of grants for this initiative is currently helping 
museums and historic sites around the country conserve endangered 
structures, document stories, and share resources with the public. We 
support fiscal year 2019 funding of $25 million for these Civil Rights 
Movement grants.
    I want to acknowledge the difficult choices that the subcommittee 
faces. I hope that my testimony has made it clear why these priorities 
are of critical importance to the nation and will provide a worthwhile 
return on investment to the American taxpayer. Thank you again for the 
opportunity to submit this testimony.
                                 ______
                                 
          Prepared Statement of the American Bird Conservancy
    On behalf of American Bird Conservancy and our supporters, please 
support effective bird conservation programs, and oppose harmful policy 
riders and proposed funding cuts in the fiscal year 2019 Interior 
Appropriations bill that would erode the Endangered Species Act (ESA) 
and undermine the recovery of listed U.S. birds. We are particularly 
concerned about the declining conservation status of one-third of all 
U.S. migratory bird species, and the ESA listing exemption, proposed 
budget cuts, and renewed threats to the Greater Sage-Grouse. We greatly 
appreciate that proposed funding cuts for the conservation of 
critically endangered birds in Hawaii were not agreed to in the fiscal 
year 2018 agreement, and that State of the Birds Activities was 
increased to $3 million.

    ----------------------------------------------------------------

--LPlease Increase the Neotropical Migratory Bird Conservation Act to 
$6.5 million.

--LPlease Increase Migratory Bird Joint Ventures to $19.9 million.

--LPlease Continue State of the Birds Activities for Critically 
Endangered Hawaiian Birds.

--LPlease Oppose Cuts to Endangered Species and Sage Grouse 
Conservation.

--LPlease Oppose Harmful Environmental Policy Changes.

    ----------------------------------------------------------------

PLEASE INCREASE FUNDING FOR THE NEOTROPICAL MIGRATORY BIRD CONSERVATION 
                                  ACT

    Since 2002, the Neotropical Migratory Bird Conservation Act (NMBCA) 
has functioned as a matching grant program to fund projects that 
conserve neotropical migratory birds--those that breed in or migrate 
through the United States and Canada and spend the non-breeding season 
in Latin America and the Caribbean. NMBCA has helped conserve 400 
species, representing more than 4 billion birds, including some of the 
most endangered birds in North America. All NMBCA grant requests must 
be matched with non-Federal funds at least 3 to 1, and to date, the 
match has been 4 to 1. Please support increasing NMBCA to $6.5 million.

       PLEASE INCREASE FUNDING FOR MIGRATORY BIRD JOINT VENTURES

    Migratory Bird Joint Ventures are regional partnerships managed by 
the U.S. Fish and Wildlife Service that identify conservation 
priorities and carry out projects to reverse population declines of at-
risk bird species. The Joint Ventures (JVs) are essential to address 
the conservation needs of migratory birds, and they leverage 
significant matching contributions from partner organizations and 
foundations. Since the program's inception in 1986, Joint Ventures have 
conserved over 22 million acres of critical habitat for wildlife and 
people and leveraged 34 dollars of support for every Federal dollar 
spent. We urge that the Migratory Bird Joint Ventures be fully funded 
at $19.9 million.

          PLEASE INCREASE ENDANGERED SPECIES RECOVERY FUNDING

    The administration's fiscal year 2019 budget request would 
significantly set back the protection and recovery of endangered 
species. The budget proposes to cut the U.S. Fish and Wildlife 
Service's Ecological Services program by $26.6 million. Among the 
conservation cuts include -$2.975 million for Gulf Coast Restoration, 
-$1.48 million for the Sagebrush Steppe Ecosystem, and -$2.88 million 
for Candidate Conservation. While some funds have been added to 
Recovery, new rules to downgrade or delist are not a high conservation 
priority given the restoration and recovery needs of other listed 
species.
    The Cooperative Endangered Species Conservation Fund is proposed 
for elimination, and State and Tribal Wildlife Grants are severely cut. 
A $53 million dollar reduction to Cooperative Endangered Species and a 
$30 million cut to State Wildlife Grants would greatly reduce the 
proactive conservation and restoration work being undertaken by States 
and private landowners.
    Seventy-eight percent of mainland birds listed as threatened or 
endangered under the ESA have populations that are now stable, 
increasing, or have recovered enough to be delisted, according to a 
2016 report published by ABC. The Endangered Species Act: A Record of 
Success analyzed population trends and recovery success for all U.S. 
listed birds, including those in the Hawaiian Islands and U.S. 
territories. Added ESA funding can help continue the upward trend of 41 
listed U.S. bird populations and make possible their eventual recovery.
    Please reverse these proposed cuts to ESA Recovery and other 
programs that support habitat restoration and the recovery of 
endangered species. Given the large number of listed birds with 
recovery population numbers, it makes sense to continue that trend by 
bolstering ESA Recovery.

PLEASE CONTINUE STATE OF THE BIRDS ACTIVITIES FOR CRITICALLY ENDANGERED 
                             HAWAIIAN BIRDS

    We are particularly concerned about the proposed -$2.483 million 
cut to State of the Birds Activities which have been dedicated to 
arresting the bird extinction crisis in Hawaii. Please support 
continuing these funds which were increased to $3 million in the fiscal 
year 2018 agreement.
    More than 90 Hawaiian bird species have become extinct, and nine 
listed Hawaiian bird species are currently in decline. This prompted 
the U.S. Fish and Wildlife Service to provide $2.5 million in annual 
State of the Birds Activities funding since 2009, but that funding is 
now at risk. $5 million per year is needed to fully fund ESA recovery 
funding for Hawaiian birds.

                GREATER SAGE-GROUSE CONSERVATION AT RISK

    Greater Sage-Grouse conservation was also supported in the fiscal 
year 2018 budget agreement and proposed cuts to the Bureau of Land 
Management's conservation efforts were not approved. However, a rider 
since 2014 prevents the U.S. Fish and Wildlife Service from taking any 
steps to list the sage-grouse under the ESA. In September 2015, listing 
the Greater Sage-Grouse was found to be not warranted for listing due 
to Federal management plans that have reduced threats to sage-grouse. 
Those plans are now at risk of being weakened under a new process 
initiated by the Department of the Interior, yet this ESA rider would 
prevent a listing for sage grouse, even if this species slips even 
closer to extinction. Please restore the ESA safety net for Greater 
Sage-Grouse.

                  PLEASE OPPOSE HARMFUL POLICY CHANGES

    Please oppose species-specific exemptions or the inclusion of any 
amendments or following bills that would weaken the Endangered Species 
Act. H.R. 717 would undermine the ESA listing process by factoring in 
economic considerations now only considered during the designation of 
critical habitat. It would also remove deadlines necessary to ensure 
petitions are ruled on in a timely fashion. H.R. 1274 would direct the 
Federal Government to utilize State and local data in its listing 
decisions, regardless of whether the data is based in science, and H.R. 
3131 would undercut citizen enforcement of the ESA by impeding 
citizens' ability to obtain counsel and challenge government actions.
    We are also concerned about forestry riders that would limit or 
eliminate opportunities for public involvement and scientific analysis 
in Federal forest management decisions. Use of categorical exclusions 
for large-scale logging projects is inappropriate due to impacts to 
wildlife habitat, water quality, recreational access, and carbon 
storage.
    We urge you to support conserving birds by increasing funding for 
the Neotropical Migratory Bird Conservation Act, Migratory Bird Joint 
Ventures, and ESA Recovery, and opposing all harmful anti-wildlife 
measures and cuts to ESA recovery efforts on spending legislation for 
fiscal year 2019. Thank you for considering these requests. Please 
contact me if I can be of further assistance.

Sincerely,
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Steve Holmer
Vice President of Policy
American Bird Conservancy
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9ae9f2f5f6f7ffe8dafbf8f9f8f3e8fee9b4f5e8fd">[email&#160;protected]</a>
                                 ______
                                 
          Prepared Statement of the American Forest Foundation
    The American Forest Foundation (AFF), a non-profit conservation 
organization, works with the over 21 million family forest owners who 
own more than 282 million acres nationally, to help them sustainably 
manage their land and provide countless public benefits to rural 
communities across America. In fiscal year 2019, AFF urges the 
subcommittee to support funding levels for the Forest Service's State 
and Private Forestry programs at levels sufficient to support robust 
action. Understanding that these partnership programs are essential to 
helping family woodland owners, whose lands cover one-third of 
America's forests, conserve and manage their lands to provide the 
numerous public benefits forests produce. Maintenance of these programs 
will help family forest owners adequately prepare for increasing 
threats and save landowners, communities, and industries from expensive 
restoration in the future.
    Because America's forests are both public and privately owned in a 
patchwork across the rural landscape, strategies to grow jobs, 
strengthen rural economies, and protect forests from threats like 
wildfire must take a ``shared stewardship'' approach where both public 
and private landowners are working to manage our national forest 
resources. Family forest owners want to manage their land well, 
contribute to this shared stewardship and continue to provide these 
benefits and address important threats, but they need partners who are 
also willing to act to ensure the landscape remains well cared for.
    While there are many programs in the Forest Service that co-invest 
in stewardship with family forest owners, because of their effects on 
forest conservation, we especially call on the Subcommittee to support:

  --$83 million for the Forest Inventory and Analysis Program
  --$27 million for the Forest Products Laboratory
  --$29 million for the Forest Stewardship Program
  --$23 million for the Landscape Scale Restoration Program
  --$5 million for the Community Wood Energy Program
              forest inventory and analysis program (fia)
    Known as ``America's Forest Census'', the Forest Inventory and 
Analysis Program (FIA) provides State forestry and resource 
professionals with detailed information on the conditions of their 
State's forest land across all ownerships. Conducted since the 1930s, 
FIA is crucially important in understanding and planning for the unique 
needs and challenges of forests nationwide. Adequate funding in this 
program is critical to addressing future resource and forest health 
management challenges. We urge your support of $83 million in fiscal 
year 2019 appropriations to fund this vital resource for forest 
managers.
                       forest products laboratory
    One of the largest challenges to private forestland management is a 
lack of markets for wood products, especially markets for low-value 
timber. The Forest Products Laboratory, through research partnerships 
in nearly all States, conducts groundbreaking research into innovative 
uses for wood and wood products. This research into innovative wood and 
fiber utilization directly supports the conservation of forestlands by 
spurring private-sector markets for wood and driving down the cost of 
management on all lands--private, State, Federal, and Tribal. In past 
years, funding for the Forest Products Laboratory has been repeatedly 
decreased, and we urge the subcommittee to support a restoration of 
full funding at the $27 million level in fiscal year 2019.
                    forest stewardship program (fsp)
    A cooperative project with State forestry agencies, the Forest 
Stewardship Program assists private landowners with the management of 
non-Federal forests to increase buffer zones and overall resilience of 
Federal forests in combating cross-boundary challenges like insects, 
disease, and wildfire. Not only does this program save the taxpayer 
millions of dollars by mitigating these impacts on Federal lands, but 
the program is a crucial component of an overall strategy of keeping 
forests as forests by encouraging private forest landowners to develop 
comprehensive management plans and assisting them along the way. We 
request the subcommittee support an appropriation of $29 million to 
support the Forest Stewardship Program in fiscal year 2019.
                  landscape scale restoration program
    The Landscape Scale Restoration program (LSR) is a shining example 
of a shared stewardship approach to management that works across 
ownership boundaries to ensure targeted action on forest challenges. 
Underpinned by State Forest Action Plans, and built on the 
collaboration of State and local agencies, LSR targets limited State 
and Federal resources on the same landscapes, ensuring the maximum 
effectiveness on landscape-scale challenges. The LSR program has 
already demonstrated powerful State-wide, regional, and national 
effectiveness, and we strongly encourage the subcommittee to support a 
fiscal year 2019 funding level of $23 million.
                  community wood energy program (cwep)
    The Community Wood Energy Program addresses critical needs for 
forest landowners and State and local governments. Designed to provide 
matching grants to State and local governments to acquire community 
wood energy systems for public buildings, the program encourages the 
use of carbon-neutral forest biomass in heating and energy production 
in areas without affordable access to fuels. It also encourages the 
development of markets for otherwise low-value timber cleared from 
responsibly managed lands. Created in the 2008 Farm Bill, the Community 
Wood Energy Program was authorized at $5 million per year, an amount we 
encourage the committee to support in fiscal year 2019.
    Thank you for considering these requests. We recognize that the 
subcommittee must find areas to reduce spending, but we hope that the 
subcommittee will consider the impact these reductions have on millions 
of family forest owners, along with all other Americans who benefit 
from well-managed, working forests. The American Forest Foundation 
would also like to thank the subcommittee for the opportunity to 
provide insight into the value of these programs and appreciate 
consideration of our testimony. If you have any questions, please 
contact Tristan Daedalus at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0470606561606568717744626b76617770626b716a6065706d6b6a2a6b7663">[email&#160;protected]</a> or Rita Hite 
at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8bf9e3e2ffeecbede4f9eef8ffede4fee5efeaffe2e4e5a5e4f9eca5">[email&#160;protected]</a>

    [This statement was submitted by Tom Martin, President and CEO.]
                                 ______
                                 
                 Prepared Statement of American Forests
    Dear Chairman Murkowski, Ranking Member Udall, and Honorable 
Committee Members:

    American Forests appreciates the opportunity to submit public 
testimony regarding our fiscal year 2019 appropriation recommendations. 
We sincerely thank the subommittee for the fiscal year 2018 
appropriation levels and for the comprehensive wildfire suppression 
funding fix. These combined actions have put our Nation's forests in a 
strong position for restoration, resiliency and recovery. American 
Forests' funding recommendations are modestly above the fiscal year 
2018 enacted levels.
    Founded in 1875, American Forests is the oldest national nonprofit 
conservation organization in the United States. Its mission is to 
inspire and advance the conservation of forests, which are essential 
for life. We do this by protecting and restoring threatened forest 
ecosystems, promoting and expanding urban forests, and increased the 
understanding of the importance of forests. American Forests has 
planted more than 50 million trees in thousands of forest restoration 
projects and works in cities across the country helping to increase 
urban forest canopy, demonstrating innovative greenspace creation.
    The Nation's forests yield a significant return on investment, 
whether those forests are public or private, in urban areas or in 
wildlands. The economic, social, and environmental benefits healthy 
forests provide are clear incentives for continued Federal investment. 
Forests and forest products currently sequester and store 13 percent of 
annual U.S. greenhouse gas emissions. The trend, for now, is up--U.S. 
EPA reports that land-based sequestration has increased 13.5 percent in 
the past decade. It is important to maintain this important resource by 
addressing rising threats to forest health and slowing forest 
conversion to non-forest uses. We can take steps to protect and 
increase this carbon benefit, and accelerate the ability of U.S. 
forests to provide a sustained level of climate mitigation service to 
the Nation. Many of these same investments are leveraged to strengthen 
the resiliency of the Nation's forests and thus protect additional 
public services beyond carbon such as watersheds, wildlife habitat, 
recreational resources and economic prosperity for rural and urban 
communities.
    Respectfully, we ask you to reject the drastic cuts proposed in the 
President's fiscal year 2019 budget. We are deeply concerned by the 
zeroing out of important and effective programs like Urban and 
Community Forestry, Landscape Scale Restoration, Community Forests and 
Open Space Conservation, and Collaborative Forest Landscape 
Restoration. Defunding or severely cutting these programs will have 
profound and lasting repercussions on people and communities across the 
country--particularly those in rural areas where these funds are 
essential.
                       usda forest service (usfs)
State and Private Forestry
    Urban and Community Forestry (U&CF): U&CF plays an integral part in 
promoting sound stewardship of our Nation's urban and community forests 
and trees. By providing important technical and financial support, U&CF 
helps cities and towns across the Nation enhance tree and forest cover, 
prepare for storms and other disturbance events, contain threats from 
native and invasive pests, and maximize the economic, social, and 
ecological benefits of their tree resources. U&CF is a smart investment 
as Federal support is often leveraged 2:1 (or in many cases 
significantly more) by States and partner organizations. As a model 
Federal program, U&CF consistently increases communities served, brings 
together diverse partners and resources, and shows that Federal 
investment can have lasting impacts on communities of all sizes. 
American Forests recommends U&CF be funded at $31.3 million.
    Landscape-Scale Restoration: The Landscape Scale Restoration 
program strategically prioritizes resources by competitively allocating 
the Cooperative Forestry Assistance Act funds. It focuses on targeting 
Federal investments --leveraged by State funding resources-- to areas 
of greatest need, highest value, or strongest innovation potential as 
stipulated in each State Forest Action Plan. American Forests 
recommends funding the Landscape Scale Restoration program at $23 
million.
    Community Forests and Open Space Conservation Program (CFP): CFP 
has made substantial progress in preserving forests by increasing 
opportunities for Americans to connect with forests in their own 
communities and fostering new public-private partnerships. It provides 
financial assistance grants to local governments, Tribes, and qualified 
nonprofit organizations to acquire and establish working community 
forests that provide public benefits. Projects are selected through a 
competitive process that evaluates community benefits, contribution to 
landscape conservation initiatives, and likelihood of land conversion. 
American Forests recommends an increase in funds to $5 million in 
fiscal year 2019.
    Forest Health Management: The Forest Health Management programs 
provide essential expertise and assistance to State and municipal 
agencies and private landowners in countering non-native pests. 
Municipal governments across the country are spending more than $3 
billion each year to remove trees on city property killed by these non-
native pests. Homeowners are spending an additional $1 billion to 
remove and replace trees on their properties and are absorbing an 
additional $1.5 billion in reduced property values. American Forests 
asks that the Subcommittee appropriate $59 million for Federal lands 
and $48 million for cooperative lands.
    Forest Legacy Program: Since authorization in 1990, the Forest 
Legacy Program has protected 2.8 million acres of private forests 
through voluntary conservation easements. It is imperative to continue 
protecting our Nation's forests for future generations. Although still 
in private ownership, these lands provide a myriad of ecosystem 
services to Americans today. American Forests supports $70 million 
allocated through the Land and Water Conservation Fund.
National Forest System
    Collaborative Forest Landscape Restoration Program (CFLRP): CFLRP 
was created to promote job stability, a reliable wood supply, and 
forest health while reducing emergency wildfire costs and risks. Given 
the program's well-documented success improving forest health and 
safety, a permanent extension of CFLRP is essential. Continued and 
increased funding levels would allow for additional projects to be 
selected across the country while capitalizing on the growing energy 
and successes of collaborative management and shared stewardship. By 
extending CFLRP to new forests and communities, we can affect 
meaningful economic and environmental change that addresses the 
critical needs of our Federal forests and sustains the values and 
resources we all depend upon. We urge Congress to act today to 
permanently extend the Collaborative Forest Landscape Restoration 
Program. CFLRP was funded at $40 million in fiscal year 2018; to expand 
the demonstrated success and buying power of this program we recommend 
an increase to at least $60 million per year.
    Vegetation Management & Watershed Management: Reforestation of our 
national forests, especially after destructive wildfires, should be a 
priority not just for the U.S. Forest Service, but for the country. 
Nearly 9 million acres of national forests have burned since 2010. 
Estimated costs for reforesting just 1 million acres is $371.4 million. 
Putting trees back in the ground needs to be on par with the level of 
funding for forest products, as you cannot have one without the other. 
American Forests recommends $366 million for vegetation management, 
equal to the fiscal year 2018 enacted level for forest products.
Forest and Rangeland Research
    The USFS's Forest and Rangeland Research program is essential in 
providing support for urban and wildland forestry research activities. 
These focus on understanding conditions and trends in our Nation's 
urban and community forests and in providing tools and best management 
practices. Agency researchers help policymakers and practitioners to 
understand the environmental, economic, and social services that trees 
and forests provide. We urge the subcommittee to continue including 
language in Interior Appropriations reports encouraging the Forest 
Service to maintain a strong and vibrant urban forest research program. 
American Forests requests funding for the Forest and Rangeland Research 
line item at $303 million with $83 million allocated to the Forest 
Inventory Analysis.
                    bureau of land management (blm)
    Public Domain Forest Management: The BLM is entrusted with the 
management of 58 million acres of forests and woodlands across 12 
western States, including Alaska. 14 million acres--or 24 percent--of 
BLM forests are overstocked, increasing insect and disease attacks and 
catastrophic wildfire. Increased funding to address these serious risks 
is necessary across all land management agencies. American Forests 
supports $10.08 million for the forests managed by the Bureau.
                    fish and wildlife service (fws)
    Ecological Services: Ecological Services achieves conservation of 
FWS trust resources, focusing on imperiled species, and works closely 
with external partners and agencies for the conservation of natural 
resources across the landscape. The Ecological Services Program 
facilitates implementation of the Endangered Species Act. American 
Forests supports $252.29 million for Ecological Services.
    National Wildlife Refuge System: The National Wildlife Refuge 
System, with 566 refuges covering more than 150 million acres across 
the country, is vital to protecting America's wildlife and ensuring 
that their habitats are a priority. Refuges are visited by more than 53 
million people each year, contribute more than $4.5 billion to the 
economy, and support at least 35,000 jobs. Investment in the Refuge 
system is an investment in our communities. With over 100 refuges 
within 25 miles of major population centers, the Refuge System is a 
vital component of our urban forests, as well. American Forests 
supports $508.20 million.
                 environmental protection agency (epa)
    Clean Water State Revolving Fund (CWSRF): Green infrastructure is a 
cost-effective and resilient approach to stormwater infrastructure 
needs that also provide many other community benefits. American Forests 
supports EPA's goal of strengthening green infrastructure activities to 
further its sustainability goals. American Forests requests that not 
less than 20 percent the CWSRF funding be made available for green 
infrastructure or environmentally innovative projects that promote 
watershed protection, restoration and build community resilience.
                     legislative language requests
Land and Water Conservation Fund
    American Forests supports the permanent authorization of full and 
dedicated funding, without further appropriation or fiscal year 
limitation, for the Land and Water Conservation Fund (LWCF). LWCF 
programs protect natural resource lands, outdoor recreation 
opportunities, and working forests at the local, State and Federal 
levels. This program ensures that these important lands are protected 
for current and future generations. American Forests supports permanent 
authorization of $900 million in mandatory funding for LWCF programs in 
the Departments of Interior and Agriculture.

    [This statement was submitted by Rebecca Turner, Senior Director of 
Programs and Policy.]
                                 ______
                                 
          Prepared Statement of the American Geophysical Union
    The American Geophysical Union (AGU), a non-profit, non-partisan 
scientific society, appreciates the opportunity to submit testimony 
regarding the fiscal year 2019 budget request for the United States 
Geological Survey (USGS). The AGU, on behalf of its 60,000 Earth and 
space scientist members, respectfully requests Congress to appropriate 
$1.2 billion for the USGS. Restoring strong funding to USGS will allow 
the agency to sustain current programs and invest in geologic, 
environmental, and ecological data needed by decision makers across the 
country.
    USGS is uniquely positioned to provide informed responses to many 
of our Nation's greatest challenges and has a mission that positively 
impacts the lives of all Americans. The Survey plays a crucial role in 
assessing water quality and quantity; reducing risks from natural 
hazards; providing emergency responders with live-saving data; 
assessing mineral and energy resources; and managing our Nation's 
ecosystems. Through its offices across the country, the USGS provides 
high-quality research and data to policymakers, emergency responders, 
natural resource managers, civil and environmental engineers, 
educators, and the public. A few examples of the USGS' valuable work 
are provided below.
                monitoring and evaluating water quality
    The Survey collects information on water availability and quality 
to inform the public and decision makers about the status and history 
of freshwater resources. During the past 130 years, the USGS has 
collected streamflow data at over 21,000 sites, water-level data at 
over 1,000,000 wells, and chemical data at over 338,000 surface-water 
and groundwater sites. This information is needed to effectively manage 
freshwaters--both above and below the land surface--for public, 
agricultural, commercial, recreational, and ecological purposes.
                predicting and observing natural hazards
    The USGS works to reduce risks from floods, wildfires, earthquakes, 
tsunamis, volcanic eruptions, landslides, and other natural hazards 
that jeopardize human lives and cost billions of dollars in damages 
every year. Seismic networks and hazard analysis are used to formulate 
earthquake probabilities and to establish building codes. The USGS 
monitors volcanoes and provides warnings about impending eruptions that 
are used by aviation officials to prevent planes from flying into 
volcanic ash clouds. Data from the USGS network of streamgages enable 
the National Weather Service to issue flood and drought warnings. The 
bureau and its Federal partners monitor seasonal wildfires and provide 
maps of current fire locations and the potential spread of fires. In 
domestic and global events, emergency managers and public officials 
rely on the USGS to inform them of risks and hazards posed to human and 
natural systems.
           mapping and assessing mineral and energy resources
    The USGS assessments of mineral and energy resources--including 
rare earth elements, coal, oil, unconventional natural gas, and 
geothermal--are essential for making decisions about the Nation's 
future. The Survey identifies the location and quantity of domestic 
mineral and energy resources, and assesses the economic and 
environmental effects of resource extraction and use. The USGS also 
maps domestic supplies of rare earth elements to be used in new energy 
technologies, which can reduce dependence on foreign oil. The USGS is 
the sole Federal source of information on mineral potential, 
production, and consumption.
                supporting and informing land management
    The USGS plays a critical role in informing sound management of 
natural resources on Federal and State lands. The Survey conducts 
research and monitoring of fish, wildlife, and vegetation--data that 
informs management decisions by other Interior bureaus regarding 
protected species and land use. Ecosystems research is also used to 
control invasive species and wildlife diseases that would otherwise 
cause billions of dollars in economic losses. The Survey provides 
information for resource managers as they develop strategies for 
restoration and long-term use of the Nation's natural resources in the 
face of environmental change.
                     collecting and assessing data
    Research and data collected by the USGS is vital to predicting the 
impacts of land use and climate change on water resources, wildfires, 
and ecosystems. For 44 straight years, Landsat satellites have 
collected the largest archive of remotely sensed land data in the 
world, allowing for access to current and historical images that are 
used to assess the impact of natural disasters on communities and the 
environment and monitor global agriculture production. A 2013 National 
Research Council study found that the economic benefit of Landsat data 
was estimated to be $2 billion for 2011 alone. The consistency of data 
sets like those provided by Landsat is vital for advances in science, 
more efficient natural resource management, and profitable applications 
of data in commerce and industry.
            developing and providing mapping for the nation
    The USGS utilizes unique technologies that enable the nationwide 
collection of accurate terrain information. This information improves 
our knowledge of water supply and quality issues; better prepares 
emergency responders for natural disasters; and provides businesses 
with more accurate data. Modernized, high-resolution topographic maps 
are provided by the USGS through their 3D Elevation Program (3DEP). 
3DEP leverages funds from the private sector and other Federal Agencies 
throughout the U.S. The initiative provides open-access elevation data 
for a wide variety of users. From better flood-inundation maps, to 
cost-effective precision farming, to the development of renewable 
energy projects, 3DEP data supports cutting edge resource management 
and energy projects.
                maintaining and evaluating public health
    The USGS helps to maintain public health at the local, State, and 
national level. By monitoring changes in ecosystem and environmental 
health, the Survey can evaluate human susceptibility to contaminants, 
pathogens, and environmental disease. This unique perspective into the 
intersection between the physical environment, living environment, and 
human allows the USGS to provide valuable insight regarding public 
health concerns. For example, the agency assesses negative health 
effects caused by the dispersion of contaminants after natural and man-
made disasters, such as hurricanes and oil spills. In one such 
instance, after Hurricane Sandy, the USGS provided soil, water, and 
sediment information to public health agencies to help them protect 
citizens from toxic contaminants.
               engaging the next generation of scientists
    The USGS meets monthly with other Department of Interior (DOI) 
divisions to collaborate on projects that will engage the next 
generation of scientists. Collectively, the DOI is actively working to 
provide at least 10 million students with educational, work, and 
training opportunities. In 2015, the USGS offered learning 
opportunities to 113,375 students and teachers in activities such as 
science fairs, mentoring opportunities, camps, and hands-on learning 
experiences. Programs such as the USGS' Cooperative Research Units 
(CRU) provide under-represented undergraduate students with mentoring 
and hands-on experience designed as a pathway to DOI recruitment.
                               conclusion
    While AGU was very pleased to see that USGS received a 6 percent 
funding increase in the fiscal year 2018 Omnibus, USGS has been 
historically strained by a large workload and too few resources. As we 
face unprecedented challenges, such as demand for limited energy, 
vulnerability to natural hazards, and the need for clean water, 
continued substantial funding increases are needed for USGS to maximize 
support for the Nation's economic, environmental, and national 
security.
    AGU respectfully requests that Congress appropriate $1.2 billion 
for USGS in fiscal year 2019. We appreciate the opportunity to submit 
this testimony to the subcommittee and thank you for your thoughtful 
consideration of our request.
                                 ______
                                 
        Prepared Statement of the American Geosciences Institute
    Thank you for this opportunity to provide the perspective of the 
American Geosciences Institute (AGI) on fiscal year 2019 appropriations 
for geoscience-related programs within the subcommittee's jurisdiction.
    AGI applauds Congress for successfully negotiating and passing the 
Bipartisan Budget Act of 2018 and the Consolidated Appropriations Act, 
2018. We are grateful to the Members of Congress and congressional 
staff who crafted this significant legislation. The fiscal year 2018 
appropriations bill creates a robust baseline for future budgets, and 
we encourage the administration to obligate all appropriated funds.
    To strengthen the Nation's economy, public safety, and national 
security, AGI requests sustained funding increases for geoscience 
agencies. Specifically, we ask the subcommittee to support $1.2 billion 
for the United States Geological Survey (USGS), $1.2 billion for 
Management of Lands and Resources at the Bureau of Land Management 
(BLM), $190 million for the Bureau of Offshore Energy Management 
(BOEM), $190 million for the Bureau of Safety and Environmental 
Enforcement (BSEE), $8.1 billion for the Environmental Protection 
Agency (EPA), $1.1 billion for the Smithsonian Institution, and $3.2 
billion for the National Park Service (NPS).
    The next frontier lies under our feet. We know relatively little 
about the 2 miles of the Earth's crust immediately below the surface, 
even though we rely heavily on it for many of our energy, mineral, and 
water supplies; we use it as a disposal site for waste products; and it 
is the source of damaging earthquake and volcanic hazards. Scientific 
and technological innovations now equip us to characterize the 
subsurface, identify the wealth that may lie in the shallow subsurface, 
and better prepare for and mitigate natural hazards. AGI suggests a 
coordinated national effort to examine and characterize the shallow 
subsurface of the country to support wise development of the Earth and 
its resources.
    AGI is a nonprofit federation of 52 scientific and professional 
associations representing approximately 260,000 geoscientists across 
the Nation who work in industry, academia, and government. Founded in 
1948 under a directive of the National Academy of Sciences, AGI 
provides information services to geoscientists, serves as a voice of 
shared interests in our profession, plays a major role in strengthening 
geoscience education, and strives to increase public awareness of the 
vital role the geosciences play in society's use of resources, 
resilience to natural hazards, and the health of the environment.
                         u.s. geological survey
    AGI supports $1.2 billion for the USGS to support the agency's 
scientific mission. We recommend a balanced portfolio of research, 
monitoring, and assessment, including geologic mapping, geophysics, 
geochemistry, and minerals information functions to support responsible 
decisions about the Nation's earth, land, and water resources.
    Strengthen core geoscience functions at USGS: The need for 
geological information has not diminished since USGS was established in 
1879. On the contrary, as we place increasing demands on Earth's 
system, many critical decisions rely on accurate and publicly 
available, geoscience information. While there is merit to USGS's broad 
remit, its unique geological mission should be paramount. The proposed 
Three Dimensional mapping and Economic Empowerment Program (3DEEP), 
would improve the topographic, geological, and geophysical mapping of 
the country. This fundamental step in characterizing the Nation's 
surface and subsurface would create new jobs at State geological 
surveys and in the private sector. AGI supports the President's request 
for $10.6 million in new funds for 3DEEP, in addition to maintaining 
current investment in key USGS programs.
    Invest in long-term data collection and analysis: USGS is renowned 
for the quality and consistency of its long-term data collection and 
analysis. The financial, intelligence, emergency response, 
agricultural, policy, and commercial sectors depend on this impartial, 
reliable flow of information to identify short-term and long-term 
trends in key indicators. Landsat, a series of Earth-observing 
satellites, represents the world's largest archive of continuously 
collected land remote sensing data. The USGS collects a vital range of 
information: from stream gages monitoring water flow across the U.S. to 
the National Minerals Information Center tracking the global supply and 
flow of mineral materials. The Nation cannot afford any disruption in 
the continuity and quality of these programs and we urge Congress to 
invest in the infrastructure and staffing needed to maintain long-term 
data collection and analysis programs at USGS.
    Optimize USGS facilities: Aging infrastructure is a significant 
factor affecting the sustainability of the USGS. We are grateful to the 
Committees for recognizing these much needed facility improvements and 
providing increased funding for deferred maintenance in fiscal year 
2018. AGI supports additional fiscal year 2019 funding for USGS 
Facilities to maintain essential monitoring, observation, and 
analytical instrumentation to best serve the agency's mission. 
Investing in USGS infrastructure now will increase efficiency and yield 
considerable savings in the future.
Core Science Systems:
    The National Cooperative Geologic Mapping Program (NCGMP) is an 
important, decades-long partnership between the USGS, State geological 
surveys, and universities that has a proven track record of delivering 
cost-effective geological maps. AGI asks that Congress increase funding 
for NCGMP to $30 million in fiscal year 2019 to meet growing demand 
from many sectors.
    AGI also requests sustained funding at $67.9 million for the 
National Geospatial Program. Topographic mapping has been a core 
activity at USGS since its inception, and we strongly support the 3D 
Elevation Program (3DEP) interagency partnership to build a modern 
elevation map of the Nation's territories using LIDAR and IFSAR 
technologies.
    We urge Congress to reject the President's request to cut funding 
for the USGS Libraries by almost 50 percent, which would drastically 
curtail access to this key resource and driver of economic development. 
Please protect the USGS Libraries from becoming a dark archive and 
maintain funding at $6 million for these vital collections.
Natural Hazards:
    Natural disasters and hazards can cause substantial damage 
throughout the Nation, but, with the right information, communities can 
take preventative action to avoid and mitigate potential impacts. The 
USGS earthquake and volcano hazards programs, plus the agency's work on 
geomagnetism and coastal and marine geology, provide vital information 
and tools that strengthen resilience to hazards and ensure the security 
and prosperity of the Nation. AGI echoes the Committee's concern about 
landslide risk to local communities, and recommends increased 
investment in the USGS landslide program. AGI supports robust funding 
of at least $179 million for the Natural Hazards mission area for its 
research and efforts that help protect our communities and citizens and 
reduce the human and financial toll of hazards.
Energy, Minerals, & Environmental Health:
    USGS minerals and mapping programs provide the baseline geologic 
information needed to stimulate and target renewed interest in domestic 
mineral resources. Funding these programs will support national defense 
and economic priorities. In addition, we believe the President's 
proposal to eliminate the Environmental Health mission area, 
transferring only a small fraction of its work to other programs, is 
regrettable; therefore, we encourage Congress to continue funding this 
program which conducts important research on the effects of 
contaminants and toxic substances on our water and environment. AGI 
supports the President's request for $85 million for Mineral and Energy 
Resources, in addition to the proposed new funding for the 3DEEP 
initiative, plus continued investment of $21 million for Environmental 
Health.
Land Resources:
    One of the most fundamental concepts of the geosciences is that the 
Earth changes through time. The importance of long-term, consistent 
monitoring of the Earth to provide a sound basis for decisionmaking 
cannot be overstated. AGI supports increased funding in fiscal year 
2019 for Land Resources, which includes Landsat and other Earth 
observing systems, and we commend Congress for its decision to continue 
funding climate research and monitoring programs at fiscal year 2017 
enacted levels in the fiscal year 2018 appropriations bill.
Water Resources:
    Drought and challenges in water supply and water quality highlight 
the importance of understanding the quality, quantity, and distribution 
of our groundwater and surface water resources. AGI urges Congress to 
ensure the continuity and expansion of nationwide, long-term data 
collection and research programs that support water planning and 
decisionmaking across all States, and to fund Water Resources at $218 
million in fiscal year 2019.
                       bureau of land management
    The fiscal year 2019 budget includes $137.2 million to strengthen 
overall program capacity, improve management, and expedite permitting 
to facilitate increased environmentally responsible energy development. 
AGI supports efforts by the Energy and Minerals Management program to 
modernize its data systems and administrative processes. The BLM needs 
staff with appropriate skills to carry out energy and minerals 
inspections, data collection and analysis, and administration. AGI 
supports funding BLM's Management of Lands and Resources at $1.2 
billion, including Energy and Minerals activities at $175 million, and 
we urge investment in BLM's workforce to ensure efficient technical and 
administrative service.
     bureaus of ocean energy management & safety and environmental 
                              enforcement
    AGI requests $175 million for BOEM, and $190 million for BSEE. AGI 
supports the efforts of these bureaus to ensure responsible, science-
informed management and sustainable, safe production of the Nation's 
energy and mineral resources. In order to administer and oversee 
offshore energy development effectively and efficiently, BOEM and BSEE 
need sufficient, appropriately-skilled staff. AGI recommends continued 
investment in workforce development to avoid delays in the functioning 
of both bureaus.
                    environmental protection agency
    We request that Congress consider the value of the EPA science 
programs, especially their value to States, Tribes, partners, and grant 
recipients, when making budget decisions. EPA provides many benefits to 
the Nation, and we support funding of $8.1 billion for the agency.
                        smithsonian institution
    The Smithsonian Institution not only cultivates world-class 
artifacts, but also conducts notable research at its facilities, which 
support thousands of employees and STEM (science, technology, 
engineering and mathematics) training opportunities. The National 
Museum of Natural History (NMNH) plays a multifaceted role in 
communicating the excitement of the geosciences to the public, and 
enhancing knowledge through research, education, and the sharing of 
geoscience collections. We thank Congress for their commitment to 
protecting the Nation's scientific, historic, and cultural treasures 
with increased investment in the Smithsonian Institution in fiscal year 
2018, and gratefully ask for continued support in fiscal year 2019. AGI 
supports $1.1 billion for the Smithsonian Institution, with $49.8 
million for the NMNH.
                         national park service
    National parks showcase and protect the unique geologic heritage of 
our country and offer unparalleled opportunities for scientific 
research, education, and outdoor recreation activities. AGI supports 
$3.2 billion for the NPS, and we note its significant role in educating 
students and the general public about all aspects of Earth and human 
history. We also applaud the subcommittee's investment in fiscal year 
2018 to address the construction backlog, maintenance, and funding for 
new park units.
    Again, thank you for the opportunity to present testimony to the 
subcommittee. If you have questions or would like additional 
information for the record, please contact Anna Normand at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9cfdf2f3eef1fdf2f8dcfdf1f9eef5fffdf2fbf9f3effff5f9f2fff9efb2f3eefb">[email&#160;protected]</a>, or 4220 King Street, Alexandria, VA 
22302-1502.

    [This statement was submitted by Allyson K. Anderson Book, 
Executive Director.]
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium
                            request summary
    On behalf of the Nation's Tribal Colleges and Universities (TCUs), 
which collectively are the American Indian Higher Education Consortium 
(AIHEC), thank you for this opportunity to present our fiscal year 2019 
appropriations recommendations for the 29 colleges funded under Titles 
I and II of the Tribally Controlled Colleges and Universities 
Assistance Act (Tribal College Act); the two tribally chartered career 
and technical postsecondary institutions (Tribal College Act, Title V); 
the two Bureau of Indian Education postsecondary institutions; and the 
Institute of American Indian Arts (IAIA). The Bureau of Indian 
Education administers each of these programs, with the exception of 
IAIA, which is congressionally chartered and funded in its own account. 
The following is a list of recommended funding levels:
                       department of the interior
  --$86,354,000 to fund institutional operations under Titles I 
        ($68,544,000) and II ($17,009,000), TCU Endowments ($109,000) 
        and technical assistance ($701,000) authorized in the Tribally 
        Controlled Colleges and Universities Assistance Act of 1978, or 
        Tribal College Act, which would fund 29 TCUs at the authorized 
        level for the first time in 40 years and provide an additional 
        $100,000, for increasingly needed technical assistance. The 
        technical assistance program has been level funded for 13 years 
        despite growing demands for assistance for developing TCUs.
  --$10,000,000 for Title V of the Tribal College Act, which provides 
        partial institutional operations funding for two tribally 
        chartered postsecondary career and technical institutions.
  --$9,960,000 for the Institute of American Indian Arts.
  --$25,000,000 for Haskell Indian Nations University and Southwestern 
        Indian Polytechnic Institute, the Bureau of Indian Education's 
        two postsecondary institutions.
  --$31,000,000 for TCU Infrastructure Improvement, authorized under 
        section 113 of the Tribal College Act.
              opportunity and innovation in indian country
    Tribal Colleges and Universities are essential to success in 
American Indian/Alaska Native (AI/AN) education. Currently, 38 TCUs 
operate more than 75 campuses and sites in 17 States, within whose 
geographic boundaries 80 percent of all American Indian reservations 
and Federal Indian trust land lie. TCUs serve students from well over 
250 federally recognized Tribes and 30 States. More than 85 percent of 
our students receive Federal financial aid--primarily Pell grants. In 
total, the TCUs annually serve 160,000 AI/ANs and other community 
members through a wide variety of academic and community-based 
programs. TCUs are public institutions accredited by independent 
regional accreditation agencies, and like all U.S. institutions of 
higher education, must regularly undergo stringent performance reviews 
to retain their accreditation status. Each TCU is committed to 
improving the lives of its students through higher education and to 
moving AI/ANs toward self-sufficiency. To do this, TCUs serve many 
roles in their reservation communities, functioning as workforce and 
job creation engines, community centers, public libraries, Tribal 
archives, entrepreneurial, small business, and career centers, computer 
labs, summer camps, community farms and gardens, economic development 
centers, applied research hubs, child care centers, and more.
    The Federal Government, despite its direct trust responsibility and 
binding treaty obligations, has never fully funded TCU institutional 
operations as authorized under the Tribal College Act. Despite funding 
challenges, TCUs are leading the Nation in preparing an AI/AN 
workforce, including nurses, land managers, and teachers for our Native 
schools. For example, half of all AI/AN special education teachers in 
Montana are graduates of one college: Salish Kootenai College. TCUs 
prepare other professionals in high-demand fields, including 
agriculture and natural resources management, human services, IT, and 
building tradesmen. By teaching the job skills most in demand on our 
reservations, TCUs are laying a solid foundation for Tribal economic 
growth, which is the only way to move Tribes and Tribal members to 
self-sufficiency. But workforce development is not enough. TCU 
leadership understands that we must do more to accelerate the move to 
self-sufficiency--we must move beyond simple workforce training. Today, 
TCUs are tackling the tougher--but much more significant--issue of job 
creation, because we know that to break the cycle of generational 
poverty and end the culture of dependency that grips so much of Indian 
Country, simply filling jobs that would be filled anyway is not enough. 
We must create new industries, new businesses, and build a new culture 
of innovation. Our job creation initiative is focusing initially on 
advanced manufacturing, through a partnership with the U.S. Department 
of Energy, National Laboratories, TCUs, and industry. Already, we are 
seeing results, with new TCU-Tribal-industry partnerships, new 
contracting opportunities, and new jobs for our students and graduates.
    Tribal Colleges continually seek to instill a sense of hope and 
identity within Native youth, who one day will lead our Tribal nations. 
Unacceptably, the high school drop-out rate for Native students remains 
around 50 percent. TCUs are reaching back to create a bridge for Indian 
students as early as the elementary school, encouraging them to stay 
focused on achievable goals and believe that the natural course is to 
finish high school and go on to the local TCU. TCUs offer dual credit 
courses for high school students, provide math teachers for local high 
schools as a strategy for improving course delivery, host weekend 
academies, after school programs and summer camps for middle and high 
school students, and at the other end of the spectrum, offer GED or 
HiSET training and testing, and 2+2 partnerships to bridge programs 
with regional universities. All are solid steps to bolster the 
prospects for future of Native youth and breaking the cycle of 
generational poverty.
 tribal colleges and universities: a sound investment for the federal 
                    government and rural government
    Aaron Sansosie of Flatrock, Arizona, is a U.S. Army veteran, father 
of four, and Navajo Technical University (NTU) student. He is one of 
thousands of American Indian and Alaska Native (AI/AN) students gaining 
valuable education and technical skills to enter the workforce at 
Tribal Colleges. Aaron is enrolled in NTU's Carpentry certificate 
program and Building Information Modeling Applied Science associate's 
degree program. To achieve his goals, Aaron has been taking 17-19 
credits each semester, which keeps his days busy. While the schedule 
may seem grueling for any student, it is important to note that Aaron 
does this all while sleeping out of his truck. ``The cost of living 
here is pretty high, especially in the dorms and having three meals a 
day. Sometimes Pell won't cover it all, which leaves me in debt. Even 
with my veteran benefits, which help me out a lot, [I need to save],'' 
explained Aaron, whose desire to help his family and community is 
powerful.
    Stories like Aaron's can be found across Indian Country as TCUs 
attempt to stretch Federal dollars to meet the unique needs of AI/AN 
students. In fact, a 2015 economic impact study on the TCUs, conducted 
by Economic Modeling Specialists International (EMSI), revealed that 
for every Federal dollar invested in the TCUs, the taxpayers receive a 
cumulative value of $2.40. The average annual rate of return is 6.2 
percent, a solid rate of return that compares favorably with other 
long-term investments. On an individual basis, TCU students see an 
annual return of investment of 16.6 percent, and the vast majority of 
TCU-trained workers remain in Indian Country and contribute to the 
local economy. TCUs benefit taxpayers through increased tax receipts 
and reduced demand for Federal social services--a win all-round.
   fund tcu infrastructure improvement authority for first time ever
                           ($31 million/year)
    We urge Congress to finally fund section 113 (25 U.S.C. 1813) of 
the Tribal College Act, established 40 years ago, and create a TCU 
Infrastructure Improvement program for Tribal Colleges. A key mission 
of TCUs is to prepare AI/ANs and other rural community members to be 
self-sufficient members of the Nation's workforce. For TCUs to realize 
this goal, they need facilities to educate and train their students in 
a safe environment for 21st century jobs. Facilities construction and 
maintenance are needed at the Tribal Colleges, many of which have 
hazards such as leaking roofs, asbestos insulation, exposed and 
substandard wiring, crumbling foundations, and outdated computer labs. 
One TCU needs-assessment revealed a need of $120 million to address 
current shovel-ready projects and rehabilitation needs at our Nation's 
38 Tribal Colleges. We urge the subcommittee to allocate a tiny portion 
of its increased funding allocation, resulting from the 2 year budget 
deal, to help meet the dire facilities and infrastructure needs of the 
TCUs.
   challenges: indian student count, tax base & gaming misconceptions
ISC Formula and Non Beneficences
    As noted earlier, the TCUs' operations funding remains 
insufficient, and their budgets are further disadvantaged because 
unlike other institutions of higher education, most TCUs receive 
operations funding based on the number of Indian students served, with 
``Indian student'' defined as a member of a federally recognized Tribe 
or a biological child of enrolled Tribal members. Yet, approximately 15 
percent of the TCUs' collective enrollments are non-Indian students. 
While many TCUs do seek operating funds from their respective State 
legislatures for their non-Indian State-resident students (also 
referred to as ``non-beneficiary'' students) successes have been, at 
best, inconsistent. Given their locations, often hundreds of miles from 
another postsecondary institution, TCUs are open to all students, 
Indian and non-Indian, believing that education in general, and 
postsecondary education in particular, is a catalyst to a better 
economic future in remote areas.
Local Tax and Revenue Base
    TCUs cannot rely on a local tax base for revenue. Although tribes 
have the sovereign authority to tax, high reservation poverty rates, 
the trust status of reservation lands, and the lack of strong 
reservation economies hinder the creation of a reservation tax base. As 
noted earlier, on Indian reservations that are home to TCUs, the 
unemployment rate can well exceed 70 percent. By contrast, the national 
unemployment rate is currently 4.5 percent.
Gaming and the TCUs
    Although several of the reservations served by TCUs have gaming 
operations, they are not the mega-casinos located in urban areas and 
featured in the broad-based media. Only a handful of TCUs receive 
regular income from the chartering Tribe's gaming revenue, and the 
amounts received can vary greatly from year to year. Most reservation 
casinos are small businesses that use their gaming revenue to improve 
the local standard of living and potentially diversify into other, more 
sustainable areas of economic development. In the interim, where 
relevant, local TCUs offer courses in casino management and hospitality 
services to formally train tribal members to work in their local 
tribally run casinos.
    Some form of gaming is legalized in 48 States, but the Federal 
Government has not used the revenues generated from State gaming as a 
justification to decrease Federal funding to other public colleges or 
universities in those States. Some have suggested that those Tribes 
that operate the handful of extremely successful and widely publicized 
casinos located in or near urban areas, should be financing higher 
education for all American Indians. And yet, no State is expected to 
share its gaming revenue with a less successful or non-gaming State.
              appropriations request for fiscal year 2019
    As noted earlier, the Tribally Controlled Colleges and Universities 
Assistance Act will be 40 years old this year. As we approach this 
significant milestone, it is disheartening to note that in 40 years, 
the TCUs have yet to receive the Congressionally authorized per Indian 
student funding level. A significant step toward adequate funding for 
the TCUs' institutional operating grants and technical assistance under 
Titles I and II in fiscal year 2019 would require an increase of 
$16,562,630 over the fiscal year 2018 appropriated level. These TCUs, 
which serve some of the largest Indian Tribes in the Nation, have been 
level-funded since fiscal year 2014. Since that time, the College of 
the Muscogee Nation (Okmulgee, Oklahoma) and Red Lake Nation College 
(Red Lake, Minnesota) have become eligible for funding under Title I of 
the Tribal College Act, and several more could potentially gain 
eligibility in the next few years.
                               conclusion
    AIHEC Member institutions/Tribal Colleges and Universities provide 
quality higher education to thousands of American Indians and other 
reservation residents, as well as essential community programs and 
services to those who might otherwise not have access to such 
opportunities. The modest Federal investment that has been made in TCUs 
has paid great dividends in terms of employment, education, economic 
development and has significantly reduced social, healthcare, and law 
enforcement costs. Continuation of this investment makes sound moral 
and fiscal sense.
    We greatly appreciate the subcommittee's past and continued support 
of the Nation's Tribal Colleges and Universities and your thoughtful 
consideration of our fiscal year 2019 appropriations requests.
                                 ______
                                 
  Prepared Statement of the American Institute of Biological Sciences
    The American Institute of Biological Sciences (AIBS) appreciates 
the opportunity to provide testimony in support of appropriations for 
the United States Geological Survey (USGS), Environmental Protection 
Agency (EPA), United States Fish and Wildlife Service (USFWS), and 
Smithsonian Institution for fiscal year 2019. We encourage Congress to 
provide the USGS with $1.2 billion in fiscal year 2019 and $174 million 
for the Ecosystems mission area. We ask that Congress restore support 
for the Biological Survey Unit to the fiscal year 2018 level of $1.6 
million and direct USGS to sustain the program. We further request that 
Congress provide EPA Science and Technology with at least $760 million, 
equal to the fiscal year 2014 enacted level. We also request the 
restoration of funding for Science Support in USFWS to the fiscal year 
2017 enacted level of $17.0 million. Lastly, we urge Congress to 
provide new funding to the Smithsonian Institution and the National 
Museum of Natural History.
    AIBS is a nonprofit scientific association dedicated to promoting 
informed decisionmaking that advances biological research and education 
for the benefit of science and society. AIBS works to ensure that the 
public, legislators, funders, and the community of biologists have 
access to and use information that will guide them in making informed 
decisions about matters that require biological knowledge. Founded in 
1947 as a part of the National Academy of Sciences, AIBS became an 
independent, member-governed organization in the 1950s. Today, AIBS has 
individual members and more than 130 member organizations with a 
combined individual membership and staff of more than 200,000.
                         u.s. geological survey
    The USGS provides unbiased, independent research, data, and 
assessments that are needed by public and private sector decision-
makers. Data generated by the USGS save taxpayers money by enabling 
more effective management of water and biological resources and 
providing essential geospatial information that is needed for 
commercial activity and natural resource management. The data collected 
by the USGS are not available from other sources.
    The Ecosystems activity within USGS is integral to the agency's 
other science mission areas. It conducts research required to 
understand the impacts of such things as water use and natural hazards 
on environmental systems. The USGS conducts research on and monitoring 
of fish, wildlife, and vegetation--data that informs management 
decisions by other Interior bureaus regarding protected species and 
land use.
    Biological science programs, housed within the Ecosystems line, 
collect and analyze long-term data not available from other sources. 
The knowledge generated by USGS is used by Federal and State natural 
resource managers to maintain healthy and diverse ecosystems while 
balancing the needs of public use.

    Examples of successful USGS Ecosystem initiatives include:

  --Development of comprehensive geospatial data products that 
        characterize the risk of wildfires on all lands in the United 
        States. These products are used to allocate firefighting 
        resources and to plan wildfire fuel reduction projects. These 
        tools require the input of information about plant species 
        distribution, plant production, and how different animals 
        within the landscape may influence the distribution of this 
        vegetation.
  --Identification and evaluation of control measures for Asian carp, 
        sea lamprey, Burmese pythons, and other invasive species that 
        cause billions of dollars in economic losses annually.
  --New insights on the spread of avian flu, white-nose syndrome, 
        chronic wasting disease, and other diseases spread by wildlife 
        in North America.

    The President's fiscal year 2019 budget request cuts the Ecosystems 
mission by 40 percent relative to the fiscal year 2017 enacted level. 
Simply put, there is no way the agency can absorb these cuts without 
negatively affecting scientific research and jeopardizing data quality. 
As a science agency, much of the USGS budget is dedicated to staff as 
well as equipment and facilities that must be maintained and updated to 
ensure the continuity of data acquisition and that data gathered are 
reliable and available for future scientific investigations.

    Among the proposed reductions are:

  --Elimination of curation of and research on fish, amphibians, 
        reptiles, and mammals that is conducted by the Biological 
        Survey Unit at the Smithsonian Institution. USGS has more than 
        a million specimens of birds, mammals, amphibians, and reptiles 
        that are housed at the Smithsonian. These curatorial and 
        research positions are required to maintain and use these 
        specimens and the data associated with them. This management 
        arrangement has been in place since 1889.
  --Elimination of the Cooperative Research Units (CRUs). CRUs are 
        located on 40 universities in 38 States and conduct actionable 
        research, provide technical assistance, and develop scientific 
        workforces through graduate education and mentoring programs.
  --Elimination of research on the ecological effects of fracking. 
        Research by the USGS on this topic compliments research 
        conducted by the EPA on water quality issues associated with 
        fracking. This information is vital to Federal and State 
        management of energy development.
  --Reduced wildlife and fisheries research. USGS conducts this 
        research for the benefit of Federal and State stakeholders. 
        Without these research programs, USFWS, the National Park 
        Service, and other Interior bureaus will not have the 
        scientific information required to fulfill agency missions to 
        manage wildlife, as these agencies do not have scientific 
        research capacities. Moreover, the USGS is a non-regulatory 
        agency, which means that its research is independent of the 
        entities responsible for developing and implementing rules and 
        regulations.
  --Reduced research on ecosystems of concern. This research is a 
        critical component of efforts to restore important national 
        resources, such as the Everglades and the Chesapeake Bay. The 
        Arctic ecosystem research and monitoring program addresses the 
        needs of Native communities, and also promotes public health 
        throughout the U.S. by monitoring avian influenza, which can 
        spread to humans.

    Although we are pleased that the Invasive Species Program was 
spared from large cuts in the administration's request, we urge 
Congress to reject the deep cuts to other parts of the Ecosystems 
mission area.
    The President has also proposed cuts to climate research. The 
National and Regional Climate Adaptation Science Centers (formerly 
regional Climate Science Centers) are responsible for developing the 
science and tools to address the effects of climate change on land, 
water, wildlife, fish, ecosystems, and communities. These centers play 
a vital role in addressing the unique weather patterns of different 
areas across the country and are slated for a 49 percent budget cut and 
possible closures. This is irresponsible.
    We request Congress to fund the agency at $1.2 billion in fiscal 
year 2019, with $174 million for the Ecosystems mission area and 
restored funding for the Biological Survey Unit, CRUs, and the climate 
science centers.
                    environmental protection agency
    Funding for EPA Science and Technology supports valuable research 
used to identify and mitigate environmental problems facing our Nation. 
EPA research informs decisions made by public health and safety 
managers, natural resource managers, businesses, and other stakeholders 
concerned about air and water pollution, human health, and land 
management and restoration. In short, this program provides the 
scientific basis upon which EPA monitoring and enforcement programs are 
built.
    Despite the important role of the Science and Technology 
appropriation, the proposed funding level for fiscal year 2018 is 
roughly half of what the program received in fiscal year 2002. The EPA 
Science Advisory Board has expressed concern repeatedly about the long-
term decline in research funding at EPA. ``These limitations pose a 
vulnerability for EPA at a time when the agency faces significant 
science questions with long-term implications for protecting the 
environment and public health.''
    We are especially concerned to see the proposed eliminations of the 
Science to Achieve Results (STAR) Research Grants and climate change 
research. These programs are important parts of the Federal 
Government's ability to ensure clean air and water for its citizens.
    We ask Congress to provide at least $760.0 million in fiscal year 
2019 to support scientific research at the EPA.
                     u.s. fish and wildlife service
    The President's budget request eliminates the Science Support 
program within USFWS. This program provides scientific information 
needed by USFWS, such as research on conservation of priority species 
prior to Endangered Species Act listing, the impacts of energy 
production on wildlife, and best management practices for combating 
invasive species. For this program to be eliminated in conjunction with 
significant reductions in USGS biological research means that USFWS 
will not have access to the unbiased data required to fulfill its 
mission to conserve, protect, and enhance the living resources of the 
United States for the benefit of the American people.
                        smithsonian institution
    The Smithsonian Institution, particularly the National Museum of 
Natural History, is a valuable Federal partner in the curation and 
research on scientific specimens. The scientific experts at the 
National Museum of Natural History care for 140 million specimens and 
ensure the strategic growth of this national treasure. To increase the 
availability of these scientific resources to researchers, educators, 
other Federal agencies, and the public, Smithsonian is working on a 
multi-year effort to digitize its collections. That effort will 
substantially increase the scientific uses of these collections.
    The National Museum of Natural History has also been working to 
strengthen curatorial and research staffing and to backfill positions 
left open by retirements and budget constraints. The current staffing 
level is insufficient to provide optimal care for the collections. 
Future curatorial and collections management staffing levels may be 
further jeopardized given the proposed funding cuts at science 
agencies, such as the USGS, that support staff positions at the 
National Museum of Natural History.
    We urge Congress to make additional investments in the National 
Museum of Natural History that will allow the museum to undertake 
critical collections care, make needed technology upgrades, and conduct 
cutting edge research.
                               conclusion
    We urge Congress to reject the administration's budget request for 
fiscal year 2019 and continue the bipartisan tradition of investing in 
our Nation's scientific capacity.
    Thank you for your thoughtful consideration of this request.

    [This statement was submitted by Jyotsna Pandey, Ph.D., Public 
Policy Manager and Robert Gropp, Ph.D., Co-Executive Director.]
                                 ______
                                 
   Prepared Statement of the American Society for the Prevention of 
                           Cruelty to Animals
    On behalf of our 2.5 million supporters, the American Society for 
the Prevention of Cruelty to Animals (ASPCA) appreciates this 
opportunity to submit testimony to the Senate Appropriations 
Subcommittee on Interior, Environment and Related Agencies. Founded in 
1866, the ASPCA is the first humane organization established in the 
Americas and serves as the Nation's leading voice for animal welfare. 
We request that the subcommittee consider the following concerns when 
making fiscal year 2019 appropriations.
                        wild horses and the blm
    In the 45 years since Congress charged the Bureau of Land 
Management (BLM) with protecting our country's wild horses and burros, 
Americans have witnessed the agency's Wild Horse and Burro Program 
deteriorate into a continuous cycle of costly roundups and removals 
with little regard for the preservation-focused mandate specified in 
the Wild Free-Roaming Horses and Burros Act or on-range management of 
the herds. Our wild horses and burros should be revered as historical 
icons, treated humanely, and managed fairly and respectfully on our 
public lands. We appreciate BLM's recognition of the need for reform in 
the Wild Horse and Burro Program and are encouraged by their 
recognition of the need for long-term strategies for on-range 
management that will require substantial front loaded investment of 
resources. This approach will, within a few years, provide significant 
relief for the range and enable all the stakeholders to come together 
around a single solution. It is critical for the agency to commit to 
non-lethal management rather than pressing to relax legal restrictions 
on sale to slaughter or mass killing of healthy horses. It is also 
critical for the agency to augment its capacity for gathers and focus 
its attention on the high priority HMAs where horses, wildlife and the 
range are most at risk. It is also important that robust fertility 
control work begin immediately.
Prohibit BLM funding for euthanasia or sale of wild horses as 
        management methods
    In December 2004, Congress passed the Consolidated Appropriations 
Act for fiscal year 2005, which amended the Wild Free-Roaming Horses 
and Burros Act to allow for the sale of certain wild horses and burros. 
This instant transfer of title from the U.S. Government to the 
individual purchaser strips key protections for wild mustangs and 
burros making them vulnerable to the still-thriving horse slaughter 
industry. Additionally, we take issue with the characterization of 
large-scale killing of healthy wild horses as ``euthanasia''. The 
agency currently has the authority to euthanize horses who are old, 
sick or injured, but not healthy horses as a means of population 
control. If allowed to destroy healthy horses, this would most likely 
be accomplished using gunshot from some distance and does not qualify 
as humane euthanasia.
    The fiscal year 2018 and fiscal year 2019 Presidential budgets 
request authorization to use lethal management techniques for wild 
horses and burros. This is problematic not only because of the method 
by which animals would likely be killed, but also because if this 
option becomes available there is no end to it in sight. In 2007 the 
number of wild equids on the range was very near the agency's appointed 
national appropriate management level (AML). The failure to employ 
available and effective fertility control methods has led to the 
situation we face today. BLM's history of ineffective on-range 
management of horses makes it likely that if lethal techniques are made 
available, they will become the status quo management option, locking 
the agency into a cycle of killing.
    Instead, the ASPCA has joined with other organizations to offer a 
humane solution that enables the agency to combine non-lethal 
strategies (roundup and removal to sanctuaries, fertility control, and 
adoption augmentation) to bring the population to the agency's desired 
AML in a 10-12 year timeframe. We provided this proposal to the 
Secretary of the Interior last fall (2017) and urge Congress to work 
with the Agency to fund this approach.
    In past appropriations bills, Congress has repeatedly confirmed its 
opposition to the slaughter of our Nation's wild horses and burros; it 
did so most recently in the fiscal year 2018 Consolidated 
Appropriations Act, the current funding vehicle for the Department of 
Interior. The ASPCA requests that the subcommittee continue to include 
the following language: ``Appropriations herein made shall not be 
available for the destruction of healthy, unadopted, wild horses and 
burros in the care of the Bureau or its contractors or for the sale of 
wild horses and burros that results in their destruction for processing 
into commercial products.''
Implement existing, and explore new, methods for on-range and off-range 
        management
    The Wild Free-Roaming Horses and Burros Act makes clear that on-
the-range management should be preferred over roundup and removal as 
the primary method of wild horse management. BLM has multiple options 
at its disposal to follow that guidance in the Act. Effective, humane 
management will require a multifaceted approach. We suggest that the 
following strategies be implemented simultaneously:

  --Conduct targeted gathers and removals at densely populated Herd 
        Management Areas (HMAs) to reduce herd size in the short term.
  --Treat gathered horses with fertility control prior to being 
        returned to the range. This program should continue until 90 
        percent of mares on the range have been treated, followed by 
        continued consistent fertility control.
  --Relocate horses in holding facilities, and those taken off the 
        range, to large cost-effective pasture facilities funded 
        through public-private partnerships.
  --Promote adoptions in order to reduce captive populations and costs.

    The four tiers of this approach--gathers and removals, fertility 
treatment, public-private partnerships, and adoptions--are crucial to 
the ultimate success of the program. Failure to effectively implement 
any part of this program jeopardizes the success of a holistic and 
sustainable wild horse and burro program. If employed correctly, this 
plan will result in a natural population decline over the next two 
decades. We support this humane, effective, and financially sustainable 
approach.
    The ASPCA realizes that population control is necessary in some 
circumstances, and we appreciate BLM's public acknowledgement that 
fertility control methods must be a significant part of wild horse 
population management. Porcine Zona Pellucida (PZP), the contraceptive 
vaccine that has been used for decades to manage horse and deer 
populations, is registered by EPA and commercially available. In fiscal 
year 2018, the BLM administered 777 fertility control treatments.\1\ If 
PZP is to be a serious part of the solution, its use must be increased 
to levels that will significantly impact population growth. A 2013 
National Academy of Sciences report noted the promising capabilities of 
this and other forms of chemical fertility control.\2\ The ASPCA 
recommends that the subcommittee direct BLM to prioritize the use of 
fertility control when necessary to stem the population growth of wild 
horse or burro herds.
---------------------------------------------------------------------------
    \1\ ``Program Data.'' U.S. Department of the Interior, Bureau of 
Land Management. April 27, 2018. https://www.blm.gov/programs/wild-
horse-and-burro/about-the-program/program-data.
    \2\ ``Using Science to Improve the BLM Wild Horse and Burro 
Program: A Way Forward.'' National Research Council. The National 
Academies Press, 2013.
---------------------------------------------------------------------------
    The administration's fiscal year 2019 budget request appeals for 
the authority to use a ``full suite of tools'' to manage horses. If 
combined with the agency's recent report to Congress including the 
suggestion that it is appropriate to sell or transfer thousands of our 
wild mustangs to other countries, where they would lose their protected 
status, we see cause for concern. We encourage congress to prohibit the 
shipment of wild horses across the borders where they may fall prey to 
slaughter and cruelty. The ASPCA strongly encourages the subcommittee 
to prioritize and fund humane on-range management methods as it crafts 
the fiscal year 2019 Interior appropriations bill.

    [This statement was submitted by Nancy Perry, Senior Vice 
President, Government Relations.]
                                 ______
                                 
 Prepared Statement of the Andean Tapir Fund/Wild Horse and Burro Fund

April 2, 2018

Dear Senators:

    Achieving justice for our wild horses and burros depends on Federal 
officials exercising the authority to legally reduce private, usually 
corporate, domestic livestock grazing in the wild horses' and wild 
burros' legal areas, whether on BLM or USFS lands. Such exercise would 
be legally covered under 43 Code of Federal Regulations (C.F.R.) 
4710.3-2 and 43 C.F.R. 4710.5(a). In particular 43 C.F.R. 4710.5 
clearly states that the Bureau of Land Management can legally reduce or 
even close livestock grazing in order ``to provide habitat for wild 
horses and burros.''
    Our Nation's present Herd Management Areas (BLM) and Territories 
(U.S. Forest Service) for wild horses and wild burros represent only 
about one-half of the original Herd Areas and Territories as far as 
their size, or acreage. Indeed, the United States Government has 
eliminated wild horses from many millions of acres and has then added 
further injustice by allocating only small fractions of the grazing 
resource to the wild horses within their remaining occupied areas. 
Generally it is getting harder to find any maps of the original Herd 
Areas probably because both officials and benefactors in wild horse 
elimination or marginalization do not want the greater truth to be 
known by the public.
    In America today, the unique and legally defined areas in which 
wild horses should be allowed to live unmolested are decreasing both in 
number and in size. And the horses' access to resources needed for 
survival are likewise being reduced. Both national laws, and laws of 
basic decency, mandate that the present wild horse populations be 
restored to higher, more genetically viable levels. Today, the 
upgrading of America's wild horse herds and habitats is imperative to 
insure their long-term viability.
    Higher, more genetically viable population levels are required; and 
the proven principles of Reserve Design should be employed to allow for 
the natural adaptation of wild horses, both individually and 
collectively, within their inhabited ecosystems.
    My recommendations include an enlightened phasing in of progressive 
changes whereby the major environmental disturbance factors are reduced 
so that a more truly natural balance among all appropriate species can 
be achieved within a positively regarded wild-horse-containing 
ecosystem. Too often wild horses are maligned by established interests 
accustomed to monopolizing (or nearly so) the natural resources of any 
given area. These profit-seeking interests will filter and even twist 
what purports to be objective field observations so as to discredit 
their target: the wild horses. Their underlying motivation is not to 
realize the Greater Truth and Justice concerning these animals and the 
life community, but rather to perpetuate or even expand their 
unquestioned exploitation of the public lands for their own private 
benefit, or what they believe to be so.
    Once larger more truly viable herds and habitats are established, 
various means exist for limiting the increase and expansion of a herd. 
One of the chief of which is to allow the mature social units, or wild 
horse bands, to establish themselves over the generations. The older 
dominant stallions and mares can and do inhibit reproduction in younger 
males and females. Another means concerns natural predators. These act 
as significant checks and balances--but are by no means the sole 
limiting factors for wild horses, wild burros, or other prey species. 
It is possible to design a reserve with natural boundaries or barriers 
to constrain herd activities or to opt for artificial barriers, bearing 
in mind that the reserve itself must contain sufficient appropriate 
habitat to provide all the needs of a viably sized, vigorous and 
dynamic wild horse population. The International Union for Conservation 
of Nature (IUCN) indicates this should be around 2,500 individuals 
(Duncan 1992), though BLM policies are grounded on the supposition 
numbers should not fall below 50 actively breeding adults in a given 
population, which would entail a total population of 200 or more. A 
well-planned reserve would ensure appropriate niche space and forage 
abundance and availability to govern a balanced herd size, but 
management must allow natural processes to operate over significant 
periods for ecological harmonization to take place.
    It has been proven that the mass removals of wild horses, e.g. BLM 
helicopter roundups removing half or even 90 percent or more of the 
horses, result in ``compensatory reproduction'' among those horses who 
remain (Jenkins & Ashley 2003). These traumatized horses then go into a 
desperate survival mode and reproduce at a higher rate because they 
feel threatened. Also this is a consequence of their lacking a stable 
social structure in the form of mature bands. This sort of behavior is 
observed among many species after sustaining severe reduction in 
numbers and disorganization of their societies. Drastic herd reduction 
results in a tragic loss of both social and resource interaction 
memories. And this, in turn, results in larger, more chaotic, and less 
harmonious populations. Perhaps, the latter is the devious design of 
the wild horses' human enemies.
    Although the following suggestion seems like pandering to some of 
the wild horses' traditional enemies, I propose the following for your 
consideration: Create financial incentives for livestock grazing permit 
holders to voluntarily include wild horses upon the lands they graze 
and to decrease equivalent numbers of livestock. This idea has been 
proposed by rancher and wild horse advocate Lynn McCormick of Colorado. 
Conflicts between public and private interests are increasing as 
resources dwindle and human populations (and demand for recreation) 
increase. Certain solid studies indicate that ranching in much of the 
arid to semi-arid West (and elsewhere) is generally unprofitable and 
that net profit is typically only between $50 and $100 dollars per 
animal per year (Torell et al. 2012, Torell & Kincaid 1996, Taylor et 
al. 2004). This situation adds pressure to increase livestock numbers 
and/or weight/size, demonize perceived competitors (wild horses/burros, 
wildlife), and overlook trespass grazing (see revealing report: United 
States Government Accountability Office 2016).
    Ms. McCormick suggests paying willing grazing permit holders some 
agreed and rational rate, say one U.S. dollar per day per wild horse on 
a year-round basis, in order to manage some reasonable number of wild 
horses within their grazing permit area. This would represent a 
substantial savings to taxpayers over current off-range holding costs. 
In exchange, permit holders would decrease an equivalent number of 
domestic livestock from the same grazing permit area. This system could 
be based on standard Animal Unit Months (AUMs) used in calculating 
sustainable grazing pressure, and each agreement would be independently 
tailored to suit each rancher's situation and one option would be to 
have this program entirely voluntary. This would entail no or only 
minimal extra work for the rancher, and allow permit holders to realize 
higher profits than they otherwise would from their public lands 
grazing permits. It would also save U.S. taxpayers significant amounts 
of money while resulting in the better monitoring and managing of 
shared habitat. It would keep wild horses where they belong on the 
range as wild animals. Though this alternative would rankle with those 
with a keener sense of justice, it is one that might just work in the 
immediate future and help many wild horses as well as wild burros 
regain their rightful place in the wild.
    Today, an inordinate percentage of the forage and water that is so 
important to entire ecosystems is diverted to support a relative few, 
often ecologically incongruous livestock operations, whose owners often 
describe people on welfare as ``unjustly enjoying entitlements,'' while 
overlooking the immense entitlements and subsidies needed to continue 
propping up their ranching way of life at public expense. Much time and 
taxpayer expense is also diverted to accommodate and then mitigate the 
ill-effects of these shared and often competing uses of our public 
lands.
    More hopefully, most of the wild horse and wild burro herds today 
have some type of citizen fan club composed of passionately protective 
people. Many are very proactive in collaborating with BLM and U.S. 
Forest Service officials to perform volunteer work and provide people 
trained for citizen science-related monitoring, record keeping and 
documentation, etc. Such collaborations can ease tension while taking 
pressure off decreasing Federal budgets and encouraging better public 
relations on our public lands, and should be encouraged and expanded.

    Below for your consideration please find elements of a:
reserve design proposal for restoring america's wild horses and burros 
    to long-term viable levels in long-term viable habitats and as 
                    naturally self-stabilizing herds
    The small number of horses and burros our Government intends to 
leave on each of the 179 remaining. BLM-designated areas will result--
indeed, has already resulted--in an over fragmentation of populations 
that jeopardizes their long-term survival and the preservation of their 
true vigor in the wild.
    To remedy this, Americans must immediately and audaciously respond 
with a well-conceived plan for change. As a wildlife ecologist and 
fourth-generation Nevadan personally familiar with the wild horses and 
burros of the West, I have come up with such a plan--a way to restore 
these animals, proven to be returned-native species, to viable natural 
herds throughout the West. My plan entails ending the cruel, disruptive 
roundups and reproductive manipulations--practices that make a mockery 
of the 1971 Wild Free-Roaming Horses and Burros Act and cause untold 
suffering and death to these freedom-loving creatures, while 
compromising their long-term survival in the wild.
    Wildlife, wilderness, and conservation professionals call this 
strategy Reserve Design. Reserve Design combines ecological, 
biological, social, and political considerations in order to achieve 
desired results. Basically, wild horse/burro Reserve Design involves 
the setting aside of areas of wild-equid-containing, year-round habitat 
where human intervention is buffered against and/or strictly 
controlled, and where natural processes are allowed to reestablish 
natural checks and balances. In this way, a significant degree of 
internal harmony is achieved for all diverse, yet interrelated, species 
living in the ecosystem.

    Critical steps for realizing Reserve Design in various wild horse & 
wild burro habitats in the project:

  --Properly identify the long-term survival requirements for viable 
        population levels of the principal equine species to be 
        accommodated in each reserve. Our chief focus would be to 
        promote a wild horse/burro-containing ecosystem, where all 
        species allowed to adapt naturally over the generations.
  --Conscientiously identify appropriate geographical areas suitable 
        for the implementation of wild horse/burro-containing reserves. 
        This would involve travel to, on-ground inspection of, and 
        flights over, a wide variety of places throughout the West.
  --Wherever possible, wisely incorporate natural equid predators (such 
        as puma, bear, and wolf) that would limit, tone and strengthen 
        wild horse and burro populations.
  --Wherever possible, wisely incorporate natural barriers that would 
        limit the ingress and/or the egress of certain species, 
        including the wild horses and burros. This would avoid 
        conflicts and set up conditions for the natural self-regulation 
        of populations.
  --Identify where buffer zones, artificial barriers or other means of 
        impeding movements in and out of a reserve should be 
        established in order to keep the species in question from 
        coming into conflict with humans. Buffer zones possibly 
        involving non-injurious means of ``adverse conditioning'' could 
        be employed as well as ``positive reinforcement'' means of 
        encouraging the wild equids to stay within the reserve. Also, 
        ``semi-permeable barriers'' that do not restrict most species 
        but do prevent equids from passing out of the reserve may be 
        used. These means would be described in practical detail.
  --Identify the presence and abundance of necessary food, water, 
        shelter, mineral procurement sites, elevation gradients for 
        seasonal migrations, etc., that will accommodate the long-term 
        habitat needs of viable wild equid populations and allow the 
        natural rest-rotation of grazing and foraging between the 
        natural subdivisions of the reserve. Fences within the reserve 
        that impede the free-roaming lifestyle of the wild equids would 
        be located and their removal planned. This would also involve 
        determining the intrinsic Carrying Capacity of the land in 
        question that would be based on the Productivity of forage 
        adequate to a viable population of wild horses/burros found in 
        this region and taking into account other survival factors such 
        as water, shelter, breeding and nurturing habitat, seasonal 
        migrations, mineral, and existing threats to the wild equids.
  --Identify geographical regions whose human inhabitants are benignly 
        disposed toward the creation and long-term implementation of 
        extensive, ecologically balanced wild horse/burro-containing 
        reserves. This would involve travelling and setting up meetings 
        with pertinent individuals, town and government officials, etc.
  --Identify ways of and benefits from implementing Reserve Design that 
        would result in win-win relationships centered on the presence 
        of wild horses and burros. Ecotourism is one major possibility 
        here. Restoring native ecosystems, including soils and native 
        species, would be another major benefit. The reduction of 
        flammable vegetation through equid grazing and the restoration 
        of hydrographic basins through enrichment of soils would be 
        other major positive contributions of the wild horses and 
        burros. Indeed, the restoration of the ``equid element'' in 
        North America is crucial to combating life-disrupting Global 
        Warming itself.
  --Identify how best to educate the public concerning the many ways 
        that horses and burros, as ecological ``climax'' species, have 
        of self-limiting their own populations once their respective 
        ecological niches are filled. This knowledge is key to our 
        realizing a truly humane relationship with wild horses and 
        burros in America, one that does justice to these magnificent 
        animals and allows them to fulfill their important role within 
        the life community.

    This list does not exhaust all the considerations for soundly 
establishing Reserve Design that should be included in this enlightened 
plan for the treasured equid herds and their habitats throughout the 
West. Anxiously awaiting your response, Sincerely, Craig C. Downer, 
Wildlife Ecologist, President: Andean Tapir Fund/Wild Horse and Burro 
Fund, P.O. Box 456, Minden, NV 89423. Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7714141318001912053716181b5914181a">[email&#160;protected]</a> Cc: 
Secretary of the Interior, BLM National Director, U.S. Forest Service 
National Director, and other interested parties.
    References Cited in Letter: Duncan, P. 1992. Zebras, Asses, and 
Horses: An Action Plan for the Conservation of Wild Equids. IUCN. 
Jenkins, S.H. and M.C. Ashley, 2003. Wild Horse, Equus caballus and 
Allies. Ch. 53 In: Wild Mammals of North America: Biology, Management 
and Conservation. 2nd Edition. The John Hopkins University Press. 
Taylor, D.T; R.H. Coupal; T. Foulke & J.G. Thompson. 2004 (Oct.). The 
Economic Importance of Livestock Grazing on BLM Land in Fremont County 
Wyoming. Univ. of Wyoming, Dept. of Agri. & Appl. Economics. Torell, 
L.A., B. Dixon & D. McCullom. 2012 (Oct.). The Market-Value of Ranches 
and Grazing Permits in New Mexico, 1996 to 2010. New Mexico State 
Univ., http://aces.nmsu.edu/pubs/research/ecnomics/RR779.pdf. Torell, 
L.A. & M.E. Kincaid. 1996. Public Land policy and the market value of 
New Mexico ranches, 1979-94. Rangeland Ecology & Management/Journal of 
Range Management Archives. Univ. of Arizona. https://
journals.uair.arizona.edu/index.php/jrm/articles/view/9121. United 
States Government Accountability Office (GAO). 2016 (July). 
Unauthorized Grazing: Actions Needed to Improve Tracking and Deterrence 
Efforts. Report to the Committee on Natural Resources, House of 
Representatives. GAO-16-559. 64 pages. https://www.peer.org/assets/
docs/blm/7_18_17_GAO_grazing%20Trespass-Report.pdf.
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute
    The Animal Welfare Institute, a national animal welfare advocacy 
nonprofit organization, asks the subcommittee to reject the 
administration's fiscal year 2019 budget, which represents a wholesale 
abdication of responsibility to protect the Nation's wildlife and the 
environment.
 bureau of land management (blm)--wild free-roaming horses and burros 
                                  act
    The BLM continues to mismanage America's wild horses and burros, 
emphasizing their removal from public lands instead of implementing 
humane solutions, including the use of immuno-contraception to control 
fertility rates, to manage the animals on the range. We ask the 
Committee to urge the agency to continue exploring more effective and 
longer lasting fertility control agents. Moreover, we strongly support 
the continued inclusion of the Committee's ``no-kill'' language to 
ensure that BLM does not kill healthy wild horses and burros: 
``Appropriations herein made shall not be available for the destruction 
of healthy, unadopted, wild horses and burros in the case of the Bureau 
or its contractors or for the sale of wild horses and burros that 
results in their destruction for processing into commercial products.''
                   anti-endangered species act riders
    We urge you to reject any riders that would undermine the 
Endangered Species Act (ESA), including both those that legislate 
species-specific listing decisions and those that weaken core tenets of 
the ESA. In 1973, when an increasing number of plant and animal species 
were on the decline, Congress passed the Endangered Species Act with 
overwhelming bipartisan support. This law is just as important today as 
it was then, if not more so. As a result of human impacts on our 
environment, species today are disappearing at the highest rate since 
the extinction of the dinosaurs. In addition, undermining the ESA does 
not reflect the values of most Americans, who treasure America's 
wildlife, and the law itself enjoys the support of 90 percent of 
American voters (Tulchin Research, 2015). We specifically ask that you 
block any riders that would remove Federal protections for gray wolves. 
Decisions about protecting species under the Endangered Species Act 
should be made based upon science, and judicial review should remain 
available for challenging such decisions. Using legislation to delist a 
species is contrary to Congress' intent that the best available science 
underpin decisions made under this bedrock conservation law.
        fish and wildlife service programs: ecological services
    We are deeply concerned by the reduction in funding for Ecological 
Services, and urge the Committee to commit the maximum possible funding 
to this crucial program area responsible for implementing the 
Endangered Species Act. The fiscal year 2018 funding level is barely 
sufficient for the agency to carry out basic administrative functions 
required under the ESA, and does not enable the staffing necessary to 
address the backlog of hundreds of species awaiting listing decisions 
or other time-sensitive actions mandated by the law. In the decades 
since the ESA was enacted, we have seen irrefutable proof that this law 
works. Ninety-nine percent of species listed under the ESA have been 
spared from extinction. Furthermore, accusations of regulatory burden 
and impediments to industry are unfounded. An analysis published in 
Proceedings of the National Academy of Sciences (PNAS) revealed that 
out of over 88,000 Section 7 consultations that the FWS conducted 
between 2008 and 2015, not a single project was stopped as a result of 
the agency finding that it would jeopardize a listed species or cause 
adverse modification to critical habitat. However, this record of 
success can only be maintained if the law is funded and enforced fully, 
and we urge the Committee to allocate the amount necessary to do so.
             fws programs: national wildlife refuge system
    We request that the Committee maintain fiscal year 2018 funding 
levels, at minimum, for the National Wildlife Refuge System, given the 
crucial role that refuges across the country play in species 
conservation and nonconsumptive outdoor recreation. Furthermore, given 
the NWRS' stated purpose of conserving wildlife (including species 
threatened with extinction), and to ensure that these refuges are safe 
for the millions of Americans who visit them, we ask the Committee to 
maintain the language in its fiscal year 2018 report (H. Rpt. 115-238) 
regarding enforcement of a previous directive to institute signage on 
refuges where body-gripping traps are used, and to post information 
about trapping on NWRS websites. Such signage and other public alerts 
are needed to promote public safety and greater transparency regarding 
the use of such devices on wildlife refuges. Currently, over half of 
the System's 563 refuges allow trapping. Steel-jaw leghold traps, 
Conibear traps, and strangulation snares pose distinct risks to humans, 
wildlife, and other animals (e.g., pets) given their indiscriminate 
nature and the trauma such devices inflict upon those caught in these 
traps.
                fws programs: office of law enforcement
    We urge the Committee to maintain at least the fiscal year 2018 
enacted level for the Office of Law Enforcement at FWS. The OLE is one 
of the most important lines of defense for wildlife both at home and 
abroad. It enforces over a dozen Federal wildlife and conservation laws 
that frequently impact both domestic and global security. Poaching is a 
brutal, bloody practice. Animals are shot with military-grade weapons, 
and tusks and horns are harvested by cutting the faces off of the 
sometimes still-living animals. Tight-knit herds are torn apart and 
babies orphaned or even killed. Poaching is also a national security 
concern. Extremist groups, terrorist organizations, and other criminal 
networks use poaching to finance their military operations. Wildlife 
trafficking now produces profits of upwards of $20 billion a year, 
placing it among the top five criminal enterprises (alongside 
narcotics, human trafficking, weapons, and counter-feiting). OLE is a 
crucial line of defense in the fight against poaching and the 
trafficking of wildlife parts.
                  fws programs: international affairs
    We urge the Committee to fund all program components within 
International Affairs at fiscal year 2018 levels or higher. While cuts 
were not proposed to all IA program components in the fiscal year 2019 
budget, we oppose the overall reduction in funds. The activities 
undertaken by IA build capacity and develop partnerships with other 
nations for species conservation, which enables maximum cooperation in 
fighting the terrorist organizations and international crime syndicates 
that profit from wildlife trafficking. U.S. involvement in combating 
wildlife trafficking is essential for species conservation and national 
and global security, as outlined in the National Strategy for Combating 
Wildlife Trafficking and the associated Implementation Plan. Congress 
has demonstrated a strong bipartisan commitment to this work and it is 
important to ensure adequate funding to continue implementing Public 
Law 114-231, the Eliminate, Neutralize, and Disrupt (END) Wildlife 
Trafficking Act of 2016, which provides financial assistance to 
projects in foreign countries that counter wildlife trafficking 
activities. With poaching and illegal wildlife trade reaching 
unprecedented levels, governments and private entities here and abroad 
have turned to FWS for leadership in coordinating, guiding, and 
implementing a response. Additionally, adequate funding for 
implementation of agreements made under the Convention on International 
Trade in Endangered Species of Wild Fauna and Flora (CITES) facilitates 
international cooperation and solidifies the U.S.'s leadership role on 
conservation issues.
         fws programs: multinational species conservation fund
    We urge the Committee not to implement cuts to the Multinational 
Species Conservation Fund, as requested in the fiscal year 2019 budget, 
but rather maintain at least fiscal year 2018 funding levels. The MSCF 
is comprised of five Congressionally established funds that support 
public-private partnerships for conservation projects protecting 
tigers, African and Asian elephants, rhinos, great apes, and marine 
turtles in their native habitats. Since 1989, these programs--which 
enjoy longstanding bipartisan support--have awarded more than 3,500 
grants, focusing on key species and priority regions to ensure the 
protection of some of the world's most endangered and treasured 
animals. Administrative costs are low, with more than 95 percent of the 
fiscal year 2016 appropriation going directly to grants. Full funding 
of this popular, targeted, and efficient program is imperative to 
maintain the consistency and efficacy of the projects it supports.
                       white-nose syndrome (wns)
  --U.S. Fish and Wildlife Service.--$6.5 million total; $2 million 
        restored to Endangered Species Recovery; $4.5 million in 
        Science Support
  --U.S. Geological Survey.--$1.6 million in Ecosystems/Wildlife
  --National Park Service.--$3,155,000 in Natural Resource Stewardship
  --Bureau of Land Management.--$500,000
  --U.S. Forest Service.--$2.5 million, Research & Development; 
        $500,000, Forest Systems.

    Twelve years after the first-known observation of white-nose 
syndrome, this bat disease remains at the heart of North America's most 
precipitous wildlife die-off of the past century, but Federal agencies 
and their partners are making progress in addressing this crisis. 
Caused by an invasive species of fungus, Pseudogymnoascus destructans 
(Pd), WNS has killed more than 6 million bats, and has spread from its 
first site in upstate New York to 32 States and 5 Canadian provinces. 
Mortality has been so severe that some populations have declined by 
over 90 percent. WNS has struck nine species, including the federally 
endangered Indiana and gray bats. The disease is also responsible for 
the population crash of the northern long-eared bat, leading to its 
2015 designation as threatened under the Endangered Species Act.
    In the last few years, several events have taken place that are 
significant for the WNS outlook. First is the discovery of WNS and Pd 
in Washington State last year, the first known incidence of WNS or Pd 
in western North America, occurring 1,300 miles from the previous 
westernmost detection of the disease or fungus. Second is the discovery 
of Pd in the panhandle of Texas in 2017 and more recently in central 
Texas. Texas has the greatest diversity of bat species of any U.S. 
State. It is also located at the intersection of the ranges of eastern, 
southern, and western bat species. Two of these species have extensive 
distributions in the western United States and Central America. Third 
is the discovery of the first southeastern bat (Myotis austroriparius) 
with WNS, adding another species to the list of those threatened by the 
disease. Finally, fourth is the recent discovery of WNS in the State of 
Kansas, home to 15 species of bats, including big brown bats, which are 
known to eat about one-third of their body weight in insects each 
night. If WNS were to spread further, the number of species and 
ecosystems affected by the disease would escalate. Moreover, bat 
ecology in the West poses additional challenges for managing the 
disease. Western bat species roost and hibernate singly or in small 
groups, making the bats hard to locate for surveillance or treatment 
purposes. This is compounded by the difficulty of finding or accessing 
potential bat roosts or hibernacula in the West's mountainous, rugged 
topography.
    The loss of bats from WNS is expected to have serious implications 
for our economy and environment. Bats are primary predators of night-
flying insects, including agricultural pests that attack corn, 
soybeans, cotton, and other crops. By eating these pests, bats reduce 
the need for pesticides and lower food production costs; in this way, 
bats save U.S. farmers an average of $22.9 billion per year. Bats also 
perform ecological services for 66 plant species that produce timber.
    In July 2017, USFWS announced a grant of $1 million to States 
affected by WNS, bringing its total funding for States with WNS to $7 
million over the last 8 years. In addition to making grants to States 
and other entities for WNS research, monitoring, and management, the 
U.S. Fish and Wildlife Service, the lead agency for WNS response, 
created a new WNS funding initiative in partnership of FWS, the 
National Fish and Wildlife Foundation, and U.S. Forest Service: the 
Bats for the Future Fund. The BFF provides grants for developing and 
deploying WNS treatments. NFWF administers the fund and match 
government contributions with private-sector monies. FWS provided $1 
million to launch BFF. In collaboration with partners, the agency also 
began developing a structured decisionmaking model for prioritizing WNS 
scientific efforts. In this way, FWS hopes to help Federal, State, and 
other entities working on WNS get the best results possible with 
limited funds. For example, NFWF/BFF has been supporting research on 
whether UV light can be used as a treatment for bats suffering from 
white-nose syndrome. Research to date has found extreme sensitivity to 
UV light in the fungus. This study will measure the survival of little 
brown bats during hibernation after being treated with UV-light 
compared to control groups. The researchers are also exploring whether 
there are any non-target effects by measuring changes in the bat skin 
microbiome (both fungal and bacterial communities).
    The U.S. Geological Survey continues its role in WNS research and 
data-gathering. The agency supports state WNS and Pd surveillance, 
particularly in regions on the edge of the disease spread. Confirming a 
diagnosis of WNS requires both the analysis of bat skin tissue samples 
by culture or molecular methods to detect the fungus AND viewing of 
samples under a microscope by a trained pathologist to document signs 
of skin infection. USGS hired a coordinator for NABat, with additional 
funding from FWS. The agency is validating software for acoustic 
detection of bats, which in the western United States is one of the 
only bat-survey methods available. This supports not only the goals of 
NABat but also FWS's requirements for monitoring listed bat species. 
Topics of current USGS WNS-related research include: the fungi normally 
found on various species of bats and possible correlations to the 
differential WNS susceptibility of those species; determining ideal 
environmental conditions for bat refugia in case populations must be 
taken from the wild to ensure their survival; and evolving hibernation 
behavior in post-WNS bats. USGS staff also are lending expertise to the 
development of the structured decisionmaking model led by FWS.
    The National Park Service monitors bat populations on its lands, 
both in post-WNS areas to assess the disease's impacts and species' 
survival, and in unaffected areas to gather baseline data on bat 
populations and ecology. NPS's Bat Acoustic Survey Database is a 
repository for acoustic monitoring data gathered from these activities, 
providing guidance for collecting acoustic data, allowing for 
standardization and data comparability across the Service. Furthermore, 
the data-base is designed to allow for integration of data into NABat. 
As the Federal agency that welcomes the largest number of visitors 
every year, NPS plays an key role in educating the public about WNS, 
through ranger outreach, visitor infrastructure, and multimedia 
materials. Finally, NPS continues to fund research into WNS.
    Congress has never allocated money for the U.S. Forest Service to 
engage on WNS, despite the fact that since the early days of the crisis 
the agency has contributed proactively to research and on-the-ground 
management to address the disease. Ongoing USFS research includes: DNA 
sequencing of bats across eastern and midwestern States, looking for 
possible adaptive selection of immune systems and comparing them; 
silencing WNS-related genes to increase bat resistance to the disease; 
the effects of UV light to treat WNS-stricken bats; a so-called 
electronic nose to identify WNS and Pd without direct contact with 
bats; and the use of alternate winter roosts to protect tricolored bats 
from WNS. It is clear that the Forest Service has made and continues to 
make major contributions to our understanding, detection, and treatment 
of Pd and WNS, but it has been doing so at the expense of other 
programs. We believe that the redirection of surplus funds from other 
accounts (such Forest Inventory and Analysis), as well as new funds, 
are more than justified.

    [This statement was submitted by Nancy Blaney, Director, Government 
Affairs.]
                                 ______
                                 
Prepared Statement of the Assiniboine and Sioux Tribes of the Fort Peck 
                              Reservation
    The Assiniboine and Sioux Tribes of the Fort Peck Reservation 
thanks the Senate appropriations subcommittee for the opportunity to 
submit written testimony concerning fiscal year 2018 appropriations for 
the Bureau of Indian Affairs (BIA) and Indian Health Service (IHS).
    The Fort Peck Reservation is in northeast Montana, 40 miles west of 
the North Dakota border, and 50 miles south of the Canadian border, 
with the Missouri River defining its southern border. The Reservation 
encompasses over 2 million acres of land. We have approximately 12,000 
enrolled Tribal members, with approximately 7,000 Tribal members living 
on the Reservation. We have a total Reservation population of 
approximately 11,000 people.
    Congress has long recognized that the foundation for economic 
development and prosperity in Indian Country lay in community 
stability, which begins with infrastructure such as safe drinking 
water, roads, public safety, and healthcare. We ask the subcommittee to 
reject the administration's proposal for fiscal year 2019 to reduce 
appropriations for the Bureau of Indian Affairs, Bureau of Indian 
Education and Indian Health Service which are core Federal programs 
serving the Fort Peck Reservation and our members. Reducing funding for 
Federal program funding that at current appropriation levels do not 
fully address the full measure of well documented tribal needs, makes 
little sense.
       fort peck reservation rural water system ($2.634 million)
    We ask the subcommittee to continue to fund the required $2.634 
million for the Operation and Maintenance (OM&R) funding for the Fort 
Peck Reservation Rural Water System for fiscal year 2019, within 
appropriations to the Bureau of Indian Affairs (BIA) Construction 
account. This funding increase, of $234,000, is necessary for this 
System to safely operate with the correct level of staff and operating 
supplies, including chemicals. The System provides drinking water to 
more than 17,000 residents in Northeast Montana and several social and 
governmental agencies, including the BIA Agency Office, Poplar Schools, 
and Poplar hospital, Medicine Lake National Wildlife Refuge, Fort Union 
Trading Post National Historic site, as well as several towns including 
Wolf Point, Frazier, Culbertson, and Medicine Lake.
    The Fort Peck Reservation Rural Water System was authorized by the 
Fort Peck Reservation Rural Water System Act of 2000, Public Law 106-
382. The measure ensures a safe and adequate municipal, rural and 
industrial water supply for the residents of the Fort Peck Indian 
Reservation and assists the citizens of Roosevelt, Sheridan, Daniels, 
and Valley Counties in Montana develop safe and adequate municipal, 
rural and industrial water supplies. As noted in the President's 
budget: ``Groundwater from shallow alluvial aquifers . . . fort the 
municipal systems . . . is generally poor with concentrations of iron, 
manganese, sodium, sulfates, bicarbonates and total dissolved solids 
above recommended standards.'' We must timely remedy this health risk.
    The Project called for the construction of a single treatment plant 
on the Missouri River near Poplar, Montana that distributes water 
through 3,200 miles of pipeline to both the Reservation Tribal system 
and, through three interconnections, to the Dry Prairie system. A 
single water source on the Missouri River replaced nearly two dozen 
individual community water sources ensuring a clean, plentiful and safe 
water supply. The Project is now 75 percent complete and thus the 
corresponding increase in O&M funding is needed. The Fort Peck Tribes 
are very concerned that this major Federal investment and the source of 
the Tribes' drinking water is no threatened by the construction of the 
Keystone Pipeline. This pipeline will be built upstream of the Project 
intake and there is no way that the intake and the water treatment 
plant can continue to do their job if tar sands oil is leaked into the 
Missouri River. We would ask Congress to direct the Interior Department 
to consider the impacts this pipeline poses to the Fort Peck 
Reservation Rural Water System, as it considers the necessary permits 
to construct and operate this oil pipeline.
    The Federal legislation authorizing the Fort Peck Reservation Rural 
Water System requires that the OM&R of the Assiniboine and Sioux Rural 
Water System--the portion on the Reservation that is held in trust by 
the Federal Government--be paid in full by the BIA as a Federal 
obligation. This is consistent with the Federal trust responsibility to 
the Tribes who were promised a permanent home when we agreed to move to 
the Reservation. A permanent home requires safe drinking water. If this 
funding is not made available to the Tribes, this system will have to 
shut down and all of the people, towns, and Federal, Tribal, State, 
public and private agencies, and businesses will have no source of 
drinking water.
    Thus, the $2.634 million requested in fiscal year 2019 for the OM&R 
of this vital infrastructure project is critical. The increased funding 
of $234,000 over the fiscal year 2018 level for the O&M of the Project 
is needed as the Project buildout has increased the service population 
and thus requires additional personnel and other costs (power, 
chemicals, maintenance) to operate the water treatment plant to 
continue to meet this expanded service. If Congress does not 
appropriate the required funds for OM&R, then this System will not 
operate and the people of Northeast Montana will have no drinking 
water.
                         indian health service
    We continue to build government services and programs on the 
Reservation and attract businesses to improve the quality of life for 
our members. The IHS operates two clinics on the Reservation; the Verne 
E. Gibbs IHS Health Center in Poplar, and the Chief Redstone IHS Health 
Center in Wolf Point. In-patient services are available at the non-IHS 
Poplar Community Hospital and Trinity Hospital in Wolf Point. To combat 
the high incidence of heart disease, cancer and diabetes, the Tribes 
supplement health services on the Reservation through our Health 
Promotion and Disease Prevention (HPDP) Wellness Program and the 
Spotted Bull Resource and Recovery Center, which we operate pursuant to 
an ISDA contract with the IHS. A 2016 study found that a barrier to 
healthcare is the failure of the IHS to fill critical healthcare 
provider positions at our two IHS clinics in Wolf Point and Poplar.
    We greatly appreciate the work of this subcommittee to increase the 
level of funding for the Indian Health Service. The healthcare provided 
through these dollars, whether it be direct medical care, dental care, 
substance abuse treatment or purchased/referred care, is saving lives 
and is making a difference on our Reservation. Our members know well 
what it means to have access to care, so the Tribes can only ask that 
you continue to fund these critical programs and reject the 
administration's proposal to reduce IHS.
    We would urge the members of the subcommittee to continue to 
emphasize the need for additional mental health and substance abuse 
treatment. Every day we are seeing the impact of abuse on our 
Reservation, where we continue to be plagued by methamphetamine abuse. 
Meth is cheap and very easy to find on our Reservation. This drug has 
destroyed families and is tearing at the very fabric of our society.
    We need more treatment options and we need mental health 
specialists to be available to as individuals strive to remain clean. 
We need more funding for programs like our Health Promotion and Disease 
Prevention, which is focused on teaching our children about living a 
healthy lifestyle and taking care of their health as young people. 
Finally, we need mental health support for our children, who are 
experiencing the trauma that accompanies living in a household in the 
grip of addiction. We all know the statistics of childhood trauma in 
Indian country and this no different on the Fort Peck Reservation. A 
2016 study indicated that 13 percent of our youth attempted suicide, 
that means that more than 1 in 10 of our children have tried to take 
their own lives. This is unacceptable.
                          bia road maintenance
    We are again appreciative of subcommittee's recognition of the 
importance of transportation safety and economic development on Indian 
reservations by increasing fiscal year 2018 funding for the BIA Road 
Maintenance Program to $34.65 million, an increase of $4.35 million 
above the fiscal year 2017 enacted level. Within the funding increase 
for fiscal year 2018, Congress directs that 1 million be used by Tribes 
and the BIA to improve the condition of unpaved school bus routes. We 
share the subcommittee's concern that poorly maintained BIA System 
routes contribute to higher absenteeism rates among our school 
children, greater wear on our buses and higher maintenance costs, as 
noted in a 2017 GAO Report (No. 17-423).
                               conclusion
    We thank the subcommittee for the opportunity to present testimony 
concerning the Bureau of Indian Affairs and Indian Health Service 
fiscal year 2019 budget.
                                 ______
                                 
Prepared Statement of the Association of Air Pollution Control Agencies
    The Association of Air Pollution Control Agencies (AAPCA) \1\ 
appreciates the opportunity to provide written testimony on the fiscal 
year 2019 proposed budget for U.S. EPA, including State and local air 
quality management grants under the State and Tribal Assistance Grant 
(STAG) program. AAPCA's State and local air agency members believe that 
stable, adequate resources, including state and local air quality 
management grants funded at a level at least equal to fiscal year 2018, 
are critical to core Clean Air Act activities.
---------------------------------------------------------------------------
    \1\ AAPCA is a national, non-profit, consensus-driven organization 
focused on assisting State and local air quality agencies and personnel 
with implementation and technical issues associated with the Federal 
Clean Air Act. AAPCA represents more than 40 State and local air 
agencies, and senior officials from 20 State environmental agencies 
currently sit on the AAPCA Board of Directors. AAPCA is housed in 
Lexington, Kentucky as an affiliate of The Council of State 
Governments. You can find more information about AAPCA at: http://
www.cleanairact.org.
---------------------------------------------------------------------------
    The Consolidated Appropriations Act, 2018 (H.R. 1625), passed on 
March 23 of this year, recognized the need for these investments. H.R. 
1625 funded the STAG program at $3.562 billion, with $1.076 billion 
provided for categorical grants, including $228.219 million for the 
State and Local Air Quality Management grant program, and $75 million 
for the Diesel Emission Reductions Grant program (prior to 
rescissions).\2\
---------------------------------------------------------------------------
    \2\ H.R. 1625--Consolidated Appropriations Act, 2018 (Public Law 
115-141).
---------------------------------------------------------------------------
    Grants to State and local air agencies, including under Sections 
103 and 105 of the Clean Air Act, fund essential activities related to 
planning, modeling, monitoring, training, developing emissions 
inventories and rules, permitting, inspections, and enforcing key 
elements of the National Ambient Air Quality Standards (NAAQS), air 
toxics, and regional haze programs. State and local air agencies have 
found creative ways to amplify these Federal grant resources to fulfill 
core Clean Air Act functions, and, through the framework of cooperative 
Federalism, achieve significant success in virtually every measure of 
air pollution control.\3\
---------------------------------------------------------------------------
    \3\ http://cleanairact.org/documents/GreatestStory4-17-17.pdf.
---------------------------------------------------------------------------
    On February 12, the White House released the President's budget 
proposal for fiscal year 2019.\4\ The budget requests $5.4 billion to 
fund U.S. EPA, approximately a 33-percent decrease from the 
appropriations omnibus that passed on March 23. The budget also 
proposes a nearly 45-percent reduction in categorical grants, or 
$478.65 million less than enacted fiscal year 2018 levels. Further, 
U.S. EPA's fiscal year 2019 Justification of Appropriation Estimates 
for the Committee on Appropriations shows the elimination of several 
air-related programs, including reducing State and local air quality 
management grants by more than 33 percent.\5\
---------------------------------------------------------------------------
    \4\ https://www.whitehouse.gov/wp-content/uploads/2018/02/budget-
fy2019.pdf.
    \5\ https://www.epa.gov/sites/production/files/2018-02/documents/
fy-2019-congressional-justifica
tion-all-tabs.pdf.
---------------------------------------------------------------------------
    AAPCA recognizes that your subcommittee is in the early stages of 
the fiscal year 2019 appropriations process, and that H.R. 1625 did not 
adopt similar figures proposed by the administration for fiscal year 
2018. Congressional budgets for at least the past 15 fiscal years have 
recognized the need for stable, adequate funding for State and local 
air quality management grants. Since fiscal year 2008, funding for 
these grants has averaged nearly $230 million, and the average year-to-
year change has never been less than 3 percent.\6\
---------------------------------------------------------------------------
    \6\ Figures assume dollars not adjusted for inflation.
---------------------------------------------------------------------------
    Instability in funding for key grant programs may affect each State 
or local air agency differently. Recent communication from the 
Environmental Council of States (ECOS) indicated that ``As Categorical 
Grants make up on average 27 percent of State environmental agency 
budgets, decreases in these grants have significant impacts on the work 
that State environmental agencies are able to accomplish.'' \7\ 
Providing stable, adequate funding for these grant programs through the 
appropriations process allows for State and local air agencies to 
continue the important and essential work that has driven success in 
air quality.
---------------------------------------------------------------------------
    \7\ https://www.ecos.org/wp-content/uploads/2018/03/FY18-EPA-
Budget-Letter.pdf.
---------------------------------------------------------------------------
    Thank you for the attention to this testimony. AAPCA and its 
members look forward to working with your subcommittee as Congress 
develops its priorities for fiscal year 2019 appropriations.

                                   Sincerely,
                                   <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                   
                                   Stuart Spencer
                                   Associate Director, Arkansas 
                                       Department of Environmental 
                                       Quality
                                   President, AAPCA
                                 ______
                                 
     Prepared Statement of the Association of Art Museum Directors
    The Association of Art Museum Directors (AAMD) requests funding of 
at least $155 million each for the National Endowment for the Arts 
(NEA) and the National Endowment for the Humanities (NEH) for fiscal 
year 2019. We also ask that the subcommittee provide the U.S. Fish and 
Wildlife Service (FWS) with the funding necessary to staff and train 
personnel in order to avoid placing any additional impediments on 
American art museums that are importing works of art containing ivory 
for the purposes of temporary public exhibition.
                           indemnity program
    AAMD reminds the subcommittee that the NEA administers exhibition 
indemnity agreements under the Arts and Artifacts Indemnity Act of 1975 
on behalf of the Federal Council on the Arts and the Humanities. In the 
indemnity program's 44 years of existence, it has facilitated the 
presentation of more than a thousand significant exhibitions. Absent 
the indemnity program, museums would be unable to present exhibitions 
of the size and value that it covers. Careful review and stringent 
standards have kept loss or damage to a minimum, while a high 
deductible provides taxpayers with additional protection: to date only 
two validated claim payments have been appropriated by Congress, for a 
net sum of $4,700.
                    national endowment for the arts
    We have been gratified to see bipartisan support on this Committee 
and in Congress as a whole for the NEA's work. We particularly note the 
widespread commendation of the NEA pioneering programs for military 
personnel, veterans, and their families. AAMD also commends NEA for its 
commitment to the Blue Star Museums initiative, now in its ninth year. 
AAMD members have responded with overwhelming enthusiasm to Chairman 
Chu's invitation to offer free admission to active duty military and 
their families at least from Memorial Day through Labor Day. In 2016, 
approximately 90 percent of AAMD members in the United States either 
formally joined the program or already offered free admission to all. 
Each year, more than 2,000 museums participate, reaching on average 
more than 856,000 military members and their families. According to a 
survey conducted by Blue Star Families, fifteen percent of participants 
reported that it was the first time they had visited a museum. AAMD is 
grateful to Blue Star Families and the NEA for the opportunity to serve 
this new audience.

    The NEA provides modest but important grants to art museums across 
the country. Examples of recent grants include:
Anchorage Museum, Anchorage, Alaska, Fiscal Year 2018
    To support the exhibition ``Walrus and the Polar Bear: Asveq and 
Nanook,'' and accompanying catalogue. The exhibition will examine the 
region's iconic and endangered walrus and polar bear, through 
contemporary art, culture and indigenous traditions, providing a more 
complex portrait of these animals than the romanticized portrayal 
outside of the Arctic. The exhibition will feature existing works, as 
well as newly commissioned works by native Alaskan and other artists.
Frist Art Museum, Nashville, Tennessee, Fiscal Year 2018 (formerly 
        Frist Center for the Visual Arts)
    To support the exhibition ``Chaos and Awe: Painting for the 21st 
Century.'' The exhibition, slated to open in June 2018, will be 
presented thematically around specific themes that will explore issues 
related to technological challenges, interpretation of history, 
alienation and the sense of community, and the capacity and brilliance 
of the mind. Works by approximately 50 established and emerging artists 
will be presented. Educational programming includes a scholarly 
symposium, in-gallery talks, workshops, and classes.
Nelson-Atkins Museum of Art, Kansas City, Missouri, Fiscal Year 2017
    To support provenance research on works in the museum's collection, 
specifically with respect to paintings and sculptures that may have a 
Holocaust-related connection. The funding enables provenance 
specialists to travel to specific archives and venues to complete 
research on paintings and begin research on the sculptures. Research 
results are being made public on the museum's online object database in 
the form of provenance narratives. In-gallery didactics, webpages 
dedicated to major contributors to the collection, and public programs 
are being developed to educate visitors about the provenance of the 
collection. The Nelson-Atkins welcomes any information that might help 
to clarify the provenance history of artwork in its collection.
Yellowstone Art Museum, Billings, Montana, Fiscal Year 2017
    To support an exhibition of work by Jaune Quick-to-See Smith and 
accompanying catalogue. The exhibition featured paintings and prints 
spanning five decades of Quick-to-See Smith's career, exploring how she 
navigated Native and non-Native painterly expression as well as 
concerns related to coming of age as a female during the height of the 
male-dominated era of Abstract Expressionism. Quick-to-See Smith 
created her own visual language, one that is vivid, layered, symbolic, 
and unique in the canon of American art history. The exhibition 
included extensive public programming.
Samuel P. Harn Museum of Art, Gainesville, Florida, Fiscal Year 2018
    To support the exhibition ``The World to Come'' at the Harn Museum 
of Art. The exhibition exploring environmental challenges will feature 
works by more than 50 international contemporary artists who work in 
all media. Lectures, an interactive touch table, a panel discussion, 
workshops, and special youth educational programs will complement the 
exhibition. It opens in September 2018.
Fine Arts Museums of San Francisco, Fiscal Year 2018
    To support the exhibition ``Cult of the Machine'' which opened in 
March 2018. Presented at the de Young Museum, the exhibition features 
approximately 150 works by modernists such as Georgia O'Keeffe, and 
Charles Demuth, shedding scholarly light on the aesthetic and 
intellectual concerns of Precisionism, underlying the development of an 
important strand of American Modernism. Public outreach includes a 
catalogue, musical performances, hands-on art activities, films, artist 
demonstrations, scholarly talks, and school programs.
RISD Museum, Providence, Rhode Island, Fiscal Year 2017
    To support Project Open Door. The free, after-school and summer 
visual arts education program is a college access initiative for high 
school students and teachers from underserved communities. 
Participating youth develop technical skills in the visual arts and 
prepare competitive college entrance portfolios. Graduate students 
provide arts instruction in various artistic media. Students have the 
opportunity to work in an open studio, build portfolios of creative 
work, and make museum and gallery visits-including an annual visit to 
New York City. Its goals are to encourage teens to graduate from high 
school, to provide under-served teens attending Rhode Island urban 
public and charter high schools with opportunities to develop their 
artistic skills, to help prepare teens to enroll in post-secondary 
education by offering guidance on college selection and preparation of 
college applications, especially portfolio preparation for art and 
design college programs, to provide RISD MA & MAT students an authentic 
learning site that serves as a foundation for professional practices 
that will engage in social justice and community arts endeavors, and to 
provide RISD students, faculty, staff and alumni a platform for 
community engagement.
Walters Art Museum, Baltimore, Maryland, Fiscal Year 2018
    To support a project featuring contemporary artist Roberto Lugo, 
invited to make new work and create an installation using the museum's 
ceramics collection. The new installation will tell the intersecting 
stories of the people who designed, built, occupied, and worked at One 
West Mount Vernon Place, a mid-19th-century Greek Revival mansion. Lugo 
aims to make the environment of the art museum accessible by permitting 
individuals, physically and symbolically, to occupy spaces that were 
previously denied to them. Public programming will include a community 
conversation, clay workshops, gallery talks, and after-school programs. 
Opening later this year.
                 national endowment for the humanities
    This important agency assists art museums in presenting humanities 
scholarship to the general public. NEH also plays an invaluable role in 
assisting with the preservation and conservation of important 
collections. This is exactly the type of unglamorous work for which it 
is chronically difficult to raise private funding, making Federal 
support all the more valuable.
    AAMD notes NEH's support of grant programs to benefit wounded 
warriors and to ensure educational opportunities for veterans and 
service members transitioning to civilian life. We also note NEH's new 
Infrastructure and Capacity-Building Challenge Grants program, which 
seeks to strengthen the institutional base of the humanities in the 
United States. Examples of recent grants include:

SFMoMA, San Francisco, California, Fiscal Year 2017
    One of the first museums to recognize photography as an art form, 
SFMOMA has more than 17,800 photographic works, dating from the advent 
of the medium in 1839 to the digital images of today. Deepening and 
expanding its commitment to photography, the new Pritzker Center for 
Photography nearly triples the space dedicated to photography, filling 
the majority of the third floor, the largest space permanently 
dedicated to photography in any art museum in the United States. The 
center includes enhanced permanent collection galleries and new special 
exhibition galleries, along with a study center and the Photography 
Interpretive Gallery, which was supported by a major grant from the 
NEH.
Louisville-Jefferson County. Louisville, Kentucky, Fiscal Year 2017
    The grant has enabled the purchase of new software, training costs, 
printing, transportation of participating youth, and staff compensation 
through the Cultural Pass Program, which provides free access for 
children to Louisville culture all summer long, including the Speed Art 
Museum.
Cummer Museum Foundation. Jacksonville, Florida, Fiscal Year 2018
    For conservation of outdoor collections damaged by Hurricane Irma.
Jordan Schnitzer Museum of Art, Eugene, Oregon, Fiscal Year 2018
    For the rehousing of 134 Asian paintings. This work will improve 
preservation of historic scrolls, including Chinese, Japanese, and 
Korean paintings, and promote access to these significant 19th-century 
works for use within the university community, for undergraduate 
research projects, museum exhibitions, as well as for related public 
programs that reach a broad audience.
                     u.s. fish and wildlife service
    We also ask that the subcommittee provide FWS with the funding 
necessary to staff and train personnel in order to avoid placing 
impediments on American art museums as they carry out their mission, 
not only to temporarily exhibit works of art to the public, which 
contain ivory, but also to be able to legally acquire works of antique 
ivory from abroad.
    FWS staff have worked well with the art museum community on several 
important issues related to its mission and, as they continue to craft 
regulations that recognize the importance of maintaining historic 
works, we urge that they be given all necessary support and resources.
                               about aamd
    The purpose of the Association of Art Museum Directors is to 
support its members in increasing the contribution of art museums to 
society. The AAMD accomplishes this mission by establishing and 
maintaining the highest standards of professional practice, serving as 
forum for the exchange of information and ideas, acting as an advocate 
for its member art museums, and being a leader in shaping public 
discourse about the arts community and the role of art in society.

    [This statement was submitted by Christine Anagnos, Executive 
Director.]
                                 ______
                                 
 Prepared Statement of the Association of Public and Land-Grant (APLU) 
             Universities Board on Natural Resources (BNR)
    On behalf of the APLU Board on Natural Resources (BNR), we thank 
you for your support of science and research programs within the 
Department of Interior (DOI) and the United States Geological Survey 
(USGS). We appreciate the opportunity to provide recommendations for 
the following programs within USGS: $9 million for the Water Resources 
Research Institutes and $23.9 million for the Cooperative Fish and 
Wildlife Research Units. We also recommend a minimum of $5.9 million of 
funding for the Joint Fire Science Program within DOI.
    APLU BNR requests $9 million for the Water Resources Research 
Institutes (WRRI). The APLU BNR request is based on the following: 
$7,500,000 in base grants for the WRRI as authorized by Section 104(b) 
of the Water Resources Research Act, including State-based competitive 
grants; $1,500,000 to support activities authorized by section 104(g) 
of the Act. Federal funding for the WRRI program is the catalyst that 
moves States and cities to invest in university-based research to 
address their own water management issues. State WRRIs take the 
relatively modest amount of Federal funding appropriated, match it 2:1 
with State, local and other funds and use it to put university 
scientists to work finding solutions to the most pressing local and 
State water problems that are of national importance. The Institutes 
have raised more than $16 in other funds for every dollar funded 
through this program. The added benefit is that often research to 
address State and local problems helps solve problems that are of 
regional and national importance. Many of the projects funded through 
this program provide the knowledge for State or local managers to 
implement new Federal laws and regulations. Perhaps most important, the 
Federal funding provides the driving force of collaboration in water 
research and education among local, State, Federal and university water 
professionals. This program is essential to solving State, regional and 
inter-jurisdictional water resources problems. As USGS itself has 
stated: ``The Water Institutes have developed a constituency and a 
program that far exceeds that supported by their direct Federal 
appropriations.''
    The institutes also train the next generation of water resource 
managers and scientists. In 2016, these institutes provided research 
support for more than 279 undergraduate and graduate students studying 
water-related issues in the fields of agriculture, biology, chemistry, 
earth sciences, engineering and public policy. Institute-sponsored 
students receive training in both the classroom and the field, often 
working shoulder-to-shoulder with the top research scientists in their 
field on vanguard projects of significant regional importance.
    In addition to training students directly, Water Resources Research 
Institutes work with local residents to overcome water-related issues. 
For example, the California Institute for Water Resources, like most of 
its peers, holds field days, demonstrations, workshops, classes, 
webinars, and offers other means of education to transfer their 
research findings to as many users as possible. Outreach that succeeds 
in changing a farmer's approach to nitrogen application or reducing a 
homeowner's misuse of lawn treatments can reduce the need for 
restrictive regulation. Recently, CIWR has served as a go-to resource 
for information regarding the historic drought.

    Below are some examples of work being done in various States:

  --The Alaskan Water and Environmental Research Center (WERC) at the 
        University of Alaska, Fairbanks, has contributed has partnered 
        with the U.S. Department of Energy and the Alaska Department of 
        Transportation to support transportation planning and tundra 
        travel on Alaska's North Slope, an important area for energy 
        development. At the same time, WERC established a methane 
        bubbling monitoring program utilizing a team of scientists, 
        teachers, and enthusiastic citizens. Methane, naturally 
        produced in lakes and wetlands, is a greenhouse gas thought to 
        contribute to climate change. The pan-arctic bubbling 
        monitoring team, which began in Alaska but will extend beyond 
        the State's borders, feeds information back to climate 
        scientists to better predict the response of methane production 
        in lakes as a feedback to climate warming.
  --In the southwest, three university-based water resources research 
        institutes have teamed with USGS Water Science Centers. 
        Researchers at New Mexico State University, Texas A&M, and the 
        University of Arizona worked with USGS colleagues on the 
        Transboundary Aquifer Assessment Program. Populations in El 
        Paso, Texas, Las Cruces, New Mexico, Nogales, Arizona and towns 
        in Mexico, share aquifers that cross the national boundary 
        between the U.S. and Mexico. https://webapps.usgs.gov/taap/.

    APLU BNR requests at least $23.9 million for the Cooperative Fish 
and Wildlife Research Units (CRUs). This program: (1) trains the next 
generation of fisheries and wildlife managers; (2) conducts research 
designed to meet the needs of unit cooperators; and (3) provides 
technical assistance to State, Federal and other natural resource 
managers. Originally established in the 1930s to provide training for 
students in fisheries and wildlife biology, today the CRUs provide 
experience and training for approximately 600 graduate students per 
year, a critical need as State and Federal workforces face 
unprecedented retirements over the next 5 to 10 years. The CRUs also 
provide valuable mission-oriented research for their biggest clients, 
the U.S. Fish and Wildlife Service and cooperating State agencies. 
Today, there are 40 Cooperative Research Units in 38 States.
    Each unit is a true Federal-State-university-private sector 
collaboration in that it is a partnership between the U. S. Geological 
Survey, a State natural resources management agency, a host university, 
and the Wildlife Management Institute. For every $1 the Federal 
Government puts into the program, $3 more are leveraged through the 
other partners. The U.S. economy has long relied on the bountiful 
natural resources bestowed upon this land. Federal investment in the 
CRUs will be returned many times over though the training of future 
natural resource managers who will guide the Nation in sustainable use 
of our natural resources. The research conducted by CRU scientists 
directly supports the difficult management challenges faced by natural 
resources managers. The examples below demonstrate the value of the 
CRUs to wildlife issues with local and national importance.

  --Alaska: The Alaska unit is currently working with Federal and State 
        stakeholders to model the effects of climate on available 
        forage for moose and caribou, two important species for both 
        subsistence and sport hunting in the State. This CRU is also 
        examining the availability of habitat for Chinook Salmon 
        juveniles in the Chena River; improving data collection on the 
        productivity of the Black Oystercatcher population in southwest 
        Alaska; developing a research framework for studying impacts of 
        climate and land use on migratory waterfowl; and researching 
        the foraging and migration patterns of Broad Whitefish on the 
        Arctic Coastal Plain, a valuable subsistence species that may 
        be troubled by a changing climate.
  --California: Because the marbled murrelet, a bird that feeds in the 
        ocean and nests in old forests, is listed as a threatened 
        species through the Endangered Species Act, State and Federal 
        natural resources managers have implemented many conservation 
        tactics to aid the species recovery. Despite these efforts, 
        researchers are realizing that a combination of changing 
        foraging conditions and nesting habitat loss is potentially 
        driving continued trouble for the species. Current research 
        will help specify what the bird is eating in hopes of helping 
        natural resources managers bridge the gap between marine 
        management and forest management.
  --Minnesota: The Minnesota CRU is currently researching the olfactory 
        sensitivity of Asian carps to putative sex pheromones. This 
        work has recently received national attention, because Asian 
        carps are an invasive species that threatens many of the 
        Nation's freshwater native fishes through competition for food. 
        The Minnesota CRU hopes to use the sex pheromones to attract 
        and trap Asian carp, removing them permanently from the 
        Nation's freshwater lakes and rivers.

    The APLU request of $23.9 million would allow the CRUs to be fully 
staffed, which currently they are not. There are a record number of 35 
vacancies nationwide. For example, the California CRU currently has 
only one Federal staff member where there should be 2-4. These 
vacancies leave the CRUs less able to fulfill their critical roles in 
bridging the gap between Federal fish and wildlife policies and the 
States that charged with managing the Nation's fish and wildlife 
resources.
    APLU strongly recommends funding the Joint Fire Science Program 
(JFSP) at a minimum of $5.9 million.
    According to NOAA's National Centers for Environmental Information 
(NCEI), which tracks U.S. climate events that have great economic and 
societal impacts (www.ncdc.noaa.gov/billions), the U.S. had an 
extraordinarily damaging wildfire season in 2017 burning more than 9.8 
million acres. The cumulative costs approach $18 billion, which triples 
the previous U.S. annual wildfire season cost record of $6 billion 
(Consumer Price Inflation-adjusted) that occurred in 1991. These 
wildfire conditions were enhanced by the preceding drought conditions 
in the Western United States.
    The height of the wildfire season occurred in October, as a 
historic firestorm damaged or destroyed over 15,000 homes, businesses 
and other structures across central California and caused 44 deaths. 
Incredibly, another California firestorm developed in early December 
from persistent Santa Ana winds and extremely dry conditions. These 
wildfires burned another 1,000 homes and structures in southern 
California. The largest was Thomas fire that consumed over 285,000 
acres making it the largest California wildfire on record. It is worth 
noting that none of the top 20 largest California wildfires have 
occurred after October, making the Thomas fire temporally unprecedented 
and a harbinger of longer western wildfire seasons.
    Despite this abysmal tally of damage from wildfires in 2017, the 
administration has recommended no funding for the Joint Fire Science 
Program within the Department of Interior. The JFSP model for funding 
critical research, based on management priorities and with requirements 
for active science delivery, makes the program uniquely valuable and 
the only one of its kind. No other program offers researchers the 
opportunity to address fire management challenges in direct response to 
manager priorities. Based on direction from Congress, the program is a 
partnership of Federal land management agencies that work together to 
identify and address problems associated with managing wildland fuels, 
fires, and fire-impacted ecosystems. They competitively allocate 
funding to researchers to tackle those issues via applied research, and 
require active delivery of science to managers and policymakers, 
linking science to management.
    With a relatively limited budget, the Joint Fire Science Program 
has improved efficacy and accountability of agency activities by 
funding research to address important topics. Past research has focused 
on such salient issues as understanding smoke impacts to communities, 
overcoming barriers to prescribed fire, identifying how drivers of fire 
costs affect decisionmaking, analyzing fire behavior, and understanding 
fire effects on resources and communities. The program supports 
regional Fire Science Consortia that support science delivery to the 
management and practitioner communities. Research and science delivery 
under this program have proven valuable for both Federal land managers 
and partner organizations working to restore fire-adapted landscapes 
and promote fire-adapted communities.
    BNR thanks you for the opportunity to provide our views to the 
subcommittee. We look forward to working with you through the fiscal 
year 2019 appropriations process.
About APLU and the Board on Natural Resources
    APLU's membership consists of 224 State universities and State-
university systems. APLU institutions enroll more than 4.1 million 
undergraduate students, and 1.2 million graduate students, award 1.1 
million degrees, employ 1.1 million faculty and staff and conduct $42.4 
billion annually in university-based research annually. The Board's 
mission is to promote university-based programs dealing with natural 
resources, fisheries, wildlife, ecology, energy, and the environment. 
BNR representatives are chosen by their president's office to serve and 
currently number over 500 scientists and educators, who are some of the 
Nation's leading research and educational expertise in environmental 
and natural-resource disciplines.

    [This statement was submitted by Susan White, Executive Director of 
the North Carolina Sea Grant and Director of the Water Resources 
Research Institute of the University of North Carolina System, North 
Carolina State University.]
                                 ______
                                 
     Prepared Statement of the Association of State Drinking Water 
                             Administrators
    Summary of Request: The Association of State Drinking Water 
Administrators (ASDWA) respectfully submits the following 
recommendations for fiscal year 2019 appropriations on behalf of the 
drinking water programs in the 50 States, five territories, District of 
Columbia, and Navajo Nation. ASDWA requests funding for two programs 
that ensure appropriate public health protection and that will result 
in enhancing economic stability and prosperity in American cities and 
towns. ASDWA requests $200 million for the Public Water System 
Supervision (PWSS) program, $1.16 billion for the Drinking Water State 
Revolving Loan Fund (DWSRF) program, and $50 million for the three new 
drinking water grant programs.
overview: the importance of safe drinking water for our communities and 
        the economy & the role of state drinking water programs
    States need sustained Federal support to maintain public health 
protection and to support the needs of the water systems they oversee. 
State drinking water programs strive to meet the Nation's public health 
protection goals through two principal funding programs: the Public 
Water System Supervision Program and the Drinking Water State Revolving 
Loan Fund Program. These two programs, with their attendant State match 
requirements, provide the means for States to work with drinking water 
utilities to ensure that American citizens will have safe and adequate 
water supplies.
    Vibrant and sustainable communities, their citizens, workforce, and 
businesses all depend on a safe, reliable, and adequate supply of 
drinking water. Economies only grow and sustain themselves when they 
have safe and reliable water supplies. Over 90 percent of the 
population receives water used for bathing, cooking, and drinking from 
a water system that is overseen by State drinking water program 
personnel. Water systems--as well as the cities, villages, schools, and 
businesses they support--rely on State drinking water programs to 
ensure they comply with all applicable Federal requirements.
    In addition to the water we drink in our homes, water produced by 
water systems is also used to fight fires, transport wastewater, cook, 
wash clothes and dishes, as well as by businesses for manufacturing, 
food processing, and cooling. State drinking water programs must have 
adequate funding to protect public health and maintain the economic 
health of communities. Incidents such as the chemical spill in 
Charleston, West Virginia; algal toxins in the water for Toledo, Ohio; 
and the leaching of lead from lead-containing pipelines into the water 
supply in Flint, Michigan all serve as stark reminders of the critical 
nature of the work that State drinking water programs do--every day--
and the reason why the funding for State drinking water programs must 
be not only sustained but enhanced. More recently, the pervasive 
incidents of Per- and Polyfluoroalkyl Substances (PFAS) contamination 
adds to the urgency of the need for funding.
state drinking water programs: how they operate, why support is needed, 
                and justifications for requested amounts
The Public Water System Supervision Program
    How the PWSS Program Operates: To meet the requirements of the 
SDWA, States have accepted primary enforcement responsibility for 
oversight of regulatory compliance and technical assistance efforts for 
more than 150,000 public water systems to ensure that potential health-
based violations do not occur or are remedied in a timely manner. This 
involves more than 90 federally regulated contaminants and the 
complexity of regulations has increased in the past decade. Beyond the 
contaminants covered by Federal drinking water regulations, States are 
also implementing an array of proactive initiatives to protect public 
health from ``source to tap.'' These include source water assessments 
and protections for communities and watersheds; outreach and education 
on programs such as asset management and workforce, technical 
assistance for water treatment and distribution for challenged 
utilities; and enhancement of overall water system performance.
    In recent years, States have also taken on an increasingly 
prominent role in working with Federal and local partners to help 
ensure sufficient water quantity. Many States have worked intensively 
with numerous small water systems in recent years that were within days 
of running completely dry. In short, State activities go well beyond 
simply ensuring compliance at the tap--and States perform these tasks 
more efficiently and cheaply than would be the case if the program were 
federally implemented.
    Why Adequate Support is Needed: Inadequate Federal funding cannot 
support the principles of Cooperative Federalism. States will be unable 
to protect public health without adequate Federal funding support. 
Inadequate Federal funding for State drinking water programs has 
several negative consequences. For example, consider the proposed Long-
Term Revisions to the Lead and Copper Rule (LT-LCR). As part of ASDWA's 
comments on EPA's Federalism Consultation, ASDWA conducted a Costs of 
States' Transaction Study (CoSTS). The resulting data estimated that 
the costs of States' staff time for the LT-LCR would be in the range of 
72 percent-95 percent of current PWSS funding. Without additional 
funding, this rule will be an unfunded mandate for States. Many States 
are facing difficult choices on what implementation activities to not 
do, such as conducting less frequent inspections or providing technical 
assistance to systems that need it. Others are looking to EPA for 
assistance, which is challenged by the Agency's own resource 
constraints and lack of ``on the ground'' expertise. States also want 
to offer the flexibilities allowed under existing rules to local water 
systems. However, fewer State resources mean less opportunity to work 
individually with water systems to improve their systems and protect 
public health.
    State drinking water programs are extremely hard pressed 
financially and the funding gap continues to grow. State-provided 
funding has historically compensated for inadequate Federal funding, 
but State budgets have been less able to bridge this funding gap in 
recent years. State drinking water programs are stretched to the 
breaking point. Insufficient Federal support for this critical program 
increases the likelihood of contamination events that puts the public's 
health at risk. $101.9 million was appropriated for the PWSS program in 
fiscal year 2018--the same funding level as was appropriated in fiscal 
years 2014, 2015, 2016, and 2017. The administrations fiscal year 2019 
request of $67.9 million represents a 34 percent decrease for PWSS 
funding. This level of funding has not been seen since 1995, nearly 25 
years ago. This is an untenable situation--a significant decrease in 
funding to work with a growing population who are increasingly 
concerned about drinking water contaminants. The number of public water 
systems to be overseen has not decreased; and the number of regulatory 
requirements to be implemented also has not decreased. In fact, several 
non-regulatory actions such as addressing PFAS and algal toxins and 
providing oversight for the development of water systems' inventories 
of lead service lines have increased States' workloads. States always 
step in to help resolve the problems and return the systems to 
providing safe water as quickly as possible. The $101.9 million that 
was appropriated for the PWSS program for fiscal year 2018 was sorely 
needed for States to be able to implement their public health 
protection responsibilities and more is still needed today. Any 
reduction, no matter how small, exacerbate States' existing financial 
difficulties.
    For the PWSS Program in fiscal year 2019, ASDWA Respectfully 
Requests $200 million: The number of regulations requiring State 
implementation and oversight as well as performance expectations 
continue to grow while at the same time, the Federal funding support 
has been essentially ``flat-lined.'' Inflation has further eroded these 
static funding levels. This recommended amount is based on ASDWA's 
December 2013 Resource Needs Report and begins to fill the above-
described resource gap. These funds are urgently needed for 
implementing existing drinking water rules, taking on new initiatives, 
and to account for the eroding effects of inflation. It is a small 
price to pay for public health protection.
The Drinking Water State Revolving Loan Fund Program
    How the DWSRF Program Operates: Drinking water in the U.S. is among 
the safest and most reliable in the world, but it is threatened by 
aging infrastructure. Through low interest loans provided by the DWSRF, 
States help water utilities overcome this threat. The historical 
payback to the DWSRF on this investment has been exceptional. Since its 
inception, the DWSRF has touched millions of Americans through projects 
that enhance drinking water capabilities at water utilities. In the 
core DWSRF program, nearly $21 billion in cumulative Federal 
capitalization grants since 1997 have been leveraged by States into 
over $35 billion in infrastructure loans to 14,000 small and large 
communities across the country. 26.3 percent of the cumulative DWSRF 
assistance, including negative interest loans and principal 
forgiveness, has been provided to disadvantaged communities. Such 
investments pay tremendous dividends--both in supporting our economy 
and in protecting our citizens' health. States have very effectively 
and efficiently leveraged Federal dollars with State contributions to 
improve health protection for millions of Americans.
    An important feature of the DWSRF program is the State ``set-
aside'' fund component and another key reason to adequately fund this 
critical program. Set-asides function as a proactive way for States to 
work with drinking water systems to maintain compliance and avoid 
violations. States may reserve up to 31 percent of these funds for a 
variety of critical tasks, such as increasing the technical, 
managerial, and financial capacity of water systems; providing training 
and certification for water system operators; and continuing wellhead 
and source water protection efforts. Set-asides are an essential source 
of funding for States' core public health protection programs and these 
efforts work in tandem with infrastructure loans.
    Drinking Water Infrastructure Investment is Well below the 
Documented Need: EPA's 6th Drinking Water Needs Survey concluded that 
$427.6 billion of capital investment was needed for the next 20 years. 
The total translates to $21.4 billion annually. Continued investment is 
needed for aging treatment plants, storage tanks, pumps, and 
distribution lines that carry water to our Nation's homes, businesses 
and schools. The DWSRF must continue to be a key part of the 
infrastructure solution. The newly created WIFIA program will 
complement the DWSRF, as the DWSRF can also offer project subsidization 
for disadvantaged communities, funds for training or technical 
assistance, or health-based drivers. Both the DWSRF and WIFIA support 
drinking water needs but neither should serve as a replacement for the 
other.
    For the DWSRF Program in fiscal year 2019, ASDWA respectfully 
requests $1.16 billion: Multiple years of flat DWSRF funding has 
hampered solving the Nation's infrastructure problem. DWSRF funding has 
been static at $863 million since fiscal year 2016, until Congress 
provided a partial solution in the fiscal year 2018 Omnibus 
appropriation by adding a one-time boost of $300 million. ASDWA 
supports maintaining the increased funding. The primary purpose of the 
DWSRF is to improve public health protection by facilitating water 
system compliance with national primary drinking water regulations 
through the provision of loans. Physical water infrastructure 
improvements coupled with critical assistance initiatives are essential 
to support public health protection as well as a sustainable economy. 
ASDWA believes that funding the DWSRF at the recently increased $1.16 
billion level will better enable the DWSRF to meet the SDWA compliance 
and public health protection goals.
Three New Drinking Water Grant Programs in Fiscal Year 2018 Omnibus
    ASDWA respectfully requests continuation of $50 million of funding 
for the three new grant programs: ASDWA applauds the addition of $50 
million of new funding in the fiscal year 2018 Omnibus for three new 
grants programs for disadvantaged communities ($20 million), lead 
reduction ($10 million), and voluntary lead testing in schools and 
child care centers ($20 million). These three new grants programs will 
provide significant public health improvements if continued beyond 
fiscal year 2018, as a single year is not enough time for the multiple 
organizations are needed to develop and implement these complex 
programs. A multi-year grant program, for at least 5 years, is needed 
for these grants to be effective.
    Conclusion: ASDWA respectfully recommends that the Federal fiscal 
year 2019 budget needs for States' role in the provision of safe 
drinking water be adequately funded by Congress. A strong State 
drinking water program supported by the Federal-State partnership will 
ensure that the quality of drinking water in this country will not 
deteriorate and, in fact, will continue to improve--so that the public 
can be assured that a glass of water is safe to drink no matter where 
they travel or live. States are willing and committed partners. 
However, additional Federal financial assistance is needed to meet 
ongoing and ever growing regulatory, infrastructure, and security 
needs.

    [This statement was submitted by J. Alan Roberson, P.E., Executive 
Director.]
                                 ______
                                 
     Prepared Statement of the Back Country Horsemen of Washington

April 8, 2018

To: Subcommittee on Interior, Environment, and Related Agencies 
(Senate)

Re:  U.S. Forest Service 2019 Proposed Capital Improvement and 
Maintenance budget

    The Back Country Horsemen of Washington (BCHW) is a non-profit 
501c-3 organization that works through the volunteer efforts of our 
members to maintain trails, trailheads, and campgrounds on our state 
and Federal public lands in Washington State. We are one of the primary 
organizations that provide volunteer support for clearing trails on the 
U.S. National Forest system and have been part of the National 
Sustainability and Stewardship strategies. However, our efforts to 
assist with addressing the growing backlog of trail maintenance on 
Forest Service lands can only be productive if the Forest Service 
(USFS) has the funds for planning, management, materials, and supplies 
to design, lead, and complete trail projects on their trail systems. 
Otherwise the trails do not get repaired, become unusable, and over 
time disappear off the trail inventory. This is at a time when the 
public need for outdoor recreational access for health and social 
benefit is growing, not shrinking.
    We in BCHW are stock users and packers. For us to be able to 
maintain trails, we need to haul our stock to the trailheads on USFS 
road systems which are themselves in serious need of repair due to 
weather damage as well as deferred maintenance. Many of the roads are 
impassable and can remain so for several years. We often are in the 
position of not just volunteering our time, labor, and stock use but 
also having to cover our increased vehicle repair costs. Heavy 
reconstruction of bridges and puncheons can require specialized 
equipment and bulky materials which we must not only pack but also in 
many cases provide. Training and safety requirements put additional 
cost impacts on both staff and volunteers. There is no shortage of 
regulations on what are best and required management practices. The 
shortage is in the funding to meet both the requirements and the work 
that needs to be completed.
    BCHW volunteers have witnessed the effects of wildfires on 
recreational assets on USFS lands. The damage lasts many years after 
the fires are put out and the BAER response teams go home. Some of our 
most treasured areas remain wastelands with soft trails, failed 
puncheons, and falling dead timber. We can do very little without major 
dynamic support from agencies for relocating and reconstructing trails. 
How can they do that if they don't have any staff?
    This problem has been growing for decades, and in 2013 there was a 
GAO study of USFS recreational trails. This graph (adjacent) from that 
study shows that the 80 million a year in the USFS budget for trails is 
sorely inadequate (Figure 7 GAO-13-618 Forest Service Trail 
Maintenance)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    While the solution will require boosting that 80 million per year, 
there has been no movement to do so. Approaching 2019, the 
administration's proposed budget is to lower that amount to an 
unsustainable level (the CMTL portion for trails would be lowered from 
$54 million to $9.4 million).
    New studies highlight how recreation on public lands contributes 
significantly to the national economy through visitations from 
tourists, recreationists, and other citizens, and this is certainly 
true. But the beneficiaries of this robust revenue are not the agencies 
that provide the services unless they are appropriated a share through 
the budget process. A bus may carry a lot of visitors but it needs gas, 
maintenance, roads to run on, and access to view sites and facilities. 
The investment in maintenance pays dividends in economic benefit. That 
reinvestment needs to come from Congress in responsible appropriations. 
We therefore ask that Congress do its part in supporting public lands 
recreation by properly funding the Capital Maintenance trails budget of 
the USFS at $100 million or more. Equally important is the Capital 
Maintenance roads budget. Instead of lowering the road funding from 
$138 million to $56 million, raise that item to $150 million.

Thank you,

Jeff Chapman
Legislative Committee Chair
Back Country Horsemen of Washington
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <greek-l>
                                 ______
                                 
             Prepared Statement of Bardin David Jonas deg.
                Prepared Statement of David Jonas Bardin
Chairman Murkowski and Ranking Member Udall,

    (a) Please ask the Secretary of the Interior: How best to assure 
long-term survival of, stability for, and adequate resources for USGS 
Geomagnetism Program?
    (b) Please reject for fiscal year 2019 (as you did for fiscal year 
2018) the President's proposal to terminate this low-cost Program which 
is so vital to national security and protection of our electric power 
grid, other critical infrastructure, and their operations from natural 
and hostile events.\1\
---------------------------------------------------------------------------
    \1\ See Finn & Love, Proposed elimination of USGS Geomagnetism 
Program (June 3, 2017); available at https://geohazards.usgs.gov/
pipermail/geomag-data/2017-June/000026.html.
---------------------------------------------------------------------------
    (c) Please raise USGS Geomagnetism Program line for fiscal year 
2019 to $3.6 million, rather than the Public Law 115-141 level of $1.9 
million (continuing to draw $500,000 from the much larger USGS 
Facilities line and $550,000 from the U.S. Air Force \2\).
---------------------------------------------------------------------------
    \2\ House Report 115-238 (available at https://www.congress.gov/
115/crpt/hrpt238/CRPT-115hrpt238.pdf) shows a Geomagnetism line of 
$1,885,000 (at p. 136). The Program also receives $550,000 from the Air 
Force and $500,000 out of the USGS Facilities line for a total of about 
$3 million. U.S. Geological Survey 2019 Budget Justification, p. 61, 
states: ``To address higher priorities, the USGS is not requesting 
funds for the Geomagnetism program.''
---------------------------------------------------------------------------
    USGS Geomagnetism Program has data acquisition, analytic, and 
information sharing capabilities. It provides geomagnetic time series 
and real-time data used by military and civilian agencies, the North 
American Electric Reliability Corporation (NERC), Electric Power 
Research Institute (EPRI), utility firms and groups, consultants and 
researchers.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    It provides continuous outputs of its 14 geomagnetic observatories: 
five in Alaska, four in the Western Interconnection [Electricity 
Coordinating Council (WECC)] (in Washington, Colorado, Arizona, 
California), two in the Eastern Interconnection (in Mississippi, 
Virginia), one each in Hawaii, Guam, Puerto Rico--none in the Texas 
Interconnection [Electric Reliability Council of Texas (ERCOT)].\3\ It 
reciprocates internationally. It's ``most important product . . . is 
time series of stable magnetometer data having high accuracy and 
resolution.'' \4\ We should not risk interruption or degradation of 
Program outputs.
---------------------------------------------------------------------------
    \3\ In July 2009, USGS closed and subsequently dismantled its Del 
Rio, Texas, observatory for budgetary reasons.
    \4\ See https://geomag.usgs.gov/monitoring/operations.php.
---------------------------------------------------------------------------
    Congress should fund Program preservation and at least six more 
USGS magnetometer stations in the Contiguous United States (CONUS), 
targeted on parts of the country that are under-monitored and where 
geomagnetic hazards are of greatest concern, to be located in 
consultation with stakeholders (likely in these six general regions: *  
New York-New England, *  Minnesota-Wisconsin-Iowa, *  Illinois-Indiana-
Ohio-Michigan, *  Pennsylvania, *  Texas, *  a location in Southeast 
U.S.)

    Map below shows two gaps exposing Americans to geomagnetic blackout 
hazards:

  --Big circles, marking six existing USGS magnetometer stations in 
        CONUS and three Canadian ones near border, leave a huge gap 
        between Boulder Colorado and Fredericksburg Virginia.\5\
---------------------------------------------------------------------------
    \5\ See Love & Finn (2017) [Real-time geomagnetic monitoring for 
space weather-related applications: Opportunities and challenges Space 
Weather, 15, doi:10.1002/2017SW001665. Please ask: Considering the 
existing ground-based observation systems for geomagnetic storms, from 
the standpoints of NOAA space weather forecasts and research, USGS 
support for the electric power industry situational awareness and 
research, and the current under-monitoring of the areas of the U.S. 
with greatest geomagnetic blackout hazard concerns, into what general 
regions of the country should the magnetometer network of USGS 
Geomagnetism Program be usefully expanded? How many additional stations 
would be needed?
---------------------------------------------------------------------------
  --Small circles mark Earth conductivity survey of two-thirds of 
        CONUS, leaving gap for all or parts of 14 Southern and 
        Southwestern CONUS States: ALABAMA, ARIZONA, ARKANSAS, 
        CALIFORNIA, COLORADO, FLORIDA, LOUISIANA, MISSISSIPPI, 
        NEBRASKA, NEVADA, NEW MEXICO, OKLAHOMA, TEXAS and UTAH.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    Protecting the electric power grid from Geomagnetic Disturbances 
(GMDs) caused by natural explosion from the Sun (or from E3 pulses due 
to a high-altitude nuclear explosion), requires data about electric 
conductivity of the Earth \6\ which federally-funded surveys have 
acquired (or are acquiring) for most of the country, mainly done via 
National Science Foundation (NSF) EarthScope grants to Oregon State 
University (OSU). (Mineral Resources Program of USGS also performed a 
fraction of these surveys.) As NSF funding for such surveying runs out 
this year, completion of surveying for remainder of our country seems 
unlikely.
---------------------------------------------------------------------------
    \6\ See Space Weather Enterprise Forum, 27 June 2017, Session 4, 
transcript at 5-7, available at https://swfound.org/media/205939/
swef_2017_4.pdf.
---------------------------------------------------------------------------
    Please ask USGS and the Secretary of the Interior--in light of the 
National Space Weather Strategy--How best to complete CONUS Earth 
conductivity survey?

            Respectfully submitted,

                                   David Jonas Bardin,
                                           Retired member,
                                           Arent Fox LLP
                                 <greek-l>
                                 ______
                                 
                Prepared Statement of BennetMichael deg.
    Prepared Statement of U.S. Senator Michael F. Bennet Requesting 
   Resources for Agencies and Programs That Are Important to Address 
Climate Change and to the Conservation and Management of Public Lands, 
                             Air, and Water
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                        Fiscal Year
   State             Member                Agency                Account             Program (if        President's    2018 Enacted   Member Request   Request Description         Contact
                                                                                     applicable)        Budget ($)      Amount ($)          ($)         Fiscal Year 2019
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
CO.........  Bennet...............  USFS................  Payments in Lieu of   ....................  ..............      13,228,000      13,228,000  We support full       Patrick Donovan (8-
                                                           Taxes.                                                                                      funding for fiscal    5907)
                                                                                                                                                       year 2019.
CO.........  Bennet...............  USDA Forest Service/  Land and Water        ....................  ..............     425,000,000     900,000,000  Full funding, both    Patrick Donovan (8-
                                     DOI.                  Conservation Fund.                                                                          mandatory and         5907)
                                                                                                                                                       discretionary.
CO.........  Bennet...............  EPA.................  State and Tribal      Categorial Grants        480,671,000     886,112,000     886,112,000  We support robust     Patrick Donovan (8-
                                                           Assistance Grants.    for Air, Water, and                                                   funding consistent    5907)
                                                                                 Waste (Summy of                                                       with fiscal year
                                                                                 below).                                                               2018 levels.
CO.........  Bennet...............  EPA.................  ....................  Categorical Grant:    ..............     169,754,000     169,754,000  We support robust     Patrick Donovan (8-
                                                                                 Nonpoint Source.                                                      funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  EPA.................  ....................  Categorical Grant:        67,892,000     101,271,000     101,271,000  We support robust     Patrick Donovan (8-
                                                                                 Public Water System                                                   funding consistent    5907)
                                                                                 Supervision (PWSS).                                                   with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  EPA.................  ....................  Categorical Grant:       151,961,000     226,669,000     226,669,000  We support robust     Patrick Donovan (8-
                                                                                 State and Local Air                                                   funding consistent    5907)
                                                                                 Quality Management.                                                   with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  EPA.................  ....................  Categorical Grant:       153,683,000     229,239,000     229,239,000  We support robust     Patrick Donovan (8-
                                                                                 Pollution Control                                                     funding consistent    5907)
                                                                                 (Sec. 106).                                                           with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  EPA.................  ....................  Categorical Grant:        66,381,000      99,016,000      99,016,000  We support robust     Patrick Donovan (8-
                                                                                 Hazardous Waste                                                       funding consistent    5907)
                                                                                 Financial                                                             with fiscal year
                                                                                 Assistance.                                                           2018 levels.
CO.........  Bennet...............  EPA.................  ....................  Categorical Grant:         8,963,000      12,742,000      12,742,000  We support robust     Patrick Donovan (8-
                                                                                 Tribal Air Quality                                                    funding consistent    5907)
                                                                                 Management.                                                           with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  EPA.................  ....................  Categorical Grant:        31,791,000      47,421,000      47,421,000  We support robust     Patrick Donovan (8-
                                                                                 Brownfields.                                                          funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  EPA.................  State and Tribal      Grants for Air,           62,000,000     109,253,000     109,253,000  We support robust     Patrick Donovan (8-
                                                           Assistance Grants.    Water, and                                                            funding consistent    5907)
                                                                                 Brownfields                                                           with fiscal year
                                                                                 (Summary of below).                                                   2018 levels.
CO.........  Bennet...............  EPA.................  ....................  Brownfields Projects      62,000,000      79,457,000      79,457,000  We support robust     Patrick Donovan (8-
                                                                                                                                                       funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  EPA.................  ....................  Targeted Airshed      ..............      29,796,000      29,796,000  We support robust     Patrick Donovan (8-
                                                                                 Grants.                                                               funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  USFS................  Wildland Fire         Supression..........   1,165,366,000   1,556,818,000   1,556,818,000  We support funding    ....................
                                                           Management.                                                                                 above the 10-year
                                                                                                                                                       average in fiscal
                                                                                                                                                       year 2019, prior to
                                                                                                                                                       the implementaiton
                                                                                                                                                       of the budget cap
                                                                                                                                                       adjustment in 2020.
CO.........  Bennet...............  EPA.................  Superfund Cleanup...  Hazardous Substance    1,088,830,000   1,154,947,000   1,154,947,000  We support robust     Patrick Donovan (8-
                                                                                 Superfund.                                                            funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  EPA.................  Drinking Water State  ....................     863,233,000     863,233,000     863,233,000  We support robust     Patrick Donovan (8-
                                                           Revolving Fund.                                                                             funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  EPA.................  Clean Water State     ....................   1,393,887,000   1,393,887,000   1,393,887,000  We support robust     Patrick Donovan (8-
                                                           Revolving Fund.                                                                             funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  OSMRE...............  Abandoned Mine        ....................      20,375,000     139,672,000     139,672,000  We support robust     Patrick Donovan (8-
                                                           Reclamation Fund.                                                                           funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  EPA.................  Environmental         ....................     300,738,000     305,844,000     305,844,000  Cuts larger than      Patrick Donovan (8-
                                                           Program and                                                                                 $100 m to the         5907)
                                                           Management.                                                                                 entire EPM program
                                                                                                                                                       will prevent EPA
                                                                                                                                                       from conducting
                                                                                                                                                       core EPM functions..
CO.........  Bennet...............  EPA.................  Environmental         Brownfields.........      16,082,000      25,593,000      25,593,000  We support robust     Patrick Donovan (8-
                                                           Program and                                                                                 funding consistent    5907)
                                                           Mangement.                                                                                  with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  EPA.................  Environmental         GHG Reporting.......      13,580,000      95,436,000      95,436,000  We support robust     Patrick Donovan (8-
                                                           Program and                                                                                 funding consistent    5907)
                                                           Mangement.                                                                                  with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  EPA.................  Climate Change        ....................  ..............      16,520,000      16,520,000  We support robust     Patrick Donovan (8-
                                                           Research.                                                                                   funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  EPA.................  Stratospheric Ozone.  Montreal Protocol...  ..............       8,677,000      10,000,000  Al least fiscal year  Candace Vahlsing (8-
                                                                                                                                                       2018 levels..         5433)
CO.........  Bennet...............  USFS................  Stewardship.........  Collaborative Forest  ..............      40,000,000      40,000,000  We support robust     Patrick Donovan (8-
                                                                                 Landscape                                                             funding consistent    5907)
                                                                                 Restoration Program.                                                  with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  USFS................  State and Private     Urban and Community   ..............      27,850,000      27,850,000  We support robust     Patrick Donovan (8-
                                                           Forestry.             Forestry Program.                                                     funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  USFS................  Capital Improvement   Roads...............      71,481,000     173,905,000     173,905,000  We support robust     Patrick Donovan (8-
                                                           and Maintanance.                                                                            funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  USFS................  National Forest       Hazardous Fuel           390,000,000     387,352,000     390,000,000  We support robust     Patrick Donovan (8-
                                                           System.               Reduction.                                                            funding at least at   5907)
                                                                                                                                                       the fiscal year
                                                                                                                                                       2018 enacted level..
CO.........  Bennet...............  USFS................  National Forest       Forest Products          341,165,000     365,307,000     365,307,000  We support robust     Patrick Donovan (8-
                                                           System.               Program (e.g.,                                                        funding consistent    5907)
                                                                                 Timber Sales).                                                        fiscal year 2018
                                                                                                                                                       levels.
CO.........  Bennet...............  USFS................  Wildland Fire         State Fire                69,400,000      80,000,000      80,000,000  We support robust     Patrick Donovan (8-
                                                           Management.           Assistance.                                                           funding at least at   5907)
                                                                                                                                                       fiscal year 2018
                                                                                                                                                       levels.
CO.........  Bennet...............  USFS................  Wildland Fire         Volunteer Fire            11,600,000      16,000,000      16,000,000  We support robust     Patrick Donovan (8-
                                                           Management.           Assistance.                                                           funding at least at   5907)
                                                                                                                                                       fiscal year 2018
                                                                                                                                                       levels.
CO.........  Bennet...............  USFS................  Capital Improvement   Legacy Roads and      ..............      40,000,000      40,000,000  We support robust     Patrick Donovan (8-
                                                           and Maintanance.      Trails Program.                                                       funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  USFS................  Recreation,           ....................     240,236,000     262,798,000     262,798,000  We support robust     Patrick Donovan (8-
                                                           Heritage, and                                                                               funding at least at   5907)
                                                           Wilderness.                                                                                 fiscal year 2018
                                                                                                                                                       levels.
CO.........  Bennet...............  NPS.................  Historic              ....................      32,700,000      96,910,000      96,910,000  We support robust     Patrick Donovan (8-
                                                           Preservation Fund.                                                                          funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  EPA.................  National Priorities   Extramural research   ..............       4,100,000       4,100,000  We support robust     Patrick Donovan (8-
                                                           Research Program.     grants.                                                               funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  DOI.................  Central Hazardous     ....................       2,000,000      10,010,000      10,010,000  We support robust     Patrick Donovan (8-
                                                           Materials Fund.                                                                             funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  USFWS...............  North American        NAWCA Fund..........      33,600,000      40,000,000      40,000,000  We support robust     Patrick Donovan (8-
                                                           Wetlands                                                                                    funding consistent    5907)
                                                           Conservation Act                                                                            with fiscal year
                                                           (NAWCA).                                                                                    2018 levels.
CO.........  Bennet...............  NPS.................  National Heritage     Heritage Partnership  ..............      20,321,000      20,321,000  We support robust     Patrick Donovan (8-
                                                           Areas.                Program.                                                              funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  NPS.................  National Park         Centennial Challenge  ..............      23,000,000      23,000,000  We support robust     Patrick Donovan (8-
                                                           Foundation.           Fund.                                                                 funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  DOI.................  Climate Science       North Central         ..............  ..............      25,335,000  We support robust     Patrick Donovan (8-
                                                           Centers.              Climate Center.                                                       funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2017 levels.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

     Prepared Statement of the Bristol Bay Area Health Corporation
    The Requests of the Bristol Bay Area Health Corporation (BBAHC) for 
the fiscal year 2019 Indian Health Service Appropriations and our 
comments are as follows:

  --VBC Funding.--Direct the IHS to fully fund Village Built Clinic 
        (VBC) leases and make it a line item in the budget and allocate 
        at least an additional $12.5 million to the IHS for VBC leases, 
        for a total of $17 million.
  --CSC Funding.--Continue to fund Contract Support Costs (CSC) at 100 
        percent and provide funding on a permanent and mandatory basis.
  --Sequestration.--Shield the IHS/BIA from sequestration or 
        rescissions.
  --Increase IHS behavioral healthcare funding (Mental Health/Substance 
        Abuse)
  --Land Transfer Legislation.--Enactment of H.R. 236/S. 269, to 
        facilitate transfer of a parcel of land from IHS to BBAHC on 
        which our dental clinic is located.
  --USAC Subsidies for Telecommunications Connectivity.

    The Bristol Bay Area Health Corporation was created in 1973 to 
provide healthcare services to Alaska Natives of Southwest Alaska. We 
began operating and managing the Kanakanak Hospital and the Bristol Bay 
Service Unit for the IHS in 1980, and was the first Tribal organization 
to do so under the Indian Self-Determination and Education Assistance 
Act (ISDEAA). BBAHC is a co-signer to the Alaska Tribal Health Compact 
with the Indian Health Service (IHS) under the ISDEAA and is now 
responsible for providing and promoting healthcare to the people of 28 
Alaska Native Villages.
    We have made significant progress but now deal with modern-day 
health problems. Today, rather than TB and influenza epidemics, we 
struggle with diseases of a modern society that include chronic 
illnesses such as cancer, diabetes, heart disease and behavioral and 
mental health needs. The life expectancy of our people has increased 
from 47 years of age in 1952 to 69.4 in 1998, still below that of U.S. 
residents and other Alaskans.
    Village Built Clinics. We thank Congress for appropriating an $11 
million increase over base funding for Tribal health clinic leases in 
the fiscal year 2017 and 2018 Consolidated Appropriations Acts We 
appreciate the Alaska Congressional delegation's continued support and 
are particularly thankful to Senator Murkowski for her leadership on 
this issue. We thank her for her steadfast determination in advocating 
for these small chronically underfunded remote clinics that serve as an 
essential health lifeline in rural Alaskan villages where there is no 
road system to connect villages to urban centers. As noted above, BBAHC 
serves 28 remote villages in southwest Alaska.
    BBAHC hope that any infrastructure proposal that may move forward 
would include assistance for the Village Built Clincs. We appreciated 
the House Natural Resources Subcommittee on Indian, Insular, and Alaska 
Native Affairs holding a hearing on Indian infrastructure needs in 
Indian Country, and the support and participation of Chairman Emeritus 
Young in the discussion that focused on the considerable unmet needs of 
Village Built Clinics. Many of the Village Built Clinics are in extreme 
disrepair and there is a considerable need for a reserve fund for 
upkeep and expansion of these essential village facilities. In 2015, 
the Alaska Native Health Board estimated that a $14 million annual 
appropriation would be needed to fund a replacement reserve to tackle 
the clinic crisis in addition to $12.5 million added to the base 
funding. BBAHC supports increased funding for Village Built Clinics and 
requests that funding be a: (1) separate line item in the IHS budget, 
(2) recurring funding, and (3) displayed in the Budget Justification to 
better enable planning and certainty.
    Contract Support Costs (CSC). BBAHC thanks the House and Senate 
Interior Appropriations Subcommittees for their leadership in 
committing to fully fund IHS and BIA contract support costs and for 
finding a way to due it through providng ``such sums as may be 
necessary'' and making it a separate account in the IHS and BIA 
budgets. For many years, both the IHS and BIA have vastly underpaid the 
contract support costs owed to Tribal organizations and this 
transformation makes an enormous difference in helping to ensure that 
Tribes and Tribal organizations can successfully exercise their rights 
and responsibilities under the ISDEAA. The shift is also likely to 
significantly improve the Federal-Tribal government-to-government 
relationship. We also appreciate that the proviso that would have 
effectively denied CSC carryover authority granted by ISDEAA is absent 
from fiscal year 2017 and 2018 Consolidated Appropriations Acts.
    The House Committee Report language fom fiscal year 2018 
encouraging IHS to pay CSC on their grant programs was welcome, and we 
will continue to advocate to IHS that they take this action.
    BBAHC will continue to advocate for our long-term goal of ensuring 
that full CSC appropriations are made permanent and mandatory. Under 
the ISDEAA, the full payment of CSC is not discretionary; it is a legal 
obligation affirmed by the Supreme Court of the United States. Funding 
of CSC on a discretionary basis has in the recent past placed the House 
and Senate Appropriations Committees, in their own words, in the 
``untenable position of appropriating discretionary funds for the 
payment of any legally obligated contract support costs.'' BBAHC is 
committed to working with the appropriate Congressional committees to 
determine how best to achieve that goal.
    Sequestration/Rescissions. BBAHC respectfully requests the 
subcommittee's support in amending the Balanced Budget and Emergency 
Deficit Control Act to exempt Indian programs, such as the IHS and BIA 
budgets, from across-the board sequestration of funds. We supported 
Congress fully exempting Veterans Health Administration programs from 
sequestration. However, Indian healthcare, as a Federal trust 
responsibility, should be afforded equal treatment. A number of members 
of this subcommittee and other Members of Congress have publicly stated 
that it was an oversight that the Indian budgets were not included in 
the exempt category when the Balanced Budget and Emergency Deficit 
Control Act was enacted.
    We are aware that there is some advocacy in Congress and within the 
administration to rescind some of the recent increases provided in the 
fiscal year 2018 Consolidated Appropritaions Act. The IHS received some 
of those increases, notably in the Facilities Account. It would not be 
right to break the bipartisan agreement that led to the Bipartisan 
Budget Act of 2018 and the fiscal year 2018 Consolidated Appropriations 
Act, and we strongly oppose any such an action.
    Behavioral Health. We have testified before Congress previously 
regarding the hardships in providing for our communities' behavioral 
and mental health needs, particularly with regard to our youth. As you 
know, there is an epidemic of suicide among Alaska Natives, especially 
teens. BBAHC has well-qualified professional staff who service 
approximately 6,500 people in our region. But our social workers, 
counsellors and behavioral health aides have a theoretical caseload of 
300 persons each. The ratio of mental health clinicians to clients is 1 
to 1,300. Our 14-bed residential youth facility for substance abuse 
(Jake's Place) has an Alcohol and Drug Safety program funded by the 
State of Alaska but it is primarily an education program, not a 
treatment program, and much of the education is done remotely, via the 
Internet.
    We urge increases under the IHS Mental health program for 
behavioral health integration and the Zero Suicide Initiative and under 
the Alchohol and Substance Abuse account for Generation Indigenous, the 
pilot youth project, and detoxification. We acknowledge the HHS 
Substance Abuse and Mental Health Services Administration (SAMHSA) 
Tribal behavioral health grants ($15 million substance abuse; $15 
million mental health) but the need in Indian Country is so great.
    Opioid Epidemic. Indian Country has been hit especially hard by the 
opioid abuse epidemic and we urge that the fiscal year 2019 $150 
million SAMHSA passthrough of opioid and mental health funds to the IHS 
be distributed as soon as possible following consultation with Tribes. 
We undersetand that IHS is looking as a starting point distributing the 
funds in a manner similar to that utilized by the Special Diabtes 
Program for Indians.
    Land Transfer Legislation. BBAHC also asks for your support in 
enacting legislation that would direct the Secretary of the Department 
of Health and Human Services to convey a 1.474-acre parcel of land, via 
warranty deed, to BBAHC for the land on which our new state-of-the-art 
dental clinic is located. The legislation is H.R. 236, introduced on 
January 3, 2017 by Congressman Young and S. 269 introduced on February 
1, 2017 by Senators Murkowski and Sullivan.
    The House and Senate bills are identical, and there is no reason 
they should not pass under unanimous consent or under suspension of the 
rules. The property transfer authorized by these bills would enable the 
land transfer from IHS to BBAHC via warranty deed, and would supersede 
any existing quitclaim deed. It would allow the BBAHC to have greater 
control over the land and more opportunities for financing as well as 
to remove any IHS reversionary interests.
    Our new dental facility opened in September 2016, on the grounds of 
the Kanakanak Hospital Compound. The new clinic replaced a dilapidated 
clinic and is providing expanded dental care to our region where there 
are very few public dental clinics. Our service population is 6,500. 
Part of the funding for the dental facility came from BBAHC reinvesting 
its share of a CSC settlement with IHS that was paid to compensate for 
years of contract underpayments to the Tribal health organization. The 
clinic is the first building owned by BBAHC on the hospital campus and 
there is a lot of pride and self-determination that flows from the new 
tribally-owned dental building.
    Telecommunications Connectivity Shortfall Due to Funding Cap. A 
major issue in Alaska is that the subsidies provided for rural 
healthcare providers for telecommunications connectivity, through the 
Universal Service Administration Company (USAC) have been greatly 
reduced. USAC has imposed a pro-rata reduction in rural Health Care 
funding due to a funding cap. This amounts to a reduction of $18.1 
million shortfall just among Alaska's Tribal health programs. We 
literally must have Internet connectivity in order to provide 
healthcare in Alaska and so any shortfall comes out of our health 
services. In the BBAHC area we serve a vast area covering 28 Tribal 
villages. The shortfall next year may be $35 million for Alaska Tribal 
health programs, and our potential shortfall is $4.2 million. We and 
others are advocating with the Federal Communications Commission to end 
the funding cap and we ask for your attention to and support for us on 
this matter.
    We appreciate your leadership and commitment to the advancement of 
Native American people and thank you for your consideration of the 
concerns and requests of the Bristol Bay Area Health Corporation.

    [This statement was submitted by Robert J. Clark, President and 
CEO.]
                                 ______
                                 
                 Prepared Statement of Brown University

April 26, 2018

Submitting organization: Brown University, Providence, Rhode Island

To: Senate Subcommittee on Interior, Environment, and Related Agencies

Regarding: NIEHS Superfund Research Program

    This letter addresses funding for the Superfund Hazardous 
Substances Basic Research and Training Program (Superfund Research 
Program [SRP]) of the National Institute of Environmental Health 
Sciences (NIEHS) at the National Institutes of Health (NIH). The SRP 
program was launched in 1987 to implement the Superfund Amendments and 
Reauthorization Act of 1986 signed into law by President Ronald Reagan. 
The annual funding for the SRP program is determined by Congress 
separately from the rest of the NIH budget. Of critical importance, 
while the rest of NIH funding has experienced a fairly steady increase 
in budget by Congress, the Research Project Grants of SRP have seen a 
decline in funding since 2006 with a drop from $50.6 million to $46.8 
million (out of a total of $77.3 million for SRP).
    We urge your support for the SRP program in the fiscal year 2019 
Interior, Environment and Related Agencies Appropriations bills. We are 
requesting $80,349,000 for fiscal year 2019, which is an increase of $3 
million to reverse losses and sustain growth in this public health and 
research program. The funds will expand support for public and private 
universities and small businesses across the country and will continue 
the SRP track record of creating jobs and economic growth by allowing 
development of abandoned and otherwise unusable land.
    The SRP focuses on human health protection against toxic substances 
in the environment and is frequently the first resource that concerned 
citizens turn to when confronted with threats to their health by 
exposures to environmental chemicals, which are far too common. There 
are currently over 84,000 such chemicals in common use. With broad 
geographic representation, over the years the SRP has funded 
universities, individual research projects and small-businesses in 35 
States including: Arizona, California, Colorado, Florida, Georgia, 
Indiana, Iowa, Kentucky, Louisiana, Maryland, Massachusetts, Michigan, 
Minnesota, Missouri, Nebraska, New Hampshire, New Jersey, Nebraska, 
Nevada, New York, North Carolina, North Dakota, Ohio, Oregon, 
Pennsylvania, Rhode Island, South Carolina, Tennessee, Texas, Utah, 
Virginia, Washington, Wisconsin, West Virginia and Wyoming. With 
continued and expanded funding the opportunities for the SRP we have 
the capacity to expand into other States continuing the trend in 
accelerating Superfund sites restoration, public health protection, job 
creation and the generation of millions of dollars in business revenue 
across the United States.
    The pioneering nature of the SRP has helped to produce a 
distinguished record of accomplishments for the U.S. population, 
guaranteeing a more promising future for all. The SRP pushes the bounds 
of science and engineering by creating innovative technologies that 
save taxpayer dollars and are adopted by small-businesses for the 
restoration of Superfund sites. Some examples include:

  --A natural soil acid strategy developed by SRP researchers was used 
        to accelerate remediation of an arsenic-contaminated site at 
        the Vineland Superfund Site in New Jersey. This strategy 
        greatly reduced the cleanup time, saving taxpayers an estimated 
        $2.4 billion over the life of the project.
  --Small businesses developed new devices to treat gasoline 
        contamination in water and a unique microwave technology for 
        removal of contaminants that was tested at the McClellan Air 
        Force Base.
  --New technologies are being developed to use solar-powered systems 
        to provide clean water to rural communities. Beyond 
        restoration, SRP developed innovative exposure risk reduction 
        strategies that are being communicated to affected communities. 
        Risk reduction leads to significant savings in medical costs. 
        Examples include:

    --Giving folic acid supplementation to exposed individuals to lower 
            blood arsenic levels.
    --Giving calcium to nursing mothers to lower their lead levels.
    --Emphasizing nutrition at all life stages as a form of risk 
            reduction.

    SRP innovations have also been and will continue to be timely for 
facing national natural or manmade disasters. Examples include:

  --New devices to measure biological responses from oil spills in the 
        Gulf of Mexico--created after the Deepwater Horizon Oil Spill 
        of 2010.
  --New technologies to measure biological responses from the Elk River 
        chemical spill of 2014, in West Virginia.
  --Understanding the health effects of the World Trade Center Disaster 
        of September 11, 2001.

    The leading edge SRP is a model for a multidisciplinary research 
which pursues discoveries at the boundaries where scientific 
disciplines meet and innovation is essential. The program will continue 
its forward-thinking strategies by launching new companies and creating 
jobs with a mission of protection against toxic substances. The SRP 
will continue to develop innovative technologies to reduce exposures 
and prevent diseases, ultimately leading to reductions in healthcare 
costs. It will accelerate the removal of sites from the Superfund list 
and develop these sites for industrial use. It will continue to train 
workers to safely clean up and redevelop abandoned, contaminated land. 
It will continue to provide community-based assistance and 
interventions and train an advanced next-generation of 
interdisciplinary scientists.
    Locally in Rhode Island, Brown University is home to one of the 23 
national SRP centers. The Brown University SRP is entitled: Toxicant 
Exposures in Rhode Island: Past, Present, and Future, and is focused on 
complex environmental contaminant issues in Rhode Island. Rhode Island 
has a long history of industrial activity resulting in extensive 
contamination, and we are using an academic-government-community 
partnership to expand the understanding of the human health 
consequences and management of these contaminated sites in our State. 
The Brown center has been in operation for over 11 years, and has 
produced 13 patents and 2 start-up companies. Our Rhode Island 
Community partners include the RI Department of Environmental 
Management, the RI Dept. of Health, the Narragansett Indian Tribe and 
the Woonsaquatucket River Watershed Council.
    Thank you for supporting funding of the SRP program and continuing 
this critical investment in education, public health, and job creation.

Sincerely,
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Robert Hurt, Ph.D.
Professor, Brown University
Director, Brown Superfund Research Program
Director, GAANN training program
                                 <greek-l>
                                 ______
                                 
             Prepared Statement of BrownfieldsPrograms deg.
  Prepared Statement of U.S. Senators in Support of the Environmental 
                Protection Agency's Brownfields Program
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
   Prepared Statement of the Business Council for Sustainable Energy
    On behalf of the Business Council for Sustainable Energy (BCSE), I 
am writing to express support for fiscal year 2019 Federal investment 
in initiatives that help businesses manage environmental issues, foster 
transparency and best practices in emissions and water management, and 
that recognize leadership in environmental stewardship and 
sustainability.
    This includes programs funded by the Environmental Protection 
Agency (EPA) under the Office of Air and Radiation and Enforcement 
Division related to air quality, international climate change programs, 
climate change research and partnership programs, and water management, 
as well as the ENERGY STAR program.
    BCSE is a coalition of companies and trade associations from the 
energy efficiency, natural gas and renewable energy sectors. It 
includes independent electric power producers, investor-owned 
utilities, public power, manufacturers, commercial end users and 
service providers in energy and environmental markets. Founded in 1992, 
the coalition's diverse business membership is united around the 
continued revitalization of the economy and the creation of a secure 
and reliable energy future in America.
    As a business group working to advance clean energy policies over 
the last 25 years, BCSE has seen first-hand the importance of the 
Federal role EPA fills in sharing information about new technologies 
and practices to help speed adoption and allow consumers to make more 
informed decisions.
    The Federal Government's role in these efforts is critical to 
provide transparent, standardized and independent data and expertise 
that cannot be replicated by private sector or non-governmental 
organizations with the same credibility.
            maintaining america's status as an energy leader
    Through regulatory and voluntary initiatives, EPA helps foster the 
U.S. leadership role in clean energy and transportation technologies 
globally. Many EPA programs, including the CHP Partnership, Green Power 
Partnership, Natural Gas Star, AgStar, SmartWay Transport Partnership, 
and others, embody longstanding public-private endeavors that benefit 
American businesses and help them continue to compete on a global 
scale.
    For example, the Natural Gas Star program brings companies together 
to voluntarily evaluate emissions, work to reduce them, and gather data 
that adds transparency and highlights the market's eagerness to adopt 
energy saving measures.
    EPA initiatives provide market transparency, encourage voluntary 
action, and identify companies that are leaders in businesses and in 
environmental protection. Additionally, EPA's laboratories lead the 
world in capabilities that make the United States preeminent in 
research and analysis which supports private sector capabilities to 
enhance economic growth and emissions reductions simultaneously.
              epa programs provide value to u.s. taxpayers
    Federal investments in programs implemented by the EPA have 
multiple benefits including reducing air pollution, saving consumers 
money, and achieving energy independence and security. Additionally, 
clean energy supported over 3 million jobs in the United States in 
2016, due in part to EPA and other government programs that encourage 
the use of clean energy and energy efficiency.\1\
---------------------------------------------------------------------------
    \1\ 2017 U.S. Energy and Employment Report, Department of Energy, 
available at: https://
energy.gov/downloads/2017-us-energy-and-employment-report.
---------------------------------------------------------------------------
    Programs like ENERGYSTAR have proven track records success and are 
extremely cost-effective. Through brand recognition, information and 
positive publicity, the ENERGY STAR program has provided the catalyst 
for many consumers, homeowners, businesses, and State and local 
governments to invest in energy efficiency. The Council opposes moving 
to a fee-based funding model for ENERGYSTAR, which would erode the 
integrity and effectiveness of the program.
epa programs provide critical support to states, tribes, and localities
    Many State, local, and Tribal efforts to improve the environment 
are dependent on the information and resources provided by Federal 
programs. The EPA provides valuable technical assistance, analytical 
tools, and outreach support to State, local, and Tribal governments 
that enable the States to administer robust clean energy and energy 
efficiency programs. Investing in energy efficiency, renewable energy, 
and environmental policies and programs is an important way for State 
and local governments to improve air quality and to improve people's 
health, and to save money. For example, EPA's State and Local Climate 
and Energy Program offers expertise about energy efficiency, renewable 
energy, and climate change policies and programs to interested State, 
local, and Tribal governments. By providing these resources, EPA 
removes barriers that would otherwise prohibit action at the local 
level due to resource constraints or lack of information on best 
practices.
      the federal role for air quality and climate change programs
    EPA can address barriers to the adoption of emissions-reducing 
technologies--such as a lack of reliable information, inconsistent 
regulatory environments, and workforce training gaps--through 
activities that include providing objective information, creating 
networks between the public and private sector and providing technical 
assistance. These efforts can help energy consumers in all sectors. 
Through its programs on renewable energy, natural gas, combined heat 
and power and energy efficiency, EPA encourages the use of clean, 
efficient, and market-ready technologies that can lower costs and 
improve resiliency in addition to lowering emissions.
    EPA also has an important role to play as an international leader 
in climate science and emission reduction frameworks. EPA is engaged in 
a variety of international activities to advance climate change 
science, monitor our environment, and promote activities that reduce 
greenhouse gas emissions. EPA establishes partnerships, provides 
leadership, and shares technical expertise to support these activities.
    The Council wishes to work with members of the Appropriations 
Committee to maximize the value of limited Federal dollars and we 
request the opportunity to meet with your staff to further discuss the 
Council's position and support for EPA programs.

    [This statement was submitted by Lisa Jacobson, President, Business 
Council for Sustainable Energy.]
                                 ______
                                 
    Prepared Statement of the Catawba Indian Nation, South Carolina
Recommendations:
     1.  Provide necessary funding to support Tribal self-determination 
and economic development.
     2.  IHS--Provide full funding and parity to the Indian Health 
Service.
     3.  IHS--$71.292 increase in funding for Preventive Health 
services.
     4.  BIA OJS--$113.7 million for Tribal court development and 
support services.
     5.  BIA--$200 million for Tribal law enforcement development and 
support services.
     6.  BIA--$35 million for the BIA Road Maintenance Program.
     7.  EPA--Maintain adequate funding to protect environmental 
quality in Indian Country.
     8.  BIA--$30 million for the Tribal Climate Resilience Program.
     9.  DOI--$30 million for Department-wide Landscape Conservation 
Cooperatives.
    10.  BIA--$1 million in dedicated funding for NAGPRA 
implementation.
    11.  BIA--Increase funding for Tribal historic preservation efforts 
to protect sacred sites.
    Introduction. Thank you Chairman Murkowski, Ranking Member Udall, 
and Members of the subcommittee for the opportunity to testify on 
critical funding needs for American Indian and Alaska Native programs 
under your jurisdiction. The people of the Catawba Indian Nation thank 
you for your hard work on behalf of Indian Country and for inviting 
Tribal leaders to submit witness testimony on their communities' 
behalf. As you are aware, these programs are based on the political 
relationship that exists between the Federal Government and Tribal 
nations. My name is William Harris and I am the Chief of the Catawba 
Indian Nation, the only federally recognized Tribe in the State of 
South Carolina. Since before recorded history, the Catawba have lived 
in the Piedmont area of South Carolina, east of the Nantahala National 
Forest and along the life-giving waters of the river bearing our name. 
Like our traditional pottery, the Catawba have been created from 
southern soil, to be shaped and fired over time by unimaginable 
hardship, and now stand tall as a living testament to our ancestors and 
to the land we call home. To advance the socioeconomic development and 
well-being of my Nation and other Native communities, I offer the 
following budget recommendations for fiscal year 2019.
         i. sustainable economic development for smaller tribes
    Increased Support for Non-Gaming Tribes. As a sovereign nation and 
industrious people, we are committed to achieving economic self-
sufficiency. For the Catawba Indian Nation, this goal is immeasurably 
complicated by the terms of our 1993 Settlement Act with the State that 
inhibit meaningful Tribal economic development. For example, our Nation 
is currently prohibited from establishing gaming operations on Tribal 
lands under the terms of our Settlement Act. Instead, we are allowed to 
operate just two bingo halls--neither of which ever turned even a 
marginal profit for the Nation due to the mandatory 10 percent fee on 
gross bingo revenue that must be first transmitted to the State. It is 
our hope to come back to the Congress and ask for amendments to our 
Settlement Act that would restore some of our lost sovereignty and 
free-up our economic potential. In the interim, we continue to explore 
innovative avenues for economic growth. We urge Congress to invest in 
economic development programs for non-gaming Tribes to further the 
Federal Government's policy of promoting Tribal self-determination and 
economic self-sufficiency.
    Expanded Access to Investment Opportunities in Indian Country. 
Given adequate support and the appropriate resources, the majority of 
Tribal nations would likely become--assuming they are not already--
significant contributors to their local and regional economies. Tribal 
nations are economic engines of the tourism industry, renewable 
energies, small business development, commercial services, among many 
others. However, limited access to capital and investment financing 
remain substantial barriers in Indian Country. We struggle with 
uniquely burdensome Federal restrictions and regulations, poor 
infrastructure, and other challenges that limit their economies from 
flourishing. It is important to create avenues for investment funds, 
financial resources, and business models that are mutually advantageous 
to Tribes and potential partners for economic advancement, stability, 
and diversification. We encourage Congress to provide increased support 
for investment opportunities in Indian Country in the fiscal year 2019 
budget.
          ii. promoting health and wellness in indian country
    Provide Full Funding and Parity for the Indian Health Service. 
Indian health programs continue to suffer from the effects of annual 
budget cuts due to sequestration under the Budget Control Act of 2011 
(Public Law 112-25). While other critical healthcare agencies such as 
Veterans Affairs were exempt from Federal sequestration in 2013, the 
IHS was not. The disruption in Federal funding resulted in a loss of 
over $219 million from the IHS budget that was never recouped in 
subsequent fiscal cycles through appropriate increases in the IHS 
budget. The compounding, negative effect of this lost funding 
translated into immediate and long-lasting negative health impacts on 
Tribal citizens through lost resources for primary and preventative 
healthcare services, staff recruitment and training, and other 
specialized health programs serving Indian Country. These losses are 
exacerbated every year due to the lack of full IHS funding. We urge 
Congress to provide the IHS with full funding in fiscal year 2019, as 
well as with parity to other Federal healthcare agencies through an 
exemption from any reductions in the Federal budget.
    Plan for the Future with Dedicated Funding for Preventative Health 
Services. The Catawba Indian Nation depends on the IHS for the delivery 
of healthcare services in our community through the local Catawba 
Service Unit. Access is limited, however, due to the Service Unit's 
restricted operating hours and lack of emergency and urgent care 
services. When combined with the disproportionately high rates of 
chronic illness--including diabetes, heart disease, and behavioral 
health and substance use disorders--it becomes clear that innovation in 
healthcare is urgently needed to uproot these negative outcomes in 
Indian Country. For its part, the Catawba Indian Nation is planting the 
seeds for healthy generations of Tribal members through our Wellness 
Warriors program. The mission of the Wellness Warriors is to improve 
overall community health through crosscutting programs, health 
education, physical activity, nutrition, and tobacco cessation. The 
program serves as a trellis for life-long community fitness and 
engagement.
    We believe that increased Federal funding for preventative care 
services as an IHS sub-activity would enable other Tribal nations to 
cultivate and sustain similar programs in their communities. The result 
would be significant long-term savings for the Federal Government by 
reducing future incident rates of chronic illness and associated 
medical costs, as well as increased life-savings by promoting the 
vitality of Tribal members. The President's fiscal year 2019 proposal 
would fund Preventive Health programs at $89.1 million--almost half of 
the fiscal year 2018 Annualized CR level of $158.645 million. We urge 
Congress to invest heavily in the future health and well-being of our 
country by providing an increase of $71.292 million for Preventive 
Health.
                iii. public safety and justice services
    Advance Public Safety with Increased Support for Tribal Courts and 
Law Enforcement Services. At the Catawba Indian Nation, we are proud to 
provide our members with governmental services designed to address 
their myriad socioeconomic, educational, spiritual, and other needs. 
Missing from this panoply is a robust Tribal justice department. We are 
working with the Department of Justice and Bureau of Indian Affairs to 
fill this critical gap through the development of a Tribal court, 
Healing to Wellness alternative drug court, law enforcement agency, and 
related justice services. We have entered into a 638 contract with the 
BIA to develop Tribal court services, once established we will then 
satisfy the necessary requirements to apply for DOJ grants. The process 
is long, complicated, and costly for our Nation. However, building the 
internal infrastructure to address these needs is a fundamental aspect 
of our Tribal sovereignty and one that we are dedicated to fulfilling. 
To advance public safety, we recommend Congress allocate $113.7 million 
for Tribal court services in the BIA Office of Justice Services. We 
also urge Congress to provide an additional $200 million for law 
enforcement and detention services.
    Connect Tribal Communities to Essential Services through Increased 
BIA Roads Construction and Maintenance Funding. Adequate and well-
maintained roads are essential to connecting our Tribal members with 
essential on-reservation programs and services, as well as with nearby 
urban centers. Funding for the BIA Road Maintenance program, however, 
has been level-funded at approximately $30 million for several fiscal 
year cycles, despite the accumulation of over $290 million in 
backlogged needs. The Catawba Indian Nation has 33 miles of roads 
included on the BIA Roads Inventory. Maintaining these roads costs 
$215,000 annually, but we receive only $25,000 in Federal assistance. 
The $190,000 difference is taken from our Tribal Transportation Roads 
Program allocation, which in turn reduces the amount available for new 
roads construction to support our housing and economic development 
projects. We also have several pressing roads construction and 
maintenance needs, such as an access road to the Veterans Cemetery, 
that will require significant Tribal investment. These unmet needs 
place our Tribal members in harm's way due to the unnecessary risks 
posed by unstable and unsafe roads that impair access, damage vehicles, 
and obstruct the timely arrival of emergency assistance. We urge 
Congress to provide at least $35 million for the BIA Road Maintenance 
program to protect the health, safety, and welfare of Indian Country.
                    iv. natural resources management
    Maintain Adequate EPA Funding to Protect the Environmental Quality 
of Indian Country. We depend on the EPA's fulfilment of its trust 
responsibilities and partnership obligations to protect human health 
and our shared environment. Currently we receive funding for the 
General Assistance Program, Clean Air Act, Clean Water Act and 
Brownfield 128a Program. We have used and leveraged these resources to 
advance our environmental programs with benefits at the Tribal, local, 
and State levels. For example, we developed an ambient air monitoring 
program that measures ozone and particulate matter 2.5 micron and 
smaller. The data is posted on Air Now South Carolina, providing Tribal 
members and State residents with accurate air quality information. We 
also partner with the State to generate air quality forecasts for a 
three county area. Moreover, for water equality, we established a water 
monitoring program using Clean Water Act funding. This program has 
enabled us to monitor and conduct analysis of pathogens in the water 
and inform Tribal members and leadership of potential health risks. 
Through these programs, we have cultivated an environmental presence 
that we have not had through history to ensure to the best of our 
abilities, that Catawba Tribal members have access to clean water, air, 
land and fish that are safe for consumption. The job is not finished. 
We urge Congress to maintain adequate funding for EPA environmental 
quality programs serving Indian Country so that we can achieve a 
cleaner, healthier and more prosperous Nation today and for future 
generations.
    Maintain Funding for the Tribal Climate Resilience Program and 
Interior Landscape Conservation Cooperatives. Today, across the United 
States, American communities are facing increasing public health, 
safety, and natural resources management challenges associated with our 
progressively unstable natural environment. Water availability, 
catastrophic wildfires and floods, invasive species, disappearing tree 
lines, and accelerated rates of erosion are only limited examples of 
the ways in which our world is changing. Tribal nations are often among 
the first to feel the effects of these developments on our subsistence, 
hunting, and gathering activities. The BIA Tribal Climate Resilience 
Program--along with Department-wide Landscape Conservation Cooperatives 
run in agencies such as the BLM, FWS, NPS, BIA, and BOR--is intended to 
provide Tribal nations with the tools to manage resource stressors and 
develop adaptive management plans in coordination with Federal, State, 
and local actors, to mitigate and prevent environmental degradation. 
Maintaining and furthering this progress is critical, not only for 
Tribal nations but for all Americans. We urge Congress to provide $30 
million for the BIA Tribal Climate Resilience Program and $30 million 
for Interior Cooperative Landscape Conservation programs.
              v. protection for tribal cultural patrimony
    Maintain the $1 Million in Dedicated Funding for NAGPRA 
Implementation. The Catawba Indian Nation would like to take this 
opportunity to thank Congress for providing $1,000,000 to implement the 
Native American Graves Protection and Repatriation Act (NAGPRA) in the 
fiscal year 2019 Omnibus. This directed funding within BIA Criminal 
Investigations and Police Services supports Bureau-wide trainings and 
the salary of a dedicated FTE on this issue. Because of your support, 
the Federal Government is undergoing a paradigm shift on the way that 
it views and understands the importance of safeguarding Tribal objects 
of patrimony. When aligned with the Federal protections of the PROTECT 
Patrimony Resolution, passed by the Congress in December 2016, we can 
see a positive path forward in ensuring that the next generation will 
have access to these important cultural and ceremonial resources. We 
strongly encourage Congress to maintain the $1 million in dedicated 
funding for NAGPRA enforcement in fiscal year 2019.
    Tribal Historic Preservation Offices (THPOs). The landscapes and 
features that qualify as Tribal sacred sites are as diverse as the 573 
Tribal nations currently recognized by the Federal Government. Each 
individual Tribal nation must decide for itself what does or does not 
constitute a sacred site. In recent years, an increasing number of 
Tribal governments have established THPOs equivalent to State programs 
under the National Historic Preservation Act. Federal funding, however, 
has not kept up with the expansion of THPO programs and, as a result, 
it is difficult for Tribal governments to meet their preservation 
compliance duties and responsibilities. For fiscal years 2018 and 2019, 
the President proposed to eliminate all funding for Tribal historical 
preservation. We were and continue to be encouraged by Congress's 
steadfast refusal to do so--in fact, Congress provided a $1,000,000 
increase in funding for fiscal year 2018. We urge Congress to hold the 
course and provide an increase in THPO funding for fiscal year 2019 to 
better protect Tribal sacred sites.
                                 ______
                                 
    Prepared Statement of the Center for Invasive Species Prevention

April 27, 2018

 
 
 
The Honorable Lisa Murkowski          The Honorable Tom Udall
Chairman                              Ranking Member
Committee on Appropriations           Committee on Appropriations
Subcommittee on Interior,             Subcommittee on Interior,
 Environment, and Related Agencies     Environment and Related Agencies
 


Dear Chairman Murkowski, Ranking Member Udall, and Honorable Committee 
Members:

    The Center for Invasive Species Prevention (CISP) is a not-for-
profit organization which promotes policy and non-governmental 
approaches to prevent the introduction and spread of invasive species. 
One area of focus is non-native insects and diseases which threaten the 
tree species which compose our Nation's forests--wildland, rural, and 
urban.
    CISP greatly appreciates this subcommittee's long support for the 
USDA Forest Service' important and effective programs addressing non-
native pests. We ask you to again reject the drastic cuts proposed in 
the President's fiscal year 2019 budget, which target programs that 
have already suffered significant cuts in recent years.
            usda forest service: state and private forestry
Forest Health Management
    Forests across the country are threatened by insects and disease 
pathogens introduced from abroad as unwanted hitchhikers on imports. 
Already, nearly 500 such pests are killing trees and additional species 
are likely to be introduced as undesired hitchhikers on imported goods. 
The damage usually starts in urban forests because most imported goods 
enter this country through urban ports. As a result, municipal 
governments across the country are spending an estimated $3 billion 
each year to remove trees on city property killed by non-native pests. 
Homeowners are spending an additional $1 billion to remove and replace 
trees on their properties and are absorbing an additional $1.5 billion 
in reduced property values. These costs are projected to rise to more 
than $36 billion as pests spread.
    The pests do not stay in the cities, however. They spread to the 
rural and wildland forests and threaten their many values. The most 
recent examples are the shot hole borers in southern California, now 
known to be in the Angeles and Cleveland National forests.
    While preventing introductions are the desired approach (this 
responsibility falls to the USDA Animal and Plant Health Inspection 
Service), it is essential that the U.S. Forest Service initiate 
programs countering these pests as soon as they are detected. Only such 
prompt and aggressive actions can protect public and private forests 
from massive pest spread and tree devastation.
    Unfortunately, the President's budget proposes to cut the forest 
health protection program by 8.5 percent. The proposal would cut the 
``cooperative lands'' account by 11 percent (from $38,735,000 to 
$34,376,000). The Center for Invasive Species Prevention considers this 
proposed cut to be extremely unwise in the face of the growing threat 
from non-native pests. The ``cooperative lands'' forest health 
protection program provides essential expertise and assistance to State 
and municipal agencies and private landowners working where the pests 
first appear to prevent these pests' spread and minimize the damage 
they cause. Consequently, the Center for Invasive Species Prevention 
recommends increasing funding cooperative lands programs under the 
Forest Health Management program to $48 million.
           usda forest service: forest and rangeland research
    The Center for Invasive Species Prevention urges the subcommittee 
to maintain funding for the overall R&D program at $303 million. The 
R&D program
Non-native Insects and Diseases Research
    Among the major research challenges facing R&D is the destruction 
of our Nation's forests caused by non-native insects and diseases. All 
Americans look to the USDA Forest Service R&D program to develop better 
tools for pest detection and protective strategies including chemical 
and biological controls and breeding of trees resistant to pests. The 
budget justification document reports that invasive species are one of 
six priority areas for research, receiving a total of $28.5 million (11 
percent of the total budget request). However, only about $3 million of 
the $28 million supports studies by the Research stations on non-native 
insects and diseases--barely more than 1 percent of the total research 
budget. Funding for the Research stations to study invasive species has 
fallen 60 percent since fiscal year 2010. CISP believes further 
reductions are unwise given the large and growing threat from non-
native insects and diseases. In the absence of a budget line item for 
invasive species research, we urge the subcommittee to include language 
in its Interior Appropriations report encouraging the Forest Service to 
increase funding for research targeting non-native insects and 
pathogens.

Sincerely,
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Faith T. Campbell, Ph.D.
Vice President
Center for Invasive Species Prevention
www.cisp.us
                                 ______
                                 
 Prepared Statement of the Central Arizona Water Conservation District

   Support for $1.5 Million for Salinity Control in Fiscal Year 2019 
Funding for the Colorado River Basin Salinity Control Program Under the 
     Bureau of Land Management's (BLM) Soil, Water and Air Program

    On behalf of the Central Arizona Water Conservation District 
(CAWCD), I encourage you to include $1.5 million for salinity specific 
projects in the Bureau of Land Management's (BLM) Soil, Water and Air 
Program in fiscal year 2019. The funding will help protect the water 
quality of the Colorado River that is used by approximately 40 million 
people for municipal and industrial purposes and used to irrigate 
approximately 5.5 million acres in the United States.
    CAWCD manages the Central Arizona Project (CAP), a multi-purpose 
water resource development and management project that delivers 
Colorado River water into central and southern Arizona. The largest 
supplier of renewable water in Arizona, CAP diverts an average of over 
1.5 million acre-feet of Arizona's 2.8 million acre-foot Colorado River 
entitlement each year to municipal and industrial users, agricultural 
irrigation districts, and Indian communities.
    Our goal at CAP is to provide an affordable, reliable and 
sustainable supply of Colorado River water to a service area that 
includes more than 80 percent of Arizona's population.
    These renewable water supplies are critical to Arizona's economy 
and to the economies of Native American communities throughout the 
State. Nearly 90 percent of economic activity in the State of Arizona 
occurs within CAP's service area. The canal provides an economic 
benefit of $100 billion annually, accounting for one-third of the 
entire Arizona gross State product. CAP also helps the State of Arizona 
meet its water management and regulatory objectives of reducing 
groundwater use and ensuring availability of groundwater as a 
supplemental water supply during future droughts. Achieving and 
maintaining these water management objectives is critical to the long-
term sustainability of a State as arid as Arizona.
                 negative impacts of concentrated salts
    Natural and man-induced salt loading to the Colorado River creates 
environmental and economic damages. EPA has identified that more than 
60 percent of the salt load of the Colorado River comes from natural 
sources. The majority of land within the Colorado River Basin is 
federally owned, much of which is administered by BLM. Human activity, 
principally irrigation, adds to salt load of the Colorado River. 
Further, natural and human activities concentrate the dissolved salts 
in the River.
    The U.S. Bureau of Reclamation (Reclamation) has estimated the 
current quantifiable damages at about $454 million per year to U.S. 
users with projections that damages would increase to approximately 
$574 million per year by 2035 if the program were not to continue. 
These damages include:

  --A reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector;
  --Increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector; and
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.

    Adequate funding for salinity control will prevent the water 
quality of the Colorado River from further degradation and avoid 
significant increases in economic damages to municipal, industrial and 
irrigation users.
    history of the blm colorado river basin salinity control program
    In implementing the Colorado River Basin Salinity Control Act of 
1974, Congress recognized that most of the salts in the Colorado River 
originate from federally owned lands. Title I of the Salinity Control 
Act deals with the U.S. commitment to the quality of waters being 
delivered to Mexico. Title II of the Act deals with improving the 
quality of the water delivered to users in the United States. This 
testimony deals specific with Title II efforts. In 1984, Congress 
amended the Salinity Control Act and directed that the Secretary of the 
Interior develop a comprehensive program for minimizing salt 
contributions to the Colorado River from lands administered by BLM.
    In 2000, Congress reiterated its directive to the Secretary and 
requested a report on the implementation of BLM's program (Public Law 
106-459). In 2003, BLM employed a Salinity Coordinator to increase BLM 
efforts in the Colorado River Basin and to pursue salinity control 
studies and to implement specific salinity control practices. 
Meaningful resources have been expended by BLM in the past few years to 
better understand salt mobilization on rangelands. With a significant 
portion of the salt load of the Colorado River coming from BLM 
administered lands, the BLM portion of the overall program is essential 
to the success of the effort. Inadequate BLM salinity control efforts 
will result in significant additional economic damages to water users 
downstream.
    The threat of salinity continues to be a concern in both the United 
States and Mexico. On November 20, 2012, a 5-year agreement, known as 
Minute 319, was signed between the U.S. and Mexico to guide future 
management of the Colorado River. Among the key issues addressed in 
Minute 319 included an agreement to maintain current salinity 
management and existing salinity standards. The United States, Mexico, 
and key water users, including CAWCD, worked since 2015 to develop a 
successor agreement, Minute 323, which was finalized on September 27, 
2017. Minute 323 continues collaboration and cooperation among the 
United States and Mexico with respect to salinity control in the 
Colorado River system. The CAWCD and other key water providers are 
committed to meeting these goals.
                               conclusion
    Implementation of salinity control practices through the BLM 
Program has proven to be a very cost effective method of controlling 
the salinity of the Colorado River and is an essential component of the 
overall Colorado River Basin Salinity Control Program.
    CAWCD urges the subcommittee to include $1.5 million for salinity 
specific projects in the Bureau of Land Management's (BLM) Soil, Water 
and Air Program. The continuation of funding will prevent further 
degradation of the water quality of the Colorado River and further 
degradation and economic damages experienced by municipal, industrial 
and irrigation users. A modest investment in source control pays huge 
dividends in improved drinking water quality for nearly 40 million 
Americans.

    [This statement was submitted by Theodore C. Cooke, General 
Manager.]
                                 <greek-l>
                                 ______
                                 
        Prepared Statement of ChildrensEnvironmentalHealth deg.
  Prepared Statement of U.S. Senators in Support of the Environmental 
  Protection Agency's Programs That Improve Children's Environmental 
      Health and Educational Facility Issues for Fiscal Year 2019
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
          Prepared Statement of the Choctaw Nation of Oklahoma
    On behalf of the Choctaw Nation of Oklahoma, I am submitting 
written testimony for the hearing record on the fiscal year 2019 
budgets for the Indian Health Service (IHS) and the Bureau of Indian 
Affairs (BIA). This testimony identifies the funding priorities and 
budget issues important to the Choctaw Nation and its citizens. The 
Choctaw Nation requests that Congress exempt Tribal Government Services 
and Program Funding from Sequestrations, Unilateral Rescissions and 
Budget Cuts in all future appropriations. We also request that Congress 
continues to fully-fund Contract Support Cost (CSC) without impacting 
direct program funding.
    The Choctaw Nation requests that the subcommittee works to approve 
timely appropriations for fiscal year 2019. Tribes are severely 
impacted under an annualized continuing resolution (CR) because of less 
funding being available for Tribes programs. The Congressional Budget 
Office (CBO) estimates the budgetary effects of interim CRs on an 
``annualized'' basis, meaning that the effects are measured as if the 
CR were providing budget authority for the remainder of the fiscal 
year. However without the timely approval of annual budgets, Tribal 
government services are put on hold, decreased or eliminated until the 
budget is approved. We ask that Congress take into account how Tribal 
services are unfairly impacted repeatedly with the failure to pass an 
annual appropriation.
    The Indian Health Service and the Indian Affairs have been without 
congressionally confirmed leadership since 2015. For American Indians 
and Alaska Natives (AI/AN) this represents a violation to the Federal 
trust responsibility as a legal enforceable fiduciary obligations on 
the United States to protect Tribal treaty rights, lands, assets, 
resources as well as a duty to carry out the mandates of Federal law. 
We are underrepresented in the budget process without Executive Branch 
Leadership working with us to advance our policy and budget priorities. 
These positions require qualified leadership who understands Tribes and 
how to work with us to advance a budget that includes the real needs of 
Tribes. We ask that you work with the administration to quickly fill 
these positions with Native candidates who meet the criteria and have 
verifiably demonstrated the qualifications for the jobs.
    Thank you for appropriating staffing funds in 2017 for the Joint 
Venture Project (JVP) between the Choctaw Nation and Indian Health 
Service. We opened our medical campus, the Choctaw Nation Health Care 
Center, in February 2017. We are the first Tribal IHS program to have 
an outpatient ambulatory surgery clinic. Other services also include 
primary care, dental, pediatrics, a lab, diabetes care, community 
health nurses, optometry, radiology services (including MRI, CT, bone 
density, mammography, ultrasound, fluoroscopy and x-ray), pharmacy, 
behavioral health, physical therapy, and numerous specialty care 
services. This is our fourth JVP with IHS and both have been an 
invaluable exercise in partnership and investment in improved quality 
healthcare for Native American people.
    Although there are many facility needs in the Choctaw Nation and 
Oklahoma City Area, none are included on the IHS Health Facilities 
Construction program listing. The current backlog of facility needs 
would take decades to construct at the current pace of appropriations 
and yet it will still not address any needs in Oklahoma. Therefore, the 
only viable option for Tribal health facilities in Oklahoma is the JVP, 
which is a very small and highly competitive program. IHS has not held 
a competition for the program since 2014 and has created a similar 
`queue' as the large Health Facilities Construction program. The IHS 
should abandon this failed approach and compete the JVP on at least a 
bi-annual basis to address the highest facility priorities.
    We strongly urge the Committee to protect the Federal trust and 
treaty obligations that are funded in the Federal domestic budget. 
Federal funding that meets Federal Indian treaty and trust obligations 
also provides significant contributions to the economy. In just the 
Department of the Interior (DOI), the BIA and Bureau of Indian 
Education (BIE) contribute substantially to economic growth in Tribal 
areas through advances in infrastructure, strategic planning, improved 
practices of governance, and the development of human capital.
                     the choctaw nation of oklahoma
    The Choctaw Nation of Oklahoma is the third largest Native American 
Tribal government in the United States with over 230,000 members. The 
Choctaw Nation territory consists of all or part of 10 counties in 
Southeast Oklahoma, and we are proudly one of the State's largest 
employers. The Nation operates numerous programs and services under 
Self-Governance compacts with the United States, including but not 
limited to: a sophisticated health system serving over 60,000 patients 
with Choctaw Nation Health Care Center (Hospital) in Talihina, nine (9) 
outpatient clinics, including three Joint Venture Projects in 
partnership with the Indian Health Service, the most recent of which is 
the Choctaw Regional Medical Clinic in Durant.
    The Nation also administers referred specialty care and sanitation 
facilities construction; higher education; Johnson O'Malley program; 
housing improvement; child welfare and social services; law 
enforcement; and, many other programs and services. The Joint Venture 
Construction Program (JVCP) is one of the IHS's most successful 
initiatives to increase access to healthcare throughout Indian Country. 
The Choctaw Nation has operated under the Self-Governance authority in 
the DOI since 1994 and in the Department of Health and Human Services' 
IHS since 1995. As a Self-Governance Tribe, the Nation is able to re-
design programs to meet Tribally-specific needs without diminishing the 
United States' trust responsibility. Self-Governance is now a permanent 
reality for many Tribes.
    The Choctaw Nation has improved the health status of our people by 
operating a high quality healthcare system that is responsive and 
designed to meet the increasing complex needs of our users. We have 
leveraged scarce resources that have enabled us to succeed in the 
challenging healthcare field. We owe much to Self-Governance which 
authorized flexibility to use Federal appropriations in an efficient, 
effective way that supports the expansion and growth of the healthcare 
system we are continuing to build for our people.
NATIONAL BUDGET REQUESTS--INDIAN HEALTH SERVICE
    1.  Special Diabetes Program for Indians--Support reauthorization 
of $200 million/year for 5 years (IHS).--The administration's budget 
proposes to move SDPI from ``mandatory funding'' which Congress must 
authorize from time to time to ``discretionary spending'' which would 
allow Congress to control the funding going to SDPI as part of the 
annual appropriations process. That means SDPI will compete for other 
Indian programs annually, as opposed to being funded automatically 
outside of that environment today. Indian Country has not been 
consulted on this proposal and the rationale for the request has not 
been made available to us. We request no changes until such 
consultation occurs.
    2.  Contract Support Costs--Indian Health Service and Bureau of 
Indian Affairs (IHS and BIA).--The Nation appreciates the continued 
support of the Committees to fully fund CSC requirements without 
impacting direct Indian health programs. Beginning in fiscal year 2014, 
fully funding CSC has made a tremendous improvement and properly 
retained important health program funding to direct services. We 
request that IHS be instructed to consult with Tribes on every 
provision of the CSC Policy until both sides reach consensus; and if at 
any time the IHS seeks to unilaterally make changes, they should be 
directed to consult with Tribes prior to any changes in the CSC Policy.
    3.  Purchased and Referred Care (PRC)--Provide $407.4 million.--The 
Purchased/Referred Care (PRC) program pays for urgent and emergency, 
specialty care and other critical services that are not directly 
available through IHS and Tribally-operated health programs when no IHS 
direct care facility exists, or the direct care facility cannot provide 
the required emergency or specialty care, or the facility has more 
demand for services than it can currently meet. Although the Nation 
operates a hospital facility, the hospital is located in a very rural 
area, we are the only provider in the community and services are 
limited. In fact, our hospital does not have an intensive care unit, 
which requires patients to be flown to another facility using PRC. 
Therefore, PRC is a significant need to provide intensive care and 
tertiary care, as well as emergency transportation.
    4.  IHS Mandatory Funding (Maintaining Current Services)--Provide a 
total of $6.4 billion, a 33 percent increase over the fiscal year 2016 
planning base. Increases include:
 a.  an increase of $421.2 million to maintain current services and 
other binding obligations($169.1 million for full funding of current 
services and $252.1 million for binding fiscal obligations); and,
 b.  an increase of $1.17 billion for program expansion
    5.  Opioid Funding.--Increase funding and include Tribal set asides 
in any funding decisions to states. Addressing the opioid epidemic is a 
nationwide priority. American Indians and Alaska Natives (AI/AN) face 
opioid related fatalities three times the rate of non-Natives.
    6.  Other IHS Program Services & Facilities Increases:
 a.  Hospital and Clinics: Increase of $295.5 million
 b.  Dental Services: Increase of $67.2 million
 c.  Mental Health: Increase of $122.6 million
 d.  Alcohol and Substance Abuse: Increase of $114.5 million
 e.  IHS Facilities: Increase of $280.4 million
    7.  Provide $6 million Funding Increases to Support the IHS Office 
of Tribal Self-Governance (IHS) to fully staff the operations to build 
capacity to support the increased number of Tribes entering Self-
Governance.--Today there are 365 Self-Governance (SG) Tribes which 
represents over 64 percent of all federally-recognized Tribes. The 
Self-Governance process serves as a model program for Federal 
Government outsourcing, which builds Tribal infrastructure and provides 
quality services to Indian people.
NATIONAL BUDGET REQUESTS --BUREAU OF INDIAN AFFAIRS
    1.  Education.--Support the following funding amounts:
 a.  Provide $2.6 billion for system-wide Bureau of Indian Education 
(BIE) school construction and repair.
 b.  Provide $42illion for Johnson O'Malley
 c.  Provide $73 million for Student Transportation in the BIE system
 d.  Provide $78 million for Tribal Grant Support Costs for Tribally-
controlled schools
 e.  Provide $109 million for BIE facilities operations
 f.  Provide $76 million for BIE facilities maintenance
 g.  Provide $431 million for the Indian School Equalization Formula
 h.  Provide $41 million for Education IT
 i.  Provide $5 million for BIE immersion programs
 j.  Reinstate $620,000 for juvenile detention education in BIA-funded 
facilities
    2.  Fully Fund Fixed Costs and Tribal Pay Costs.--We strongly urge 
full funding of fixed costs and Tribal pay costs. Most Federal agencies 
receive annual increases to their Fixed Costs rates each year to 
address inflationary costs associated with Fringe Benefits and Pay 
Costs. Historically, Tribes have been disadvantaged because they have 
never received Fringe Benefit Fixed Cost adjustments. Previous 
administrations have only partially funded Pay Costs. Partially funding 
or failing to fund Pay Costs for Tribes has devastated Tribal 
communities by causing critical job losses.
    3.  Increase Tribal Base Funding (instead of through grants)--
Provide increases via tribal base funding instead of through grants to 
Tribal governments.--Tribal leaders have grown increasingly frustrated 
by the increase in Indian Affairs funding offer through grants, which 
are inconsistently funded and unreliable upon which to build successful 
programs and interventions. Allocating new funds via grants 
marginalizes and impedes the Tribal Self-Determination and Self-
Governance.
    4.  Office of Self-Governance (OSG).--Provide increase funding to 
the OSG to fully staff the office for the increase in the number of 
Tribes entering Self-Governance.
    The Choctaw Nation supports the National Congress of American 
Indian (NCAI), the National Indian Health Board (NIHB), and the 
National Indian Education Association (NIEA) Fiscal Year 2018 Tribal 
Budget Recommendations. These recommendations have been compiled in 
collaboration with Tribal leaders, Native organizations, and Tribal 
budget consultation forums.
    Thank you for accepting this written testimony from the Choctaw 
Nation of Oklahoma.

    [This statement was submitted by Mickey Peercy, Executive Director, 
Self-Governance.]
                                 ______
                                 
         Prepared Statement of the Choose Clean Water Coalition
Dear Chair Murkowski and Ranking Member Udall:

    To follow a common sense path to maintain healthy local water and 
restore the Chesapeake Bay, which is critical for our regional economy, 
the undersigned members of the Choose Clean Water Coalition request 
funding for the following programs in fiscal year 2019:
                  u.s. environmental protection agency
Chesapeake Bay Program--$73.0 million
    We support level funding of $73.0 million for the base budget of 
the Chesapeake Bay Program (CBP). At least two-thirds of the program's 
funds are passed through to the States and local communities for on-
the-ground restoration work through the Small Watershed Grants, 
Innovative Nutrient and Sediment Reduction Grants, State Implementation 
Grants, and the Chesapeake Bay Regulatory and Accountability Program 
grants.
    We strongly support the highly successful and popular Chesapeake 
Small Watershed Grants and the Innovative Nutrient and Sediment 
Reduction Grants--$6 million each--that Congress appropriated for the 
past few years. These have contributed significantly to water quality 
improvements throughout the Chesapeake Bay watershed. These are the 
CBP's only grants that go directly to on-the-ground restoration efforts 
by local governments and communities, including to family farms. 
Without specific Congressional direction, EPA has, in the past, 
reallocated this grant money for purposes other than local restoration. 
This is not the time to stop local implementation of restoration work. 
We strongly support the funding levels that Congress has appropriated 
each year since fiscal year 2015, and we urge you to include language 
similar to the Senate's Explanatory Statement for the Department of the 
Interior, Environment, and Related Agencies Appropriations Bill, 2018, 
which states, ``Chesapeake Bay--The Committee recommends $73,000,000 
for the CBP. From within the amount provided, $6,000,000 is for 
nutrient and sediment removal grants and $6,000,000 is for small 
watershed grants to control polluted runoff from urban, suburban and 
agricultural lands.''
    We urge you to retain similar language in the fiscal year 2019 
Interior Appropriations Bill, for both the overall CBP and for the 
local grant programs.
Clean Water State Revolving Fund (CWSRF) --$2.8 billion
    This program is critical to any national initiative to provide a 
Federal Infrastructure Spending Plan and it provides the lifeblood for 
the 1,779 local governments throughout the Chesapeake region to secure 
their water infrastructure. The funding level for this CWSRF has eroded 
over the years as the clean water needs of local communities have 
increased dramatically. The CCWC supports efforts in both the House and 
the Senate, and within the administration, to enhance investments in 
key water infrastructure projects nationwide, and the CWSRF is the 
single best mechanism to accomplish that goal. We support doubling the 
current funding for the CWSRF--and that is what we are requesting. This 
will help to close the gap between Federal infrastructure investment in 
clean water and the known need. This will also dramatically improve 
water quality and protect human health in our region and across the 
Nation.
    These low interest loans are critical for clean water and for 
ratepayers in the Chesapeake region and nationwide. We urge you to 
support the $2.8 billion funding level that would provide $590 million 
in low interest loans to local governments in Delaware, Maryland, New 
York, Pennsylvania, Virginia, West Virginia and the District of 
Columbia. We also strongly support targeting 20 percent of the CWSRF 
funds for green infrastructure and innovative projects including those 
to manage stormwater, which helps communities improve water quality 
while creating green space, mitigating flooding, and enhancing air 
quality.
    The CWSRF allocates money to the States based on a set formula, 
which is then used for low interest loans to local governments for 
critical capital construction improvement projects to reduce nutrient 
and sediment pollution from wastewater treatment and stormwater 
facilities. In addition, it provides assistance for other pollution 
reduction and prevention activities in rural areas, such as 
reforestation and stream restoration. The CWSRF enables local 
governments in the Chesapeake watershed to take actions to keep their 
rivers and streams clean. As the list of clean water infrastructure 
needs in the Chesapeake region continues to expand, we request that 
Congress double the funding of the CWSRF from the current funding 
level.
                       department of the interior
U.S. Geological Survey (USGS)--Chesapeake Bay Studies--$12.6 million
    We support full funding for the USGS to continue to provide the 
critical science necessary for restoration and protection efforts for 
fish, wildlife and the 18 million people in the Chesapeake Bay 
watershed. USGS monitoring and assessment informs decisions made by the 
Department of the Interior as well as other Federal and State partners 
on issues related to fisheries and associated water quality, waterfowl 
and their habitats and land protection.
    In fiscal year 2019, USGS is putting a new focus on habitat 
conditions supporting important recreational fisheries. Habitat 
conditions from headwater streams to tidal estuaries will be assessed 
to help focus, and evaluate, restoration and protection efforts. The 
efforts will include summarizing the factors affecting fish health in 
the watershed. The findings will also inform the development by the 
States of their Phase III Watershed Implementation Plans.
    USGS provides the expertise to restore and conserve coastal 
wetlands that are critical habitat for the more than one million 
waterfowl that winter in the Chesapeake region. In 2019 studies of 
black duck habitats will be used by the U.S. Fish and Wildlife Service 
to adapt practices on national wildlife refuges, and USGS will begin to 
address shallow water habitats important for additional recreational 
species.
    USGS will be supplying land-change forecasts to inform land 
protection. The National Park Service and the Chesapeake Conservation 
Partnership have requested the USGS to provide forecasts of where 
development may impact healthy watersheds and vital lands across the 
watershed.
    Finally, USGS is leading an effort to map areas where restoration 
and conservation efforts will contribute to multiple Chesapeake goals--
benefiting people in the watershed as well as fish and wildlife. This 
mapping is being used by State and Federal partners to more effectively 
focus actions and share available resources.
National Park Service--Chesapeake Regional Programs--$2.897 million
    The National Park Service Chesapeake Bay Office runs a number of 
small, but important programs that focus on increasing public access 
and the use of resources of the Chesapeake region. Expanding access and 
public awareness fosters stewardship and protection efforts.
    We are requesting level funding for these key programs administered 
by the National Park Service in the Chesapeake Bay watershed: Captain 
John Smith Chesapeake National Historic Trail ($389,000); Chesapeake 
Bay Gateways & Trails ($2.02 million); and support for coordinating 
these programs through the National Park Service Chesapeake Bay Office 
($488,000). In addition, as in the Consolidated Appropriations Act of 
2016, we urge you to extend the authorization for the Chesapeake Bay 
Gateways & Trails program for 2 more years.
       department of the interior/u.s. department of agriculture
 National Park Service/U.S. Fish and Wildlife Service/U.S. Forest 
        Service--Land and Water Conservation Fund Priority Projects in 
        the Chesapeake Bay Watershed--$12.752 million
    We strongly support full funding for the Land and Water 
Conservation Fund. In particular, we support continuation of the 
strategic use of funds from the Land and Water Conservation Fund for 
priority projects in the Chesapeake Bay watershed. These efforts target 
conservation funds for critical priority landscapes throughout the 
Chesapeake Bay region. The following projects would protect nearly 
6,000 acres nationally significant resources, such as migratory bird 
habitat, spawning areas for economically important fish and shellfish, 
significant forest resources and projects to enhance public access.

  --U.S Fish & Wildlife Service--James River Nat'l Wildlife Refuge 
        (VA)--$1 million
  --U.S Fish & Wildlife Service--Rappahannock River Valley Nat'l 
        Wildlife Refuge (VA)--$2 million
  --U.S. Forest Service--George Washington and Jefferson Nat'l Forests 
        (VA)--$452,000
  --U.S. Forest Service--George Washington and Jefferson Nat'l Forests 
        (VA)--$2,300,000
  --National Park Service--Captain John Smith Chesapeake Nat'l Historic 
        Trail (VA)--$4,000,000
  --National Park Service--Richmond Nat'l Battlefield Park (VA)--
        $3,000,000

    Thank you for your consideration of these very important requests 
to maintain funding for these programs which are critical to clean 
water throughout the mid-Atlantic region. Please contact Peter J. Marx 
at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="25554051405765464d4a4a5640464940444b52445140570b4a5742">[email&#160;protected]</a> with any questions or concerns.

            Sincerely,

1000 Friends of Maryland
Alice Ferguson Foundation
Alliance for the Chesapeake Bay
American Chestnut Land Trust
American Rivers
Anacostia Watershed Society
Audubon Naturalist Society
Audubon Society of Northern Virginia
Back Creek Conservancy
Baltimore Tree Trust
Blue Heron Environmental Network
Blue Ridge Watershed Coalition
Blue Water Baltimore
Cacapon Institute
Capital Region Land Conservancy
Catskill Mountainkeeper
Center for Progressive Reform
Chapman Forest Foundation
Chesapeake Bay Foundation
Chesapeake Legal Alliance
Chesapeake Wildlife Heritage
Clean Fairfax
Clean Water Action
Coalition for Smarter Growth
Conservation Voters of Pennsylvania
Delaware Nature Society
Ducks Unlimited
Earth Force
Earth Forum of Howard County
Eastern Pennsylvania Coalition for Abandoned Mine Reclamation
Elizabeth River Project
Elk Creeks Watershed Association
Environmental Working Group
Friends of Accotink Creek
Friends of Dyke Marsh
Friends of Lower Beaverdam Creek
Friends of Quincy Run
Friends of St. Clements Bay
Friends of Sligo Creek
Friends of the Middle River
Friends of the Nanticoke River
Friends of the North Fork of the Shenandoah River
Friends of the Rappahannock
Interfaith Partners for the Chesapeake
James River Association
Lackawanna River Conservation Assoc.
Lancaster Farmland Trust
Lower Susquehanna Riverkeeper
Lutheran Advocacy Ministry in Pennsylvania
Lynnhaven River NOW
Maryland Conservation Council
Maryland Environmental Health Network
Maryland League of Conservation Voters
Maryland Native Plant Society
Mattawoman Watershed Society
Mehoopany Creek Watershed Association
Mid-Atlantic Council Trout Unlimited
Mid-Atlantic Youth Anglers & Outdoor Partners
Montgomery Countryside Alliance
Muddy Branch Alliance
National Aquarium
National Parks Conservation Association
National Wildlife Federation
Natural Resources Defense Council
Nature Abounds
Neighbors of the Northwest Branch
New York League of Conservation Voters
New York State Council of Trout Unlimited
Otsego County Conservation Association
Otsego Land Trust
PennEnvironment
PennFuture
Pennsylvania Council of Churches
Piedmont Environmental Council
Potomac Conservancy
Potomac Riverkeeper
Potomac Riverkeeper Network
Prince William Conservation Alliance
Queen Anne's Conservation Association
Rachel Carson Council
Rivanna Conservation Alliance
Rivertown Coalition for Clean Air and Clean Water
Rock Creek Conservancy
St. Mary's River Watershed Association
Savage River Watershed Association
Severn River Association
Shenandoah Riverkeeper
Shenandoah Valley Network
ShoreRivers
Sidney Center Improvement Group
Sleepy Creek Watershed Association
South River Federation
Southern Environmental Law Center
Southern Maryland Audubon Society
SouthWings
Sparks-Glencoe Community Planning Council
Susquehanna Heritage
The Downstream Project
Trash Free Maryland
Trout Unlimited
Upper Potomac Riverkeeper
Upper Susquehanna Coalition
Virginia Conservation Network
Virginia Eastern Shorekeeper
Virginia Interfaith Power and Light
Virginia League of Conservation Voters
Warm Springs Watershed Association
Water Defense
Waterkeepers Chesapeake
West/Rhode Riverkeeper
West Virginia Citizens Action Group
West Virginia Environmental Council
West Virginia Highlands Conservancy
West Virginia Rivers Coalition
Wicomico Environmental Trust
      
                                 ______
                                 
    Prepared Statement of the Chugach Regional Resources Commission
    The Chugach Regional Resources Commission (CRRC) is pleased to 
submit written testimony reflecting the needs, concerns and requests of 
CRRC in the proposed fiscal year 2019 budget for the Bureau of Indian 
Affairs (BIA). Our recurring funding is included in the 
administration's annual budget within the BIA's Tribal Management 
Development Program (TMDP) account. CRRC is able to leverage our 
limited BIA funds into real economic opportunity for those living in 
the small Alaska Native villages located in Prince William Sound and 
Lower Cook Inlet. From an fiscal year 2017 appropriation of $410,000 in 
BIA funds, we leveraged those funds and operated with a budget of 
nearly $2 million to support community-based programs (almost a five-
to-one ratio). In fiscal year 2019, the administration proposes to 
reduce our funding to $380,000, cut the BIA's TMDP budget of $11.65 
million by 25 percent, and overall spending for BIA by $665 million 
below the fiscal year 2018 enacted level. We object.
    CRRC opposes the administration's proposed reductions to the BIA 
budget and to our TMDP funds. A modest increase of $100,000 in fiscal 
year 2019 funding for CRRC may translate into as much as $500,000 in 
additional revenues that we can use to serve our Alaska Native 
communities. As noted in the administration's budget request for fiscal 
year 2019 concerning the BIA's TM/DP:

        [T]he Tribal Management/Development Program (TMDP) supports 
        Tribal self-determination by allowing Tribal management of fish 
        and game programs . . . Contract agreements are executed with 
        individual fish and wildlife resource Tribes [and consortia] to 
        accomplish management objectives. Tribes administer programs 
        that contribute significantly towards economic development [].

    CRRC is an intertribal organization organized in 1987 by the seven 
Native Villages located in Prince William Sound and Lower Cook Inlet in 
South-central Alaska; namely, Tatitlek Village IRA Council, Chenega IRA 
Council, Port Graham Village Council, Nanwalek IRA Council, Native 
Village of Eyak, Qutekcak Native Tribe, and Valdez Native Tribe. The 
success of our programs, from both an economic and social standpoint, 
make them an integral part of our constituent Tribes' ongoing 
development. Reductions in our BIA funding will limit our out-reach and 
ability to leverage additional Federal, State, local and other Tribal 
resources which are critical to our program's and our constituent 
Tribes' success.
    CRRC was created to address environmental and natural resources 
issues and to develop culturally-sensitive economic projects at the 
community level to support the sustainable development of the region's 
natural resources. The Native Villages' action to create a separate 
Tribal entity demonstrates the concern and importance the Tribal 
governments hold for environmental and natural resource management and 
protection--which is the wellspring for jobs and the perpetuation of 
our Alaska Native communities and culture.
    Through its many important programs, CRRC provides employment for 
up to 35 Native people in the Chugach Region annually--an area of high 
unemployment--through programs that conserve and restore our natural 
resources and ensure a future for our Tribal communities.
    An investment in CRRC has translated into real economic 
opportunities, savings and community investments that have a great 
impact on the Chugach region. Our employees are able to earn a living 
and support their families, thereby removing them from the rolls of 
people needing Alaska State and Federal support. This contributes to 
family and community stability and is a bulwark against depression, 
substance abuse, suicide and other ills that plague remote Tribal 
communities. With the job opportunities made possible by CRRC programs, 
Alaska Native members are able to reinvest their wages into the 
community, supporting the employment of and opportunities for other 
Alaska Native and non-Native families. Our programs also support future 
economic and commercial opportunities for the Prince William Sound and 
Lower Cook Inlet regions--protecting and developing our shellfish 
industry and other natural resources.

    Programs. As noted above, CRRC has leveraged its recurring BIA 
funding of $410,000 within the Tribal Management/Development Program, 
into almost $2 million to support our community-based programs. 
Specifically, the $410,000 in base funding provided through BIA 
appropriations has allowed CRRC to maintain core administrative 
operations and seek specific project funding from other sources such as 
the Administration for Native Americans (ANA), the State of Alaska, 
Bureau of Indian Affairs (BIA), U.S. Forest Service, U.S. Fish & 
Wildlife Service, the U.S. Department of Education, the Exxon Valdez 
Oil Spill Trustee Council, the North Pacific Research Board and other 
foundations. This diverse funding pool has enabled CRRC to develop and 
operate several important programs that provide vital services, 
valuable products, and necessary employment and commercial 
opportunities. These programs include:

    Alutiiq Pride Shellfish Hatchery. The Alutiiq Pride Shellfish 
Hatchery is the only shellfish hatchery in the State of Alaska. The 
20,000 square foot shellfish hatchery is located in Seward, Alaska, and 
houses shellfish seed (cockles, littlenecks and butter clams), brood 
stock and algae production facilities. Alutiiq Pride is undertaking a 
hatchery nursery operation, as well as grow-out operation research to 
adapt mariculture techniques for the Alaskan Shellfish industry. The 
Hatchery is also conducting scientific research on blue and red king 
crab as part of a larger federally-sponsored program.
    Alutiiq Pride has already been successful in culturing geoduck, 
oyster, littleneck clam, and razor clam species and is currently 
working on sea cucumbers. This research has the potential to 
dramatically increase commercial opportunities for the region in the 
future. The activities of Alutiiq Pride are especially important for 
the region; as the only shellfish hatchery in the State, it is uniquely 
qualified to carry out this research and production.
    Alutiiq Pride staff are working on developing a shellfish sanctuary 
concept in Port Graham and Resurrection Bay, acquiring land use permits 
from the Department of Natural Resources for Port Graham and from the 
Alaska Railroad for Resurrection Bay. Port Graham has been stocked with 
220 little neck, 200 cockles and 220 butter clam adults and CRRC is 
working to reduce predation and ensure greater survival rates.
    Alutiiq Pride also devotes considerable time to its Ocean 
Acidification (OA) monitoring lab, processing 300 discrete samples 
collected from villages and scientific partners. A Burk-O-Later, an 
instrument that tests for aragonite saturation, required for shellfish 
to form their shells, requires frequent maintenance and calibration.
    Alutiiq Pride recently implemented a preventive maintenance program 
to prolong the useful life of essential capital equipment. Alutiiq 
Pride installed chillers at its facility that were donated by the 
University of Alaska. The chillers will house king crab brood stock in 
case water temperatures are too high. In 2016, warm waters caused the 
crabs to release their larvae early which reduced survivability.

    Natural resource curriculum development. Partnering with the 
University of Alaska, Fairbanks, and the National Oceanic and 
Atmospheric Administration, CRRC continues its model curriculum in 
natural resource management for Alaska Native students. This curriculum 
integrates traditional knowledge with Western science. The goal of the 
program is to encourage more Native students to pursue careers in the 
sciences. In addition, we are working with the Native American Fish & 
Wildlife Society and Tribes across the country (including Alaska) to 
develop a university level textbook to accompany these courses.
    In addition, we have completed a K-12 Science Curriculum for Alaska 
students that integrates Indigenous knowledge with western science. 
This curriculum is being piloted in various villages in Alaska and a 
thorough evaluation process will ensure its success and mobility to 
other schools in Alaska.

    Alaska Migratory Bird Co-Management Council. CRRC is a member of 
the Council responsible for setting regulations governing the spring 
harvest of migratory birds for Alaska Natives, as well as conducting 
harvest surveys and various research projects on migratory birds of 
conservation concern. Our participation in this state-wide body ensures 
the legal harvest of migratory birds by Indigenous subsistence hunters 
in the Chugach Region. After a nearly 30-year moratorium, the Alaska 
Board of Game lifted a ban on the harvest of Emperor Geese once the 
geese population reached sustainable levels. We are proud to have 
participated in this work.

    Statewide Subsistence Halibut Working Group. CRRC continues to 
participate in a working group to ensure halibut resources are secured 
for subsistence purposes, and to conduct harvest surveys in the Chugach 
Region.
                               conclusion
    We urge Congress to protect and increase CRRC's fiscal year 2017 
appropriation level of $410,000 in the BIA's fiscal year 2019 budget 
for TMDP. With a five-to-one return on every Federal dollar invested in 
CRRC, we clearly demonstrate our ability to effectively administer 
these dollars. Thank you for the opportunity to present our testimony.

    [This statement was submitted by Patty Brown-Schwalenberg, 
Executive Director.]
                                 <greek-l>
                                 ______
                                 
                          Climate Change deg.
    Prepared Statement of U.S. Senator Michael F. Bennet Requesting 
   Resources for Agencies and Programs That Are Important to Address 
Climate Change and to the Conservation and Management of Public Lands, 
                             Air, and Water
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                        Fiscal Year
   State             Member                Agency                Account             Program (if        President's    2018 Enacted   Member Request   Request Description         Contact
                                                                                     applicable)        Budget ($)      Amount ($)          ($)         Fiscal Year 2019
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
CO.........  Bennet...............  USFS................  Payments in Lieu of   ....................  ..............      13,228,000      13,228,000  We support full       Patrick Donovan (8-
                                                           Taxes.                                                                                      funding for fiscal    5907)
                                                                                                                                                       year 2019.
CO.........  Bennet...............  USDA Forest Service/  Land and Water        ....................  ..............     425,000,000     900,000,000  Full funding, both    Patrick Donovan (8-
                                     DOI.                  Conservation Fund.                                                                          mandatory and         5907)
                                                                                                                                                       discretionary.
CO.........  Bennet...............  EPA.................  State and Tribal      Categorial Grants        480,671,000     886,112,000     886,112,000  We support robust     Patrick Donovan (8-
                                                           Assistance Grants.    for Air, Water, and                                                   funding consistent    5907)
                                                                                 Waste (Summy of                                                       with fiscal year
                                                                                 below).                                                               2018 levels.
CO.........  Bennet...............  EPA.................  ....................  Categorical Grant:    ..............     169,754,000     169,754,000  We support robust     Patrick Donovan (8-
                                                                                 Nonpoint Source.                                                      funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  EPA.................  ....................  Categorical Grant:        67,892,000     101,271,000     101,271,000  We support robust     Patrick Donovan (8-
                                                                                 Public Water System                                                   funding consistent    5907)
                                                                                 Supervision (PWSS).                                                   with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  EPA.................  ....................  Categorical Grant:       151,961,000     226,669,000     226,669,000  We support robust     Patrick Donovan (8-
                                                                                 State and Local Air                                                   funding consistent    5907)
                                                                                 Quality Management.                                                   with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  EPA.................  ....................  Categorical Grant:       153,683,000     229,239,000     229,239,000  We support robust     Patrick Donovan (8-
                                                                                 Pollution Control                                                     funding consistent    5907)
                                                                                 (Sec. 106).                                                           with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  EPA.................  ....................  Categorical Grant:        66,381,000      99,016,000      99,016,000  We support robust     Patrick Donovan (8-
                                                                                 Hazardous Waste                                                       funding consistent    5907)
                                                                                 Financial                                                             with fiscal year
                                                                                 Assistance.                                                           2018 levels.
CO.........  Bennet...............  EPA.................  ....................  Categorical Grant:         8,963,000      12,742,000      12,742,000  We support robust     Patrick Donovan (8-
                                                                                 Tribal Air Quality                                                    funding consistent    5907)
                                                                                 Management.                                                           with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  EPA.................  ....................  Categorical Grant:        31,791,000      47,421,000      47,421,000  We support robust     Patrick Donovan (8-
                                                                                 Brownfields.                                                          funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  EPA.................  State and Tribal      Grants for Air,           62,000,000     109,253,000     109,253,000  We support robust     Patrick Donovan (8-
                                                           Assistance Grants.    Water, and                                                            funding consistent    5907)
                                                                                 Brownfields                                                           with fiscal year
                                                                                 (Summary of below).                                                   2018 levels.
CO.........  Bennet...............  EPA.................  ....................  Brownfields Projects      62,000,000      79,457,000      79,457,000  We support robust     Patrick Donovan (8-
                                                                                                                                                       funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  EPA.................  ....................  Targeted Airshed      ..............      29,796,000      29,796,000  We support robust     Patrick Donovan (8-
                                                                                 Grants.                                                               funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  USFS................  Wildland Fire         Supression..........   1,165,366,000   1,556,818,000   1,556,818,000  We support funding    ....................
                                                           Management.                                                                                 above the 10-year
                                                                                                                                                       average in fiscal
                                                                                                                                                       year 2019, prior to
                                                                                                                                                       the implementaiton
                                                                                                                                                       of the budget cap
                                                                                                                                                       adjustment in 2020.
CO.........  Bennet...............  EPA.................  Superfund Cleanup...  Hazardous Substance    1,088,830,000   1,154,947,000   1,154,947,000  We support robust     Patrick Donovan (8-
                                                                                 Superfund.                                                            funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  EPA.................  Drinking Water State  ....................     863,233,000     863,233,000     863,233,000  We support robust     Patrick Donovan (8-
                                                           Revolving Fund.                                                                             funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  EPA.................  Clean Water State     ....................   1,393,887,000   1,393,887,000   1,393,887,000  We support robust     Patrick Donovan (8-
                                                           Revolving Fund.                                                                             funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  OSMRE...............  Abandoned Mine        ....................      20,375,000     139,672,000     139,672,000  We support robust     Patrick Donovan (8-
                                                           Reclamation Fund.                                                                           funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  EPA.................  Environmental         ....................     300,738,000     305,844,000     305,844,000  Cuts larger than      Patrick Donovan (8-
                                                           Program and                                                                                 $100 m to the         5907)
                                                           Management.                                                                                 entire EPM program
                                                                                                                                                       will prevent EPA
                                                                                                                                                       from conducting
                                                                                                                                                       core EPM functions..
CO.........  Bennet...............  EPA.................  Environmental         Brownfields.........      16,082,000      25,593,000      25,593,000  We support robust     Patrick Donovan (8-
                                                           Program and                                                                                 funding consistent    5907)
                                                           Mangement.                                                                                  with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  EPA.................  Environmental         GHG Reporting.......      13,580,000      95,436,000      95,436,000  We support robust     Patrick Donovan (8-
                                                           Program and                                                                                 funding consistent    5907)
                                                           Mangement.                                                                                  with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  EPA.................  Climate Change        ....................  ..............      16,520,000      16,520,000  We support robust     Patrick Donovan (8-
                                                           Research.                                                                                   funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  EPA.................  Stratospheric Ozone.  Montreal Protocol...  ..............       8,677,000      10,000,000  Al least fiscal year  Candace Vahlsing (8-
                                                                                                                                                       2018 levels..         5433)
CO.........  Bennet...............  USFS................  Stewardship.........  Collaborative Forest  ..............      40,000,000      40,000,000  We support robust     Patrick Donovan (8-
                                                                                 Landscape                                                             funding consistent    5907)
                                                                                 Restoration Program.                                                  with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  USFS................  State and Private     Urban and Community   ..............      27,850,000      27,850,000  We support robust     Patrick Donovan (8-
                                                           Forestry.             Forestry Program.                                                     funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  USFS................  Capital Improvement   Roads...............      71,481,000     173,905,000     173,905,000  We support robust     Patrick Donovan (8-
                                                           and Maintanance.                                                                            funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  USFS................  National Forest       Hazardous Fuel           390,000,000     387,352,000     390,000,000  We support robust     Patrick Donovan (8-
                                                           System.               Reduction.                                                            funding at least at   5907)
                                                                                                                                                       the fiscal year
                                                                                                                                                       2018 enacted level..
CO.........  Bennet...............  USFS................  National Forest       Forest Products          341,165,000     365,307,000     365,307,000  We support robust     Patrick Donovan (8-
                                                           System.               Program (e.g.,                                                        funding consistent    5907)
                                                                                 Timber Sales).                                                        fiscal year 2018
                                                                                                                                                       levels.
CO.........  Bennet...............  USFS................  Wildland Fire         State Fire                69,400,000      80,000,000      80,000,000  We support robust     Patrick Donovan (8-
                                                           Management.           Assistance.                                                           funding at least at   5907)
                                                                                                                                                       fiscal year 2018
                                                                                                                                                       levels.
CO.........  Bennet...............  USFS................  Wildland Fire         Volunteer Fire            11,600,000      16,000,000      16,000,000  We support robust     Patrick Donovan (8-
                                                           Management.           Assistance.                                                           funding at least at   5907)
                                                                                                                                                       fiscal year 2018
                                                                                                                                                       levels.
CO.........  Bennet...............  USFS................  Capital Improvement   Legacy Roads and      ..............      40,000,000      40,000,000  We support robust     Patrick Donovan (8-
                                                           and Maintanance.      Trails Program.                                                       funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  USFS................  Recreation,           ....................     240,236,000     262,798,000     262,798,000  We support robust     Patrick Donovan (8-
                                                           Heritage, and                                                                               funding at least at   5907)
                                                           Wilderness.                                                                                 fiscal year 2018
                                                                                                                                                       levels.
CO.........  Bennet...............  NPS.................  Historic              ....................      32,700,000      96,910,000      96,910,000  We support robust     Patrick Donovan (8-
                                                           Preservation Fund.                                                                          funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  EPA.................  National Priorities   Extramural research   ..............       4,100,000       4,100,000  We support robust     Patrick Donovan (8-
                                                           Research Program.     grants.                                                               funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  DOI.................  Central Hazardous     ....................       2,000,000      10,010,000      10,010,000  We support robust     Patrick Donovan (8-
                                                           Materials Fund.                                                                             funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  USFWS...............  North American        NAWCA Fund..........      33,600,000      40,000,000      40,000,000  We support robust     Patrick Donovan (8-
                                                           Wetlands                                                                                    funding consistent    5907)
                                                           Conservation Act                                                                            with fiscal year
                                                           (NAWCA).                                                                                    2018 levels.
CO.........  Bennet...............  NPS.................  National Heritage     Heritage Partnership  ..............      20,321,000      20,321,000  We support robust     Patrick Donovan (8-
                                                           Areas.                Program.                                                              funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  NPS.................  National Park         Centennial Challenge  ..............      23,000,000      23,000,000  We support robust     Patrick Donovan (8-
                                                           Foundation.           Fund.                                                                 funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2018 levels.
CO.........  Bennet...............  DOI.................  Climate Science       North Central         ..............  ..............      25,335,000  We support robust     Patrick Donovan (8-
                                                           Centers.              Climate Center.                                                       funding consistent    5907)
                                                                                                                                                       with fiscal year
                                                                                                                                                       2017 levels.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

  Prepared Statement of the Coalition for the Delaware River Watershed

September 11, 2018

The Honorable Lisa Murkowski, Chair
Subcommittee on Interior, Environment and Related Agencies
S-128 Capitol
U.S. Senate
Washington, D.C. 20510

The Honorable Tom Udall, Ranking Minority Member
Subcommittee on Interior, Environment and Related Agencies
S-146A Capitol
U.S. Senate
Washington, D.C. 20510

Dear Chair Murkowski and Ranking Member Udall:

    As organizations working to protect and restore water resources 
throughout the four States of the Delaware River Watershed, the 
undersigned members of the Coalition for the Delaware River Watershed 
request $10 million in fiscal year 2019 funding for programs to restore 
and protect the critical resources in this unique and valuable region. 
Congress recognized the significance of this special place by passing 
the Delaware River Basin Conservation Act, which was signed into law in 
December 2016.
    The Act established the Delaware River Basin Restoration Program, 
which is a non-regulatory program under the jurisdiction of the U.S. 
Fish and Wildlife Service. This new Federal-State-local-private 
cooperative program seeks to conserve and restore fish and wildlife 
habitat, improve and maintain water quality, sustain and enhance water 
management and reduce flood damage, and improve recreational 
opportunities and public access in the Delaware River Basin.
    The Delaware River Basin spans 13,500 square miles across Delaware, 
New Jersey, New York, Maryland, and Pennsylvania and is home to 6.4 
million people--an additional 8 million people living outside of the 
watershed depend on the river for their drinking water. The basin is 
home to a world class trout fishery in its upper reaches, the world's 
largest freshwater port complex in the Philadelphia-Wilmington area and 
a rich estuarine system at its mouth which is home to the largest 
spawning population of horseshoe crabs in the world.
    Funding for the following programs is essential to implementing the 
vision Congress had for this special region when it passed the Delaware 
River Basin Conservation Act in 2016. We request the following funding 
for fiscal year 2019:
 Department of the Interior: U.S. Fish and Wildlife Service--Delaware 
        River Basin Restoration Program--$10 million
    With the passage of the Delaware River Basin Conservation Act in 
2016, Congress directed the U.S. Fish and Wildlife Service to establish 
this new non-regulatory Program, which would have as its centerpiece, a 
grants program. The Service was tasked with establishing a basin-wide 
plan and to set a foundation for a grant program that will implement 
the Act. These pieces are now in place and the House passed Department 
of the Interior, Environment, and Related Agencies Appropriations Bill, 
2018 (H.R. 3354) clearly directs the Service to begin implementation of 
the Program, ``In addition, the recommendation includes $5,000,000 to 
begin implementing the Delaware River Basin Conservation Act; the 
Service is strongly encouraged to enter into an agreement with an 
outside party for grant management services.''
    We strongly support the fiscal year 2018 language and funding to 
begin this Program, and urge Congress to provide $10 million in fiscal 
year 2019 to fund a more robust grant program across this large region 
that will lead to real improvements throughout the watershed.
    Thank you for considering our request to support Delaware River 
Basin Restoration Program funding for fiscal year 2019. Please contact 
Kelly Mooij, Co-Chair of the Coalition for the Delaware River 
Watershed, if you have any questions about our position on this or any 
other issues at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ddb6b8b1b1a4f3b0b2b2b4b79db3b7bca8b9a8bfb2b3f3b2afbaf3">[email&#160;protected]</a>

            Sincerely,

Action Together NEPA
American Littoral Society
American Rivers
Appalachian Mountain Club
Audubon Pennsylvania
Aquashicola/Pohopoco Watershed Conservancy
Basha Kill Area Association
Bertsch-Hokendauqua-Catasauqua Watershed Association
Brodhead Chapter of Trout Unlimited
Brodhead Watershed Association
Christina Conservancy, Inc
Conservation Voters of Pennsylvania
Darby Creek Valley Association
Delaware Highlands Conservancy
Delaware Nature Society
Ducks Unlimited
Environment New Jersey
Friends for the Abbott Marshlands
Friends of Cherry Valley
Friends of the Upper Delaware River
Green Valleys Watershed Association
Isles, Inc.
Land Conservancy of New Jersey
Lackawaxen River Conservancy
National Wildlife Federation
National Audubon Society
National Parks Conservation Association
Newtown Creek Coalition
New Jersey Audubon
New Jersey Conservation Foundation
New Jersey Highlands Coalition
New Jersey League of Conservation Voters
New Jersey Outdoor Alliance
New York League of Conservation Voters
Mid-Atlantic Youth Anglers & Outdoor Partners
Musconetcong Watershed Association
Partnership for the Delaware Estuary
PennFuture
PennEnvironment
Pennsylvania Land Trust Association
Pennypack Ecological Trust
Pinelands Preservation Alliance
Schuylkill Headwaters Association, Inc.
Stony Brook-Millstone Watershed Association
Tookany/Tacony-Frankford Watershed Partnership, Inc.
Tobyhanna Creek/Tunkhannock Creek Watershed Association
Trout Unlimited
Upper Delaware Preservation Coalition
Urban Promise Ministries
Valley Creek Restoration Partnership
Western Pocono Chapter of Trout Unlimited
Wilmington Rowing Center
White Clay Watershed Association
Willistown Conservation Trust
      
                                 ______
                                 
       Prepared Statement of the Coalition for Healthier Schools

April 26, 2018

U.S. Senator Lisa Murkowski, Chairman
U.S. Senator Tom Udall, Ranking Member
U.S. Senate Subcommittee on Appropriations for US EPA

RE:  EPA fiscal year 2019 appropriations for healthy school & child 
care facilities, healthy children

Dear Chairmen Murkowski and Ranking Members Carper:

    America's School Infrastructure earned a D+ in 2017 from the 
American Society of Civil Engineers and a D in 2013. And, in 2017 the 
Harvard Chan School of Public Health released a new report detailing 
how unhealthy school facilities can damage children's ``health, 
thinking, and learning.'' The Harvard findings are echoed in research 
produced by the University of Tulsa, University of California at 
Berkeley, and in countless university studies across Europe and 
Scandinavia over many years. This spring, American teachers and 
students are highlighting poor learning conditions among their issues 
in State and local demonstrations.
    The U.S. Senate EPW Committee has recognized that children are 
uniquely vulnerable to environmental health hazards, as have EPA, CDC, 
ED, HHS, and other agencies. Every school day there are some 65 million 
children in schools or child care facilities. Decades of research have 
shown that indoor environmental exposures to pollutants can be more 
intense than outdoor exposures; that educators are often unaware of how 
facility problems impact children; and that school and child care 
facilities are filled with asthma triggers such as dusts, molds, 
chemical fumes, pests and pesticides, other contaminants. Poor indoor 
environments in schools decrease attention, seat time, attendance, and 
test scores, and increase asthma and other health complaints, thus 
increasing healthcare costs for children and personnel and for those 
who provide coverage.
    Adding to the need to act, we note that in February 2018, the EPA 
Administrator hosted fellow cabinet members and other key senior 
leaders to outline a proposed Federal strategy to reduce childhood lead 
exposure and associated health risks as part of the President's Task 
Force on Environmental Health Risks and Safety Risks to Children. 
Funding key EPA programs that comprehensively address school and child 
care facilities and children's health is essential for the success of 
any new lead prevention work. Sources of lead in these facilities can 
include paint, drinking water, construction materials, instructional 
products, soil, and equipment, as a recent national workshop on 
Eliminating Lead risks reported.
    Thus, we urge the U.S. Senate to restore and increase funding for 
U.S. EPA's proven programs and annual symposia that educate schools and 
child care entities on how to site, design, maintain and operate 
buildings to prevent or address common problems, such as: indoor air 
pollution, dampness and molds, lead in drinking water and paint and 
products, pests and pesticides, hazardous chemical management, legacy 
toxics like PCBs, and more. The EPA programs also support public health 
services for children with suspected environmental exposures in these 
settings.
    The urgency for educators, agencies, and communities to be smart 
and effective in preventing or reducing common hazards in these 
settings grows every year: today, there are fewer Federal and State 
dollars for schools, fewer personnel, fewer funds for repairs, and yet 
more children enrolled who are of color, in poverty, or have special 
health and learning needs.
    U.S. EPA, uniquely among the Federal agencies, has a twenty+-year 
history of successes in convening and providing training grants to PK-
12 and child care communities, facility owner-operators and personnel, 
as well as to NGOs and health agencies. The primary offices are: (1) 
U.S. EPA Office of Air and Radiation/Indoor Environments Division 
which, on a tiny budget, educated over 42,000 school and child care 
stakeholders through guidelines, grants, annual symposia, and webinars; 
and, (2) EPA's Office of Children's Health Protection which partners 
with the National Institutes of Environmental Health Sciences on 
research and with the Federal Centers for Disease Control and 
Prevention on pediatric environmental health services. Overall, the two 
primary offices and other schools-focused programs at EPA help reduce 
exposures to children and personnel in school and childcare facilities, 
and help preserve these facilities as healthful, productive, and valued 
community assets.
    We urge an increase of $65 million ($1/child for the 65 million 
enrolled in schools and child care) to U.S. EPA's budget over the 
Omnibus fiscal year 2018 Act, as follows:

  --$35 million for EPA's Indoor Environments Division-Reducing the 
        Risks of Indoor Air to advance healthy indoor environments in 
        schools and child care centers with guidelines, grants to the 
        field, annual symposia, webinars, and to provide Federal 
        leadership on school infrastructure concerns;
  --$5 million for EPA's Office of Children's Health to strengthen 
        pediatric environmental health capacity to address children 
        with suspected exposures in schools and child care settings;
  --$5 million for EPA's Drinking Water office to disseminate user-
        friendly guidance to key school and child care stakeholders 
        regarding lead in drinking and cooking water;
  --$10 million for EPA's Office of Chemical Safety to strengthen its 
        guidelines and enforcements that address legacy toxics in 
        schools such as asbestos, lead, PCBs, and pesticides, and to 
        encourage the safe management and disposal of hazardous 
        chemicals in schools;
  --$10 million for EPA's Office of Research to strengthen and expand 
        its research into children's exposures in the school/child care 
        settings.

            Sincerely,

Alaska Community Action on Toxics
Asthma and Allergy Foundation of America
Association of Asthma Educators (PA)
Association of School Business Officials International (ASBO 
International)
Breast Cancer Prevention Partners
Californians for Pesticide Reform
Cancer Prevention Coalition for Los Angeles (CA)
Center for Environmental Health
Child Care Aware of America
Children's Environmental Health Network
Coalition for Environmentally Safe Schools (MA)
Collaborative for High Performance Schools
The Deirdre Imus Environmental Health Center at Hackensack UMC (NJ)
District of Columbia Asthma Coalition
Education Law Center
Empire State Consumer Project (NY)
First Focus
Green Schools National Network
Healthy Legacy (MN)
Health Promotion Consultants (VA)
Health Resources in Action
Healthy Schools PA/Women for a Healthy Environment
Healthy Schools Network, Inc.
Improving Kids' Environment (IN)
IPM Institute of North America
Learning Disabilities Association of Georgia
Learning Disabilities Association of Illinois
Learning Disabilities Association of Maine
Learning Disabilities Association of New Jersey
Learning Disabilities Association of South Carolina
Learning Disabilities Association of Tennessee
Learning Disabilities Association of Utah
Maryland Children's Environmental Health Coalition
Massachusetts Coalition for Occupational Safety and Health
Midwest Pesticide Action Center
National Center for Environmental Health Strategies
Nontoxic Certified (NY)
Pesticide Action Network of North America
Occupational Health & Safety Section of the American Public Health 
Association
Ohio Public Health Association
Parents for Students Safety (TN)
Partners for a Healthier Community (MA)
Pennsylvania Integrated Pest Management Program
Pioneer Valley Asthma Coalition (MA)
Project Green Schools (MA)
Regional Asthma Management and Prevention (RAMP- CA)
School-Based Health Alliance
School Based Health Alliance of Arkansas
South Texas Asthma Coalition
Toxics Information Project (TIP--RI)
Valley Community Healthcare (CA)
Individuals (organizational affiliations for informational purposes 
        only):
Rosemary Ahtuangaruak, Alaska Inter-Tribal Council; Gary Arthur, 
Issaquah Education Association (WA); Carl R. Baum, MD, FAAP, FACMT, 
Yale School of Medicine; Mary Gant, Green Science Policy Institute; 
Augusta Gross PhD (NY); Chip Halverson, ND, Northwest Center for 
Biological Medicine (OR); Kate Hewett (SC); Jerry Lamping, Take Care of 
Your Classroom Air (TX); Paul Landsbergis, PhD, MPH, SUNY Downstate 
Medical Center; Patricia A. Lasley, MPH, Great Lakes Center for 
Children's Environmental Health (IL); Larry K. Lowry, Southwest Center 
for Pediatric Environmental Health (TX); Daniel Lefkowitz (NY); 
Virginia Mott (ME); Christina Olbrantz, Columbia University; Larry K. 
Olsen, DrPH, MCHES, AT Still University; Jerome A. Paulson, MD, FAAP, 
Emeritus, George Washington University Milken Institute School of 
Public Health; Joseph Ponessa PhD, Rutgers University; Chelsea 
Alexandra Schafer, California State University, Northridge; Alexandra 
W. Sipiora (IL); Mariana Torchia (CA); Theodora Tsongas, PhD, MS (OR).
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum

TO: The Honorable Lisa Murkowski, Chair
 The Honorable Tom Udall, Ranking Member
  Senate Committee on Appropriations--Subcommittee on Interior, 
Environment, and Related Agencies

SUBJECT:  Continued Funding for the Colorado River Basin Salinity 
Control Program under BLM's Aquatic Habitat Management sub-activity 
(formerly known as the Soil, Water and Air Program)

FROM: Don A. Barnett, Executive Director
 Colorado River Basin Salinity Control Forum

DATE: March 27, 2018

    Waters from the Colorado River are used by nearly 40 million people 
for municipal and industrial purposes and used to irrigate 
approximately 5.5 million acres in the United States. Natural and man-
induced salt loading to the Colorado River creates environmental and 
economic damages. The U.S. Bureau of Reclamation (Reclamation) has 
estimated the current quantifiable damages at about $454 million per 
year. Congress authorized the Colorado River Basin Salinity Control 
Program (Program) in 1974 to offset increased damages caused by 
continued development and use of the waters of the Colorado River. 
Modeling by Reclamation indicates that the quantifiable damages would 
rise to approximately $574 million by the year 2035 without 
continuation of the Program. Congress has directed the Secretary of the 
Interior to implement a comprehensive program for minimizing salt 
contributions to the Colorado River from lands administered by the 
Bureau of Land Management (BLM). BLM has funded these efforts through 
its Soil, Water and Air Program (proposed to be moved to the new 
Aquatic Habitat Management sub-activity in the President's 2019 
Budget). BLM's efforts are an essential part of the overall effort. A 
funding level of $1.5 million for salinity specific projects in 2019 is 
requested to prevent further degradation of the quality of the Colorado 
River with a commensurate increase in downstream economic damages.
    EPA has identified that more than 60 percent of the salt load of 
the Colorado River comes from natural sources. The majority of land 
within the Colorado River Basin is federally owned, much of which is 
administered by BLM. In implementing the Colorado River Basin Salinity 
Control Act in 1974, Congress recognized that most of the salts in the 
Colorado River originate from federally owned lands. Title I of the 
Salinity Control Act deals with the U.S. commitment to the quality of 
waters being delivered to Mexico. Title II of the Act deals with 
improving the quality of the water delivered to users in the United 
States. This testimony deals specifically with Title II efforts. In 
1984, Congress amended the Salinity Control Act and directed that the 
Secretary of the Interior develop a comprehensive program for 
minimizing salt contributions to the Colorado River from lands 
administered by BLM. In 2000, Congress reiterated its directive to the 
Secretary and requested a report on the implementation of BLM's program 
(Public Law 106-459). In 2003, BLM employed a Salinity Coordinator to 
increase BLM efforts in the Colorado River Basin and to pursue salinity 
control studies and to implement specific salinity control practices. 
BLM is now working on creating a comprehensive Colorado River Basin 
salinity control program as directed by Congress. In January 2018 BLM 
issued A Framework for Improving the Effectiveness of the Colorado 
River Basin Salinity Control Program, 2018-2023. This document lays out 
how BLM intends to implement Colorado River Basin salinity control 
activities over the next 5 years. Meaningful resources have been 
expended by BLM in the past few years to better understand salt 
mobilization on rangelands. With a significant portion of the salt load 
of the Colorado River coming from BLM administered lands, the BLM 
portion of the overall program is essential to the success of the 
effort. Inadequate BLM salinity control efforts will result in 
significant additional economic damages to water users downstream.
    Concentration of salt in the Colorado River causes approximately 
$454 million in quantified damages and significantly more in 
unquantified damages in the United States and results in poor water 
quality for United States users. Damages occur from:

  --a reduction in the ability to re-claim and reuse water due to high 
        salinities in the water delivered to water treatment and 
        reclamation facilities,
  --a reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector,
  --increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector,
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector,
  --an increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector,
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector,
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector, and
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.

    The Colorado River Basin Salinity Control Forum (Forum) is composed 
of gubernatorial appointees from Arizona, California, Colorado, Nevada, 
New Mexico, Utah and Wyoming. The Forum is charged with reviewing the 
Colorado River's water quality standards for salinity every 3 years. In 
so doing, it adopts a Plan of Implementation consistent with these 
standards. The level of appropriation requested in this testimony is in 
keeping with the adopted Plan of Implementation. If adequate funds are 
not appropriated, significant damages from the higher salinity 
concentrations in the water will be more widespread in the United 
States and Mexico.
    In summary, implementation of salinity control practices through 
BLM is a cost effective method of controlling the salinity of the 
Colorado River and is an essential component to the overall Colorado 
River Basin Salinity Control Program. Continuation of adequate funding 
levels for salinity within the Aquatic Habitat Management sub-activity 
(formerly the Soil, Water and Air Program) will assist in preventing 
the water quality of the Colorado River from further degradation with a 
commensurate significant increase in economic damages to municipal, 
industrial and irrigation users. A modest investment in source control 
pays huge dividends in improved drinking water quality to nearly 40 
million Americans.
                                 ______
                                 
      Prepared Statement of the Colorado River Board of California

TO: The Honorable Lisa Murkowski, Chair
 The Honorable Tom Udall, Ranking Member
  Senate Committee on Appropriations--Subcommittee on Interior, 
Environment, and Related Agencies

SUBJECT:  Continued Funding for the Colorado River Basin Salinity 
Control Program under BLM's Soil, Water and Air Program

FROM: Christopher S. Harris, Executive Director
 Colorado River Board of California

DATE: March 27, 2018

    This testimony is in support of fiscal year 2019 funding for the 
Department of the Interior's Bureau of Land Management (BLM) associated 
activities that assist the implementation of Title II of the Colorado 
River Basin Salinity Control Act of 1974 (Public Law 93-320). This 
long-standing successful and cost-effective salinity control program in 
the Colorado River Basin is being carried out pursuant to the Colorado 
River Basin Salinity Control Act and the Clean Water Act (Public Law 
92-500). Congress has directed the Secretary of the Interior to 
implement a comprehensive program for minimizing salt contributions to 
the Colorado River from lands administered by the Bureau of Land 
Management (BLM). BLM funds these efforts through its Soil, Water and 
Air Program (proposed to be moved to the new Aquatic Habitat Management 
sub-activity in the President's 2019 budget). BLM's efforts are an 
essential part of the overall effort. A funding level of $1.5 million 
for salinity specific projects in 2019 is requested to prevent further 
degradation of the quality of Colorado River water supplies and 
increased economic damages.
    The Colorado River Board of California (Colorado River Board) is 
the State agency charged with protecting California's interests and 
rights in the water and power resources of the Colorado River system. 
In this capacity, California participates along with the other six 
Colorado River Basin States through the Colorado River Basin Salinity 
Control Forum (Forum), the interstate organization responsible for 
coordinating the Basin States' salinity control efforts. In close 
cooperation with the U. S. Environmental Protection Agency (EPA) and 
pursuant to requirements of the Clean Water Act, the Forum is charged 
with reviewing the Colorado River water quality standards every 3 
years. Every 3 years the Forum adopts a Plan of Implementation 
consistent with these water quality standards. The level of 
appropriation being supported in this testimony is consistent with the 
Forum's 2017 Plan of Implementation. The Forum's 2017 Plan of 
Implementation can be found on this website: http://
coloradoriversalinity.org/docs/2017%20Review%20-%20FINAL.pdf. If 
adequate funds are not appropriated, significant damages associated 
with increasing salinity concentrations of Colorado River water will 
become more widespread in the United States and Mexican portions of the 
Colorado River Basin.
    The EPA has determined that more than 60-percent of the salt load 
of the Colorado River comes from natural sources. The majority of land 
within the Colorado River Basin is federally owned, much of which is 
administered by BLM. Through passage of the Colorado River Basin 
Salinity Control Act in 1974, Congress recognized that much of the 
salts in the Colorado River originate on federally-owned lands. Title I 
of the Salinity Control Act deals with the U.S. commitment to efforts 
related to maintaining the quality of waters being delivered to Mexico 
pursuant to the 1944 Water Treaty. Title II of the Act deals with 
improving the quality of the water delivered to U.S. users. In 1984, 
Congress amended the Salinity Control Act and directed that the 
Secretary of the Interior develop a comprehensive program for 
minimizing salt contributions to the Colorado River from lands 
administered by BLM. In 2000, Congress reiterated its directive to the 
Secretary and requested a report on the implementation of BLM's program 
(Public Law 106-459). In 2003, BLM employed a Salinity Coordinator to 
coordinate BLM efforts in the Colorado River Basin States to pursue 
salinity control studies and to implement specific salinity control 
practices. BLM is now working on creating a comprehensive Colorado 
River Basin salinity control program as directed by Congress. In 
January 2018 BLM issued A Framework for Improving the Effectiveness of 
the Colorado River Basin Salinity Control Program, 2018-2023. This 
document lays out how BLM intends to implement Colorado River Basin 
salinity control activities over the next 5 years. Meaningful resources 
have been expended by BLM in the past few years to better understand 
salt mobilization on rangelands. With a significant portion of the salt 
load of the Colorado River coming from BLM-administered lands, the BLM 
portion of the overall program is essential to the success of the 
entire effort. Inadequate BLM salinity control efforts will result in 
significant additional economic damages to water users downstream.
    Over the 34 years since the passage of the Colorado River Basin 
Salinity Control Act, much has been learned about the impact of salts 
in the Colorado River system. Currently, the salinity concentration of 
Colorado River water causes about $454 million in quantifiable economic 
damages in the United States annually. Economic and hydrologic modeling 
by Reclamation indicates that these economic damages could rise to more 
than $574 million by the year 2035 without continued implementation of 
the Program. For example, damages can be incurred related to the 
following activities:

  --A reduction in the ability to re-claim and reuse water due to high 
        salinities in the water delivered to water treatment and 
        reclamation facilities;
  --A reduction in the yield of salt-sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector;
  --Increases in the amount of imported water;
  --Increased costs of desalination and brine disposal for recycled 
        water in the municipal sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, and other household appliances, and 
        increased use of bottled water and water softeners in the 
        municipal and industrial sectors;
  --Increased costs of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --Increases in the use of water and cost of water treatment, and an 
        increase in sewer fees in the industrial sector;
  --Decreased life of treatment facilities and pipelines in the utility 
        sector;
  --Increasing difficulty in meeting wastewater discharge requirements 
        to comply with National Pollutant Discharge Elimination System 
        permit terms and conditions; and
  --Increased desalination and brine disposal costs due to accumulation 
        of salts in groundwater basins.

    The Colorado River is, and will continue to be, a major and vital 
water resource to the nearly 20 million residents of southern 
California, including municipal, industrial, and agricultural water 
users in Imperial, Los Angeles, Orange, Riverside, San Bernardino, San 
Diego, and Ventura Counties. The protection and improvement of Colorado 
River water quality through the continuation and expansion of an 
effective salinity control program will avoid, or reduce, additional 
economic damages to water users in California and the other States that 
rely on Colorado River water resources.
                                 ______
                                 
 Prepared Statement of the Cooperative Alliance for Refuge Enhancement
Chairman Murkowski, Ranking Member Udall, and Members of the 
Subcommittee:

    The National Wildlife Refuge System stands alone as the only 
Federal land and water conservation system with a mission that 
prioritizes wildlife and habitat conservation alongside wildlife-
dependent recreation. Since 1995, the Cooperative Alliance for Refuge 
Enhancement (CARE) has worked to showcase the value of the Refuge 
System and to secure a strong congressional commitment for conserving 
these special landscapes.
    Found in every U.S. State and territory, national wildlife refuges 
conserve a diversity of America's environmentally sensitive and 
recreationally vital ecosystems, including wetlands, coasts, forests, 
prairie, tundra, deserts, and oceans, and provide Americans with an 
opportunity to encounter and engage with these areas.

    We ask that the Committee provide a funding level of $586 million 
for the Operations and Maintenance accounts of the National Wildlife 
Refuge System for fiscal year 2019.

    This testimony is submitted on behalf of CARE's 23 member 
organizations, which represent over 16 million American hunters, 
anglers, bird and wildlife watchers, scientists, managers, and 
concerned citizens passionate about wildlife conservation and related 
recreational opportunities.

American Birding Association
American Fisheries Society
American Sportfishing Association
Association of Fish and Wildlife Agencies
Congressional Sportsmen's Foundation
Defenders of Wildlife
Ducks Unlimited, Inc.
Izaak Walton League of America
Marine Conservation Institute
National Audubon Society
National Rifle Association
National Wildlife Federation
National Wildlife Refuge Association
Safari Club International
The Corps Network
The Nature Conservancy
The Wilderness Society
The Wildlife Society
Theodore Roosevelt Conservation Partnership
Trout Unlimited
U.S. Sportsmen's Alliance
Wildlife Forever
Wildlife Management Institute

    We also thank you for the much needed $2.8 million funding increase 
for fiscal year 2018, as well as the added funding to continue to 
reduce the refuge maintenance backlog. In addition, we very much 
appreciate the $210 million allocated by this subcommittee to assist 
refuges damaged by Hurricanes Harvey, Irma, and Maria. The continued 
support of the Committee for refuges is much appreciated by all of our 
organizations.
Inadequate Funding--Challenges to the Refuge System
    The Refuge System budget, at $486.7 million, is now $93.3 million 
below the level needed to keep pace with inflation and fixed costs 
($580 million), relative to the fiscal year 2010 budget of $503.2 
million.
    Workforce has declined in that time by 488 positions through 
attrition. Those employees provided services such as administration, 
maintenance, fire management, wildlife management, and research 
support. That is a loss of nearly 1 out of 7 refuge positions. As a 
result, refuge staff struggle to maintain habitat, while also providing 
adequate visitor services, environmental education, and access for 
hunting, fishing, and other recreation.
    An additional problem with lack of funding is the System's 
inability to provide for ongoing maintenance costs, which only compound 
and become more expensive with time. At Arthur R. Marshall Loxahatchee 
NWR in Florida, the invasive species issues are overwhelming the 
refuge. In the last 12-15 years, Loxahatchee has struggled with 
invasive Lygodium, with initial costs of $2 million a year to restrict 
uncontrolled spread. Now, the refuge needs roughly $5 million a year 
for 5 years in order to control this weed, with costs having doubled or 
tripled.
    Unfortunately, inadequate funding threatens the System's ability to 
carry out its mission, which is mandated by the National Wildlife 
Refuge System Improvement Act of 1997. Between fiscal year 2010 and 
fiscal year 2013, Refuge System funding was reduced by $50 million--a 
10 percent cut. Even with increased budgets in fiscal year 2018 to 
$486.7 million, the Refuge System continues to function at 
unsustainable levels. CARE estimates that the Refuge System needs at 
least $900 million in annual operations and maintenance funding to meet 
conservation targets, including wildlife management, habitat 
restoration, and opportunities for public recreation.
    Completely inadequate numbers of Federal wildlife officers (by some 
measures, the number of FWOs should be three times higher than current 
numbers) imperil healthy habitat and the safe and enjoyable visitor 
experience. The `lucky' refuges still have one or two employees per 
refuge or refuge complex doing work such as environmental education, 
biology, or maintenance work. Yet many other refuges sit for years with 
unfilled, critical positions. For example, the Ding Darling NWR in 
Sanibel, Florida--the 8th most visited refuge with 936,000 visitors 
last year--is losing their environmental ranger this spring. 
Environmental education is a critical service provided to the community 
by this refuge, and this kind of loss is inexcusable.
    Without drastic increases in funding, there is simply no room left 
to trim positions and still maintain at least a portion of those 
services--they will simply disappear, and school programs or ongoing 
maintenance will end.
National Wildlife Refuge System: Statistics and Visitors
    The National Wildlife Refuge System, established by President 
Theodore Roosevelt in 1903, protects approximately 850 million land and 
marine acres on 566 national wildlife refuges and 38 wetland management 
districts in every State and territory in the U.S., and 5 marine 
monuments in the Pacific and Atlantic oceans. These acres are both part 
of the Refuge System and U.S. Fish and Wildlife Service managed (with 
some marine acres co-managed with NOAA). From the Virgin Islands to 
Guam to Alaska to Maine, the Refuge System spans 12 time zones and 
protects America's natural heritage in habitats ranging from arctic 
tundra to arid desert, boreal forest to sagebrush grassland, and 
prairie wetlands to coral reefs.
    A refuge is within an hour's drive from most metropolitan areas, 
enabling the Refuge System to attract a growing number of visitors each 
year (53.6 million in fiscal year 2017, up from 46.5 million in fiscal 
year 2013) and provide opportunities for hunting, fishing, wildlife 
observation, photography, kayaking, hiking, and outdoor education. 
Americans are flocking to refuges for the wild beauty and recreational 
opportunities they provide.
    CARE welcomes recreational use of our Nation's refuges. Refuge 
visitors generate $2.4 billion annually to local and regional 
economies--on average returning $4.87 in economic activity for every $1 
appropriated--and support 35,000 U.S. jobs.\1\ In addition, refuges 
provide major environmental and health benefits, such as filtering 
storm water before it is carried downstream and fills municipal 
aquifers; reducing flooding by capturing excess rainwater; and 
minimizing the damage to coastal communities from storm surges. Refuges 
generate more than $32.3 billion in these ecosystem services each year, 
a return of over $65 for every $1 appropriated by Congress.\2\
---------------------------------------------------------------------------
    \1\ Banking on Nature, U.S. Fish and Wildlife Service, October 
2013, http://www.fws.gov/refuges/about/refugereports/pdfs/
BankingOnNature2013.pdf.
    \2\ The Economics Associated with Outdoor Recreation, Natural 
Resources Conservation, and Historic Preservation in the United States, 
Southwick Associates, October 2011, https://www.fws.gov/refuges/news/
pdfs/TheEconomicValueofOutdoorRecreation[1].pdf.
---------------------------------------------------------------------------
Public Use of the Refuge System--Increases and Decreases from RAPP
    The fiscal year 2015 Refuge Annual Performance Plan (RAPP) reports 
revealed falling performance rates in several important System 
categories--as a direct result of funding shortfalls--including habitat 
condition, habitat restoration, recreation opportunities, volunteerism, 
and scientific research. Performance declined from fiscal year 2010 to 
fiscal year 2015 for the following measures: open water acres restored 
(-63 percent), wetland acres restored (-70 percent), acres of non-
native, invasive plants controlled (-58 percent), number of invasive 
animal populations controlled during the year (-55 percent), riparian 
miles restored (-30 percent), acres of farming (-30 percent), and total 
refuge acres receiving needed management (-12 percent).
    However, many measures of public use increased for the Refuge 
System over this same timeframe, despite budget shortfalls. Funding for 
fiscal year 2019 needs to ensure Americans will be able to safely 
continue these valuable recreational activities. These include 
waterfowl hunt visits (+7 percent), photography participants (+52 
percent), number of boat trail visits (+18 percent), acres of 
prescribed grazing (+13 percent), number of auto tour visits (+14 
percent), and wildlife observation visits (+12 percent).
CARE Requests $586 Million in Fiscal Year 2019
    We acknowledge that this request would mean a dramatic $100 million 
increase. However, with the effective $93 million decrease in funding 
since fiscal year 2010, the Refuge System has lost a great deal of 
conservation work and public use opportunities, all at a time when 
visitor numbers are increasing. If annual operations and maintenance 
funding does not rise substantially, CARE anticipates further impacts 
both within and outside of refuge boundaries, including:

  --Reduced treatment of invasive plants, reducing habitat quality for 
        wildlife (both game and non-game) and placing nearby private 
        lands at higher risk of infestations;
  --Decreased use of prescribed fire, which is used on refuges both to 
        improve habitat for wildlife and to reduce hazardous fuels that 
        pose a wildfire risk to nearby communities. This risk has been 
        mitigated by the fire fix passed by the Congress this spring, 
        but resources for prescribed fire still need to be in place on 
        individual refuges;
  --Reduced number and quality of visitor programs, with visitor 
        centers operating at fewer hours, even as the numbers of 
        visitors increases;
  --Reduced quality of habitat for hunting. Secretary Ryan Zinke has 
        continued to add and expand hunt programs at refuges. These 
        hunt expansions will require corresponding funding to keep up 
        with the demand on Federal wildlife officers and on biologists 
        and other staff responsible for keeping wildlife habitat and 
        populations healthy.
  --Elimination of ancillary functions like FWS's operation of 
        Henderson Field at Midway Atoll National Wildlife Refuge, which 
        serves as a critical emergency landing site for trans-pacific 
        flights, as well as the public's main window to the marine 
        national monuments.

    The common denominator to all these challenges is a lack of 
funding. Adequate staffing and funding are critical to the maintenance 
of healthy wildlife populations and access for recreational users to a 
healthy ecosystem. Increasing funding for the System will empower and 
enable individual Refuge units to deliver on-the-ground conservation 
that benefits not only wildlife and recreation, but also local 
communities across the Nation.
    We ask that this Committee use a portion of its additional funding 
allocation in the budget deal finalized in January, and put it towards 
a substantial increase in Refuge Operations and Maintenance funding. 
CARE has a goal of seeing Refuge Operations and Maintenance funding 
reach $900 million by fiscal year 2021, and a large increase in fiscal 
year 2019 would help us meet that goal.

    We urge Congress to fund the Refuge System at $586 million in 
fiscal year 2019--to bridge the growing gap between what the System 
needs and what it receives--enabling refuges to continue moving America 
forward as the world's leader in wildlife conservation and restoration.

    Our hope is that this level of funding will put the Refuge System 
on a path to full funding of $900 million and help the System advance 
its mission to maintain refuge lands as intended in their purpose for 
the benefit of the American people, finalize outstanding Comprehensive 
Conservation Plans, and implement programs that will benefit both 
wildlife and people. If the requested funding level is satisfied, the 
Refuge System can better:

  --Conduct management and restoration activities to provide healthy 
        habitats that attract wildlife and, in turn, draw visitors and 
        increase economic return to communities;
  --Keep refuges open and staffed so quality recreational opportunities 
        continue to be offered to the public;
  --Maintain facilities and equipment used to serve the public and 
        manage habitat;
  --Provide Federal wildlife officers needed to keep refuge resources 
        and the people who come to appreciate them safe.

    On behalf of our more than 16 million members and supporters, CARE 
thanks the Subcommittee for the opportunity to submit comments on the 
fiscal year 2019 House Interior Appropriations bill, and we look 
forward to meeting with you to discuss our request.
                                 ______
                                 
                Prepared Statement of The Corps Network
Dear Chairwoman Murkowski and Ranking Member Udall;

    On behalf of 130+ Corps of The Corps Network and our 25,000 
Corpsmembers, I write to respectfully urge your strong support for 
increased funding for the youth, maintenance, operation, national 
forest, wildfire, and conservation accounts of the Department of 
Interior (DOI) and U.S. Forest Service (USFS) in fiscal year 2019 as 
outlined below. We thank you for your extraordinary efforts in 
developing a deal to eliminate the budget caps, and provide a much-
needed increase in maintenance and infrastructure accounts along with 
continuing youth-focused efforts in fiscal year 2018.
    As you craft the fiscal year 2019 Interior Appropriations Bill, we 
encourage you to continue this focus, and make additional investments 
in addressing backlog maintenance, necessary infrastructure and 
conservation projects, and engaging the next generation of youth and 
veteran outdoor stewards, entrepreneurs, recreationists, and sportsmen 
and women. In addition, we encourage your attention to ongoing 
challenges related to Interior's financial assistance agreement review 
of projects over $50,000 that was implemented in December of 2017 and 
has had a significant impact on Interior's ability to accomplish 
projects with appropriated funds.
    Corps of The Corps Network support DOI and USFS accounts for youth, 
repair and rehabilitation, trials, maintenance, and forest conservation 
which are used to partner with Corps and our youth and veteran 
Corpsmembers on important projects; funding for Wildland Fire hazardous 
fuels remediation through both DOI and USFS; and language encouraging 
new hiring authority for USFS, a continued focus on Corps partnerships, 
and expressing concern around the implementation of a new, more 
cumbersome financial assistance review process. By partnering with 
Corps, agencies achieve more with their budgets and accomplish cost-
effective projects to help address the multi-billion-dollar maintenance 
backlog; remediate wildfires and invasive species; improve access to 
public lands; build and maintain multi-use trails and increase 
recreation opportunities; and ensure productive fish and wildlife 
habitat for enthusiasts, hunters, and fishers.
    Thank you again for your efforts to ensure most of these accounts 
were strong in fiscal year 2018. With thd additional support included 
in the fiscal year 2018 bill, Corps will help accomplish millions in 
critical projects while also further leveraging Federal funds. For 
example, Corps have utilized around $150 million in project funding 
from DOI and USFS over the past 3 years and turned that into at least 
$37 million more in match and service projects, with the added benefit 
of engaging youth and veterans in meaningful work experiences to 
develop in-demand skills on the path to careers while building respect 
for our country, hard work, and the outdoors. Corps bring at least 25 
percent match to these projects, making Federal funds go further than 
they otherwise would.
    Corps provide youth and veterans the opportunity to serve their 
country, advance their education and obtain in-demand skills. Serving 
in crews and individual placements, Corpsmembers perform important 
conservation, recreation, infrastructure, wildfire, disaster response, 
and community development service projects on public lands and in rural 
and urban communities. Corps enroll over 25,000 youth and veterans 
annually in all 50 States and DC, Puerto Rico, and American Samoa. 
Corps engage an additional 100,000 volunteers, and complete thousands 
of service projects valuing hundreds of millions of dollars each year.
    Recently, our Corps around the country accomplished: 1.6 million 
acres of wildlife habitat improved and made accessible; 1.5 million 
trees planted; 365,000 acres of invasive species removed; 32,000 acres 
of fire fuel reduced; 22,000 miles of multi-use trails constructed and 
improved; 16,000 recreation facilities improved; 8,200 acres of 
erosion, landslide, and flood prevention; 2,600 miles of fish and 
waterway habitat restored; 500 wildfires and disasters responded to; 
and 190 historic structures preserved. Project sponsors consistently 
express a high degree of satisfaction with the quality of work and 
productivity of Corps. Virtually all Federal project partners (99.6 
percent) say they would work with Corps again and an independent study 
commissioned by the National Park Service found a 50-80 percent cost 
savings in using Corps on maintenance projects.
    These accounts also support the 21st Century Conservation Service 
Corps (21CSC) initiative, which has received bipartisan support in 
Congress from Senators John McCain (R-AZ) and Michael Bennet (D-CO), 
Reps. Martha McSally (R-AZ) and Seth Moulton (D-MA). Supporters also 
include Army General (Ret.) Stanley McChrystal and President Bush's 
Domestic Policy Advisor, John Bridgeland and the past five Secretaries 
of the Interior (two Republicans and three Democrats). The 21CSC 
initiative has private sector support from Coca-Cola, the North Face, 
American Eagle Outfitters, Thule, and KEEN.
    Fiscal Year 2019 Interior & Environment Appropriations Priorities: 
The Corps Network respectfully urges the Committee to support these 
fiscal year 2019 programs, language requests, and authorities that will 
allow public land management agencies to engage Corps:

  --Department of the Interior--Guidance for Financial Assistance 
        Actions Report Language.--``The Committee is aware the 
        Department has implemented a requirement that all cooperative 
        agreements and grants above $50,000 for certain non-profit 
        entities receive additional scrutiny to ensure their alignment 
        with the Secretary of Interior's priorities. The Committee is 
        concerned with the implementation of this review, the 
        Department's failure to develop guidance to field staff in a 
        timely manner, along with a lack of capacity to process these 
        grants and agreements through the new review process 
        efficiently and effectively. We are also concerned the review 
        may lead to a reduction in the obligation of funds for projects 
        as appropriated by Congress and that given the seasonal nature 
        of many projects, they will simply not be accomplished, further 
        leading to an increase in the maintenance backlog. We urge the 
        Department to ensure a timely review of these grants and 
        agreements in order to ensure the mission and goals of the 
        Department are being met, and inform the Committee of how long 
        this review will remain in place, and what the effect has been 
        of this review in comparison to last fiscal year with respect 
        to accomplishing projects through appropriated accounts.''
  --U.S. Forest Service--National Forest System.--$1.9 billion in 
        fiscal year 2019;
  --U.S. Forest Service--Capital Improvement and Maintenance--Trails.--
        $79 million in fiscal year 2019;
  --U.S. Forest Service--Wildland Fire Management.--$1.2 billion in 
        fiscal year 2019;
  --Department of Interior--Wildland Fire Management--Suppression.--
        $958 million in fiscal year 2019;
  --National Park Service--Operation--Facilities Operation & 
        Maintenance.--$842 million in fiscal year 2019;
  --National Park Service--Operation--Visitor Services.--$276 million 
        in fiscal year 2019;
  --Fish and Wildlife Service--Resource Management.--$1.3 billion in 
        fiscal year 2019;
  --Bureau of Land Management--Management of Lands and Resources.--$1 
        billion in fiscal year 2019;
  --Bureau of Reclamation--Water & Related Resources.--$1.2 billion in 
        fiscal year 2019;
  --Bureau of Indian Affairs--Natural Resource Management.--$215 
        million in fiscal year 2019;
  --U.S. Forest Service--Direct Hire Authority.--``SEC. 425. (a) For 
        fiscal year 2019, the Secretary of Agriculture may appoint, 
        without regard to the provisions of subchapter I of chapter 33 
        of title 5, United States Code, other than sections 3303 and 
        3328 of such title, a qualified candidate described in 
        subsection (b) directly to a position with the United States 
        Department of Agriculture, Forest Service for which the 
        candidate meets Office of Personnel Management qualification 
        standards.
    --(a) Subsection (a) applies to a former resource assistant (as 
            defined in section 203 of the Public Land Corps Act (16 
            U.S.C. 1722)) who completed a rigorous undergraduate or 
            graduate summer internship with a land managing agency, 
            such as the Forest Service Resource Assistant Program 
            successfully fulfilled the requirements of the internship 
            program; and subsequently earned an undergraduate or 
            graduate degree from an accredited institution of higher 
            education.
    --(b) The direct hire authority under this section may not be 
            exercised with respect to a specific qualified candidate 
            after the end of the 2-year period beginning on the date on 
            which the candidate completed the undergraduate or graduate 
            degree, as the case may be.''

    Since the 1950's and through today, Corps have been a major partner 
of DOI and the USFS in accomplishing needed maintenance, conservation, 
recreation, and wildfire remediation projects in a cost-effective 
manner. We are concerned with the impact a new financial assistance 
agreement review for projects over $50,000 is having on our ability to 
partner with DOI, and the impact it is having on Interior being able to 
obligate funding in a timely manner for projects for which Congress 
appropriated funds in fiscal year 2018.
    Given the short window many States, like Alaska and Montana for 
example, have for the work season, delays and uncertainty are 
particularly concerning along with the lead time, commitment, tools and 
supplies needed from Corps and our youth and veteran Corpsmembers to 
accomplish these projects. For this reason, we hope the Committee will 
seek clarification from the Department about this review and the impact 
it may be having on accomplishing its mission, and in partnering with 
non-profit and volunteer groups, who dedicate significant amounts of 
private energy and resources to helping meet public land management 
needs, and keep taxpayer-supported public lands in good condition.
    All these programs listed above help Corps leverage limited Federal 
dollars to accomplish more projects than land management agencies 
normally would, while engaging thousands of youth and veterans in 
improving and restoring our Nation's lands, water, and recreation 
assets. The maintenance, repair and rehabilitation, visitor services, 
and forestry accounts are important as they are Corps' main source of 
partnerships, and help the agencies address their backlog and needed 
projects to ensure continued access and recreation on our Nation's 
public lands. Corps also partner with both DOI and USFS to address 
wildfire remediation needs, and more specifically help with hazardous 
fuels and invasive species reduction, which is a major need to prevent 
larger and more deadly fires.
    Unfortunately, the President's fiscal year 2019 budget proposes to 
make cuts to many of these important areas similar to the fiscal year 
2018 budget. We appreciate the Committee's bipartisan efforts to ensure 
these accounts were supported and in many cases increased in the fiscal 
year 2018 Omnibus. For Department of the Interior, we are particularly 
concerned with proposed cuts to the repair/rehabilitation, youth, and 
volunteer programs for NPS and FWS; and cuts to conservation, 
wilderness, and wildlife management accounts along with maintenance and 
resource planning accounts at BLM. These accounts are all important for 
continued functioning of our Nation's public lands and ensuring access 
to recreation, along with engaging the next generation of outdoor 
stewards, while managing our lands for their best use.
    For the U.S. Forest Service, thank you for your attention to 
addressing backlog maintenance by increasing funding for the Capital 
Improvement & Maintenance--Trails account in fiscal year 2018. The USFS 
manages the largest trails system in the country, which is important 
for continued access to recreation and hunting and fishing in many 
areas. We urge additional funding be provided trails, but also the 
National Forest System, and in particular the recreation, vegetation, 
wildlife and hazardous fuels management accounts, all of which were cut 
in fiscal year 2018 except for hazardous fuels. Unfortunately the 
President's budget proposes a massive cut to the trails account, along 
with a cut to the National Forest System, and a cut to Hazardous Fuels 
Management.
    As you can see, our Corps partner with DOI and USFS in a critical 
capacities while providing high quality work experiences to engage 
thousands of youths and veterans in stewardship of the Great Outdoors. 
We understand there are difficult choices that need to be made in the 
bill, which is why ensuring continued projects and opportunities for 
our cost-effective public private partnerships is more important than 
ever. We again respectfully urge your support for these programs, 
certainty around the agreement process, and increases in funding in 
these important areas. Thank you for your time and consideration.

Sincerely,
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Mary Ellen Sprenkel
President & CEO
                                 ______
                                 
   Prepared Statement of the Council of Athabascan Tribal Governments
    The Council of Athabascan Tribal Governments (CATG) is a consortium 
of 10 Tribal governments located along the Yukon River and its 
tributaries in northeastern Alaska. Our organization provides a variety 
of services to the Tribal citizens of our region, including full 
healthcare services at the Yukon Flats Health Center and village-based 
clinics in four of our Villages. We have Self-Governance agreements 
with the Fish and Wildlife Service and with the Bureau of Land 
Management.

    CATG requests the following considerations be implemented in the 
fiscal year 2019 Appropriations cycle:

  --Telecommunications Subsidies: Support elimination of the arbitrary 
        cap on Internet subsidies for critical telecommunications 
        connectivity.
  --Section 105(l) Leases: Support funding for healthcare facility 
        leases under Section 105(l) of the Indian Self-Determination 
        and Education Assistance Act (ISDEAA).
  --Budget Increases: Support behavioral health increases to the IHS 
        and BIA budgets.
  --Advance Appropriations for IHS: Support advance funding for the 
        IHS.
  --Contract Support Cost (CSC) Funding: Support continued full and 
        mandatory CSC funding for the IHS and BIA.
  --Expand Self-Governance: Expand Self-Governance and fully fund 
        Annual Funding Agreements.
                      telecommunications subsidies
    CATG is aware that the subcommittees do not directly control 
funding subsidies of the Federal Communications Commission (FCC) and 
Universal Service Administrative Company (USAC); however, we would like 
to inform you of our serious concerns with recent development to 
telecommunications subsidies. Due to a funding cap, the USAC recently 
implemented a pro-rata reduction in Rural Health Care funding that 
subsidizes the extremely high costs of Internet connectivity and 
telecommunications in Alaska. Internet connectivity is critical to 
providing healthcare services to our remote villages. The funding cap 
has resulted in $50 million in cuts nationally, and for this year 
alone, Tribal health programs in Alaska will undergo an unplanned $18.1 
million shortfall for connectivity. CATG has been told to expect more 
than twice that impact next year, which could exceed $35 million for 
Alaska Tribal health programs. As such, we request the subcommittees' 
full support and engagement in eliminating the arbitrary cap and 
reinstating the full USAC subsidies to Tribal health programs 
throughout the State of Alaska.
                         section 105(l) leases
    Tribes and Tribal organizations increasingly rely on section 105(l) 
leases to address chronically underfunded facilities operation, 
maintenance, and replacement costs. Section 105(l) of the Indian Self 
Determination and Education Assistance Act (ISDEAA) provides for fully 
funded leases that are used by Tribes and Tribal organizations to carry 
out services under ISDEAA agreements. The funding is critical to being 
able to operate and maintain health clinics, which have historically 
been so severely underfunded that many clinics without Section 105(l) 
leases are either dangerous or unfit for the delivery of health 
services. The Federal court's decision in Maniilaq Association v. 
Burwell, 170 F. Supp. 3d 243 (D.D.C. 2016) identified a key source of 
funding to help remedy the problem of severely underfunded clinics. The 
court determined that Section 105(l) of the ISDEAA provides a just 
entitlement to full compensation for leases of Tribal facilities being 
used to carry out ISDEAA agreements. Rather than supporting the court's 
solution, the administration requested to amend the law in order to 
avoid full compensation for leases. Thankfully, Congress declined to 
include such a provision in the fiscal year 2018 IHS appropriation 
bill. The administration has once again proposed bill language intended 
to overrule the Maniilaq decision. The proposed language would exclude 
section 105(l) of the ISDEAA as a source of entitlement to funding for 
Section 105(l) leases, leaving it entirely within the discretion of the 
IHS. We request the subcommittees treat the administration's flawed 
proposal the same way it did in the fiscal year 2018 IHS appropriations 
bill and decline to include the language in the fiscal year 2019 bill.
                            budget increases
    CATG's communities in rural Alaska have extreme rates of suicide, 
alcohol and substance abuse; issues that contribute to a multitude of 
other adverse problems such as crime, domestic violence, child abuse 
and neglect. Frequently, Tribes in Alaska have difficulty working 
through the State of Alaska to provide behavioral and social services, 
which adds burdensome layers and undue regulation. CATG believes that 
Tribes and Tribal organizations should receive behavioral funds 
directly, because programs that implement traditional cultural values 
have proven to be far more successful than those that do not. We ask 
for your support in this effort. CATG also asks for support in 
expanding the Generations Indigenous (Gen-I) initiative, which provides 
increased resources for Tribes to address youth behavioral, mental 
health and substance abuse issues, as well as expansion of the Tiwahe 
Initiative, designed to address the inter-related problems of poverty, 
violence and substance abuse faced by Native communities.
                     advance appropriations for ihs
    CATG again requests your support in placing the IHS budget on an 
advance appropriation basis as Congress has done for the Veterans 
Administration health accounts since fiscal year 2010. IHS healthcare 
is similar to Veterans healthcare in that both the VA and the IHS 
provide direct medical care and both are the result of Federal 
policies. Predictability, continuity, and certainty are essential for 
providing stable quality healthcare. This issue continues to be 
important to Alaska Native and American Indian patients, particularly 
in a budget climate of seemingly endless Continuing Resolutions (CR). 
When IHS funding is subject to a CR, as it has been repeatedly over 
many years, Tribal healthcare providers receive only a portion of 
funding at a time, making it particularly difficult to implement long-
range planning and to effectively use and leverage limited resources. 
Partial funding also requires the same processing and manpower for each 
incomplete payment as one full apportionment. Having advance notice of 
funding levels would greatly aid CATG and other Tribal health providers 
in program planning, recruitment and retention of essential healthcare 
professionals. Under advance appropriations, we would know a year in 
advance what the budget would be and it would resolve much of the 
uncertainty we have experienced because full appropriations were not 
enacted at the first of the Federal fiscal year. The IHS budget should 
be afforded the same status consideration as VA health programs.
                  contract support cost (csc) funding
    CATG would like to thank the House and Senate Subcommittees for 
their leadership and commitment to fully funding CSC for IHS and BIA 
ISDEAA agreements. We appreciate the full funding of CSC over the past 
few fiscal years, that the funding is indefinite (``such sums as may be 
necessary'', and that the funding is in separate accounts in the IHS 
and BIA budgets. We request that the subcommittees continue to fully 
fund CSC. Such action is crucial to strengthening the ability of Tribal 
governments' to successfully exercise their rights and responsibilities 
as sovereign nations.
                         expand self-governance
    CATG is proud to be one of the first Tribal consortiums in the 
country to develop non-BIA DOI Self-Governance Annual Funding 
Agreements (AFA). However, we remain concerned that Contract Support 
Costs (CSC) for the AFA's to manage programs, functions, services, and 
activities, remain underfunded. We are also concerned that DOI scopes 
of work are being limited and the original intent and practice of Self-
Governance, which is to build Tribal capacity to take on increasing 
levels of responsibility, is not being properly carried out. We request 
your support in fully funding AFA CSC and to expand Self-Governance 
practice and agreements beyond BIA.
                               conclusion
    CATG greatly appreciates your consideration of our requests 
outlined in this testimony. On behalf of our organization and all of 
the people we serve, I would be happy to provide any other additional 
information as requested by the subcommittees.
                                 ______
                                 
                    Prepared Statement of Dance/USA
    Madam Chairman and distinguished Members of the subcommittee, I am 
grateful for the opportunity to submit testimony on behalf of Dance/
USA, its Board of Directors and its 500 members. We strongly urge the 
Subcommittee on Interior, Environment, and Related Agencies in the 
Committee on Appropriations to designate a total of $155 million to the 
National Endowment for the Arts (NEA) for fiscal year 2019. This 
testimony and the funding examples described below are intended to 
highlight the importance of Federal investment in the arts, which are 
critical to sustaining a vibrant cultural community throughout the 
country.
    The NEA is a great investment in in the economic growth of every 
community. The NEA was established in 1965 with the mission to 
``strengthen the creative capacity of our communities by providing all 
Americans with diverse opportunities for arts participation.'' It has 
continued to meet this mission for over 50 years, recommending more 
than 2,400 grants in every Congressional District in the country in 
fiscal year 2017. Sixty-five percent of direct grants went to small 
(budgets under $500,000) and medium sized (budgets between $500,000 and 
$2 million) organizations. Additionally, 40 percent of NEA-supported 
activities took place in high-poverty neighborhoods and 36 percent of 
NEA grants reached underserved populations, such as people with 
disabilities and veterans. Between 2012 and 2015, NEA-supported 
programs reached 24.2 million adults and 3.4 children on average each 
year through 80,603 live events.
    Funding from the NEA continues to support arts organizations and 
their communities by providing a high return on investment. The ratio 
of private and other public funds matching every NEA grant dollar is 
approaching 9:1, generating more than $500 million in matching 
supporting.
    Before the establishment of the NEA, funding for the arts was 
mostly limited to larger cities. The NEA is the only arts funder in 
America, public or private, that supports the arts in all 50 States, 
the District of Columbia, and U.S. territories. Additionally, 40 
percent of the NEA's program funds are distributed through State arts 
agencies, reaching tens of thousands throughout the U.S. NEA funding 
provides access to the arts in regions with histories of 
inaccessibility due to economic or geographic limitations.
    At the national level, the arts and cultural sector contributed 
$763.6 billion to the U.S. economy in 2015, 4.2 percent of the GDP, and 
counted 4.9 million workers who earned $372 billion in total 
compensation. The tax-exempt performing arts organizations contributed 
$9 billion to the U.S. economy and employed 90,000 workers, who earned 
$5.6 billion in total compensation. Consumers spent $31.6 billion on 
admissions to performing arts events.
    Dance companies make communities healthier and more vibrant. 
Audiences across the U.S. have the opportunity to experience in many 
aspects of life. Professional not-for-profit dance is highly diverse in 
its artistic forms, covering genres and styles that include aerial, 
ballet, burlesque, capoeira, flamenco, hip hop, hula, jazz, kathak, 
liturgical, modern, physically integrated, and tap dance, in addition 
to fusions of these genres and styles and the incorporation into other 
artistic disciplines. Dance artists work with performing arts centers, 
businesses, park districts, community centers, schools, religious 
institutions, and many other groups to ensure this wealth of creative 
activity is widely accessible to the public.
    Established in 1982 as the national service organizations for the 
professional dance field, Dance/USA's membership currently consists of 
more than 400 dance companies, dance service and presenting 
organizations, individuals, and related organizations.

  --Economic Impact: Not-for-profit dance regularly generates more than 
        $700 million in economic activity across the country. In fiscal 
        year 2014, reported annual expense budgets totaled $755.5 
        million. Ensembles that reported expenses for wages and 
        benefits on their 990s paid a total of $372.4 million, which 
        approximates to half (50.9 percent) of total aggregated 
        expenses for these ensembles.
      According to data compiled by the NEA and the Bureau of Economic 
        Analysis' U.S. Arts and Culture Production Satellite Account, 
        the gross output from not-for-profit dance companies totaled 
        $972 million, while the value added to the GDP by dance 
        companies is $573 million.
      Not-for-profit dance ensembles employed over 15,900 individuals 
        in a mix of full-time and part time positions in fiscal year 
        2014. These ensembles were further supported by more than 
        22,800 volunteers.
  --Communities Served: According to the Survey of Public Participation 
        in the Arts (SPPA), social dancing is the most common way 
        Americans performed art in 2012. African Americans are the 
        race/ethnic group more likely to dance formally and Hispanics 
        are the group most likely to dance socially. The rates of dance 
        participation are highest for younger adults (18-34). Dance 
        (other than ballet) is the only performing arts activity for 
        which U.S. attendance rates at performances did not fall 
        between 2002 and 2012.
  --Dance Works: According to research conducted by Dance/USA, the 
        dominant motivation for attending dance performances, 
        representing 50 percent of those surveyed, is to be inspired or 
        uplifted. Not-for-profit dance performances have the 
        opportunity to bring communities together, supporting social 
        and emotional needs of audience members.
                           nea grants at work
    NEA grants are awarded to dance organizations through its core 
programs: Art Works; Challenge America Fast Track Grants; and Federal/
State Partnerships. In fiscal year 2017, the NEA awarded 166 grants to 
the dance field through the Art Works category, totaling $4,160,000.
    Dance/USA's members continue to explore and research methods for 
engaging audiences. Dance groups continue to demonstrate the value and 
impact dance has on communities and audiences. Below are just a few 
examples of the excellent initiatives that Dance/USA members are 
engaged in, supporting the audiences and communities they serve. (Each 
organization referenced also received an NEA grant in fiscal year 
2017.)
Alabama Dance Council
Birmingham, Alabama
    Through the Community Forum Series, Alabama Dance Council explores 
cultural perspectives in Birmingham, Montgomery, and Atmore, Alabama. 
The initiative involves five guest artists and 10 local artists.
Ananya Dance Theatre
Minneapolis, Minnesota
    This company is hosting dialogues, workshops, dance trainings, 
performance installations, and audience improvisation. The company will 
expand its social just work with communities of color across the Twin 
Cities.
Cleo Parker Robinson Dance
Denver, Colorado
    ArtBursts is an issue-specific program for the African American 
community in the Five Points neighborhood of Denver. Working with a 
social forecast team, artists will use issues affecting neighborhoods 
as springboards for new work, reflecting community stories, and 
performed in both public and private spaces.
CONTRA-TIEMPO
Culver City, California
    This year-long initiative with the Community Coalition in South Los 
Angeles will include classes and choreographic labs, leading to the 
production of a new work, joyUS. The labs will be organized around 
social justice themes that are important to the South LA community.
Fresh Meat Productions
San Francisco, California
    Sean Dorsey Dance's Generations Positive will expand to include 
audience engagement activities with transgender and gender non-
conforming dance audiences. The initiative will include community 
forums and Dance Your Story workshops. Engagement will take place 
during the tour of The Missing Generation, a dance work about longtime 
survivors of the AIDS epidemic, in conjunction with partners who serve 
the trans community.
                               conclusion
    Dance/USA is grateful for the $3 million increase to the NEA in 
fiscal year 2018. The continued bipartisan support for the agency has 
continued to support artists and audiences, allowing opera and the arts 
to address critical issues, making communities healthier and more 
vibrant.
    We urge you to continue toward restoration and increase the NEA 
funding allocation to $155 million for fiscal year 2019.
    On behalf of Dance/USA, thank you for considering this request.

    [This statement was submitted by Amy Fitterer, executive director.]
                                 ______
                                 
              Prepared Statement of Defenders of Wildlife
    Madam Chairman, Ranking Member and Members of the subcommittee, 
thank you for the opportunity to submit testimony for the record. 
Founded in 1947, Defenders has more than 1.8 million members and 
supporters and is dedicated to the conservation of wild animals and 
plants in their natural communities.
    The President's fiscal year 2019 budget proposes draconian cuts to 
Federal wildlife and public lands programs that will likely cause 
irreparable harm to vulnerable species and habitat. We also note that 
throughout the budget, cuts are justified by claiming that funding will 
be focused on other higher priorities without ever identifying those 
priorities. We urge you to reject these destructive cuts. Defenders is 
also extremely skeptical about a plan by Secretary Zinke to entirely 
reorganize the Department of the Interior by consolidating authority 
for administering diverse Interior agencies under the control of 13 
regional czars. The purpose and result of this proposal would be to 
reduce or eliminate the relative independence of agencies to manage and 
conserve land, waters, and wildlife in accordance with their individual 
statutory and policy mandates. It would be detrimental to transparent 
and balanced decisionmaking and conservation of our natural resources. 
Relocating central offices to various western locales also would make 
them more prone to capture by development and resource extraction 
industries. We urge you to reject this proposal.
    Riders that threatened to undermine protections for imperiled 
species and the Endangered Species Act (ESA) and sound management of 
our national forests, including the Tongass National Forest in Alaska, 
were inserted into the Chairmen's mark of the fiscal year 2018 Senate 
Interior appropriations bill. We strongly opposed these riders, and we 
appreciate that almost all were stricken or mitigated in the 
Consolidated Appropriations Act, 2018. We also are extremely grateful 
for funding increases provided for many programs in the final bill and 
that Congress agreed to a comprehensive wildfire funding solution.
                       fish and wildlife service
    The U.S. Fish and Wildlife Service (FWS) is our Nation's premier 
wildlife conservation agency, yet the request proposes a 23 percent cut 
overall to its budget. We urge no less than the fiscal year 2018 
enacted level of $1.6 billion to support FWS in recovering threatened 
and endangered species; protecting migratory birds and fish, species of 
global conservation concern and other trust species; and stopping or 
preventing wildlife crimes.
Ecological Services
    The request proposes a 14.6 percent cut. Defenders supports no less 
than the fiscal year 2018 level of $247.8 million for Ecological 
Services so that high-priority work to protect imperiled species can 
continue:

  --Listing: The request cuts the listing budget by an unacceptable 42 
        percent. Defenders was also concerned that the fiscal year 2018 
        bill cut the listing budget by $1.7 million below the enacted 
        level. We urge restoration to the fiscal year 2017 level of 
        $20.5 million so that the agency can continue to make progress 
        with its broadly supported seven-year listing workplan that 
        allows the agency to prioritize over 300 species for listing 
        decisions. Species due for decisions in fiscal year 2019 
        include the tufted puffin, Penasco least chipmunk, and monarch 
        butterfly.
  --Recovery: The request cuts recovery by 11.2 percent. Defenders 
        supports the creation of new Recovery Challenge matching grants 
        in the fiscal year 2018 bill, and we urge no less than the 
        fiscal year 2018 level of $91 million for fiscal year 2019. 
        Currently, approximately 380 listed U.S. species do not have 
        final recovery plans. FWS receives less than 25 percent of the 
        funding needed each year to implement all recovery actions 
        identified in recovery plans.
  --Planning and Consultation: The request cuts planning and 
        consultation by 6.4 percent. Defenders urges no less than the 
        fiscal year 2018 level of $105.6 million for fiscal year 2019. 
        This continued level of funding is needed to support crucial 
        Section 7 consultations under the ESA so that projects can move 
        forward while minimizing harm to listed species. This program 
        already operates on an inadequate budget. Resources to monitor 
        permit compliance are almost nonexistent.
  --Conservation and Restoration: The request cuts conservation and 
        restoration by an enormous 34.6 percent. Defenders urges no 
        less than the fiscal year 2018 level of $32.4 million to 
        support continued conservation for candidate species as they 
        await listing and to support work with stakeholders on a 
        variety of efforts that benefit trust resources.
  --Wolf Livestock Loss Demonstration Program: The request eliminates 
        all funding for this program that assists livestock owners co-
        existing with wolves. We urge continued funding at no less than 
        $1 million.
National Wildlife Refuge System
    Our National Wildlife Refuge System is the largest network of 
public lands and water in the Nation dedicated to wildlife 
conservation. The administration's request cuts the Refuge System 
Operations and Maintenance (O&M) budget by 2.8 percent. The current 
$486.8 million for O&M is now $93 million below the level needed to 
keep pace with inflation and salary increases relative to the fiscal 
year 2010 level of $503.2 million. The Cooperative Alliance for Refuge 
Enhancement, a coalition of 23 hunting, fishing, conservation and 
scientific organizations recommends $586 million for O&M for fiscal 
year 2019. Defenders also was concerned that neither the 
administration's request to address hurricane and fire damages nor the 
supplemental appropriations enacted last year included funding for 
needed habitat restoration on refuges; we urge the subcommittee to 
include that funding in the regular fiscal year 2019 bill.
Migratory Bird Management
    A just-issued report \1\ has found that one in eight bird species 
is threatened with global extinction, yet the request cuts this program 
by 4.3 percent. Defenders supports continued funding at no less than 
the fiscal year 2018 level of $48.4 million to support crucial survey 
and monitoring programs and for building resilience of bird species and 
their habitats. We also oppose the administration's recent decision not 
to prosecute negligent killing of birds listed under the Migratory Bird 
Treaty Act.
---------------------------------------------------------------------------
    \1\ https://www.birdlife.org/sites/default/files/attachments/
BL_ReportENG_V11_spreads.pdf.
---------------------------------------------------------------------------
Office of Law Enforcement (OLE)
    The request cuts OLE by 9.9 percent. We are extremely grateful for 
the new funding provided in the fiscal year 2018 bill to support 
inspectors at ports currently without personnel and we hope it can be 
maintained. Defenders supports no less than the fiscal year 2018 level 
of $77.1 million to help OLE continue to address the crisis in the 
illegal global wildlife trade.
International Affairs
    The request cuts this program by 8.2 percent. Defenders urges 
continued funding at no less than the fiscal year 2018 level of $15.8 
million which is crucial in continuing to combat illegal wildlife trade 
and to build capacity in range countries.
Cooperative Landscape Conservation and Science Support
    The request again unwisely zeroes out funding for these two crucial 
scientific programs. Defenders thanks the subcommittee for restoring 
funding. We urge funding at no less than the fiscal year 2018 levels of 
$13 million and $17.3 million respectively so that FWS can continue to 
work to address complex challenges, such as climate change, across 
large landscapes and otherwise address scientific questions key to 
conservation of trust species.
Key Grant Programs
    The request makes draconian cuts to important grant programs, 
including zeroing out funding for the Cooperative Endangered Species 
Fund. Defenders supports no less than the fiscal year 2018 levels for 
the Neotropical Migratory Bird Fund, the Multinational Species 
Conservation Fund, the Cooperative Endangered Species Fund, and State 
and Tribal Wildlife Grants.
              forest service and bureau of land management
    The U.S. Forest Service (FS) and the Bureau of Land Management 
(BLM) are essential to the conservation of wildlife and habitat in the 
U.S., yet the request makes significant and damaging cuts to key 
scientific, conservation and management programs. Defenders is 
particularly disturbed by the apparent shell-game being played in the 
request with key BLM programs, especially with the Wildlife and 
Fisheries and Threatened and Endangered Species Activities, through the 
administration's proposal to consolidate these programs and provide 
significantly less support and transparency, while greatly increasing 
funding for the development of fossil fuels. We urge the subcommittee 
to retain the current budget structure for BLM programs.
BLM Wildlife and Fisheries Management
    Defenders opposes the elimination of this program in the request as 
well as the $22.9 million decrease for the Sagebrush Conservation 
Implementation Strategy. Defenders supports no less than the fiscal 
year 2018 level of $115.8 million, which includes $60 million for 
greater sage-grouse and sage steppe conservation activities. In 
addition, we oppose the current effort to revise and weaken the 
National Greater Sage-Grouse Planning Strategy.
BLM Threatened and Endangered Species Management
    Defenders opposes the elimination of this program in the request. 
Funding for this program has been far below the level needed for the 
work the agency is required to do to recover the 430 ESA listed species 
on BLM lands: more than 5,000 tasks assigned to BLM in approved 
recovery plans. Defenders supports $22.6 million for the program, an 
increase of $1 million over fiscal year 2018, which restores the budget 
to the fiscal year 2010 level.
BLM Renewable Energy
    The request cuts this program by 43.5 percent. Defenders supports 
funding at no less than the fiscal year 2017 level of $29.1 million to 
allow BLM to continue facilitating renewable energy development on 
public lands, while avoiding areas with natural resource conflicts, 
including sensitive wildlife species.
BLM Resource Management Planning, Assessment and Monitoring
    The request cuts this program by 39.9 percent. We urge continued 
funding at no less than the fiscal year 2018 level of $60.1 million to 
support new high-priority planning efforts, data collection and 
monitoring crucial to the sage-grouse conservation strategy and other 
key initiatives to better monitor ecological conditions and trends on 
the landscape.
FS Wildlife and Fisheries Habitat Management
    The request cuts this program by 12.9 percent, and while this and 
other FS programs benefitted from the removal of Cost-Pool 9, Wildlife 
and Fisheries Habitat Management has been essentially flat-funded since 
fiscal year 2014. We support restoring funding to at least the fiscal 
year 2010 level of $143 million to carry out critical conservation and 
recovery activities for the nearly 470 threatened and endangered 
species and 3,100 sensitive species that depend on FS lands and to help 
address the loss of biologists that has occurred in recent years.
FS Land Management Planning, Assessment and Monitoring
    The request cuts this program by 12.5 percent. Despite the removal 
of Cost-Pool 9, Defenders supports maintaining funding at no less than 
the fiscal year 2017 level of $182.9 million. Numerous out-of-date 
forest plans lack contemporary conservation strategies for at-risk 
species and funding is crucial in developing updated ecological, social 
and economic assessments to inform the forest planning process and 
needed monitoring to validate that forest plans are being effectively 
implemented.
FS Collaborative Forest Landscape Restoration Program
    The request zeroes out funding. We support continued funding at the 
fiscal year 2018 level of $40 million for this cost-effective program, 
which was established to restore forest and watershed health, improve 
wildlife habitat, and reduce the costs of fire suppression in overgrown 
forests and the risk of uncharacteristic wildfires.
FS Forest and Rangeland Research (FS R&D)
    The request cuts R&D by 22.2 percent. We urge a return to the 
fiscal year 2015 level of $226 million which included $27.1 million for 
Wildlife and Fish R&D. Adequate funding for this program is crucial in 
providing relevant tools and information to support sustainable 
management of National Forest System lands as well as non-Federal 
forest lands. Generally, we are concerned that the FS may lack adequate 
applied scientific capacity both in R&D and the National Forest System 
to implement critical conservation and management actions.
                         u.s. geological survey
    The U.S. Geological Survey provides the basic science for 
conservation of wildlife and habitat.
National and Regional Climate Science Centers
    The request again proposes to consolidate the 8 regional Climate 
Science Centers and cut funding by 48.6 percent. Defenders appreciates 
that the fiscal year 2018 bill rejected consolidating the centers and 
maintained funding at $25.3 million. We urge the subcommittee to retain 
the current structure of the national and 8 regional climate science 
centers and funding at no less than the fiscal year 2018 level to 
support scientific needs in planning for climate change adaptation and 
building resiliency of ecosystems.
Ecosystems
    The request cuts this program by 39.1 percent. Defenders urges 
continued funding at no less than the fiscal year 2017 level of $159.7 
million to help support development of crucial scientific information 
for sound management of our Nation's biological resources.
                land and water conservation fund (lwcf)
    The request slashes funding by 98 percent. Defenders appreciates 
the $25 million increase for LWCF in the final fiscal year 2018 bill. 
We support funding at no less than the fiscal year 2018 level of $425 
million to help to save some of the 6,000 acres of open space, 
including wildlife habitat, that are lost each day in the United 
States.\2\
---------------------------------------------------------------------------
    \2\ http://www.fs.fed.us/openspace/coop_across_boudaries.html.

    [This statement was submitted by Mary Beth Beetham, Director of 
Legislative Affairs.]
                                 <greek-l>
                                 ______
                                 
         Prepared Statement of DieselEmissionsReductionAct deg.
  Prepared Statement of U.S. Senators in Support of the Environmental 
   Protection Agency's Diesel Emissions Reduction Act Program (DERA)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
        Prepared Statement of the Dine Grant Schools Association
    The Dine Grant Schools Association (DGSA) is comprised of the 
school boards of eight Bureau of Indian Education (BIE)-funded schools 
which are operated pursuant to the Tribally Controlled Schools Act 
(Public Law 100-297) or to Public Law 93-638 and located on the Navajo 
Nation in Arizona and New Mexico. These schools are: Chilchinbeto 
Community School; Hunters Point Boarding School; Lukachukai Community 
School; Pinon Community School; Alamo Navajo School; Dzilth-Na-O-Dith-
Hle Community Grant School; Pine Hill Schools (Ramah Navajo School 
Board, Inc.); and Shiprock Associated Schools.
Success Through Language, Culture, Community Involvement, and High 
        Standards
    As Tribal school boards, we have both the greater freedom and the 
tremendous responsibility to ensure that our students receive the kind 
of world-class, culturally relevant education that will help them reach 
their fullest potential. We believe that successful students know who 
they are, that they are valued, and that great things are expected of 
them. Our schools incorporate Navajo language and culture into our 
curricula. We set rigorous standards that our students must strive to 
meet and give them a sense of accomplishment at their achievements.
Why Federal Funding Matters
    It is difficult to concentrate on lessons if you are too cold or 
the roof is leaking or the water pipes don't work. It is difficult to 
take Partnership for Assessment of Readiness for College and Careers 
(PARCC) online practice tests or take distance learning Advanced 
Placement classes on dial up speed Internet connections. It is 
difficult to ride the bus, sometimes on unimproved roads, to a 
crumbling school that has lingered on a replacement list because of 
lack of funding. These challenges to learning are prevalent throughout 
Indian Country. What has been different these past several years is a 
wholesale change in understanding the extent of these challenges and a 
bipartisan resolve to address them. For this, we are deeply grateful. 
As we work to provide a world-class education and bright future for our 
students, we consider Members of Congress to be our partners in this 
endeavor.
    Our highest funding priorities are: ISEP formula funds; Tribal 
Grant Support Costs; Facilities Operations and Maintenance; and the 
FACE Program in the BIE budget as well as Education Construction and 
Repair and Road Maintenance in the BIA budget. These programs make the 
greatest difference in our ability to educate our students.
        indian school equalization program (isep) formula funds
    The Indian School Equalization Program (ISEP) Formula is the core 
budget account for Educational and Residential programs of the BIE 
elementary and secondary schools and dormitories. These funds are used 
for instructional programs at BIE-funded schools and include salaries 
of teachers, educational technicians, and principals. For years, the 
amount appropriated for ISEP formula funds increased barely enough to 
cover fixed costs. We appreciate that Congress once again began 
providing program increases in fiscal years 2016, 2017 and 2018.
Impact
    For most BIE-funded schools, the chronic shortfall in the other key 
school accounts has a negative impact on ISEP Formula funding, because 
ISEP Formula funds are often diverted to make up the shortfalls in 
other accounts, such as Facilities Operations and Maintenance, when a 
Tribe or Tribal school board has no other source of funding to satisfy 
those shortfalls. This means fewer funds are available for 
instructional activities. We are tremendously grateful that Congress 
has increased funding for these critical accounts so ISEP Formula funds 
can be used for their intended purpose.
Request
    The $2.6 million program increase for a total of $402.9 million 
that Congress provided in fiscal year 2018 will be very helpful; 
however, it still does not acknowledge the shortfalls that have been 
building for years. We respectfully request a total of $431 million.
                       tribal grant support costs
    Since the 1988 Elementary and Secondary Education Act 
reauthorization, tribally-operated elementary and secondary schools 
have received funding for the administrative expenses incurred for the 
operation of BIE-funded schools through an Administrative Cost Grant, 
now called Tribal Grant Support Costs (TGSC). Tribal Grant Support 
Costs are the Contract Support Costs for tribally controlled schools. 
These funds are used for essential services such as contract/grant 
administration; program planning and development; human resources; 
insurance; fiscal, procurement, and property management; required 
annual audits; recordkeeping; and legal, security and other overhead 
services.
Impact
    In fiscal year 2016, Tribal Grant Support Costs were fully funded 
for the first time. Thereafter, both the Obama and Trump 
administrations have requested and Congress has provided full funding 
for Tribal Grant Support Costs.
Request
    We would like to express our sincere appreciation for this 
bipartisan commitment to fully fund Tribal Grant Support Costs and 
express support for its continuation.
                  early childhood or ``face'' program
    The Early Childhood and Family Development budget category commonly 
referred to as the ``FACE'' program is designed to (1) strengthen 
family-school-community relations, (2) increase parent participation in 
education, and (3) support parents in their role as a child's first and 
most important teacher. Many of DGSA's Member schools run successful 
FACE programs so we were shocked to see that the administration's 
proposes to zero this out.
Impact
    The FACE program teaches essential skills to children that help 
make them kindergarten-ready, such as how to hold a pencil, color and 
write their name. There is a marked difference in outcomes for those 
children who have access to a FACE-funded program and those who do not. 
Further, these programs strengthen families and communities and help 
increase parent engagement. Families are another critical factor in 
whether children succeed academically.
Request
    We respectfully ask that the subcommittees reject the 
administration's proposal to zero out this important program.
                 facilities operations and maintenance
    Facilities Operations funding is for the ongoing operational 
necessities such as electricity, heating fuels, custodial services, 
communications, refuse collection and water and sewer service. 
Facilities Maintenance funds are intended to provide for the 
preventative, routine, and unscheduled maintenance for all school 
buildings, equipment, utility systems, and ground structures. We 
appreciate that these budget categories have seen some increases in 
fiscal years 2016, 2017 and 2018. Unfortunately, the administration's 
proposal is to cut $5.5 and $5 million, respectively. While the recent 
increases for these two budget categories are important improvements; 
we note that the fiscal year 2017 budget justification states that the 
$66.2 million requested for Facilities Operations and the $59 million 
requested for Facilities Maintenance would fund 78 percent of 
calculated Facilities Operations and Maintenance need across BIE-funded 
schools. Neither the fiscal year 2018 budget justification nor the 
fiscal year 2019 budget justification bothered to provide an estimate 
for what full funding would look like but we suspect that it would not 
be a $10.5 million cut. We also note that Facilities Operations and 
Facilities Maintenance are some of the last budget categories for 
primary and secondary schools that are still funded on a fiscal year 
schedule, rather than a forward funded (school year) basis. Continuing 
Resolutions and government shut-downs can wreak havoc when trying to 
carry out these activities.
    Backlog. The fiscal year 2019 budget justification provides a 
``projection'' that by fiscal year 2018, ``68 percent of school 
facilities will be in good or fair condition''. This ``projection'' 
still leaves 32 percent behind in ``poor'' condition. We also note that 
the fiscal year 2019 budget justification states that as of the first 
quarter of fiscal year 2018, there were ``$634 million dollars of 
deferred maintenance across BIE-school facilities and grounds.'' 
Frustratingly, many schools are being written up for health and safety 
violations but have no money to make the needed changes. Part of the 
maintenance problem will be solved by replacing aging, deteriorated 
schools, but Federal resources for maintenance are needed to preserve 
that investment and to ensure our schools' facilities remain fully 
functional learning environments throughout the length of their design 
life.
    Proposed Public Lands Infrastructure Fund. We sincerely appreciate 
that BIE-funded schools are included among the national parks and 
national wildlife refuges as eligible for repairs and improvement 
funding from the proposed Public Lands Infrastructure Fund, however, we 
do have a number of questions and concerns, including the following: 
(1) It is uncertain whether the Public Lands Infrastructure Fund will 
garner Congressional support in order to move forward; (2) Assuming 
that the Fund gains such support, revenue projections are unpredictable 
and would require significant increases in energy leases and 
development on public lands to achieve the projected revenue streams; 
and (3) Royalty rates from energy leases are decreasing, making it 
unlikely that revenue will increase above the fiscal year 2018 baseline 
in the near future. Please be assured, we are grateful to be included 
in this proposal--provided that it is a supplement to Congress 
appropriating adequate and consistent maintenance and repair funding 
each fiscal year.
Impact
    There are numerous studies which attest to the fact that there is a 
close correlation between poor or inadequate facility conditions and 
poor student and staff performance. Since we cannot delay paying our 
utilities or avoid taking actions that would impact student safety, we 
often have to resort to using our other education or academic program 
monies--just like what happened when Tribal Grant Support Costs were 
not fully funded.
Request
    We respectfully ask that the subcommittee provide full, consistent 
funding for Facilities Operations and Facilities Maintenance and 
transition these two budget categories to a forward funded (school 
year) budget cycle, just like the other core education accounts. Should 
additional funds become available from the proposed Public Lands 
Infrastructure Fund to address the $634 million maintenance backlog, we 
do not object.
                   education construction and repair
    This funding category within the BIA Construction budget includes 
Replacement School Construction; Facilities Component Replacement; 
Facilities Improvement and Repair; and Employee Housing Repair. 
According to the Department of the Interior, the current backlog of 
construction projects is estimated to be as high as $1.3 billion. The 
BIE has stated that its ``next-step'' is to ``develop a long-term 
school construction funding plan that will address the needs of all BIE 
funded schools determined to be in poor condition.'' We were encouraged 
by the important increases that the subcommittees provided for 
Education Construction in fiscal year 2016 and then maintained in 
fiscal year 2017, and followed by the game changing increase in fiscal 
year 2018 for which we are very grateful. Two DGSA Member schools are 
on the National Review Committee's 2016 Replacement List: Dzilth-Na-O-
Dith-Hle Community Grant School has just completed the planning phase 
and is waiting on design phase funds while Lukachukai Community School 
has submitted it Program of Requirements (the final step of the 
planning phase) and is awaiting BIA approval. Given the state of school 
facilities across the BIE system, we were shocked to once again see the 
administration propose to zero out Replacement School Construction and 
Facilities Component Replacement.
Impact
    Facilities within the BIE system are woefully outdated and, in some 
cases, dangerous for students and staff. Each year that the Facilities 
Improvement and Repair budget is underfunded, our facilities 
deteriorate more quickly. The lack of an appropriate learning 
environment in many BIE system schools puts Native students at an 
unfair disadvantage.
Request
    We respectfully request that Congress and the administration 
consult with Tribes and Tribal school boards when developing this long-
term school replacement and repair plan. Further, we ask that once 
developed, Congress implement this plan by providing consistent funding 
for Education Construction and Repair each fiscal year.
                            road maintenance
    For several years, the subcommittees have highlighted the poor 
conditions of unpaved roads and bridges used by school buses 
transporting students and called on the BIA to implement the GAO's 
recommendations--to little avail. We would like to thank the 
subcommittees for attempting to hold the BIA accountable and for 
providing additional funding directed to these dangerous school bus 
routes.
Request
    We respectfully request that the subcommittees continue funding 
increases directed to these school bus routes and continue your efforts 
to hold the BIA accountable.
                               conclusion
    Thank you for the opportunity to provide testimony on these 
critical matters. Please contact President Lula Jackson with any 
questions.

    [This statement was submitted by President Lula Jackson.]
                                 ______
                                 
    Prepared Statement of the Dzilth-Na-O-Dith-Hle Community School
    Thank you for the opportunity to submit testimony on behalf of the 
Dzilth-Na-O-Dith-Hle Community School (DCS) on the Navajo Reservation 
in Bloomfield, New Mexico. Our school, which has been in continuous 
service since 1968, operates a K-8 educational program and a dormitory 
program for students in grades 1-12, serving around 260 students in 
both programs. DCS is a tribally controlled grant school and is located 
approximately 170 miles northwest of Albuquerque. DCS is primarily 
funded through appropriations received from the Bureau of Indian 
Education (BIE), and pass-through funding from the Department of 
Education.
    The DCS goal is to make a difference in the educational progress of 
our students. We believe that all of our students are capable of 
achieving academic success and are capable of contributing their 
communities. It is with these values in mind that our all-Navajo Board 
operates the DCS through a Grant issued by the BIE under the Tribally 
Controlled Schools Act (Public Law 110-297). In years past, we have 
worked under very difficult conditions to help our students reach their 
potential. Going into fiscal year 2019, we continue to face many 
challenges that are the result of years of flat lined and eroded 
budgets but we would like to thank the subcommittees for providing 
several game-changing funding increases these past several fiscal 
years. These increases are helping Indian Country turn the tide of 
dismal headlines and poor outcomes and are making real and measureable 
positive impacts for our students.
status of dcs school replacement process and the importance of suitable 
                               facilities
    DCS was overjoyed to be one of the 10 schools chosen for the 2016 
Replacement School list. As you are aware, those on the list receive 
funding first for planning and then, upon successful completion of the 
planning phase and upon availability of funds, receive funding for 
design and construction. I am proud to report that our school 
accomplished our objectives and completed the planning phase operating 
within tight budget constraints and timelines. Several weeks ago, the 
Bureau of Indian Affairs (BIA) notified DCS that we are fourth on the 
queue of schools eligible for design phase funding.
    We cannot emphasize enough how critical school replacement 
construction funds are. We are so grateful for the recent increases the 
subcommittees have provided for school replacement construction, 
particularly in fiscal year 2018. These increases can help turn the 
tide on years of neglect and will absolutely make a difference in the 
lives and educational outcomes of our students. As we and other schools 
on the 2016 Replacement list work through the different project phases, 
we note that there are still many more school waiting behind us.
    Given the vital importance of school replacement construction 
funding, we were shocked to learn that for fiscal year 2019, the 
administration once again called attention to the poor condition of 
BIE-funded schools but then proposed to completely zero out finding for 
school replacement construction. We simply cannot believe this 
disregard for our students, our teachers and our communities and we ask 
that these subcommittees again reject the administration's proposal.
    As an example of why our school was placed on the 2016 Replacement 
List, we would like to describe the present state of our facilities. 
DCS's school facilities have a Facilities Condition Index rating of 
``Poor.'' Our building systems are obsolete and the conditions are 
hazardous to the health of our students and staff. For example:

  --our outdated sewage system frequently backs up and emits foul and 
        disease laden odors;
  --our water pipes are corroded and filled with sediment;
  --there is no ventilation system, which contributes to a comprised 
        air quality, resulting in headaches and other health concerns 
        for our students and staff;
  --our heating and cooling systems are obsolete; and
  --other features, such as our windows and doors, are out of 
        compliance with fire codes.

    All students deserve to attend a school that is safe, sanitary and 
fully operational. DCS believes that our to-be designed new school 
facility will help our students not only achieve necessary educational 
benchmarks, but will also help our students to thrive in their 
educational pursuits. However, these improved outcomes will only be 
possible through the subcommittees' continued commitment to school 
replacement construction funding in fiscal year 2019 and beyond.
            school facilities health and safety inspections
    On a related matter, DCS would like to unfortunately express our 
frustration with health and safety inspections conducted by BIE and BIA 
staff. We deeply appreciate the subcommittees' concern and focus on the 
health and safety of school facilities, including report language 
urging the BIE and BIA to address the alarming findings set forth in 
recent GAO reports. Unfortunately, some of this focus is having 
unintended consequences, particularly for schools like DCS on the 2016 
Replacement List. Recently, a health and safety inspection was 
conducted at our school, and we were ordered to conduct major 
structural upgrades despite a lack of funding for the upgrades. As 
demonstrated above, DCS is keenly aware of the inadequate conditions 
existing at our school, which is precisely why we were selected for the 
2016 Replacement List in the first place and why we feel such urgency 
to ensure the completion of each project phase in a timely fashion. 
Further, from a cost perspective, it would be illogical to expend 
funds, which do not exist, on a school facility that is on the brink of 
replacement. We ask that the subcommittees craft terms for this year's 
report language that provides a logical amount of leeway for us and for 
other schools in our position.
       fiscal year 2019 proposed public lands infrastructure fund
    DCS has closely reviewed the administration's fiscal year 2019 
budget proposal, particularly regarding the Public Lands Infrastructure 
Fund. We extend our appreciation for the administration's 
identification of the BIE funded schools' $634 million repair and 
maintenance backlog as an issue to be addressed. We also appreciate the 
fact that the administration has included BIE-funded schools among the 
national parks and national wildlife refuges as eligible for repairs 
and improvement funding from the proposed Public Lands Infrastructure 
Fund, however, we do have a number of questions and concerns, including 
the following:

  --It is uncertain whether the Public Lands Infrastructure Fund will 
        garner Congressional support in order to move forward;
  --Assuming that the Fund gains such support, revenue projections are 
        unpredictable and would require significant increases in energy 
        leases and development on public lands to achieve the projected 
        revenue streams; and
  --Royalty rates from energy leases are decreasing, making it unlikely 
        that revenue will increase above the fiscal year 2018 baseline 
        in the near future.

    Please be assured, we are grateful to be included in this 
proposal--provided that it is a supplement to Congress appropriating 
adequate and consistent maintenance and repair funding each fiscal 
year. If a portion of these appropriations are offset by increases in 
royalties, we do not object to it but we are very nervous about a 
scenario whereby we would be forced to solely rely on variable 
royalties to provide these critical yearly maintenance and repair 
funds. On this note, we would like to extend our gratitude to the 
subcommittees for the substantial increase in the Facilities 
Improvement and Repair account for fiscal year 2018. This increase will 
absolutely make a difference.
                               conclusion
    In closing, Dzilth-Na-O-Dith-Hle Community School thanks the 
subcommittees for the important increases that have been provided and 
urges the subcommittees to ensure that direct, consistent Federal 
funding for school replacement construction and school maintenance and 
repair continues in fiscal year 2019 at levels consistent with or 
higher than those appropriated fiscal year 2018. Direct, consistent 
funding is crucially important to achieve the timely completion of 
construction of schools on the 2016 Replacement List and to properly 
maintain these important Federal investments for our children's future.
    DCS is thankful for the opportunity to provide this testimony and 
looks forward to working with the subcommittees on furthering the needs 
of our school and our students. Please contact Faye BlueEyes at: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="aacccbd3cfc8c6dfcfcfd3cfd99b99eacdc7cbc3c684c9c5c7">[email&#160;protected]</a> if you have any questions.

    [This statement was submitted by Ervin Chavez, School Board 
President and Faye BlueEyes, Administrative Services Director.]
                                 ______
                                 
        Prepared Statement of the Ecological Society of America
    The Ecological Society of America (ESA) appreciates the opportunity 
to provide testimony in support of fiscal year 2019 appropriations for 
the Environmental Protection Agency. ESA is the Nation's largest 
society of professional ecologists, representing over 9,000 members 
across the country. We write to urge you to support robust funding for 
the Environmental Protection Agency (EPA) for fiscal year 2019, 
specifically at least $715 million for Science and Technology within 
EPA.
    The EPA is vital to protecting both the environment and human 
health, and the agency's Science and Technology programs are critically 
important to its ability to successfully address environmental 
problems. Without adequate funding, the EPA cannot fulfill its core 
mission and responsibilities. Strong investments in the EPA are thus 
essential to ensuring the health of our Nation's citizens and 
environment.
 epa science and technology programs reduce environmental risks facing 
                               americans
    Since its formation in 1970, the EPA has reduced environmental risk 
to Americans, enforced laws safeguarding human health and the 
environment, and helped the Nation serve as a leader in protecting the 
environment.
    Science and Technology funding supports programs and research that 
contribute to clean air, clean water, sustainable communities, homeland 
security, and human health. Through the Office of Research and 
Development (ORD), the EPA conducts cutting-edge research programs, 
including important ecological research and monitoring, that provide 
the scientific foundation for the agency's decisionmaking and other 
programs. These research and monitoring programs also provide essential 
data and information on which State and local governments depend, with 
environmental monitoring data collected and maintained by the EPA 
helping to ensure healthy communities across the country. EPA research 
projects focus on issues of national significance and help to solve 
complex environmental problems--often with public health implications--
with new scientific understanding and technologies. From detecting and 
addressing harmful algal blooms to helping communities rehabilitate 
contaminated sites, EPA research funded by Science and Technology 
appropriations delivers solution-oriented results with broad and 
lasting impact.
   proposed cuts would have consequences for human and environmental 
                                 health
    ESA is very concerned with the administration's proposed cuts to 
the EPA in fiscal year 2019. The proposed reductions, reflective of 
those suggested in the president's fiscal year 2018 budget, would have 
far-reaching and damaging effects on public and environmental health 
and economic growth that depends on healthy communities. The 
President's budget proposal requests only $6.1 billion for the agency, 
a reduction of 24 percent from enacted fiscal year 2017 funding of $8.1 
billion, which would leave the EPA with its lowest inflation-adjusted 
budget since the 1970s. This significant cut would be achieved by 
continuing to eliminate agency jobs, cutting an additional 2,574 agency 
jobs by fiscal year 2019 and leaving the agency with its smallest 
workforce since the 1980s. Furthermore, the proposal would completely 
eliminate 50 agency programs that benefit the American people, 
including categorical grant programs, regional environmental programs, 
water programs, climate and climate science research programs, 
voluntary partnership programs, and special initiatives that focus on 
everything from lead risk reduction to waste minimization to small 
minority business assistance. The proposed budget would essentially 
eliminate, by way of drastic cuts, several other important geographic 
programs, including the Great Lakes Restoration and Chesapeake Bay 
programs.
    The administration's budget also proposes to reduce funding for EPA 
Science and Technology considerably to only $449 million, a 36 percent 
cut from fiscal year 2017 funding. Sound science is the foundation of 
everything the agency does. EPA research programs support clean air, 
healthy neighborhoods, safer chemicals, and clean water, and it helps 
develop solutions to environmental problems. EPA science meets the 
highest standards for peer review, transparency, ethics, and integrity, 
and it is essential to maintain strong support for science and research 
at the EPA. Cuts, particularly cuts of the magnitude proposed in the 
President's budget, would dangerously hinder the EPA's ability to 
fulfill its mission and responsibility to the American people and would 
have serious impacts on the local, State, and national levels.
    ESA is extremely troubled by the proposed budget for the EPA and 
the devastating impacts the funding cuts would have on the agency's 
ability to fulfill its mission and conduct the scientific research 
necessary to inform its operations and decisions. We appreciate your 
past support for the EPA and your preservation of the agency's budget 
for fiscal year 2018. We urge you to once again reject cuts to EPA 
programs and research as you proceed with fiscal year 2019 
appropriations.
 strong investments in the epa protect our citizens and our ecosystems
    The EPA is an essential agency that plays a key role in addressing 
ecological problems and other environmental issues that affect public 
health. We appreciate your past support for this critical agency, and 
we urge you, in the interest of ensuring the health of our Nation's 
citizens and ecosystems, to continue this support and provide robust 
funding for the EPA in fiscal year 2019, in particular $715 million for 
EPA Science and Technology.
    Thank you for your consideration of this request.

    [This statement was submitted by Richard Pouyat, President.]
                                 ______
                                 
       Prepared Statement of the Entomological Society of America
    The Entomological Society of America (ESA) respectfully submits 
this statement for the official record in support of funding for 
entomology-related activities at the U.S. Environmental Protection 
Agency (EPA), the U.S. Department of Agriculture (USDA) Forest Service, 
the U.S. Department of Interior (DOI), and the Institute of Museum and 
Library Services (IMLS). For fiscal year 2019, ESA recommends $8.267 
billion for EPA, including support for Pesticides Licensing Program 
Area activities within its Science & Technology and Environmental 
Program & Management budgets, and continued support for State & Tribal 
Assistance Grants for Pesticide Program Implementation. ESA strongly 
supports EPA's commitment to work with other Federal agencies to 
monitor and improve pollinator health, including involvement by EPA to 
examine the potential impact of pesticides on pollinator health. In 
addition, ESA requests the Forest Service be funded at least at the 
fiscal year 2018 enacted level of $5.93 billion in discretionary funds. 
Within the Forest Service, ESA requests the Forest and Rangeland 
Research budget be supported at $297 million to preserve valuable 
invasive species research and development. The Society also supports 
continued investment in Forest Health Management programs across the 
Forest Service in fiscal year 2019. ESA also recommends that DOI 
continue to support the important work of the National Invasive Species 
Council (NISC), which coordinates efforts across agencies to respond to 
the threats posed by invasive species, to be funded at no less than the 
fiscal year 2018 level of $1.202 million. Finally, ESA requests funding 
support for IMLS at no less than the fiscal year 2018 enacted level of 
$240 million, which supports research, collections, and training 
capabilities for U.S. libraries and museums.
    Advances in forestry and environmental sciences, including the 
field of entomology, help to protect our ecosystems and communities 
from threats impacting our Nation's economy, public health, and 
agricultural productivity and safety. Through improved understanding of 
invasive insect pests and the development of biological approaches to 
pest management, entomology plays a critical role in reducing and 
preventing the spread of infestation and diseases harmful to national 
forests and grasslands. The study of entomology also contributes to the 
development of Integrated Pest Management (IPM) techniques, which use 
science-based, environmentally conscious, comprehensive methods to take 
preventative action against pests, often resulting in lower costs and a 
more targeted use of pesticides. In addition, entomology improves our 
knowledge of pollinator biology and the factors affecting pollinator 
health and populations, helping to ensure safe, reliable crop 
production that meets the needs of a growing world population.
    EPA carries out its mission of protecting human health and the 
environment by developing and enforcing regulations, awarding grants 
for research and other projects, conducting studies on environmental 
issues, facilitating partnerships, and providing information through 
public outreach. Through these efforts, EPA strives to ensure that our 
Nation enjoys clean water, clean air, a safe food supply, and 
communities free from pollution and harmful chemicals.
    EPA's Pesticides Licensing Program Area, supported by EPA's Science 
& Technology and Environmental Program & Management budgets, serves to 
evaluate and regulate new pesticides to ensure safe and proper usage by 
consumers. Through the mandate of the Federal Insecticide, Fungicide, 
and Rodenticide Act (FIFRA), EPA utilizes scientific expertise and 
data, including knowledge gained from entomological sciences, to set 
maximum tolerated residue levels and to register pesticide products as 
effective and safe. By controlling insects that act as vectors of 
diseases of humans and domesticated animals, and invasive insect 
species that endanger our environment, pesticides registered by EPA 
help protect public health and the Nation's food supply. EPA's 
activities in this area also include the development of educational 
information and outreach to encourage the use of IPM and other reduced-
risk methods of controlling pests. For example, EPA continues to 
support work protecting children from pesticide exposure used in and 
around schools, helping to promote cost-effective strategies that 
reduce student exposure to pesticides and pests. IPM strategies used in 
schools reduce student exposure to pesticides as well as allergens from 
pests themselves. Therefore, ESA supports continuing the activities in 
the Pesticides Licensing Program Area as well as the modest funding 
that EPA has invested in school IPM.
    Among EPA's State & Tribal Assistance Grants, categorical grants in 
the area of Pesticides Program Implementation help to facilitate the 
translation of national pesticide regulatory information into real-
world approaches that work for local communities. For example, these 
grants fund efforts to reduce health and environmental risks associated 
with pesticide use by promoting, facilitating, and evaluating IPM 
techniques and other potentially safer alternatives to conventional 
pest control methods. ESA requests that the subcommittee support a 
modest increase for Pesticides Program Implementation grants in fiscal 
year 2019.
    ESA is in favor of increased funding for scientifically-based 
studies of pollinator populations and health. Pollinators play a vital 
role in our Nation's agriculture industry; for example, bees pollinate 
more than 90 crops in the United States and are essential for the 
production of an estimated 70 percent of all the food we eat or export, 
contributing over $17 billion in annual crop and seed production in the 
U.S. alone. To ensure a healthy bee population, more research is needed 
to fully understand the complexities of Colony Collapse Disorder (CCD) 
and to examine the diverse factors that endanger bee health. Pesticides 
represent just one potential risk to bees, but both the risks and 
benefits must be balanced, and those risks and benefits will vary among 
different crops and different crop-producing regions of the United 
States. EPA is well-positioned to help identify methods for protecting 
bee health; the agency has previously awarded agricultural grants to 
three universities to aid in the development of IPM practices that 
lower pesticide risks to bees while protecting valuable crops from 
pests. For this reason, ESA supports EPA's participation in multi-
agency efforts to investigate pollinator health and implementing plans 
to prevent pollinator population decline.
    The U.S. Forest Service sustains the health, diversity, and 
productivity of 193 million acres of public lands in national forests 
and grasslands across 44 States and territories. Serving as the largest 
supporter of forestry research in the world, the agency employs 
approximately 30,000 scientists, administrators, and land managers. In 
addition to activities at the Federal level, the Forest Service 
provides technical expertise and financial assistance to State and 
private forestry agency partners.
    The Forest Service's Forest and Rangeland Research budget supports 
the development and delivery of scientific data and innovative 
technological tools to improve the health, use, and management of the 
Nation's forests and rangelands. Within Forest and Rangeland Research, 
the Invasive Species Strategic Program Area provides scientifically 
based approaches to reduce and prevent the introduction, spread, and 
impact of non-native invasive species, including destructive insects, 
plants, and diseases that can have serious economic and environmental 
consequences for our Nation. For example, Forest Service scientists are 
working to prevent the devastation of ash trees across North America by 
the emerald ash borer, an invasive beetle that was accidentally 
introduced from Asia. Emerald ash borer was first detected in 2002 and, 
since then, has killed millions of ash trees. This biological invasion 
threatens to eliminate all ash trees from North America and is the 
costliest invasion from a forest insect to date. Emerald ash borer is 
just one of the exponentially growing list of invasive insects and 
diseases that harm our Nation's forests and our Nation's economy. 
Forest health is also affected by invasive weeds, and those weeds are 
often best controlled by beneficial insects used as biological control 
agents, resulting in permanent and often spectacular control. ESA 
respectfully requests that Forest and Rangeland Research be fully 
funded at $297 million for fiscal year 2019.
    Also under the purview of the Forest Service is the Forest Health 
Management program, which conducts mapping and surveys on public and 
private lands to monitor and assess risks from potentially harmful 
insects, diseases, and invasive plants. The program also provides 
assistance to State and local partners to help prevent and control 
outbreaks that threaten forest health. According to a 2011 study, 
invasive forest insects cost local governments alone an average of over 
$2 billion per year; direct costs to homeowners from property loss, 
tree removal, and treatment averages $1.5 billion per year.\1\ 
Initiatives within the Forest Health Management program can help 
control these costly pests. The program's ``Slow the Spread'' 
activities, for example, have led to a 60 percent reduction in the rate 
of the spread of an invasive species known as gypsy moth, resulting in 
an estimated benefit-to-cost ratio of 3:1. Without the program, it is 
estimated that 50 million additional acres would have been infested by 
the moth.\2\ To support these important functions, ESA requests that 
the subcommittee oppose any proposed cuts to Forest Health Management 
program in fiscal year 2019.
---------------------------------------------------------------------------
    \1\ Aukema, J.E.; Leung, B.; Kovacs, K.; [et al.]. 2011. Economic 
impacts of non-native forest insects in the continental United States. 
PLoS ONE 6(9): e24587.
    \2\ Forest Service Fiscal Year 2017 Budget Overview: http://
www.fs.fed.us/sites/default/files/FY-2017-FS%20-budget-overview.pdf.
---------------------------------------------------------------------------
    Central to these efforts to address the threat posed by invasive 
species, NISC plays a critical role in coordinating activities across 
Federal agencies to safeguard national forests and agricultural 
products through the prevention, eradication, and control of invasive 
species. NISC provides planning and policy recommendations to the 
leadership of 13 Federal agencies as well as Federal inter-agency 
bodies and non-Federal stakeholders working on invasive species issues, 
playing an integral part in the protection of Federal lands. ESA 
respectfully requests that NISC, within the Interior Office of the 
Secretary, be funded at least at the fiscal year 2018 levels of $1.202 
million.
    The services provided by IMLS are critical not only for the 
expansion of collections capabilities at American museums, which are 
key for the identification and classification of entomological species, 
but for the training and education of students, museum professionals, 
and the general public. The 21st Century Museum Professionals Program 
provides opportunities for diverse and underrepresented populations to 
become museum professionals, expanding participation in an industry 
with an annual economic contribution of approximately $21 billion. 
Museums are an integral part of the Nation's academic infrastructure 
and make significant long-term contributions to economic development in 
local communities, which is why the Society requests no less than $240 
million for IMLS in fiscal year 2019.
    ESA, headquartered in Annapolis, Maryland, is the largest 
organization in the world serving the professional and scientific needs 
of entomologists and individuals in related disciplines. Founded in 
1889, ESA has over 7,000 members affiliated with educational 
institutions, health agencies, private industry, and government. 
Members are researchers, teachers, extension service personnel, 
administrators, marketing representatives, research technicians, 
consultants, students, pest management professionals, and hobbyists.
    Thank you for the opportunity to offer the Entomological Society of 
America's support for Forest Service and EPA programs. For more 
information about the Entomological Society of America, please see 
http://www.entsoc.org/.

    [This statement was submitted by Michael Parrella, President.]
                                 ______
                                 
     Prepared Statement of the Environmental Council of the States

March 8, 2018

 
 
 
The Honorable Mitch McConnell         The Honorable Paul Ryan
Majority Leader                       Speaker
U.S. Senate                           U.S. House of Representatives
317 Russell Senate Office Building    H-232, United States Capitol
Washington, DC 20510                  Washington, DC 20510
 
The Honorable Chuck Schumer           The Honorable Nancy Pelosi
Minority Leader                       Minority Leader
U.S. Senate                           U.S. House of Representatives
322 Hart Senate Office Building       233 Cannon House Office Building
Washington, DC 20501                  Washington, DC 20510
 


Re: Preserving the U.S. Environmental Protection Agency's Integrated 
    Risk Information System

Dear Leaders McConnell, Schumer, Ryan, and Pelosi:

    The Environmental Council of States (ECOS), the nonpartisan, 
national association of State and territorial environmental agency 
leaders, writes to urge you to support retaining the U.S. Environmental 
Protection Agency's (U.S. EPA) Integrated Risk Information System 
(IRIS) Program's funding and personnel with the Office of Research and 
Development (ORD). The IRIS Program is currently located in U.S. EPA's 
National Center for Environmental Assessment in ORD. Retaining IRIS 
within ORD will help to ensure that State public health and 
environmental protection programs can continue to rely on IRIS' 
invaluable and impartial health hazard assessments.
    The IRIS Program's identification and characterization of chemical 
health hazards plays a vital role in States' efforts to protect their 
residents and environments against harmful toxic exposures. Its 
assessments provide important information that helps strengthen the 
science underlying a broad range of States' health and environmental 
protections, including regulating air and water pollution, cleaning up 
soil and contaminated drinking water aquifers, and ensuring the safe 
and appropriate use of pesticides.
    The most recent National Academies of Sciences' review of the IRIS 
program recognizes its importance to State agencies and other 
organizations in ``setting regulatory standards, establishing exposure 
guidelines, and estimating risks to exposed populations.'' (The Nation 
Academies of Sciences, Engineering, and Medicine, Review of EPA's 
Integrated Risk Information System (IRIS) Process, 3 (2014)). The 
review also found that changes the U.S. EPA proposed or implemented to 
IRIS constitute ``substantial improvements in the IRIS process.'' (Id. 
at 3)
    U.S. EPA's Science Advisory Board similarly recognized, in its 
September 2017 assessment, that ``IRIS serves the needs of regions, 
States and Tribes, who often lack the ability to perform their own 
chemical risk assessments.'' (U.S. EPA Science Advisory Board letter to 
U.S. EPA Administrator Scott Pruitt, Science Advisory Board comments on 
EPA's response to recommendations on the Integrated Risk Information 
System, 2 (2017)). The Science Advisory Board also commended the Agency 
for its significant improvements to IRIS, noting, ``We are optimistic 
that the restructured IRIS program will strengthen the scientific 
foundations of risk assessment and protect the health and safety of the 
American public.'' (Id.)
    As the National Academies and the Science Advisory Board observed, 
States rely on IRIS for health hazard information to which they 
otherwise may not have access. The IRIS Program covers a far greater 
number of chemicals than those evaluated by State agencies, and, 
consequently, serves as a critical source of toxicity assessments for 
chemicals evaluated in our State environmental risk assessments. For 
example, without IRIS, States would have less information to develop 
protective and scientifically rigorous toxicity assessments used in 
toxic waste site cleanups. In addition, the loss of access to IRIS's 
database of more than 140 pesticides assessments containing rare 
toxicity data for legacy pesticides used in agriculture for decades 
would compromise States' ability to review older compounds and close 
critical data gaps on human health effects.
    Consolidating IRIS with regulatory programs could undercut the 
program's foundation in research, which provides the States with 
immense value. IRIS's chemical health hazard assessments are now 
separate from the regulatory decisions they inform, which often involve 
risk management considerations. Maintaining a distinction between the 
scientific basis for risk assessments and risk management decisions 
helps preserve the integrity of States' health and environmental 
protection programs. A transfer of IRIS or its functions to the Toxic 
Substances Control Act (TSCA) program, for example, would diminish that 
separation. It would also subsume IRIS's roughly 500 program chemicals, 
which U.S. EPA selects to assist regulatory programs in making 
decisions, in TSCA's broader regulation of 80,000 commonly used 
chemicals. Further, such a transfer would end the performance of 
pesticide assessments, which are excluded from TSCA's jurisdiction.
    The IRIS Program provides critical chemical toxicity information 
that protects the health of States' residents and their environments. 
We urge Congress to retain the program's funding and keep personnel in 
its current location within U.S. EPA's Office of Research and 
Development to help States continue to protect human health and 
environmental quality.

Sincerely,
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Todd Parfitt
Director, Wyoming Department of Environmental Quality
ECOS President

cc: Senate and House Appropriations Committee Leadership
                                 ______
                                 
     Prepared Statement of the Environmental Council of the States
Dear Chairman Murkowski, Ranking Member Udall and Members of the 
Subcommittee,

    The Environmental Council of the States (ECOS) is the national 
nonprofit, nonpartisan association of State and territorial 
environmental agency leaders. We, its undersigned Officers, submit this 
testimony on fiscal year 2019 appropriations for the U.S. Environmental 
Protection Agency (EPA).
    State environmental agencies are the engines of environmental 
progress in our Nation. Under America's system of cooperative 
Federalism, agencies like ours normally take the lead in implementing 
Federal environmental laws like the Clean Air Act, Clean Water Act, 
Safe Drinking Water Act, and Resource Conservation and Recovery Act. 
Today, States exercise over 90 percent of the delegable authorities 
under these and other Federal laws. You can learn more about the 
tangible progress the States have delivered on ECOS Results, our newly 
launched data visualization portal.
    State environmental agencies depend on Federal funding to do their 
work; ECOS has documented that the Federal Government provides, on 
average, 27 percent of our agencies' budgets. Without that money, State 
agencies would find it more challenging to properly administer Federal 
environmental laws, improve public health, and protect the environment. 
ECOS therefore asks that fiscal year 2019 appropriations provide 
sustained support to programs that advance the well-being of our 
communities.
    Please consider these principles as you deliberate about the fiscal 
year 2019 appropriations. Please also consider the following specific 
requests:
Increase State and Tribal Assistance (STAG) Categorical Grants
    STAG Categorical Grants fund a huge range of work by State 
environmental agencies. Much of that work is core implementation 
activity such as issuing environmental permits, inspecting facilities 
and enforcing the law, setting standards, and managing data. But 
categorical grants also fund creative solutions to local problems.
    For example, STAG funds issued under Section 319 of the Clean Water 
Act recently helped Iowa DNR address nonpoint source pollution that 
threatened the habitat of brook trout, a cherished native game fish. 
Brook trout thrived in northeast Iowa's spring-fed streams until years 
of erosion and polluted runoff harmed their habitat. Iowa's DNR tackled 
the problem by using STAG funds to convene communities on two historic 
trout creek systems through the Yellow River Headwaters Watershed 
Project and the Silver Creek Watershed Project. These groups worked 
with DNR Fisheries to restock impaired streams with South Pine brook 
trout, and with landowners in the area to protect and improve water 
quality. Their efforts, and similar work across northwest Iowa, 
increased the number of streams with self-sustaining trout populations 
from 6 to 45.
    STAG Categorical Grants also help our agencies take on larger 
projects that deliver positive economic benefits for communities. For 
example, Federal support through the STAG Brownfields Response program 
helped the Oklahoma DEQ oversee the closure and resolution of 
environmental liability of Bricktown, a former oil field and bulk 
petroleum storage area. After soil and groundwater remediation, 
property values in Bricktown have soared to $40 million, and area 
businesses pay $50 million in annual wages. Projects like these led the 
Oklahoma Department of Commerce recently to report that Federal dollars 
invested through such programs deliver a 17-fold return on income tax 
dollars.
    STAG support is critical to the continued creativity and vitality 
of State-led environmental regulation. States therefore thank Congress 
for preserving STAG Categorical Grants over the past two fiscal years, 
and ask that Congress further support the program in the fiscal year 
2019 budget.
Continue Funding Environmental Infrastructure via State Revolving Funds
    STAG funds also support State-level investments in the 
infrastructure that provides our citizens safe drinking water and a 
clean aquatic environment. Much of that infrastructure is aging or 
inadequate and the States therefore depend on the funding that Congress 
provides through the STAG State Revolving Fund (SRF) program. Congress 
recently reemphasized its support for State water infrastructure by 
delivering $766 million in further funding through Title IV of the 
Fiscal Year 2018 Consolidated Appropriations Act.
    The reality is that our Nation's water infrastructure needs 
continue to grow along with our populations and the advancing age of 
our existing facilities. ECOS has documented these needs in reports 
such as our State Water and Wastewater Project Inventory, which 
describes the top 20 ``shovel-ready'' water and wastewater projects in 
each State. States have also shown the impact of these projects on 
water quality, and have demonstrated creative infrastructure solutions 
from an Ohio workshop series designed to help small, aging wastewater 
treatment plants attain regulatory compliance to Pennsylvania's 
investment with the Partnership for the Delaware Estuary to grow and 
deploy native freshwater mussels in local waterways to address nutrient 
and sediment pollution in the Chesapeake Bay and Delaware Estuary on a 
revenue generating basis. Congress should continue funding projects 
like these so that States can continue to serve as the laboratories of 
our democracy.
Preserve the STAG Multipurpose Grant Program
    Under cooperative Federalism, States gain the authority to allocate 
Federal resources in ways that reflect local needs and priorities. 
State agencies cannot deliver on this promise unless Congress ensures 
flexibility in Federal funding. Funding flexibility also streamlines 
joint decisionmaking by EPA and States, and ultimately allows States to 
more quickly convert Federal dollars into positive environmental and 
public health results.
    The history of the STAG Multipurpose Categorical Grant program 
demonstrates that States know how to use flexible funding to 
efficiently address the most pressing challenges within their borders. 
For example, States used 2016 Multipurpose Grant money to fund 
activities ranging from implementing the National Ambient Air Quality 
Standards to improving electronic data management systems, and to 
control everything from water pollution to pesticide overuse. Congress 
appropriated money for this program in fiscal year 2016 and fiscal year 
2018, and we urge you to do so in fiscal year 2019 as well; making the 
Multipurpose Grant program a dependable funding stream would allow 
States to deploy that money in ways that maximize the long-term benefit 
to their citizens.
Support State-level Business Process Improvement (BPI) Programs
    ECOS members have long recognized that we must become more 
efficient and cost-effective if we are to meet our obligation to do 
more work despite flat or declining budgets. One way we have done so is 
by ``leaning'' our business processes and targeting our work to 
maximize our impact. For example, the Vermont Department of Natural 
Resources conducted a process improvement event designed to address the 
way in which public water supply systems obtain permits for drawing 
water from new sources. Vermont DNR's work reduced the time it takes to 
issue such permits by 32 percent and paved the way for even further 
efficiency gains through a new electronic permit submission process.
    Although States are well aware that business process improvement 
programs deliver long-term value, it can still be challenging for us to 
divert staff from core work. We therefore ask Congress to deliver 
specific appropriations support for process improvement.
Avoid Rescission and Impoundment of STAG Funds
    States work closely with EPA through ECOS' State Grants Subgroup to 
speed the distribution of Federal funds and allow on-the-ground work to 
begin sooner. Our experiences lead us to urge Congress not to include 
rescissions of unobligated STAG funds in future enacted budgets, as 
this often results in uncertainty and delays in obligating pass-through 
funding. For the same reason, States ask Congress to discourage 
impoundment of enacted appropriations.
Conclusion
    ECOS appreciates the fact that Congress is considering the views of 
State environmental agencies as it prepares the fiscal year 2019 
budget. We welcome the opportunity to speak with you about any of these 
issues in more detail, or to further explain how Federal funding can 
support State-level work to protect human health and the environment.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Todd Parfitt
Director, Wyoming Department of Environmental Quality
ECOS President

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Becky Keogh
Director, Arkansas Department of Environmental Quality
ECOS Vice President

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Jim Macy
Director, Nebraska Department of Environmental Quality
ECOS Secretary/Treasurer

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

John Linc Stine
Commissioner, Minnesota Pollution Control Agency
ECOS Past President
                                 ______
                                 
 Prepared Statement of the Far West Public Lands Committee of the Back 
                      Country Horsemen of America
Members of the Senate Appropriations Committee,

    I am writing to you representing the Far West Public Lands 
Committee of the Back Country Horsemen of America. Our committee 
represents Back Country Horsemen of California, Back Country Horsemen 
of Nevada, Back Country Horsemen of Oregon and the Back Country 
Horsemen of Washington. We are writing to you to encourage a couple of 
changes to the Forest Service budget.
    First we would like to see a new line item created in the budget 
that specifically deals with TRAIL MAINTENANCE. Second we would like to 
see that line item be for the amount of 100 million dollars. Currently 
the Forest Service funds the trail maintenance out of their recreation 
budget. Currently the forest service has that valued at around 70 
million dollars. Quite often that money is used other for other things 
than trails. That is why we would like to see the line item added to 
the budget presented to you. Americas trails are in very poor shape and 
are primarily being maintained by volunteer groups. Unfortunately the 
volunteer groups cannot do it all. Millions of tax paying, voting 
citizens use Americas trails annually and deserve better. I hope you 
can see fit to make these changes to the proposed Forest Service 
budget.

            Thank You,

    [This statement was submitted by Jerry Bentz, Chairman.]
                                 ______
                                 
   Prepared Statement of the Federation of State Humanities Councils
    Madam Chairwoman and Members of the subcommittee, I thank you for 
this opportunity to submit testimony on behalf of the State humanities 
councils, the State affiliates of the National Endowment for the 
Humanities, requesting $155 million for the National Endowment for the 
Humanities and $48 million for the Federal/State Partnership for fiscal 
year 2018.
    As partners of the NEH, the State humanities councils receive their 
core funding through the Federal/State Partnership line of the NEH 
budget, which they use to leverage additional support from foundations, 
corporations, private individuals, and State governments. In the past 
year, councils leveraged, on average, $4.00 in local contributions for 
every dollar of Federal funding awarded through their grants, and they 
have further extended their resources in recent years by forming 
partnerships with nearly 9,000 organizations throughout their States. 
But demand continues to increase. In the past few years, councils 
continue to be asked to expand their programs to reach new populations 
and meet growing needs in their States.
    At the heart of every humanities council discussion is a 
fundamental question: How can we make life better for the citizens of 
our communities? The varied responses are highlighted through an array 
of council programs, conducted in nearly every congressional district 
in the Nation. These programs serve families, students, veterans, 
educators, rural residents, medical personnel, immigrants and refugees, 
and adult new readers, among others. The councils in each of the 50 
States, five territories, and in DC work from a deep understanding of 
the unique identity of their States and of the needs of their citizens 
and communities, creating bridges between academic research and public 
citizens hungry for substantive conversation about issues that matter.
    Councils steward their modest Federal resources through 
partnerships and leveraging other funding, and by studying the civic, 
cultural, demographic, and educational profile of their States. Four 
areas of council activity offer particularly striking and significant 
illustration of the ways lives are changed through council work: (1) 
they support and help reintegrate veterans, (2) they provide resources 
to underserved rural populations, (3) they strengthen K-12 education, 
support teachers, and increase literacy, and (4) they support local 
institutions, thereby strengthening the cultural infrastructure of 
communities throughout the Nation. The following pages demonstrate the 
important work that councils are currently conducting and highlight the 
ways additional funds would extend the reach of current programs and 
open opportunities to serve new populations and communities.
    Supporting veterans and their communities.--For the more than 
200,000 veterans returning from active duty each year, the challenges 
go well beyond the need to find a job and resume a way of life that has 
now become unfamiliar. Returning veterans must also process their 
experiences and learn to live among community members who have little 
context for comprehending those experiences. Hundreds of organizations 
exist to help with the practical and logistical challenges of returning 
to civilian life. Others provide assistance with medical and 
psychological issues. The State humanities councils offer another kind 
of support, using the humanities to link veterans to each other, to 
help support each other, through storytelling, conversation, and 
writing. Nearly every council has engaged in programs that help 
veterans connect with their veteran and civilian communities.
    Located in a State where veterans comprise 10 percent of the 
population, the Alaska Humanities Forum (AHF) demonstrates the power of 
the humanities through its ``Duty Bound'' thematic initiative, which 
promotes deepened understanding of those affiliated with the armed 
services, tells the stories of Alaska's military personnel and 
veterans, and helps infuse the humanities into programs for veterans 
and their families. Additionally, for the past 3 years, AHF has 
partnered with the Alaska-based organization, 49 Writers, to conduct 
``Danger Close: Alaska,'' a multifaceted program that includes an in-
depth veteran/civilian writing workshop, a public panel discussion, and 
a small-run publication to bridge the veteran/civilian divide.
    The Veterans Writing Workshops supported by Missouri Humanities 
enables veterans to tell their stories while developing writing skills 
and gaining experience in writing for publication. The council is 
currently gathering poetry, fiction, essays, interviews, and 
photography to include in the seventh annual publication of Proud to 
Be: Writing by American Warriors, an anthology of works by and about 
veterans from WWII to Iraq and Afghanistan.
    Maryland Humanities, working in a State that is home to eleven 
military installations, a distinguished military academy, and an 
estimated 400,000 veterans, supports an array of programs for veterans, 
including veterans' book groups, veterans' stories on their 
``Humanities Connections'' radio program, and veteran-related issues on 
their blog. In addition, their Veterans Oral History Project, conducted 
since 2015, provides oral history training to a group of Maryland high 
school students, who then interview Vietnam War veterans and Vietnamese 
immigrants who experienced the war. In partnership with the NEH, 
Southern High School, and the Martha Ross Center for Oral History at 
the University of Maryland, the council has also produced a virtual 
toolkit that provides oral history instruction resources for teachers.
    Many other councils also offer veterans' reading groups, 
documentaries on the veteran experience, photographic exhibits, and 
writing workshops, in addition to community programs such as The 
Telling Project, which encourages veterans to share personal stories on 
local community stages. These programs affect the lives of hundreds of 
veterans and thousands of their community members across the country, 
but there are still thousands of unreached veterans in communities 
State humanities councils could serve with additional funds, helping to 
ease the transition for these veterans and increase the understanding 
of those who welcome them home.
    Serving rural communities.--America's rural communities are a 
national resource too often overlooked, underserved, and misunderstood. 
A 2013 report from the National Conference of State Legislatures stated 
that at that time, 46.2 million people lived in non-metropolitan 
counties (having no urban areas of 50,000 or more) spread across 72 
percent of the land area of the United States. These potentially 
isolated communities, while possessing a rich and proud history of 
their own, often lack access to educational and cultural opportunities 
enjoyed by their urban counterparts. The State humanities councils, 
with their deep connections to the communities in their States, address 
the needs of these communities in ways no other network of 
organizations is able to do, providing support and expertise to 
strengthen local institutions, contribute to economic development, and 
encourage more cohesive communities.
    Among the many programs and initiatives councils offer that 
acknowledge and add to the assets of rural communities, one standout is 
Museum on Main Street (MoMS), the product of the 25-year partnership 
between councils and the Smithsonian Institution Traveling Exhibition 
Service (SITES). MoMS is distinguished for its reach and 
sustainability, as well as the model it provides of a public/private 
partnership, bringing together the high-quality resources of one of the 
Nation's most respected institutions with the grassroots reach and 
programming expertise of the State humanities councils. Through such 
exhibit themes as ``The Way We Worked,'' ``Hometown Teams: How Sports 
Shaped America,'' and ``New Harmonies: Celebrating American Roots 
Music,'' the project inspires rural communities to use their 6-week 
exhibit tour to encourage exploration of its history and the 
contemporary issues each community faces. The exhibition serves not 
only as the centerpiece, but also the springboard for communities to 
design their own accompanying exhibit and programs, with help from the 
council and a project scholar.
    More than 1,400 communities with an average population of just over 
14,000 have participated in MoMS, for which the national partners 
provide marketing tools, training manuals, and lesson plans. When 
``Hometown Teams'' arrived at the Mountain Sports Hall of Fame in 
Wayland, Kentucky, in March of 2018 to begin its six-community tour, 
Wayland Mayor Jerry Fulz described the excitement among the residents 
who gathered early in the morning to set up the exhibit. ``Because of 
the humanities council and the exhibit, we're going to have folks in 
Wayland that would never otherwise be here . . . It's a springboard for 
things in the future that can have a positive impact on my little town 
and the whole region.''
    Humanities Montana offers another model for rural programming that 
leaves a legacy of new resources, expertise, and community cooperation. 
``Hometown Humanities'' was conceived as a way to provide a sustained 
humanities presence in one rural community per year. The council works 
with a team of local leaders to offer a year of humanities activity, 
drawing on a menu of council programs. The aim of the program is ``to 
support the particular cultural interests of a Montana community, and 
to explore the capacity of the humanities to enrich lives, foster 
inquiry, and stimulate civil and informed conversations about the human 
experience.''
    These are just a few examples of the many programs councils are 
conducting in rural areas; however, a number of communities, 
particularly in remote areas, still remain underserved. With additional 
funds, councils would be able to reach these communities and fund far 
more of the requests they receive through their grant programs.
    Providing support for K-12 students, teachers and at-risk 
families.--From National History Day to speakers in the schools to 
poetry readings and writing workshops, humanities councils have 
developed programs to engage K-12 students with the humanities. The New 
Mexico Humanities Council, Maryland Humanities, Georgia Humanities, and 
the Hawai'i Council for the Humanities all serve as their State 
coordinators for National History Day, a program that helps students 
acquire useful historical knowledge and perspective while developing 
critical thinking and problem-solving skills that have been shown to 
improve their academic performance through high school and into 
college. Many other councils contribute funding to the program in their 
States. Humanities Tennessee offers annual Young Writers' Workshops, 
intense one-week residential workshops in which students work one-on-
one or in small groups with experienced writers to improve writing and 
public speaking skills, helping them prepare for college or to simply 
nurture an interest in writing. Vermont Humanities' summer Humanities 
Camps provide at-risk middle and high school students an opportunity to 
engage with literature and the humanities in a safe and nurturing 
environment.
    The teachers who educate and inspire our students are themselves in 
frequent need of professional development and inspiration, which 
humanities councils provide in a variety of forms. Many councils across 
the country offer summer institutes through which humanities teachers 
can gain deep knowledge of a specific subject, while also connecting 
with colleagues facing the same challenges they deal with throughout 
the school year. The Florida Humanities Council has a long history of 
providing high-quality week-long residential institutes for teachers. 
In 2018, teachers can apply to participate in workshops providing in-
depth learning about the Civil War in the South, challenges presented 
by Florida's changing climates, and ethical issues related to 
environmental change. This year the North Dakota Humanities Council is 
offerings not only a fall workshop on ``The Constitution and Judicial 
Decision-Making,'' but also a series of interactive professional 
development webinars for teachers.
    One group that often falls outside the usual educational structures 
are low-income families headed by parents with low reading levels whose 
children need a boost to prepare them for school. A number of State 
humanities councils, including those in Kentucky, Mississippi, Nebraska 
and elsewhere, participate in PRIME TIME, the long-running and very 
successful humanities-focused, outcomes-based program originated by the 
Louisiana Endowment for the Humanities in 1991. Evaluations of PRIME 
TIME programs, based on partnerships with libraries, schools, and 
community service agencies have shown long-term improvements in family 
engagement and student academic achievement.
    These programs demonstrate the support councils have provided for 
teachers and their students from early childhood through high school 
graduation, but it is far from sufficient. This support could be at 
least doubled and still not accommodate the hundreds of teachers who 
crave in-depth professional development or the at-risk families 
hungering to give their children a better chance at success. With a 
proven record of effective programming in these areas, councils are 
perfectly positioned to put additional funding to work on behalf of our 
children and generations to come.
    Strengthening Local Institutions.--The impact of council work goes 
well beyond the specific groups above that benefit so much from their 
support. Councils also strengthen communities all across the Nation 
through grants awarded to local cultural and educational groups, 
programs they support in libraries and museums, book festivals, 
Chautauqua, and other programs that educate citizens and stimulate 
economic development. At a time when many Americans are concerned about 
the growing divisions in our society, a number of councils offer 
Community Conversation programs that provide opportunities for people 
of diverse views to come together in varying ways to discuss issues 
guided by a scholar/facilitator to build bridges of understanding.
    We thank you for your past support and for understanding how 
crucial the humanities are in nurturing our democracy and how great the 
needs are for these programs across our Nation.

    [This statement was submitted by Esther Mackintosh, President.]
                                 ______
                                 
  Prepared Statement of the Fond Du Lac Band of Lake Superior Chippewa
    On behalf of the Fond du Lac Band of Lake Superior Chippewa, I 
would like to thank you for the important work you have done, 
especially on fiscal year 2018 appropriations, to make sure that 
Federal funds are available to assist Tribes in meeting longstanding 
needs. Thank you also for inviting me to testify on fiscal year 2019 
appropriations for Indian programs funded through the Interior 
Department, Indian Health Service, and Environmental Protection Agency.
    As we talk about funding needs in Indian Country, it is essential 
to keep in mind that the problems that may face communities nationwide 
are far more severe for Indian communities, with Tribes having far 
fewer resources to address those problems. An example is the opioid 
epidemic. As of 2015, Native Americans in Minnesota were five times 
more likely to die from an overdose than white Minnesotans, and ``2016 
data show the disparity has continued and worsened. While the white 
drug overdose mortality rate increased from 10.1 to 11.7 per 100,000 
white residents, the American Indian mortality rate increased from 47.3 
per 100,000 residents to 64.6 per 100,000 residents.'' \1\ The opioid 
epidemic creates other adverse impacts for Indian communities. It means 
that our children are ``7.4 times more likely to be born with neonatal 
abstinence syndrome'' which requires specialized treatment and care.\2\ 
It increases demands on our social service programs for addiction 
treatment and counseling, and assistance to growing numbers of at-risk 
families, with more children in foster care or the subject of CHIPS 
(Child in Need of Protection or Services) proceedings--(an increase of 
65 percent since 2015). It increases demands on our school to address 
the unique needs of children living in at-risk homes. And it increases 
the demands on our law enforcement who respond to ever-growing numbers 
of incidents that are drug related.
---------------------------------------------------------------------------
    \1\ http://www.health.state.mn.us.
    \2\ MDHS, ``Minnesota State Targeted Response to the Opioid 
Crisis'' (2017) at https://mn.gov.
---------------------------------------------------------------------------
    We have worked, and continue to work, to find solutions for 
problems of this kind. With seed money from Federal funds, we have 
implemented innovative programs and measures to provide health, 
education, social services, public safety and other governmental 
services to our 4,200 members and the more than 7,300 Indian people who 
live on and near our Reservation. For example, Fond du Lac built the 
first-of-its-kind supportive housing programs in Indian Country, and 
the first such supportive housing for Veterans. We have undertaken to 
implement best practices in healthcare, using a range of programs and 
services to aid our people. In so doing, we have found that an 
important element to the success of these programs is building on our 
traditional cultural practices. To illustrate, hunting, fishing, and 
gathering natural resources as our ancestors have done provides both a 
foundation for a healthy diet as well as spiritual support. Because of 
the importance of these practices, we are active in natural resource 
management and environmental protection so our water is safe to drink, 
fish are safe to eat, wild rice re-generates, game is plentiful, and 
natural resources remain available for cultural and religious practices 
that are central to our identity.
    We are proud of what we have accomplished, but more remains to be 
done. The investment of Federal funds is key to that effort. It allows 
us to use Band resources and attract private partners so we can provide 
jobs, grow the local economy, educate our children, prevent crime, and 
care for our elders and infirm. We urge Congress to continue to fund 
these programs.
                         indian health service
    We appreciate Congress's decision to increase by 10 percent above 
fiscal year 2017 levels funding for IHS in fiscal year 2018, which is 
essential to address the substantial unmet need for healthcare among 
Indian people and the increasing costs of medical care due to high 
rates of medical inflation. Indians at Fond du Lac, like Indians 
throughout the Nation, continue to face severe disparities across a 
broad range of health issues. In addition to the extraordinarily high 
mortality rates due to the opioid epidemic, Indians in Minnesota are 
far more likely to die prematurely than all others in the State, and 
suffer from the highest mortality rates for causes of death due to 
cancer, heart disease, diabetes, suicide, and unintentional injury.\3\
---------------------------------------------------------------------------
    \3\ See Minnesota Department of Health, Center for Health Equity, 
Populations of Color: Update Birth and Death Statistics (December 
2015). http://www.health.state.mn.us/divs/chs/raceethn/POC/
POCUpdate2015.pdf.
---------------------------------------------------------------------------
    We are working to address these issues every day. We serve over 
7,300 Indian people at our clinics, but the current funding level meets 
only 33 percent of our healthcare funding needs. To make progress in 
reducing the disparities in Indian health, we urge Congress to continue 
to increase funding for IHS. We urge an increase of $7 billion in order 
to fully fund IHS programs, with the top priorities given to Hospitals 
& Health Clinics; Purchased/Referred Care; Mental Health; Alcohol & 
Substance Abuse; and Dental Health. Expanded resources for treatment 
and community education capacity are especially needed to combat the 
epidemic of drug abuse.
    We also ask that Congress increase funding for IHS Facilities, 
including Sanitation Facilities Construction. We rely on wells for 
drinking water, but the quality of the source water on our Reservation 
is very poor. It generally cannot be used unless treated, and where the 
source water is really poor quality, treatment may leave an 
unacceptable level of by-products that also fail to meet water quality 
standards. We face this problem now in one of our communities, 
affecting 54 homes and a community center. As a short-term solution, we 
are providing point-of-use filters. But to eliminate the problem, we 
need to drill several new wells to access better quality source water, 
but which will still need to be treated. We will also need to build a 
new water treatment facility, along with a water tower and new 
pipelines to establish redundancy in the system to protect users and to 
aid in fire protection. The cost is expected to be $2.5 million, But 
the very limited funds for capital work provided to IHS is not 
sufficient to meet the need. (In our region, IHS has $1.7 million to 
serve 37 Tribes.) Federal appropriations for other potential funding 
sources for drinking water infrastructure, like EPA and USDA Rural 
Development, should also be increased to aid us and other Tribes to 
build the infrastructure needed for safe drinking water.
                       bureau of indian education
    With funding from the BIE and the Department of Education, we 
operate the Fond du Lac Ojibwe School serving an average of 230 
children from pre-K through 12th grade. More than 90 percent of our 
students come from very low-income households, as 96 percent receive 
free or reduced-price lunch. We are slowly making progress in improving 
the outcomes for our students. For example, high school graduation 
rates for American Indians in Minnesota have improved from 37.9 percent 
in 2003 to 52.6 percent in 2016, but are still well-below the 2016 
State-wide rate of 82.2 percent. We are handicapped by limited 
resources. BIE funding has never kept pace with need, which prevents us 
from providing the educational services needed for our students.
    We appreciate Congress's decision to increase overall BIE funding 
for fiscal year 2018 by $23 million above the fiscal year 2017 level. 
Because education is so critical to success later in life, we urge 
Congress to continue to increase Federal funding for Indian education. 
We especially ask that increases be made to each of the following 
because of the important role these play in Indian education:

  --ISEP which is the primary source of school funding provided through 
        Interior. It covers salaries for teachers, teacher aides, and 
        administrative personnel and is essential to our ability to 
        recruit and retain qualified teachers.
  --Tribal Grant Support Costs which helps pay for accounting, 
        insurance, background checks, legal and record-keeping.
  --Student Transportation which allow us to maintain, repair, and 
        replace buses.
  --Early Childhood Development funds (FACE), which is critical to 
        providing preschoolers with skills to be school-ready.
  --Johnson O'Malley, which assists Indian children in public schools.
  --School Facility Operations and Maintenance which keeps the building 
        safe, pays for preventative maintenance, and covers insurance 
        and utility costs.
                     bia: public safety and justice
    We appreciate Congress's decision to increase funding for BIA's 
Public Safety and Justice by $19.7 million above fiscal year 2017 
levels, including increased funding for criminal investigations and 
police services and to help people affected by opioid addiction. The 
largest law enforcement problems we face are due to opioids and other 
drugs including methamphetamines and prescription drugs. The large drug 
problem has also increased thefts, burglaries, and assaults. In 
addition, we find (and the Federal Government has also recognized \4\), 
that a disproportionately large number of Native American women are the 
victims of sex trafficking. This is a very serious problem for our 
community and we are working now to establish a Tribal Task Force to 
help combat it. Our law enforcement also responds to many other 
matters, including domestic disputes, disturbances, disorderly conduct, 
property damage, trespass, suspicious activity, unwanted persons, 
medical emergencies, fire, neglected children, missing persons, suicide 
threats, and traffic offenses. The demand on law enforcement increases 
each year. In 2017, our law enforcement responded to more than 8,376 
incidents and calls for service. In past years, the numbers were: 8,200 
in 2016; 8,000 in 2015; 6,000 in 2014.
---------------------------------------------------------------------------
    \4\ U.S. Government Accountability Office, Testimony to Senate 
Committee on Indian Affairs, Human Trafficking: Investigations in 
Indian Country or Involving Native Americans and Actions Needed to 
Better Report on Victims Served (Sept 2017) https://
www.indian.senate.gov/sites/
default/files/upload/Gretta%20Goodwin%20Testimony.pdf.
---------------------------------------------------------------------------
    We address law enforcement by a combination of Tribal and available 
Federal funds and cooperative agreements with local law enforcement 
agencies. We currently have 20 officers, which, in addition to the 
Chief Law Enforcement Officer, includes a Lieutenant, one investigator 
and 17 officers assigned to patrol or similar duties. To meet need, we 
should have 25 full time officers. Five of those officers would be 
assigned to investigations, with two investigators dedicated to 
narcotics enforcement. We currently have 3 administrative staff, but 
should have one more person to gather Intel and manage an intelligence 
page linked to other Tribal agencies.
    Funding is also needed for training. With an increase in the drug 
epidemic and related crimes, our officers need, but are not receiving, 
vital training for undercover work, narcotics detection, investigative 
procedures, interview and interrogation, use of force, de-escalation, 
firearms, and community policing. We also have unmet need for 
equipment. Personal protective gear like ballistic shields, masks, 
etc., is limited because of current budget restraints. Uniform costs 
increase due to contamination from drugs and blood-borne pathogens from 
drug users. That includes duty gear and equipment, and patrol vehicles, 
which need to be decontaminated more frequently. There is also need for 
other basic equipment: binoculars, video cameras and digital recorders. 
Our patrol cars are aging and need costlier service repairs. Federal 
funding is essential to meet those needs. We urge Congress to increase 
funding for Tribal law enforcement.
                bia: trust-natural resources management
    Congress's decision to increase by $6.7 million funding for BIA 
Trust-Natural Resources in fiscal year 2018 was very welcome. We urge 
Congress to further increase funding for this program in fiscal year 
2019, as past funding levels have never met need. Natural resource 
management is vital in Indian Country where the basic subsistence needs 
of many Indian people--especially those living in poverty--depend on 
natural resources. This is certainly true at Fond du Lac. By Treaties 
in 1837, 1842 and 1854, the United States acquired our aboriginal 
territory, but to ensure that we could sustain ourselves, expressly 
promised that we retained rights to hunt, fish and gather natural 
resources within and outside our Reservation. Our members depend on and 
exercise these treaty-protected rights to put food on the table and for 
ceremonial practices that serve as the foundation for our culture. The 
stewardship of those natural resources--through scientific study, 
resource management, and enforcement of Band laws that regulate Tribal 
members who hunt, fish and gather those resources--are an important 
source of employment for many of our members. Full funding for Trust-
Natural Resources Management, including, in particular, increased 
funding for Rights, Protection and Implementation, is essential in 
allowing us to protect, enhance, and restore natural resources.
    Forest resources are an important asset to the Fond du Lac Band, 
and the Interior Department has recognized the importance of protecting 
forests from wildfire. The fiscal year 2018 increase in funding for 
forestry helps, but fire preparedness funding is still below the most 
efficient level. Fire preparedness provides jobs in Indian forestry and 
protects Indian and non-Indian lands.
   national park service: historic preservation funds--tribal grants
    We urge Congress to increase funding, as the work of Tribal 
Historic Preservation Officers has grown. We have seen this firsthand 
at Fond du Lac. Failures on the part of Federal and State officials to 
properly review existing records of known sites of historic and 
cultural importance to the Band resulted in substantial inadvertent 
discoveries of human remains in a known Indian cemetery. This has, in 
turn, placed substantial demands on our THPO to ensure proper 
delineation of the site to protect the undisturbed portions, and ensure 
proper reburial of the remains.
                 environmental protection agency (epa)
    We appreciate that in fiscal year 2018, Congress did not further 
reduce Federal funds for EPA, but we ask that funding for EPA in fiscal 
year 2019 be increased. We rely on EPA grants to clean up brownfields 
and administer clean water and clean air programs. These enable us to 
protect the health of our community, so that we have safe water to 
drink and can continue to rely on fish, wild rice, and game to put food 
on the table.

  --State and Tribal Assistances Grants (STAG). We thank Congress for 
        increasing STAG funding by $35 million in fiscal year 2018 and 
        urge that support for this program continue.
  --Water Quality. We have a federally-approved water quality standards 
        program that has seen annual funding declines while the need 
        and Band's responsibilities have increased. Given the current 
        threats to water resources in our region, we urge that Tribal 
        section 106 funding be doubled so that we can do the work 
        needed to protect the water we drink, which is critical to the 
        fish and game that are central to our and the State's economy.
  --Air. We also have a long-standing air monitoring program that has 
        faced a steady decline in Federal funding. We request that air 
        quality program funding for Tribes be increased.
  --Wetlands. One-half of our reservation is made up of wetlands. 
        Proper management and restoration of this valuable resource is 
        impossible without adequate and consistent Federal funding. We 
        request sustained wetland monitoring and protection program 
        funding.
  --Great Lakes Restoration Initiative. The Band fully supports this 
        initiative, and again asks that it be funded at $500 million, 
        which is the original funding level suggested for this 
        initiative. This initiative has broad-reaching benefits to 
        resources of importance for all stakeholders (State, Tribal and 
        private) in the Great Lakes region.

    Miigwech. Thank you.

    [This statement was submitted by Kevin R. Dupuis, Sr., Chairman.]
                                 <greek-l>
                                 ______
                                 
               Forest Inventory and Analysis Program deg.
 Prepared Statement of Supporters of the Forest Inventory and Analysis 
                                Program
Dear Chairman Murkowski and Ranking Member Udall,

    The undersigned organizations are strong supporters of the Forest 
Inventory and Analysis (FIA) program funded by the USDA Forest Service 
(Forest Service). We rely on the inventory data and analysis of 
America's forests provided by the program, which make up the backbone 
of scientific knowledge on the current state of the Nation's forests. 
This critical information is needed to support sound policy and forest 
management decisions, both public and private, and is increasingly 
important for decisions regarding new and expanding markets. We urge 
the Congress to support the FIA program and request funding for the 
program in fiscal year 2019 of at least $83 million to move the program 
toward providing an accurate and timely inventory of America's forests. 
We also urge the inclusion of language ensuring that this funding 
would, at minimum, maintain historic remeasurement cycles--every 7 
years in the east and every 10 years in the west--as referenced by the 
administration.
    The data and information collected by FIA serves as the basis for: 
identifying trends in forest ownership; measuring carbon stocks; 
assessing fish and wildlife habitat; evaluating wildfire, insect, and 
disease risk; predicting the spread of invasive species; determining 
capital investment in existing forest products facilities and selecting 
locations for new forest product facilities; and identifying and 
responding to priorities identified in State Forest Action Plans.
    The FIA program is utilized by a large set of diverse stakeholders 
interested in the state of America's forests. These include forest 
resource managers at mills, land managers, conservation groups, 
university students and faculty, and State and Federal agencies, such 
as the U.S. Environmental Protection Agency (EPA).
    The undersigned organizations would like to work with Congress to 
further explore program potential. An annual funding level of $83 
million would support a 7 year annualized program in the east, and a 10 
year program in the west as recommended in the Forest Service's 2007 
FIA Strategic Plan. In 2015 the Forest Service released an updated FIA 
Strategic Plan, which outlines a variety of potential program 
deliverables at funding levels. While we are supportive of at least $83 
million in funding for fiscal year 2019, the 2015 Strategic Plan calls 
for $103 million to implement the 5 year annualized program called for 
in the 1998 Farm Bill. This reduction in cycle length would provide 
more accurate data to support important forest resource decisions. As 
engaged partners, we are interested in working with Congress and the 
Forest Service to make program delivery as efficient as possible and to 
support additional Federal investment to implement many of the useful 
tools outlined in the new FIA Strategic Plan--including full urban 
inventory, increased plot density, and improved carbon and biomass 
estimates.
    There is a need to make FIA data more robust and more useful for 
emerging uses, such as accurate information regarding carbon stocks, 
forest sustainability monitoring, wildlife habitat assessments, and 
much more. Given the increasing pressures facing our forests--from 
wildfire, insects and disease and development--the FIA program is more 
important now than ever before. Funding the FIA program at $83 million 
for fiscal year 2019 would move toward providing for our growing data 
needs.

            Sincerely,

Alabama Forestry Association
Aldo Leopold Foundation, Inc.
American Forest & Paper Association
American Forest Foundation
American Forests
American Wood Council
American Woodcock Society
Arkansas Forestry Association
Association of Consulting Foresters of America
Center for Invasive Species Prevention
Connecticut Forest & Park Association
Conservation Northwest
Conservation Resource Partners, LLC
Empire State Forest Products Association
Environmental Defense Fund
Enviva
Florida Forestry Association
Forest Business Network LLC
Forest Industry National Labor Management Committee
Forest Resources Association
Forestry Association of South Carolina
Green Forests Work
Indiana Forestry & Woodland Owners Association
International Paper
Kansas Tree Farm Committee
Kentucky Forest Industries Association
Louisiana Pacific
Michigan Forest Association
Minnesota Forestry Association
Mississippi Forestry Association
National Alliance of Forest Owners
National Association of Forest Service Retirees
National Association of State Foresters
National Lumber & Building Material Dealers Association
National Wild Turkey Federation
National Wooden Pallet and Container Association
Ohio Forestry Association, Inc.
Rayonier
Ruffed Grouse Society
Rural & Agriculture Council of America
Society for Range Management
Society for the Protection of NH Forests
Society of American Foresters
Sonen Capital
Texas Forestry Association
The American Chestnut Foundation
The Hardwood Federation
The Pennsylvania Forestry Association
The Westervelt Company
Treated Wood Council
Trees Forever
Vermont Woodlands Association
Virginia Forestry Association
Washington Farm Forestry Association
Washington Forest Protection Association
Western Wood Preservers Institute
Wisconsin Paper Council
      
                                 ______
                                 
        Prepared Statement of the Geological Society of America
                                summary
    The Geological Society of America (GSA) urges Congress to provide 
$1.2 billion for the U.S. Geological Survey (USGS) in fiscal year 2019. 
We thank Congress for the investments made in fiscal year 2018 and 
encourage a path of sustainable growth forward. As one of our Nation's 
key science agencies, the USGS plays a vital role in understanding and 
documenting mineral and energy resources that underpin economic growth; 
researching and monitoring potential natural hazards that threaten U.S. 
and international security; and determining and assessing water quality 
and availability. Approximately two thirds of the USGS budget is 
allocated for research and development. In addition to underpinning the 
science activities and decisions of the Department of the Interior, 
this research is used by communities across the Nation to make informed 
decisions in land-use planning, emergency response, natural resource 
management, engineering, and education. Despite the critical role 
played by the USGS, funding for the agency has stagnated in real 
dollars for more than a decade. Given the importance of the many 
activities of the Survey that protect lives and property, contribute to 
national security, and enhance the quality of life, GSA believes that 
growth in funding for the Survey is necessary for the future of our 
Nation and urges Congress to reject the cuts proposed in the 
administration's fiscal year 2019 request.
    The Geological Society of America (GSA) is a global professional 
society with a growing membership of more than 26,000 individuals in 
115 countries. GSA provides access to elements that are essential to 
the professional growth of Earth scientists at all levels of expertise 
and from all sectors: academic, government, business, and industry. The 
Society unites thousands of earth scientists from every corner of the 
globe in a common purpose to study the mysteries of our planet (and 
beyond) and share scientific findings.
    The Geological Society of America (GSA) appreciates the increase to 
the U.S. Geological Survey (USGS) budget in the fiscal year 2018 
omnibus and thanks the Committee for recognizing the importance of the 
work of the agency to protect lives, property, and national security. 
GSA urges Congress to provide USGS $1.2 billion in fiscal year 2019.
    GSA strongly opposes the administration's fiscal year 2019 budget 
request that includes cuts to nearly every program at the USGS, 
including the elimination of valuable programs such as the Geomagnetism 
Program, Earthquake Early Warning, Environmental Health, and Water 
Resources Research Act Program.
u.s. geological survey contributions to national security, health, and 
                                welfare
    The USGS is one of the Nation's premier science agencies. 
Approximately two thirds of the USGS budget is allocated for research 
and development. In addition to underpinning the science activities and 
decisions of the Department of the Interior, this research is used by 
communities and businesses across the Nation to make informed decisions 
regarding land use planning, emergency response, natural resource 
management, engineering, and education. Increased funding will be 
critical to implement the recommendations of the National Academy of 
Sciences' Earth Science and Applications from Space (ESAS) Decadal 
Survey report released earlier this year. The report notes,

        ``Earth science and applications are a key part of the Nation's 
        information infrastructure, warranting a U.S. program of Earth 
        observations from space that is robust, resilient, and 
        appropriately balanced.''

    USGS research addresses many of society's greatest challenges for 
national security, health, and welfare. Several are highlighted below.

  --Natural hazards--including earthquakes, tsunamis, volcanic 
        eruptions, wildfires, and landslides--are a major cause of 
        fatalities and economic losses. Recent natural disasters 
        provide unmistakable evidence that the United States remains 
        vulnerable to staggering losses. Landslides, which occur in 
        every State, cause more than $3 billion in damage each year. An 
        improved scientific understanding of geologic hazards will 
        reduce future losses by informing effective planning and 
        mitigation.
  Decision makers in many sectors rely upon USGS data to respond to 
natural disasters. For example, USGS volcano monitoring provides key 
data to enable decisions on aviation safety. Data from the USGS network 
of stream gages is used by the National Weather Service to issue flood 
and drought warnings. Earth and space observations provide data 
necessary to predict severe space weather events, which affect the 
electric power grid, satellite communications and information, and 
space-based position, navigation, and timing systems. GSA urges 
Congress to support efforts for USGS to modernize and upgrade its 
natural hazards monitoring and warning systems to protect communities 
from the devastating personal and economic effects of natural 
disasters, including additional 3-D elevation mapping and earthquake 
early warning systems.
  --On December 20, 2017, President Trump signed an executive order 
        entitled ``A Federal Strategy to Ensure Secure and Reliable 
        Supplies of Critical Minerals'', that finds,
  ``The United States is heavily reliant on imports of certain mineral 
commodities that are vital to the Nation's security and economic 
prosperity. This dependency of the United States on foreign sources 
creates a strategic vulnerability for both its economy and military to 
adverse foreign government action, natural disaster, and other events 
that can disrupt supply of these key minerals.''
  GSA supports increases in minerals science, research, information, 
data collection and analysis that will allow for more economic and 
environmental management and utilization of minerals. In addition, GSA 
supports increases in funding supporting research to better understand 
domestic sources of energy, including conventional and unconventional 
oil and gas and renewables. The new Three Dimensional mapping and 
Economic Empowerment Program (3DEEP) program will provide new resources 
and leverage current data by building on the existing and successful 
3DEP and National Cooperative Geological Mapping Program to accelerate 
geological and geophysical mapping, identify critical mineral sites for 
further scientific review, and provide a host of additional benefits to 
local, State, and Federal entities for safety, security, scientific, 
and industrial uses.
  --The quality and quality of surface water and groundwater have a 
        direct impact on the wellbeing of societies and ecosystems, as 
        evidenced by flooding and drought impacts experienced across 
        the U.S. during the past year. Greater scientific understanding 
        of these resources through monitoring and research by the USGS 
        is necessary to ensure adequate and safe water resources for 
        the health and welfare of society.
  --USGS research on climate impacts is used by local policymakers and 
        resource managers to make sound decisions based on the best 
        possible science. The Climate Adaptation Science Centers, for 
        example, provide scientific information necessary to 
        anticipate, monitor, and adapt to the effects of climate change 
        at regional and local levels, allowing communities to make 
        smart, cost-effective decisions.
  --The Landsat satellites have amassed the largest archive of remotely 
        sensed land data in the world, a tremendously important 
        resource for natural resource exploration, land use planning, 
        and assessing water resources, the impacts of natural 
        disasters, and global agriculture production. GSA supports 
        interagency efforts to plan a path forward for future support 
        of Landsat.

    Activities from hazard monitoring to mineral forecasts are 
supported by the Core System Sciences, Facilities, and Science Support. 
These programs and services, such as geologic mapping and data 
preservation, provide critical information, data, and infrastructure 
that underpin the research of the USGS. Increased funding is 
particularly needed in Facilities to address many deferred maintenance 
issues.
    Knowledge of the earth sciences is essential to scientific literacy 
and to meeting the environmental and resource challenges of the twenty-
first century. It is also fundamental to training the next generation 
of Earth science professionals. GSA is very concerned that cuts in 
Earth science funding will cause students and young professionals to 
leave the field, potentially leading to a lost generation of 
professionals in areas that are already facing worker shortages. 
Investments in these areas could lead to job growth, as demand for 
these professionals now and in the future is assessed to be high.
    Emerging Workforce Trends in the Energy and Mining Industries: A 
Call to Action, found, ``In mining (nonfuel and coal) a personnel 
crisis for professionals and workers is pending and it already exists 
for faculty.'' Another recent study by the American Geosciences 
Institute, Status of the Geoscience Workforce Report 2016, found an 
expected deficit of approximately 90,000 geoscientists by 2024. Strong 
investments in geoscience research are needed to prepare citizens for 
these job opportunities.
    Thank you for the opportunity to provide testimony about the U.S. 
Geological Survey. For additional information or to learn more about 
the Geological Society of America--including GSA Position Statements on 
water resources, mineral and energy resources, natural hazards, and 
public investment in Earth science research--please visit 
www.geosociety.org or contact GSA's Director for Geoscience Policy 
Kasey White at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7d160a151409183d1a18120e121e1418090453120f1a53">[email&#160;protected]</a>

    [This statement was submitted by Kasey White, Director for 
Geoscience Policy Regarding the U.S. Geological Survey.]
                                 ______
                                 
    Prepared Statement of the Great Lakes Indian Fish and Wildlife 
                          Commission (GLIFWC)
1.  DEPARTMENT OF INTERIOR, BUREAU OF INDIAN AFFAIRS, OPERATION OF 
INDIAN PROGRAMS

     a.  Trust-Natural Resources Management, Rights Protection 
Implementation (RPI).--At least the $40,161,000 provided in fiscal year 
2018 and a proportionate share for Great Lakes Area Resource 
Management.
     b.  Trust-Natural Resources Management, Tribal Management/
Development Program (TM/DP).--At least the $11,652,000 provided in 
fiscal year 2018 and the TM/DP requests of GLIFWC's member Tribes.
     c.  Trust-Natural Resources Management, Invasive Species.--At 
least $6,724,000, the amount estimated in fiscal year 2018.
     d.  Tribal Government, Contract Support.--Full funding, estimated 
to be at least $241,600,000, as provided in fiscal year 2018.

    Funding Authorizations: Snyder Act, 25 U.S.C. s. 13; Indian Self-
Determination and Education Assistance Act, (Public Law 93-638), 25 
U.S.C. ss. 450f and 450h; and the treaties between the United States 
and GLIFWC's member Ojibwe Tribes.\1\
---------------------------------------------------------------------------
    \1\ Specifically, the Treaty of 1836, 7 Stat. 491, Treaty of 1837, 
7 Stat. 536, Treaty of 1842, 7 Stat. 591, and Treaty of 1854, 10 Stat. 
1109. The rights guaranteed by these treaties have been affirmed by 
various court decisions, including a 1999 U.S. Supreme Court case.

2.  ENVIRONMENTAL PROTECTION AGENCY
     a.  Environmental Programs and Management, Geographic Programs, 
Great Lakes Restoration.--The historical allocation of $300,000,000 
including a Tribal program of no less than $15,000,000.
     b.  State and Tribal Assistance Grants, Categorical Grants, Tribal 
General Assistance Program.--At least the fiscal year 2018 amount of 
$65,476,000.

    Funding Authorizations: Clean Water Act, 33 U.S.C. s. 1268(c); 
Water Infrastructure Improvements for the Nation Act, Public Law 114-
322 s. 5005; and treaties cited above.
    Funding through these programs fulfills Federal treaty, trust and 
contract obligations to GLIFWC's member Tribes, providing vital 
resources to sustain their governmental programs. We ask that Congress 
maintain these programs and provide funding at no less than fiscal year 
2018 levels.

GLIFWC'S FISCAL YEAR 2019 FUNDING REQUEST HIGHLIGHTS
1.  GLIFWC would be pleased to accept an allocation of appropriated RPI 
funding that is in the same proportion as it has currently been 
receiving.
2.  Full restoration of Great Lakes Restoration Initiative funding to 
its historical $300,000,000 level, with a total Tribal set-aside of no 
less than $15,000,000.
3.  Full funding for contract support costs, as required by the ISDEA 
Act.
4.  Sufficient funding in the Tribal Management and Development line 
item for GLIFWC's member Tribes to fulfill their needs for reservation-
based natural resource programs and to fund the Circle of Flight 
wetlands program.

GLIFWC'S GOAL--A SECURE FUNDING BASE TO FULFILL TREATY PURPOSES AND 
        LEGAL OBLIGATIONS
    For more than 30 years, Congress has funded GLIFWC to implement 
comprehensive conservation, natural resource protection, and law 
enforcement programs that: (1) protect public safety; (2) ensure member 
Tribes are able to implement their treaty reserved rights to hunt, 
fish, and gather throughout the ceded territories; (2) ensure a healthy 
and sustainable natural resource base to support those rights; and (3) 
promote healthy, safe communities. These programs also provide a wide 
range of public benefits, and facilitate participation in management 
partnerships in Wisconsin, Michigan, and Minnesota.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


GLIFWC'S PROGRAMS--PROMOTING HEALTHY COMMUNITIES AND EDUCATING TRIBAL 
        MEMBERS THROUGH TREATY RIGHTS EXERCISE
    Established in 1984, GLIFWC is a natural resources management 
agency of 11 member Ojibwe Tribes with resource management 
responsibilities over their ceded territory (off-reservation) hunting, 
fishing and gathering treaty rights. These ceded territories extend 
over a 60,000 square mile area in Minnesota, Wisconsin, and 
Michigan.\2\ GLIFWC employs over 80 full-time staff, including natural 
resource scientists, technicians, conservation enforcement officers, 
policy specialists, and public information specialists.
---------------------------------------------------------------------------
    \2\ GLIFWC's programs do not duplicate those of the Chippewa-Ottawa 
Resource Authority or the 1854 Treaty Authority. GLIFWC also 
coordinates with its member Tribes with respect to Tribal treaty 
fishing that extends beyond reservation boundaries by virtue of the 
Treaty of 1854 and the reservations' locations on Lake Superior.
---------------------------------------------------------------------------
    GLIFWC strives to implement its programs in a holistic, integrated 
manner consistent with the culture and values of its member Tribes, 
especially in light of Tribal lifeways that the exercise of treaty 
rights supports. This means not only ensuring that Tribal members can 
legally exercise their rights, but supporting community efforts to 
educate them about the benefits (physical, spiritual, and cultural) of 
harvesting and consuming a more traditional diet, as well as promoting 
inter-generational learning and the transmission of traditional 
cultural and management practices. These programs, in turn, promote 
safe and healthy communities by encouraging healthy lifestyles, 
intergenerational connections, and cultural education.
    GLIFWC and its member Tribes thank Congress, and particularly this 
subcommittee, for its continuing support of these treaty obligations 
and its recognition of the ongoing success of these programs. There are 
two main elements of this fiscal year 2019 funding request:

    BIA Great Lakes Area Management (Within the RPI Line Item): A 
proportionate share of the $40,161,000 provided in 2018 for the RPI 
line item. The fiscal year 2018 increase of $500,000 is greatly 
appreciated. GLIFWC continues to support allocating increases to the 
RPI line item in the historically proportionate amounts.
    There is a long history of Federal funding for treaty rights 
protection and implementation programs. For more than 30 years, 
Congress and each administration have appropriated funding for these 
programs. GLIFWC has testified about the fact that the need is 
consistently greater than RPI funding, and the impacts that 
underfunding has on treaty rights programs. The Federal Government, as 
a treaty signatory, is required to uphold treaty rights. It has 
appropriately chosen to invest in our programs as efficient, cost-
effective service delivery mechanisms at the appropriate governmental 
level to implement Federal court orders and to protect and restore the 
natural resources on which the treaty rights are based.
    Tribes can only protect the resources that support their rights if 
they undertake relevant scientific and technical analyses that inform 
the design and implementation of adaptive natural resource management 
activities. To this end, maximum flexibility should be provided to 
GLIFWC and its Tribes to define for themselves the science and research 
activities best suited to the needs of their member Tribes and the 
particular issues within their region. GLIFWC would gladly accept funds 
in proportion to overall RPI funding, as provided in fiscal year 2018.

    EPA Environmental Programs and Management: $300,000,000. GLIFWC 
supports continued funding for the Great Lakes Restoration Initiative 
(GLRI) as an important non-regulatory program that enhances and ensures 
coordinated governance in the Great Lakes, fulfillment of international 
agreements, and substantive natural resource protection and restoration 
projects. GLIFWC supports consistent funding for the GLRI at $300 
million, the level that has been provided and received unwavering 
bipartisan support since 2011.
    GLIFWC appreciates the directive in the fiscal year 2018 
Consolidated Appropriations Act's explanatory statement that EPA should 
work with Tribes and the BIA to develop a proposal for a distinct 
Tribal program within the GLRI. GLIFWC is working with those agencies 
to develop such a program, and recommends that the program be funded at 
no less than $15 million to ensure that it allows Tribes the 
flexibility to develop the programs that are of the highest priorities 
to their communities, fulfills the spirit of self-determination, meets 
treaty obligations, and carries out Federal trust responsibilities.
    Sustained funding for the GLRI allows GLIFWC to maintain its 
participation in interjurisdictional governance structures, including 
the implementation of the revised Great Lakes Water Quality Agreement 
(GLWQA). With GLRI funding, GLIFWC has been able to provide active 
support on numerous implementing Annexes, including the Lakewide Action 
and Management Plan, Aquatic Invasive Species, and Chemicals of Mutual 
Concern Annexes.
    Sustained GLRI funding also allows GLIFWC to augment and leverage 
its current natural resource protection and enhancement activities. 
This includes enhancing GLIFWC's participation in interagency efforts 
to assess the impacts of mining waste (stamp sands) on an important 
whitefish and lake trout spawning reef in Lake Superior, and to explore 
remediation options and strategies.

RESULTS AND BENEFITS OF GLIFWC'S PROGRAMS
1.  Maintain the Requisite Capability To Meet Legal Obligations, To 
Conserve Natural Resources and To Regulate Treaty Harvests: While more 
funding would increase program comprehensiveness, sustained funding at 
the fiscal year 2018 level supports Tribal compliance with various 
court decrees and intergovernmental agreements that govern the Tribes' 
treaty-reserved hunting, fishing and gathering rights. Funding for 
science and research enhances GLIFWC's capability to undertake work and 
participate in relevant partnerships to address ecosystem threats that 
harm treaty natural resources, including those related to climate 
change.
2.  Remain a Trusted Management and Law Enforcement Partner, and 
Scientific Contributor in the Great Lakes Region: GLIFWC has become a 
respected and integral part of management and law enforcement 
partnerships that conserve natural resources and protect public safety. 
It brings a Tribal perspective to interjurisdictional Great Lakes 
management fora and would use its scientific expertise to study issues 
and geographic areas that are important to its member Tribes but that 
others may not be examining.
3.  Maintain the Overall Public Benefits That Derive From Its Programs: 
Over the years, GLIFWC has become a recognized and valued partner in 
natural resource management. Because of its institutional experience 
and staff expertise, GLIFWC has built and maintained numerous 
partnerships that: (i) provide accurate information and data to counter 
social misconceptions about Tribal treaty harvests and the status of 
ceded territory natural resources; (ii) maximize each partner's 
financial resources and avoid duplication of effort and costs; (iii) 
engender cooperation rather than competition; and (iv) undertake 
projects that achieve public benefits that no one partner could 
accomplish alone.
4.  Encourage and Contribute to Healthy Tribal Communities: GLIFWC 
works with its member Tribes' communities to promote the benefits of 
treaty rights exercise. These include the health benefits associated 
with a more traditional diet and the intergenerational learning that 
takes place when elders teach youth. In addition, GLIFWC sponsors a 
camp each summer where Tribal youth build leadership skills, strengthen 
connections to the outdoors, and learn about treaty rights and careers 
in natural resource fields.

    [This statement was submitted by Michael J. Isham Jr., Executive 
Administrator.]
                                 <greek-l>
                                 ______
                                 
            Greater Sage-Grouse and Sage-Steppe Habitat deg.
 Prepared Statement of Supporters of the Greater Sage-Grouse and Sage-
                  Steppe Habitat in the American West
Dear Chairman Murkowski and Ranking Member Udall:

    On behalf of the hundreds of thousands of sportsmen and women, 
conservationists and outdoor recreation enthusiasts represented by our 
organizations, we are writing to request your support for robust levels 
of fiscal year 2019 Interior, Environment and Related Agencies 
Appropriations funding for several key programs benefitting the greater 
sage-grouse and sage-steppe habitat in the American West. We have also 
included three subcommittee report language requests for your 
consideration as a companion to our funding requests. We would like to 
thank this subcommittee for your tremendous leadership on sage grouse 
priorities through a series of recent budget cycles and encourage your 
continued commitment to the following important priorities:

    BLM Resource Protection and Maintenance.--We support stable levels 
of fiscal year 2019 funding consistent with the final fiscal year 2018 
level and additional funding if available for the BLM Resource 
Protection and Maintenance account. The Resource Protection and 
Maintenance account supports BLM land use planning and compliance 
activities as required by the National Environmental Policy Act (NEPA) 
and Federal Land Policy and Management Act (FLPMA) and ensures public 
land conservation and environmentally sensitive resources, such as the 
greater sage-grouse, are fully considered during the land use planning 
process.
    BLM Resource Management Planning.--The BLM is guided by the Greater 
Sage Grouse Conservation Strategy which is the largest landscape-level 
conservation and restoration effort in contemporary U.S. history, and 
is unprecedented in geographic scale and complexity. As BLM continues 
implementing the 98 sage grouse plans, new information and challenges 
have identified further needed investments to keep plan implementation 
effective and on schedule. We support strong fiscal year 2019 funding 
consistent with the final fiscal year 2018 funding levels for the BLM's 
focus on sage-grouse conservation. Greater sage-grouse habitat has 
experienced a precipitous decline across the West, and ongoing 
collaboration across public and private lands is needed to ensure this 
species remains off the Endangered Species list. These efforts also 
benefit other game species such as mule deer and support recreational 
hunting and associated rural jobs across much of the West.
    We wish to thank the subcommittee for your support for increased 
fiscal year 2018 levels of funding for the Resource Management Planning 
subactivity and encourage the subcommittee to again recommend specific 
funding under this budget for greater sage-grouse, sage-steppe and 
other high priority conservation efforts. This activity includes 
funding for BLM's high priority planning efforts including the 
initiation of new resource management plans, plan evaluations and 
implementation strategies. Ensuring BLM has the resources necessary to 
integrate the most recent State and Federal fish and wildlife data; 
current trends in outdoor recreation and land use activities; and 
ongoing energy development within the planning process is paramount for 
ensuring the agency is achieving desired conditions across the more 
than 247 million acres of BLM-managed public lands. We support the BLM 
Land Use Planning function and its focus on collaboration with local 
communities and State and Tribal governments, as well as on science-
based analysis.
    BLM Assessment, Inventory and Monitoring (AIM) Program.--The BLM 
Resource Management Planning sub-activity includes the AIM Program 
account. The AIM Program is built around a strategy designed to reach 
across programs, jurisdictions, stakeholders and agencies to provide a 
framework for consistent data and information valuable to 
decisionmakers. The AIM Program has been important in ongoing DOI and 
BLM sage-grouse partnership efforts and we support maintaining this 
program consistent with final fiscal year 2018 funding.
    BLM Wildlife and Fisheries Management.--We support strong funding 
levels consistent with final fiscal year 2018 levels and increases if 
available for the BLM Wildlife and Fisheries Management account and the 
agency's work through this account to support the maintenance, 
restoration, and enhancement of fish, wildlife and their habitats on 
public lands throughout the BLM system. Important BLM activities such 
as conducting inventories of fish and wildlife resources and developing 
cooperative management plans while providing for responsible recreation 
and commercial uses are critically important for BLM's ongoing work 
with State fish and wildlife agencies and local communities across the 
West. A BLM Wildlife Management program increase would primarily 
support more on-the-ground vegetative treatments to protect, improve, 
or restore sage steppe habitat and other high priority habitats. Funds 
also would assist States in implementing greater sage-grouse 
conservation plans. In addition to strong annual levels of funding for 
this account, we support specifically identifying annual funding within 
this account for sage-grouse conservation efforts.
    BLM National Seed Strategy.--The BLM's efforts to implement the 
Greater Sage Grouse Conservation Strategy are reliant upon successful 
execution of the National Seed Strategy, which is integral to the 
Administration's wildland fire rehabilitation efforts and the success 
of the DOI Integrated Rangeland Fire Management Strategy. Congress 
approved a $5.0 million program increase in fiscal year 2017 within the 
Wildlife Management account to more aggressively implement the National 
Seed Strategy and develop much needed nationwide networks of native 
seed collectors, researchers developing wildland seed into commercial 
crops, farmers and growers increasing native seed supplies, and 
nurseries and storage facilities providing sufficient amounts of 
appropriate seed. Restoration ecologists will identify the appropriate 
timing and placement for seed and plant material to optimize treatment 
results. The seed materials and knowledge gained from BLM's investment 
in the National Seed Strategy will focus on restoring the sage-steppe 
landscape in the near term, with all BLM land rehabilitation and 
restoration efforts benefitting over the long-term. We support a level 
of funding consistent with fiscal year 2017 and final fiscal year 2018 
levels for the National Seed Strategy.
    BLM Office of Wildland Fire.--We support no less than $30 million 
in funding for the Resilient Landscapes program and increases 
consistent with fiscal year 2018 final funding and spend plans within 
the Office of Wildland Fire to allow the BLM to continue to support 
resilience work in the sagebrush ecosystem.
    USFWS Greater Sage-Grouse Conservation.--We support several 
important programs within the USFWS budget to support greater sage-
grouse conservation including the Conservation and Restoration; 
Wildlife and Habitat Management; and Partners for Fish and Wildlife 
accounts. Consistent with earlier recommendations, we support the 
subcommittee's focus on sage-grouse within these budgets and encourage 
the subcommittee to continue to identify funding within the Candidate 
Conservation account for the sagebrush steppe ecosystem. Similarly, the 
Partners for Fish and Wildlife Program coordinates closely with BLM and 
NRCS to work with private landowners on voluntary, non-regulatory 
partnerships to advance sage-grouse conservation across the West. We 
strongly support this program and urge the subcommittee to consider an 
increase to support the work of program staff and their ongoing efforts 
to advance on-the-ground sage grouse conservation in close coordination 
with the Nation's ranching and agricultural communities.
    USGS Greater Sage-Grouse Conservation.--We support funding 
consistent with fiscal year 2018 levels in fiscal year 2019 to provide 
the resources necessary for USGS engagement on sage grouse science, 
data collection and technical assistance.
    USFS Greater-Sage Grouse Conservation.--The USFS is a key Federal 
partner along with DOI and its agencies in on-the-ground collaboration 
on sage grouse conservation. In addition to USFS sage-grouse forest 
planning activities, the agency has been engaged in the Greater Sage 
Grouse Conservation Engagement Strategy and has established a national 
position to coordinate on sage grouse issues as well as new State 
liaisons responsible for transferring information to the States. We 
support this USFS engagement role and the resources necessary to ensure 
this coordination remains a priority.
      interior, environment and related agencies language requests
1.  We thank the subcommittee for your work to oppose new greater sage-
grouse language in the final Fiscal Year 2018 Omnibus Appropriations 
Act. In addition to continued support for BLM sage-grouse funding, we 
continue to encourage this subcommittee to oppose efforts to attach 
sage-grouse rider language during the fiscal year 2019 appropriations 
process.

2.  We have concerns regarding recent indications the BLM is shifting 
funding away from the Assessment, Inventory and Monitoring (AIM) 
strategy and its focus on the greater sage-grouse and data coordination 
activities. AIM is funded by both the BLM Wildlife Management and 
Planning subactivities. We strongly support maintaining this account 
consistent with fiscal year 2018 funding and ensuring sage-grouse 
remains a priority activity for this program.

    Recommended language: As many of the greater sage-grouse plan 
decisions operate across multiple BLM field offices and jurisdictional 
boundaries, it is critical that BLM field offices have a shared 
understanding of the commitments in the greater sage-grouse plans and a 
common approach to implementing them. BLM's development of the 
Assessment, Inventory and Monitoring (AIM) strategy has been critical 
in this effort and the Committee supports funding for AIM consistent 
with fiscal year 2018 levels.

3.  We have concerns regarding recent indications the BLM is shifting 
funding from resource programs designed to do proactive work (resource 
program subactivities: Cultural; Wildlife; Soil/Water/Air) to support 
oil and gas plan amendments. This has been a long-standing issue 
between programs at BLM. BLM Planning has long pushed the other BLM 
resource programs to use their funding to support oil and gas plans, 
planning amendments, and project assessments to help analyze how these 
proposed actions impact their resources (e.g., directing the BLM 
Wildlife Program to spend money studying how oil/gas amendments impact 
wildlife). Justifiably, we understand and support the resource programs 
using their funding for beneficial activities for their designated 
resources, but not for analyzing impacts from planning or project 
proposals from other programs.

    Recommended language: The Committee has concerns regarding BLM 
funding shifts from BLM resource program subactivities such as 
cultural, wildlife, and soil/air/water for use by BLM to analyze 
impacts to designated resources of proposed projects or plans. All 
proposed project assessments or planning should come from funding 
within the planning program or within the sub-activity that is the 
primary beneficiary of the project or plan rather than from other non-
planning, supporting resource program sub-activities.

    Thank you for your consideration of these appropriations and 
language requests and we look forward to working with you and your 
staff as the fiscal year 2019 budget process moves forward this year.

            Sincerely,

Archery Trade Association
Backcountry Hunters & Anglers
California Waterfowl
Fly Fishers International
National Bobwhite Conservation Initiative
National Deer Alliance
National Wildlife Federation
National Wildlife Refuge Association
Pheasants Forever
Pope and Young Club
Quail Forever
Quality Deer Management Association
Snook and Gamefish Foundation
The Nature Conservancy
Theodore Roosevelt Conservation Partnership
Wildlife Management Institute
      
                                 ______
                                 
 Prepared Statement of the Humane Society of the United States, Humane 
         Society Legislative Fund, and Doris Day Animal League
    Thank you for this opportunity to offer testimony on matters of 
importance to our organizations. We urge the subcommittee to address 
the following requests in the fiscal year 2019 Department of Interior, 
Environment, and Related Agencies budget:

  --EPA, CompTox Program: increase over President's request
  --BLM, Wild Horse and Burro Program: (1) $135,000,000, contingent on 
        immediate implementation of a management program based on four 
        prongs detailed below; (2) fiscal year 2018 enacted language to 
        protect wild horses and burros from slaughter; (3) fiscal year 
        2018 enacted language regarding transfer of wild horses and 
        burros.
  --FWS, Multinational Species Conservation Fund: $11,061,000 (fiscal 
        year 2018 enacted level), with no funds from conservation 
        programs to promote trophy hunting, trade in animal parts, or 
        other consumptive uses of wildlife.
  --FWS, Office of International Affairs: $15,816,000 (fiscal year 2018 
        enacted level)
  --FWS, Office of Law Enforcement: $77,053,000 (fiscal year 2018 
        enacted level)

    We also request that the budget exclude any language that would in 
any way: impede efforts to combat wildlife trafficking; relax 
regulations on imports of sport-hunted trophies; or undermine the 
Endangered Species Act.
            environmental protection agency--comptox program
    Thousands of chemicals are currently used, and hundreds of new ones 
are introduced each year, for which EPA needs to conduct toxicity 
assessments. EPA is also tasked with evaluating and registering 
pesticides and, more recently, evaluating chemicals for possible 
endocrine activity. To address these needs, EPA established the 
National Center for Computational Toxicology (NCCT) to predict hazard 
and prioritize chemicals for further screening and testing, developing 
and using high-throughput assays and predictive tools which are less 
expensive and time consuming and more predictive of relevant biological 
pathways.
    Through EPA's CompTox program, EPA has screened more than 2,000 
chemicals (for industrial applications, food additives, pesticides, and 
consumer products) and evaluated them in more than 700 high-throughput 
assays. Additionally, EPA is using ToxCast data to prioritize chemicals 
for evaluation in the Endocrine Disruptor Screening Program. Tox21, a 
collaboration among EPA, the National Institute of Environmental Health 
Sciences, the National Center for Advancing Translational Sciences, and 
the Food and Drug Administration, is currently screening 10,000 
chemicals to improve the effectiveness of drug development. NCCT also 
works with other divisions of EPA's Office of Research and Development 
to develop predictive tools and systems biology databases. These 
projects are reducing animal use while improving the speed and accuracy 
of chemical evaluation relevant to several programs. With the passage 
in 2016 of the Frank R. Lautenberg Chemical Safety for the 21st Century 
Act, there is a marked need to ensure these tools are augmented and 
taken up by the agency.
    Congress appropriated increases for the program's budget in fiscal 
years 2016, 2017 and 2018. However, the President's budget has 
significantly slashed this progress. We support an increase over and 
above the President's budget to reinstate the CompTox program in fiscal 
year 2019. This will increase the likelihood of realizing the goals 
presented in the CompTox program, and assure a more predictable and 
relevant chemicals safety assessment.
        bureau of land management--wild horse and burro program
    The HSUS is one of the leading advocates for the protection and 
welfare of wild horses and burros in the United States, with a long 
history of working collaboratively with BLM--the agency mandated to 
protect America's wild horses and burros--on the development of 
effective and humane management techniques.
    For years, The HSUS has strongly cautioned against continuing to 
gather large numbers of wild horses and burros from our rangelands 
annually without implementing any program for suppressing population 
growth. This approach has led BLM into a continuous cycle of roundups 
and removals, even as long-term, cost-efficient, and humane management 
strategies, such as fertility control, are readily available.
    Because of this strategy, BLM has long removed many more wild 
horses and burros from the range than it could expect to adopt, while 
simultaneously being unable to stabilize on range populations. 
Consequently, the cost of the wild horse and burro program has 
continued to grow, without any benefit to wild horses, the government, 
or our public rangelands.
    To move the agency away from this failed paradigm, Appropriations 
language in the past few years has requested that BLM create a long-
term, humane, and financially sustainable management path that 
incorporates fertility control tools. This approach is supported by the 
NAS report, which called for increased use of on-the-range management 
tools, including the fertility control vaccine Porcine Zona Pellucida 
(PZP). Further, studies have shown that incorporating fertility control 
into the management of wild horses and burros would significantly lower 
the program's carrying costs. A 2008 paper determined that on-the-range 
contraception could reduce total wild horse and burro management costs 
by 14 percent, saving $6.1 million per year. In addition, the results 
of a paper describing an economic model commissioned by The HSUS 
indicates that treating wild horses on one hypothetical Herd Management 
Area (HMA) with PZP could save BLM approximately $5 million dollars 
over 12 years, while achieving and maintaining Appropriate Management 
Levels of 874 horses. Since BLM estimates that more than 72,000 wild 
horses roam in the United States, PZP use could save tens of millions 
of dollars if applied broadly across all HMAs.
    However, instead of pursuing Congressional recommendations to 
increase the use of fertility control tools, BLM has consistently 
failed to implement any humane management plan. In fact, in 2017 the 
agency treated with fertility control only 777 horses from the 
estimated rangeland population of 72,000--only slightly more than 1 
percent of the population.
    Now, the President's fiscal year 2019 budget calls for the agency 
to further reduce its use of fertility control and requests the ability 
for the agency to send wild horses and burros to slaughter. This will 
not solve rangeland population conflicts; rather, it will simply repeat 
the past failures of attempting to lower rangeland populations by 
removing animals. Twenty years of history has shown that this does not 
maintain stable populations. Moreover, the overwhelming majority of the 
American public opposes horse slaughter, and will not accept this as a 
solution for managing our wild horses.
    Additionally, BLM submitted a report to Congress entitled, 
``Management Options for a Sustainable Wild Horse and Burro Program,'' 
which includes four management options. We firmly believe that a 
sustainable management program would include four prongs:

    1.  Conduct targeted gathers and removals at densely populated HMAs 
to reduce herd size in the short term.
    2.  Treat gathered horses with fertility control prior to returning 
to the range. This program should continue until 90 percent of the 
mares on the range have been treated and continued consistent fertility 
control is implemented.
    3.  Relocate horses in holding facilities, and those taken off the 
range to large cost-effective pasture facilities funded through public-
private partnerships.
    4.  Promote adoptions in order to reduce captive populations and 
costs.

    While BLM's report did not include an option with these four 
prongs, it is imperative, for the health of the horses and the 
rangeland, that immediate action be taken to implement a plan with 
these four prongs.
    For these reasons, we ask that you fund the BLM Wild Horse and 
Burro Program at $135,000,000, contingent on the agency's immediate 
implementation of a management program that is based on the four prongs 
listed above.
    We also request inclusion of the same language barring wild horses 
and burros from being sent to slaughter that figured in the fiscal year 
2018 omnibus: ``Appropriations herein made shall not be available for 
the destruction of healthy, unadopted, wild horses and burros that 
results in their destruction for processing into commercial products,'' 
(Division G, p. 729, lines 17-22).
    We also request inclusion of the same protections for wild horses 
and burros transferred to other agencies that were included in the 
fiscal year 2018 omnibus, ensuring that transferred wild horses and 
burros shall not be: destroyed in a way that results in their 
destruction into commercial products; sold or otherwise transferred in 
a way that results in their destruction for processing into commercial 
products; or euthanized except upon the recommendation of a licensed 
veterinarian, in cases of severe injury, illness, or advanced age 
(Division G, p. 782, lines 1-21).
   fish and wildlife service--multinational species conservation fund
    The President's budget for FWS's MSCF is $6 million--a staggering 
cut of more than 45 percent from the $11,061,000 appropriated in fiscal 
year 2018. We urge the subcommittee to restore the $5,061,000 in 
funding and appropriate MSCF at its fiscal year 2018 enacted level.
    The MSCF supports critical conservation programs for some of our 
world's most iconic species: African and Asian elephants, rhinos, 
tigers, great apes, and sea turtles. One recent project MSCF has helped 
support is aerial surveillance for anti-poaching and wildlife 
management in Zakouma National Park in Chad.
    The HSUS joins a broad coalition of organizations in support of 
MSCF, while asking that the sales of semi-postal stamps benefiting this 
program remain supplementary to annually appropriated levels.
    While we wholeheartedly support continued funding for MSCF, we are 
concerned about past incidents and oppose any future use of funds from 
these conservation programs to promote trophy hunting, trade in animal 
parts, and other consumptive uses--including live capture for trade, 
captive breeding, entertainment, or for the public display industry--
under the guise of conservation. The use of MSCF grants must be 
consistent with the spirit of its authorizing law.
       fish and wildlife service--office of international affairs
    In fiscal year 2018, the subcommittee provided $15,816,000 to the 
FWS OIA. The President's budget provides $14.5 million; we request that 
you add at least $1,316,000 to that amount in fiscal year 2019 to match 
or exceed the fiscal year 2018 enacted level. OIA programs provide 
critical resources to help stakeholders on the ground fight wildlife 
trafficking and poaching. In particular, funds will be used for 
comprehensive and holistic solutions in other countries to mitigate the 
threats of wildlife poaching and trafficking--including community 
engagement, law enforcement, reducing consumer demand for trafficked 
wildlife, and international collaboration.
    In the past year, the American public has reacted with dismay and 
disapproval to the administration's actions to allow increased imports 
of sport-hunted trophies into the United States. We ask that the 
subcommittee exclude any language from the Appropriations bill that 
would relax regulations on imports of such trophies. We also request 
the subcommittee to urge the Fish and Wildlife Service to refrain from 
relaxing regulations on imports of such trophies.
          fish and wildlife service--office of law enforcement
    The President's budget provides $69.5 million for FWS OLE, a 
decrease of almost 10 percent from the $77,053,000 in fiscal year 2018 
enacted. We urge the subcommittee to continue funding OLE at the fiscal 
year 2018 level. The United States is among the world's largest 
consumers of illegal wildlife, underscoring the importance of OLE's 
work fighting transnational and domestic wildlife crime.
    Accomplishments from the past year illustrate how OLE has 
capitalized on past investments to make progress toward these goals. 
The OLE has ongoing operations to combat the illegal trade of elephant 
ivory, glass eels, and other wildlife products. Operation Crash, aimed 
at rhino horn trafficking, secured the September 2017 conviction of a 
California man for selling rhino horn. In January 2018, another 
investigation yielded the conviction of two Florida men for stealing 
more than 650 sea turtle eggs from their nests.
    In addition, we ask that the bill exclude language to weaken the 
enforcement or implementation of the June 6, 2016 rule combating ivory 
trade in the United States (81 Fed. Reg. 36387).
                         endangered species act
    The Endangered Species Act (ESA) is fundamental to the protection 
of our planet's most imperiled animals. This law, which is supported by 
90 percent of American voters, has prevented the extinction of 99 
percent of the species under its care, including the bald eagle. Under 
the ESA, the responsibility to list and delist species lies with 
Federal agencies, which must make these listing decisions based on the 
best available science. The authority to make these science-based 
management decisions should remain with Federal agencies.
    We ask that the fiscal year 2019 budget exclude any language that 
prevents Federal agencies from making listing or delisting decisions 
based on sound science, or that otherwise undermines the ESA.
                                 ______
                                 
     Prepared Statement of the Interstate Mining Compact Commission
    My name is Thomas L. Clarke and I serve as Executive Director of 
the Interstate Mining Compact Commission. I appreciate the opportunity 
to present this statement to the subcommittee regarding the views of 
the Interstate Mining Compact Commission's 26 member States on the 
fiscal year 2019 budget request for the Office of Surface Mining 
Reclamation and Enforcement (OSMRE) within the U.S. Department of the 
Interior. In its proposed budget, OSMRE is requesting $52.4 million to 
fund Title V grants to States for the implementation of their 
regulatory programs, a reduction of $16.1 million below the fiscal year 
2018 enacted level.
    The Compact is comprised of 26 States that together produce some 95 
percent of the Nation's coal, as well as other important minerals. The 
Compact's purposes are to advance the protection and restoration of 
land, water and other resources affected by mining through the 
encouragement of programs in each of the party States that will achieve 
comparable results in protecting, conserving and improving the 
usefulness of natural resources and to assist in achieving and 
maintaining an efficient, productive and economically viable mining 
industry.
    OSMRE has projected an amount of $52.4 million for Title V grants 
to States in fiscal year 2019, an amount which is matched by the 
States. These grants support the implementation of State regulatory 
programs under the Surface Mining Control and Reclamation Act (SMCRA) 
and as such are essential to the full and effective operation of those 
programs.\1\ Pursuant to these primacy programs, the States have the 
most direct and critical responsibilities for conducting regulatory 
operations to minimize the impact of coal extraction operations on 
people and the environment. The States accomplish this through a 
combination of permitting, inspection and enforcement duties, 
designating lands as unsuitable for mining operations, and ensuring 
that timely reclamation occurs after mining.
---------------------------------------------------------------------------
    \1\ OSMRE recognizes the significant role played by the States in 
its budget justification document on page 42 where it notes that 
``primacy States have the most direct and critical responsibilities for 
conducting regulatory operations to minimize the impact of coal 
extraction operations on people and the environment. The States have 
the capabilities and knowledge to regulate the lands within their 
borders.''
---------------------------------------------------------------------------
    In fiscal year 2018, Congress approved $68.590 million for State 
and Tribal Title V grants pursuant to the Omnibus Appropriations Bill. 
This continued a much-needed trend whereby the amount appropriated for 
these regulatory grants aligned with the demonstrated needs of the 
States. The States are greatly encouraged by the amount approved by 
Congress for Title V grant funding over the past several fiscal years. 
These grants had been stagnant for many years and the gap between the 
States' requests and what they received was widening. This debilitating 
trend was compounding the problems caused by inflation and other costs 
beyond the control of the States, thus undermining State efforts to 
realize needed program improvements and enhancements and jeopardizing 
their efforts to minimize the potential adverse impacts of coal 
extraction operations on people and the environment. OSMRE acknowledges 
the importance of this funding on page 41 of its budget justification 
document where the agency explains that ``primacy States will continue 
to need a diverse and multidisciplinary cadre of personnel skilled in 
scientific and engineering areas to review mine permits, determine 
whether performance bond coverage and amounts are sufficient to ensure 
reclamation, conduct mine inspections and implement enforcement actions 
when necessary.''
    In past budget requests, OSMRE displayed a pattern of proposing 
inadequate funding for State Title V regulatory programs. Congress 
consistently rejected the proposed reductions and funded the programs 
at amounts that more closely aligned with the States' projected needs. 
OSMRE's fiscal year 2019 budget proposal once again moves the grants 
marker in the wrong direction with a cut in regulatory grants that is 
double what it had proposed (and that Congress rejected) in fiscal year 
2018. OSMRE States that ``this request fully funds the projected 2019 
activity requirements, based on a downward trend in State grant 
execution and an historical return of unexecuted appropriated funds at 
the end of the grant cycle each year.''
    What OSMRE fails to note in its analysis is that, given fiscal 
constraints on State budgets, some States have only recently been able 
to move beyond hiring and salary freezes and restrictions on equipment 
and vehicle purchases, all of which have inhibited the ability of some 
States to spend the full amount of their Federal grant money in some 
years. With many States now recovering enough to utilize their full 
grant amount, it is imperative that funding be maintained at a level 
that meets the States' estimates of program needs. Those estimates 
reflect the ongoing work associated with State program implementation 
including permit reviews, inspections and enforcement at all 
inspectable units. Even with the downturn in coal production, the 
States' workload has not decreased--and in some cases has increased 
given the tenuous condition of some coal companies. In the latter 
situation, higher levels of vigilance are necessary to insure 
contemporaneous reclamation and abatement of violations.
    OSMRE goes on to note that it will ``continue to support State 
regulatory grant requests by re-distributing the available prior year 
funds as needed.'' We believe this plan to be shortsighted in that it 
fails to consider the improving fiscal conditions in many States and 
the damaging precedent set by appropriating suboptimal grant amounts. 
Our analysis of State program funding needs for fiscal year 2019 based 
on recent estimates indicate that a full Federal appropriation of $68.6 
million will be required. In some States, additional matching Federal 
funds may be necessary to meet program needs.
    Furthermore, there is no guarantee that these carryover funds will 
be available into the future or that they would not be reprogrammed for 
other purposes. Congress should specifically mandate through report 
language that all carryover funds from past fiscal years can only be 
used to fund State regulatory program needs. It would also be 
beneficial to State program implementation if OSMRE was authorized to 
utilize these carryover funds for State program enhancement activities 
(without matching requirements) for such critical program topics as 
electronic permitting, mine mapping, and benchmarking workshops.
    We acknowledge that the amount of carryover funding specifically 
targeted for State regulatory grants has increased over the years, to 
approximately $20 million according to OSMRE's estimates. This is the 
result of two factors: (1) the fact that appropriations for State 
regulatory grants are treated as 2-year money, thereby providing 
flexibility for the use of these moneys and (2) a few tough years where 
States faced particular challenges in obtaining State share match 
moneys and/or expending grant funding before the end of the Federal 
fiscal year. With an improving economy and the ability to better manage 
State program expenditures (especially in years like fiscal year 2018 
where grant funds are received so late in the fiscal year), States are 
expending almost all of what they receive. Furthermore, having a 
cushion of available carryover funding from year to year provides the 
certainty and confidence that both OSMRE and the States require in 
managing funding for these critical programs.
    Clear indications from Congress that reliable, consistent funding 
will continue into the future has done much to stimulate support for 
these programs by State legislatures and budget officers who, in the 
face of difficult fiscal climates and constraints, have had to deal 
with the challenge of matching Federal grant dollars with State funds. 
This is particularly true for those States whose match is partially 
based on permit fees from the mining industry, where significant 
reductions in permitting activity translate to fewer permit fees (but 
not in the amount of regulatory work for State regulatory agencies). 
Recall that any cut in Federal funding generally translates to an 
additional cut of an equal amount for overall program funding for many 
States, especially those without Federal lands, since these States can 
generally only match what they receive in Federal money.
    We are encouraged with language in OSMRE's budget justification 
document that ``in furtherance of cooperative Federalism, OSMRE will 
create an oversight steering committee with State Regulatory 
Authorities to discuss impediments to meaningful and effective 
oversight including revising current OSMRE oversight directions 
[sic].'' IMCC approached OSMRE in September of 2017 to pursue these and 
other programmatic concerns, including the processing of State program 
amendments, NEPA requirements and funding protocols. Since that time, 
the States have engaged in a series of meetings with OSMRE to advance 
our common goals under SMCRA. However, the proof is in actual 
implementation of these laudable goals. Based on our experience with 
program operations, some of the very areas OSMRE identifies as reasons 
for its oversight activity are either dependent on State involvement 
(training) or have seen little in the way of progress over the years 
(State program amendment review and approval). We are hopeful that our 
recent engagement with OSMRE on these critical program elements will 
come to fruition, unlike past efforts which either stalled or lacked 
leadership support.
    The overall performance of the States as detailed in OSMRE's annual 
State program evaluation reports, together with the fact that 
nationwide, 90 percent of the sites inspected did not have off-site 
impacts, demonstrates that the States are implementing their programs 
effectively and in accordance with the purposes and objectives of 
SMCRA. In our view, this suggests that OSMRE is adequately 
accomplishing its statutory oversight obligations with current Federal 
program funding and that any increased workloads are likely to fall 
upon the States, which have primary responsibility for implementing 
appropriate adjustments to their programs identified during Federal 
oversight.
    To the extent that OSMRE is looking for ways to improve and enhance 
the overall implementation of SMCRA at both the State and Federal 
level, we urge the agency to move forward with the findings and 
recommendations that IMCC has presented to OSMRE to address the 
continuing fiscal impacts on program implementation, particularly with 
respect to duplicative inspection and enforcement requirements.
    For all the above reasons, we urge Congress to approve not less 
than $68.6 million for State and Tribal Title V regulatory grants in 
fiscal year 2019, the same amount enacted by Congress over the past few 
fiscal years. In doing so, Congress will continue its commitment to 
ensuring the States have the resources they need to continue their work 
on the forefront of environmental protection and preservation of public 
health and safety.
    OSMRE's proposed budget reduces expenditures for the National 
Technical Training Program (NTTP) and the Technical Information and 
Professional Service (TIPS) by 8 percent. While there may be room for 
some adjustments to these two programs, we caution against cuts that 
would impact the effectiveness of these worthwhile programs. The States 
rely heavily on the NTTP and TIPS training classes for their new 
employees and for refresher courses for more seasoned employees. These 
training programs are especially important as States find themselves at 
a point where many of their employees are finishing careers and must be 
replaced with less experienced people. Any adjustments to these two 
programs should involve the States working through the NTTP/TIPS 
Steering Committee.
    With regard to funding for State Title IV Abandoned Mine Land (AML) 
program grants, the States and Tribes should receive the mandatory 
appropriation of $327.6 million in fiscal year 2019. In its proposed 
fiscal year 2019 budget, OSMRE seeks to eliminate $104 million for the 
AML economic development pilot projects due to the fact that this 
funding ``overlaps with existing mandatory AML grants''. We believe 
that funding for pilot projects is separate and distinct from other AML 
funding sources. As the subcommittee noted with regard to the fiscal 
year 2018 Omnibus Appropriations bill, this funding is targeted for 
economic and community development and reuse goals. We strongly support 
continued funding (from the General Fund) for these pilot projects. We 
also recommend concerted action to reauthorize fee collection under 
Title IV of SMCRA
    IMCC also supports a continuation of funding for the watershed 
cooperative agreements at $1.5 million. Much valuable work has been 
accomplished through this program, especially given the matching funds 
that come from other sources besides OSMRE's share for these worthwhile 
projects.
    We appreciate the opportunity to submit this statement on the 
Office of Surface Mining's proposed budget for fiscal year 2019. We 
also endorse the statement of the National Association of Abandoned 
Mine Land Programs (NAAMLP), which goes into greater detail regarding 
the implications of OSMRE's funding for the States and Tribes related 
to the AML program. We would be happy to answer any questions.
                                 <greek-l>
                                 ______
                                 
    Investment in USDA Forest Service Research and Development deg.
Prepared Statement of Supporters for Investment in USDA Forest Service 
                        Research and Development
Dear Chairman Murkowski and Ranking Member Udall:

    Improving the future health and sustainability of the Nation's 
forests and grasslands requires a strong investment in USDA Forest 
Service Research and Development (R&D), with benefits to forests, 
wildlife, and fish. The undersigned organizations and professional 
societies urge Congress to increase funding for all Forest Service R&D 
to a minimum of $307 million in fiscal year 2019 including all 
necessary increases for the Forest Inventory and Analysis program and 
at least $224 million for the remaining Forest and Rangeland Research 
program areas.
    Building on over 100 years of critically important research, Forest 
Service R&D programs inform policy and land-management decisions that 
improve health and use of the Nation's forests and rangelands, 
including aquatic systems. Funding for these important activities is 
critical to sustaining the Nation's natural resources. Showing value in 
this investment requires R&D leaders and scientists be attuned and 
responsive in providing relevant and timely information and support 
with an ability to effectively deliver assistance to all users.
    The work conducted at experimental forests and ranges, regional 
research stations, and the Forest Products Lab, incubates progress on 
new products and services; tracks disturbance responses; fosters 
greater forest resilience; quantifies contributions to air and water 
quality; and drives innovation in renewable energy and product 
development. Notable recent Forest Service R&D contributions include:
Using Science to Guide Drought Management Response
    Forest Service R&D has been a leader in reviewing impacts of 
drought on U.S. forests and rangelands to help better manage for 
drought resiliency and adaptation going forward. In 2016 Forest Service 
R&D released an assessment report that included management options to 
help Federal, State, and private organizations implement strategies to 
sustain healthy, resilient ecosystems that continue to produce vital 
goods and services, such as forest products and recreational fishing 
opportunities. This scientific synthesis of all recent research with 
additional research into identifying drought indicators on the 
landscape are important to natural resources managers as they consider 
how to integrate drought contingencies in planning efforts.
Helping to Identify Pragmatic Solutions for Species at Risk
    Through long-term monitoring and collaborative research efforts 
with state agencies and other partners, Forest Service R&D generates an 
understanding of wildlife-habitat relationships for multiple species 
and communities that enables informed land management decisions that 
benefit wildlife and people. This includes informing conservation 
efforts that have helped to avoid Endangered Species Act listings for 
several forest and rangeland wildlife species. The USFS works on the 
greater sage-grouse in cooperation with the Bureau of Land Management 
culminated in two USFS Records of Decision and associated land 
management plan amendments to conserve greater sage-grouse and its 
habitat on National Forest System lands and Bureau of Land Management-
administered lands.
Improving Smoke and Fire Management Capabilities
    The Prescribed Fire Combustion and Atmospheric Dynamics Research 
Experiment is a landmark study improving predictions of fire spread and 
smoke behavior. This behavior prediction tool with the Blue Sky Smoke 
Management Model allows fire managers to better understand where flames 
and smoke from wildland fires will go to alert affected communities 
sooner and reduce human health effects. These tools also support 
decisionmaking for prescribed fires, allowing managers to model a 
variety of different scenarios to evaluate potential impacts on air 
quality and soil under a variety of conditions. Research scientists 
continue to expand on this landmark study by mapping risk assessments 
for entire national forests to better determine risk, predict cross 
boundary transmission probabilities that aid safe and effective use of 
fire as a tool. The desired outcome is increasing forest resiliency to 
disturbances, improving forest health, and protecting communities.
Developing Innovative Solutions to Managing Invasive Species
    Forest Service R&D also develops innovative solutions to manage 
invasive pathogens and species that can decimate native plant and 
animal populations. This includes but is not limited to developing a 
cost-effective way to quickly identify the presence or absence of 
invasive species in an aquatic environment through eDNA technology; 
developing trees with a natural resistance to emerald ash borers; and 
successfully developing the first nonlethal treatment for white-nose 
syndrome (WNS)--a lethal fungal disease that has reduced bat 
populations by upwards of 80 percent in certain parts of the country. 
As voracious consumers of insect pests, bats reduce the pesticide bill 
of the U.S. agricultural industry by over $23 billion annually. Using a 
native soil bacterium to inhibit growth of the fungus that causes WNS, 
USFS researchers have been able to return previously sick bats to the 
wild.
Expanding and Protecting U.S. Market Opportunities for Forest Resources
    The Forest Products Laboratory drives innovation and expansion of 
commercial applications for forest products. The work at the Lab on 
woody biofuels, advanced composites and wood structures, and value- 
added wood products promotes healthy forest ecosystems and economies by 
creating, enhancing, and protecting markets for forest products. In 
partnership with universities, scientists from Research Stations across 
the country, and partners in the private sector, the Lab is exploring 
potential of mass timber structures by conducting work on building 
codes and wood utilization models to increase use of wood in building 
construction and potentially invigorate markets for materials that were 
previously considered low value or undesirable. The Lab also houses the 
leading producer of nanocellulose material in the U.S. and explores 
breaking the woody fiber down to the nanoscale and what commercial uses 
make sense for this high strength, low weight material that can be 
collected from nearly any source. Building on unparalleled 
understanding of wood properties, R&D scientists are also able to 
combat deforestation and timber and wildlife trafficking by identifying 
origin of wood products, thereby protecting U.S. supply chains.
Calculating the Value of Urban Forests and Trees
    The publication of Community Tree Guides helps managers calculate 
the value of new tree plantings in terms of property value increases, 
future energy savings, air pollutant uptake, and storm water runoff 
reduction. Credible information quantifying benefits of managed urban 
forests helps cities protect and restore environmental quality and 
enhance economic opportunity.
Guiding Conservation and Management of Aquatic Species
    Using stream temperature and fish data, Forest Service R&D is 
developing important tools to inform and enhance management and 
conservation of aquatic resources. Climate Shield produces spatially-
precise and user-friendly digital maps to guide conservation efforts in 
key watersheds. This tool forecasts specific locations that are most 
likely to continue supporting native cutthroat trout and ESA-listed 
bull trout allowing managers to make precise predictions about which 
streams are most likely to continue supporting native trout species 
based on future temperature scenarios.
Quantifying the Role of Forests in Providing Clean Air and Water
    This research directly linking trees to clean air and water 
underscores the economic value and benefits trees and forests provide 
to all residents and communities. Recent R&D work shows that forests, 
which make up 26 percent of U.S. land area, are the source of 46 
percent of the U.S. water supply--generating far better returns than 
other land uses. Forest Service R&D's understanding of how to manage 
forested landscapes to enhance production of sustained, low cost clean 
water supplies is critically important. Studies are also linking 
contributions of plants and trees to improved air quality and human 
health benefits. The community benefits that plants provide while 
removing pollutants and improving human health is valued at nearly $7 
billion every year and is significantly more cost effective than 
alternatives.
    Advancing forest science is integral to improving the health and 
welfare of U.S. forests and citizens, increasing the competitiveness of 
U.S. products in the global marketplace, and adapting to unforeseen 
future challenges. Continuing the trend of reductions in the R&D budget 
will result in significant gaps in the knowledge base and data sets 
necessary to address the many threats facing our Nation's forests and 
associated wildlife could result in competitive losses in the global 
economy. Therefore, our organizations request a funding level of $307 
million for USFS R&D with emphasis on research projects uniquely suited 
to R&D expertise and the furthering of agency and partner objectives.

Sincerely,

American Fisheries Society
Ecological Society of America
Society for Range Management
Society of American Foresters
The Wildlife Society
                                 <greek-l>
                                 ______
                                 
  Investments in Key Federal Programs That Support State and Private 
                             Forestry deg.
  Prepared Statement of Organizations That Support Investments in Key 
        Federal Programs That Support State and Private Forestry
Dear Chairwoman Murkowski and Ranking Member Udall,

    As Congress begins the process of crafting a budget for fiscal year 
2019, we recognize the tough choices that must be made, especially in 
light of the ever-increasing costs of wildfires and the budgetary 
conflicts that challenge creates. In these tight budgetary conditions, 
maximizing the effectiveness of Federal dollars through partnerships 
with State and local actors can play a large role in addressing our 
national forest challenges. For this reason, the undersigned 
organizations support investments in key Federal programs that support 
State and private forestry. A critically important component of the 
Forest Service's budget, these programs help tackle some of the most 
pressing issues we face in forestry like wildfires, insects, and 
diseases while conserving and improving America's forests; enhancing 
and protecting our drinking water; contributing to healthy, livable 
communities; and encouraging forest product innovation and utilization. 
In turn, this helps the nation to foster strong economic growth, 
especially in rural communities.
    The USDA Forest Service's (USFS) State and Private Forestry Area 
(S&PF) serves as a linchpin for the conservation of America's forests. 
Providing critical technical and financial assistance to private 
landowners and the resource managers responsible for managing more than 
60 percent of America's forests helps to increase the pace of work and 
on-the-ground results, improve the resilience of the Nation's forests, 
avoid conversion of forests to other land uses, and protect communities 
and the environment from forest pests, invasive species, and wildland 
fires.
    In fiscal year 2019, funding for the following State and Private 
Forestry and related programs will help improve the health of the 
Nation's forests and encourage economic growth in a sector that 
sustains more than one million jobs in the United States. Our funding 
level requests include:

  --$29 million for the Forest Stewardship Program \1\
    Administered in cooperation with State forestry agencies, this 
program plays a fundamental role in keeping forests as forests. Forest 
insects, diseases, and wildfire know no bounds between Federal and non-
Federal forests. Assisting some of the 22 million private forest owners 
in managing non-Federal forests can help minimize the impacts to 
Federal lands saving the Federal taxpayer millions of dollars. A forest 
landowner with a forest stewardship plan is almost three times more 
likely to actively manage his or her land than one without a plan, 
leading to jobs and rural economic stimulus. Those who have stewardship 
plans are actively managing their lands for wildlife, clean water, and 
forest products. Ninety percent of the Nation's wood supply comes from 
private forest lands.
---------------------------------------------------------------------------
    \1\ President's budget proposes changing name of the Forest 
Stewardship Program to Working Forest Lands.

  --$107 million for the Forest Health Management Programs--$59 million 
        Federal Lands and $48 million Cooperative Lands
    Pests and disease are national problems affecting private and 
public lands. Nationally, their impact is in the tens of billions of 
dollars. The USFS Forest Health Management Program supports efforts to 
prevent, contain, and eradicate these costly and dangerous pests and 
pathogens affecting trees and forests. Support for Forest Health 
programs is critical on both public land and private land, as insects 
and disease know no boundaries and forest health outcomes on any 
landscape depend upon a cross-ownership approach.

  --$87 million for State Fire Assistance and $16 million for Volunteer 
        Fire Assistance Programs \2\
---------------------------------------------------------------------------
    \2\ President's budget proposes changing the name of these programs 
to National Fire Capacity and Rural Fire Capacity.
---------------------------------------------------------------------------
    Ninety percent of the Nation's wildfires are human-caused and most 
of these fires start on State and private lands, often spreading to 
Federal lands. Initial attack is the key to reducing large fire costs 
and these programs are critical to these suppression efforts. State and 
volunteer fire crews provide much of that initial attack response and 
are deployed to assist on Federal fires and other emergency or disaster 
situations, in compliance with national safety and training standards.

  --$23 million for Landscape Scale Restoration
    The USFS works collaboratively with States and other partners using 
State Forest Action Plans to target limited resources to the highest 
priority forest needs across ownerships to achieve results with 
meaningful local, regional, and national impacts. In an era when our 
forests are facing an increasing number of challenges, this program 
allows for a small Federal investment to be matched and leveraged by 
States and put towards the most pressing threats to the forests that 
sustain American communities.

  --$83 million for Forest Inventory and Analysis
    This program is our country's forest census, which has been ongoing 
since 1930 across all-ownerships, including the two-thirds of America's 
forests which are State or privately owned. FIA enables forest managers 
to understand the scope and scale of trends and changes in forest 
conditions, sustaining public benefits such as clean air and water, 
wildlife habitat, outdoor recreation, jobs and wood products. The 
collection and reporting of growth, removal, health, and other critical 
forest data in a timely manner is vital for forest industry and others 
in planning their future economic investments based on availability of 
forest raw materials.

    While not specifying suggested budget levels, we want to also call 
your attention to the need for funding for programs which support 
community forestry programs as well as forestry research, which 
provides opportunities to expand forest markets and improve the health 
and quality of urban and rural communities. A combination of 
responsible forest management combined with healthy forest products 
markets will benefit the forest landscape and the communities that live 
in and around them.
    Thank you for your consideration.

            Sincerely,

Alabama Forestry Association
Aldo Leopold Foundation, Inc.
American Forest Foundation
American Forests
American Wood Council
American Woodcock Society
Center for Invasive Species Prevention
Connecticut Forest & Park Association
Conservation Resource Partners, LLC
Empire State Forest Products Association
Environmental Defense Fund
Enviva
Florida Forestry Association
Forest Business Network LLC
Forest Industry National Labor Management Committee
Forest Resources Association
Green Forests Work
Indiana Forestry & Woodland Owners Association
International Paper
Kansas Tree Farm Committee
Kentucky Forest Industries Association
Louisiana Pacific
Michigan Forest Association
Minnesota Forestry Association
Mississippi Forestry Association
National Alliance of Forest Owners
National Association of Forest Service Retirees
National Association of State Foresters
National Lumber & Building Material Dealers Association
Ohio Forestry Association, Inc.
Rayonier
Ruffed Grouse Society
Rural & Agriculture Council of America
Society for Range Management
Society for the Protection of NH Forests
Society of American Foresters
Sonen Capital
Texas Forestry Association
The American Chestnut Foundation
The Hardwood Federation
The Pennsylvania Forestry Association
The Westervelt Company
Treated Wood Council
Trees Forever
Vermont Woodlands Association
Virginia Forestry Association
Washington Farm Forestry Association
Washington Forest Protection Association
Western Wood Preservers Institute
Wisconsin Paper Council
      
                                 <greek-l>
                                 ______
                                 
                    Joint Fire Science Program deg.
   Prepared Statement of Supporters of the Joint Fire Science Program
Dear Chair Murkowski and Ranking Member Udall:

    As researchers, extension unit leaders, and practitioners who work 
with the Federal land management agencies on wildland fire, we urge you 
to maintain and fully fund the Joint Fire Science Program at historical 
levels of $6.914 million annually through the USDA Forest Service's 
Wildland Fire Management and $5.9 million annually through the U.S. 
Department of Interior Wildland Fire Management. Wildland fire is 
occurring over more acres at greater severity than in the past. Fire 
seasons are lengthening, exposing communities to greater risk from 
fire, post-fire floods, and smoke. The need for science is greater than 
ever to support strategic allocation of resources to meet the goals of 
the National Cohesive Strategy--restoring and maintaining fire-adapted 
landscapes, promoting fire-adapted communities, and fostering safe and 
effective response to fire.
    The Joint Fire Science Program model for funding critical research, 
based on management priorities and with requirements for active science 
delivery, makes the program uniquely valuable and the only one of its 
kind. No other program offers researchers the opportunity to address 
fire management challenges in direct response to manager priorities. 
Based on direction from Congress, the program is a partnership of six 
Federal land management agencies that work together to identify and 
address problems associated with managing wildland fuels, fires, and 
fire-impacted ecosystems. Fire and land managers from the USDA Forest 
Service and U.S. Department of Interior together identify issues of 
critical interest, competitively allocate funding to researchers to 
tackle those issues via applied research, and require active delivery 
of science to managers and policymakers, linking science to management.
    With a relatively limited budget, the Joint Fire Science Program 
has improved efficacy and accountability of agency activities by 
funding research to address important topics. Past research has focused 
on such salient issues as understanding smoke impacts to communities, 
overcoming barriers to prescribed fire, identifying how drivers of fire 
costs affect decisionmaking, analyzing fire behavior, and understanding 
fire effects on resources and communities. The program supports 
regional Fire Science Consortia that support science delivery to the 
management and practitioner communities. Research and science delivery 
under this program have proven valuable for both Federal land managers 
and partner organizations working to restore fire-adapted landscapes 
and promote fire-adapted communities.
    We ask Congress to reject the administration's proposal to cancel 
the Joint Fire Science Program and request you maintain the Joint Fire 
Science Program at its past funding levels. Further, it is important 
that the program remain funded from within the Forest Service's 
Wildland Fire budget, rather than from Forest Service Research. 
Embedding the program in an already constrained research budget 
undercuts this successful model of a management-driven research program 
that responds directly to the challenges of wildland fire. We thank 
Congress for its past support of the Joint Fire Science Program and ask 
you to continue to make a priority of this important science-management 
partnership.
    If you have any questions or need additional information, please 
feel free to contact Cassandra Moseley (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2a494745594f464f536a5f45584f4d4544044f4e5f">[email&#160;protected]</a>) or 
Courtney Schultz (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a8ebc7dddadcc6cdd186fbcbc0ddc4dcd2e8cbc7c4c7dbdcc9dccd86cdccdd">[email&#160;protected]</a>).
           membership organization and coalition signatories
Coalition of Prescribed Fire Councils
Forest Stewards Guild
National Association of State Foresters
Rural Voices for Conservation Coalition
Society of American Foresters
               university academic leadership signatories
John P. Hayes, Dean, Warner College of Natural Resources, Colorado 
    State University
Mark Paschke, Research Associate Dean, Warner College of Natural 
    Resources, Colorado State University
Anthony S. Davis, Acting Dean, College of Forestry, Oregon State 
    University
Ken Smith, Assistant Dean of the Environment, Integrated Program in the 
    Environment, The University of the South
J. Keith Gilless, Dean, College of Natural Resources, University of 
    California, Berkeley
Janet E. Nelson, Vice President for Research and Economic Development, 
    University of Idaho
Martin Main, Associate Dean for Extension, Institute of Food and 
    Agricultural Sciences, University of Florida
Thomas H. DeLuca, Dean, W.A. Franke College of Forestry & Conservation, 
    University of Montana
Cassandra Moseley, Senior Associate Vice President for Research and 
    Innovation, University of Oregon
Lisa Graumlich, Dean, College of the Environment, University of 
    Washington
Daniel J. Robison, Dean, Davis College of Agriculture, Natural 
    Resources and Design, West Virginia University
                          signatories by state
Alaska
Dawson Foster, Student and Wildland Firefighter, State of Alaska 
    Division of Forestry, Anchorage
Alison D. York, Researcher, University of Alaska Fairbanks, Fairbanks
Casey Brown, Post-doctoral Researcher, University of Alaska Fairbanks, 
    Fairbanks
Bob Christensen, Chief Executive, SEAWEAD, Gustavus
Aaron Ferguson, Sustainability Catalyst, Spruce Root Community 
    Development, Juneau
Brian Buma, Assistant Professor, University of Alaska, Juneau
Alabama
Nathan Hatch, Consultant Forester, Alabama Prescribed Fire Council, 
    Auburn
David Curry, Retired, Huntsville
Ted DeVos, Forester/Wildlife Biologist, Bach and DeVos Forestry/Alabama 
    Prescribed Fire Council-chair 2018, Montgomery
J. Kevin England, Science Instructor/Botanist, Ardmore High School, 
    Moulton
J. Ryan Mitchell, Outreach and Technical Assistance Coordinator, The 
    Longleaf Alliance, Stockton
Raien Emery, Undergraduate Research Assistant, University of Alabama, 
    Tuscaloosa
Justin Hart, Associate Professor, University of Alabama, Tuscaloosa
Kevin Willson, Graduate Student, University of Alabama, Tuscaloosa
Arkansas
Kyle Lapham, Fire Manager, The Nature Conservancy, Little Rock
Kenneth Wallen, Assistant Professor, University of Arkansas System, 
    Monticello
Tiffany Hackler, Human Resources Manager, Rogers
Arizona
Melanie Colavito, Human Dimensions Specialist, Ecological Restoration 
    Institute, Flagstaff
Andrea Thode, Professor, Northern Arizona University, Flagstaff
Clare Aslan, Assistant Professor, Northern Arizona University, 
    Flagstaff
Scott Goetz, Professor, Northern Arizona University, Flagstaff
Stephanie Mueller, Graduate Student, Northern Arizona University, 
    Flagstaff
Thomas D. Sisk, Olajos-Goslow Chair of Environmental Science and 
    Policy, Northern Arizona University, Flagstaff
Thomas Kolb, Professor, Northern Arizona University, Flagstaff
James Allen, Professor and Executive Director, Northern Arizona 
    University School of Forestry, Flagstaff
Barbara Satink Wolfson, Program Coordinator, Southwest Fire Science 
    Consortium, Flagstaff
Shere A. Fischer, Phoenix
Julia Rowe, Invasive Species Research Specialist, Arizona-Sonora Desert 
    Museum, Tucson
Kathy Voth, Publisher, On Pasture, Tucson
Jeffrey Gicklhorn, Program Coordinator, Pima County, Office of 
    Sustainability and Conservation, Tucson
Christopher Guiterman, Research Associate, University of Arizona, 
    Tucson
Erica A. Newman, Postdoctoral Researcher, University of Arizona, Tucson
Erica Bigio, Research Associate, University of Arizona, Tucson
Thomas W. Swetnam, Regents Professor Emeritus, University of Arizona, 
    Tucson
Jeffrey Rapp, Tucson
California
Gary Lauben, Project Manager, Western Shasta Resource Conservation 
    District, Anderson
Connie Stewart, Executive Director, California Center for Rural Policy, 
    Arcata
Leonard H. Rios, Fire Ecology Graduate Student, Humboldt State 
    Univeristy, Arcata
David Greene, Chair, Forestry Department, Humboldt State University, 
    Arcata
Harold Zald, Assistant Professor, Humboldt State University, Arcata
Jeffrey Kane, Associate Professor, Humboldt State University, Arcata
Yvonne Everett, Professor, Humboldt State University, Arcata
Sasha Berleman, Fire Ecologist, FirePoppy Consulting, Berkeley
Allison Shiozaki, Land Steward and Director, Hooves, Hands, & Hearts 
    Camp, Berkeley
Jacob Farris, Owner, Soil Life Consultant, Berkeley
J. Keith Gilless, Dean, College of Natural Resources, University of 
    California, Berkeley
Carmen Tubbesing, PhD Candidate, University of California, Berkeley
Daniel Foster, Master of Forestry Student, University of California, 
    Berkeley
Dr. Scott Stephens, Professor of Fire Science, University of 
    California, Berkeley
Gabrielle Boisrame, Visiting Researcher, University of California, 
    Berkeley
Jens Stevens, Postdoctoral Scholar, University of California, Berkeley
Jodi N Axelson, Cooperative Extension Specialist, University of 
    California, Berkeley
Rich Dean, Deputy Fire Marshal, University of California, Berkeley
Stacey Frederick, California Fire Science Consortium Coordinator, 
    University of California, Berkeley
Jean-Louis Carmona, Director, Van Duzen Watershed Fire Safe Council, 
    Bridgeville
Jennifer E. Fawcett, Extension Associate, North Carolina State 
    University, Campbell
Joe Rawitzer, Project Coordinator, Central Coast RX Fire Council, 
    Carmel Valley
Jose Luis Duce Aragues, Fire Training Specialist, Spatial Informatics 
    Group California, Cogolludo Spain
Andrew Latimer, Associate Professor, Department of Plant Sciences, 
    University of California, Davis
Chhaya Werner, PhD Candidate, University of California, Davis
Alexandra Weill, Graduate Student Researcher, University of California, 
    Davis
Allison Simler, PhD Candidate, University of California, Davis
Brian V. Smithers, Postdoctoral Researcher, University of California, 
    Davis
Carrie Levine, Postdoctoral Fellow, University of California, Davis
Clark Richter, PhD Candidate, University of California, Davis
Emily Brodie, Graduate Student, University of California, Davis
Jan Ng, PhD Candidate in Ecology, University of California, Davis
Jesse Miller, Postdoctoral Researcher, University of California, Davis
Jonah Weeks, Graduate Student, University of California, Davis
Kevin Welch, Research Scientist, University of California, Davis
Martha Wohlfeil, PhD Student, University of California, Davis
Rebecca Wayman, Associate Specialist, University of California, Davis
Sara Winsemius, Graduate Student, University of California, Davis
Zack Steel, Student, University of California, Davis
Tracy Katelman, Registered Professional Forester, ForEverGreen 
    Forestry, Eureka
Cybelle Immitt, Senior Planner--FSC Coordinator, Humboldt County Fire 
    Safe Council, Eureka
Julia Cavalli, Administrative Analyst, Humboldt County Fire Safe 
    Council, Eureka
Debra Harris, Burn Program Coordinator, North Coast Unified AQMD, 
    Eureka
Andrew Slack, Forest Fellow, Save the Redwoods League, Eureka
Yana Valachovic, Forest Advisor, University of California, Eureka
Jeffery Stackhouse, Livestock & Natural Resources Advisor, University 
    of California Cooperative Extension, Eureka
Lenya Quinn-Davidson, Area Fire Advisor, University of California 
    Cooperative Extension, Eureka
Steve Williams, American citizen, Folsom
Peter Brucker, Retired Program Coordinator, Salmon River Restoration 
    Council, Forks of Salmon
Lon Winburn, Fire Chief, Fortuna Fire Protection District, Fortuna
Susan Britting, Executive Director, Sierra Forest Legacy, Garden Valley
Karen Schambach, President, Center for Sierra Nevada Conservation, 
    Georgetown
Danny Manning, Assistant Fire Chief GIR, Greenville Rancheria, 
    Greenville
Katherine Van Pelt, Grants & Agreements Specialist, Watershed Research 
    & Training Center, Hayfork
Nick Goulette, Executive Director, Watershed Research & Training 
    Center, Hayfork
Ian Sigman, Chairman, Humboldt County Fire Safe Council, Honeydew
Stephen Underwood, Hydesville
Danny Fry, Wildland Fire Management Coordinator, Natural Communities 
    Coalition, Irvine
Jake Schweitzer, Senior Ecologist, Vollmar Natural Lands Consulting, 
    Kensington
Will Emerson, Assistant Chief, Bell Springs Fire Department, 
    Laytonville
Gary B. Fildes, Retired, US Forest Service, Loma Rica
Christopher Giesige, Fire Researcher, Westcats, Los Angeles
Joe Snipes, Business owner, Forestscapes LLC, Humbots Data & Analysis, 
    McKinleyville
Liisa Schmoele, Citizen, McKinleyville
Stephen C. Hart, Professor of Ecology, University of California, Merced
Nicholas C. Dove, PhD candidate, University of California, Merced
Jeanne H. Tomascheski, Registered Professional Forester, Independent 
    Contractor, Millville
Vince Cicero, Senior Environmental Scientist, California State Parks, 
    Morro Bay
Michael Lake, Fire Chief, Fruitland Ridge Fire, Myers Flat
Judson Fisher, Student, Sierra College, Nevada City
Chris Friedel, Executive Director, Yuba Watershed Institute, Nevada 
    City
Dee McDonough, DFSC Board Member, Diablo FireSafe Council, Oakland
Dinah Fischbach-Benson, Secretary, Oakland Firesafe Council, Oakland
Robert Sieben, Board member Oakland Firesafe Council, OFSC, 
    International Association of Fire Chiefs, Oakland
Marc Meyer, Concerned Citizen, Orange
Kimberly Baker, Executive Director, Klamath Forest Alliance, Orleans
Nancy Bailey, Fire and Fuels Co-Director, Mid Klamath Watershed 
    Council, Orleans
Ellie Cohen, President and CEO, Point Blue Conservation Science, 
    Petaluma
Erica N. Stavros, Self, Poway
Gabe Miller, Stewardship Director, Feather River Land Trust, Quincy
Hannah Hepner, Coordinator, Fire Safe Council, Quincy
Jack Bramhall, Registered Professional Forester, Retired, Red Bluff
Ricky Satomi, Forest Advisor, University of California, Redding
William Eastwood, President, Southern Humboldt Fire Safe Council, 
    Redway
Sequoia Kantara, Apprentice Forester, Redway
Owen Warner, Consultant, Berkeley Research Group, Richmond
Marko J. Spasojevic, Assistant Professor, University of California, 
    Riverside
Karen Converse, Environmental Scientist, California Department of Fish 
    and Wildlife, Sacramento
David Sapsis, Wildland Fire Scientist, California Department of 
    Forestry and Fire Protection, Sacramento
Greg Suba, Conservation Program Director, California Native Plant 
    Society, Sacramento
Louis Heinrich, Gen. Partner Heinrich Family Limited Partnership, 
    Heinrich Property Mgmt., Sacramento
Jamie M Lydersen, Associate Specialist, University of California, 
    Berkeley, Sacramento
John Fisher, Battalion Chief, San Diego Fire-Rescue, San Diego
Scott Rothberg, Environmental Planner/Geospatial Information Database 
    Administrator, San Elijo Lagoon Conservancy, San Diego
Laura Lalemand, Forest Fellow, Save the Redwoods League, San Francisco
Paul Beisner, Burn Crew Lead, The Nature Conservancy, San Francisco
Phillip Dye, Owner, Prometheus Fire Consulting, San Jose
Gary Evan Sanchez, Board President, Santa Clara FireSafe Council, San 
    Jose
Joe Christy, President, Fire Safe Santa Cruz County & Bonny Doon Fire 
    Safe Council, Santa Cruz
James Gore, County Supervisor, County of Sonoma, Santa Rosa
Jeff Schreiber, Program Development Manager, Sonoma Resource 
    Conservation District, Santa Rosa
Jennifer Potts, Resource Ecologist, Audubon Canyon Ranch, Sonoma
Patrick Koepele, Executive Director, Tuolumne River Trust, Sonora
Christina Restaino, Forest Health Program Manager, Tahoe Regional 
    Planning Agency, South Lake Tahoe
Susie Kocher, Forestry Advisor, University of California Cooperative 
    Extension, South Lake Tahoe
Joseph Restaino, Research Scientist, University of Washington, South 
    Lake Tahoe
Rosemary Chang, Counsel Member, Sunol Fire Safe Coalition, Sunol
Kyle Rodgers, Social Science Research Associate, Sierra Institute for 
    Community and Environment, Taylorsville
Charles Ashley, Independent, Tollhouse
Steven Frisch, President, Sierra Business Council, Truckee
Mary Mayeda, Forest Program Manager, Mendocino County RCD, Ukiah
Cathy M. Koos Breazeal, Executive Director (retired), Amador Fire Safe 
    Council, Volcano
David Jaramillo, Registered Professional Forester, Watershed Research & 
    Training Center, Weaverville
Colorado
Rodrigo Moraga, Chair -Colorado Prescribed Fire Council, Anchor Point 
    Group, Boulder
Elise Jones, County Commissioner, Boulder County, Boulder
Seth McKinney, Fire Management Officer, Boulder County Sheriff's 
    Office, Boulder
John Wold, Natural Resource Specialist, City of Boulder, Boulder
Chris Wanner, Forest Ecologist, City of Boulder Open Space and Mountain 
    Parks, Boulder
Lynn Riedel, Plant Ecologist, City of Boulder Open Space and Mtn Parks, 
    Boulder
Arika Virapongse, Research Scholar, Ronin Institute & Middle Path 
    EcoSolutions, Boulder
Jean Patton, Communications Lead, The Nature Conservancy/LANDFIRE, 
    Boulder
Emily Troisi, Program Associate, The Watershed Research & Training 
    Center, Boulder
David A. Sacher, Audio Engineer, University of Colorado, Boulder
Jonathan Salerno, Postdoc, University of Colorado, Boulder
Zachary Wurtzebach, Postdoctoral scholar, Colorado State University, 
    Carbondale
Sloan Shoemaker, Executive Director, Wilderness Workshop, Carbondale
Casey Cooley, Forest Habitat Coordinator, Colorado Parks and Wildlife, 
    Colorado Springs
Mike Bablert, Retired, The Nature Conservancy, Crested Butte
Garrett Stephens, Forester, Jefferson Conservation District, Denver
Gregory H. Aplet, Senior Science Director, The Wilderness Society, 
    Denver
Matthew D. Spinner, Open Space Supervisor, Town of Erie, Denver
Mitch Hart, Concerned citizen, Denver
Devyn Arbogast, Youth and Education Programs Manager, Friends of the 
    Dillon Ranger District, Dillon
Brad Pietruszka, US citizen and taxpayer, Dolores
Chris Metz, Weed management Technician/equipment operator, Larimer 
    County, Fort Collins
Daniel Godwin, Wildland Fire Analyst, Center for Environmental 
    Management of Military Lands, Fort Collins
John P. Hayes, Dean, Warner College of Natural Resources, Colorado 
    State University, Fort Collins
Mark Paschke, Research Associate Dean, Warner College of Natural 
    Resources, Colorado State University, Fort Collins
Antony Cheng, Professor, Colorado State University, Fort Collins
Camille S. Stevens-Rumann, Assistant Professor, Colorado State 
    University, Fort Collins
Carrie Frickman, MS Student Conservation Leadership, Colorado State 
    University, Fort Collins
Courtney Schultz, Associate Professor, Colorado State University, Fort 
    Collins
Erica Fleishman, Department of Fish, Wildlife and Conservation Biology, 
    Colorado State University, Fort Collins
Kat Morici, Research Associate, Colorado State University, Fort Collins
Katherine Mattor, Research Scientist, Colorado State University, Fort 
    Collins
Katie Lyon, Research Assistant, Colorado State University, Fort Collins
Linda Nagel, Professor and Department Head, Colorado State University, 
    Fort Collins
Megan Matonis, Colorado State University, Fort Collins
Miranda Redmond, Assistant Professor, Colorado State University, Fort 
    Collins
Monique E. Rocca, Associate Professor, Colorado State University, Fort 
    Collins
Philip N. Omi, Professor Emeritus, Colorado State University, Fort 
    Collins
Sonya Le Febre, Assistant Professor, Colorado State University, Fort 
    Collins
Tomas Pickering, PhD candidate, Colorado State University, Fort Collins
Wade Tinkham, Assistant Professor, Colorado State University, Fort 
    Collins
Merrill R. Kaufmann, Emeritus Fire and Forest Ecology Senior Scientist, 
    Rocky Mountain Research Station, U.S. Forest Service, Fort Collins
Peter M. Brown, Director, Rocky Mountain Tree-Ring Research, Fort 
    Collins
Laren A. Cyphers, Program Associate, Rural Voices for Conservation 
    Coalition, Fort Collins
Gloria J. Edwards, Program Coordinator, Southern Rockies Fire Science 
    Network, Fort Collins
Daniel, Squad Captain, State Agency, Fort Collins
Chad Hoffman, Associate professor of fire science, Colorado State 
    University, Ft. Collins
Denise Wilson, Botanist, Chicago Botanic Garden, Golden
Hillary King, Research and Grants Coordinator, Jefferson County Open 
    Space, Golden
Carissa Callison, Graduate Student, Western State Colorado University, 
    Gunnison
Jonathan Coop, Assistant Professor, Western State Colorado University, 
    Gunnison
Patrick Magee, Assistant Professor of Wildlife and Conservation 
    Biology, Western State Colorado University, Gunnison
Steve Orr, Wildfire Mitigation Coordinator, West Metro Fire Rescue, 
    Lakewood
Seth Ex, Assistant Professor, Colorado State University, Laporte
David Hirt, Natural Resource Specialist, Boulder County Parks & Open 
    Space, Longmont
Jennifer Muha, Geospatial Sciences Department Lead, Front Range 
    Community College, Longmont
Annie Oxarart, Administrative Director, Association for Fire Ecology, 
    Louisville
Amy Seglund, Biologist, Colorado Parks and Wildlife, Montrose
Brad Setter, Open Space, Trails, and Rodeo Supervisor, City of 
    Steamboat Springs, Steamboat Springs
Hilary Cooper, County Commissioner, San Miguel County, Telluride
Connecticut
Helen Poulos, Professor, Wesleyan University, Middletown
Emily Dolhansky, Graduate Teaching Fellow, Yale School of Forestry, New 
    Haven
Florida
Steven Brinkley, Wildlife Biologist and Land Manager, Florida Fish & 
    Wildlife Conservation Commission, Brooksville
Anne Blanchard, Wildlife Biologist, State of Florida, Brooksville
Patricia A. Cooke, Retired Master Gardener, Brooksville
Beth Christopher, Forester, Florida Forest Service, Carrabelle
Rosi Mulholland, Land Management Specialist, Burn Boss, St. Johns River 
    Water Management District, Clermont
Sofia Thordin, Urban Planner, Fort Lauderdale
Scott Crosby, Forester, Crosby Forestry & GIS Services, LLC, 
    Gainesville
Johanna Freeman, Biological Scientist, Florida Fish & Wildlife 
    Conservation Commission, Gainesville
Martin Main, Associate Dean for Extension, Institute of Food and 
    Agricultural Sciences, University of Florida, Gainesville
Alan J. Long, Professor Emeritus, University of Florida, Gainesville
Alexis Boenker, Graduate Student, University of Florida, Gainesville
Anonymous, University of Florida, Gainesville
Chris Demers, Extension Program Manager, University of Florida, 
    Gainesville
Eden Schoepflin, Student, University of Florida, Gainesville
Krissy Olson, Environmental Consultant, University of Florida, 
    Gainesville
Michael Andreu, Associate Professor, University of Florida, Gainesville
Raelene Crandall, Assistant Professor, University of Florida, 
    Gainesville
Kelly McPherson, Natural Resource Consultant, Workman Forestry, 
    Gainesville
Bryce Catarelli, Nurse Practitioner, Gainesville
Justin Littlejohn, Research Student, Gainesville
Ryan Kennelly, Ecosystem Restoration Team Lead, Gainesville
Stephen Wasp, Firefighter, Gainesville
Jeremiah Hatcher, Assistant Team Lead, Wildland Restoration 
    International, Gulf Breeze
Joseph Bell, Wildland Firefighter, Jacksonville
Scotland Talley, Conservation Biologist, Florida Fish & Wildlife 
    Conservation Commission, Lake City
Vincent Fioramanti, Wildlife Technician, Florida Fish & Wildlife 
    Conservation Commission, Lake Placid
Erik Moretuzzo, Agricultural Conservation Technician, Hillsborough Soil 
    and Water District, Lithia
Jonathan Baker, Land Management Specialist, Brevard County, Melbourne
Ronald Chicone, Land Management Technician, Brevard County 
    Environmentally Endangered Lands, Melbourne
Samantha Anderson, Biologist, University of Florida, Melbourne
Alice Matthews, Educator, Merritt Island
Ad Platt, Vice President for Operations, The Longleaf Alliance, Milton
Danielle Deming, Ecosystem Support Team member, The Longleaf Alliance, 
    Milton
Vernon Compton, Project Director, The Longleaf Alliance, Milton
Jean McCollom, Biologist, Natural Ecosystems LLC, Naples
Michael Duever, Ecologist, Natural Ecosystems LLC, Naples
Sabrina Philipp, University of Florida, Naples
Christina Powell, Parks Manager, Charlotte County, North Port
Deborah Blanco, Environmental Specialist, Sarasota County Government, 
    North Port
Laurie Dolan, Environmental Specialist II, Florida Dept. of 
    Environmental Protection, Ocala
Ken Weyrauch, Senior Planner, Ocala
Kristina Baker, Consultant, Orange Park
Christopher Kinslow, Land Management Specialist, St. Johns River Water 
    Management District, Palatka
Lucas Furman, GIS Support Specialist, Natural Resources Professional, 
    Pensacola
Donna Vassallo, Wildland Fire Ecologist, The Longleaf Alliance, 
    Pensacola
Paul Langford, Private Forest Landowner, Pensacola
Jack Smith, Forest Area Supervisor, Florida Forest Service, Perry
John Diaz, Assistant Professor, University of Florida, Plant City
Mike Olson, Firefighter, Port Orange
Catherine Ricketts, Wildlife biologist, Florida Fish & Wildlife 
    Conservation Commission, Port Saint Joe
Elysia Dytrych, Biologist II, Florida Fish and Wildlife Conservation 
    Commission, Sebring
Matthew Goode, Biological Scientist, Florida Fish & Wildlife 
    Conservation Commission, Sebring
Nathan Bunting, Wildlife Biologist, Florida Fish & Wildlife 
    Conservation Commission, Sneads
Paul Strauss, Volunteer Nature Interpreter and Wildland Firefighter, 
    Stuart
Thomas Christopher, Senior Forester, Florida Forest Service, 
    Tallahassee
Nicole Zampieri, Field Biologist, Florida Natural Areas Inventory, 
    Tallahassee
William Butler, Associate Professor, Florida State University, 
    Tallahassee
John Kevin Hiers, Wildland Fire Scientist, Tall Timbers Research 
    Station, Tallahassee
Kevin Robertson, Fire Ecology Program Director, Tall Timbers Research 
    Station, Tallahassee
Scott Pokswinski, Wildland Fire Science Lab Manager, Tall Timbers 
    Research Station, Tallahassee
David R. Godwin, Coordinator, University of Florida, Tallahassee
Jerrie Lindsey, Citizen, Tallahassee
Margaret Kargel, Private Citizen, Tallahassee
Sarah Godwin, Voter, Tallahassee
Ryan Proly, Recruiter, Tampa
Eric S. Menges, Program Director, Plant Ecology Program, Archbold 
    Biological Station, Venus
Bradley T Weller, Owner, Kings Birds Zoological, Webster
Kraig Krum, Environmental Program Supervisor, Palm Beach County, 
    Environmental Resources Management, West Palm Beach
Matthew Hortman, Biological Scientist III, Florida Fish & Wildlife 
    Conservation Commission, Wewahitchka
Philip Manor, District Wildlife Biologist, Florida Fish & Wildlife 
    Conservation Commission, Wewahitchka
Brian Christ, Wildlife Technician, Florida Fish & Wildlife Conservation 
    Commission
Georgia
Stephen Logan, Forest Consultant, F&W Forestry, Albany
Dave Coyle, Regional Forest Health Director, Southern Regional 
    Extension Forestry, Athens
Holly Campbell, Extension Association, Southern Regional Extension 
    Forestry, Athens
Leslie Boby, Extension Associate, Southern Regional Extension Forestry, 
    Athens
Jesse B. Sands, ACN, Atlanta
Mehmet Talat Odman, Principal Research Engineer, Georgia Institute of 
    Technology, Atlanta
Tiffany Woods, Program Manager, Southeast Forestry, National Wildlife 
    Federation, Atlanta
Brandon Sanford, Research Assistant and Environmental Engineer 
    Undergraduate, Atlanta
Erick Brown, Fire Manager, Atlanta
Megan Blizzard, LEED Certification Reviewer, Atlanta
Joe Butler, Manager/Owner, Forest Lodge Farms, LLC, Camilla
Andrew Edelman, Associate Professor, University of West Georgia, 
    Carrollton
Matthew P. Snider, Burn Boss, The Nature Conservancy, Columbus
Mike Worley, Chair Elect, Georgia Prescribed Fire Council, Covington
Mike Worley, President & CEO, Georgia Wildlife Federation, Covington
Theron Menken, Wildlife Biologist, Georgia Department of Natural 
    Resources, Fort Valley
Peter Whiteside, Insurance Professional, Hinesville
Emily Rushton, Wildlife Biologist, Georgia Department of Natural 
    Resources, McDonough
Mark A. Melvin, Chair, Coalition of Prescribed Fire Councils, Inc, 
    Newton
Seth W. Bigelow, Assistant Scientist, Jones Center at Ichauway, Newton
LuAnn Craighton, Environmental Educator, ValleyView Farms, Pine 
    Mountain Valley
Randy Tate, Fort Stewart/Altamaha Longleaf Partnership Coordinator, The 
    Longleaf Alliance, Savannah
Wayne Bell, Retired COO, International Forest Company, Valdosta
Reese J. Thompson, Longleaf Tree Farmer, Vidalia
Hawaii
Gantry Andrade, Assistant Fire Chief, Hawaii Fire Department, Hilo
Clay Trauernicht, Assistant Specialist in Wildland Fire Science and 
    Management, University of Hawaii, Manoa, Honolulu
Creighton M. Litton, Professor, University of Hawaii, Manoa, Honolulu
Pablo Akira Beimler, Community Outreach Coordinator, Hawaii Wildfire 
    Management Organization, Kamuela
Lance W. Holter, Council Member, US Forestry Research Advisory Council, 
    Paia
Idaho
Jonathan Oppenheimer, Government Relations Director, Idaho Conservation 
    League, Boise
April Hulet, Rangeland Extension Specialist, University of Idaho, Boise
Chris Bowman-Prideaux, PhD Candidate, University of Idaho, Boise
Corey L. Gucker, Project Coordinator, University of Nevada, Reno, Boise
John H. Cissel, Retired Fire Scientist and Manager, Boise
Thomas Laird, Wildlife Monitoring Technician, Oregon Department of Fish 
    and Wildlife, Caldwell
Gordon L. Sanders, Idaho Master Forest Steward, Idaho Forest Owners 
    Association, Idaho Lands Resource Coordinating Counsel, Coeur 
    d'Alene
Mark Masters, CEO, Chloeta Fire, Idaho Falls
Charles Goebel, Department Head and Professor, Department of Forest, 
    Rangeland & Fire Sciences, College of Natural Resources, University 
    of Idaho, Moscow
Dennis Becker, Director, Policy Analysis Group, University of Idaho, 
    Moscow
Aaron Murdock, Student, University of Idaho, Moscow
Adam Young, PhD Candidate, University of Idaho, Moscow
Carrie Minerich, Graduate Research Assistant, University of Idaho, 
    Moscow
Darcy Hammond, Research Assistant, University of Idaho, Moscow
Eva Strand, Associate Professor, University of Idaho, Moscow
Janet E. Nelson, Vice President for Research and Economic Development, 
    University of Idaho, Moscow
Josh Hyde, Fire Research Scientist, University of Idaho, Moscow
Katherine Wollstein, Doctoral Research Assistant, University of Idaho, 
    Moscow
Leda Kobziar, Associate Professor, University of Idaho, Moscow
Luigi Boschetti, Associate Professor, University of Idaho, Moscow
Penny Morgan, Professor, University of Idaho, Moscow
Illinois
Edward Warden, Naturalist, Chicago
Nicole Cavender, Vice President of Science and Conservation, The Morton 
    Arboretum, Lisle
Linda Premo, R.T., Saint Charles
Jacob Gawlik, Reverend, Evangelical Lutheran Church in America, 
    Sterling
Paul Brewer, Illinois Certified Prescribed Burn Manager, Illinois 
    Prescribed Fire Council, Toledo
Daniel A. Tortorelli, George B. Grimm Professor, Emeritus, University 
    of Illinois at Urbana-Champaign, Urbana
Indiana
Michael R. Saunders, Associate Professor, Purdue University, West 
    Lafayette
Kansas
Kyle Schumacher, Graduate Research Assistant, Fort Hays State 
    University, Hays
Tyler Warner, Rancher, Holton
Jeremy Robert Cox, Fire Fighter Type 2, GH Ranch, Hutchinson
John Blair, University Distinguished Professor, Kansas State 
    University, Manhattan
Rory O'Connor, PhD candidate, Kansas State University, Manhattan
Vickie Cikanek, Private Lands Biologist, Kansas Department of Wildlife, 
    Parks, & Tourism, Topeka
Kentucky
Chris Minor, President, Kentucky Prescribed Fire Council, Greenville
Louisiana
William J. Platt, Professor of Biology, Louisiana State University, 
    Baton Rouge
Nathan Yeldell, Biologist, LA Dept. of Wildlife and Fisheries, Hammond
Ann W. Stuart, Citizen, Lafayette
Julia E. Earl, Assistant Professor, Louisiana Tech University, Ruston
Massachusetts
Cristina Eisenberg, Chief Scientist, Earthwatch Institute, Boston
Bob Bale, President, Wildland Restoration International, Duxbury
Danelle Laflowerm, Research Assistant, Harvard University/Harvard 
    Forest, Petersham
Jonathan R. Thompson, Senior Ecologist, Harvard University/Harvard 
    Forest, Petersham
Matthew Duveneck, Research Associate, Harvard University/Harvard 
    Forest, Petersham
Maryland
Robert R. Schwartz, Forester, Maryland Forest Service, Hagerstown
Sylvia S. Tognetti, Adjunct Professor and Independent Consultant, 
    University of the District of Columbia Community College, Silver 
    Spring
Maine
Robert Hyson, Owner, Medomak Construction Inc., Bremen
Susan Conard, Editor in Chief, International Journal of Wildland Fire, 
    Northport
Michigan
Nancy H.F. French, Senior Scientist, Michigan Tech University Research 
    Institute, Ann Arbor
Matthew Hamilton, Postdoctoral Research Fellow, University of Michigan, 
    Ann Arbor
Alexandra Paige Fischer, Assistant Professor, University of Michigan, 
    School for Environment and Sustainability, Ann Arbor
Madelyn Tucker, PhD candidate, Wayne State University, Detroit
Chase Brooke, Graduate Student, Michigan State University, East Lansing
Jessica R. Miesel, Assistant Professor, Michigan State University, East 
    Lansing
Kathleen Quigley, Postdoctoral Research Associate, Michigan State 
    University, East Lansing
Noah Jansen, Conservationist, Little Traverse Bay Bands of Odawa 
    Indians, Harbor Springs
Gordon Vander Yacht, Equipment Manager, Hope College, Holland
Kathleen E. Halvorsen, Professor of Natural Resource Policy, Michigan 
    Technological University, Houghton
Rankin Smith, Field Technician, Michigan DNR, Ishpeming
Michele Richards, Wildland Fire Manager, Michigan Army National Guard, 
    Kalamazoo
Brenda Tiefenthal, Tax Payer, Kalamazoo
Andrew Vander Yacht, PhD, Research Specialist, Michigan State 
    University, Lansing
Erica Pfleiderer, Wildland Firefighter, Marquette
Darwin Micheal Schultz, Consultant/Fire Ecologist/Student, Oscoda
Christina DeGrush, Rise Kalamazoo, Plainwell
Kim Steinmann, Constituent, MI06, Portage
Minnesota
Craig R. Sterle, President--MN Division Izaak Walton League of America, 
    Barnum
Katie Zlonis, Plant Resource Director, Leech Lake Band of Ojibwe, Cass 
    Lake
Melissa Mokry, PhD Candidate, Colorado State University, Duluth
Todd Armbruster, Firewise Coordinator, Cook and Lake County, Duluth
Lane Johnson, Research Forester, University of Minnesota, Cloquet 
    Forestry Center, Duluth
Matthew Tyler, Forester, Grand Portage, Grand Portage
Tim Miller, Reservation Forester, Grand Portage Tribal Forestry, Grand 
    Portage
Tony Lenoch, Area Resource Specialist, Minnesota Dept. of Natural 
    Resources, Grand Rapids
Lori Knosalla, Graduate Student Researcher, University of Minnesota, 
    Minneapolis
Nancy Braker, Arboretum Director, Carleton College, Northfield
Matthew Lasch, Minnesota Contracting Manager, Applied Ecological 
    Services, Prior Lake
Eli Sagor, Associate Extension Professor, University of Minnesota, 
    Roseville
Ferin Davis, Environmental Technician, Shakopee Mdewakanton Sioux 
    Community Land Department, Shakopee
Annie Hawkinson, Graduate Research Assistant, University of Minnesota, 
    St. Paul
Rebecca Montgomery, Associate Professor, University of Minnesota, St. 
    Paul
Missouri
Elizabeth Middleton, Grassland Botanist, Missouri Department of 
    Conservation, Clinton
Clif Baumer, Member, East Central Prescribed Burn Association, Columbia
Connor Crouch, Graduate Research Assistant, School of Natural 
    Resources, University of Missouri, Columbia
Benjamin Knapp, Assistant Professor, University of Missouri, Columbia
Joseph Marschall, Senior Research Specialist, University of Missouri, 
    Columbia
Mary Wachuta, Graduate Research Assistant, University of Missouri, 
    Columbia
Michael Stambaugh, Research Associate Professor, University of 
    Missouri, Columbia
Gary Llewellyn, Rancher Retired, SRM, Excelsior Springs
Thomas Fielden, Chairman, Missouri Prescribed Fire Council, Van Buren
Calvin Maginel, Fire Ecologist, Missouri Department of Conservation, 
    West Plains
Mississippi
Marcus Lashley, Assistant Professor, Mississippi State University, 
    Mississippi
Montana
David McWethy, Assistant Professor, Montana State University, Bozeman
Todd Erdody, Concerned Citizen, Bozeman
Jon Warwick, Kalispell
Jeffrey Lombardo, Forester, Heirloom Woodlands LLC/Watershed Consulting 
    LLC, Missoula
Megan Keville, Coordinator, Northern Rockies Fire Science Network, 
    Missoula
Julie Gilbertson-Day, Senior Spatial Wildfire Analyst, Pyrologix, LLC, 
    Missoula
Thomas H. DeLuca, Dean, W.A. Franke College of Forestry & Conservation, 
    University of Montana, Missoula
Alan Tepley, Postdoctoral Fellow, University of Montana, Missoula
Andrew Larson, Associate Professor, University of Montana, Missoula
Christopher R. Keyes, Research Professor of Forestry, University of 
    Montana, Missoula
Eric Rowell, Wildland Fire Scientist, University of Montana, Missoula
Libby Metcalf, Associate Professor, University of Montana, Missoula
Philip Higuera, Associate Professor of Fire Ecology, University of 
    Montana, Missoula
Solomon Dobrowski, Associate Professor, University of Montana, Missoula
Mark Vander Meer, Forest Ecologist/Soil Scientist, Watershed Consulting 
    LLC, Missoula
Hannah Johlman, Fire Science Communicator, GPFSE, Wyola
North Carolina
Josh Kelly, Biologist, Mountain True, Asheville
Lauren Reker, Non-native Invasive Species Project Coordinator, Mountain 
    True, Asheville
Adam Warwick, Stewardship Manager, The Nature Conservancy, Asheville
Mamie Colburn, Stewardship Assistant, The Nature Conservancy, Asheville
Jenna Danckwrt, Concerned Citizen, Asheville
Nic Danckwart, Forestry Technician, Asheville
Richard L. Broadwell, President, Fork Ridge Environmental Consulting, 
    Bakersville
Alex Finkral, Chief Forester, The Forestland Group, Chapel Hill
Christa Rogers, Natural Resources Manager, Mecklenburg County NC, 
    Charlotte
Aixi Zhou, Associate Professor, University of North Carolina at 
    Charlotte, Charlotte
Dan Feola, NC Forest Service Ranger, North Carolina State University, 
    Columbia
Chet Buell, Technology Support Analyst, North Carolina State 
    University, Durham
Renee Strnad, Environmental Educator, North Carolina State University, 
    Durham
Margit Bucher, Fire Manager, The Nature Conservancy, Durham
Meyer Speary, Fire Environment Forester, North Carolina Forest Service, 
    Edenton
Edgar L. Peck III, Elk Park
Matthew Harrell, Practitioner, NC Prescribed Fire Council, Indian Trail
Colby Lambert, Area Specialized Agent -Forestry, NC Cooperative 
    Extension, Lillington
Thomas G. Crews, Jr., Retired Fire Management Officer, US Fish and 
    Wildlife Service, Manteo
Ryan Jacobs, Wildlife Forest Manager, North Carolina Wildlife Resources 
    Commission, Marion
Ryan Sparks, Conservation Associate, Foothills Conservancy of NC, 
    Morganton
Branda Nowell, Professor, North Carolina State University, Raleigh
Charles Sanders, Wildlife Biologist, North Carolina State University, 
    Raleigh
Fernando Garcia Menendez, Assistant Professor, North Carolina State 
    University, Raleigh
Jennifer Costanza, Research Assistant Professor, North Carolina State 
    University, Raleigh
Joseph P. Roise, Forester, North Carolina State University, Raleigh
Mara Omega, Professor, North Carolina State University, Raleigh
Myron Floyd, Professor, North Carolina State University, Raleigh
Robert Scheller, Professor, North Carolina State University, Raleigh
Ronald Sederoff, Professor Emeritus, North Carolina State University, 
    Raleigh
Ross Whetten, Professor of Forestry & Environmental Resources, North 
    Carolina State University, Raleigh
Stephanie Jeffries, Director, Environmental First Year Program, North 
    Carolina State University, Raleigh
Steven McKeand, Professor, North Carolina State University, Raleigh
Toddi Steelman, Professor, North Carolina State University, Raleigh
Laurel Kays, Project Manager, Southwestern NC RC&D Council, Waynesville
Ryan Bollinger, Local Implementation Team Consul, The Longleaf 
    Alliance, Whispering Pines
Kate Williams, Prescribed Fire Technician, The Nature Conservancy, 
    Wilmington
North Dakota
Betsey York, Research Associate, North Dakota State University, Fargo
Devan Allen McGranahan, Assistant Professor of Range Science, North 
    Dakota State University, Fargo
Jonathan Spiess, Graduate Student, North Dakota State University, Fargo
Micayla Lakey, Graduate Research Assistant, North Dakota State 
    University, Fargo
Nebraska
Jeanine Lackey, Director of Research and Stewardship, Fontenelle 
    Forest, Bellevue
Michelle Foss, Restoration Biologist, Fontenelle Forest, Bellevue
Noah Sundberg, Fontenelle Forest, Bellevue
Tim Dickson, Faculty, University of Nebraska, Omaha, Omaha
Jennifer Hopwood, Senior Pollinator Conservation Specialist, Xerces 
    Society for Invertebrate Conservation, Omaha
New Jersey
John Cecil, Vice President for Stewardship, New Jersey Audubon, Port 
    Murray
New Mexico
Matthew Hurteau, Associate Professor, University of New Mexico, 
    Albuquerque
Scott L Collins, Distinguished Professor, University of New Mexico, 
    Albuquerque
Emily Hohman, Executive Director, Chama Peak Land Alliance, Chama
Jeremy Gingerich, Assistant General Manager, Vermejo Park LLC, Raton
John Lissoway, Member, Forest Stewards Guild, Santa Fe
Sam Berry, Project Coordinator, Forest Stewards Guild, Santa Fe
Zander Evans, Executive Director, Forest Stewards Guild, Santa Fe
Mark Meyers, Forester, New Mexico State Land Office, Santa Fe
Tim L. Kirkpatrick, President, East Mountain Interagency Fire 
    Protection Association (EMIFPA), Tijeras
Nevada
Tim Brown, Research Professor, Desert Research Institute, Reno
Julie Hunter, Chair, Nevada Prescribed Fire Alliance, Reno
Alexandra Urza, Graduate Research Assistant, University of Nevada, 
    Reno, Reno
Eugenie MontBlanc, Project Manager, University of Nevada, Reno, Reno
Peter Weisberg, Professor, University of Nevada, Reno, Reno
Thomas Dilts, Research Scientist, University of Nevada, Reno, Reno
Carol L. Rice, Senior Wildland Fire Manager, Wildland Resource 
    Management, Inc., Reno
April Smith, Stay at Home Mother, Reno
New York
Kurt Gielow, Student, Homer
Sarah A. Moss, Accounting Staff Specialist, Saint Christopher's Inn, 
    Inc., Poughkeepsie
David Newman, Professor, SUNY College of Environmental Science and 
    Forestry, Syracuse
Robert W. Malmsheimer, Interim Chair and Professor of Forest Policy and 
    Law, SUNY College of Environmental Science and Forestry, Syracuse
Ben Zimmerman, Branch Manager, Managing Ecologist, Applied Ecological 
    Services, Waterloo
Ohio
Alia Dietsch, Assistant Professor, The Ohio State University, Columbus
Claire Rapp, Graduate Researcher, The Ohio State University, Columbus
Elizabeth Myers Toman, Visiting Assistant Professor, The Ohio State 
    University, Columbus
Eric Toman, Associate Professor, The Ohio State University, Columbus
G. Matt Davies, Assistant Professor, The Ohio State University, 
    Columbus
Rachel Gabor, Assistant Professor, The Ohio State University, Columbus
Robyn Wilson, Associate Professor of Risk Analysis and Decision 
    Science, The Ohio State University, Columbus
Roger A. Williams, Associate Professor, The Ohio State University, 
    Columbus
Virginia Rich, Assistant Professor, The Ohio State University, Columbus
Oklahoma
Jack Waymire, Senior Biologist, Oklahoma Department of Wildlife 
    Conservation, Clayton
Evan Tanner, Postdoctoral Fellow, Oklahoma State University, Stillwater
John Weir, Research Associate, Oklahoma State University, Stillwater
Oregon
Pat Uhtoff, Forester, Pat Uhtoff Forestry, Ashland
George McKinley, Executive Director, Southern Oregon Forest Restoration 
    Collaborative, Ashland
Carolyn Hunsaker, Retired Research Ecologist, US Forest Service, 
    Ashland
Karl J. Findling, Member, Steens Mountain Advisory Council, Bend
Michael O'Casey, Stewardship Coordinator, Bend
Kirk R. Metzger, Retired Wildland Hazardous Fuels Manager, US Forest 
    Service, Camp Sherman
Max Bennett, Extension Forestry & Natural Resources Faculty, Oregon 
    State University, Central Point
Kevin Vogler, Spatial Wildfire Analyst, Oregon State University, 
    Corvallis
Anthony S. Davis, Acting Dean, College of Forestry, Oregon State 
    University
Al Pancoast, Graduate Student, Oregon State University, Corvallis
Anna Talucci, Graduate Student, Oregon State University, Corvallis
Audrey Maclennan, Graduate Student, Oregon State University, Corvallis
Audrey Riddell, Graduate Research Assistant, Oregon State University, 
    Corvallis
Becky Miller, Graduate Student, Oregon State University, Corvallis
Bruce Shindler, Professor Emeritus, Oregon State University, Corvallis
Carrie Berger, Extension, Oregon State University, Corvallis
Chad Kooistra, Researcher, Oregon State University, Corvallis
Christal Johnson, PhD Student in Fire Science, Oregon State University, 
    Corvallis
Christine Olsen, Instructor, Oregon State University, Corvallis
Christopher J. Dunn, Research Associate, Oregon State University, 
    Corvallis
Claire Tortorelli, Graduate Student, Oregon State University, Corvallis
Clayton Sodergren, PhD Student, Oregon State University, Corvallis
Danielle Jackson, Student, Oregon State University, Corvallis
David Blunck, Assistant Professor, Oregon State University, Corvallis
Gabe, Graduate Research Assistant, Oregon State University, Corvallis
Janean Creighton, Associate Professor, Oregon State University, 
    Corvallis
Kayla Johnston, Graduate Teaching Assistant, Oregon State University, 
    Corvallis
Lisa Ellsworth, Assistant Professor, Senior Research, Oregon State 
    University, Corvallis
Lizz Schuyler, Doctoral Researcher, Oregon State University, Corvallis
M. E. Braun, Acquisitions Editor, Oregon State University, Corvallis
Meg Krawchuk, Assistant Professor, Oregon State University, Corvallis
Patricia Muir, Professor Emeritus, Oregon State University, Corvallis
Rachel Houtman, Faculty Research Assistant, Oregon State University, 
    Corvallis
Stephen Fitzgerald, Professor, Oregon State University, Corvallis
Timothy Facemire, Graduate Student, Oregon State University, Corvallis
Tom Spies, Courtesy Professor, Oregon State University, Corvallis
Will Downing, Fire Ecologist, Oregon State University, Corvallis
Lisa M. Ganio, Associate Professor, Oregon State University, College of 
    Forestry, Corvallis
David Shaw, Associate Professor, Forest Health Specialist, Oregon State 
    University, Corvallis
Neil Williams, Researcher, Corvallis
Lance Sargent, Citizen, Eagle Point
Allison Rossman, Botanist, The Nature Conservancy, Enterprise
Heron Brae, Botanist and Natural History Educator, Columbines School of 
    Botanical Studies, Eugene
Timothy Ingalsbee, Executive Director, Firefighters United for Safety, 
    Ethics, and Ecology (FUSEE), Eugene
Autumn Ellison, Research Faculty, University of Oregon, Eugene
Bart Johnson, Professor, University of Oregon, Eugene
Cassandra Moseley, Director, Ecosystem Workforce Program, University of 
    Oregon, Eugene
Heidi Huber-Stearns, Assistant Research Professor, University of 
    Oregon, Eugene
Jesse Abrams, Research Associate, University of Oregon, Eugene
John Koenig, South Willamette Forest Collaborative, Eugene
Mike Brinkley, Citizen, SW Fire Science Consortium, Eugene
Amanda Stamper, Fire Manager, The Nature Conservancy, Eugene
Alexis Engelbrecht, Volunteer & Outreach Coordinator, Walama 
    Restoration Project, Eugene
Alan Stearns, Teacher, Eugene
Janelle Cossey, Forestry Technician, Eugene
Leslie Dietz, Volunteer, Eugene
Louisa Evers, US Citizen, Gresham
Jack Shipley, Board Chair, Applegate Partnership and Watershed Council, 
    Jacksonville
Daniel Leavell, Assistant Professor of Practice/Forest Agent, OSU 
    College of Forestry Extension, Klamath Falls
Gene Rogers, President, Wildland Fire Technologies, Inc., Klamath Falls
James K. Walls, Executive Director, Lake County Resources Initiative, 
    Lakeview
Audrey Squires, Restoration Projects Manager, Middle Fork Willamette 
    Watershed Council, Lowell
Derek Anderson, Oregon State University, Monmouth
Mark Webb, Executive Director, Blue Mountains Forest Partners, Mt. 
    Vernon
Joan Lawrence, Prescribed Fire Practitioner, Interagency Wildland Fire, 
    North Bend
Paula Hebert, Member, Southern Willamette Forest Collaboration, 
    Oakridge
Sarah Altemus-Pope, Coordinator, Southern Willamette Forest 
    Collaborative, Oakridge
Susan Knudsen Obermeyer, Private Citizen, Southern Willamette Forest 
    Collaborative, Oakridge
Loren E. Hogue, Retired Board Member, SW Fire Science Consortium, 
    Oakridge
Megan Creutzburg, Faculty Research Associate, Institute for Natural 
    Resources, Oregon State University, Portland
Andres Holz, Assistant Professor, Portland State University, Portland
Cody Evers, PhD Student, Portland State University, Portland
Max Nielsen-Pincus, Assistant Professor of Environmental Management, 
    Portland State University, Portland
Melissa Lucash, Research Assistant Professor, Portland State 
    University, Portland
Greg Block, President, Sustainable Northwest, Portland
Kendal Martel, Forest Program Associate, Sustainable Northwest, 
    Portland
Susan Jane Brown, Wildlands Program Director & Staff Attorney, Western 
    Environmental Law Center, Portland
Kerry Kemp, Forest Ecologist, The Nature Conservancy, Prairie City
Alison E. Dean, Fire Effects Monitoring Coordinator, Central Oregon 
    Fire Management Service, Prineville
Nick Yonker, Oregon Smoke Management Program Manager, Oregon Department 
    of Forestry, Salem
Susanne Ranseen, Ecologist, Oregon State University, Salem
Cristina Horton, Student, Oregon State University, Salem
Robbye Lanier, Environmental Technician, Lane Regional Air Protection 
    Agency, Springfield
Emily Jane Davis, Assistant Professor, Oregon State University, The 
    Dalles
Teresa Zena Alcock, Fire Data and Geospatial Analyst, Oregon Department 
    of Forestry, Tualatin
Pennsylvania
Robert J. Fleming, President, Danamere Farms, Inc., Philadelphia
Alice Puchalsky, Student, Temple University, Philadelphia
Emily Booth, Postdoctoral Research Fellow, Temple University, 
    Philadelphia
Alan Taylor, Professor Department of Geography and Ecology, 
    Pennsylvania State University, State College
Warren Reed, PhD Candidate, Pennsylvania State University, State 
    College
Melissa M. Kreye, Assistant Professor of Forest Resources Management, 
    Pennsylvania State University, State College
South Carolina
Charles Babb, Longleaf Implementation Team Coordinator, Sandhills 
    Longleaf Pine Conservation Partnership, Chesterfield
Bridget Lorraine Blood, PhD Research Assistant, Clemson University, 
    Clemson
Dr. Donald L. Hagan, Assistant Professor of Forest Ecology, Clemson 
    University, Clemson
Emily Oakman, Masters Student, Clemson University, Clemson
Jenifer Bunty, Public Information Coordinator, Clemson University, 
    Clemson
Matthew Vaughan, PhD Student, Clemson University, Clemson
Darryl Jones, Forest Protection Chief, South Carolina Forestry 
    Commission, Columbia
Sudie Thomas, Member, South Carolina Native Plant Society, South 
    Carolina Exotic Pest Plant Council, Conway
Dylan Scott, Prescribed Fire Practitioner, Goose Creek
Thomas A. Waldrop, President, TomGen Forestry, Seneca
Brad McKelvy, Retired Fed FireFighter 38 Years USFS, US Forest Service, 
    Warrenvile
Tennessee
Steven Hromada, Adjunct Instructor, Austin Peay State University, 
    Clarksville
Trisha Johnson, Biologist, Cookeville
Jef Hodges, Grassland Coordinator, National Bobwhite Conservation 
    Initiative, Knoxville
Savannah Collins-Key, Graduate Teaching Assistant, University of 
    Tennessee, Knoxville
Tyler Gifford, Student, University of Tennessee, Knoxville
Courtney Madson, Associate Producer, Knoxville
Mark Gudlin, Assistant. Chief, Wildlife & Forestry, TN Wildlife 
    Resources Agency, Nashville
Ken Smith, Assistant Dean of the Environment, Integrated Program in the 
    Environment, The University of the South, Sewanee
Shannon Allen, Natural Resources Planner, Alabama and Tennessee Chapter 
    of the Wildlife Society, Sewanee
Texas
J. Kelly Hoffman, Environmental Scientist, Texas A&M University, Austin
Theron Tate, Property Owner, Beaumont
Aaron D. Stottlemyer, Forest Resource Analyst, Texas A&M University, 
    College Station
Alexandra Lodge, Postdoctoral Research Associate, Texas A&M University, 
    College Station
Charles Lafon, Professor, Texas A&M University, Dept. of Geography, 
    College Station
Christopher Roos, Associate Professor of Anthropology, Southern 
    Methodist University, Dallas
William Mobley, Postdoctoral Researcher, Texas A&M University, Fort 
    Worth
Dylan Schwilk, Associate Professor of Biological Sciences, Texas Tech 
    University, Lubbock
Robin M. Verble, Associate Professor, Texas Tech University, Lubbock
Xiulin Gao, PhD Student, Texas Tech University, Biological Science, 
    Lubbock
Rebecca Kidd, Assistant Professor, Stephen F. Austin State University, 
    Nacogdoches
Morgan Russell, Assistant Professor and Range Extension Specialist, 
    Texas A&M AgriLife Extension Service, San Angelo
Rob Galbraith, Director of Underwriting Research, USAA, San Antonio
Cynthia L. Dinwiddie, Principal Scientist, San Antonio
Utah
Sara Germain, Canine Search Specialist, FEMA, Logan
Alexander Howe, PhD Fellow, Utah State University, Logan
Erika Blomdahl, Graduate Student Researcher, Utah State University, 
    Logan
Gwendwr Meredith, PhD Student, Utah State University, Logan
Kendall Becker, USU Science Writing Center Assistant Director, Utah 
    State University, Logan
Lisa Green, Project Coordinator, Utah State University, Logan
Mark Brunson, Professor, Utah State University, Logan
Tucker Furniss, PhD Student, Utah State University, Logan
Jessica Kirby, Open Space Management Supervisor, Snyderville Basin 
    Special Recreation District, Park City
Bruce A. Roundy, Professor, Brigham Young University, Provo
Erin Banwell, Fire Ecology Program Coordinator, Gravitas Peak Wildland 
    Fire Module, Provo
Marjie Brown, Wildfire Communications Specialist, ScienceFire 
    Solutions, Inc., Salt Lake City
Maxfield Carlin, Biologist, Tracy Aviary, Salt Lake City
Virginia
Isa Bryant, Researcher, Arlington
Adam Coates, Assistant Professor, Virginia Tech, Blacksburg
Andrew Johnson, Student, Virginia Tech, Blacksburg
Anne-Lise Velez, Collegiate Assistant Professor, Virginia Tech, 
    Blacksburg
George Hahn III, NCRF 1826, PhD Research Assistant, Virginia Tech, 
    Blacksburg
Marc Stern, Associate Professor, Virginia Tech, Blacksburg
Harold Burkhart, Professor, Virginia Tech, Forestry, Blacksburg
Howard Epstein, Professor, University of Virginia, Charlottesville
Nikole Simmons, Restoration Coordinator, The Nature Conservancy, Hot 
    Springs
Anne M. Jewell, Fire Management Specialist, Forester, Center for 
    Environmental Management of Military Lands, Mechaniscville
Allison Jolley, Communications Manager, Fire Adapted Communities 
    Learning Network, Richmond
Stacey S. Frederick, Science Outreach, Richmond
Laurel Schablein, Private Citizen, Vesuvius
Vermont
Anthony D'Amato, Associate Professor, University of Vermont, Burlington
Kim Coleman, Postdoctoral Researcher, University of Vermont, Burlington
Cecilia Danks, Associate Professor and Gund Fellow, University of 
    Vermont, Burlington
Washington
Ray Guse, Principal, Smoked Goose Consulting, LLC, Cove
Rose Shriner, Natural Resources Project Manager, Kittitas County 
    Conservation District, Ellensburg
Brooke A. Cassell, Research Assistant, Portland State University, 
    Everett
Jon K. Culp, Secretary, Washington Prescribed Fire Council, Okanogan
Sarah Hamman, Restoration Ecologist, Center for Natural Lands 
    Management, Olympia
Tim Shearman, Postdoctoral Research Associate, University of 
    Washington, Olympia
David Wilderman, Natural Resource Scientist, Washington Dept of Natural 
    Resources, Olympia
Sarah Hart, Assistant Professor, Washington State University, Pullman
Keala Hagmann, Research Ecologist, Applegate Forestry, LLC, Seattle
Diana Olson, FRAMES Project Manager, University of Idaho, Seattle
Michael Tjoelker, Content Specialist, University of Idaho, Seattle
Lisa Graumlich, Dean, College of the Environment, University of 
    Washington, Seattle
Charles Halpern, Research Professor, University of Washington, Seattle
Claire Wainwright, Postdoctoral Ecologist, University of Washington, 
    Seattle
Ernesto Alvarado, Research Associate Professor, University of 
    Washington, Seattle
James K. Agee, Professor Emeritus, University of Washington, Seattle
Jonathan Bakker, Associate Professor, University of Washington, Seattle
Kara M Yedinak, Postdoctoral Research Associate, University of 
    Washington, Seattle
Michelle Agne, PhD Student, University of Washington, Seattle
Paige C Eagle, Research Consultant, University of Washington, Seattle
Saba Saberi, Graduate Student, University of Washington, Seattle
Paul F. Hessburg, Research Ecologist, College of the Environment, 
    University of Washington, Seattle
Brian J. Harvey, Assistant Professor, School of Environmental and 
    Forest Sciences, University of Washington, Seattle
Rae Morris, Community Coordinator, Tonasket
Dave Werntz, Science and Conservation Director, Conservation Northwest, 
    Twisp
Joel Dubowy, Software Engineer, University of Washington, Winthrop
Susan Prichard, Research Scientist, University of Washington, Winthrop
Reese Lolley, Director, Forest Restoration and Fire, The Nature 
    Conservancy, Washington Prescribed Fire Council, Yakima
Hilary Lundgren, Washington Fire Adapted Communities Learning Network 
    Coordinator, Washington Resource Conservation and Development 
    Council, Yakima
Wisconsin
Sarah Johnson, Associate Professor, Northland College, Ashland
Carl Cotter, Stewardship Coordinator, Aldo Leopold Foundation, Baraboo
Curt Meine, Senior Fellow, Aldo Leopold Foundation, Baraboo
Steven Swenson, Director of Conservation, Aldo Leopold Foundation, 
    Baraboo
Josh LaPointe, Regional Manager Ecosystem Restoration, Applied 
    Ecological Services, Brodhead
Josh Kraemer, Project Manager, Wisconsin Prescribed Fire Council, 
    Brodhead
Fred Wollenburg, Landowner, The Prairie Enthusiasts, Dalton
Stacey Marion, Restoration Ecologist, Adaptive Restoration, Madison
Mark Horn, Owner, Conservation Media LLC, Madison
Gary Werner, Volunteer Burn Boss, Dane County Chapter Ice Age Trail 
    Alliance, Madison
Jacob Griffin, Associate Professor of Biology; Director of 
    Environmental Studies, Edgewood College, Madison
Joe Lacy, Concerned Citizen, Prairie Enthusiasts, Madison
Hannah Spaul, Fire Manager, The Nature Conservancy, Madison
Thomas Pierce, The Prairie Enthusiasts, Madison
Ankur Desai, Professor, University of Wisconsin, Madison
H. Anu Kramer, Research Associate, University of Wisconsin, Madison
Adena Rissman, Associate Professor, Human Dimensions of Ecosystem 
    Management, University of Wisconsin, Madison, Madison
Laura Ladwig, Research Ecologist, University of Wisconsin, Madison, 
    Madison
Monica G. Turner, Odum Professor of Ecology and Vilas Research 
    Professor, University of Wisconsin, Madison, Madison
Paul H. Zedler, Professor of Environmental Studies, University of 
    Wisconsin, Madison, Madison
Tyler J. Hoecker, Graduate Researcher, University of Wisconsin, 
    Madison, Madison
Winslow D Hansen, PhD Candidate, University of Wisconsin, Madison, 
    Madison
Zakary Ratajczak, Postdoctoral Student, University of Wisconsin, 
    Madison, Madison
Amelia Fass, Student, University of Wisconsin, Stevens Point, Madison
Keith Phelps, Conservation Worker, University System, Madison
Megan Sebasky, Research Scientist, Wisconsin Department of Natural 
    Resources, Madison
Adam Gundlach, Board of Directors Chair, Wisconsin Prescribed Fire 
    Council, Madison
Jan Ketelle, Wisconsin Prescribed Fire Council, Mineral Point
Yari Johnson, Assistant Professor, University of Wisconsin-Platteville, 
    Mount Horeb
Curtis Wayka, Prescribed Fire/Fuels Technician, Menominee Tribal 
    Enterprises, Neopit
Angus Mossman, Student, University of Wisconsin, Madison, North Freedom
Evan Larson, Associate Professor of Geography, University of Wisconsin-
    Platteville, Platteville
Matthew Smith, Land Manager, Riveredge Nature Center, Saukville
Jeb Barzen, Founder, Private Lands Conservation LLC, Spring Green
Isabel Moritz, Fire Crew, University of Wisconsin, Stevens Point
Jacob Barkalow, Student of Fire, University of Wisconsin, Stevens Point
Julie Dickson, College Student, University of Wisconsin, Stevens Point
Korey Badeau, Student, University of Wisconsin, Stevens Point
Logan Wimme, Undergraduate Forest Management, University of Wisconsin, 
    Stevens Point
Max Richards, Student, University of Wisconsin, Stevens Point
Nick Bielski, Student, University of Wisconsin, Stevens Point
Dylan Wenker, Student, Stevens Point
Kelley Harkins, Undergraduate Wildland Fire Science Student, University 
    of Wisconsin, Stevens Point
Nathan Holoubek, Research Scientist, Wisconsin Department of Natural 
    Resources, Sun Prairie
Theran Stautz, Ecologist, Sun Prairie
Richard A. Hansen, Private land owner, Wautoma
West Virginia
Daniel J. Robison, Dean, Davis College of Agriculture, Natural 
    Resources and Design, West Virginia University
Nicholas Jeros, Supervisory Fire Engine Operator, Central Apps Fire 
    Learning Network, Davis
Adele Fenwick, Fire Instructor and Practitioner, Morgantown
Wyoming
Daniel Laughlin, Associate Professor, University of Wyoming, Laramie
Kristina Hufford, Associate Professor, University of Wyoming, Laramie
Alex Spannuth, Fire Effects Monitor, Wyoming
                                 ______
                                 
    Prepared Statement of the Lac Du Flambeau Band of Lake Superior 
                            Chippewa Indians
    My name is Joseph Wildcat, I am the President of the Lac du 
Flambeau Band of Lake Superior Chippewa Indians, located in Vilas, 
Oneida and Iron Counties Wisconsin. Our Tribe of 3,400 members is the 
largest employer in Vilas County. Together with Tribal enterprises, the 
Tribe employs 800 individuals, with nearly 25 percent or 190 employees 
paid in full or in part with appropriations made under this 
subcommittee's jurisdiction. Our reservation has one of the densest 
concentrations of fresh water in the country and our lands and waters 
are sacred to the Band and its members. Within our 86,600-acre 
reservation, there are 260 lakes, 71 miles of streams and rivers, 
approximately 42,000 acres of forested land and roughly 42,000 acres of 
water and wetlands. We are working hard to build and maintain a stable, 
healthy Tribal community, amid many challenges. Like many rural areas, 
we are dealing with opioid abuse and the challenges of creating and 
maintaining jobs for our citizens and residents.
    My testimony today addresses IHS, BIA and EPA programs that are 
vital to the Lac du Flambeau Band. The Tribe thanks the subcommittee 
for its leadership and commitment to Indian Tribes which honors the 
Nation's trust responsibility to the Indian people. The Tribe 
appreciates that Congress provided increased funds in fiscal year 2018 
for BIA, IHS and EPA programs and the other programs across the Federal 
Government.
    Please recognize the interconnectedness of IHS, BIA and EPA 
programs which help promote healthy Tribal members and healthy 
communities; essential building blocks for stable communities where 
Tribal parents can raise Native youth in safety and security so that 
they may realize their fullest potential and contribute to their 
community's and the Nation's future.

I. INDIAN HEALTH SERVICE PROGRAMS
    The Tribe recognizes the increase Congress provided for fiscal year 
2018 for the IHS. With that being said, the I.H.S. funding only cover 
32 percent of our financial need! The Tribe operates the Peter 
Christensen Health Center, Dental Program, a Family Resource Center, 
and an In-patient Treatment Center with a total annual operating budget 
in excess of $24 million. The Tribe's annual funding for fiscal year 
2018 is $7.7 million. These programs are vital to ensuring the support 
and preservation of family life and wellbeing by providing such 
services as outpatient mental health, inpatient & outpatient alcohol 
and other drug abuse, and psychological consults. The Health Center 
provides quality healthcare and offers a full range of family medical 
services by Board Certified family physicians, advanced practice nurse 
practitioner and physician-assistants serving 5,500 patients and 
providing 48,000 patient appointments annually. Together, our Tribal 
Health Program employs a staff of 150 individuals. The Tribe asks that 
Congress increase IHS funding in 2019.
    Our rationale for this funding increase is borne of necessity. We 
are seeing how important proactive and preventive health services are 
for our community. In particular, like the rest of the Nation, our 
community is in the throws of the opioid epidemic. It has tragically 
claimed the lives of numerous Lac Du Flambeau members, with 
approximately 100 members overdosing on opioids. Approximately 60 
percent of the Tribe's annual births result in opioid-addicted babies. 
In 2017 alone, 48 of the Tribe's 80 births resulted in opioid-addicted 
babies. Early treatment is critical. We urge the subcommittee to 
increase funds for preventive health programs such as Drug Endangered 
Children (D.E.C.) and Drug Endangered Elders (D.E.E.). These programs 
can save lives and empower our Tribe to help our citizens address 
addictions and mental health issues, especially targeting our Tribal 
youth. Please continue to prioritize increases in fiscal year 2019 IHS 
funding for Hospitals and Clinics, mental health, substance abuse 
treatment and P/RC funds so that we can take a proactive stance by 
investing wisely in preventive health services.

II. NATURAL RESOURCES (EPA AND BIA)
    The Tribe has one of the leading Tribal Natural Resources programs 
in the Country. Our program includes a Fish Hatchery for several 
species of fish, Fisheries Management, Waterfowl habitat protection, 
Great Lakes Restoration Initiative, Conservation Law Enforcement, 
Wildlife protection, Historic Preservation, and numerous environmental 
programs, including water resources. Our Natural Resources Department 
employs fish biologists, wildlife biologists, fish hatchery operators, 
hydrologists, technicians and administrators, many of whom are paid in 
full or in part with EPA and BIA funds and critical to our work 
protecting the resources that were promised to us in our Treaties. We 
urge the subcommittee not to jeopardize our Natural Resources programs 
that are critical to protecting our culture, our health and our 
economy, that is part of Wisconsin's $19 billion hunting, fishing, 
recreation and tourism industry.
    The proposed reduction in EPA funding and cuts to BIA Natural 
Resources programs would be devastating to our Program. Even with 
existing funding, we struggle to meet the demands we face to maintain 
clean air, water and lands from the many contaminants that threaten our 
community. The highest concentrations of mercury tainted lakes are in 
the State's northern most counties, including Vilas and Oneida. 
Minnesota and Wisconsin lead the Nation with mercury-contaminated 
lakes. At present, there are more than 146 lakes with fish health 
mercury advisories in place in Wisconsin. This presents a direct threat 
to our culture because we cannot eat contaminated fish that are 
otherwise a staple of our diet. A continuing threat to our treaty 
protected resources is Chronic Wasting Disease (CWD), it has been 
detected in deer in our ceded territories and is moving closer to the 
deer population on our Reservation. There is no silver-bullet to this 
challenge, but we need resources to ensure proper monitoring and 
management.
            A. TRUST-NATURAL RESOURCES MANAGEMENT
    In fiscal year 2018, Congress appropriated $204 million for the 
BIA's Trust-Natural Resources Management programs, a $3.2 million 
increase from fiscal year 2017. We greatly appreciate this, but given 
the importance of our natural resources to our culture and economy more 
is needed. Our Tribe alone needs nearly a $500,000 increase for our 
Tribal Fish Hatchery Operations and Tribal Management/Development 
Program for fiscal year 2019.
            B. CIRCLE OF FLIGHT: WETLANDS WATERFOWL PROGRAM
    We urge the subcommittee to continue to provide support for the BIA 
Circle of Flight Program (about $707,000). This modest BIA program 
supports Tribal efforts throughout the Great Lakes Region to restore 
and preserve wetlands and waterfowl habitat and enhances wild rice 
gathering within Tribal territories throughout the three States along 
the Mississippi flyway.
            C. GREAT LAKES RESTORATION INITIATIVE
    Thank you for funding the Great Lakes Restoration Initiative at 
$300 million in fiscal year 2018. Do not terminate this vital program. 
For the indigenous people of Wisconsin, the Great Lakes represent the 
lifeblood of our culture and the foundation of our economies. The 
protection and preservation of the Great Lakes is a necessity.
            D. EPA TRIBAL GENERAL ASSISTANCE PROGRAM
    Congress approved $3.5 billion for State and Tribal Assistance 
Grants, including $2.461 billion for Infrastructure assistance grants 
and $1.066 billion for categorical grants (maintaining Tribal air 
quality management grants and Tribal general assistance program (Tribal 
GAP) grants at $12.8 million and $65.4 million, respectively). The 
Tribal GAP program provides base environmental funding to assist Tribes 
in building their environmental capacity to assess environmental 
conditions, utilize available data and build their environmental 
programs to meet their local needs. While we strongly support the 
Tribal GAP funding, that funding is limited to capacity building and it 
is critical that we expand Tribal EPA funding to include program 
implementation.
            E. UNDERGROUND STORAGE TANK FUND (LUST)
    We remain concerned that annual reductions to the Underground 
Storage Tank fund (LUST) permits ongoing contamination of ground waters 
that threaten Tribal and other communities. We encourage the 
Subcommittee to instruct EPA to give greater consideration to Tribal 
cleanup standards and help Indian Tribes remediate unsafe conditions on 
reservations. We would ask Congress to direct EPA to work with Tribes 
to address these sites that present a continuing threat to our 
Reservation.

III. BIA AND BIE APPROPRIATIONS
            A. LAW ENFORCEMENT
    The Tribe is working collaboratively with our State and local 
partners to address drug trafficking and gang activity on and off the 
reservation. In December, we lost a young Tribal member, related to 
these activities. We want to ensure that this does not happen again. 
There is a greater need for cooperation among the Tribe, the State and 
Federal law enforcement agencies to address the significant impact of 
drug trafficking on the public safety of our community.
    As a Tribe in Public Law 280 States we have long suffered from the 
lack of sufficient support by the Federal Government for our law 
enforcement and Tribal court needs We have one full time judge who 
handle a range of cases ranging from domestic abuse orders to child 
support enforcement. In addition, we a three court clerks and a 
prosecutor. We greatly appreciate the Appropriations Committee support 
of Tribal justice systems for Tribes in Public Law 280 States, we 
provide an important service to the people of our Reservation that if 
we did not do it, the State courts would have to do it. We would urge 
Congress to continue this funding.
    Related to this is the need to provide specific funding for 
conservation law enforcement officers. Our conservation officers, 
provide a critical role in the management of our natural resources and 
sometimes are the first line in identifying drug and other illegal 
activities on the Reservation.
            B. INDIAN EDUCATION
    Congress provided $34.9 million for Adult Scholarships and restore 
the $2.9 million for special higher education scholarships for fiscal 
year 2018. We recommend this subcommittee continue to support these 
programs that provided needed support to Tribal members seeking higher 
education.
    The Lac du Flambeau Public School and Lakeland Union High School 
educate our Tribal youth. The High School is approximately 23 percent 
Native American and 86 percent of high school graduates went on to 
attend 4- and 2-year colleges/technical schools, 9 percent entered the 
workforce or pursued other activities and 5 percent entered the 
military. For this reason, we oppose any effort to eliminate the 
Johnson O'Malley Program, the goal of which is to address the unique 
cultural needs of Indian students attending public schools through a 
supplemental program of services planned, developed and approved by the 
Local Indian Education Committee, comprised of parents of eligible 
Indian students. The $14.9 million JOM Program must be protected, so 
that Indian children are provided the supplemental programs that honor 
and celebrate their Native heritage and help them grow into confident, 
well-adjusted adults who contribute to their families. Given our 
experience in calculating our Native student count in our schools, we 
are troubled by the BIA's inability to provide Congress with an 
accurate student count.
            C. ROAD MAINTENANCE PROGRAM
    The Tribe appreciates Congress including $4.3 million increase in 
funding for the Road Maintenance Program for fiscal year 2018. We 
believe a $10 million increase is justified for fiscal year 2019. The 
Tribe receives less than $90,000 to maintain nearly 180 miles of BIA-
owned roads. Our budget requirements for road maintenance are closer to 
$2 million annually. A year's entire road maintenance budget can be 
consumed in the winter months removing snow and salting/sanding roads 
to ensure freedom of movement. Transportation barriers undermine 
Federal and Tribal efforts to improve Native health, educate our youth 
and attract businesses and jobs to remote, rural communities like ours. 
The ``historical'' formula for the BIA Road Maintenance Program makes 
little sense to us. We ask the subcommittee to include report language 
for fiscal year 2019 that directs the BIA to explain the allocation 
methodology, verify each Tribe's road inventory that generate Road 
Maintenance dollars, and make publicly available to Tribes their 
relative share of funds.
                                 <greek-l>
                                 ______
                                 
                Prepared Statement of LeadAbatement deg.
  Prepared Statement of U.S. Senators in Support of the Environmental 
    Protection Agency's Lead Abatement, Inspection, and Enforcement 
                                Programs
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
        Prepared Statement of the League of American Orchestras
    The League of American Orchestras urges the Senate Interior, 
Environment, and Related Agencies Appropriations Subcommittee to 
support increased fiscal year 2019 funding for the National Endowment 
for the Arts (NEA). Bipartisan support in Congress for the ongoing work 
of the NEA has been especially appreciated in the past 2 years, and we 
are grateful for the subcommittee's leadership. Further support in 
fiscal year 2019 will enable the agency to provide more Americans with 
meaningful opportunities for arts participation.
    The League of American Orchestras leads, supports, and champions 
America's orchestras and the vitality of the music they perform. Its 
diverse membership of more than 2,000 organizations and individuals 
runs the gamut from world-renowned orchestras to community groups, from 
summer festivals to student and youth ensembles, from businesses 
serving orchestras to individuals who love symphonic music. As 
orchestras navigate the rapid and profound changes coursing through 
American society, they are redoubling their efforts to serve their 
communities through the orchestral experience. NEA support via Art 
Works and Challenge America grants helps to expand the capacity of 
orchestras to present concerts and programs to communities of all 
sizes, and each NEA direct grant dollar leverages up to $9 of 
additional non-Federal or private investment. The following 12 
orchestral projects from fiscal year 2018 total $197,500 in direct 
Federal support and show a glimpse of some remarkable partnerships that 
are serving the public in increasingly responsive ways.
            nea funding increases public access to the arts
    The NEA is committed to helping small and mid-sized organizations 
extend the reach of the arts to populations whose arts opportunities 
are limited by geography, economics, or disability. The Mobile Symphony 
reaches 35,000 people every year through its concerts and educational 
programs, with just 9 professional staff members and 72 part-time 
musicians. A Challenge America grant helped Mobile Symphony bring 
Grammy-award-winning cellist Zuill Bailey and acclaimed conductor Andre 
Raphel to southwest Alabama, with both artists participating in 
educational activities for students in urban and rural Title I schools, 
including working with band and music students. All students were 
offered free tickets to the concerts with the orchestra. Raphel also 
spoke to students at Bishop State Community College, which serves a 
large number of low-income, minority students in Mobile's inner city.
    Another Challenge America grantee, the Timpanogos Symphony 
Orchestra--an all-volunteer orchestra with just one part-time paid 
staff person--brought live symphonic music and educational activities 
to Price, Richfield, and Delta: three cities in Utah that do not have 
an orchestra of their own. Programming featured pianist Scott Holden, 
an accomplished pianist and head of piano studies at Brigham Young 
University, as well as Utah-raised singer Summerisa Bell Stevens. In 
addition to offering three community concerts, Timpanogos Symphony 
Orchestra also presented four school assemblies on the tour, 
introducing students to music from the baroque, classical, romantic, 
and modern eras. Following the assembly concert at Carbon High School, 
one of the school staff thanked the orchestra, remarking that ``many of 
our students do not have the opportunity to attend a performance like 
this, especially free of charge.''
    The Fox Valley Symphony Orchestra, with two full-time and 9 part-
time employees, and 75 musicians, used its Challenge America grant to 
support activities associated with a February concert featuring Grammy-
nominated composer and trombonist Chris Brubeck. Brubeck and orchestra 
musicians shared music with veterans and students in rural areas of 
Wisconsin and conducted an interactive workshop with band students in 
Weyauwega at the Gerold Opera House and a lecture and performance by 
Brubeck at the Wisconsin Veterans Home at King, which inspired some 
memories of Brubeck's father, jazz musician and composer Dave Brubeck. 
Chris recalled stories of his father going into hospitals to play music 
for veterans, connecting with them in a special way. Sharing that 
spirit, Brubeck said, ``If the vets can't come to a concert, I am happy 
to go to see them and reach out through music.''
          nea funding supports youth engagement with the arts
    With 11 full-time and 3 part-time staff members and nearly 90 
contracted musicians, the Des Moines Symphony offered nearly 6,000 
Central Iowa fourth and fifth grade students the chance to learn in-
depth about orchestral music. With the help of an Art Works grant, each 
school received an enhanced, multi-media curriculum, then students 
attended a live Des Moines Symphony performance which included visuals 
displayed on a screen above the orchestra, and a side-by-side 
performance with the Des Moines Symphony Youth Symphony featuring the 
winner of the Des Moines Symphony Academy student concerto competition. 
Through these concerts, the Des Moines Symphony is introducing a broad 
range of Central Iowa students to creative expression through 
orchestral music and building a shared cultural experience across many 
Central Iowa communities, urban and rural alike.
    The Indianapolis Symphony Orchestra (ISO) serves over 380,000 
patrons every year through concerts and education programs, and employs 
an administrative staff of 62 full-time and 9 part-time employees, 74 
full-time musicians, and 3 conductors. An Art Works grant helps support 
the Metropolitan Youth Orchestra (MYO), the ISO's flagship education 
program that engages youth with music instruction and mentoring to 
discourage at-risk behaviors and set students on the path to lifelong 
success. Over 220 children from kindergarten through 12th grade 
participate in MYO, and over 130 of their parents and guardians either 
learn to play an instrument alongside them or volunteer in other 
capacities. Even though many MYO students come from areas of 
Indianapolis with the highest poverty rates and lowest levels of 
education, 100 percent of MYO seniors have graduated and enrolled a 4-
year university since 2008.
    Through its Intensive Community Program (ICP), the Boston Youth 
Symphony Orchestras (BYSO) currently serves 90 students of color and 
low-income students. ICP was created nearly 20 years ago to address 
accessibility barriers that prevent students from underrepresented 
communities in classical music from auditioning into BYSO and 
experiencing the benefits of a high-quality music education. ICP 
accepts students ages 4-11 who show exceptional interest in studying 
string, wind, or brass instruments and provides tuition subsidies, 
weekly music lessons, music theory classes, use of a good quality 
instrument, and ongoing mentoring from professional musicians until 
they graduate high school. ICP students participate an average of 10 
years and to date, all graduates of the program have gone on to attend 
college, many being the first in their families to do so. NEA support 
helps BYSO run this program with its 13 full-time and approximately 60-
70 part-time or contracted artistic staff.
  nea funding fosters innovative presentation of and engagement with 
                                 music
    The NEA encourages collaborations, innovative presentation 
strategies, and initiatives that help organizations engage audiences in 
new and meaningful ways. Employing more than 290 artists and an 
administrative staff of 35 full-time and 12 part-time employees, The 
Saint Paul Chamber Orchestra (SPCO) presented the No Fiction Festival, 
celebrating life stories through two weeks of concerts, education, and 
community engagement events. The festival explored the theme of 
sisterhood through works by women composers such as Amy Beach, whose 
accomplishments were a beacon in the suffrage movement, and the 21st-
century composer of Maori heritage, Dame Gillian Whitehead. Concert 
programs also included works by sisters Nadia and Lili Boulanger, and 
Jessie Montgomery. On the theme of place, the composer, sound artist, 
and writer Brian Harnetty presented ``Shawnee, Ohio,'' a musical work 
with sampled sound archives, video, and field recordings about the 
history and ecology of Appalachian Ohio.
    The Arkansas Symphony Orchestra (ASO), with 14 full-time 
administrative staff, 12 full-time musicians, and over 80 part-time 
musicians, is advancing streaming innovation, collaboration, and fun 
for Arkansans in its CANVAS Festival, which combined visual arts and 
the performance of live symphonic music with repertoire including Adam 
Schoenberg's ``Finding Rothko,'' and Respighi's ``Trittico 
Botticelliano (Three Botticelli Pictures).'' Orchestra musicians 
collaborated with the Arkansas Arts Center to curate a chamber music 
performance based on pieces from the center's collection and 
educational activities included lecture-demonstrations, pre-concert 
discussions, and open rehearsals. The festival culminated with a 
performance of Beethoven's Symphony No. 6, ``Pastoral'' with visual 
artist Barry Thomas painting onstage in real time in reaction to the 
music being played.
    The Oregon Symphony is also pushing artistic boundaries with its 
The Sounds of Home series, directed by Music Director Carlos Kalmar. By 
pairing classical works with visual art forms, the symphony guides the 
community through an exploration of the meaning of home through a 
unique series of programs onstage and throughout the community in 
venues such as homeless shelters, healthcare facilities, and community 
centers. The series combines three multimedia productions, four new 
commissioned works in three art forms, the first commission of a play 
by an American orchestra, and a diverse collection of collaborating 
artists from within and beyond the orchestral field. The orchestra, 
comprising 38 full-time and 12 part-time staff, and 76 full-time 
musicians, is actively building collaborations with social service 
organizations and community leaders, as well as arts groups, to reflect 
on these issues.
 nea funding helps honor and celebrate our country's diverse cultural 
                                heritage
    A citizenry steeped in creativity, excellence, and the ability to 
navigate differences strengthens democracy. Orchestras are very 
effective at providing an artistic way of connecting people with one 
another and with our pasts. The Nashville Symphony, for example, with 
its 72 full-time and 357 part-time staff, and 81 full-time musicians, 
is using its Art Works grant to support the commissioning, performance, 
and recording of a new work by American composer Jonathan Leshnoff. The 
Violins of Hope exhibition showcased restored instruments that were 
played by musicians who were interned in concentration camps during the 
Holocaust. For 3 months, programming was curated and presented by the 
orchestra, under the direction of Music Director Giancarlo Guerrero, in 
partnership with more than 25 community organizations. Partners crossed 
disciplines and sectors, and included the Jewish Federation of 
Nashville and Middle Tennessee, the Nashville Public Library, and 
others. The Violins of Hope collection is on display, free to the 
public, at the Nashville Public Library.
    The Toledo Symphony Orchestra (TSO), with its 18 full-time and 19 
part-time staff and approximately 60 full-time musicians, helped more 
than 6,000 patrons celebrate the contributions of African-American 
musicians in the 3-month long North Star Festival. Concert repertoire 
included spirituals, chamber music, jazz-inspired works, and a modern 
opera. Composers included Duke Ellington, Steven Gerber, Rhiannon 
Giddons, Alice Gomez, Adolphus Hailstork, James Weldon Johnson, 
Coleridge Taylor Perkinson, Florence Price, Daniel Bernard Roumain, 
Paul Schoenfield, Alvin Singleton, and William Grant Still. The 
signature event in the series was a special performance by renowned 
African-American soprano Kathleen Battle, who presented a concert 
program titled Underground Railroad: A Spiritual Journey. The TSO also 
brought music into a wide variety of community venues through a 
creative collaboration with the Toledo Lucas County Public Library 
system and the Lathrop House, a former stop on the Underground Railroad 
and local museum.
    The Oakland Symphony, which employs over 60 musicians and 16 staff, 
is presenting To Belong Here: Notes from the African Diaspora, a 
concert honoring the people of West and Central African descent. The 
program will feature works by 18th-century composer Chevalier de St. 
Georges; African-British composer and conductor Samuel Coleridge-
Taylor; and Florence Price, the first African-American woman to have a 
major work performed by a symphony orchestra. In addition to these 
works, the performance will be narrated by Oakland native Prentice 
Powell, a spoken word artist who has performed internationally. In the 
lobby, Afro-Puerto Rican bomba drummers and dancers will present the 
once outlawed artform that was used by enslaved people to signify and 
organize rebellion.
    Thank you for this opportunity to convey the tremendous value of 
NEA support for the communities that orchestras are serving in every 
corner of our country. We applaud the NEA's national leadership in 
promoting excellence and engagement with high-quality artistry by all 
citizens and we urge you to increase our Nation's creative potential 
and access to the arts by approving increased funding for the National 
Endowment for the Arts in fiscal year 2019.

    [This statement was submitted by Jesse Rosen, President and CEO.]
                                 <greek-l>
                                 ______
                                 
               Prepared Statement of LongIslandSound deg.
  Prepared Statement of U.S. Senators in Support of the Environmental 
        Protection Agency's Long Island Sound Geographic Program
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
          Prepared Statement of the Lower Elwha Klallam Tribe
    Chairman Calvert, Members of the subcommittee and the distinguished 
Gentleman from the 6th District in Washington State representing my 
Tribe, Congressman Derek Kilmer. I am Frances Charles, Chairwoman of 
the Lower Elwha Klallam Tribe, an elected position that I have been 
honored to hold for the past 12 years. Thank you for providing me this 
opportunity to submit testimony for the record on the Bureau of Indian 
Affairs (BIA), Indian Health Service (IHS), and Environmental 
Protection Agency (EPA) budgets for fiscal year 2019. My testimony 
identifies our most urgent Tribal-specific funding needs at the Lower 
Elwha Klallam Tribe. We are also supporting some Regional and National 
budget requests which will benefit the Lower Elwha citizens and 
community.
         tribal-specific requests for lower elwha klallam tribe
Bureau of Indian Affairs.--$5.43 Million
    1.  $4.972 Million Dam Removal and Fisheries Restoration--Public 
Law 102-495, Elwha River Ecosystem and Fisheries Restoration Act
       a.  $702,000--Salmon Hatchery O&M
       b.  $270,000--Flood Control Levee O&M
       c.  $4 million--Land Acquisition
    2.  $267,000--Tribal Court Enhancement and Implementation of Tribal 
Law and Order Act (TLOA) and Violence Against Women Act (VAWA)
    3.  $191,000--Tiwahe Initiative--Tribe seeks to assert jurisdiction 
in its own court system over all cases arising under the Indian Child 
Welfare Act (ICWA) and to become a licensing agency for foster homes
Indian Health Service $500,000--Mental Health and Chemical Dependency 
        programs
Environmental Protection Agency $536,000--Environmental Programs
    1.  $125,000--General Assistance Grant (GAP)
    2.  $ 81,000--Clean Water Act Sec. 106 Grant
    3.  $180,000--Puget Sound Partnership (PSP) Implementation Grant
    4.  $150,000--PSP Tribal Capacity Grant
Contract Support Costs--Past, Present and Future
    As a Self-Governance Tribe, Lower Elwha has been impacted by the 
Federal Government's refusal to pay full contract support costs (CSC) 
for contracted and compacted programs for the past two decades. In 2014 
and 2015, the Supreme Court determined that Tribes were entitled to 
CSC. The game-changer going forward was the ground-breaking decision by 
Congress in Public Law 114-113, Consolidated Appropriations Act, 2016, 
to create a new account in the appropriations bill specifically for CSC 
in 2016 and 2017 as well as language establishing an indefinite 
appropriation for CSC in both agencies. Under the new budget structure, 
the full CSC that Tribes are entitled to will be paid and other 
programs will not be reduced if payments are underestimated in the 
President's budget. Tribes agree that this structure achieves the 
Nation's legal obligation to fully pay CSC without imposing any 
corresponding reduction in direct services to any Tribe. We also 
continue to request to fully fund CSC on a mandatory basis in fiscal 
year 2019-2021 and make it a permanent, indefinite appropriation.
Lower Elwha Klallam Tribe Background
    The Lower Elwha Indian Reservation is located at the mouth of the 
Elwha River along the Strait of Juan de Fuca on the northern Olympic 
Peninsula, about 8 miles west of the City of Port Angeles, Washington. 
The Lower Elwha Tribe has roughly 1,000 members and a total land base--
Reservation and adjacent trust lands--of about 1,000 acres. We are a 
salmon people with fishing rights in a large expanse of marine and 
fresh waters, reserved in the 1855 Treaty of Point No Point. To date, 
our economic development opportunities have been limited and we believe 
our long-term prospects are tied to natural resources restoration and 
preservation in an ecologically rich region where an extraction-based 
economy is well past its prime.
              lower elwha tribal-specific funding requests
$5.43 Million--Bureau of Indian Affairs
    1.  $4.972 Million--Dam Removal and Fisheries Restoration.--We were 
the leading advocate for the removal of the two hydro-electric dams on 
the Elwha River. In accordance with Congress's direction in the Elwha 
River Ecosystem and Fisheries Restoration Act of 1992 (Elwha Act), 
Public Law 102-495, we are working closely with the National Park 
Service and other agencies to remove the last remnants of the dams and 
restore the once famously abundant runs of native Elwha River salmon 
and steelhead. Unfortunately, removal of the dams caused a short-term 
threat to the salmon runs (due to sediment released from behind the 
former dams) and has adversely impacted our small Tribal land base and 
our Tribal budgets. We are strongly committed to the restoration of 
fisheries, fish habitat, streams and rivers, and the Port Angeles 
Harbor. We urgently need increased Self-Governance funds to support the 
operation of dam removal mitigation and restoration features and to 
revive our other Self-Governance activities from which we have been 
forced to transfer funds to support dam removal mitigation.
       a.  $702,000--Salmon Hatchery O&M Costs.--Fish Hatchery 
Operations Budget for the ongoing operation and maintenance (O&M) of 
our state-of-the-art hatchery, which went online in 2011. This is a 
significant increase of $601,929 annually, but one that is amply 
justified by the crucial role that our hatchery serves in dam removal 
and fishery restoration. Our hatchery is a genetic preserve for native 
Elwha salmonids, which have been on the verge of extirpation from the 
impacts of the dams and which have been further threatened by the 
enormous sediment load unleashed by the removal of the dams. The 
National Marine Fisheries Service would not have approved dam removal 
under the Endangered Species Act without the hatchery's native salmonid 
programs. The Tribe should not have to bear the O&M cost of this 
important restoration facility that in fact benefits the entire region.
       b.  $270,000--Flood Control Levee O&M Costs.--The levee on our 
lands had to be expanded prior to dam removal in order to protect 
Tribal lands from the newly unleashed Elwha River and to conform to new 
Federal standards--clearly it is a mitigation feature of the dam 
removal project. In the 1992 Elwha Act, Congress intended that courts 
not be asked to address problems where legislative solutions would be 
far more effective in covering all the bases. Twenty-five years of 
inflation since 1992 more than justifies this increase in the current 
annual operations allocation of $10,400.
       c.  $4 million for Land Acquisition.--Section 7(b) of the Elwha 
Act authorized $4 million so that the Secretary could acquire trust 
lands for the Tribe in Reservation status in Clallam County, 
Washington, for economic development and housing. But those funds have 
never been appropriated. In 1934, an Interior Department report 
concluded that the Reservation should be 4,000 acres, but currently we 
have only 1,000 acres, several hundred of which (on the river's side of 
the levee) have to be maintained in undeveloped status as floodplain 
habitat. In addition, we need legislative direction to ensure that 
former hydro-project lands are transferred to the Tribe as contemplated 
in Section 3(c)(3) of the Elwha Act. The Elwha people have struggled 
for a century from the harm to their culture and economies caused by 
the Elwha River dams. We had to endure the destruction of not only the 
fisheries but the treaty fishers themselves and the attendant loss of 
our traditional and cultural livelihood; we have lost an opportunity--
which will only return after another generation--to teach our children 
the ways of their ancestors and the Elwha life as designed by the 
Creator.
    2.  $267,000--Funding for Tribal Court Enhancement and to Implement 
TLOA and VAWA.--Consistent with the Interior Department's and Tribe's 
high priority on Tribal Court enhancement, Lower Elwha has made 
progress in adopting the enhanced sentencing provisions authorized by 
the 2010 Tribal Law and Order Act (TLOA) and in particular the expanded 
Domestic Violence Criminal Jurisdiction under the 2013 Violence Against 
Women Act (VAWA). In the past year we have finally retained the first 
in-house Chief Judge in the Tribe's history and are making progress on 
upgrading our Court's organization and caseload. But our efforts will 
be limited due to the lack of adequate base funding for Court 
development. Requested funding will enable our Tribe to further our 
progress by providing for: (a) mandatory criminal defense counsel 
(including basic legal assistance for domestic violence victims); (b) 
legal counsel for parents in abuse/neglect cases; (c) detention 
services; (d) probation services that focus on solutions and 
restorative justice by sharing coordinated case management and re-entry 
referrals; and (e) basic court security. Full funding for TLOA-mandated 
provisions and increased base funding for our Tribal Court will enable 
Elwha to benefit from: BIA regional assessments using Trial Court 
Program Standards; specific technical assistance and training 
identified through these assessments; targeted training for specific 
Tribal court personnel (judges, prosecutors, public defenders, clerks); 
development of Tribal Court bench books; identification of funding 
sources for pilot programs; and captured data covering criminal pre-
trial to post-conviction matters, including any collateral civil legal 
issues.
    3.  $191,000--Funding for ICW-related services from BIA's Tiwahe 
(Family) Initiative.--Lower Elwha faces a community crisis with the 
increasing number of child abuse/neglect cases, which stem from 
inordinately high rates of drug/substance abuse by parents or 
caregivers. This crisis severely impacts services in all facets of 
Tribal government. A coordinated community response must be based on 
multi-disciplinary, culturally informed case planning and service 
delivery, coupled with a strong commitment to restorative justice 
ideals and (in criminal cases) solutions-based sentencing. A major 
obstacle to implementing this approach is our lack of infrastructure to 
assume jurisdiction over all local cases clearly arising under the 
Indian Child Welfare Act (ICWA); 65 percent of our current ICWA cases 
remain in the State court system (a deceptively low percentage due to 
reduced State court filings resulting from staff turnover). In 
addition, because we are dependent on an inadequate State system for 
licensing foster care providers, we are often unable to make proper 
placements to assist our families. For the past three fiscal years, the 
Tribe's base Federal funding (BIA Self-Governance ICWA) has remained 
flat-lined at a mere $45,000. We seek $191,000 additional annual 
funding from the BIA's Tiwahe (Family) Initiative, which would enable 
the Tribe to assert jurisdiction in its own court system over all cases 
arising under the ICWA and to become a licensing agency for foster 
homes.
Indian Health Service Elwha Tribal-Specific Funding Requests--$500,000 
        for Elwha Health Department Programs
    The drug abuse and mental health crisis threatens to destroy the 
potential and the cultural connections of many Tribal members and 
families. In fiscal year 2016, the Tribe's Mental Health and Chemical 
Dependency programs served 275 American Indian/Alaskan Native (AI/AN) 
patients, with the potential to reach approximately 1,500 within 
Clallam and Jefferson County. The Tribe currently subsidizes its 
chemical dependency program with third-party revenue and gaming revenue 
to fund prevention health initiatives and chemical dependency programs, 
yet these critical health epidemics remain severely underfunded. To 
remedy this, the Center for Medicare and Medicaid Services formula must 
be expanded to inpatient chemical dependency treatment programs at the 
current encounter rate of $391/per day, with annual increases.
Environmental Protection Agency Elwha Tribal-Specific Funding 
        Requests--$536,000 for Elwha Tribal Environmental Programs: 
        General Assistance Grant, $125,000; Clean Water Act Sec. 106 
        Grant, $81,000; Puget Sound Partnership (``PSP'') 
        Implementation Grant, $180,000; and PSP Tribal Capacity Grant: 
        $150,000.
    Lower Elwha's environmental programs have, over the past two 
decades, developed a strong pragmatic capability to protect human and 
basic environmental health for not only the Tribal community but also 
the greater Port Angeles and northern Olympic Peninsula communities. By 
focusing on collaboration with local governments and other 
stakeholders, we have maximized the efficiency of our small but skilled 
staff. This would not be possible without the basic EPA funding that we 
seek to continue. This funding supports: basic staff salaries, 
including for our highly experienced program director (General 
Assistance Grant); water quality monitoring in significant local rivers 
and lakes (Clean Water Act Sec. 106 Grant); implementation of crucial 
in-the-field projects consistent with the PSP's Action Agenda (PSP 
Implementation Grant); Tribal participation and influence in local, 
State, and Federal environmental planning and review activities 
(General Assistance and PSP Tribal Capacity Grants). PSP Implementation 
funding has enabled the Tribe to complete numerous stream restoration 
projects that support the PSP Action Agenda. EPA funding is critical to 
our participation in the cleanup of toxic contamination of Port Angeles 
Harbor, which was nominated for Superfund listing but deferred to State 
cleanup authority; under this deferral arrangement, the Tribe has a 
unique and important role as the sole local representative working 
directly with the responsible State agency to ensure that the cleanup 
will protect the health of all residents of the greater Port Angeles 
area.
Regional and National Budget Requests
    The Tribe supports the fiscal year 2019 Regional Budget Priorities 
of the Northwest Indian Fisheries Commission, Affiliated Tribes of 
Northwest Indians, and the Northwest Portland Area Indian Health Board, 
and also the fiscal year 2019 National Budget Priorities of the 
National Congress of American Indians and National Indian Health Board.
                                 <greek-l>
                                 ______
                                 
   Maintaining Effective Funding Levels for Essential Wildfire Risk 
 Reduction and Protection Programs at the USDA Forest Service and the 
                    Department of the Interior deg.
  Prepared Statement of Supporters for Maintaining Effective Funding 
Levels for Essential Wildfire Risk Reduction and Protection Programs at 
       the USDA Forest Service and the Department of the Interior
Dear Chairwoman Murkowski and Ranking Member Udall:

    The undersigned organizations are writing to express our strong 
support for maintaining effective funding levels in the fiscal year 
2019 appropriations process for essential wildfire risk reduction and 
protection programs at the USDA Forest Service (USFS) and the 
Department of the Interior (DOI). The important work accomplished 
through the State Fire Assistance and Volunteer Fire Assistance 
programs help decrease total Federal emergency wildfire suppression 
costs and reduce the threat of fire to people, communities, and both 
public and private lands.
    America's forests and forest-dependent communities are at risk from 
outbreaks of pests and pathogens, persistent drought, and the buildup 
of hazardous fuels. Urbanization and development patterns are placing 
more homes and communities near fire-prone landscapes, leading to more 
destructive and costly wildfires, like those that burned more than 10 
million acres in 2017 alone.
    We thank you for your leadership in developing and securing a long-
term wildland fire funding solution which will ensure that the USFS has 
the funding needed for both routine activities to local and State 
wildland fire preparedness and mitigation efforts as well as engage in 
emergency wildland fire suppression activities. This long-held goal of 
our organizations would not have been realized without your leadership 
and the work of this Committee. Additionally, our organizations thank 
you for providing additional funding to support the USFS until this 
fire funding fix takes effect in fiscal year 2020. We encourage you to 
continue providing this strong funding level to the USFS at least until 
the recently enacted fire funding fix takes effect in fiscal year 2020.
    The fiscal year 2019 appropriations bill can provide for both 
necessary wildland fire suppression and fire risk reduction activities 
that reduce firefighting costs in the long run. We appreciate this 
Committee's continued support for the State Fire Assistance program and 
the Volunteer Fire Assistance program and encourage you to continue 
providing strong funding for these important programs.
    State Fire Assistance (SFA) is the fundamental Federal mechanism 
for assisting States and local fire departments in responding to 
wildland fires and in conducting management activities that mitigate 
fire risk on non-Federal lands. The program helps train State and local 
first responders who are often first to arrive at a wildland fire 
incident, as well as equip them with the tools they need to put 
wildfires out in efficiently and safely.
    For example, in fiscal year 2017, SFA directly funded hazardous 
fuel treatments on 83,845 acres (with another 92,276 acres treated with 
leveraged funding from partners) and provided assistance to communities 
around the country, supporting 4,581 risk assessment and fire 
management planning projects in more than 3,100 communities. 
Additionally, between 2008 and 2012, the program helped deliver more 
than $150 million annually in equipment for use by State and local 
first responders.
    The localized support provided by SFA is crucial because most 
wildfires (80 percent during 2017) burn within State and local fire 
department jurisdictions. Even when it comes to wildfires on Federal 
lands, SFA-supported crews and engines are often the first to respond.
    Our organizations are grateful for the Committee's decision to 
increase SFA funding to $80 million in fiscal year 2018. However, 
additional modest increases in SFA funding can help expand wildland 
fire preparedness and mitigation efforts and support State forestry 
agencies in repurposing equipment through the Federal Excess Personal 
Property and the Firefighter Property programs. In fiscal year 2019, we 
urge you to provide $87 million for the State Fire Assistance program.
    The Volunteer Fire Assistance (VFA) program provides support to 
rural communities and is critical to ensuring adequate capacity to 
respond to wildfires, reducing the risk to communities, people, homes 
and property, and firefighters. This capacity is critical because these 
State and local resources are the first responders to more than 80 
percent of wildland fires--whether on State, Federal or private lands. 
According to the Forest Service, during fiscal year 2017, the VFA 
program helped provide assistance to 8,821 communities, train 17,140 
firefighters, expanded or organize 61 fire departments, and purchase, 
rehabilitate, or maintain nearly $9 million in equipment.
    Our organizations greatly appreciate the Committee's work to 
increase VFA funding to $16 million in fiscal year 2018. In fiscal year 
2019, we urge you to provide no less than $16 million for the Volunteer 
Fire Assistance Program.
    We appreciate the difficult task the Committee faces in the current 
budget climate. It is important to remember, however, that these vital 
programs safeguard human life, habitat, and property, and reduce the 
overall cost of wildland fire management. Accordingly, we urge you to 
support funding for these critical programs.
    Thank you for your consideration of this important request.

Sincerely,

National Association of State Foresters
National Volunteer Fire Council
International Association of Fire Chiefs
                                 ______
                                 
             Prepared Statement of the Maniilaq Association
    Summary. The Maniilaq Association is an Alaska Native Tribal 
organization representing 12 Tribes in Northwest Alaska. We provide 
health, social, and Tribal government services through self-governance 
agreements with the Indian Health Service (IHS) and Bureau of Indian 
Affairs (BIA), pursuant to the Indian Self-Determination and Education 
Assistance Act (``ISDEAA"; Public Law 92-638). We make the following 
recommendations regarding fiscal year 2019 IHS and BIA funding:

  --Reject the IHS proposal to amend the law in order to avoid full 
        compensation for leases under section 105(l) of the ISDEAA.
  --Ensure that Contract Support Costs are permanent, mandatory funding 
        with no provisos on indefinite CSC funding that conflict with 
        the carryover funding authority provided by the Indian Self-
        Determination and Education Assistance Act.
  --Provide advance appropriations for IHS, just like the Veterans 
        Administration.
  --Keep the Special Diabetes Program for Indians as mandatory funding.
  --Support transfers of funds from HHS to IHS address the opioid 
        epidemic.
  --Support ending the cap on Federal Communications Commission 
        Universal Service Administrative Company Rural Health Care 
        Program telecommunications connectivity subsidies.
  --Reject any fiscal year 2018 proposed rescissions to Indian 
        Programs.
                          105(l) clinic leases
    We are concerned by the administration's proposed request to amend 
the law in order to avoid full compensation for leases under section 
105(l) of the ISDEAA. The proposed bill language in the IHS 
Administrative provisions is designed to overrule the decision in 
Maniilaq Association v. Burwell, 170 F. sup. 3d 243 (D.D.C. 2016) which 
held that section 105(l) of the ISDEAA provides an entitlement to full 
compensation for leases of Tribal facilities used to carry out ISDEAA 
agreements. The proposed language would exclude section 105(l) of the 
ISDEAA as a source of entitlement to funding for section 105(l) leases, 
leaving it entirely within the discretion of the IHS. Tribes and Tribal 
organizations increasingly rely on section 105(l) leases to address 
chronically underfunded facilities operation, maintenance, and 
replacement costs. Congress declined to include such a provision in the 
fiscal year 2018 IHS appropriation bill and we ask that you treat this 
year's repeat proposal the same way.
                         contract support costs
    We greatly appreciate the House and Senate Interior Appropriations 
Subcommittees' work over the past several years in making a reality the 
full payment of Contract Support Costs CSC by both the IHS and the BIA. 
We are also very pleased that the administration--both the current and 
the previous one--has followed suit and requested that CSC be 
maintained as a separate appropriations account in IHS and in BIA and 
with an indefinite funding of ``such sums as may be necessary''. This 
action has, for example, helped to ensure that CSC would be fully 
funded without having to reprogram funding for critical healthcare 
services and other programmatic funding to cover the CSC need and has 
been crucial to the strengthening of Tribal governments' ability to 
successfully exercise their rights and responsibilities as governments. 
Thus, Maniilaq continues to believe that the indefinite appropriation 
of CSC funding must be made mandatory and permanent.
    In both the fiscal year 2017 and 2018 Appropriations Acts, however, 
the administrations proposed to reinstate provisions from the fiscal 
year 2016 Appropriations Act for IHS which are contrary to the Indian 
Self-Determination and Education Assistance Act with regard to CSC. The 
first is the ``carryover'' clause that could be read to deny the CSC 
carryover authority granted by the ISDEAA; the other is the 
``notwithstanding'' clause used by IHS to deny CSC for their grant 
programs--Domestic Violence Prevention; Substance Abuse and Suicide 
Prevention; Zero Suicide Initiative; after-care pilot projects at Youth 
Regional Treatment Centers; funding for the improvement of third party 
collections; and accreditation emergencies. We are grateful that the 
subcommittees have rejected these two proposals in the past and ask 
that you continue to do so.
                       ihs advance appropriations
    We ask for your support in placing the budget for the IHS on an 
advance appropriations basis. Under advance appropriations we would 
know a year in advance what the budget would be and importantly, would 
not continue to be constrained by the start and stop level funding of 
Continuing Resolutions (CRs), each of which requires the same 
processing and manpower for each partial payment as one full 
apportionment. For example, over the past several fiscal periods, 
appropriations have been enacted well after the beginning of the 
Federal fiscal year: nearly 6 months in fiscal year 2018, 7 months in 
fiscal year 2017, 2.5 months in both fiscal years 2016 and 2015, 3.5 
months in fiscal year 2014, and 6 months in fiscal year 2013. Following 
enactment, it then takes a few months before funds are cleared through 
the Office of Management and Budget, allocated to the IHS Area Offices, 
and then finally provided to the Tribes and Tribal organizations.
    Both the Tribal and IHS programs suffer under this situation. We 
need to be able to do the best job possible in planning, decisionmaking 
and administering programs, but we are impeded in our ability to do so 
because we do not know how much funding will be made available or when 
we will receive it. This uncertainty requires us to constantly re-work 
our budget and delay recruiting and hiring decisions, when we should be 
devoted to providing the best health services possible. These delays 
also ultimately cost us more money, since we are not able to take full 
advantage of buying items in bulk for lower cost, such as our heating 
fuel. Additionally, this fiscal uncertainty makes it incredibly 
difficult to plan capital improvement projects that are required to 
continue to provide quality services to our patients.
    Even if CRs had not become the norm, having advance notice of 
funding levels would aid greatly in our health programs planning, 
recruitment, retention, and leveraging of funds. Finally, we note again 
that the Veterans Health Administration accounts have been receiving 
advance appropriations since fiscal year 2010. Both the VA and the IHS 
provide direct medical care and both are the result of Federal 
policies. We ask that the IHS budget be afforded the same budget status 
consideration as the VA medical programs.
              special diabetes program for indians (sdpi)
    SDPI is a vital resource that has directly helped reduce the 
diabetes epidemic in Indian Country. That is why we were perplexed when 
the administration proposed, with no real explanation of why, that a 
number of health programs' funding, including SDPI, be changed from a 
mandatory to a discretionary status. We are concerned that if such a 
change were to be made, it could lead to a reduction in funding for 
this critical program. While the fiscal year 2019 administration's 
proposal is for level funding of $150 million for SDPI in discretionary 
funding in the IHS budget, that would not shield it from reductions in 
future years or the uncertainty of Continuing Resolutions. We 
understand if the administration's proposal were to be approved, these 
discretionary funds would have to come out of the Interior 
Appropriations Subcommittees' 302(b) allocations. We note that SDPI is 
currently funded through fiscal year 2019. We hope that SDPI can be 
made permanent at an increased funding level of $200 million or higher.
                            opioid epidemic
    We are pleased that the administration has proposed $150 million 
pass-through of funding from the Substance Abuse and Mental Health 
Services Administration to the IHS for the purpose of addressing the 
opioid epidemic. Indian Country has been hit especially hard by this 
disaster. As has been widely reported, Tribes have experienced the 
largest percentage increase of deaths from opioid abuse from 1999-2015 
of any other population in the Nation--519 percent. We understand that 
in anticipation that Congress will approve this important proposal, the 
IHS is considering the use of a funding distribution system that is 
similar to the one employed by the Special Diabetes Program for Indians 
whereby Tribes and Tribal organizations receive multi-year funding 
based on need and submission of eligible applications. We understand 
that IHS also intends to consult with Tribes regarding the distribution 
of these proposed funds and has been in discussion with other Federal 
agencies who are also funding initiatives to address the opioid 
epidemic.
             subsidies for telecommunications connectivity
    Maniilaq understands that the subcommittees do not directly control 
funding subsidies under the Federal Communications Commission and 
Universal Service Administrative Company (USAC). However, the USAC 
recently implemented a pro-rata reduction in Rural Health Care funding 
that subsidizes the extremely high costs of telecommunications and 
Internet connectivity in Alaska, which is critical to our being able to 
provide healthcare services. The funding cap has resulted in a reported 
$50 million in cuts nationally, and an $18.1 million unplanned 
shortfall for connectivity in Alaska--just for this year for Tribal 
health programs in Alaska. We are being told to expect more than twice 
that impact next year, which could exceed $35 million for Alaska Tribal 
health programs. We need Internet connectivity in order to provide 
health services, including telecommunications services and care 
coordination. We thus request the subcommittees' support for 
eliminating the cap and reinstating the full USAC subsidies to Tribal 
health programs throughout the State of Alaska.
            reject any fiscal year 2018 proposed rescissions
    We have heard the talk of possible fiscal year 2018 rescissions and 
must object to that. After this year's enactment of the Bipartisan 
Budget Act and the Consolidated Appropriations Act, 2018, it would be 
outrageous to break these congressional budget agreements and to 
interrupt the planning that is taking place among Tribes and Tribal 
organizations (and others) with regard to facilities, staffing, and 
services. We are grateful for the increases in the IHS and BIA fiscal 
year 2018 budgets made possible by those Acts, increases that should be 
maintained in the fiscal year 2019 appropriations bills.
                               conclusion
    Thank you for the opportunity to provide appropriations testimony 
on these critical programs. We deeply appreciate the work of the 
subcommittees and the bipartisan commitment to listening to Tribal 
priorities.

    [This statement was submitted by Tim Gilbert, President and CEO.]
                                 ______
                                 
         Prepared Statement of the Metlakatla Indian Community
    The requests of the Metlakatla Indian Community (MIC) for the 
fiscal year 2019 Interior, Environment, and Related Agencies budget are 
as follows:

  --Create a new category within the BIA Construction budget for 
        Electrical Transmission and Telecommunications project 
        construction, of which $11.5 million is needed to complete the 
        intertie between Annette Island Reserve, Alaska and neighboring 
        Ketchikan, Alaska.
  --Continue strong funding for the BIA Safety of Dams (SOD) program 
        within the BIA Resources Management Construction budget, of 
        which $1 million is needed to address the hazard mitigation 
        needs and initial planning phases for improvements at Chester 
        Lake Dam on Annette Island Reserve.
  --Continue strong funding for Tribal hatcheries under the Fish, 
        Wildlife, and Parks sub-activity within the BIA Trust-Natural 
        Resources Management budget.
  --Increase appropriations to support the ongoing implementation of 
        the U.S./Canada Pacific Salmon Treaty under both the BIA Trust-
        Natural Resources Rights Protection Implementation sub-activity 
        and the U.S. Fish and Wildlife Service's Pacific Marine 
        Fisheries Commission.
  --Continue strong funding for Tribal courts in Public Law 83-280 
        States under the BIA Public Safety and Justice Law Enforcement-
        Tribal Justice Support program element.
  --Ensure that there is full and mandatory funding for Contract 
        Support Costs (CSC).
  --Appropriate additional funding for Village Built Clinics and reject 
        the IHS proposals to limit 105(l) Clinic Leases.
  --Support IHS Advance Appropriations--just like what the VA has.
  --Shield IHS funding from sequestration--just like how VA funding is 
        shielded.
  --Reject any proposed fiscal year 2018 Rescissions for Indian 
        programs.

    The Metlakatla Indian Community (MIC) is located on the Annette 
Island Reserve in southeast Alaska, a land base of 87,000 acres which 
includes significant fish and forestry resources. Through our Annette 
Island Service Unit we provide primary health services at our 
outpatient facility through funding from the IHS as a co-signer to the 
Alaska Tribal Health Compact under the Indian Self-Determination and 
Education Assistance Act. We are currently experiencing an ongoing, 
community-wide emergency: the lakes on which our island community 
depends on for drinking water and hydropower have reached dangerously 
low levels resulting in intermittent blackouts and our increased 
reliance on back up diesel power. The extent of this emergency and our 
proposal for relief are described below.
create an electrical transmission and telecommunications category under 
                            bia construction
    We are currently experiencing an ongoing, community-wide emergency: 
because of changing weather patterns and decreased snowfall, the lakes 
on which our island community depends on for community drinking water 
and hydropower (Chester Lake and Purple Lake) have reached dangerously 
low levels resulting in intermittent blackouts, our increased reliance 
on dirty and unaffordable back up diesel power and uncertainty for our 
community's main employer who provides jobs that we absolutely cannot 
afford to lose. Over the past decades, we in partnership with several 
different Federal agencies have successfully invested millions of 
dollars in energy generation and transmission infrastructure through a 
combination of loans to the community and a few small grants. Right 
now, we need $11.5 million to run an undersea cable to finally complete 
the last portion of this intertie which will link our community with 
neighboring Ketchikan. The completion of this intertie will allow us to 
buy and sell affordable hydropower back and forth with Ketchikan as 
lake levels change and it will allow our community will finally access 
business-grade Internet speeds beyond the antiquated microwave 
technology on which we currently rely. All of our studies are done, all 
of our permits are complete. This project would absolutely transform 
our community but with 80 percent seasonal unemployment in our 
community, our ratepayers simply cannot afford for Metlakatla Power and 
Light (our utility company) to take on an $11.5 million loan--even at 
the very low Federal interest rates available today.
    To be clear, we do not need technical assistance or planning funds 
at this stage. We need on the ground construction funds to finally 
complete the very last portion of this critical project. We have been 
to every single Federal and State agency and office and every non-
profit that we can think of. Unfortunately, while everyone very much 
wants to help us, no one actually has the construction money to do so. 
We do not believe that we are the only Tribe in this position. Year 
after year, studies and planning documents pile up across Indian 
Country raising hopes, only for Tribes to find that construction 
priority lists are years long, require a substantial non-Federal match 
or come in the form of ``financing'' for communities who already have 
very little money to begin with. As you may remember, when Recovery Act 
funding was appropriated, Indian Country was immediately ready with a 
list of shovel-ready projects a mile long. We would particularly like 
to thank these subcommittees for recognizing this and substantially 
increasing appropriations for BIA Construction in fiscal years 2017 and 
2018. This is why in fiscal year 2019, we are proposing the creation of 
a new Electrical Transmission and Telecommunications category within 
the BIA Construction budget. We are here, we are ready and there is a 
tremendous pent up need for these vital projects in all of our 
communities.
            bia safety of dams funding for chester lake dam
    Once again, we would like to thank the subcommittees for increasing 
funding in fiscal years 2017 and 2018 for construction, particularly 
for Resources Management Construction. Chester Lake is our sole 
municipal water supply, so maintaining this reservoir is essential to 
the survival of the Tribe. Measures to secure and improve this water 
supply are a high priority to Tribal leaders. It is this consideration 
that led the Emergency Preparedness Task Force to enforce the cessation 
of hydropower operations from Chester Lake during the extremely low 
water period from July to September in 2016.
    This had the effect of making the Tribe rely more heavily on diesel 
power generation and the Purple Lake Dam. The BIA Safety of Dams 
Downstream Hazard Classification Study 2016 was performed in summer 
2016 to determine if the dam's hazard classification needed to be re-
evaluated and to begin potential work to make improvements to this 
reservoir.
    This process is part of the oversight provided by BIA SOD to ensure 
the safety of dams in Indian Country. In March 2017, SOD informed MIC 
that the Chester Lake Dam qualified to have its hazard classification 
upgraded from low to high hazard, thereby requiring additional 
comprehensive evaluation of the Dam, its status and steps to take to 
prevent any kind of an emergency or hazard to the community health and 
wellness.
    The MIC has determined, through this process, that $1 million in 
infrastructure funding is necessary to make safety improvements at 
Chester Lake Dam, as well as carry out necessary planning and studies 
for expansion of the dam's storage and hydropower production capacity. 
The total cost of this project will be approximately $12 million, but 
the initial funding will allow for immediate safety measures to be 
implemented to protect the drinking water supply while planning for the 
Phase 2 improvements that will increase not only water storage capacity 
but also expanded hydropower production from Chester Lake Dam.
                           tribal hatcheries
    We deeply appreciate the increase for the Fish, Wildlife, and Parks 
sub-activity within the BIA Trust-Natural Resources Management budget 
and are asking the subcommittees to continue this increased funding 
level for fiscal year 2019. MIC now receives hatchery funds from this 
sub-activity. Our new hatchery is now online and is expected to produce 
roughly 40 million more chum fry for the Northwest Region this year. 
Over the next 5 years, it is expected to produce 100 million more per 
year.
                   u.s./canada pacific salmon treaty
    Pacific salmon migrate through a broad geographic range that 
includes rivers, streams and the coastal waters of both the United 
States and Canada. Recognizing this reality, the Pacific Salmon Treaty 
was negotiated between the U.S. and Canada in 1985 to prevent 
overfishing and provide optimum production and fair sharing of the 
salmon harvest. In the U.S., salmon fisheries governed by the Treaty 
provide nearly 27,000 full time jobs and add nearly $2 billion annually 
to the gross domestic product. Funding to carry out different elements 
of the Treaty is appropriated through the Departments of Interior, 
State and Commerce. In the Department of Interior's budget, this 
funding is appropriated through the BIA Trust-Natural Resources Rights 
Protection Implementation sub-activity and the U.S. Fish and Wildlife 
Service's Pacific Marine Fisheries Commission. We would like to thank 
the subcommittees for rejecting the administration's request to 
substantially cut funding for the Rights Protection Implementation sub-
activity in fiscal years 2017 and 2018 and ask that you once again 
protect this sub-activity in fiscal year 2019 and if possible, increase 
funding for it.
    tribal court assistance for tribes subject to public law 83-280
    We deeply appreciate the much-needed support for Tribes who are 
affected by Public Law 83-280 and who are striving to serve their 
communities with competent and appropriate judiciary systems. We are 
grateful for both the increased appropriations directed to the BIA 
Public Safety and Justice Law Enforcement-Tribal Justice Support 
program element and the helpful report language provided in fiscal 
years 2017 and 2018.
    We ask that the subcommittees continue to include Public Law 280-
specific funding under this program element and continue to direct the 
BIA to ``continue to work with Tribes and Tribal organizations in these 
States to consider options that promote, design, or pilot Tribal court 
systems for Tribal communities subject to full or partial State 
jurisdiction under Public Law 83-280.''
         support for overarching priorities for indian country
    We would like to associate ourselves with Tribal testimony calling 
for:

  --Full and mandatory funding for Contract Support Costs (CSC).
  --Additional funding for Village Built Clinics and a rejection of the 
        IHS proposals to limit 105(l) Clinic Leases.
  --Support for IHS Advance Appropriations--just like what the VA has.
  --Shielding IHS funding from sequestration--just like how VA funding 
        is shielded.
  --Rejecting any proposed fiscal year 2018 Rescissions for Indian 
        programs.
                               conclusion
    We are glad to provide any additional information you may request. 
Thank you for your consideration of the concerns and requests of the 
Metlakatla Indian Community.

    [This statement was submitted by William Wilson, Tribal 
Councilmember.]
                                 ______
                                 
  Prepared Statement of the Minerals Science and Information Coalition
    On behalf of the undersigned members of the Minerals Science and 
Information Coalition, thank you for the opportunity to submit a 
written statement to the record on fiscal year 2019 appropriations 
related to the Mineral Resources Program within the U.S. Geological 
Survey (USGS).
    The Minerals Science and Information Coalition (``MSIC'' or ``the 
Coalition'') is a broad-based alliance of minerals and materials 
interests united in advocating for reinvigorated minerals science and 
information functions in the Federal Government. The Coalition is 
comprised of trade associations, scientific and professional societies, 
groups representing the extractive industries, processors, 
manufacturers, other mineral and material supply-chain users, and other 
consumers of Federal minerals science and information.
    MSIC supports the President's request for $58 million for the U.S. 
Geological Survey's Mineral Resources Program for fiscal year 2019 and 
commends the maintenance of funding levels for minerals science in the 
Consolidated Appropriations Act of 2018.
    Every sector of industry relies on a variety of minerals to 
generate their end products, making a stable and reliable supply of 
minerals vital for the continued growth and success of our economy. 
Minerals are critical ingredients in specialized applications for 
national defense and energy technologies, as well as essential building 
blocks for buildings, roads and civic infrastructure projects. They are 
used in the manufacture of paper, glass, ceramics, plastics, refined 
metals, and a host of intermediary materials. These minerals and 
materials are vital for manufacturing products that define our daily 
lives including automobiles, mobile phones, and computers. Whether 
acting as the raw materials for manufacturing processes or as the end 
products themselves, minerals are part of daily life in virtually every 
product we use.
    A stable and reliable mineral supply chain is critical for the 
continued growth and success of our economy. Supply chains can be long, 
complex, and vulnerable to disruption for many reasons. The 
restrictions in the supply of rare Earth elements, for example, 
threaten the production of components essential for U.S. defense 
systems, in addition to a vast array of communications, clean energy, 
electronics, automotive, and medical products. Understanding both our 
domestic mineral resources and the greater supply chain is imperative 
as our reliance on foreign imports continues to grow. MSIC is pleased 
to note the commitment by the administration and Secretary Zinke to 
invest in the Mineral Resources Program (MRP) at USGS, as seen through 
the Executive and Secretarial orders on Critical Minerals and the 
fiscal year 2018-2019 funding requests. The Coalition is supportive of 
the funding requests and increased awareness of the importance of 
minerals science and information.
                     usgs mineral resources program
    The Minerals Science and Information Coalition supports the 
prioritization of USGS's Mineral Resources Program as it is vitally 
important to our national defense and economic well-being. The Nation's 
manufacturing, pharmaceutical, and agricultural sectors rely on 
impartial information from the Federal Government to build stable 
supply chains. The MRP assists decision-makers in making informed 
choices by providing reliable, accurate information about the location, 
quantity, and quality of mineral resources. This information is the 
foundation for identifying and anticipating existing and emerging 
vulnerabilities: it is paramount for sound decisionmaking by business 
leaders and policymakers.
    This includes USGS's development of the Three Dimensional mapping 
and Economic Empowerment Program (3DEEP), to improve the topographic, 
geological, and geophysical mapping of the United States. Programs such 
as 3DEEP create a strong scientific foundation for understanding our 
resources and allow for the development of longterm, proactive public 
policies.
    Equally important to current supply chain studies, the minerals 
science conducted by MRP covers the full life cycle of minerals, from 
the discovery of mineral deposits to the disposal of mineral products, 
including understanding how mineral deposits are formed, the nature and 
location of mineral deposits, and the environmental issues associated 
with responsible mineral extraction and land restoration. The MRP has a 
long and distinguished history of research and assessment of our 
Nation's mineral resources, from production through life cycle. The 
holistic understanding of minerals science allows us to balance our use 
and maximize the value of our natural resources.
    The National Minerals Information Center (NMIC), within MRP, is the 
premier source of information on the worldwide supply of, demand for, 
and flow of minerals and materials. The NMIC's consistency and 
reliability of data over decades are its greatest strengths. NMIC's 
data and products are used throughout the Federal Government to support 
economic, national security, and land use decisionmaking. NMIC's data 
is also critical to private sector investment and financial 
institutions. Due to our expanding use of a range of critical and 
strategic mineral commodities that are essential to our defense, 
economy, and wellbeing, the Mineral Science and Information Coalition 
applauds the administration's commitment to funding minerals science. 
The fiscal year 2019 funding request will help guarantee NMIC receives 
the resources needed to develop and maintain a robust forecasting 
function for the minerals sector.
    The Mineral Science and Information Coalition encourages you to 
fund these programs at the requested levels and thanks you for 
understanding and valuing the role USGS and minerals science, 
specifically the Minerals Resource Program and National Minerals 
Information Center, play in our economic and national security.

American Chemical Society
American Geosciences Institute
American Exploration & Mining Association
American Physical Society
Association of American State Geologists
Industrial Minerals Association--North America
National Industrial Sand Association
National Mining Association
National Stone, Sand, and Gravel Association
Society of Economic Geologists, Inc

    If you would like any additional information for the record, please 
contact Ariel Hill-Davis, Vice President, Industry and Regulatory 
Affairs, Industrial Minerals Association--North America, 1200 18th St 
NW, Suite 1150, Washington, D.C. 20036. <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e584978c80898d8c89898184938c96a58c8884c88b84cb8a9782cb">[email&#160;protected]</a> 202-
457-0200.

    [This statement was submitted by Mark Ellis, Chair.]
                                 <greek-l>
                                 ______
                                 
                Prepared Statement of MountainPact1 deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <greek-l>
                                 ______
                                 
                Prepared Statement of MountainPact2 deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <greek-l>
                                 ______
                                 
                Prepared Statement of MountainPact3 deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
 Prepared Statement of the National Association of Abandoned Mine Land 
                                Programs
    My name is Bob Scott and I serve as Director of the Division of 
Abandoned Mine Lands within the Kentucky Department of Natural 
Resources. I am providing this statement on behalf of the National 
Association of Abandoned Mine Land Programs (NAAMLP), for which I 
currently serve as President. NAAMLP represents 31 States and Tribes, 
of which 28 implement federally approved abandoned mine land 
reclamation (AML) programs authorized under Title IV of the Surface 
Mining Control and Reclamation Act (SMCRA).
    As you know, the 2006 amendments to Title IV of SMCRA significantly 
changed how State and Tribal AML grants are funded. These grants are 
still based on receipts from a fee on coal production, but beginning in 
fiscal year 2008, the grants are funded primarily by mandatory 
appropriations. As a result and based on current OSMRE projections, the 
States and Tribes should receive $327.6 million (before sequestration) 
in fiscal year 2019.
    OSMRE's budget includes a discretionary funding request that would 
provide $20.4 million, a decrease of $6.6 million from the previous 
year. From this amount, OSMRE must meet the supplemental grant needs of 
States operating at ``minimum program'' status (``minimum program make-
up funds''), as well as fund other activities and obligations including 
the agency's own AML work, administration of the AML Fund, and other 
activities in support of the AML program. While the amount provided 
should be sufficient to cover minimum program funding needs,\1\ it 
should be noted that the decrease might strain the agency's ability to 
meet its other programmatic obligations.
---------------------------------------------------------------------------
    \1\ In fiscal year 2018 for example, 12 minimum program States 
received minimum program make-up funds totaling approximately $18 
million. It should be noted that other AML programs may become minimum 
programs in the future requiring additional funds for this category.
---------------------------------------------------------------------------
    SMCRA has been successful largely as a result of the cooperative 
Federalism model that it employs. While the States and Tribes 
understand and appreciate OSMRE's role in the AML program under SMCRA, 
we caution against using limited OSMRE funding for unproductive ends, 
for example OSMRE oversight that second-guesses State/Tribal 
assessments or requires unnecessary levels of supplemental information 
that does not advance program purposes. Rather than having OSMRE simply 
engaging in more oversight, the States and Tribes would benefit from a 
more collaborative relationship with OSMRE in completing the hard work 
associated with these program requirements. Minimum program States are 
particularly reliant on this type of support.
    For example, we believe that funding for technical assistance and 
applied science projects related to AML work is particularly important. 
We also urge the subcommittee to maintain necessary funding for OSMRE's 
training program and TIPS, including moneys for State/Tribal travel. 
These programs are central to the effective implementation of State and 
Tribal AML programs as they provide necessary training and continuing 
education for State/Tribal agency personnel, as well as critical 
technical assistance.
    We also strongly support maintaining funding for the Watershed 
Cooperative Agreements in the amount of $1.5 million, which is proposed 
to be eliminated in OSMRE's 2019 budget request. This funding serves an 
important role in facilitating State and local partnerships, thereby 
helping to leverage outside sources of funding and preserve precious 
reclamation grant funding.\2\
---------------------------------------------------------------------------
    \2\ Funding for these agreements will also potentially be a key 
support for Good Samaritan programs and projects should Congress adopt 
legislative language supporting Good Samaritan clean up activities.
---------------------------------------------------------------------------
    IMCC and NAAMLP strongly recommend an increase in annual funding 
available to minimum program States. These States often have very 
significant AML inventories but funding under the current grant 
distribution formula is not enough to make efficient progress with 
their AML inventories.\3\ In the interest of enabling these AML 
programs to fulfill their potential, NAAMLP believes an increase in 
minimum program funding to an annual grant amount of at least $5 
million would be very beneficial.
---------------------------------------------------------------------------
    \3\ At the current rate, some minimum program States have AML 
inventories that would literally take hundreds of years to reclaim 
completely.
---------------------------------------------------------------------------
    Further to the goal of efficiency in the use of limited AML grant 
funding, sequestration of AML grants under the Budget Control Act of 
2013 is an increasing concern to the State and Tribal AML programs. In 
fiscal year 2018, a sequestration reduction of 6.8 percent translated 
to $21.2 million withheld for a total of approximately $118.6 million 
withheld since 2013.\4\
---------------------------------------------------------------------------
    \4\ For minimum program States only receiving $3 million per year 
the loss is especially problematic.
---------------------------------------------------------------------------
    NAAMLP recommends that Congress consider the exemption of the AML 
fund from sequestration a priority as it pursues legislative 
initiatives related to AML, as the benefits are patent, and every 
dollar of AML funding is needed. Because the AML fee is paid by the 
coal mining industry for the exclusive purpose of AML remediation, 
withholding that funding does not actually reduce the Federal budget 
deficit. NAAMLP also recommends that the subcommittee explore 
mechanisms to release the growing balance of withheld AML moneys 
related to sequestration as part of the appropriations process.\5\
---------------------------------------------------------------------------
    \5\ According to OSMRE, the specific amounts that have been 
withheld from each State or Tribe are being held in the AML Fund and 
are being tracked so that, once OSMRE has authority to distribute those 
funds, they can be returned to the State and Tribal AML programs for 
which they were originally intended. According to OSMRE, there is no 
authority to distribute withheld funds unless provided by Congress.
---------------------------------------------------------------------------
    NAAMLP also recommends attention be given to the way AML 
emergencies are funded under Title IV. Responding to sudden emergencies 
such as mine subsidence, blow-outs, sinkholes and landslides is one of 
the AML programs' most important functions. Starting in 2010, OSMRE 
instituted a policy whereby State and Tribal AML programs must fund AML 
emergencies from their regular AML grants. This change has proven 
problematic in that it diverts grant funding away from progress with 
AML inventories.\6\ For minimum program States, a single emergency can 
preempt a year of progress. NAAMLP recommends a return to the pre-2010 
system wherein AML programs received reimbursement from the OSMRE 
discretionary share for emergency projects. This will encourage 
efficient progress with reclamation as well as ensure that the State 
and Tribal AML programs are well equipped to fulfill their important 
public safety role.
---------------------------------------------------------------------------
    \6\ This is a particular problem for minimum program States, who 
can have entire years worth of progress with their limited annual grant 
be preempted by a single emergency project.
---------------------------------------------------------------------------
    The Committee's recognition of the important role played by the AML 
program is evidenced by the ongoing provision of AML Economic 
Development Grant Pilot funds. The projects underway due to this pilot 
program exhibit potential economic as well as safety and environmental 
benefit, though the types of projects undertaken and benefits they hope 
to achieve have varied significantly between the States. The pilot as 
also served to inform potential future economic development-focused 
reclamation efforts. NAAMLP therefore opposes the reduction of funding 
for the pilot program in OSMRE's fiscal year 2019 proposed budget, and 
notes that these grants are not redundant to regular AML grant funding; 
pilot funding has a distinctly economically-focused purpose, whereas 
regular AML grant funding is focused on human and environmental health.
    While the pilot program has been generally successful so far, and 
OSMRE's guidance documentation has been helpful, the States involved 
with the pilot program recommend that OSMRE's project vetting process 
could be more efficient. Several States are experiencing back ups as 
they await project approvals from OSMRE for their pilot project 
proposals, which could cause significant delays if construction seasons 
are allowed to pass before projects can get underway. A degree of shift 
in the direction of efficiency may aid the overall success of the 
program at this juncture.
    Beyond the coal sector, NAAMLP represents many States with 
significant hardrock AML problems within their borders.\7\ In the 
absence of a hardrock AML funding source comparable to Title IV funding 
for coal AML, State and Tribal hardrock AML programs struggle to 
maintain adequate funding and make consistent progress. There is no 
comprehensive account of the scale of the hardrock AML problem, but it 
is often cited as being in the tens of billions of dollars. In light of 
the disparity between available funding and the scale of the problem, 
NAAMLP is concerned with significant reduction to hardrock AML funding 
contained in the BLM fiscal year 2019 proposed budget. The proposal for 
BLM's hardrock AML program would combine the AML program with the 
hazardous materials program, with the amount appropriated for the 
combined program (approximately $13 million) being less than what was 
previously provided just for AML (approximately $19 million). BLM 
hardrock AML funding is one of very few resources available for 
hardrock AML reclamation and water treatment. The majority of hardrock 
AML problems occur on Federal lands, meaning that the BLM AML program 
is the primary means of addressing public safety and environmental 
impacts. What's more, BLM cooperates closely with the State and Tribal 
AML programs to conduct this work, meaning that the cut to BLM funding 
will have a cascading negative effect on the State- and Tribal-level 
programs. NAAMLP therefore recommends that funding for BLM's hardrock 
AML program be maintained at $15 million and the reduction to that 
funding recommended in BLM's proposed fiscal year 2019 budget be 
rejected.
---------------------------------------------------------------------------
    \7\ For example, Arizona alone estimates that they have in excess 
of 50,000 hazardous historic-mining hazards. More information about 
remaining AML reclamation costs and reclamation accomplishments can be 
found in NAAMLP's 2018 Update of the ``Safeguarding, Reclaiming, 
Restoring'' booklet.
---------------------------------------------------------------------------
    Returning to discussion of coal AML--with the AML fee on which the 
Title IV program relies set to expire in 2021, NAAMLP has been in 
engaged in serious discussions regarding the program's future. It is 
clear that the continuing need for these programs is strong. The AML 
pilot highlights the fact that AML work is especially important to the 
struggling communities in Appalachia who have been hit hardest by 
downturns in coal related employment--the mitigation of which has been 
a congressional and administration priority in recent years. AML sites 
endanger public health and safety, degrade the environment, and dampen 
economic prospects, which severely constrains well-being and growth in 
AML-impacted communities nationwide. AML programs have been contending 
with these issues for 40 years or more and have learned much about the 
true depth and scale of AML impacts over that time, as well as the 
health and economic benefits these projects bring to nearby 
communities.
    Despite the progress that has been made, the time allotted to the 
AML programs to restore impacts from more than two hundred years of 
unregulated coal mining has simply not been adequate to complete that 
mission by the time the AML fee expires in 2021. Current OSMRE 
estimates project that over $10 billion in reclamation costs will 
remain, and NAAMLP believes the true costs are significantly higher. 
There can be little question that if the AML program is to complete its 
mission, and if its fundamental contributions to living conditions and 
economic circumstances in coalfield communities are to continue, 
additional AML funding will be required beyond 2021. If the AML fee is 
not reauthorized, consideration must be given to how the more than $10 
billion in public liability represented by remaining coal AML costs 
will be addressed.
    Discussion around reauthorization of the AML program will soon come 
to the forefront. At that time, important questions will be asked about 
how much and what type of AML work is being accomplished and what types 
of AML problems remain. It should be noted that the AML accomplishments 
data furnished by OSMRE through its budget justifications document and 
the e-AMLIS database represent only a selective portion of the work 
that is being accomplished through AML grant funding. This is mainly 
due to the fact that e-AMLIS only records construction costs and does 
not include data on costs such as program administration, project 
management, and most importantly, project design. NAAMLP has been 
working with OSMRE to examine data related to the AML program and is in 
the late stages of developing information to more accurately tell the 
story of the AML program. As an example of what has so far been 
produced by that effort, the NAAMLP 2017 Accomplishments report can be 
found in the footnote below.\8\ The State and Tribal AML programs have 
been in the lead role in conducting reclamation and tracking progress 
for the last 40 years. We hope to work closely with the Committee as it 
considers the future of the AML program.
---------------------------------------------------------------------------
    \8\ NAAMLP 2017 Accomplishments Report: http://www.naamlp.net/
memberinfo/NAAMLP
AccomplishmentReport2017.pdf.
---------------------------------------------------------------------------
    Thank you for the opportunity to submit this statement regarding 
OSMRE's proposed budget for fiscal year 2019. I would be happy to 
answer any questions you may have or provide additional information.
                                 ______
                                 
  Prepared Statement of the National Association of Clean Air Agencies
    On behalf of the National Association of Clean Air Agencies 
(NACAA), thank you for this opportunity to testify on the fiscal year 
2019 proposed budget for the United States Environmental Protection 
Agency (EPA), particularly grants to State and local air pollution 
control agencies under Sections 103 and 105 of the Clean Air Act (CAA), 
which are part of the State and Tribal Assistance Grant (STAG) program. 
NACAA recommends that Congress increase State and local air grants by 
$75 million above fiscal year 2018 levels (i.e., approximately $151 
million above the administration's request), for a total of $303 
million. This level of Federal support is calibrated to the scope and 
complexity of the Federal requirements State and local agencies must 
meet to assume or continue implementation responsibilities. NACAA 
opposes the administration's proposal to cut State and local air 
quality grants by 33 percent (from $228 million in fiscal year 2018 to 
$152 million in fiscal year 2019), which would be detrimental to the 
public's health and welfare. Additionally, NACAA recommends that these 
agencies be provided with flexibility to use the increased funds on the 
highest priority programs in their areas. Finally, NACAA requests that 
grants for fine particulate matter monitoring remain under CAA Section 
103 authority, where matching funds are not required, rather than being 
shifted to Section 105 authority.
    NACAA is the national, non-partisan, non-profit association of 156 
local and State air pollution control agencies in 41 States, the 
District of Columbia and four territories. The members of NACAA have 
the primary responsibility under the Clean Air Act for implementing our 
Nation's clean air program. The air quality professionals in our member 
agencies have vast experience dedicated to improving air quality in the 
United States. These observations and recommendations are based upon 
that experience. The views expressed in this testimony do not 
necessarily represent the positions of every State and local air 
pollution control agency in the country.
    increases in federal grants to state and local air agencies are 
                               essential
    State and local air pollution control agencies have struggled with 
insufficient resources for many years. NACAA members have faced the 
hard choices and made the difficult decisions to address their budget 
shortfalls. They have cut expenses, reduced staff, deployed Lean 
efforts and explored organizational realignments to maximize 
efficiencies in their programs. Addressing these funding shortfalls 
while effectively meeting Federal requirements and implementing their 
missions has been very challenging for these agencies.
    State and local air agencies' responsibilities have continued to 
grow while funding has lagged behind. Federal grants to State and local 
air quality agencies were $228 million in fiscal year 2018, which is 
the same amount these agencies received 14 years ago, in fiscal year 
2004. If the fiscal year 2004 figure is adjusted for inflation, level 
funding would translate to approximately $303 million in today's 
dollars--a $75-million difference. NACAA's recommendation of $75 
million above the fiscal year 2018 amount is merely suggesting level 
funding from 14 years ago, adjusted for inflation.
    Additional funds to adjust for inflation would support the 
administration's approach of increased responsibilities for State and 
local agencies as part of its emphasis on ``Cooperative Federalism.'' 
State and local air agencies are already underfunded and even now bear 
a disproportionate share of the cost of the national air program. In 
order to take on new clean-air efforts under Cooperative Federalism, 
they would need additional Federal resources to support those 
activities.
    Increased funding would allow agencies to make investments that 
will modernize and streamline their operations. It is critical that 
funds are allocated to ensure State and local agencies can meet the 
customer demands of automation through information technology (IT) 
systems, digitization (reducing labor-intensive paper processes) and 
mobility (ensuring digital collection of data in the field, e.g., 
compliance information). They could then improve services to the 
regulated community and the public, such as timely and efficient permit 
processing and streamlined regulatory operations and compliance 
assistance, all of which are in demand by customers and contribute to 
economic development. Such efforts can also enhance transparency and 
create added pathways for public access to information.
    State and local agencies also would use increased grants to 
modernize their systems to keep pace with trends in the digital 
economy, as well as for a variety of mission applications, especially 
if they are provided with the flexibility to target grant increases for 
the highest priority activities in their areas, as NACAA recommends. 
These funds would be used to support their operations, equipment and 
facilities. State and local air quality agencies are required to carry 
out many essential activities to obtain and maintain healthful air 
quality. These include not only new efforts, but also ongoing day-to-
day responsibilities that constitute the foundation or ``core'' of our 
programs. Some of these core responsibilities for fiscal year 2019 
include implementing the health-based national ambient air quality 
standards (NAAQS) for multiple pollutants, including developing and/or 
revising State Implementation Plans (SIPs) for each of the NAAQS--
especially for ozone, fine particulate matter (PM<INF>2.5</INF>) and 
sulfur dioxide; implementing new and updated air toxics Risk and 
Technology Review standards; addressing visibility and regional haze 
problems; arming citizens with information to protect themselves during 
catastrophic events (e.g., wildfires); and implementing motor vehicle 
and related fuels programs.
    Completing all of these actions is resource- and labor-intensive 
and requires additional Federal grant funds. These tasks include 
developing plans to bring areas from nonattainment into attainment; air 
resource planning; compiling comprehensive emission inventories; 
conducting complex modeling; analyzing extensive and complex data; 
adopting regulations; providing compliance assistance; inspecting 
facilities and enforcing regulations, as necessary; addressing 
complicated air pollution transport matters; issuing small business 
permits; and informing and involving the public in air quality 
decisions and issues.
    One other major responsibility that is a critical element of State 
and local programs, and for which additional funds are needed, is the 
operation of ambient air monitoring equipment and networks. Monitoring 
is essential for determining the extent and location of air pollution 
and assessing the effectiveness of planning, permitting and enforcement 
programs. Additional funds will ensure that agencies can continue to 
collect high-quality monitoring data, which regulators and the 
regulated community agree is crucial, as well as enable regular 
equipment replacement, as EPA requires in equipment-replacement plans. 
While the smaller individual samplers and sensors appearing on the 
market can provide helpful data, they are not a substitute for a robust 
national ambient monitoring program that provides necessary and 
quality-assured information for judicious decisionmaking by Federal, 
State and local regulators and the regulated community.
        grant cuts will severely impair state and local programs
    In light of the critical need for increased grant funding, State 
and local air agencies would find it difficult to accommodate any cuts 
to Federal air quality grants. The cuts to State and local air quality 
grants contemplated in the fiscal year 2019 budget proposal--
approximately 33 percent--would mean many State and local agencies 
would not be able to fully implement the Federal requirements of the 
CAA's health-based standards and deliver the healthful air the public 
expects. Indeed, if Congress enacts the cuts being proposed for fiscal 
year 2019, we fear more people will die prematurely and get sick 
unnecessarily.
    When grant reductions were proposed last year, NACAA surveyed State 
and local air quality agencies to learn what a reduction of 
approximately 30 percent in Federal air quality grants would mean to 
their programs.\1\ In responding to the NACAA survey last year, agency 
after agency painted a similar picture of severe curtailments to their 
activities in the face of the proposed steep cuts: cancellation of 
programs, loss of staff and a diminished capacity to obtain and 
maintain clean air. Nearly every respondent reported that cuts of this 
magnitude would severely reduce the essential services agencies 
provide. These services are required not only by the general public, 
with respect to decreasing air pollution, maintaining clean air and 
generally protecting public health, but also by the regulated 
community, who require quick, consistent and defensible permitting, 
compliance assistance and other services.
---------------------------------------------------------------------------
    \1\ NACAA Report, Impacts of Proposed fiscal year 2018 Budget Cuts 
on State and Local Air Quality Agencies (May 22, 2017), http://
www.4cleanair.org/sites/default/files/Documents/NACAAFundingReport-
fiscal year 2018.pdf.
---------------------------------------------------------------------------
    Additionally, State and local air quality agencies reported that a 
30-percent cut in grants could force them to turn some of their 
important Clean Air Act implementation work back to the Federal 
Government. This would be counter to the philosophy of Cooperative 
Federalism, which is intended to place even greater reliance on State 
and local air agencies.
    Finally, without sufficient resources to carry out required 
mandates, regions of the country could be sanctioned under the CAA, 
including the withholding of significant Federal highway funds, severe 
emissions ``off-set'' limits that could interfere with economic 
development and the possibility of EPA imposing Federal Implementation 
Plans on States.
air pollution is still a significant threat to human health in spite of 
                              improvements
    Great strides have been made in lessening air pollution in this 
country. Yet, it remains a significant threat to human health and there 
is still so much work to be done. Tens of thousands of people in this 
country die prematurely each year and many others suffer serious health 
problems as a result of exposure to air pollution. These health 
complications include premature mortality, cancer, heart attack, stroke 
and neurological and reproductive damage.\2\
---------------------------------------------------------------------------
    \2\ EPA Report Our Nation's Air: Status and Trends through 2016, 
https://gispub.epa.gov/air/trendsreport/2017/#sources.
---------------------------------------------------------------------------
    According to EPA figures, about 120 million people in this country 
(about 40 percent of the population) lived in counties that exceeded at 
least one of the Federal health-based air pollution standards in 
2015.\3\ With respect to hazardous air pollutants (HAPs), EPA's most 
recent National Air Toxics Assessment (NATA) indicates that in 2011 
``all 285 million people in the U.S. ha[d] an increased cancer risk of 
greater than 10 in one million,'' while one-half million people had an 
increased risk of cancer of over 100 in a million, due to exposure to 
HAPs.\4\
---------------------------------------------------------------------------
    \3\ Fiscal Year 2019 EPA Budget in Brief (February 2018), page 16, 
https://www.epa.gov/sites/production/files/2018-02/documents/fy-2019-
epa-bib.pdf.
    \4\ http://www.epa.gov/national-air-toxics-assessment/2011-nata-
assessment-results.
---------------------------------------------------------------------------
    While Congress as a whole and this subcommittee specifically must 
find funding for many serious problems, it is unlikely that any are a 
greater threat to the health of Americans than air pollution. This 
subcommittee has an opportunity and obligation to protect and improve 
the health of millions of people in this country by providing adequate 
Federal funding for State and local air pollution control programs.
 nacaa recommends that monitoring grants remain under caa section 103 
                               authority
    The administration's recommended budget calls for EPA to shift 
funds for PM<INF>2.5</INF> monitoring from Section 103 authority, under 
which State or local matching funds are not required, to Section 105, 
which would require a match. NACAA recommends that these 
PM<INF>2.5</INF> monitoring grants remain under Section 103 authority. 
If a State or local agency is unable to meet the matching requirements, 
retaining the funds under Section 103 will ensure that they do not have 
to refuse essential monitoring funds because they do not have the 
resources for the match. In previous years, Congress has been 
responsive to our requests on this issue, for which we are extremely 
grateful, and NACAA recommends again that these grants remain under 
Section 103 authority.
                               conclusion
    NACAA recommends that Congress increase State and local air grants 
by $75 million above fiscal year 2018 levels (i.e., approximately $151 
million above the administration's request), for a total of $303 
million. NACAA opposes the administration's proposal to cut State and 
local air quality grants by 33 percent (from $228 million in fiscal 
year 2018 to $152 million in fiscal year 2019). Additionally, NACAA 
recommends that State and local agencies be provided with flexibility 
to use the increased funds on the highest priority programs in their 
areas. Finally, NACAA requests that grant funds for PM<INF>2.5</INF> 
monitoring remain under Section 103 authority, rather than being 
shifted to Section 105 authority.
    Thank you for the opportunity to submit testimony on these 
important programs and for considering the funding needs of State and 
local air quality agencies.
                                 ______
                                 
 Prepared Statement of the National Association of Clean Water Agencies
    The National Association of Clean Water Agencies (NACWA) represents 
a growing network of more than 300 public wastewater and stormwater 
agencies nationwide who collectively serve more than 125 million 
Americans. NACWA thanks the subcommittee for its work in fiscal year 
2018 to provide strong funding for clean water, including dedicating 
increased infrastructure investment to our Nation's critical water 
needs. Looking to build on that strengthened Federal funding 
partnership, below are our fiscal year 2019 EPA Appropriations 
priorities.

Program: Clean Water State Revolving Fund
Funding Request: $2.8 B (2x fiscal year 2017 enacted, an increase of 
        $1.106B over fiscal year 2018 enacted).

    The Clean Water State Revolving Fund (CWSRF) is a critical tool 
which municipal clean water agencies leverage to help meet their 
Federal obligations under the Clean Water Act. In the United States, 
more than 90 percent of water infrastructure investment comes through 
local ratepayer and State investment. Importantly, the low-interest 
loans--and in limited cases, grants and loan forgiveness--that the 
CWSRF facilitates helps clean water agencies finance infrastructure 
investments at favorable rates and better manage impacts to ratepayers.
    The CWSRF is increasingly crucial at a time when sewer and water 
rates are increasing well above the rate of inflation. NACWA analysis 
found that in 2017, the national average cost of wastewater services 
rose faster than the rate of inflation for the 16th year in a row, 
rising 3.6 percent in 2017 alone. The national average amount that a 
single-family residence pays for wastewater collection and treatment 
[not including drinking water service] is now $501 per year. Key 
drivers of rising rates include Federal consent decrees requirements, 
associated capital construction and debt service, CSO and SSO controls, 
and sewer rehabilitation and replacement.
    The CWSRF has been instrumental in many communities' successes in 
complying with National Pollutant Discharge Elimination System (NPDES) 
permits, implementing secondary (biologic) treatment of wastewater, and 
reducing the frequency and size of sewer overflows during wet weather 
events. The CWSRF is also essential for many communities working to 
implement new regulatory requirements ranging from updated water 
quality standards to tightening nutrient limitations. And, the CWSRF is 
increasingly used to help implement innovative stormwater and nutrient 
management projects and green infrastructure.
    Increasing national attention on the State of our Nation's water 
infrastructure is welcomed by NACWA, and we are excited to work with 
Congress on innovative proposals to boost water infrastructure 
investment and better address the infrastructure investment gap. That 
said, the CWSRF, with its demonstrated success in facilitating 
investment in communities large and small, must continue to be a key 
part of the infrastructure solution. NACWA strongly appreciates the 
increase from $1.394B in fiscal year 2017 to $1.694B in fiscal year 
2018, and urges continued strong support toward a water sector goal of 
reaching $2.8 Billion in annual Federal appropriation for the Fund.

Program: Water Infrastructure Finance and Innovation Act (WIFIA) 
        program
Funding Request: $63 Million

    The newer WIFIA program is a promising compliment to the CWSRF and 
DWSRF, providing a new tool to address water infrastructure investment 
by leveraging limited Federal resources. This new mechanism, first 
authorized in 2014, was designed primarily to fund large water 
infrastructure projects over $20 million. NACWA has been engaged and 
pleased with the Agency's efforts to establish the program. In April 
2018 EPA made its first loan under the new program, for which 
applications greatly exceeded available funding. NACWA is strongly 
supportive of the significant increase in funding for WIFIA provided in 
fiscal year 2018 and encourages at least level funding with the $63 
million provided in the fiscal year 2018 omnibus.

Program: Integrated Planning
Funding Request: Provide at least $6.5 M for Integrated Planning

    NACWA utility members were encouraged by the Integrated Planning 
Framework for Municipal Stormwater & Wastewater which EPA put forth in 
2012. The Integrated Planning approach can help municipalities in 
addressing their Clean Water Act obligations by providing an approach 
to prioritizing clean water investments within a compliance schedule 
that focuses on the highest-impact investments first. The approach can 
help address rising rates and affordability issues impacting local 
utilities and ratepayers by generating greater ``bang for the buck,'' 
and allowing communities to address environmental and public health 
issues holistically and cost-effectively. NACWA has been pleased to see 
bipartisan congressional support for Integrated Planning, including 
legislation to codify this approach that has passed the 115th Senate 
(S. 692). We urge funding targeted to helping the Agency provide 
technical assistance to pilot communities as this approach becomes 
better accepted and understood.

Program: Geographic Programs
Funding Request: At least $473 Million, to provide full funding across 
        Geographic Programs

    USEPA's Geographic Programs, including the Great Lakes Restoration 
Initiative (GLRI), Chesapeake Bay Program, and Long Island Sound among 
others support watershed-based investments aimed at improving water 
quality. The goals and impacts of these programs cross multiple States, 
impact waters of national significance, and leverage significant State, 
local, and private dollars. In many cases, the geographic programs have 
helped forge partnerships between clean water agencies, upstream 
landowners, conservation groups, and other stakeholders to 
strategically address root problems and advance water quality, reduce 
historic contamination, restore habitat, and many other goals that 
advance the Clean Water Act goals of fishable and swimmable waters.
    NACWA is strongly encouraged by the strong bipartisan congressional 
support these programs enjoy, particularly in light of recommendations 
in the Presidents' budget to drastically reduce their funding. We urge 
Appropriators to maintain full funding for these important and 
successful programs in fiscal year 2019.

Program: Categorical Grants: Nonpoint Source Sec. 319
Funding Request: $170.92 M (Maintain fiscal year 2018 enacted level)

    The CWA has been remarkably successful in reducing point source 
discharges. In many watersheds nonpoint sources remain the largest 
outstanding driver of water quality impairments. Thus, continued 
progress on improving water quality under the CWA relies in large part 
on the ability to improve nonpoint source management. Nonpoint sources 
also contribute to acute public health risks such as harmful algal 
blooms and threats to drinking water.
    Nonpoint Source grants are provided to State, Tribes, and 
territories to aid implementation of EPA-approved Nonpoint Source 
Management Programs under Sec. 319 of the CWA. Activities provided 
under these programs include technical and financial assistance to 
municipalities, outreach and education, and technology transfer and 
training. These programs also help monitor and assess the impacts of 
nonpoint management projects, an area where continued research and 
documentation is in demand by public entities and the private sector.

Program: Categorical Grants: Pollution Control Sec. 106
Funding Request: $230.81 M (Maintain fiscal year 2018 enacted level)

    Under Sec. 106 of the CWA, EPA provides Federal assistance to 
States and Tribes to aid in their role of enforcing the CWA. Strong 
State programs are essential to the cooperative Federalism approach of 
the Act. The clean water agencies represented by NACWA continually 
engage with their State programs offices on all aspects of CWA 
permitting, compliance and enforcement. NACWA is interested in efforts 
to help streamline programs but strongly urges maintained funding, as 
reductions may impact the functioning of State programs to the 
detriment of the regulated community.

Program: National Priorities Water Research Program
Funding Request: $20 M

    Since 2012, Congress supported the National Priorities Water 
Research grant program by providing approximately $4 million in EPA's 
Science and Technology Account. This funding has advanced the science 
of priority research topics through applied, extramural research 
projects. This successful program provides direct benefit to water 
sector utilities through increased knowledge, tools, and models that 
can improve public health outcomes and lower costs for municipalities. 
However, more funding is needed. We urge increased funding for the 
National Priorities Water Research grant program to $20 million for 
fiscal year 2019. The increased funding for this competitive grant 
program will support transformative research approaches that will 
enable the water sector to respond to current and future challenges.
    Thank you for your thoughtful consideration, and please do not 
hesitate to contact NACWA for additional information.

    [Contact: Kristina Surfus, Director of Legislative Affairs, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c6adb5b3b4a0b3b586a8a7a5b1a7e8a9b4a1e8">[email&#160;protected]</a>]
                                 ______
                                 
    Prepared Statement of the National Association of Conservation 
                               Districts
Dear Chairman and Ranking Member:

    The National Association of Conservation Districts (NACD) 
represents America's 3,000 conservation districts and the 17,000 men 
and women who serve on their governing boards. Conservation districts 
are local units of government established under State law to carry out 
natural resource management programs at the local level. Districts work 
with millions of cooperating landowners and operators to help them 
manage and protect land and water resources on all private lands and 
many public lands in the United States.
    Recent events across the country have shown the importance and 
continued benefit of proper management of our water and forest 
resources. For fiscal year 2019, NACD respectfully requests an 
appropriation of $171 million for Environmental Protection Agency's 319 
Nonpoint Source Grants. We also request maintaining level funding for 
the Forest Service's State and Private Forestry program at $237 million 
in the fiscal year 2018 Interior appropriations bill.
    The 319 Nonpoint Source Grants are critically important to stream 
bank stabilization, stormwater management, low-impact development, and 
other projects led by conservation districts to address water quality 
at the local level. Working lands are under increased pressure to 
produce food, feed, fuel, and fiber for the world's growing population. 
Because of this reality, it is more important than ever that we 
dedicate the resources necessary to ensuring local communities continue 
to have access to and realize the benefits of clean water.
    State and Private Forestry is one of the few U.S. Forest Service 
(USFS) programs that provides technical and financial assistance to 
private landowners. For this reason, State and Private Forestry 
programs should be staffed and funded at levels that allow for strong 
public-private partnerships and ensure greater forest management and 
economic opportunity on private, non-industrial forest lands.
    Thank you for your consideration of these requests. We look forward 
to working with you as we continue to serve the Nation through natural 
resource conservation.

Sincerely,
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Brent Van Dyke
NACD President
                                 ______
                                 
    Prepared Statement of the National Association of State Energy 
                               Officials
    Chairwoman Murkowski, Ranking Member Udall, and Members of the 
subcommittee, I am David Terry, Executive Director of the National 
Association of State Energy Officials (NASEO), which represents the 56 
State and Territory Energy Offices. NASEO is submitting this testimony 
in support of funding for the ENERGY STAR program (within the Climate 
Protection Partnership Division of the Office of Air and Radiation) at 
the U.S. Environmental Protection Agency (EPA). NASEO supports funding 
of at least $46 million, including specific report language directing 
that the funds be utilized only for the ENERGY STAR program. The ENERGY 
STAR program is successful, voluntary, and cost-effective. The program 
has a proven track record--it makes sense, it saves energy and money 
and Americans embrace it. With a slowly recovering economy, ENERGY STAR 
helps consumers and businesses control expenditures over the long term. 
The program is strongly supported by product manufacturers, utilities 
and homebuilders, and ENERGY STAR leverages the States' voluntary 
efficiency actions. Voluntary ENERGY STAR activities are occurring in 
public buildings, such as schools, in conjunction with State Energy 
Offices, in Alabama, Alaska, Arkansas, California, Colorado, Delaware, 
District of Columbia, Florida, Georgia, Hawaii, Idaho, Illinois, 
Kentucky, Maine, Maryland, Michigan, Minnesota, Mississippi, Missouri, 
Montana, Nebraska, Nevada, New Hampshire, New Jersey, New Mexico, New 
York, North Carolina, North Dakota, Ohio, Oklahoma, Oregon, 
Pennsylvania, Rhode Island, South Carolina, Tennessee, Texas, Utah, 
Vermont, Virginia, Washington, West Virginia, Wisconsin, and Wyoming. 
The proposed elimination of this program is a grave mistake. We also 
strongly oppose the creation of a ``fee-based'' funding model, which 
could erode the program's integrity.
    The ENERGY STAR program is focused on voluntary efforts that reduce 
the use of energy, promotes energy efficiency and renewable energy, and 
works with States, local governments, communities and business to 
achieve these goals in a cooperative, public-private manner. NASEO has 
worked very closely with EPA and approximately 40 States are ENERGY 
STAR Partners. With very limited funding, EPA's ENERGY STAR program 
works closely with the State Energy Offices to give consumers and 
businesses the opportunity to make better energy decisions and 
catalyzes product efficiency improvements by manufacturers without 
regulation or mandates. This program is voluntary.
    ENERGY STAR focuses on energy efficient products as well as 
buildings (e.g., residential, commercial, and industrial). Over 1 
billion ENERGY STAR certified products were shipped in 2015 across more 
than 85 product categories for a cumulative total of well over 5.2 
billion products since 1992. The ENERGY STAR label is recognized across 
the United States. Approximately, 90 percent of households recognized 
the ENERGY STAR label when it was shown to them. It makes the work of 
the State Energy Offices much easier, by working with the public on 
easily recognized products, services, and targets. In order to obtain 
the ENERGY STAR label a product has to meet established guidelines. 
ENERGY STAR's voluntary partnership programs include ENERGY STAR 
Buildings, ENERGY STAR Homes, ENERGY STAR Small Business, and ENERGY 
STAR Labeled Products. The program operates by encouraging consumers 
and working closely with State and local governments to purchase these 
products and services. Marketplace barriers are also eradicated through 
education. State Energy Offices are working with EPA to promote ENERGY 
STAR products, ENERGY STAR for new construction, ENERGY STAR for public 
housing, etc. A successful example of how State Energy Offices are 
leveraging this key national program is the Nebraska Energy Office, 
which since 2005, has utilized ENERGY STAR as the standard for 
certifying home and office electronics that are eligible under the 
State's successful and long-running Dollar and Energy Savings Loan 
program.
    In 2016, millions of consumers and 16,000 voluntary partners, that 
included manufactures, builders, businesses, communities and utilities, 
tapped the value of ENERGY STAR and achieved impressive financial and 
environmental results. Their investments in energy-efficient 
technologies and practices reduced utility bills by well over $34 
billion.
    An estimated 500,000 homes were improved through the whole house 
retrofit program, Home Performance with ENERGY STAR (HPwES) through 
2015. This work was performed by 48 locally sponsored programs and more 
than 2,100 participating contractors across the Nation. Over 30 States, 
including California, Kentucky, Minnesota, Nevada, and Pennsylvania, 
operate or support the Home Performance with ENERGY STAR programs. 
3,100 home builder partners have constructed 1.8 million certified 
homes since 1995.
    The State Energy Offices are very encouraged with progress made at 
EPA and in our States to promote programs to make schools more energy 
efficient, in addition to an expanding ENERGY STAR Business Partners 
program. In Kentucky, the State has partnered with school districts and 
engineering firms to advance ENERGY STAR rated schools, resulting in 
more than 325 ENERGY STAR rated schools in the State, a 67 percent 
increase since 2012. Over the past few years, Kentucky has moved 
aggressively to promote and build zero-net energy schools. Other States 
that have over 150 ENERGY STAR rated schools include Arizona, 
California, Colorado, Florida, Georgia, Indiana, Michigan, Minnesota, 
New Mexico, New York, North Carolina, Ohio, Pennsylvania, Texas, Utah, 
Virginia, Washington and Wisconsin. Over 27 percent of Utah's K-12 
schools are certified as ENERGY STAR.
    EPA provides technical assistance to the State Energy Offices in 
such areas as ENERGY STAR Portfolio Manager (how to rate the 
performance of buildings), setting an energy target, and financing 
options for building improvements and building upgrade strategies. 
ENERGY STAR Portfolio Manager is used extensively by State Energy 
Offices to benchmark performance of State and municipal buildings, 
saving taxpayer dollars. Portfolio Manager is the industry-leading 
benchmarking tool which has been used voluntarily in 45 percent of the 
commercial buildings in the U.S. Portfolio Manager is used to measure, 
track, assess, and report energy and water consumption.
    Additionally, the industrial sector embraces ENERGY STAR and 
companies such as GM, Eastman Chemical, Nissan, Raytheon, Boeing and 
Toyota are recognized for sustained energy excellence by the program. 
At the close of 2014, the number of industrial sites committed to the 
ENERGY STAR Challenge for Industry grew, while 306 sites met or 
exceeded their targets by achieving an average 20 percent reduction in 
industrial energy intensity.
    The State Energy Offices are working cooperatively with our peers 
in the State environmental agencies and State public utilities 
commissions to ensure that programs, regulations, projects and policies 
are developed recognizing both energy and environmental concerns. We 
have worked closely with this program at EPA to address these issues. 
We encourage these continued efforts.
                               conclusion
    The ENERGY STAR program saves consumers billions of dollars every 
year. The payback is enormous. NASEO supports robust program funding of 
at least $46 million in fiscal year 2019. Funding for the ENERGY STAR 
program is justified. It's a solid public-private relationship that 
leverages resources, time and talent to produce tangible results by 
saving energy and money. NASEO endorses these activities and the State 
Energy Offices are working very closely with EPA to cooperatively 
implement a variety of critical national programs without mandates.
                                 ______
                                 
   Prepared Statement of the National Association of State Foresters
    Dear Chairwoman Murkowski and Ranking Member Udall:

    The administration's fiscal year 2019 budget proposal would have 
significant adverse consequences for the Nation's forests, over 60 
percent of which are State or privately owned. We believe that 
investments in key Federal programs to conserve and improve America's 
forests--rural and urban, private and public--are critically important. 
These investments create jobs, mitigate pollution and carbon emissions, 
enhance and protect our drinking water, contribute to healthy and 
livable communities, and encourage forest product innovation and 
utilization--helping the Nation to foster strong economic growth in 
rural areas.
    State foresters deliver technical and financial assistance to 
protect forest health (and the many benefits healthy forests provide) 
with help from USDA Forest Service State and Private Forestry programs. 
The comprehensive processes for delivering their services are 
articulated in each State's Forest Action Plan, which were authorized 
in the 2008 Farm Bill and reauthorized in the 2014 Farm Bill.
    We thank you for your continued support of State and Private 
Forestry programs in the fiscal year 2018 Omnibus bill. In fiscal year 
2019, sustained funding for these programs will help improve the health 
of the Nation's forests and encourage economic growth in a sector that 
sustains more than one million jobs in the United States. Our fiscal 
year 2019 funding level requests include:
    state fire assistance (sfa) and volunteer fire assistance (vfa) 
                                programs
    Fire-prone landscapes, adversely affected by drought and high fuel 
loads, have been identified as priority areas for treatment by many 
State foresters in their State Forest Action Plans. This is because 
wildland fires have become increasingly expensive and more complicated 
to suppress, and often threaten human life and property. For instance, 
in 2017, over 71,000 wildfires consumed more than 10 million acres and 
8,000 homes. Eighty-one percent of those fires were on State and 
private lands. Additionally, across the Nation, local responders and 
State forestry agencies are the primary initial attack for wildland 
fire response.
    SFA and VFA are the Federal mechanisms for assisting States and 
local fire departments in responding to wildfires and in conducting 
management activities that mitigate fire risk on non-Federal lands. SFA 
helps train and equip local first responders who are often first to 
arrive at a Federal wildland fire incident and play a crucial role in 
keeping fires and their costs as small as possible.
    In fiscal year 2015, these two programs delivered more than $169 
million in equipment to State and local first responders. A small 
investment of SFA funds supports State forestry agencies in accessing 
and repurposing equipment from the Federal Excess Personal Property and 
the Firefighter Property programs.
    NASF supports funding the State Fire Assistance program at $87 
million and Volunteer Fire Assistance at $16 million in fiscal year 
2019. The need for increased funding for fire suppression has broad 
support and the administration's budget recommends a significant 
funding increase to meet the anticipated fire threat on Federal lands. 
Increased fire suppression funding for State and private lands, many of 
which are interspersed with Federal lands, is just as urgent.
         forest health management program on cooperative lands
    State Forest Action Plans have also identified pests and diseases 
as being significant forest threats. The USDA Forest Service estimates 
hundreds of native and non-native insects and diseases cause damage to 
the Nation's public and private forests each year. A growing number of 
damaging pests and diseases are introduced and spread by way of wooden 
shipping materials, movement of firewood, and through various types of 
recreation.
    In 2010, approximately 6.4 million forested acres suffered 
mortality from insects and diseases \1\ and an estimated 81.3 million 
acres are at risk of attack over the next 15 years.\2\ These losses 
threaten clean and abundant water availability, wildlife habitat, clean 
air, and other environmental services provided by forests. Furthermore, 
extensive tree mortality sets the stage for large-scale, catastrophic 
wildfire.
---------------------------------------------------------------------------
    \1\ Man, Gary. 2011. Major Forest Insect and Disease Conditions in 
the United States: 2010 Update. Last accessed on March, 5, 2015 at: 
http://www.fs.fed.us/foresthealth/publications/
ConditionsReport_2011.pdf.
    \2\ Tkacz, Bory, et al. 2014. NIDRM 2012 Report Files: Executive 
Summary. Last accessed on March, 5, 2015 at: http://www.fs.fed.us/
foresthealth/technology/pdfs/2012_RiskMap_Exec_
summary.pdf.
---------------------------------------------------------------------------
    The Cooperative Forest Health Management program supports State 
activities related to prevention, monitoring, suppression, and 
eradication of insects, diseases, and plants through technical and 
financial assistance. Because forest pests and disease know no bounds, 
controlling pests on private lands can stop millions of dollars in 
damage to public lands and vice versa.
    NASF supports funding the Forest Health Management on Cooperative 
Lands Program at $48 million and on National Forests at $59 million for 
fiscal year 2019.
                       forest stewardship program
    Private forests make up two-thirds of all the forestland in the 
United States and support an average of eight jobs per 1,000 acres.\3\ 
However, the Forest Service estimates that 57 million acres of private 
forests in the U.S. are at risk of conversion to urban development over 
the next two decades.
---------------------------------------------------------------------------
    \3\ Forest2Market. The Economic Impact of Privately-Owned Forests. 
2009.
---------------------------------------------------------------------------
    The Forest Stewardship Program is routinely identified in State 
Forest Action Plans as keeping working forests intact and providing 
public benefits, including protecting watershed health, wildlife 
habitat, and neighboring public lands. On the ground, almost 90 percent 
of landowners who have forest stewardship plans implement them, and 
those landowners with a plan are nearly three times more likely to 
actively manage their forest compared those who don't have a plan. 
Additionally, almost 50 percent of the Nation's wood supply comes from 
small landowners, who are the target of this program, and in 2017, this 
program assisted over 323,000 landowners.
    NASF supports funding the Forest Stewardship Program at $29 million 
in fiscal year 2019. The need to increase funding on State and private 
lands to support active management is urgent.
                         forest legacy program
    The Forest Legacy Program provides critical Federal assistance to 
States and private landowners to keep working forests working through 
permanent conservation easements, and in some cases, fee acquisitions. 
Each easement acquisition is required to have a long-term forest 
stewardship plan.
    Working forests play an important role in sustaining the economic, 
ecological, and social well-being of America's rural and urban areas 
through the jobs they support and the benefits they provide, such as 
wildfire threat reduction, clean air and water, wildlife habitat, and 
outdoor recreation space.
    NASF supports funding the Forest Legacy Program at $62 million (net 
funding level) in fiscal year 2019. NASF also supports the program 
being fully funded from the Land and Water Conservation Fund and asks 
that it not be included in the discretionary budget cap. NASF 
recommends report language requiring coordination with State foresters 
prior to recommendation and selection of easements and acquisitions due 
to land management considerations and tax implications.
                  urban and community forestry program
    Community forests are important to achieving energy savings, 
improved air quality, reduced noise, stability in home values, and 
improved health and quality of life in municipalities and communities 
around the country. In fact, studies show community trees and forests 
reduce cases of childhood asthma, mitigate the impacts of auto exhaust, 
reduce home heating and air-conditioning costs, provide economically 
viable solutions for storm water management, and even reduce crime 
rates.
    Community forests have been shown to provide environmental, social, 
and economic benefits to the more than 249 million Americans 
annually.\4\ Yet, urban and community forests face serious threats, 
such as development and urbanization, invasive pests and diseases, and 
fire in the wildland-urban interface.
---------------------------------------------------------------------------
    \4\ United States Census Bureau, Growth in Urban Population 
Outpaces Rest of Nation, Census Bureau Reports. Available at https://
www.census.gov/newsroom/releases/archives/2010_census/cb12-50.html. 
Last Accessed March 5, 2015. April 1, 2010 population estimate 
308,745,538 https://www.census.gov/quickfacts/fact/table/US#viewtop 
Accessed April 17, 2018.
---------------------------------------------------------------------------
    Since its expansion under the Cooperative Forestry Assistance Act 
of 1990, the Urban and Community Forestry Program has provided 
technical and financial assistance to an average of 8,200 communities 
annually. The program is delivered in close partnership with State 
foresters and leverages Federal dollars 2:1 with existing local efforts 
to help communities manage, maintain, and improve their tree cover and 
green spaces.
    NASF supports funding the Urban and Community Forestry Program at 
$31 million in fiscal year 2019.
                 forest inventory and analysis program
    America's ``Forest Census,'' made possible through the Forest 
Inventory and Analysis Program, is the foundation for addressing the 
Nation's forest health. The program enables forest managers to 
understand the scope and scale of forest condition trends and to make 
projections of future conditions through extensive data collection on 
everything from forest species composition to forest growth rates.
    When sufficiently funded, FIA measures plots every 5 years in the 
East and every 10 years in the West. The forest industry, a sector 
which provides at least 2.8 million U.S. jobs (more than the automobile 
manufacturing industry), uses this data routinely to make management 
and investment decisions.
    The program also provides unbiased information for monitoring 
trends in wildlife habitat, wildfire risk, insect and disease threats, 
predicting spread of invasive species and for solving many other 
resource questions. It is a particularly important tool used in the 
development of Forest Action Plans.
    NASF supports funding the Forest Inventory and Analysis program at 
$83 million in fiscal year 2019.
                  landscape scale restoration program
    Landscape Scale Restoration (LSR) projects allow States to 
collaborate with the USDA Forest Service and other partners to address 
critical forest priorities on a national scale. LSR projects focus only 
on the most critical national priorities identified in each State's 
Forest Action Plan, and as a result, drives meaningful and cost-
effective results.
    The LSR program was codified in the 2008 Farm bill and a LSR budget 
line item was subsequently included in fiscal year 2014 appropriations. 
Regional review teams comprised of State and Federal officials carry 
out rigorous reviews of proposed LSR projects, and as a result, 
projects selected for funding are ground-truthed, landscape-scale, 
cross-boundary, and outcome-driven.
    NASF supports funding the Landscape Scale Restoration program at 
$23 million in fiscal year 2019. NASF does not support increases in 
this program coming at the expense of other programs described above. 
NASF also supports current legislative efforts to codify this program.
    State foresters assist in strengthening the economic backbone of 
communities across the Nation and the health of the forests surrounding 
them. We appreciate your consideration of our requests and would 
welcome an opportunity to discuss how your committee can support our 
work.

Sincerely,
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

George Geissler
NASF President
Oklahoma State Forester

Attachment

                                                  NASF FISCAL YEAR 2019 APPROPRIATIONS RECOMMENDATIONS
                                                                      [In Millions]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                         FY 2018   FY 2018   FY 2018   FY 2019   FY 2019
     NASF Priority Programs       FY 2011   FY 2012   FY 2013   FY 2014   FY 2015   FY 2016   FY 2017     NASF      Admin    Omnibus    Admin     NASF
                                  Enacted   Enacted   Enacted   Enacted   Enacted   Enacted   Enacted    Recom.   Proposed   Approps  Proposed   Recom.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Landscape Scale Restoration....     $0.00     $0.00     $0.00    $14.00    $14.00    $14.00    $14.00     $23.00     $0.00    $14.00     $0.00  \1\ $23.
                                                                                                                                                      00
Forest Health--Cooperative         $60.23    $48.35    $44.83    $45.65    $45.65    $40.68    $39.00     $48.00    $36.18    $41.00    $34.40    $48.00
 Lands.........................
Forest Stewardship.............    $32.55    $28.81    $30.44    $22.40    $23.00    $23.04    $20.05     $29.00    $20.50    $20.50    $19.50    $29.00
Forest Legacy Program..........    $53.00    $53.30    $50.95    $50.97    $53.00    $62.35    $62.35     $62.00     $0.00  \2\ $67.     $0.00    $62.00
                                                                                                                                  00
Urban & Community Forestry.....    $32.04    $31.33    $30.70    $28.04    $28.04    $28.04    $28.04     $31.00     $0.00    $28.50     $0.00    $31.00
Forest Inventory & Analysis....    $71.84    $69.21    $65.78    $66.81    $70.00    $75.00    $77.00     $83.00    $77.00    $77.00    $75.00    $83.00
State Fire Assistance..........    $97.23    $85.97    $78.43    $78.00    $78.00    $78.00    $78.00     $87.00    $69.40    $80.00    $65.90  \3\ $87.
                                                                                                                                                      00
Volunteer Fire Assistance......    $15.66    $13.03    $12.42    $13.03    $13.00    $13.00    $15.00     $16.00    $11.60    $16.00    $11.00  \3\ $16.
                                                                                                                                                      00
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ The Landscape Scale Restoration (LSR) Program funds national priorities in the federally mandated State Forest Action Plans.
\2\ While the enacted level was $67 million, approximately $6 million was rescinded, so that the ``net'' appropriated was approximately $61 million.
\3\ Much of the Nation's initial and extended attack resources are funded by SFA/VFA programs. In a typical year 80 percent of the Nation's wildfires
  and almost 50 percent of the acreage burned are State and private forests. In addition when responding out of jurisdiction the majority of the time
  that SFA and VFA resources are responding to wildfires, they are responding on Federal forest lands. Investments upfront in SFA/VFA prevention and
  initial attack capabilities, should help reduce Federal wild fire suppression costs and hence proposed increases should be mirror increases in
  wildfire suppression funding for Federal resources. In Admin Proposed FY19 Budget: Forest Stewardship Program has been renamed Working Forest Lands.
  State and Volunteer Fire Assistance programs have been renamed National and Rural Fire Capacity Programs.

      
                                 <greek-l>
                                 ______
                                 
    Prepared Statement of National Environmental Education Act deg.
    Prepared Statement of U.S. Senators in Support of the National 
                   Environmental Education Act (NEEA)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    Prepared Statement of the National Fish and Wildlife Foundation
Chairman Murkowski and Members of the Subcommittee:

    Thank you for the opportunity to submit testimony regarding fiscal 
year 2019 funding on behalf of the National Fish and Wildlife 
Foundation (NFWF), and thank you for your years of steadfast support 
for the natural resource conservation work of NFWF. NFWF's fiscal year 
2019 appropriations request will be matched at least dollar for dollar 
with non-Federal match to conserve fish, wildlife and their habitats 
through local partnerships. By law, NFWF will accomplish this by 
applying 100 percent of the appropriated funding to on-the-ground 
conservation projects at ZERO cost to the Federal Government.
    We believe that NFWF is a sound investment in a time of constrained 
budgets because of our proven track record and statutory requirement to 
leverage Federal funding with private contributions to maximize 
conservation benefit. We appreciate the subcommittee's past support and 
respectfully request your approval of funding at the following levels:

  --$ 3.0 million with bill language through the Bureau of Land 
        Management's Management of Lands and Resources appropriation;
  --$ 7.022 million with bill language through the U.S. Fish and 
        Wildlife Service's Resource Management appropriation; and
  --$ 3.0 million through the Forest Service's National Forest System 
        appropriation.
                       bureau of land management
    NFWF has received directly appropriated funding for the Bureau of 
Land Management (BLM) since fiscal year 1995. In the past 5 years 
(fiscal year 2013-fiscal year 2017), NFWF has turned $14.8 million 
(approximately $3 million annually) in BLM funds into $71.4 million to 
support on-the-ground conservation projects.
    In fiscal year 2018 and fiscal year 2019, NFWF is working on re-
aligning our conservation partnership with BLM to align with new BLM 
and Department conservation priorities. Examples of these focus areas 
include: (1) wildlife and migration corridors in the northern Rocky 
Mountain States; (2) NFWF's Alaska Fish and Wildlife Fund; (3) 
restoring native sage steppe habitat restoration; and (4) native fish 
population enhancements in watersheds in the Western United States.
    In fiscal year 2018, NFWF began a new and exciting partnership in 
the Pecos watershed with six oil and gas companies (Anadarko, Chevron, 
Noble Energy, Occidental Petroleum, Shell Oil, and XTO Energy), the 
U.S.D.A. Natural Resource Conservation Service, and the States of New 
Mexico and Texas to proactively bolster populations of at-risk species. 
NFWF would add BLM funding to this new and creative partnership if 
appropriated.

    Requested BLM Bill Language:

        ``; of which $3,000,000 shall be available in fiscal year 2019 
        subject to a match by at least an equal amount by the National 
        Fish and Wildlife Foundation for cost shared projects 
        supporting conservation of Bureau lands; and such funds shall 
        be advanced to the Foundation as a lump-sum grant without 
        regard to when expenses are incurred.''
                united states fish and wildlife service:
    The United States Fish and Wildlife Service (FWS) has been a 
trusted partner since NFWF was created by Congress in 1984 and signed 
into law by President Reagan. In the past 5 years (fiscal year 2013-
fiscal year 2017), the FWS appropriated funds received by NFWF have 
generated more than $210 million in conservation impact through 487 
projects. The funds appropriated to NFWF serve as a magnet to attract 
funds from the private sector to create public-private partnerships 
critical to restoring fish, wildlife and their habitats.
    In the past, the FWS appropriation for NFWF has existed in the 
Committee Report. However, we respectfully request that it be included 
in bill language, to First, it will make NFWF's direct appropriations 
in the Interior, Environment and Related Agencies Bill consistent 
across all three agencies.

    Requested FWS Bill Language:

        ``; of which $7,022,000 shall be available in fiscal year 2019 
        subject to a match by at least an equal amount by the National 
        Fish and Wildlife Foundation for cost-shared projects 
        supporting conservation of wildlife and other natural 
        resources; and such funds shall be advanced to the Foundation 
        as a lump-sum grant without regard to when expenses are 
        incurred.''

    Because NFWF works with FWS on discretionary cooperative agreements 
for conservation programs, we also respectfully support the highest 
possible funding levels for the Delaware River Basin Conservation Act, 
Klamath Basin Restoration, and efforts to combat white-nosed syndrome 
in bats within the FWS, Resource Management appropriation.
                      united states forest service
    Congress has appropriated approximately $3 million in annual 
funding to NFWF for partnerships with the United States Forest Service 
(USFS) since fiscal year 1998. From fiscal year 2013 to fiscal year 
2017, NFWF turned $14.8 million in USFS funds into $118.1 million in 
on-the-ground conservation investments.
    The fiscal year 2019 administration's budget request included level 
funding for the NFWF appropriation within the USFS at a level of $3 
million, identical to the previous fiscal year, and as in past years, 
includes the language in the Bill text to appropriate the funds to 
NFWF.
    NFWF respectfully requests that the Committee agree to the 
administration's budget request.
                    environmental protection agency
    NFWF has partnered with the Environmental Protection Agency (EPA) 
since fiscal year 1997 and since fiscal year 2000 has worked with EPA 
to make grants to States and other grantees within the Geographic 
Programs appropriation. Therefore, we respectfully support the highest 
possible funding levels for the Great Lakes Restoration Initiative, 
Chesapeake Bay, and Long Island Sound within the Environmental 
Protection Agency Geographic Programs. We also respectfully ask that 
the long-standing report language that delineates the amount of funding 
for nutrient and sediment removal grants and small watershed grants 
within the Chesapeake Bay program be continued.

        ``within the amounts provided, $X,000,000 is for nutrient and 
        sediment removal grants and $X,000,000 is for small watershed 
        grants to control polluted runoff from urban, suburban and 
        agriculture lands.''
                            nfwf background
    NFWF was established by Congress in 1984 to catalyze private 
investments to conserve fish, wildlife and their habitats. In addition, 
every dollar directly appropriated to NFWF by Congress goes to on-the-
ground conservation projects. NFWF raises private funds not only to 
leverage appropriated dollars, but also to support the associated 
management costs of implementing the Federal funds.
    NFWF is required by law to match each directly federally-
appropriated dollar with a minimum of one non-Federal dollar. We 
consistently exceed this requirement by leveraging Federal funds at a 
3:1 average ratio while building consensus and emphasizing 
accountability, measurable results, and sustainable conservation 
outcomes.
    Since its creation by Congress in 1984, NFWF has invested $4.8 
billion representing more than 16,500 projects partnering with more 
than 4,500 organizations. In 2017, NFWF awarded 730 grants, using 
$111.2 million on Federal funds to generate a total conservation of 
more than $283.2 million. NFWF remains fully transparent and is 
required by law to notify Congress 30 days in advance of every grant 
that exceeds $10,000 in Federal funds.
    The goal of NFWF is to ensure abundant wildlife species thrive in 
order to allow the economic health of our Nation to continue. We 
achieve this through voluntary conservation efforts to keep private 
working lands working, and pursuing proactive conservation to avoid 
regulatory actions. The key elements of our approach include: (1) 
leverage, (2) efficiency, (3) partnerships, (4) transparency, (5) 
accountability, and (5) meaningful measurable outcomes.
    In fiscal year 2017, NFWF partnered with 15 Federal agencies or 
departments and more than 30 corporations to support implementation of 
Federal conservation priorities. These efforts focused on working 
landscapes, private landowner outreach, natural resource conservation 
and supporting community-based restoration.
    In fiscal year 2018, NFWF was audited by an independent accounting 
firm and they issued an unqualified report with no material weaknesses 
identified and no deficiencies identified. This is the eighth 
consecutive year of unqualified audits. In addition, NFWF has 
continually qualified as a low risk auditee under OMB Circular A-133.
    NFWF has a compliance department that works with grantees and 
partners to ensure adherence with all laws and regulations and ensure 
they have the capacity to financially manage funds we grant to them.
                               conclusion
    For more than three decades, NFWF has been at the forefront of 
national conservation activity. With our partners, NFWF has contributed 
to some of the Nation's most important conservation programs, invested 
millions in worthy and successful projects, and spearheaded programs to 
conserve our Nation's most treasured natural resources. We have a 
successful model of coordinating and leveraging Federal funds to 
attract support from the private sector to address the most significant 
threats to fish and wildlife populations and their habitats.

    To reiterate, in the past 5 years (fiscal year 2013-fiscal year 
2017):


------------------------------------------------------------------------
       Agency          Appropriations        Match            Total
------------------------------------------------------------------------
BLM................  $14.8............  $56.6..........  $71.4
FWS................  $35.0............  $175.4.........  $210.4
USFS...............  $14.8............  $103.3.........  $118.1
------------------------------------------------------------------------

    The total impact of the appropriated funding to NFWF from fiscal 
year 2013-fiscal year 2017 for the three agencies above is that $64.6 
million in appropriated funding realized an impact of $399 million in 
on-the-ground conservation.
    Meaningful and measurable outcomes, evaluation, transparency and 
accountability are NFWF's building blocks to ensure maximum 
conservation impact. We work directly with Federal agencies and other 
partners to maximize results and produce long-lasting conservation 
outcomes. We would not be able to impact natural resource conservation 
and the related benefits to citizens and the economy without the 
support of this subcommittee. We look forward to building on our 
partnerships with our Federal agency partners in fiscal year 2019 and 
appreciate the subcommittee's continued support of these collaborative 
efforts.
    Chairman Murkowski and Members of the subcommittee, we greatly 
appreciate your continued support and hope the subcommittee will 
approve funding for the Foundation in fiscal year 2019.
                                 ______
                                 
      Prepared Statement of the National Ground Water Association
    The National Ground Water Association (NGWA) requests that $5 
million be allocated in the fiscal year 2019 Interior, Environment & 
Related Agencies appropriations bill to the United States Geological 
Survey (USGS) with the Water Resources mission area's Groundwater and 
Streamflow Information Program to continue implementation and 
maintenance of a national groundwater monitoring network (NGWMN).
    In addition to funding, NGWA is also requesting eligibility of the 
cooperative grant funding be expanded to Tribes, as well as State and 
local governments. Tribes are currently able to provide data to the 
network, but are not eligible to receive funding to create and/or 
maintain a groundwater monitoring network.
    NGWA is the world's largest association of groundwater 
professionals, representing public and private sector engineers, 
scientists, water well contractors, manufacturers, and suppliers of 
groundwater related products and services. NGWA maintains that 
management of groundwater resources should be a coordinated effort 
between Federal, State and local governments based on the strengths of 
each government level, the best science available, and the nature of 
the resource. The NGWMN is a great example of cooperation between 
levels of government, in order to manage and protect a vital natural 
resource.
    Water is one of the most critical natural resources to human, 
ecosystem and economic survival. Nationally, over 40 percent of the 
drinking water supply comes from groundwater and, in some locations, it 
is relied on by 80 percent of Americans for drinking water. Groundwater 
also serves as a key source of agricultural irrigation water.
    While the health of the American people and our Nation's economic 
prosperity depends on groundwater, no systematic nationwide monitoring 
network is in place to measure what is currently available and how 
groundwater levels and quality may be changing over time.
    As with any valuable natural resource, our groundwater reserves 
must be monitored to assist in planning and minimizing potential 
impacts from shortages or supply disruptions. Just as one cannot 
effectively oversee the Nation's economy without key data; one cannot 
adequately address the Nation's food, energy, economic, and drinking 
water security without understanding the extent, availability and 
sustainability of a critical input--groundwater.
    Congress acknowledged the need for enhanced groundwater monitoring 
by authorizing a national groundwater monitoring network with passage 
of Public Law 111-11 (Omnibus Public Land Management Act) in 2009, the 
SECURE Water Act, and viability of the network was proven through the 
completion of pilot projects in six States--Illinois, Indiana, 
Minnesota, Montana, New Jersey, and Texas. These States voluntarily 
pilot tested concepts for a national groundwater monitoring network as 
developed by the Federal Advisory Committee on Water Information's 
(ACWI) Subcommittee on Ground Water (SOGW).
    Following completion of the pilots and reports on the viability of 
the NGWMN, congressional support for the network has enabled national 
implementation of the program:

Fiscal Year 2015: $2.6 million        Fiscal Year 2017: $3.6 million
Fiscal Year 2016: $3.6 million        Fiscal Year 2018: $3.6 million
 

    However, national implementation has not yet been achieved. To 
date, only 26 States have received grants. The fiscal year 2018 awards 
are pending.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    While continuing support for the NGWMN is requested at this time, 
it is important to note that the requests will be finite once all 
States are connected to the network. From there, the costs of ongoing 
maintenance of the network are expected to be minimal.
    Once implemented nationwide, the NGWMN would provide consistent, 
comparable nationwide data that would be accessible through a public 
web portal for Federal, State, local government and private sector 
users. In these tight fiscal times, the proposed network would build on 
existing State and Federal investments, maximizing their usefulness and 
leveraging current dollars to build toward systematic nationwide 
monitoring of the groundwater resource.

    Funding from the NGWMN will be used for two purposes:

    1.  Provide grants to regional, State, and Tribal governments to 
cost share increased expenses to upgrade monitoring networks for the 50 
States to meet the standards necessary to understand the Nation's 
groundwater resources. Activities funded include: site selection, web 
services development, well drilling, well maintenance, among others.
    2.  Support the additional work necessary for USGS to manage a 
national groundwater monitoring network and provide national data 
access through an Internet web portal.

    A selection of State projects funded is listed below to demonstrate 
to type of work being funded by Congress in the first rounds of 
cooperative agreements.

  --Alaska Department of Natural Resources received funding to become a 
        data provider, serving water level data to the portal. In 
        addition, funding is received to do well maintenance and well 
        drilling.
  --Minnesota Pollution Control Agency received funds to re-establish 
        web services to provide data to the network and expand coverage 
        across all of the States principal aquifers.
  --South Carolina Department of Natural Resources received funding to 
        set-up web services to provide water level data to the NGWMN.
  --Texas Water Development Board received funding to select and 
        classify water quality wells and incorporate them into the 
        NGWMN.

    A complete list of all cooperative agreements funded is available 
on the cooperative agreements page of the NGWMN portal's website. Each 
recipient of funding must also provide USGS a report, following the 
conclusion of the funding period.
    Though the amount of funding requested is small in the context of 
the Department of Interior's annual budget request, funding is vital 
considering that, for a small investment, States and the USGS can 
finally secure adequate monitoring of the hidden resource that provides 
over 40 percent of the Nation's drinking water supply and serves as a 
key driver for our agricultural economy.
    Thank you for your consideration of this request. With questions or 
in request of additional information, please contact Lauren Schapker, 
NGWA Government Affairs Director, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="aec2ddcdc6cfdec5cbdceec0c9d9cf80c1dcc980">[email&#160;protected]</a>
                                 ______
                                 
         Prepared Statement of the National Humanities Alliance
Mr. Chairman and Members of the Subcommittee:

    On behalf of the National Humanities Alliance, with our nearly 200 
member organizations, I write to express strong support for the 
National Endowment for the Humanities (NEH).
                                overview
    For fiscal year 2019, we respectfully urge the subcommittee to fund 
the National Endowment for the Humanities at $155 million.
    We would like to thank the subcommittee for appropriating $152.8 
million to the NEH for fiscal year 2018, thereby increasing the 
Endowment's funding by nearly $3 million. This increase is a critical 
step in rebuilding the capacity of the NEH, which has been severely 
eroded in recent years. Even with the increase, the Endowment's current 
funding is 20 percent below its fiscal year 2010 level, when adjusted 
for inflation. Modestly increasing the NEH's budget to $155 million 
would allow the Endowment to regain its capacity to support the 
humanities at a time when the humanities are increasingly called upon 
to meet national needs.
    While we recognize the difficult choices that are before this 
subcommittee, we believe that expanding the capacity of the NEH should 
continue to be a priority. In the remainder of this testimony, I will 
highlight some of the many ways that the NEH serves national needs and 
helps accomplish critical national goals.
                       neh serves national needs
    The National Endowment for the Humanities' funding is distributed 
to the Federal/State Partnership, which supports humanities councils in 
every State and territory; Competitive Grants divisions, which award 
peer-reviewed grants in research, education, preservation, digital 
humanities, challenge grants, and public programs; and Chairman's 
Grants, which are used to pilot new programs and respond to natural 
disasters and other emergency situations. I will highlight just five 
examples of how NEH grants serve clear national needs.
The NEH's Standing Together program aids veterans' reintegration into 
        civilian life and deepens public awareness of the experience of 
        war.
    For the past 4 years, the NEH has supported innovative programs 
that harness the power of the humanities to serve veterans. Increased 
appropriations over the past 3 years have been critical to expanding 
these programs, although much unmet demand continues to exist. 
Dialogues on the Experience of War, an NEH initiative now in its third 
year, supports community discussion programs for veterans and their 
families. Dialogues programs have reached veterans in 18 States and the 
District of Columbia and will reach an additional 4 States in the 
coming year. In fiscal year 2017, a program held in College Park, 
Maryland, honored one-hundred years of women's service in the military 
while supporting female veterans of recent conflicts; at the University 
of West Florida, a Dialogues program helped first-year students who are 
also veterans bridge their military and civilian experiences through 
history, literature, philosophy, and art.
    Other efforts funded through the Standing Together initiative 
include programs that help document and preserve veterans' life 
experiences. A grant to North Dakota State University funded an oral 
history program that helps veterans explore their memories through 
creative outlets, while a grant to Lewiston Auburn College supported a 
program for preserving veterans' pictures and memorabilia in Maine. 
Veterans from across the Nation benefit from intensive college-
preparation programs and training for Veteran Affairs staff that helps 
them understand veterans' experiences.
The NEH plays a key role in the preservation of native languages and 
        cultures.
    The NEH supports the documentation and teaching of native 
languages, history, and culture. A 2011 grant helped Salish Kootenai 
College in Pablo, Montana establish a degree program in Tribal Historic 
Preservation that prepares students to interpret and preserve 
indigenous heritage. To date, all graduates of the program have 
continued their studies in graduate training or found work in 
preservation offices, cultural departments, museums, private resource 
management firms, and government agencies.
    Meanwhile, a 2015 grant to Ilisagvik College in Alaska helped 
preserve Inupiaq, a UNESCO-classified endangered language with only 
about 2,000 fluent speakers. In addition to creating an online database 
that documents the language, faculty and students created language-
acquisition materials--online apps and storybooks--that are used by the 
local summer reading program and the college's innovative ``language 
nest'' program for pre-K children. And in New Mexico, a 2017 grant is 
helping the Indian Pueblo Cultural Center document the oral histories 
of women from the New Mexico Pueblo, preserving their life stories for 
generations to come. These are just three examples of NEH's long-term 
commitment to sustaining, revitalizing, and preserving Native American 
languages and cultures: since 2006, the NEH has provided $11.4 million 
in support of its Documenting Endangered Languages program.
The NEH is the only entity, Federal or private, with a national mandate 
        to ensure that the humanities serve all Americans.
    Through a partnership with Missouri's Mid-America Arts Alliance, 
the NEH on the Road program ensures that high-quality museum 
exhibitions--originally curated with NEH support--reach all parts of 
the country. Fifty-three percent of the communities served have a 
population under 50,000. For example, in Red Cloud, Nebraska, a 
community of only 1,020, more than 3,000 people saw Our Lives, Our 
Stories: America's Greatest Generation. The exhibition traveled to 23 
other locations including Excelsior Springs and Fulton, Missouri and 
Fairmont, West Virginia. Additionally, between 2010 and 2015, Bison: An 
American Icon, traveled to 19 sites, including Bend, Oregon, Las 
Cruces, New Mexico, and Brigham City, Utah.
    To ensure a wide reach, the NEH has dedicated funding lines for 
innovation in humanities curricula in community colleges, HBCUs, 
Hispanic-Serving Institutions, and Tribal Colleges. At one 2-year 
school, South Florida State College, an NEH grant is helping faculty 
develop new curricular units based on Florida's history and purchase 
much-needed books and materials for the rural college's library.
    Additionally, the NEH provides critical support to rural 
institutions, establishing the cultural infrastructure necessary for 
thriving communities. For instance, in Seward, Alaska, the Seward 
Community Library & Museum, which was built with NEH challenge grant 
funding, is the city's only public space designed for people of all 
ages. In Whitesburg, Kentucky, the NEH has supported Appalshop since 
awarding it a foundational grant in 1972. Appalshop is now an economic 
driver that amplifies Appalachian voices and concerns on a national 
level while contributing to community life.
The NEH safeguards our historical and cultural legacies.
    With grants to historical societies, historic sites, archives, and 
town and county record offices around the country, the NEH ensures that 
historical documents and artifacts are preserved under the proper 
conditions and accessible in the long-term. For example, grants to 
Andrew Jackson's Hermitage in Tennessee have supported archaeological 
investigations as well as the full restoration of the home's historic 
interior. In West Virginia, grants to Davis & Elkins College have 
helped preserve the papers of Senators Henry Davis and Stephen Elkins 
as well as 10,000 items representing American history from Native 
American civilizations to the present day. And several small grants to 
the International Tennis Hall of Fame Museum in Newport, Rhode Island, 
helped the museum become accredited by the American Alliance of Museums 
as well as preserve items related to the history of tennis and Newport.
    In a massive undertaking, the NEH is also enabling the digitization 
of historical newspapers from around the country through the National 
Digital Newspaper Program. For example, in 2013, the NEH awarded a 
grant to the Mississippi Department of Archives and History to digitize 
100,000 pages of historic Mississippi newspapers published between 1836 
and 1922. To date, the NEH has provided support for the digitization of 
approximately 11 million pages of newspapers published between 1690 and 
1963--making these resources accessible for scholars, students, and 
anyone interested in researching local history or genealogy.
    The NEH also supports the publication of the documents associated 
with important historical figures and events and ensures that these 
documents are widely accessible. Grants to the University of 
California, Berkeley have supported the print and digital publication 
of Mark Twain's letters and other writings, including his best-selling 
autobiography. NEH funding has supported many similar projects centered 
on the lives of such notable figures as George Washington, Thomas 
Jefferson, John and Abigail Adams, Albert Einstein, and Dr. Martin 
Luther King, Jr.
With a modest investment, the NEH stimulates private, local investment 
        in the humanities and cultivates tourism.
    NEH matching grants over the last 50 years have generated more than 
$4 billion in nonFederal donations to humanities projects and 
institutions. The NEH's investments in museums, historic sites, 
research, and the preservation of historic artifacts have played a key 
role in developing local cultural heritage tourism economies, which 
attract 78 percent of all leisure travelers. Over several decades, for 
example, the NEH has supported the development of new exhibitions at 
Thomas Jefferson's Monticello. These grants have had an outsized impact 
on the local economy as Monticello welcomes nearly 400,000 annual 
visitors, 93 percent of whom are from outside Virginia and 50 percent 
of whom stay in a hotel for at least one night adding at least $13.1 
million to the local economy. In Dubuque, Iowa, NEH investment in the 
National Mississippi River Museum and Aquarium has helped turn a small 
local historical society into a nationally-significant tourist site 
that generates $10 million per year to the city's economy.
    From funding professional development programs for teachers that 
celebrate the history of the Mississippi Delta to supporting 
collaborative, interdisciplinary archaeological research that has led 
to new understanding of heart disease, each year the NEH awards 
hundreds of competitive, peer-reviewed grants to individual scholars 
and a broad range of nonprofit educational organizations around the 
country. Grantees include universities, 2- and 4-year colleges, 
humanities centers, research institutes, museums, historical societies, 
libraries, archives, scholarly associations, K-12 schools, local 
education agencies, public television/film/radio producers, and more.
    The NEH supports the preservation of collections that would be 
otherwise lost, path-breaking research that brings critical knowledge 
to light, programs for teachers that enrich instruction in schools, and 
public programs that reach individuals and communities in every 
district in the country.
    Overall, the NEH's support is crucial for building and sustaining 
humanities' infrastructure in all 50 States, serving American citizens 
at all stages of life.
                               conclusion
    We recognize that Congress faces difficult choices in allocating 
funds in this and coming years. We ask the subcommittee to consider 
modestly increased funding for the humanities through the NEH as an 
investment in opportunity for all Americans, innovation and economic 
growth, and strengthening our communities. Thank you for your 
consideration of our request and for your past and continued support 
for the humanities.
    Founded in 1981, the National Humanities Alliance advances national 
humanities policy in the areas of research, preservation, public 
programming, and teaching. Nearly 200 organizations are members of NHA, 
including scholarly associations, humanities research centers, 
colleges, universities, and organizations of museums, libraries, 
historical societies, humanities councils, and higher education 
institutions.

    [This statement was submitted by Stephen Kidd, Executive Director.]
                                 ______
                                 
  Prepared Statement of the National Indian Child Welfare Association
    The National Indian Child Welfare Association (NICWA) is a national 
American Indian/Alaska Native (AI/AN) nonprofit organization. NICWA has 
provided leadership in the development of public policy that supports 
Tribal self-determination in child welfare and children's mental health 
systems for over 30 years. This testimony will provide funding 
recommendations for the following programs administered by the Bureau 
of Indian Affairs (BIA) in the Department of the Interior: Indian Child 
Protection and Family Violence Prevention grant programs ($43 million), 
Social Services ($50 million), Welfare Assistance ($80 million), Indian 
Child Welfare Act On or Near Reservation Program grant program (Tribal 
Priority Allocation--$20 million), and Indian Child Welfare Act Off-
Reservation Program grant program ($5 million).
    In order for AI/AN children to have the full protections and 
supports they need, Congress must appropriate adequate funds to the 
basic child welfare programs and services that Tribal communities, like 
all communities, need. States also rely on Tribes to help them provide 
appropriate child welfare services to AI/AN children and families that 
fall under their jurisdiction.\1\ This includes partnering on 
investigations of child abuse and neglect reports, building case plans 
for families, providing culturally based family services, and securing 
appropriate out-of-home placements. Investments in these programs will 
reduce preventable trauma to children and families, reduce future 
expenditures for more expensive and intrusive services, and decrease 
long-term involvement with the child welfare system.
---------------------------------------------------------------------------
    \1\ U.S. Government Accountability Office. (2005). Indian Child 
Welfare Act: Existing information on implementation issues could be 
used to target guidance and assistance to States. Retrieved from http:/
/www.gao.gov/new.items/d05290.pdf.
---------------------------------------------------------------------------
    The recommendations below suggest funding increases that will 
provide Tribal communities with sufficient child welfare funding, avoid 
unnecessary restraint on local Tribal decisionmaking, and support 
established State and Tribal partnerships dedicated to the protection 
of AI/AN children.
                    priority program recommendation
BIA Indian Child Protection and Family Violence Prevention Act 
        Recommendation
    Appropriate for the first time $43 million for the three 
discretionary grant programs under this law--$10 million for the Indian 
Child Abuse Treatment Grant Program, $30 million for the Indian Child 
Protection and Family Violence Prevention Grant Program, and $3 million 
for the Indian Child Resource and Family Service Centers Program to 
protect AI/AN children from child abuse and neglect. Despite 
overwhelming need these grant programs have never been appropriated 
funds since their inception in 1990.

    The Indian Child Protection and Family Violence Prevention Act 
(ICPFVPA), Public Law No. 101-630 (1990), was enacted to fill gaps in 
Tribal child welfare services--specifically child protection and child 
abuse treatment--and to ensure better coordination between child 
welfare and domestic violence programs. The act authorizes funding for 
two Tribal programs: (1) the Indian Child Protection and Family 
Violence Prevention Program, which funds prevention programming as well 
as investigation and emergency shelter services for victims of family 
violence; and (2) the Treatment of Victims of Child Abuse and Neglect 
program, which funds treatment programs for victims of child abuse. It 
also authorizes funding to create Indian Child Resource and Family 
Service Centers in each of the BIA regional areas. These centers would 
provide training, technical assistance, and consultation to Tribal 
child protection programs.
    There is an incredible need for family violence prevention and 
treatment resources in AI/AN communities. As recently recognized by 
Congress in the Violence Against Women Reauthorization Act of 2013, AI/
AN women are more likely than any other population to experience 
intimate partner violence. In fact, more than one in three AI/AN women 
experience intimate partner violence at some point in their lives.\2\ 
Further, AI/AN children experience child abuse and neglect at an 
elevated rate. They are victims of child maltreatment at a rate of 13.8 
per 1,000, compared to the national rate of 9.2 children per 1,000.\3\ 
These problems are intricately intertwined. Studies show that in 49-70 
percent of cases, men who abuse their partners also abuse their 
children,\4\ while child abuse investigations reveal violence against 
the mother in 28-59 percent of all cases.\5\
---------------------------------------------------------------------------
    \2\ Black, M. C., & Breiding, M. J. (2008). Adverse health 
conditions and health risk behaviors associated with intimate partner 
violence--United States, 2005. (Table. 1) Morbidity and Mortality 
Weekly Report, 57(5), 113-117.
    \3\ U.S. Department of Health and Human Services, Administration 
for Children and Families, Administration on Children, Youth and 
Families, Children's Bureau. (2015). Child maltreatment 2015. 
Rockville, MD: Author.
    \4\ White Eagle, M., Clairmon, B., & Hunter, L. (2011). Response to 
the co-occurrence of child maltreatment and domestic violence in Indian 
Country: Repairing the harm and protecting children and mothers [Draft] 
(pp. 19-20). West Hollywood, CA: Tribal Law and Policy Institute.
    \5\ Carter, J. (2012). Domestic violence, child abuse, and youth 
violence: Strategies for prevention and early intervention. San 
Francisco, CA: Family Violence Prevention Fund.
---------------------------------------------------------------------------
    Child abuse prevention funding is vital to the well-being and 
financial stability of AI/AN communities. Beyond the emotional trauma 
that maltreatment inflicts, victims of child maltreatment are more 
likely to require special education services, more likely to be 
involved in the juvenile and criminal justice systems, more likely to 
have long-term mental health needs, and have lower earning potential 
than their peers.\6\ Financially, child maltreatment costs Tribal 
communities and the United States $210,012 per victim.\7\ Child abuse 
prevention funding is an investment Tribal communities believe in, but 
need support to fulfill.
---------------------------------------------------------------------------
    \6\ Fang, X., Brown, D. S., Florence, C. S., & Mercy, J. A. (2012). 
The economic burden of child maltreatment in the United States and 
implications for prevention. Child Abuse & Neglect, 36, 156-65. doi: 
10.1016/j.chiabu.2011.10.006.
    \7\ Fang, X., Brown, D. S., Florence, C. S., & Mercy, J. A. (2012). 
The economic burden of child maltreatment in the United States and 
implications for prevention. Child Abuse & Neglect, 36, 156-65.
---------------------------------------------------------------------------
                     other program recommendations
BIA Indian Child Welfare Act Program
    Increase appropriations to the Indian Child Welfare Act On or Near 
Reservation Program grant program to $20 million and the Off 
Reservation grant program to $5 million.

    The Indian Child Welfare Act (ICWA) was a response to national 
findings that public and private child welfare agencies were 
systematically removing AI/AN children from their homes and communities 
at horrendous rates, often without due process and under questionable 
circumstances. To prevent these troubling practices, which 
unfortunately still occur today, Congress provided protections to AI/AN 
families in State child welfare and judicial systems under ICWA. It 
also recognizes the authority of Tribal nations to provide child 
welfare services and adjudicate child welfare matters. To effectuate 
these provisions, ICWA authorized grant programs to fund child welfare 
services on or near reservations and for ICWA support in off-
reservation, urban Indian programs.
    At the time that ICWA was passed in 1978, Congress estimated that 
between $26 million--$62 million would be required to fully fund Tribal 
child welfare programs on or near reservations.\8\ Even after an 
important fiscal year 2018 increase, current funding levels falls far 
short of this estimate--especially after adjusting for inflation.
---------------------------------------------------------------------------
    \8\ S. Rep. No. 95-597 (p. 19) (1977).

    Appropriate $5 million for the authorized, but unfunded, Off-
Reservation ICWA Program to ensure all AI/AN children receive effective 
---------------------------------------------------------------------------
services as required by ICWA.

    According to the 2010 Census, 67 percent of AI/AN people lived off-
reservation. These children and families are best served when State 
child welfare systems are not only working with the child's Tribe, but 
also with urban Indian child welfare programs. These programs provide 
assistance to States and the child's Tribe, and provide culturally 
appropriate child welfare services that can reduce disproportionality 
of AI/AN children in State foster care systems and other poor outcomes. 
For this reason, ICWA authorizes child welfare funding for urban Indian 
programs. From 1979-1996, funding was allocated to urban organizations 
serving Native children and families. When funded, off-reservation 
programs provided important services such as recruitment of Native 
foster care homes, child abuse prevention efforts, and culturally 
appropriate case management and wraparound services. When funding 
stopped, the majority of these programs disintegrated even as the 
population of AI/AN children off-reservation increased. This funding 
must be reinstated.
BIA Welfare Assistance Program
    Increase appropriation levels to $80 million to support tribal 
services that assist families in crisis, prevent child neglect, sustain 
kinship placements for children placed outside their homes, support 
adults in need of care, and provide final expenses.

    The Welfare Assistance line item provides five important forms of 
funding to AI/AN families: (1) general assistance, (2) child 
assistance, (3) non-medical institution or custodial care of adults, 
(4) burial assistance, and (5) emergency assistance.
    AI/AN child welfare programs and social service agencies need to 
have the resources necessary to support families in times of crisis and 
uncertainty. AI/AN adults--including parents and kinship caregivers--
are unemployed on reservations at a rate more than two times the 
unemployment rate for the total population.\9\ Thirty-four percent of 
AI/AN children live in households with incomes below the poverty line 
as compared to 20.7 percent of children nationwide.\10\ The crippling 
of Native economies before the self-determination era left Tribal 
communities overwhelmingly impoverished, with few economic 
opportunities and high unemployment. The barriers to employment vary 
region to region in Indian Country, but include geographic remoteness, 
a weak private sector, poor basic infrastructure, and even a lack of 
basic law enforcement infrastructure. These conditions make the 
programs funded under welfare assistance an important safety net for 
AI/AN families.
---------------------------------------------------------------------------
    \9\ Stegman, E., & Ebarb, A. (2010). Sequestering opportunity for 
American Indians/Alaska Natives (Para. 1). Retrieved from Center for 
American Progress website: http://www.americanprogress.org/issues/
poverty/news/2013/11/26/80056/sequestering-opportunity-for-american-
indians-and-alaska-natives.
    \10\ U.S. Department of Health and Human Services, Health Resources 
and Services Administration, Maternal and Child Health Bureau. (2013). 
Child health USA 2012 (p. 9). Rockville, MD: Author.
---------------------------------------------------------------------------
    The General Assistance Program provides short-term monetary 
assistance for basic needs like food, clothing, shelter, and utilities 
to individuals who are actively working towards financial stability and 
ineligible for all other financial assistance programs. The Emergency 
Assistance Program provides a one-time emergency payment of less than 
$1,000 to individuals experiencing property damage beyond their 
control. These programs are essential to families experiencing 
unexpected job loss or financial crisis. They often provide the 
assistance necessary to help a family make ends meet and keep their 
children safely in their home.
    The Child Assistance Program provides payments for AI/AN children 
on Tribal lands who must be cared for outside their homes in foster 
care, adoptive, or guardianship placements and who are not eligible for 
other Federal or State child placement funds or services.
    The current funding for the Welfare Assistance Program falls short 
of meeting the needs in Tribal communities. This leaves families in 
poverty and caregivers willing to take children who have been abused or 
neglected into their homes without sufficient financial support.
BIA Social Services Program
    Provide $55 million to fortify child protective services and ensure 
meaningful technical assistance to Tribal social service programs 
across Indian Country.

    The Social Services Program provides a wide array of family support 
services, filling many funding gaps for tribal programs and ensuring 
Federal staff and support for these programs. Importantly, the Social 
Services Program provides the only BIA and Tribal-specific funding 
available for ongoing operation of child protective services in Indian 
Country. It also funds BIA social workers at regional and agency 
offices, and funds training and technical assistance to Tribal social 
service programs and workers.
    The Social Services Program is drastically underfunded and as a 
result, AI/AN children and families suffer. Recent increases as part of 
the Tiwahe Initiative are to be commended and their momentum must be 
continued. This recommended increase will ensure that basic child 
protective services are provided in Tribal communities across the 
country, that tribes have access to meaningful training and technical 
assistance, and that the BIA has the resources necessary to fill 
service gaps. The Tribal Interior Budget Council estimated an unmet 
need of $32 million based upon fiscal year 2015 levels and recent 
appropriations for fiscal year 2018 are still $25 million below the 
estimate of need.
                                 ______
                                 
    Prepared Statement of the National Indian Education Association
Dear Chairman Murkowski:

    On behalf of the National Indian Education Association (NIEA), I 
respectfully submit the following testimony regarding fiscal year 2019 
Appropriations for programs that impact Native students.
    NIEA is the most inclusive national organization advocating for 
improved educational opportunities for American Indian, Alaska Native, 
and Native Hawaiian students. Our mission is to ensure that Native 
students have access to a high-quality academic and cultural education, 
a goal that is only possible if Congress upholds the Federal trust 
responsibility to Tribes.
                     the federal trust relationship
    Congress has a Federal trust responsibility for the education of 
Native students. Established through treaties, Federal law, and U.S. 
Supreme Court decisions, the Federal Government's trust responsibility 
to Tribes includes the obligation to provide parity in access and equal 
resources to all American Indian and Alaska Native students, regardless 
of where they attend school. The Federal trust responsibility is an 
obligation shared between the Congress and the administration for 
federally-recognized Tribes.
  priorities for the department of interior and the bureau of indian 
                            education (bie)
    NIEA highlights the following appropriations requests for fiscal 
year 2019 in the Department of Interior and the BIE.
Education Construction
    Provide $430 million for Bureau of Indian Education (BIE) school 
construction and repair. An increase of $191.7 million above fiscal 
year 2018 enacted.

  --This funding category includes school construction, facilities 
        improvement and repair, and replacement school construction.
  --Schools operating within the BIE system are woefully outdated, and 
        in some cases, dangerous for student and staff.
  --The Department of the Interior's Office of Inspector General 
        published in September of 2016, an evaluation titled 
        ``Condition of Indian School Facilities,'' estimated the cost 
        of fixing the dilapidated BIE schools, concluding that more 
        than $430 million would be needed to fix the problems already 
        identified.
Broadband Internet Access
    Provide $40 million to extend broadband Internet access. An 
increase of $21.15 million above fiscal year 2018 enacted.

  --Technology is no longer a luxury in 2018, and serves as a necessity 
        to keep up with today's advanced society.
  --Less than 10 percent of Indian Country has access to broadband 
        Internet technology.
  --60 percent of BIE schools do not have adequate digital broadband 
        access, or computer access, to be aligned with college and 
        career readiness standards.
  --Expand e-rate for BIE schools, Native majority schools and Tribal 
        Colleges and Universities.
Johnson O'Malley
    Provide $42 million for full funding. An increase of $27.1 million 
above fiscal year 2018 enacted.

  --The Johnson O'Malley program has provided grants to supplement 
        basic student needs since 1934.
  --It is currently being used across the country in innovative ways to 
        assist with the unique cultural and scholastic needs of Native 
        students.
  --The Federal Government allocated $125 per student in JOM funding in 
        1995.
  --Current funds (fiscal year 2017) provide less than $63.80 per 
        student, which are often the only source through which Native 
        students--including those in public schools--can engage in 
        basic education activities.
  --Tribal nations request additional funds to increase the current per 
        student allocation to previous levels and prepare for student 
        count increases in future years.
Juvenile Detention Education
    Provide $620,000 for juvenile detention education in BIA-funded 
facilities. An increase of $120,000 above fiscal year 2018 enacted.

  --This essential funding is used to provide educational services to 
        detained and incarcerated youth at 24 BIA-funded juvenile 
        detention facilities.
Student Transportation
    Provide $73 million for student transportation in the BIE system. 
An increase of $16 million above fiscal year 2018 enacted.

  --BIE schools incur significant costs in transporting Native students 
        to and from school.
  --These costs are considerably higher than most school systems due to 
        the often-rural location of BIE facilities.
  --These high costs often lead to funding shortfalls, which then must 
        either go unpaid or funded by diverting funds from other 
        education programs.
Tribal Grant Support Costs
    Provide $90 million for Tribal grant support costs for tribally-
operated schools. An Increase of $9 million above fiscal year 2018 
enacted levels.

  --Tribal Grant Support Costs fund the administrative costs of 
        existing tribally-operated schools.
  --Full funding is critical as these funds help Tribes expand self-
        governance and Tribal control over education programs by 
        allocating monies for administrative costs such as accounting, 
        payroll, and other legal requirements.
  --Schools must divert critical teaching and learning funding to cover 
        any shortfalls in operational costs.
Facilities Operations
    Provide $109 million for BIE facilities operations. An increase of 
$42.4 million above fiscal year 2018 enacted.

  --BIE schools use this funding for costs such as electricity, heating 
        fuels, communications, GSA vehicle rentals, custodial services, 
        and other vital operating expenses.
  --For years, schools have only received roughly 50 percent of funding 
        needed for these expenses. This shortfall is unacceptable as 
        costs continue to rise for vital services.
Facilities Maintenance
    Provide $76 million for BIE facilities maintenance. An increase of 
$16.5 million above fiscal year 2018 enacted.

  --BIE schools use this funding for the preventative and routine 
        upkeep, as well as for unscheduled maintenance of school 
        buildings, grounds, and utility systems.
  --Underfunding of maintenance continues to be an issue as buildings 
        are in poor conditions and cannot maintain proper standards.
Indian School Equalization Program (ISEP)
    Provide $431 million for the Indian School Equalization Program. An 
increase of $24 million above fiscal year 2018 enacted.

  --These funds provide the core budget account for BIE elementary and 
        secondary schools by covering teacher salaries, aides, 
        principals, and other personnel.
  --ISEP funds are often reallocated to cover the program cuts in other 
        areas of education.
  --ISEP must have adequate funding to ensure program needs are 
        fulfilled and must not be reduced to provide funds for 
        initiatives that have not been vetted by Tribes.
Bureau of Indian Education Immersion Demonstration Grants
    Provide $5 million for BIE immersion programs. An increase of $3 
million above fiscal year 2018 enacted.

  --According to UNESCO, 74 Native languages stand to disappear in the 
        next decade, with only 20 Native languages being spoken by 
        2050.
  --Funding under the BIE reform efforts should strengthen Tribal 
        sovereignty to increase capacity to support Native language 
        immersion schools and provide Native students equal access to 
        learning their cultures and languages.
  --Providing Immersion Demonstration Grant funds would protect the 
        cultural and linguistic heritage of Native students in 
        education systems by providing Native students immersion 
        learning in order to strengthen their language, improve 
        academic outcomes, and become future leaders of their Tribes.
Tribal Education Agencies/Departments
    Provide $10 million to fund Tribal Education Agencies/Departments. 
An increase of $7.5 million above fiscal year 2018 enacted.

  --This funding assists Tribal Education Agencies (TEAs), who are 
        uniquely situated at the local level to implement innovative 
        education programs that improve Native education.
  --Because they are administered by Tribes, TEAs are best equipped to 
        deliver education programs tailored to improve education parity 
        for Natives.
  --TEAs would use this much-needed funding to develop academic 
        standards, assess student progress, and create math and science 
        programs that require high academic standards for students in 
        Tribal, public, and BIE schools.
  --Tribes utilizing self-governance over education have been very 
        successful because they better understand the circumstances of 
        their populations and can develop initiatives that meet local 
        needs.
                               conclusion
    With these concerns and through these recommendations on the fiscal 
year 2019 budget request for Indian programs, NIEA looks forward to 
working with the Chairman to pass a budget that serves the unique needs 
of the only students that the Federal Government has a direct 
responsibility to educate--Native students. If you have any questions, 
please contact Matt de Ferranti, NIEA's Legislative Director, at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="214c454447445353404f5548614f4844400f4e53460f">[email&#160;protected]</a>

Sincerely,
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Ahniwake Rose
Executive Director, NIEA
                                 ______
                                 
 Prepared Statement of the National Institute of Environmental Health 
           Sciences (NIEHS) Superfund Research Program (SRP)
Request Type: Program

Bill: Interior and Environment Appropriations

Agency/Account: Title III, Department of Health and Human Services, 
    National Institutes of Health, National Institute of Environmental 
    Health Sciences

Program Title: Superfund Research Program

Program Description: The NIH-NIEHS Superfund Research Program is a 
    competitively-administered, university-based, multidisciplinary 
    research program that brings together diverse groups of scientists 
    and engineers at 23 centers across the United States with the goal 
    of better understanding the human health problems associated with 
    Superfund contaminants, developing new cleanup technologies, 
    improving risk assessment methods and understanding how hazardous 
    substances move in the environment. Its overarching goal is to 
    solve problems associated with Superfund sites and protect public 
    health. This program is authorized by Section 311(a) of CERCLA.

Program Funding Level Requested: A total funding level of $80,349,000.


----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
Fiscal Year 2019 Amount Requested:..........................................  $80,349,000
Amount included in Fiscal Year 2019 President's Budget:.....................  $54,000,000
Amount Increase/Decrease Over Fiscal Year 2019 President's Budget:..........  $26,349,000 Decrease
Fiscal Year 2018 Appropriated:..............................................  $77,349,000
Amount Increase/Decrease Over Fiscal Year 2018:.............................  $3,000,000 Increase
----------------------------------------------------------------------------------------------------------------

      
                                 ______
                                 
   Prepared Statement of the National Institutes for Water Resources
Chairwoman Murkowski and Ranking Member Udall:

    Thank you for the opportunity to submit this testimony on behalf of 
the National Institutes for Water Resources in support of the Water 
Resources Research Act program, a program funded as part of the U.S. 
Geological Survey's (USGS) budget. I am Sam Fernald, Director of the 
New Mexico Water Resources Research Center at New Mexico State 
University. We are deeply appreciative of the subcommittee's long-
standing support for the Water Resources Research Act, and request that 
the subcommittee fund the WRRA program in fiscal year 2019 at $9 
million.
    The Water Resources Research Act, enacted in 1964, is designed to 
expand and provide more effective coordination of the Nation's water 
research. The Act establishes water resources research institutes 
(Institutes) at lead institutions in each State, as well as for 
Washington D.C., Guam, Puerto Rico, the Virgin Islands, the Federated 
States of Micronesia, the Commonwealth of the Northern Mariana Islands, 
and American Samoa.

    Congress created the Institutes to fulfill three main objectives:

  --Develop, through research, new technology and more efficient 
        methods for resolving local, State, and national water 
        resources challenges;
  --Train water scientists and engineers through on-the-job 
        participation in research; and
  --Facilitate water research coordination and the application of 
        research results through dissemination of information and 
        technology transfers.

    Since 1964, the Water Resources Research Institutes have fulfilled 
these three objectives in partnership with the U.S. Geological Survey. 
The Institutes, managed by a director in each State, promote water-
related research, education, and technology transfer at the national, 
State, and local level through grants and sponsored projects. The 
program is the only federally-mandated research network that focuses on 
applied water resource research, education, training, and outreach.
    The Water Resources Research Institutes program is a State-based 
network dedicated to solving problems of water quantity (supply) and 
quality in partnership with universities, local governments, the water 
industry, non-governmental organizations, and the general public. Each 
State contributes a minimum of a 2:1 match of non-Federal funds to 
Federal funds, thus ensuring that local and regional priorities are 
addressed and the impact of Federal dollars is maximized. The 
Institutes are a direct, vital link between Federal water interests and 
needs and the expertise located within the States' research 
universities.
    The Water Resources Research Institutes program also provides a 
mechanism for ensuring State, regional, and national coordination of 
water resources research, education of future water professionals, and 
proper transfer and utilization of results and outcomes. In fact, the 
Institutes collaborate with over 150 State agencies and more than 165 
local and municipal offices. They also help train over 250 students 
across the Nation and are engaged in over 220 research projects aimed 
at solving regional water needs.
    For more than five decades, the Institutes, in partnership with 
USGS, have provided significant research results and services to our 
Nation and proven successful at bringing new water professionals into 
the work force. Although these projects primarily focus on State needs, 
they also address water issues relevant to our Nation. The following 
are several examples of research conducted by Institutes across the 
country.
    My Institute, the New Mexico Water Resources Research Center, 
developed an innovative desalination technology to remove organic 
substances and salts from water produced from oil and gas exploration. 
The technology improves ion-exchange membranes using nanoparticles, 
nanoflakes, and charged polymers. These new antifouling membranes will 
have broad applications to treat wastewater at lower cost and energy 
demand as compared to existing desalination technologies. Water in this 
system can be potentially recycled in the industrial process making it 
more cost-effective. The technology also uses bacteria to convert 
biodegradable pollutants into electricity, which offsets operation 
energy use or supplies additional energy for other systems for 
operators.
    In 2015, Alaska's Sagavanirktok (Sag) River flooded the Dalton 
Highway, cutting off the only overland passage to the Prudhoe Bay 
Oilfields for a period of approximately 3 weeks. Following that event, 
the University of Alaska Fairbanks Water and Environmental Research 
Center has been continuously working with the Department of 
Transportation and Alyeska Pipeline Services Company to understand Sag 
River flood dynamics and reduce the risk of highway and/or pipeline 
damage from future flooding events. This and similar studies better 
explain North Slope hydrologic processes, a necessary step in 
identifying source water for O&G-related ice roads in the Arctic 
National Wildlife Refuge.
    Researchers at the Ohio Water Resources Institute, are developing 
new technologies to detect and quickly respond to harmful algal blooms 
in Lake Erie. With the rise and frequency and severity of harmful algal 
blooms in lakes and reservoirs, it has become critical to develop early 
warnings and solutions to alleviate this problem. Researchers have 
deployed early warning detection buoys to collect and transmit 
information to water treatment plants, lake managers, and communities 
that may use the water as a drinking water source to alert them to a 
bloom before it grows and becomes potentially dangerous.
    In Colorado, researchers at the Colorado Water Resources Research 
Institute are studying ways to respond to droughts in the South Platte 
River Basin. Although droughts are common in the West, projections 
indicate that they may become more frequent and severe, making water 
management more challenging. Results from the research are revealing 
strategies that maximize management adaptability and resultant 
resiliency of water provision during droughts in the State.
    There are two grant components of the USGS Water Resources Research 
Institutes program.
    The State Water Research Grants provide competitive seed grant 
funding opportunities for State water institutes for research 
priorities that focus on State, local, and community water resources 
problems. The study areas span the spectrum of water supply, water 
quality, and public policy issues of water management. These seed 
grants are used to develop future research proposals and secure 
additional external funding.
    The National Competitive Grants program promotes collaboration 
between the USGS and university scientists in research on significant 
regional and national water resources issues and promotes dissemination 
of results of the research funded under this program.
    With our funding and educational services, water-related 
professionals and researchers provide solutions to the many complex 
water management challenges we face, including toxicity in urban 
stormwater runoff, managing aquifer recharge in drought--stricken 
communities, and monitoring and alleviating human and ecological health 
impacts associated with water reuse.
    Our Nation faces growing challenges in providing water for 
agriculture, human consumption, industrial use, and natural resource 
applications. Institutes also use their base grants to help train new 
scientists, disseminate research results to water managers and the 
public, and promote intrastate and regional collaboration. The Water 
Resources Research Institutes serve to build the STEM workforce as we 
enter a period in which there will be a disproportionate number of 
retirements in all sectors.
    For fiscal year 2019, the National Institutes for Water Resources 
recommends the subcommittee provide $9,000,000 to the USGS for the 
Water Resources Research Institute program. We respectfully submit 
that, even in times of fiscal challenges, investing in programs at USGS 
focused on data collection and the reliability and quality of water 
supplies is critically important to the health, safety, quality of 
life, and economic vitality of communities across the Nation.
    Thank you, on behalf of all the Institute directors, for the 
opportunity to testify and for the subcommittee's strong support of the 
Water Resources Research Institutes program.
                                 ______
                                 
   Prepared Statement of the National Parks Conservation Association
    Chairman Murkowski, Ranking Member Udall and Members of the 
subcommittee, thank you for the opportunity to submit testimony on 
behalf of National Parks Conservation Association (NPCA). Founded in 
1919, NPCA is the leading national, independent voice for protecting 
and enhancing America's National Park System for present and future 
generations. I appreciate the opportunity to provide our views 
regarding the National Park Service (NPS) fiscal year 2019 budget and 
funding issues facing our national parks this year.
    National parks protect America's heritage and deliver robust 
economic returns of $10 in economic benefits nationally for every 
dollar invested in the NPS. Last year, national parks supported nearly 
$36 billion in economic activity and 306,000 jobs. NPCA and other 
polling indicates the vast popularity of national parks and strong 
bipartisan support for adequately funding them. And of course, they are 
deeply loved by the American people in part because they protect our 
cultural and natural heritage.
    We acknowledge the tremendous challenge the subcommittee faces in 
setting thoughtful spending priorities, so we are grateful for your 
consistent support for the National Park Service. NPCA and our partners 
in the National Parks Second Century Action Coalition commend your 
subcommittee for providing needed increases for the National Park 
Service the last five fiscal years, with particularly commendable 
increases in fiscal year 2016 and in the recent fiscal year 2018 
omnibus appropriations bill. This will be helpful for parks to address 
their funding challenges. As they are still behind where they need to 
be to meet their mission, we urge you to do your best to build on this 
support in fiscal year 2019.

    Top Three Fiscal Year 2019 Priorities: NPCA requests appropriated 
funding for NPS with a focus on these accounts:

    1.  $2.629 billion for `Operation of the National Park System'
    2.  $407 million for `National Parks Construction'
    3.  $23 million for `National Park Partnerships'/Centennial 
Challenge

    The Centennial Challenge request is for flat funding, and the 
operations and construction requests are based upon the proportional 
increases in fiscal year 2016 and fiscal year 2018.
    There are numerous other NPS accounts and programs important to us, 
and we outline several of them later in this testimony.

    The President's Fiscal Year 2019 Budget: Not helpful to your work 
in fiscal year 2019 is the extraordinarily damaging president's budget, 
which is comparable in its draconian nature to the administration's 
fiscal year 2018 request. The initial request sought to cut 1,835 NPS 
staff in FTEs, an astonishing number that is a nearly 50 percent 
increase over an already damaging fiscal year 2018 request for staff 
cuts. Proposed cuts to EPA and other agencies important to protecting 
parks' environments are further damaging. That the administration's 
addendum second-guessed the deep cut to park operations was of little 
consolation. We commend the appropriations committees for 
wholeheartedly rejecting the administration's proposed cuts in fiscal 
year 2018 and urge that you continue to support our parks despite this 
damaging vision for their future.

    The Interior Allocation and Wildfire Funding Relief: NPCA 
recognizes the allocation provided to the subcommittee in recent years 
has been insufficient and emblematic of the austere constraints on 
domestic discretionary investments. Therefore, we were relieved that 
compromise was reached on a budget deal that will extend to fiscal year 
2019, and urge Congress to find future sequester relief through the 
expiration of the Budget Control Act after fiscal year 2021. We applaud 
the work of Chairman Mike Simpson and other Members of Congress who 
fought so hard for a wildfire funding fix, which we hope will both make 
the subcommittee's work easier and ensure a far more functional system 
for funding catastrophic wildfires. We expect this will be helpful to 
our national parks and other public lands.

    Appropriated Funding for the Deferred Maintenance Backlog: The 
backlog continues to threaten the protection of nationally significant 
resources and, eventually the experience of visitors. Investments are 
needed for visitor centers, trails, water systems, and more. The 
subcommittee's recent increases for maintenance accounts will be very 
helpful for national parks. The $160 million in added maintenance 
funding in fiscal year 2018 will be particularly helpful in addressing 
parks' many repair needs, and commend that our national parks were 
beneficiaries of Congress' maintenance investments. Unfortunately, more 
is needed to build on that good work.
    Support for the aforementioned request would help address the $11.6 
billion deferred maintenance backlog with investments in the repair/
rehab and cyclic maintenance Operations subaccounts, and line-item 
construction subaccount.. For your information, we are also urging the 
Transportation, Housing and Urban Development subcommittee to fund at 
the fully authorized $100 million annualy the Nationally Significant 
Federal Lands and Tribal Projects Program, which funds transportation 
infrastructure for parks and other Federal lands, and Tribal lands. We 
were grateful for the $300 million appropriated to this fund in fiscal 
year 2018.

    Centennial Challenge: This program provides Federal funds to match 
private funds for projects throughout the park system that improve the 
visitor experience, including but not limited to deferred maintenance 
projects. We commend this subcommittee for the increases for the 
program the last three fiscal years. This support has leveraged more 
than two dollars for every dollar invested for signature projects 
across the National Park System that enhance the visiting experience. 
Many more philanthropic opportunities await, so we hope the 
subcommittee can support the request for flat funding from fiscal year 
2018 for this successful program that enjoys strong bipartisan support.
    We commend Congress for passage of the Centennial Act in 2016 to 
dedicate funding to that program and to a newly established endowment. 
Given the extraordinary philanthropic interest in the program, 
sustained or increased appropriations in addition to those funds would 
help leverage additional philanthropic dollars--a wise investment. We 
understand the intent of the committee in directing Centennial 
Challenge dollars to focus on deferred maintenance. While deferred 
maintenance projects funded by this program are critical, NPCA 
respectfully reminds the committee of the importance of other 
philanthropically-driven projects that improve the visiting experience 
in other ways beyond maintenance.

    Dedicated Backlog Funding: We respect that it can be very difficult 
to identify budgetary offsets for mandatory programs, yet have been 
urging Congress to recognize that a more realistic long-term solution 
is needed to address the maintenance backlog. Under current allocations 
established by the Budget Control Act, and even beyond given the 
constraints of the appropriations process, it is difficult to see how 
this subcommittee will be able to address even the highest priority 
non-transportation facilities' needs. We also recognize the constraints 
of the Highway Trust Fund in meeting the bulk of park transportation 
infrastructure needs. These funding sources are simply limited in their 
ability to address the scope of the large backlog.
    NPCA is a strong advocate for the National Park Service Legacy Act, 
S. 751 and H.R. 2584. We're grateful of the support of several Interior 
appropriators for those bills. We urge the members of the committee to 
cosponsor the bill and work with other members of Congress and the 
administration to ensure passage of a bill that dedicates robust and 
dependable funding to the maintenance challenge.
    While we commend Senator Alexander and others for their support for 
dedicated funding through introduction of the Restoration Act, we urge 
improvement of that funding source through working with the Legacy Act 
cosponsors and the administration to arrive at a final solution that 
can realistically address the problem. We fear the Restoration Act 
revenue source does not guarantee the robust funding that is needed, 
and that the park service under that revenue stream would not be able 
to plan for multi-year projects without a sufficient and known amount 
to plan for these projects. We urge Congress to pass a bill that 
provides robust, dedicated, dependable and dedicated funding to this 
problem.

    We Respectfully Request Operations Investments for Non-Maintenance 
Needs: While the maintenance backlog is one of our highest funding 
priorities, we do not want a focus on the backlog to cause other needed 
work to fall further behind; therefore, we respectfully request broad 
investments in park operations to address the many operating needs 
beyond maintenance.
    In recent years, NPS has experienced a gradual erosion of staff in 
most years. As you know, these losses can be damaging, with impacts 
such as less day-to-day maintenance, less scientific inventory and 
monitoring, reduced hours or even closed public facilities, fewer 
visitor programs, and other challenges to parks fulfilling their 
mission. The challenge is compounded by significant increases in 
visitation that require staff time. Since 2011, NPS has experienced an 
11 percent reduction in staff while at the same time the National Park 
System experienced a 19 percent increase in visitation. We appreciate 
the committee's attention to these ongoing needs, and that while the 
maintenance backlog is a profound problem that NPCA and others are 
prioritizing, these other needs must be addressed.

    Land and Water Conservation Fund (LWCF): The acquisition of 
inholdings is directly related to better managing the places in which 
our Nation already has made a significant investment. Thus we urge 
support for the NPS Federal land acquisition and management portion of 
LWCF, a critical tool for protecting our national parks. We were 
pleased the fiscal year 2016 omnibus included a 3-year reauthorization 
of the program, but are concerned this authorization will run out at 
the end of this fiscal year. We are urging Congress to reauthorize this 
program and request consideration of appropriations bill language to 
provide temporary reauthorization in an fiscal year 2019 funding 
vehicle. To address LWCF's needs in the long-term, we urge support for 
legislation to permanently reauthorize the program, S. 896 and H.R. 
502, and to provide both permanent reauthorization and dedicated 
funding, S. 596.
    We commend the approach of the LAND Act and the Senate energy bill 
in seeking to address both deferred maintenance and LWCF. NPCA urges 
Congress to support both these important needs.

    National Heritage Areas (NHAs): NPCA is a strong supporter of the 
National Heritage Area program. The 49 existing NHAs have generated $12 
billion in economic activity and $1.2 billion in tax revenues, and 
generated over 900,000 volunteer service hours. This mighty program 
with a modest budget deserves support from both Congress and the 
president. Furthermore, support for H.R. 1002 would establish a program 
structure and provide uniform standards for designating, funding and 
assessing all NHAs.

    Historic Preservation Fund (HPF): The HPF provides the primary 
source of funding for State Historic and Tribal Historic Preservation 
Offices in all 50 States. The HPF also supports the Historic Tax Credit 
program, responsible for the rehabilitation of over 40,000 buildings, 
the creation of 2.5 million jobs and the leveraging of $117 billion in 
private investments in historic preservation projects. We request 
continued support for this important program.

    Policy Riders: Efforts to attach environmentally damaging policy 
riders only further threatens the appropriations process, so we were 
grateful that the final fiscal year 2018 bill was largely free of the 
many proposed riders that would have threatened parks, their 
ecosystems, and the health of visitors and wildlife within them. We 
urge continued rejection of efforts to attach damaging riders.

    National Park Fees: NPCA recognizes that fees play an important 
role in supplementing Federal funds, but they can never realistically 
be a major funding source for parks. We forcefully opposed the 
administration's excessive effort to increase fees at 17 parks during 
peak season and commend their withdrawing that effort. While the new 
fees will be more modest, on top of recent fee increases, we fear the 
higher amounts could price Americans out of the parks they own. We are 
urging the administration to research the price point at which fees do 
not discourage visitation, particularly for lower income families. We 
ask Congress to consider setting those fee levels to be adjusted every 
two or 3 years by inflation automatically, thus reducing the 
complications that arise with fee decisions and keeping fees at a fair 
and even rate in constant dollars.
    We urge the committee in general to continue exercising oversight 
of fees to keep parks affordable.

    The Administration's Department of the Interior Reorganization 
Effort: We are deeply concerned about the administration's proposal to 
reorganize the Department. Our chief concerns are: a lack of 
transparency and public involvement; a lack of clarity on the problems 
to be solved, the purposes and goals of the proposal and its 
components, and the suggested timeline for implementation; the 
potential for the proposal to erode the unique NPS mission; shifting 
the number and role of regional offices and staff; the potential for 
the effort to reduce the capacity, presence or coordinating capacity of 
the Washington Support Office (WASO), Denver Service Center and 
regional support offices; the potential cost of the proposal to an 
under-resourced park service; and the potential this proposal could be 
connected with a workforce reduction effort.
    We commend the committee's extensive fiscal year 2018 report 
language exercising oversight over this proposal and appreciate your 
continued oversight to ensure the integrity of NPS and the Department 
more broadly.

    In Conclusion: We recognize the subcommittee's constrained 
allocation, and thus commend the recent funding increases to NPS and 
commitment to our parks well-being. We urge you to provide the best 
funding level possible for NPS in fiscal year 2019 to help the agency 
recover from underfunding. Further, we appreciate your oversight over 
the administration's proposals regarding fees and reorganization.
    Thank you for the opportunity to testify.

    [This statement was submitted by John Garder, Director of Budget 
and Appropriations.]
                                 ______
                                 
    Prepared Statement of the National Tribal Contract Support Cost 
                               Coalition
    My name is Melanie Fourkiller. On behalf of the National Tribal 
Contract Support Cost Coalition (NTCSCC), I am pleased to submit 
written testimony concerning the fiscal year 2019 budget for the Indian 
Health Service (IHS) and Bureau of Indian Affairs (BIA). The Coalition 
is comprised of 21 Tribes and Tribal organizations situated in 11 
States, including my own Tribe the Cherokee Nation, and the Tribe I 
work for, the Choctaw Nation. Collectively, these 21 Tribal 
organizations operate contracts to administer roughly $500 million in 
IHS and BIA programs on behalf of over 250 Native American Tribes.\1\
---------------------------------------------------------------------------
    \1\ The NTCSCC is comprised of the: Alaska Native Tribal Health 
Consortium (AK), Arctic Slope Native Association (AK), Central Council 
of Tlingit & Haida Indian Tribes (AK), Cherokee Nation (OK), Chickasaw 
Nation, Chippewa Cree Tribe of the Rocky Boy's Reservation (MT), 
Choctaw Nation (OK), Confederated Salish and Kootenai Tribes (MT), 
Copper River Native Association (AK), Forest County Potawatomi 
Community (WI), Kodiak Area Native Association (AK), Little River Band 
of Ottawa Indians (MI), Pueblo of Zuni (NM), Riverside-San Bernardino 
County Indian Health (CA), Shoshone Bannock Tribes (ID), Shoshone-
Paiute Tribes (ID, NV), Southeast Alaska Regional Health Consortium 
(AK), Spirit Lake Tribe (ND), Tanana Chiefs Conference (AK), Yukon-
Kuskokwim Health Corporation (AK), and Northwest Portland Area Indian 
Health Board (43 Tribes in ID, WA, OR).
---------------------------------------------------------------------------
    The NTCSCC Coalition was created to assure that the Federal 
Government honors the United States' contractual obligation to add full 
contract support cost funding to every contract and compact awarded 
under the Indian Self-Determination and Education Assistance Act.
    Over the past year, the IHS and BIA have been implementing their 
new CSC policies for calculating and reconciling CSC payments. These 
policies were developed in the wake of two Supreme Court cases which 
declared that full contract support cost funding is a statutory right, 
and this Committee's excellent work to cement those hard-fought 
victories by putting in place an annual indefinite appropriation. The 
days of unpredictable payments and uncertain program funding levels are 
behind us, and we thank Congress for working in partnership with Tribes 
to achieve this result. Clearly Congress supports Tribal self-
governance, Tribal self-determination, and the importance of working 
with Tribes on a government to government basis.
    But over the past year, we have been concerned that IHS at times 
has not shared Congress' goals. A few examples illustrate this point 
well.
    Up until 2012, IHS routinely transferred certain funding to Tribes 
through our self-governance compacts and self-determination contracts. 
I am talking principally about Methamphetamine and Suicide Prevention 
Initiative Funds (MSPI)--now called Substance Abuse and Suicide 
Prevention Funding (or SASP)--and Domestic Violence Prevention 
Initiative Funding (DVPI). During this period, IHS also calculated 
contract support cost requirements on these funds, even if IHS didn't 
always find the money to pay those costs.
    But ironically, just months after the Supreme Court ruled in 
Salazar v Ramah that Tribes were entitled to these costs in full as a 
matter of law, IHS under former Director Roubideaux reversed course. 
Director Roubideaux announced that these funds were suddenly only be 
paid though grants, and no contract support costs would be added to 
carry out these critical programs. This change caused Tribes to cut 
into vital program operations to fund the administrative costs of 
running these programs, including for grant administrators, while 
adding extraordinary complexity through the parallel grant funding and 
reporting process. Nationwide, IHS's change in position annually 
reduces behavioral health program funding by 25 percent from what it 
would be if full CSC funding were paid.
    In the fiscal year 2017 appropriation, Congress removed the so-
called ``notwithstanding'' clause which IHS had relied upon as 
justification for sweeping aside the Indian Self-Determination Act, and 
ignoring that Act's mandate to add CSC funding to all IHS funds. To be 
sure, Congress expected the agency to use its best judgment in how to 
allocate this funding among the Tribes, but Congress did not expect the 
agency to continue refusing to pay these funds through existing 
compacts and contracts, and to continue refusing to add contract 
support costs to these funds.
    Yet, in this last funding cycle, that is exactly what IHS did 
again. Nothing changed. In fact, things got worse as the use of grants 
proliferated. In a February 16, 2018 letter IHS was unmoved by 
Congress's action, saying ``IHS reaffirms its position that grants, 
including the IHS SASP and the DVPP, are not eligible for CSC. Grants 
are not programs, functions, services, or activities (PFSAs) funded 
through the Secretarial amount, as defined by the ISDEAA.'' We are 
therefore particularly grateful for Congress's action in the Omnibus 
Appropriations Act for fiscal year 2018. In the Manager's Report 
accompanying the Act, Congress was clear as a bell:

        ISDEAA Contracts.--The Committees encourage the transfer of 
        amounts provided to Tribal organizations for the Substance 
        Abuse and Suicide Prevention Program, for the Domestic Violence 
        Prevention Program, for the Zero Suicide Initiative, for 
        aftercare pilots at Youth Regional Treatment Centers, and to 
        improve collections from public and private insurance at 
        tribally-operated facilities to such organizations through 
        Indian Self-Determination Act compacts and contracts, and not 
        through separate grant instruments. This will ensure that 
        associated administrative costs will be covered through the 
        contract support cost process.

    As of this date, we have still not heard whether IHS will abide by 
Congress's instruction. It would be most unfortunate if yet another 
round of contract support litigation became necessary to bring IHS to 
heel.
    IHS has also disrespected the government-to-government relationship 
when it comes to setting contract support cost policy. In December 
2017, IHS defied its own Manual mandating that advance Tribal 
consultation must occur before any change could be made about CSC 
policy. With no notice whatsoever, IHS announced it was immediately 
suspending a key provision for calculating CSC deductions for so-called 
duplicate Service Unit funding (Service Unit funding that IHS asserts 
goes toward administrative overhead). In February 2018, IHS refused to 
budge, and in March IHS explained at a CSC Work Group meeting that the 
actions had been taken because of illegal overpayments to various 
Tribes. But when we examined IHS's ``data,'' we learned--and IHS 
admitted--that no overpayments had occurred, and that only one Tribe--
not a multitude of Tribes--had even raised an issue of concern to IHS. 
Eventually the Tribal work group members worked through a Policy 
amendment to address IHS's obscure concern. But it was a bitter lesson 
about how far IHS will go in derogation of the government to government 
relationship--claiming an emergency requiring action when, in fact, 
there was no emergency at all.
    And to make matters worse, when IHS did eventually announce Tribal 
consultation, it included multiple other language ``options'' IHS had 
developed unilaterally without any Tribal input that IHS is considering 
adding to the Policy instead of that jointly developed by the 
Workgroup. These IHS options attempt to limit the rights of Tribes that 
had been preserved in the original policy.
    A last example of IHS's continuing disregard for the law is its 
attitude about ``duplication.'' Again, it is bitterly ironic that, just 
when we've entered the era of full CSC funding, IHS chooses to adopt an 
aggressive position that Tribal CSC payments are actually too high. IHS 
today asserts in various negotiations that CSC payments cannot cover 
all manner of costs if the Secretarial program amount could lawfully 
have been spent on that those costs were the program being run by IHS. 
This position is extreme and would wipe out most CSC funding. When IHS 
asserted this position to refuse to pay some facility costs, the 
Citizen Potawatomi Nation sued in Federal court and in short order IHS 
folded. Yet IHS continues to raise this issue in other settings, and 
less assertive Tribes are losing out in the process.
    This agency attitude is all wrong. IHS should be defending and 
advancing self-governance and self-determination; not trying to find 
new and creative ways to undermine it.

    Going forward, we hope the Committee will instruct IHS--once again:

  --to pay all IHS funds (other than the Special Diabetes grants 
        controlled by other law) through ISDA compacts and contracts. 
        The practice of using grants much stop;
  --to return to its core mission of supporting Tribes in achieving 
        greater self-determination and self-governance;
  --to conduct itself honorably and with due regard for the government 
        to government relationship.

    More generally, IHS must abandon the invention of ever new theories 
for reducing contract support cost requirements, and refocus its 
efforts on supporting Tribes to provide better and expanded healthcare 
for their citizens.
    More broadly, we bemoan the complexity of the IHS process, which 
has created a considerable and unsustainable bureaucracy backed by 
high-priced non-government accountants and auditors. Somehow the BIA 
system, which annually pays out some $300 million dollars in contract 
support costs, works just fine at a fraction of the cost and with far 
many more contracts and Tribal contractors.
    The BIA genuinely embraced the Committee's instructions 3 years ago 
to adopt policies that are simple and straightforward, and to 
streamline the process for determining and reconciling contract support 
cost requirements. Tribes and agency personnel, alike, easily 
understand the BIA's new policy, and the BIA's simple approach leads to 
accurate CSC estimates. It also doesn't require extensive training, and 
therefore has already led to improved agency business practices.
    The IHS approach, by contrast, seems to strive for maximum 
complexity. Consider that today, halfway through fiscal year 2018, IHS 
has yet to make all CSC payment adjustments for fiscal year 2017. In 
fact, IHS hasn't made all its CSC payment adjustments for 2016, 2015 
and even 2014.
    The IHS Policy is terribly over-complicated. It contains several 
complex calculations, requires Tribes to submit additional 
documentation to the agency each year, and necessitates two separate 
CSC negotiation processes each year. Indeed, the policy is so 
complicated that the agency apparently still has only one staff person 
across the entire country who can answer policy questions and guide the 
agency's policy interpretation. The agency's approach to training on 
the new policy is also telling--instead of partnering with Tribes that 
asked to be involved, IHS developed a series of YouTube videos that 
completely ignore the Tribal position on ``duplication'' and 
``allocation'' issues. The result is even more conflict in individual 
negotiations.
    As the Committee is well aware, the policy is so complicated that 
IHS personnel were unable to get a firm grasp on CSC calculations last 
year, overstating the national CSC requirement by $90 million. Clearly, 
the agency's failure to simplify the CSC calculation process is 
impacting IHS, too.
    In sum, while both agencies have made real progress in improving 
their management of their CSC accounts, we respectfully urge the 
subcommittee to repeat its instructions to IHS to further simplify its 
calculation and reconciliation processes, and to instruct the agencies 
not to seek to reduce Tribal contract support cost entitlements.
    To further simplify and streamline contracting activities, we also 
respectfully suggest that the subcommittee urge the agencies to explore 
using multi-year arrangements for fixed rates or fixed lump-sum amounts 
subject to inflationary adjustments.
    I thank the subcommittee for the opportunity to provide this 
testimony on behalf of the National Tribal Contract Support Cost 
Coalition.

    [This statement was submitted by Melanie Fourkiller, 
Representative.]
                                 ______
                                 
   Prepared Statement of the National Trust for Historic Preservation
    Chairman Murkowski, Ranking Member Udall, and Members of the 
subcommittee, I appreciate this opportunity to present the National 
Trust for Historic Preservation's recommendations for fiscal year 2019 
appropriations. My name is Tom Cassidy and I am the Vice President of 
Government Relations and Policy. The National Trust is a privately-
funded nonprofit organization chartered by Congress in 1949. We work to 
save America's historic places to enrich our future.
    The Nation faces a challenging fiscal environment. The National 
Trust recognizes there is a need for fiscal restraint and cost-
effective Federal investments. However, funding levels proposed in the 
administration's budget request threaten to sharply curtail the ability 
of Federal agencies to fulfill their responsibilities to manage 
preservation, conservation, and recreation programs on Federal lands. 
We look forward to working with this subcommittee as you address the 
ongoing needs for investments to sustain our Nation's rich heritage of 
cultural and historic resources that generate lasting economic and 
civic vitality for communities throughout the Nation.
    National Park Service: Historic Preservation Fund. The Historic 
Preservation Fund (HPF) is the principal source of funding to implement 
the Nation's historic preservation programs. The National Trust is 
enormously appreciative of the strong funding levels the Committee has 
provided in recent years, including last year's $96.9 million, the 
highest level of HPF funding in history. We urge you to again reject 
the administration's proposed funding level of just $32.6 million, 
which would result in the lowest funding level for State Historic 
Preservation Officers since fiscal year 1990, the lowest funding level 
for Tribal Historic Preservation Officers since fiscal year 2007, and 
eliminate five separate competitive grant programs funded in fiscal 
year 2018. Inadequate HPF funding limits support for preservation 
activities such as survey, nomination of properties to the National 
Register of Historic Places, public education, as well as project 
review required by the National Historic Preservation Act and for the 
Federal Historic Rehabilitation Tax Credit (HTC), which Congress 
retained in the recent tax bill.

    We request that Congress provide a total fiscal year 2019 HPF 
appropriation of $110.5 million. Within that funding, we recommend:

  --$55 million for State Historic Preservation Officers for heritage 
        preservation and protection programs, including $2 million for 
        a new competitive grant program to digitize, map, and survey 
        historic and cultural resources.
  --$15 million for Tribal Historic Preservation Officers to carry out 
        requirements of the National Historic Preservation Act, 
        including $2 million for a new competitive grant program to 
        digitize, map, and survey Tribal historic and cultural 
        resources.
  --$15 million for competitive grants to document, interpret, and 
        preserve historical sites associated with the Civil Rights 
        Movement.
  --$15 million for Save America's Treasures grants for the 
        preservation of nationally significant sites, structures, and 
        artifacts.
  --$5 million for grants to Historically Black Colleges and 
        Universities to preserve and repair historic buildings.
  --$5 million for preservation grants to revitalize historic 
        properties of national, State, and local significance.
  --$500,000 for competitive grants for the survey and nomination of 
        properties associated with communities currently 
        underrepresented on the National Register of Historic Places 
        and National Historic Landmarks.

    National Park Service: Operation of the National Park System. The 
National Park Service (NPS) is responsible for 417 units of the 
National Park System ranging from the battlefields where our ancestors 
fought and died to recent additions like the Birmingham Civil Rights 
National Monument and the Reconstruction Era National Monument. Over 
the past 20 years, more than 40 new parks have been added to the park 
system, many of which preserve historic places and themes that have 
been underrepresented within the system. We strongly oppose the 
President's proposed budget cuts for National Park Service Operations. 
The administration's request of $2.154 billion--a cut of more than $323 
million from fiscal year 2018--would result in decreased stewardship of 
historic and cultural resources and reductions in visitor services at a 
time when our national parks are more popular than ever. We encourage 
the Committee to provide at least level funding from fiscal year 2018 
of $2.47 billion. Within this funding, we recommend robust funding for 
Resource Stewardship, including $1 million to provide the initial 
funding for the newly established African American Civil Rights 
Network.
    National Park Service: Deferred Maintenance. The National Park 
Service is responsible for maintaining a system comprised of more than 
84 million acres that tells the stories of remarkable people and events 
in our country's history. Unfortunately, after 100 years of operation 
and inconsistent public funding, the National Park System faces a 
deferred maintenance backlog estimated at $11.6 billion, of which 47 
percent is attributed to historic assets. Deferred maintenance in our 
national parks puts historic and cultural sites at risk of permanent 
damage or loss, and in the absence of funding, the condition of these 
assets will continue to deteriorate and become more expensive to repair 
and preserve in the future.

  --Construction. We support the administration's budget request of 
        $149 million for Line Item Construction projects, which 
        addresses the deferred maintenance for the NPS' highest 
        priority non-transportation assets with projects greater than 
        $1 million. This amount is a $20 million increase above the 
        fiscal year 2018 enacted level of $129 million.
  --Repair and Rehabilitation; Cyclic Maintenance. We are enormously 
        appreciative of the Committee's commitment to enhancing these 
        accounts with significant investments since fiscal year 2016; 
        it is making a real impact on addressing the long-term 
        maintenance needs of the parks. We recommend $150 million for 
        Repair and Rehabilitation, an increase of $16 million above the 
        fiscal year 2018 enacted level of $134 million. We also 
        recommend $160 million for Cyclic Maintenance, an increase of 
        $19 million above fiscal year 2018. These investments support a 
        service-wide deferred maintenance strategy that directs funds 
        to high priority mission critical and mission dependent assets 
        required to maintain historic structures and that are essential 
        to abate growth of the deferred maintenance backlog. Additional 
        investments will contribute to the successful preservation of 
        historic sites and other resources in the National Park System.
  --Dedicated Funding for Deferred Maintenance. We strongly support the 
        creation of a reliable, dedicated Federal funding source 
        distinct from annual appropriations to address the deferred 
        maintenance backlog, as provided in the bipartisan National 
        Park Service Legacy Act (S. 751/H.R. 2584) introduced in both 
        the Senate and House.
  --Leasing Historic Structures in National Parks. We appreciate the 
        Committees' strong support of expanded use of historic leasing 
        authorities by the NPS. Leasing is a well-established tool that 
        can bring non-Federal resources to the rehabilitation and use 
        of under-utilized or abandoned buildings within the parks.
  --Volunteerism. The National Trust recognizes that direct Federal 
        funding is insufficient to provide all the resources necessary 
        to maintain the parks. As part of our commitment to assist the 
        NPS with reducing the maintenance backlog of historic 
        properties, the National Trust launched the HOPE Crew (which 
        stands for the Hands-On Preservation Experience) initiative in 
        2014 to train young adults in preservation skills while helping 
        protect and restore historic sites. Youth and veterans are 
        trained in the skills necessary to perform preservation work in 
        the parks and other Federal lands through a cooperative 
        agreement between the NPS, other Federal land management 
        agencies, and several NGOs including the Student Conservation 
        Association and The Corps Network. Funds for these projects 
        come from different sources, including Repair and 
        Rehabilitation, Cyclic Maintenance, the Recreational Fee 
        program, concessionaires, historic leasing funds, and Section 
        106 mitigation. Since 2014, HOPE Crew has trained over 700 
        young people and veterans and engaged 3,000 volunteers at over 
        150 projects nationwide, completing 120,000 hours and helping 
        to support $18 million in preservation work. This work includes 
        rehabilitating structures at Martin Luther King, Jr. National 
        Historical Park, Little Big Horn Battlefield National Monument, 
        Golden Gate National Recreation Area, and Shenandoah National 
        Park. Projects like these help reduce the maintenance backlog 
        while providing job skills and education for the next 
        generation of stewards of America's most important historic 
        sites.

    National Park Service: Centennial Challenge Matching Grants. The 
National Trust supports the Centennial Challenge, which provides 
Federal funding to match donations for signature National Park Service 
projects and programs, and urges the Committee to consider funding this 
initiative at least at the fiscal year 2018 enacted level of $23 
million. This funding will allow the NPS to leverage private 
contributions to enhance visitor services and improve cultural and 
natural resources across the parks in the Service.
    National Park Service: National Heritage Areas. We recommend 
funding for the Heritage Partnership Program and our National Heritage 
Areas (NHAs) at the fiscal year 2018 enacted level of $20.321 million. 
The administration's proposal to eliminate NHA funding would severely 
impair the sustainability of the program and render many NHAs unable to 
function.
    Bureau of Land Management: Cultural Resources Management. The BLM 
oversees the largest, most diverse and scientifically important 
collection of historic and cultural resources on our Nation's public 
lands, as well as the museum collections and data associated with them. 
We recommend $19.131 million, a modest increase of $2 million above the 
fiscal year 2018 enacted level. Increased funding is necessary to 
fulfill BLM's statutory requirements for Section 106 reviews of land 
use proposals and National Historic Preservation Act's (NHPA) Section 
110 requirements for inventory and protection cultural resources. The 
increase would support surveys of sensitive areas, site protection and 
stabilization projects for sites vulnerable to unauthorized activities 
and damage due to fire, erosion and changing water levels. Funding 
would also support updated predictive modeling and data analysis to 
enhance the BLM's ability to address large-scale, cross-jurisdictional 
land-use projects. We recommend that the Committee encourage the BLM to 
promote inventory information sharing with State Historic Preservation 
Officers and Tribal Historic Preservation Officers. The cultural 
resources program also funds NHPA Section 106 review of 13,000 land-use 
proposals each year, compliance with the Native American Graves 
Protection and Repatriation Act, and Government-to-Government 
consultation with Indian Tribes and Alaska Native Governments.
    Bureau of Land Management: National Landscape Conservation System. 
The BLM's National Landscape Conservation System (National Conservation 
Lands) includes 36 million acres of congressionally and presidentially 
designated lands, including National Monuments, National Conservation 
Areas, Wilderness, Wilderness Study Areas, National Scenic and Historic 
Trails, and Wild and Scenic Rivers. This includes new additions such as 
Bears Ears National Monument. We encourage the Committee to provide 
$40.5 million to the base program for the National Landscape 
Conservation System, an increase of $3.6 million above the fiscal year 
2018 enacted level. An increase in base funding will prevent critical 
damage to the resources found in these areas, ensure proper management 
and provide for a quality visitor experience. We also support providing 
at least level funding for wilderness management and national monument 
management on Oregon and California Grant Lands. We urge you to reject 
the administration's proposed cuts to these programs, which would 
result in reduced visitor services, decreased maintenance and care of 
trails, and fewer educational and interpretive resources.
    Department-Wide: Land and Water Conservation Fund. The National 
Trust supports robust funding for the Land and Water Conservation Fund 
(LWCF), and we urge the Committee to reject the drastic cut proposed 
for the program in the administration's budget request. We encourage 
the Committee to instead continue increasing LWCF toward the full $900 
million from offshore mineral leasing revenues that is dedicated to 
LWCF annually. Many of the Nation's most significant historic and 
cultural landscapes have been permanently protected through LWCF 
investments, including Martin Luther King Jr. National Historical Park, 
Canyons of the Ancients National Monument, and Hopewell Culture 
National Historic Park. In total, more than $550 million has been 
invested to acquire historic sites and 137,000 acres in 162 NPS units. 
Within LWCF funding, we encourage the Committee to provide at least 
level funding of $10 million for the American Battlefield Protection 
Program.
    Independent Agencies: National Endowment for the Arts and National 
Endowment for the Humanities. We urge the Committee to reject the 
administration's proposed elimination of funding for the National 
Endowment for the Arts (NEA) and National Endowment for the Humanities 
(NEH) and instead maintain the fiscal year 2018 enacted level of 
$152.849 million for each program. NEA and NEH funding is critical to 
communities around the country. It supports efforts by the National 
Trust's Historic Sites and others to tell a fuller American story and 
engage visitors with history in compelling ways. For example, support 
from the NEA has created programs like Art and Shadows at the Shadows-
on-the-Teche in Louisiana that put regionally-based artists in 
residence at the site, resulting in programming that attracted new 
audiences and served as a prototype for broader arts-focused 
programming that now draws people from around the country to the town's 
downtown commercial district. NEH support has brought teachers from 
around the country to learn about history in the places that it was 
made and to carry those experiences back to their classrooms, such as 
exploring the intellectual underpinnings of the Constitution at James 
Madison's Montpelier or discovering the rich, but largely unknown, 
African American history in the President's neighborhood at Decatur 
House.
    Thank you for the opportunity to present the National Trust's 
recommendations for the fiscal year 2019 Interior, Environment and 
Related Agencies appropriations bill. I can be reached by email at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0773646674746e637e477466716e6960776b666462742968756029">[email&#160;protected]</a> The mailing address for the National Trust 
is 2600 Virginia Avenue NW, Suite 1100, Washington, DC 20037.
                                 ______
                                 
       Prepared Statement of National Wildlife Refuge Association
    Chair Murkowski, Ranking Member Udall, and Members of the 
Subcommittee:

    On behalf of the National Wildlife Refuge Association and its 
membership of representatives from Refuge Friends organizations and 
concerned citizens, thank you for your support for the National 
Wildlife Refuge System (NWRS), particularly for the funding increase 
for fiscal year 2018. We appreciate the opportunity to offer comments 
on the fiscal year 2019 Interior Appropriations bill and respectfully 
request:

  --$586 million for the Operations and Maintenance (O&M) accounts of 
        the NWRS;
  --$900 million for the Land and Water Conservation Fund (LWCF), with 
        $150 million allocated for the FWS, including these high 
        priority requests:

    --$10 million for Everglades Headwaters NWR and Conservation Area 
            (Florida);
    --$6 million for Silvio O. Conte NFWR (Connecticut, New Hampshire, 
            Vermont, Massachusetts);
    --$3 million for Cache River NWR (Arizona);
    --$2 million for Bear River Watershed Conservation Area (Wyoming, 
            Idaho, Utah);
    --$2 million for Blackwater NWR (Maryland);
    --$2 million for Clarks River NWR (Kentucky);
    --$8 million for Hakalau Forest NWR (Hawaii); and
    --$8 million for the Dakota Grasslands Conservation Area (North 
            Dakota, South Dakota);

  --$50 million for the Refuge Fund;
  --$75 million for the FWS Partners for Fish and Wildlife Program;
  --$15 million for the FWS Coastal Program;
  --$60 million for FWS for Preparedness and Hazardous Fuels Reduction 
        (under DOI);
  --$70 million for the State and Tribal Wildlife Grants Program;
  --$47.6 million for the North American Wetlands Conservation Fund;
  --$6 million for the Neotropical Migratory Bird Fund.

    We understand our Nation's challenging fiscal constraints, but 
cutting funding to programs that are economic drivers and job creators 
in local communities only exacerbates an already difficult situation. 
For example, the NWRS averages almost $5 in economic return for every 
$1 appropriated. Budgets have not kept pace with rising costs, and the 
gap between the funding needed to maintain these programs and the 
funding appropriated has widened dramatically.
    The Refuge System is currently responsible for 850 million acres of 
land and water. Of that total, 750 million acres are included in the 5 
Marine National Monuments created by Presidents Bush and Obama, yet 
very little additional funding has been provided to these water 
resources since their initial creation in 2006.
    The Service is also expanding their outreach by working to make 
conservation more accessible to the American public via urban refuges 
and urban partnerships. To begin bridging these gaps, the Refuge 
Association urges Congress to fund these critical programs that 
leverage Federal dollars and serve as economic drivers.
National Wildlife Refuge System--Operations & Maintenance
    The Refuge Association chairs the Cooperative Alliance for Refuge 
Enhancement (CARE), a diverse coalition of 23 sporting, conservation, 
and scientific organizations representing more than 16 million 
Americans that supports increased funding for the Refuge System. CARE 
estimates the NWRS needs at least $900 million annually to manage its 
100 million land acres and 750 million acres of marine national 
monuments. Yet the Refuge System is currently funded at roughly half 
that amount--$486.7 million or 57 cents per acre. The Refuge System 
cannot fulfill its obligation to the American public, our wildlife, and 
53.6 million annual visitors without increases in maintenance and 
operation funds.
    Funding for the Refuge System has declined substantially from a 
funding level of $503 million in fiscal year 2010 to its current $486.7 
million--$93 million below what it needs to keep pace with inflation 
and salary increases. This has forced the Service to cut back on 
programs and create efficiencies whenever possible. Because of these 
new efficiencies, the Service has cut its deferred maintenance backlog 
in half from $2.7 billion to $1.16 billion as of the beginning of 
fiscal year 2018. But budget cuts also led to the loss of 488 positions 
since fiscal year 2011. Because most refuge lands and waters are highly 
managed, this deterioration in staffing has had a dramatic impact 
resulting in significant declines in habitat protection and management, 
hunting, fishing, volunteerism and scientific research.
    Visitation to all refuges jumped by 7 million between fiscal year 
2013 and fiscal year 2017. However, visitor services staff has declined 
by 15 percent, forcing a reduction in public programs and hours of 
operation, yet there is more demand than ever for recreational 
opportunities on refuges. Waterfowl hunting visits are up 7 percent 
since fiscal year 2011 and wildlife observation visits are up 12 
percent. Photography participation is up 52 percent and auto tour 
visits are up 14 percent. Overall, more people are looking to recreate 
on wildlife refuges, yet understaffed refuges struggle to provide those 
opportunities.
    Reductions in visitor services can be extremely troubling to 
constituencies who want to visit. At Tualatin River NWR in Oregon, 
elimination of the visitor services position cut all teacher training 
workshops and community outreach. Prior to this loss, over 100 teachers 
were trained each year at the refuge. Patuxent Research Refuge in 
Maryland--the refuge closest to the Nation's capital --has closed its 
visitor's center every Thursday due to budget shortfalls, reduced 
programs for schools, and lost half its visitor services staff.
    Equally troubling is a 15 percent drop in the number of volunteers 
since fiscal year 2011. At a time when record numbers of Americans are 
retiring and have the capability to give back, the Service's ability to 
oversee their efforts has been curtailed. Volunteers provide an 
additional 20 percent of work on our national wildlife refuges, yet 
they are being turned away when the System needs them the most.
    During these years of challenging budgets, the Refuge System's 
potential to drive local economies and create jobs is of paramount 
importance. Banking On Nature, a report issued by the FWS in 2013, 
shows that even during the worst recession since the Great Depression, 
the Refuge System saw economic output in local communities increase 20 
percent to $2.4 billion, visitation increase 30 percent to 46.5 
million, an average return on investment increase of 22 percent to 
$4.87 for every $1 appropriated, and supported jobs increase 23 percent 
to 35,000. As stated above, since this report was issued, visitation 
has further increased another 7 million.
    The Refuge Association appreciates the subcommittee's consideration 
of our request of $586 million for fiscal year 2017 for National 
Wildlife Refuge System Operations and Maintenance.
Strategic Growth--Land and Water Conservation Fund (LWCF)
    The Land and Water Conservation Fund is an essential tool for 
protecting the integrity of the Refuge System and is the primary 
funding source for land and conservation easement acquisition by 
Federal land agencies. Some in Congress have argued that public lands 
like the Refuge System can't manage what they have and thus, all land 
acquisition should end. However, land and conservation easements add 
very little to operations and management costs, compared to other kinds 
of protected lands. Meanwhile, in the past 20 years, refuge visitation 
has grown by nearly 10 million people. The public is hungry for more 
opportunities to recreate, but refuges are unable to fully fund the 
necessary operations and management costs.
    Increasingly, LWCF is being used to conserve working lands and 
local culture through the acquisition of easements that secure 
conservation protection while leaving the land in private ownership and 
on the tax rolls. Easements are powerful tools that foster public-
private partnerships with ranchers, farmers and foresters to conserve 
wildlife, habitat and a uniquely American way of life. Innovative 
landscape-scale initiatives using easements have broad community and 
State support in New England's Connecticut River Watershed, the 
Everglades Headwaters, the Bear River Watershed, and the Dakota 
Grasslands. These iconic landscapes remain privately managed, 
generating tax income for local communities, securing our Nation's 
food, and balancing resource use and resource protection for wildlife.
    In many cases, however, land acquisition is required to conserve 
intact and functional natural habitat. The Refuge System is responsible 
for safeguarding population levels of a range of species, including 
many that require specific habitat conditions, such as beaches for sea 
turtles and isolated springs for endemic desert fish. Others require 
multiple habitat types during their life cycle. By acquiring critical 
habitat areas and linking conserved lands, the Refuge System enhances 
the integrity of the System and strengthens our network of habitat to 
give wildlife space and time to respond to changes, whether from 
climate or changing land use patterns.
    The Refuge Association calls on Congress to fund LWCF at $900 
million per year, with $150 million provided in fiscal year 2019 to the 
USFWS, including the projects enumerated at the beginning of this 
statement and those advocated by Refuge Friends.
Commitment to Refuge Communities--Refuge Fund
    The Refuge System uses net income derived from permits and timber 
harvests to make payments to local communities to offset property tax 
revenue lost when the federally-acquired lands are removed from local 
tax rolls. The System relies on Congressional appropriations to the 
Refuge Fund to compensate for the shortfall between revenues and tax 
replacement obligations. However, declining revenues and lack of 
appropriations have resulted in the Service paying less than 50 percent 
of its tax-offset obligations since 2001. The negative impact on local 
communities is felt even more starkly in difficult economic times and 
reduced funding threatens the partnerships that are so important for 
successful conservation.
    The Refuge Association requests $50 million for the Refuge Fund.--
We also call for a review of the Refuge Revenue Sharing Act of 1935 as 
amended, and consideration of conversion to a Payment-in-Lieu of Taxes 
(PILT) program to be consistent with other Federal land management 
agencies and to provide Refuge communities with more equitable 
payments.
Partnerships--Partners for Fish and Wildlife Program (Partners Program)
    With 75 percent of all fish and wildlife species dependent upon 
private lands for their survival, the Partners Program is one of the 
most powerful tools for protecting wildlife where it lives. By building 
effective partnerships between public agencies and private landowners 
to conserve America's expansive working landscapes, the Partners 
Program has implemented nearly 29,000 restoration projects in the past 
25 years, restoring over 1 million acres of wetlands, 3 million acres 
of uplands, and 11,000 miles of streams. The Partners Program leverages 
Federal dollars, generating nearly $16 in economic return for every $1 
appropriated for projects.
    The Partners Program is playing a key role in conserving greater 
sage-grouse habitat in the intermountain west. To this end, we request 
an additional $78 million for the Interior agencies to implement 
sagebrush steppe habitat conservation and monitoring efforts that will 
leverage $300 million in Department of Agriculture investments.
    The Refuge Association and the landowner-led Partners for 
Conservation request $75 million for fiscal year 2017.--Such a funding 
level would result in an additional $400 million worth of conservation 
across the Nation.
Fish and Wildlife Service Grant Programs
    The North American Wetlands Conservation Act (NAWCA), Neotropical 
Migratory Bird Conservation Act (Neotrop), and the State and Tribal 
Wildlife Grants (SWG) have been incredibly beneficial for national 
wildlife refuges. The NAWCA program delivers an average 3:1 match for 
all Federal standard and small grants, and has restored wetlands on 
wildlife refuges across the Nation. NWRA fully supports a return to 
this program high water mark of $47.6 million.
    The SWG program provides funding to State wildlife agencies to for 
developing and implementing programs that benefit wildlife habitat, 
including hunted and non-hunted species. This funding is critical for 
research, wildlife surveys, species restoration, and habitat management 
on State lands, all of which contribute to a system of healthy Federal 
and State lands. The States are essential partners to the Refuge 
System, and we support funding for this program of $75 million.
    And in a similar vein, the Neotrop program protects neotropical 
bird species across the Americas, with $62.2 million in Federal grants 
being matched by $236 million in partner funds. As wonderful as refuge 
lands are, wildlife conservation must also take place on State and 
private lands, as well as in other countries, particularly for 
migratory species.
    We believe that with sound conservation policy, adequate funding, 
and the power of more than 40,000 dedicated volunteers, the Refuge 
System can fulfill its mission to provide wildlife dependent recreation 
for Americans and protect the habitat for more than 700 species of 
birds, 220 species of mammals, 250 reptile and amphibian species and 
more than 1,000 species of fish.
    We look forward to working with Congress in 2018 and 2019 to 
accomplish this goal and appreciate your consideration of our requests. 
Please let our staff know if you have any questions.
                                 ______
                                 
            Prepared Statement of the Native Village of Eyak
    The Native Village of Eyak makes the following requests and 
comments on the fiscal year 2019 Indian programs appropriations:

  --Joint Venture Funding: Increase funding and reopen the Joint 
        Venture application program in 2019.
  --Section 105(l) Leases: Identify sufficient funding for healthcare 
        facility leases under Section 105(l) of the Indian Self-
        Determination and Education Assistance Act (ISDEAA).
  --Contract Support Cost Funding: Continue to fund Contract Support 
        Costs at 100 percent.
  --Advance Appropriations for IHS: Place IHS funding on an advance 
        appropriations basis.
  --Subsidies for Telecommunications Connectivity: Support Tribal 
        efforts to end the cap on telecommunications subsidies.
  --Fully fund BIA 638 compacts and increase tribal shares in 
        negotiated line items.

    The Native Village of Eyak is a federally recognized Tribal 
government located in Cordova, Alaska, on the southeast shores of 
Prince William Sound in the North Gulf Coast. The Tribe is a co-signer 
to the Alaska Tribal Health Compact with the Indian Health Service 
(IHS) and operates a wide range of healthcare programs, including 
primary care services and behavioral health. The Tribe also has a self-
governance compact under the ISDEAA with the Bureau of Indian Affairs. 
The Native Village of Eyak focuses on self-determination and self-
governance as a means of improving the lives and health of our Tribal 
citizens. We are not only responsible for providing quality, available 
healthcare services, but also for promoting opportunities and 
partnerships for our citizens, protecting our traditional land and 
natural resources, and for strengthening our culture.
                         joint venture funding
    The IHS Joint Venture Program, authorized under the Indian Health 
Care Improvement Act, helps Tribal programs leverage Tribal and IHS 
funding for construction and staffing of needed healthcare facilities. 
The unique partnership allows Tribes to cover the costs of design and 
construction of such facilities, while the IHS provides funding for 
staffing and equipment. The Native Village of Eyak would very much like 
to participate in this program, as it needs a new health facility in 
the very near future. We have a small grant to facilitate 
communications with the City owned facility, we are working with ANTHC 
on needs assessment tools and are looking at both Federal and non-
Federal funding. We thus request that Congress increase funding for the 
IHS Joint Venture Program and that the application period be reopened 
in 2019 so that the Tribe can submit an application in the competitive 
process to hopefully join the program.
                         section 105(l) leases
    The Tribe is concerned that the administration has again proposed 
that the law be amended to avoid paying full compensation for leases 
under section 105(1) of the ISDEAA. We understand from reviewing the 
proposed bill language, in the IHS Administrative provisions, that the 
Administration is seeking to overrule the Federal court's decision in 
Maniilaq Association v. Burwell, 170 F. Supp. 3d 243 (D.D.C. 2016), in 
which the court determined that Section 105(1) mandates full 
compensation for leases of Tribal facilities that are being used to 
carry out scopes of work under the ISDEAA. The administration's 
proposed language would exclude Section 105(1) of the ISDEAA as a 
source of entitlement to funding for leases, giving IHS full discretion 
as to whether or not to fund such leases. The Native Village of Eyak 
and other Tribes and Tribal organizations are looking to Section 105(1) 
leases to address persistently underfunded facilities costs, including 
for operation, maintenance, and replacement. We ask that the 
Subcommittees reject the administration's proposed amendment to the 
ISDEAA--as Congress did last year relative to the fiscal year 2018 IHS 
appropriation bill--and that you handle this year's proposal in the 
same manner.
                     contract support cost funding
    Eyak would like to thank the Subcommittees for their leadership and 
commitment to fully funding Contract Support Costs (CSC) for IHS and 
BIA ISDEAA agreements. We appreciate the full funding of CSC over the 
past few fiscal years, that the funding is indefinite, and that the 
funding is in separate accounts in the IHS and BIA budgets. We have 
also been pleased that the current administration has continued to 
request that CSC be maintained as a separate appropriation account in 
the IHS and BIA with an indefinite funding amount. We request that the 
subcommittees continue to fully fund CSC accordingly.
    However, we do have one concern to share related to CSC for IHS 
programs. We understand that the administration has again proposed to 
reinstate two provisions from the fiscal year 2016 Appropriations Act 
for IHS: (1) that the ``carryover'' clause be read to deny the CSC 
carryover authority granted by the ISDEAA; and (2) that the 
notwithstanding'' clause be used by IHS to deny CSC for IHS's grant 
programs (such as Substance Abuse and Suicide Prevention; Zero Suicide 
Initiative; Domestic Violence Prevention; funding for the improvement 
of third party collections; after-care pilot projects at Youth Regional 
Treatment Centers; and accreditation emergencies). We think these 
proposals are inconsistent with and contrary to the ISDEAA' s 
provisions on CSC. Congress has refused these two proposals in the 
past, and we request that it do so again for fiscal year 2019.
                     advance appropriations for ihs
    The Native Village of Eyak requests that Congress place IHS funding 
on an advance appropriations basis. Congress has done so for the 
Veterans Administration health accounts, which are similar to the IHS 
healthcare funding in that predictability, continuity, and certainty 
are highly necessary for providing quality healthcare from year to 
year. When IHS funding is subject to continuing resolution, as it has 
been repeatedly over the last many years, the Native Village of Eyak 
receives only portions of its funding at a time, making it difficult to 
implement longer-range planning and to hire and maintain healthcare 
professionals. Having advance appropriations would solve much of the 
uncertainty that we have been experiencing over the last several fiscal 
years where no full appropriations are enacted at the first of the 
Federal fiscal year.
             subsidies for telecommunications connectivity
    Eyak understands that the subcommittees do not directly control 
funding subsidies under the Federal Communications Commission and 
Universal Service Administrative Company (USAC). However, the USAC 
recently implemented a pro-rata reduction in Rural Health Care funding 
that subsidizes the extremely high costs of telecommunications and 
Internet connectivity in Alaska, which is critical to our being able to 
provide healthcare services. The funding cap has resulted in a reported 
$50 million in cuts nationally, and an $18.1 million unplanned 
shortfall for connectivity in Alaska--just for this year for Tribal 
health programs in Alaska. The Tribe is being told to expect more than 
twice that impact next year, which could exceed $35 million for Alaska 
Tribal health programs. The Native Village of Eyak has used USAC 
funding in the past, we were denied 1 year and sent in an ultimately 
successful appeal. Due to the nature of the denials, which come in late 
in the year, after significant amounts of money are already obligated. 
The next year we put out for both broadband and Internet and received a 
very high broadband bid. Due to the liability of being responsible for 
these large amounts of money, we opted to only ask for the subsidy for 
the Internet. We are affected by the funding gap, in two ways, we are 
experiencing a small loss of funding and also, although our connections 
are secure and HIPAA compliant, we don't have the dedicated tunnel that 
T-1 lines offer. We thus request the subcommittees' support for 
eliminating the cap and reinstating the full USAC subsidies to Tribal 
health programs throughout the State of Alaska.
    As Tribes become partners within the corrections and court system 
in the State of Alaska, we have a need for more funding to adequately 
staff Tribal Courts and run optimal programs. Eyak is experiencing 
weather and climate change. Rivers and lakes that used to freeze all 
winter freeze minimally or even stay open. Eyak is used to receiving 
180 inches of rain on average per year and about 6 feet of snow 
annually. This has decreased dramatically, which poses dangers to local 
hydropower, commercial fishing and the ability to have adequate 
drinking water. Increases in Natural Resources funding would allow our 
Tribe to monitor baselines and implement research projects to study 
these changes and how they impact our natural lifestyle.

            Respectfully,
                                   Darrel Olsen,
                                           Tribal Council Chairman,
                                           Native Village of Eyak.
                                 ______
                                 
              Prepared Statement of the Nature Conservancy
          usda forest service and doi wildland fire management
    Thank you, Chairman Murkowski, Ranking Member Udall, and Members of 
the subcommittee for the opportunity to submit recommendations for 
fiscal year 2019 appropriations. The Nature Conservancy is an 
international, non-profit conservation organization whose mission is to 
conserve the lands and waters upon which all life depends. We have over 
one million members in the United States and are focused on science-
based management of Federal lands and waters to help downstream and 
forest dependent communities.
    America's forests have tremendous national importance, but their 
health puts them at severe risk unless we invest in proper stewardship 
and forestry. America's forests store and filter more than half of our 
Nation's water supply, provide jobs to nearly one million forest 
product workers, generate $13.6 billion in recreation based economic 
activity from USDA Forest Service lands alone, are habitat to thousands 
of forest-dependent wildlife and plant species, offer a million square 
miles to sportsmen and families for outdoor recreation, and are a major 
carbon sink that sequester 15 percent of all fossil fuel emissions in 
the United States.
    The Conservancy is extraordinarily grateful for all of the 
Committee's efforts to get the Wildfire Suppression Funding and Forest 
Management Activities Act enacted as part of the fiscal year 2018 
omnibus appropriations bill. Freezing the 10-year average fire 
suppression funding cost calculation, coupled with accessing disaster 
funding, will significantly decrease the extent to which the Federal 
fire agencies will need to transfer funds, while additionally 
stabilizing Department of the Interior and Forest Service budgets.
    However, megafires, pests, drought, and sprawl will continue to 
place forests at risk. And currently, an area larger than the State of 
Oregon is in immediate need of restoration to return forest health--and 
that is on national forests alone. Unfortunately, forest restoration 
had been significantly obstructed by ballooning fire suppression costs. 
To fully gain the benefits of this new fire funding fix the Committee 
on Appropriations needs to continue to make wise and substantial 
investments in public and State and private forests and fire risk 
reduction. Additionally, Federal investments in science-based forest 
management and assistance to dependent communities enhances jobs, rural 
economic sustainability, and guarantees long term forest productivity 
that benefits all Americans. Returns on forest restoration investments 
are at least four-fold, and have many non-economic benefits as well.

    Investing in the following Forest Service programs are critical to 
meeting forest restoration goals:

    Increase funding for Collaborative Forest Landscape Restoration 
(CFLR) to $60 million.--The CFLR program is demonstrating that 
collaboratively-developed forest restoration plans can be implemented 
at a large scale with benefits for people and the forest. This is a 
model approach that brings citizens, local government and Federal staff 
together to determine effective management that is locally appropriate 
and provides jobs, sustains rural economies, reduces the risk of 
damaging fires, addresses invasive species, improves wildlife habitat, 
and decommissions unused, eroding roads. The funding increase will 
guarantee the existing signature projects covering over 17 million 
acres can continue, and additional critical projects across America's 
forests can begin.
    Fund the Forest Service Hazardous Fuels program at no less than 
$479 million.--Strategic, proactive hazardous fuels treatments have 
proven safer and more cost-effective in reducing risks to communities 
and forests by removing overgrown brush and trees, leaving forests in a 
more natural condition resilient to wildfires. Drought conditions 
increase the need for investment in this program to restore and 
maintain fire adapted landscapes and habitats. The Conservancy 
recognizes the Committee's continued support for this program through 
its increased funding levels, particularly over the last few years.
    Fund the DOI Hazardous Fuels program at no less than $178 million 
and continue other vital DOI fire efforts.--It is also vital to 
increase the efforts at the Bureau of Land Management, National Park 
service, U.S. Fish and Wildlife Service and Bureau of Indian Affairs, 
which benefit from the DOI fire accounts. These vast public lands 
provide endless benefits to Americans, but the investment of Federal 
funding on their protection has lagged the past couple of years. The 
Conservancy additionally recommends considering reinstating the 
resilient landscapes program funded at $30 million to restore and 
maintain fire adapted landscapes and habitats.

    The Conservancy additionally recommends funding for programs that 
support critical restoration programs on national forests. Effective 
and durable restoration requires integrated approaches that address 
threats and improve forest health and habitat values while supporting 
forest-dependent communities.

  --Wildlife & Fisheries Habitat Management maintained at a $140 
        million funding level to restore, recover, and maintain 
        wildlife and fish and their habitats on all national forests 
        and grasslands.
  --Vegetation & Watershed Management funded at $185 million to promote 
        restoration through watershed treatment activities, invasive 
        plant species control, and reforestation of areas impacted by 
        wildfire and other natural events.
  --Legacy Road and Trail Remediation (LRT) maintained at $50 million 
        to restore river and stream water quality by fixing or removing 
        eroding roads, while providing construction jobs, supporting 
        vital sportsmen opportunities, and reducing flooding risks from 
        future extreme water flow events.
  --Land Management Planning, Inventory and Monitoring funded at $201 
        million, including consolidating the two previously separate 
        budget items. Consolidation will be more efficient for land 
        managers, while supporting the collaborative, community and 
        science based planning featured by the Forest Service 2012 
        Forest Planning regulation.

    Fund Forest Health programs at a total of $111 million ($63 million 
for Federal and $48 million for Cooperative).--Forest health protection 
programs work to protect forests by minimizing the impacts caused by 
invasive species. Across the Nation large-scale, non-native insect, 
disease, and invasive plant outbreaks are damaging forest health. These 
programs help reduce invasions of non-native pests that destroy iconic 
American trees such as ash, hemlock, and California oaks.
    Fund State Fire Assistance (SFA) at $86 million.--SFA provides aid 
to communities for fuels treatments, firefighter capacity building, 
fire prevention education, and pre-fire planning. The SFA program is an 
important complement to the Hazardous Fuels program for Federal lands.
    Fund Landscape Scale Restoration (LSR) at $24 million.--Through 
LSR, non-Federal lands have access for competitively selected projects 
that leverage State funding, restore forests of national importance, 
and, whenever possible, complement CFLR and other landscape scale 
restoration efforts.
    Fund Forest & Rangeland Research at $293 million.--Forest and 
Rangeland Research offers vital scientific basis for policies that 
improve the health and quality of urban and rural communities. This 
program is vital for the long-term health and utility of our American 
forests and rivers, particularly as we face an uncertain climatic 
future.
    Maintain funding for the Joint Fire Science Program at $7 million 
and maintain funding under Wildland Fire Management.--This key, yet 
small, program has proven a great success in supporting practical 
science that reduces fire risk and enhances economic, ecological, and 
social outcomes nationwide.
    Fund Forest Legacy at a minimum of $67 million.--The Forest Legacy 
program, in partnership with States, supports efforts to acquire 
conservation easements and fee simple interests on privately owned 
forest lands from willing sellers. These acquisitions leverage non-
Federal dollars and support long-term sustainable forestry while 
protecting other ecological, watershed and recreational values for 
local communities at risk of development or conversation to other uses.

    [This statement was submitted by Cecilia Clavet, Senior Policy 
Advisor.]
                                 ______
                                 
              Prepared Statement of The Nature Conservancy
    Chairman Murkowski, Ranking Member Udall and Members of the 
subcommittee, thank you for the opportunity to submit recommendations 
for fiscal year 2019 appropriations. The Nature Conservancy is an 
international, non-profit conservation organization working around the 
world to protect ecologically important lands and waters for nature and 
people. Our mission is to conserve the lands and waters upon which all 
life depends.
    As we enter the fiscal year 2019 budget cycle and another year of a 
challenging fiscal environment, the Conservancy wishes to thank this 
subcommittee for the final fiscal year 2018 funding levels for 
conservation programs. Our budget recommendations this year reflect a 
balanced approach with funding levels consistent with fiscal year 2017 
and fiscal year 2018 funding levels. Of particular note, we wish to 
work with this subcommittee and the authorizing committees on 
identifying a permanent funding solution for the Land and Water 
Conservation Fund. We also strongly support the emphasis on funding for 
sage grouse conservation and urge Congress to continue support for 
ongoing sage grouse conservation efforts.
    The Conservancy would like to take the opportunity to thank the 
Committee for their long-standing support of the fire funding fix in 
the fiscal year 2018 Omnibus appropriations bill passed last month. The 
passage of this much-needed funding solution means that dollars 
appropriated by this committee to U.S. Forest Service and Department of 
Interior Fire Management accounts can be used for their intended 
purposes and not be drained to fight catastrophic wildfires in upcoming 
fire seasons.
                land and water conservation fund (lwcf)
    The fiscal year 2018 Omnibus dedicated $425 million in 
discretionary appropriations for the Land and Water Conservation Fund. 
LWCF has strong bipartisan support and the Conservancy appreciates 
Congress's commitment to funding important on-the-ground conservation 
and recreation projects. The Nature Conservancy supports full funding 
and reauthorization of LWCF through a blend of current and permanent 
funding and looks forward to working with Congress to find a permanent 
funding solution for LWCF.
                             forest legacy
    We support no less than the fiscal year 2018 Omnibus funding level 
of $67 million for the Forest Legacy Program.
                           endangered species
    The Conservancy supports continuing funding of at least $31 
million, consistent with fiscal year 2017 levels, for the Cooperative 
Endangered Species Conservation Fund (CESCF), and requests the 
subcommittee consider additional funding level request for permanent 
funding. We also request your continuing support for Habitat 
Conservation Plan (HCP) funding, specifically HCP Land Acquisition 
Grants where the need has greatly outpaced available resources in 
recent years.
                    state and tribal wildlife grants
    The Conservancy supports the fiscal year 2018 Omnibus funding level 
of $63.5 million for this program. Strong Federal investments are 
essential to ensure strategic actions are undertaken by State, Tribal 
and Federal agencies and the conservation community to conserve 
wildlife populations and their habitats and to prevent species from 
being listed as threatened or endangered.
                     wildlife conservation programs
    The variety of wildlife conservation programs conducted by the U.S. 
Fish and Wildlife Service (FWS) continue a long and successful 
tradition of supporting collaborative conservation in the U.S. and 
internationally. We urge the Committee to continue funding such 
established and successful programs as the North American Wetlands 
Conservation Act (NAWCA), Neotropical Migratory Bird Conservation Fund 
(NMBCA), the Migratory Bird Joint Ventures, FWS Migratory Bird 
Management Program and the FWS Coastal Program at no less than fiscal 
year 2018 Omnibus funding levels. We support, at a minimum, sustained 
funding for the Partners for Fish and Wildlife Program and the 
Cooperative Landscape Conservation and Adaptive Science programs. The 
latter will help support DOI in addressing large-scale conservation 
challenges across all ownerships, supporting collaborative problem 
solving for some of our Nation's most challenging conservation issues. 
We also request strong funding for the National Fish Habitat 
Initiative.
                         international programs
    The international conservation programs appropriated annually 
within the Department of Interior are relatively small but are 
effective and widely respected. They encompass the U.S. Fish & Wildlife 
Service's (FWS) Multinational Species Conservation Funds, the FWS 
Wildlife Without Borders regional and global programs, and the U.S. 
National Park Service International Program. We urge that fiscal year 
2019 levels for these programs remain equivalent to fiscal year 2018 
Omnibus levels at a minimum.
                    national wildlife refuge system
    The Conservancy supports stronger funding for the Refuge System's 
Operations and Maintenance accounts. Found in every U.S. State and 
territory, national wildlife refuges conserve a diversity of America's 
environmentally sensitive and economically vital ecosystems, including 
oceans, coasts, wetlands, deserts, tundra, prairie, and forests. The 
Conservancy requests $586 million in for fiscal year 2019. This 
represents the funding necessary to maintain management capabilities 
for the Refuge System.
                    hazardous fuels and restoration
    Strategic, proactive hazardous fuels and restoration treatments 
have proven safer and more cost-effective in reducing risks to 
communities and forests by removing overgrown brush and trees, leaving 
forests in a more natural condition resilient to wildfires. The 
Conservancy recommends investing in the USDA Forest Service's Hazardous 
Fuels program at a $479 million level and DOI's Fuels Management 
program at a level of $178 million, in addition to investing $30 
million into a new Resilient Landscapes program designed to restore and 
maintain fire adapted landscapes and habitats and repeating the 
Committee's fiscal year 2012 instructions for allocating funds to 
priority landscapes in both WUI and wildland settings. Additionally, 
the CFLR program must continue to be funded and expanded to $60 million 
and the Legacy Roads and Trails program funded at $50 million.
                        sage grouse conservation
    The Conservancy requests continued investment to provide ongoing 
efforts to restore and conserve sagebrush habitat and the Greater Sage-
grouse across Federal, State, Tribal and private lands. We support the 
continued appropriation for sage grouse conservation provided through 
the fiscal year 2018 Omnibus. These resources are needed to implement 
on-the-ground projects and monitor habitat treatments, address 
rangeland fire and broader wildland fire prevention, suppression and 
restoration efforts, and facilitate the partnership and science 
necessary for effective conservation. The BLM is facing perhaps the 
single most challenging effort in its history in conserving key 
sagebrush habitat, addressing identified threats to sage-grouse and 
promoting sustainable economic development across some 165 million 
acres in coordination with State and local managers and private land 
owners. Additional resources for the Fish and Wildlife Service will be 
used, inter alia, for developing voluntary prelisting conservation 
agreements with private landowners who are ready and willing to 
undertake critical conservation work for the sagebrush steppe ecosystem 
on large blocks of private lands.
          blm land management and renewable energy development
    The Conservancy supports continued funding at fiscal year 2018 
levels for BLM's initiatives to implement smart land management 
approaches, which include Rapid Ecoregional Assessments, Resource 
Management Planning, Regional Mitigation Planning, coordination with 
LCCs, and the Assessment, Inventory, and Monitoring Strategy. Many BLM 
programs contribute to these cross-cutting initiatives including: 
National Landscape Conservation System--($50.65 million); Resource 
Management Planning program ($60.125 million); Wildlife and Fisheries 
management ($115.811 million request); and Threatened & Endangered 
species management ($21.56 million request). Additionally, the 
Conservancy supports continued funding for BLM's renewable energy 
development program at the fiscal year 2017 Omnibus level of $29 
million which includes implementation of the Western Solar Energy 
Program. Collectively, these efforts will help BLM manage its lands 
efficiently and effectively for energy development, species and habitat 
conservation, recreation, and other uses to maximize the public benefit 
from these lands.
         environmental protection agency's geographic programs
    EPA's geographic programs, including the Great Lakes Restoration 
Initiative, Chesapeake Bay, Puget Sound, Long Island Sound, and Gulf of 
Mexico programs, make a significant contribution to protecting habitat 
and water quality in the large landscapes where they work. These 
programs have a proven record of supporting the States' voluntary 
restoration efforts, and the Conservancy urges the Committee to 
continue strong funding for these programs at the fiscal year 2018 
appropriated levels.
                 colorado river basin recovery programs
    The Upper Colorado River Endangered Fish Recovery Program and San 
Juan River Basin Recovery Implementation Program take a balanced 
approach to recovering four endangered fish species in the Colorado 
River basin. The Upper Colorado and San Juan recovery programs are 
highly successful collaborative conservation partnerships involving the 
States of New Mexico, Colorado, Utah, and Wyoming, as well as Indian 
Tribes, Federal agencies, and water, power and environmental interests. 
These programs provide critically important Endangered Species Act 
(ESA) compliance for over 2,450 Federal, Tribal, State, and private 
water projects across the Upper Colorado River Basin. Through these 
efforts, water use and development has continued in growing Western 
communities in full compliance with the ESA, State water and wildlife 
law, and interstate compacts. Implementation of the ESA has been 
greatly streamlined for Federal agencies, Tribes and water users. The 
Conservancy supports $1.53 million for the Fish and Wildlife Service 
for the Colorado River Basin recovery programs, including recovery 
funds for both the Upper Colorado River Endangered Fish Recovery 
Program and San Juan River Basin Recovery Implementation Program, as 
well as fish hatchery needs associated with the recovery plans.
                      national streamflow network
    The National Streamflow Network provides continuous streamflow 
information at over 8,200 locations across the country and is managed 
within the U.S. Geological Survey's Groundwater and Streamflow 
Information Program. Water managers, scientists, and other decisions 
makers, including within the Conservancy, rely on data from the 
National Streamflow Network to plan for floods, droughts, and other 
extreme events; design infrastructure, including the operation of 
Federal reservoirs; facilitate energy generation; protect aquatic 
species and restore habitat; and manage Federal lands. The Conservancy 
supports funding in fiscal year 2019 to fully implement the National 
Streamflow Network.
          water infrastructure finance and innovation program
    Subtitle C of Title V of the Water Resources Reform and Development 
Act of 2014 provides authority for low-cost credit that can leverage 
private investment for water infrastructure. The criteria include 
whether a project protects against extreme weather events or helps 
maintain the environment. The Nature Conservancy supports funding at 
EPA at the full authorized amount of $50,000,000 to carry out this 
program.
    Thank you for the opportunity to submit The Nature Conservancy's 
recommendations for the fiscal year 2019 Interior, Environment and 
Related Agencies Appropriations Bill.
                                 ______
                                 
               Prepared Statement of the Nez Perce Tribe
    Honorable Chairman and Members of the Committee, as Chairman of the 
Nez Perce Tribal Executive Committee, I would like to thank you for the 
opportunity to provide testimony on behalf of the Nez Perce Tribe 
(Tribe) as the Committee evaluates and prioritizes fiscal year 2019 
appropriations for the Indian Health Service (IHS), Bureau of Indian 
Affairs (BIA), Environmental Protection Agency (EPA), U.S. Forest 
Service (FS), and U.S. Fish and Wildlife Service (FWS) in relation to 
the needs of Tribal nations. On behalf of the Tribe, I want to 
acknowledge and thank this subcommittee for your efforts, on a 
longstanding, bipartisan basis, to understand the needs of Indian 
Country and advocate for increased appropriations to the many programs 
in your jurisdiction that benefit our citizens, our Tribal governments, 
and all members of our communities.
    As with any government, the Tribe performs a wide array of work and 
provides a multitude of services to its Tribal membership as well as 
the community at large. The Tribe has a health clinic; a Tribal police 
force; a social services department; and a comprehensive natural 
resources program that does work related to forestry, wildlife 
management, land services and land management, habitat restoration, air 
quality and smoke management, water quality and sewer service, and also 
operates one of the largest fisheries departments of any Tribe in the 
Nation working on the recovery of listed species under the Endangered 
Species Act (ESA). The Tribe has a comprehensive administrative 
framework that provides extensive services on the Nez Perce 
Reservation. These programs are necessary and vital for a sovereign 
nation that preserves and protects the Treaty rights of the Nez Perce 
People and provides day-to-day governmental services to its members and 
surrounding communities.
    The Tribe has long been a proponent of self-determination for 
Tribes and believes our primary obligation is to protect the Treaty-
reserved rights of the Tribe and our members. All of the work of the 
Tribe is guided by this principle. As a result, the Tribe works 
extensively with many Federal agencies and proper funding for those 
agencies and their work with, for, and through Tribes is of vital 
importance. This work cannot be accomplished unless the U.S. continues 
to affirm and follow through on its trust responsibility to Indian 
Tribes by properly funding programs. The Tribe supports the National 
Congress of American Indians' publication titled ``Investing in Indian 
Country for a Stronger America,'' a comprehensive guide on 
recommendations for fiscal year 2019 funding of Tribal programs.
                    environmental protection agency
    The Tribe works closely with EPA on a large number of programs that 
are essential to the health and safety of the 18,000 Tribal and non-
Tribal citizens residing within the Nez Perce Reservation and that also 
protect the Treaty-reserved resources of the Tribe that the U.S. has a 
trust obligation to preserve. These programs include: the Clean Water 
Act 106 Program; the Clean Water Act 319 Program; Nonpoint Source (NPS) 
Pollution Prevention Program; the Indian General Assistance Program; 
the Brownfield Program; the Underground Storage Tank Program; the 
Delegation of Nez Perce Federal Implementation Plan; the Clean Air Act 
103 Grant-Nez Perce Tribe Air Quality Project; and the EPA Region 10 
Pesticide Circuit Rider Program. In total, for fiscal year 2018 the 
Tribe currently implements over $1.5 million in programmatic funding 
under these programs. The Tribe recommends the Indian General 
Assistance Program be funded at $75 million, the Tribal allocation 
under the Clean Water Act 106 program be increased to 20 percent, $13 
million for Tribal Air Quality Management, $80 million for the 
Brownfields program, and $13 million be provided in lieu of the percent 
cap on Tribal funding for NPS pollutant control.
                         indian health service
    The Tribe currently operates Nimiipuu Health, a healthcare clinic 
on the Nez Perce Reservation. The main clinic is located in Lapwai, 
Idaho, with a satellite facility located 65 miles away in Kamiah, 
Idaho. Nimiipuu Health provides services to approximately 4,000 
patients each year. Annually, this computes to 40,000 medical provider 
visits which do not include pharmacy or laboratory visits. This 
workload is very costly. Our expenditure total for fiscal year 2017 was 
$15,309,300 and Purchased/Referred Care (P/RC) costs for outpatient 
services for fiscal year 2017 totaled $3,757,215.
    For fiscal year 2019, the Tribe supports continuing the $5.5 
billion in funding enacted for fiscal year 2018, at a minimum. This 
funding amount will allow Tribes to pay costs, maintain current 
services, and allow IHS, Tribal, and urban programs and facilities to 
keep up with medical and non-medical inflation and population growth. 
The Tribe appreciates the $33.8 million increase in funding for P/RC 
provided in fiscal year 2018 and recommends that amount be preserved or 
increased by $20 million to continue to meet the P/RC spending needs of 
Tribal health facilities.
    The Tribe supports $717 million for fiscal year 2019 contract 
support costs and the inclusion of bill language to classify this 
appropriation as indefinite so that additional funds may be provided if 
needed, as it was in fiscal year 2018. In addition, because full 
funding of these obligations is so important to Indian Country, the 
Tribe supports reclassifying contract support costs for the BIA and IHS 
as mandatory and not discretionary. However, this change in funding 
should not be accomplished or be off-set by reducing other funding for 
these agencies that would adversely affect services or programs. 
Finally, this funding should not be unnecessarily reduced by excessive 
set-asides for administration. The Tribe also recommends permanent, 
mandatory funding of the Special Diabetes Program at $150 million per 
fiscal year.
                        bureau of indian affairs
    The Tribe appreciates the 7 percent increase in overall funding for 
BIA in fiscal year 2018 and requests that amount be maintained for 
fiscal year 2019. The Tribe also supports the indefinite appropriation 
for contract support costs and that at least the $241.6 million 
appropriated in fiscal year 2018 be provided in fiscal year 2019. These 
costs should be reclassified from discretionary to mandatory. The Tribe 
also requests the fiscal year 2019 Interior appropriations bill include 
a ``Carcieri fix'' to address legal issues that have arisen related to 
the transfer of land into trust which has created uncertainty over the 
status of lands. This uncertainty only stifles and impedes economic 
development in Indian Country.
    In relation to the BIA Public Safety and Justice account, the Tribe 
advocates for maintaining the $405.5 million in funding for law 
enforcement, of which $31 million was for Tribal courts, that was 
enacted within that account in fiscal year 2018. The Nez Perce 
Reservation spans 1,200 square miles covering five counties and has a 
mixture of Tribal and non-Tribal residents. The Tribe provides a full 
service law and justice program. The Tribe has a fully trained and 
staffed police force, a fully staffed Tribal court, a prosecutor, a 
public defender, and other personnel to perform related administrative 
functions. Currently, the Tribe contributes $1,882,576 annually to 
cover the shortfall in BIA funding for the Tribe's law enforcement, 
$527,984 for judicial services/probation, $390,832 for prosecutorial 
services, $256,636 for public defender services, and $300,000 for 
prisoner boarding. This supplemental funding is derived from Tribal 
taxes on goods and fuel and Tribal gaming revenues that would otherwise 
be used for other Tribal governmental services. The funding for these 
programs needs to be maintained and ultimately increased to account for 
shortfalls in funding the Tribe has to absorb in order to continue the 
operation of these vital services on the Reservation.
    The Tribe requests total funding of $35 million be provided for 
Scholarships and Adult Education and Special Higher Education 
Scholarships and that funding for the Johnson O'Malley program be 
substantially increased from the $14.9 million provided in fiscal year 
2018. Per student funding has decreased as the funding has remained 
static for many years. These increases will help address the rising 
costs of attending college. The Tribe also supports $2.5 million, if 
not an increase, for Tribal Education Departments and increases for 
Tribal Colleges and Universities that support institutions like 
Northwest Indian College that operates a satellite campus on the Nez 
Perce Reservation.
    The Tribe also relies on the BIA for funding for our work related 
to endangered species and protection of the Tribe's Treaty resources, 
including Chinook and steelhead salmon. The funding is used to 
supplement research efforts of the Tribe relative to other sensitive 
species. The Tribe recommends a $1 million increase for the BIA 
Endangered Species Program. This account provides Tribes with technical 
and financial assistance to protect endangered species on trust lands. 
Also, the Tribe recommends an increase of $2.8 million for BIA Natural 
Resource Tribal Priority Allocations which will help increase Tribal 
land and management capabilities.
    In addition, the funding provided under the BIA Rights Protection 
Implementation monies are critical to support the exercise of treaty 
reserved, off-reservation hunting and fishing for Tribes. The Tribe 
supports total funding in the amount of $40.2 million, the fiscal year 
2018 enacted level, at a minimum. BIA single-line dollars provide the 
foundation for core program administration and treaty rights protection 
activities, such as harvest monitoring. These efforts are central to 
the Tribe's fisheries management responsibilities as established by the 
Treaties and further delineated in court decisions regarding 
implementation of hunting and fishing Treaty rights. It is important to 
understand that this funding is not for equipment but is used for job 
creation.
    The Tribe also supports $15.3 million in funding for the BIA Fish, 
Wildlife and Parks. As stated earlier, the Tribe has invested a 
significant amount of personnel and resources in the restoration of 
salmon through our fisheries programs. The States of Oregon, 
Washington, and Idaho, as well as sports fisheries, directly benefit 
from this work. These programs have been successful with funding under 
the Tribal Management and Development Program which is critical for the 
Tribe's management of fish and wildlife. We recommend funding in the 
amount of $14 million for the Tribal Management and Development 
Program.
         u.s. fish and wildlife service and u.s. forest service
    The Tribe relies heavily on funding sources within the FWS and the 
FS. First, the operations of Kooskia National Fish Hatchery are funded 
by FWS. The Tribe manages this facility pursuant to the terms of the 
Snake River Water Rights Act of 2004 (Act). FWS requires full funding 
for the operations of this important facility to ensure the U.S. meets 
its obligations under this Act. Second, the FWS-administered State and 
Tribal Wildlife Grants program is an important and cost-effective 
expenditure for the Government and is one of the few sources of funds 
Tribes can tap into for wildlife research. Since 2005, we have received 
five such grants that have allowed us to work on diverse issues such as 
gray wolf monitoring, bighorn sheep research, rare plant conservation, 
and Condor habitat research. Continued funding for the State and Tribal 
Wildlife Grant program will allow recipient Tribes to build capacity 
and maintain involvement in key conservation issues. The Tribe strongly 
urges this subcommittee to increase funding for these competitive 
grants to $66 million and increase the Tribal share by $2 million, as 
they provide a large return for a small investment.
    We thank the subcommittee for its efforts to include language in 
the fiscal year 2018 Interior appropriations bill for wildfire disaster 
funding that treats wildfires like other natural disasters and 
emergencies to help prevent funds from having to be diverted from 
forest management.
    The Nez Perce Reservation and its usual and accustomed areas are 
rich in natural resources and encompass eleven national forests. The 
Tribe works closely with each forest's administration to properly 
manage its resources on behalf of the Tribe. These range from 
protecting and properly managing the products of the forest to 
providing habitat for the vast wildlife in each one such as elk, deer, 
bighorn sheep and wolves. Increased funding is necessary so that the FS 
can meet these trust obligations and continue to work with Tribes on a 
government-to-government basis without being hampered by lack of 
funding to fill positions.
    With regard to management of bighorn sheep, the Tribe would like to 
note that the subcommittee has included report language over the last 
several years that encourages research related to disease transmission 
between domestic sheep and bighorn sheep. The Tribe encourages this 
type of research mandate to be restricted to laboratory settings and 
not be allowed to occur in the field where impact and harm would be 
more difficult to control. The bighorn sheep populations within the 
Tribe's aboriginal territories are too fragile and too important to be 
put at risk.
    Thank you for the opportunity to testify today. As you can see, the 
Tribe does a tremendous amount of work in a variety of areas. It is 
important that the U.S. continue to fund this work and uphold and honor 
its trust obligations to Tribes.
                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission
    Chair Murkowski, Ranking Member Udall, and Honorable Members of the 
subcommittee, my name is Lorraine Loomis and I am chair of the 
Northwest Indian Fisheries Commission (NWIFC). The NWIFC is comprised 
of the 20 Tribes that are party to United States v. Washington \1\ 
(U.S. v. WA), which upheld the Tribes' treaty-reserved right to harvest 
and manage various natural resources on and off-reservation, including 
salmon and shellfish. On behalf of the NWIFC, we are providing 
testimony for the record on the natural resources management and 
environmental program funding requests for the Bureau of Indian Affairs 
(BIA), Fish & Wildlife Service (FWS) and Environmental Protection 
Agency (EPA) fiscal year 2019 appropriations. These programs support 
the natural resource management responsibilities required of Tribes, 
including the management of salmon fisheries, which contributes to a 
robust natural resource-based economy and the continued exercise of 
Tribal treaty rights to fish.
---------------------------------------------------------------------------
    \1\ United States v. Washington, Boldt Decision (1974) reaffirmed 
western Washington Tribes' treaty fishing rights.
---------------------------------------------------------------------------
          summary of fiscal year 2019 appropriations requests
Bureau of Indian Affairs
  --Provide $56.5 million for Rights Protection Implementation 
        (collective request)

    --Provide $17.146 million for Western Washington Fisheries 
            Management
    --Provide $3.207 million for Washington State Timber-Fish-Wildlife
    --Provide $5.2 million for U.S./Canada Pacific Salmon Treaty
    --Provide $2.4 million for Salmon Marking
    --Provide $4.5 million for Evaluation and Research Activities--
            Climate

  --Provide $10.378 million for Fish, Wildlife & Parks Projects for 
        Hatchery Operations and Maintenance
  --Provide $830,000 for the Salmon and Steelhead Habitat Inventory and 
        Assessment Program within the Tribal Management/Development 
        Program Subactivity
  --Provide $273.0 million for Contract Support Costs
  --Provide $30.355 million for Cooperative Landscape Conservation/
        Climate Resilience
Fish & Wildlife Service
  --Provide $8.0 million for Tribal Wildlife Grants
Environmental Protection Agency
  --Provide $96.4 million for General Assistance Program
  --Provide $5.0 million for ``Beyond GAP''
  --Provide $28.0 million for Puget Sound Geographic Program
                       justification of requests
Bureau of Indian Affairs
  --Provide $56.5 million for BIA Rights Protection Implementation 
        Subactivity.--The 41 Tribes in the Great Lakes and Pacific 
        Northwest with similar treaty-reserved rights have collectively 
        identified that no less than $52.0 million for Rights 
        Protection Implementation (RPI) is necessary to support 
        essential Tribal treaty-reserved resource management. The NWIFC 
        has also identified an additional need of $4.5 million for RPI 
        Climate Change, bringing our total request for RPI to $56.5 
        million; $16.339 million above the fiscal year 2018 enacted 
        level of $40.161 million. A summary of the accounts of interest 
        to us within RPI is further identified below. However, please 
        note that a breakdown of these accounts for fiscal year 2018 is 
        not provided in the Indian Affairs fiscal year 2019 Budget 
        Justification.

    --Provide $17.146 million for BIA Western Washington Fisheries 
            Management.--We respectfully request $17.146 million; an 
            increase of $7.142 million over the fiscal year 2017 
            enacted level of $10.004 million. Funding for this program 
            supports the Tribes to co-manage their treaty-reserved 
            resources with the State of Washington, and to continue to 
            meet court mandates and legal responsibilities. For 
            example, funding supports harvest planning, population 
            assessments, data gathering for finfish, shellfish, 
            groundfish, wildlife and other natural resource management 
            needs.
    --Provide $3.207 million for BIA Washington State Timber-Fish-
            Wildlife (TFW).--We respectfully request $3.207 million, 
            which would maintain the fiscal year 2017 enacted level. 
            Funding for this program is provided to improve forest 
            practices on State and private lands, while providing 
            protection for fish, wildlife and water quality. This 
            funding supports the Tribes' participation in the Timber, 
            Fish and Wildlife Agreement--a collaborative 
            intergovernmental and stakeholder process between the 
            State, industry and Tribes.
    --Provide $5.2 million for BIA U.S./Canada Pacific Salmon Treaty.--
            We respectfully request $5.2 million; an increase of 
            $183,000 over the fiscal year 2017 enacted level of $5.017 
            million. The Pacific Salmon Treaty (PST) Act of 1985 
            charges the U.S. Section of the Pacific Salmon Commission 
            (PSC) with the responsibility for implementation of the 
            PST--a bilateral treaty with Canada. Tribes assist the 
            Federal Government in meeting its obligations to implement 
            the treaty by participating in various fisheries management 
            exercises including cooperative research and data gathering 
            activities. This funding request will provide sufficient 
            resources to support Tribes to continue effective 
            participation in the bilateral PST process.
    --Provide $2.4 million for BIA Salmon Marking.--We respectfully 
            request $2.4 million; an increase of $1.148 million over 
            the fiscal year 2017 enacted level of $1.252 million. Since 
            2003, Congress has required that all salmon released from 
            federally funded hatcheries are marked for conservation 
            management purposes and has provided funding to implement 
            this mandate. This funding allows Tribes to mark salmon at 
            Tribal hatcheries and to use these marked fish to 
            scientifically monitor salmon populations in western 
            Washington.
    --Provide $4.5 million for BIA Evaluation and Research Activities--
            Climate.--We respectfully request $4.5 million for 
            Evaluation and Research Activities--Climate for our member 
            Tribes. The fiscal year 2017 total enacted level for both 
            Great Lakes and Northwest Tribes was only $2.0 million 
            dollars. fiscal year 2016 provided a much larger total for 
            Great Lakes and Northwest Tribes at $5.442 million, of 
            which our member Tribes received $2.382 million. However, 
            even at fiscal year 2016 funding levels our allocation was 
            $2.118 million below identified needs. Funding for this 
            program will provide Tribes the capacity to identify, 
            respond and adapt to the impacts of our changing climate.

  --Provide $10.378 million for BIA Fish, Wildlife & Parks Projects 
        Account for Hatchery Operations and Maintenance (within the 
        Fish, Wildlife and Parks Subactivity).--We respectfully request 
        $10.378 million specifically for Hatchery Operations and 
        Maintenance within the Fish, Wildlife and Parks Projects 
        account; an increase of $453,000 over the $9.925 million 
        provided for these programs in fiscal year 2017. Funding is 
        provided to Tribal hatcheries to support the rearing and 
        releasing of salmon and steelhead for harvest by Indian and 
        non-Indian fisheries in the U.S. and Canada. Hatcheries are a 
        necessary component of fisheries management because habitat 
        degradation has greatly diminished natural spawning 
        populations. As such, hatcheries are now essential for 
        maintaining the treaty right to harvest fish. Without 
        hatcheries, Tribes would lose their most basic ceremonial and 
        subsistence fisheries that are central to our Tribal culture. 
        Hatcheries also play a large role in rebuilding Pacific salmon 
        stocks listed under the Endangered Species Act. Funding for 
        Fish Hatchery Maintenance is provided to Tribes nationwide 
        based on the ranking of annual project proposals.
  --Provide $830,000 for BIA Salmon and Steelhead Habitat Inventory and 
        Assessment Program (SSHIAP) (within the Tribal Management and 
        Development Subactivity).--We respectfully request $830,000; 
        $475,000 above the amount specified in the fiscal year 2018 
        omnibus to be transferred from the Forestry Program to the 
        Tribal Management/Development Program to support SSHIAP. SSHIAP 
        is a vital program to the western Washington Tribes because it 
        provides essential environmental data management, analysis, 
        sharing and reporting to support Tribal natural and treaty-
        reserved resource management. It also supports our Tribes' 
        ability to adequately participate in watershed resource 
        assessments and salmon recovery work.
  --Provide $273.0 million for BIA Contract Support Costs.--We 
        respectfully request $273.0 million; an increase of $37.0 
        million above the fiscal year 2018 enacted level. We also 
        support the reclassification of Contract Support Costs (CSC) as 
        mandatory funding. Funding for this function is provided to 
        Tribes and Tribal organizations to ensure they have the 
        capacity to manage Federal programs under self-determination 
        contracts and self-governance compacts. These funds are 
        critical as they directly support our governmental functions, 
        which allow us to fully exercise our right to self-govern.
  --Provide $30.355 million for BIA Cooperative Landscape Conservation/
        Climate Resilience.--We respectfully request $30.355 million; 
        an increase of $20.399 million over the fiscal year 2018 
        enacted levels of $9.956 million. Funding for this program will 
        support Tribal capacity to participate in and provide input on 
        climate change issues that impact fisheries and other treaty-
        reserved resources. It will also allow Tribes to provide their 
        perspective on climate change adaptation and resiliency 
        necessary to protect their treaty-reserved rights, which is 
        informed by both traditional ecological knowledge and 
        scientific research.
Fish & Wildlife Service
  --Provide $8.0 million for FWS Tribal Wildlife Grants.--We 
        respectfully request $8.0 million for the nationwide Tribal 
        Wildlife Grants program; an increase of $3.791 million over the 
        fiscal year 2018 enacted of $4.209 million. Funding from this 
        competitive grant program is used to develop and implement 
        programs for the conservation of wildlife and their habitat, 
        including species of Native American cultural or traditional 
        importance. These grants are often critical to conservation 
        programs that work to avoid ESA listing.
Environmental Protection Agency
  --Provide $96.4 million for EPA General Assistance Program (GAP).--We 
        respectfully request $96.4 million; an increase of $30.924 
        million over the fiscal year 2018 enacted level of $65.476 
        million. We also respectfully request accompanying bill or 
        report language that would improve flexibility in the GAP to 
        ensure individual Tribal priorities and implementation 
        activities would be eligible. The GAP builds Tribal program 
        capacity to begin to address environmental issues such as water 
        pollution, which impacts Tribal health, safety, and treaty-
        reserved resources. However, GAP does not support Tribes to 
        implement those programs.
  --Provide $5.0 million for EPA ``Beyond GAP''.--We respectfully 
        request $5.0 million for a regional pilot project known as 
        ``Beyond GAP'' for the 29 Tribes in Washington. GAP and media-
        specific EPA grant programs do not fully support Tribes to 
        develop, operate and implement essential environmental programs 
        necessary to protect their rights, resources, lands and health. 
        This request advances a longstanding EPA/Tribal partnership by 
        moving beyond mere Tribal capacity building to promoting Tribal 
        programs capable of implementing a broad range of management 
        activities. At the national scale, increases in Tribal 
        allocations for EPA Clean Water Act Sec. 104, Sec. 106 and 
        Sec. 319, and Clean Air Act Sec. 103 and Sec. 105 programs to 
        allow for media-specific implementation priorities is also 
        necessary.
  --Provide $28.0 million for EPA Puget Sound Geographic Program.--We 
        respectfully request $28.0 million, which would maintain the 
        fiscal year 2018 enacted level. This Geographic Program 
        provides essential funding that will help protect and restore 
        Puget Sound--an estuary of national significance. Funding for 
        this program is essential for Tribes because it supports our 
        participation in a broad range of Puget Sound recovery work, 
        including, scientific research, resource recovery planning, 
        implementation and policy discussions on issues that affect our 
        treaty rights.
                               conclusion
    We respectfully urge the subcommittee to continue to support our 
efforts to protect and restore our treaty-reserved rights that in turn 
will provide for thriving communities and economies. Thank you.
                                 ______
                                 
       Prepared Statement of the Norton Sound Health Corporation
    The requests of the Norton Sound Health Corporation (NSHC) for the 
fiscal year 2019 Indian Health Service (I.H.S) budget are as follows:

  --Recommend the I.H.S enter into a $9.6 M demonstration project with 
        Norton Sound Health Corporation to address the opioid and 
        alcohol abuse that will include construction and staffing for a 
        wellness and training center.
  --Reform the I.H.S Joint Venture Construction Program to support 
        construction-ready projects and make eligible substance abuse 
        treatment centers for the program.
  --Increase funding for opioid response grants specifically for Tribes 
        and Tribal Organizations.
  --Increase funding for the small ambulatory clinic fund to assist 
        Tribes and Tribal Health Organizations with a source of funding 
        for replacement health clinics.
  --Expand and streamline funding for sewer and water projects.
  --Advanced Appropriations for I.H.S to facilitate efficient budget 
        planning, purchasing, hiring, and innovation for Tribal Health 
        Organizations.

    Headquartered in Nome, Alaska, Norton Sound Health Corporation is 
owned and managed by the 20 federally recognized Tribes of the Bering 
Strait region. Our Tribal system includes a regional hospital and 15 
village-based clinics, which we operate under an Indian Self-
Determination and Education Assistance Act (ISDEAA) agreement.\1\ Our 
rural and remote Arctic region remains unconnected by roads, and we are 
500 air miles from Alaska's economic hub of Anchorage. Our service area 
encompasses 44,000 square miles.
---------------------------------------------------------------------------
    \1\ We serve the communities of: Brevig Mission, Council, Diomede, 
Elim, Gambell, Golovin, King Island, Koyuk, Mary's Igloo, Nome, St. 
Michael, Savoonga, Shaktoolik, Shishmaref, Solomon, Stebbins, Teller, 
Unalakleet, Wales, and White Mountain.
---------------------------------------------------------------------------
    Our communities are culturally diverse, representing Yupik, 
Siberian Yupik, and Inupiaq people. We are fortunate to continue to 
live our way of life and practice our traditional customs that have 
sustained our communities for millennia. Integral to community health 
is our ability to hunt and gather both on our lands and the ocean that 
surrounds us. We harvest and share across families and communities 
bowhead whale, walrus, and various species of seals that migrate from 
the Pacific Ocean to the Arctic Ocean each spring and fall. Our lands, 
wetlands and rivers provide migratory birds, moose, caribou, reindeer, 
and salmon species. The well-being, health and spirituality of our 
people is intricately defined by where and how we live.

    Recommend the I.H.S enter into a $9.6 M demonstration project with 
Norton Sound Health Corporation to address the opioid and alcohol abuse 
that will include construction and staffing for a wellness and training 
center.

    Alcohol and opiates continue to impact our families of the Bering 
Strait region in pervasive and debilitating ways. The economic costs to 
our society are real with increased high school and vocational drop 
outs, the high rate of suicide (six times the national average) and 
lost productivity. Substance abuse is present in 92 percent of cases 
involving child protective services, meaning children are taken out of 
their families and extended families, while the appropriate level of 
care for local treatment services is unavailable for the majority of 
parents to become healthy.
    In Nome, 95 percent of referrals to the only women's shelter in our 
region involve substance abuse. Without access to appropriate health 
services, keeping our women safe from harm will continue to be a 
challenge. Anvil Mountain Correctional Center (AMCC), located in Nome 
has an operating budget of $5.7 million per year, supported by the 
State of Alaska. With 95 percent of people brought to AMCC for 
substance-related offenses, at $149.62 per inmate per day, the cost of 
incarceration for these offenses is $5,403,556 per year (based on a 108 
bed census).
    Not unlike many other Native communities in the United States, our 
families and communities continue to feel the impacts and gravity of 
historical trauma which manifests itself in alcohol and substance 
abuse. While many Federal decisions played a role in our past, it will 
take the commitment and partnership of elected leaders today to change 
the course of history. Our tribally elected leaders have recognized the 
impacts of historical trauma in our region, and are transforming the 
delivery of care by providing culturally sensitive, patient centered 
care. Addressing substance abuse remains our top priority and we hope 
to partner with I.H.S.
    NHSC is developing a new Wellness and Training Center to provide a 
full continuum of treatment locally, addressing substance use and 
treatment options in a culturally sensitive manner.\2\ While general 
outpatient services are a critical tool for addressing these concerns, 
many times people need a higher level of care to receive the deep 
clinical counseling required to combat a lifetime of substance abuse. 
The services at the Center will include detoxification, outpatient and 
intensive outpatient services, day treatment and sober housing. Our 
families and communities continue to experience the death of loved ones 
from addiction. This project is essential in the promotion of healing 
and to mitigate substance abuse within our region.
---------------------------------------------------------------------------
    \2\ Norton Sound Health Corporation Community Needs Assessment, 
2016.
---------------------------------------------------------------------------
    This multipurpose building will also house our Health Aide Training 
Program, one of only four Health Aide Training sites in Alaska. Over 70 
Health Aides are employed by Norton Sound Health Corporation and 
deliver nearly 70 percent of the healthcare in the region. Their 
training needs are comprehensive and must be maintained. This new 
training space will allow for increased classroom sizes to sustain the 
quality program, and provide a vocational training ground for some of 
those who enter the treatment facility to address their substance 
concerns.
    NSHC has installed pilings for the new Wellness and Training Center 
and has raised $2.2 M toward construction. The Center will be located 
near the Norton Sound Regional Hospital in Nome. We have funded the 
design work and initial phases of the project through grant funding and 
donations, as well as through $1.9 M of NSHC's own funding. NSHC has 
pledged another $2.5 M toward construction, but the outstanding cost of 
the center remains at $9.6 M.
    NSHC has been advocating for a Wellness and Training Center for the 
past 5 years and applied for the Joint Venture Construction Program in 
2016, but was deemed ineligible. We highly encourage this Committee 
examine the eligibility of projects under the program to ensure the 
I.H.S implements a program that incentivizes private and Tribal 
investment in health facilities, as well as create an acute focus on 
the need to address substance abuse across Indian Country.
    NSHC requests that this comprehensive treatment facility be 
identified as an emergent need for the Bering Strait Region and be 
funded as a demonstration project, under Section 307 of the Indian 
Health Care Improvement Act (25 USC 1637). Additionally, NSHC requests 
a reasonable staffing package to help sustain program operations in 
addition to billing for third-party reimbursement. We also ask the 
subcommittees to sustain increased funding through opioid grants to 
fight the opioid epidemic crippling Tribes.
    NSHC expresses gratitude for the availability of small ambulatory 
clinic funding as a source of funding to support replacement clinics in 
villages and would like to see continued increases to support this 
fund.

    Funding for Water & Sewer Projects. On behalf of our federally 
recognized Tribes of our region, I would like to thank the Chairman for 
supporting sanitation funds in both the EPA and Indian Health Service 
budgets. Your continued commitment will make a difference for those 
most impacted by a lack of running water and sewer: our children. The 
CDC had documented that in Tribal communities without access to clean 
water and flush toilets, rates of hospitalization for pneumonia, 
influenza, skin infections, and lower respiratory tract infects are 
significantly higher. Infants are 11 times more likely to be 
hospitalized for respiratory infections and five times more likely for 
skin infections.
    Five communities in our region, Diomede, Wales, Shishmaref, 
Stebbins, and Teller remain completely unconnected to any running water 
and sewer. In three other of NSHC's communities, 30-50 percent of the 
homes still lack service, and ongoing sewer and water upgrades and 
maintenance backlogs remain concerns in seven communities. An estimated 
465 homes in the Bering Strait region have no running water, nor flush 
toilets. While there remains a $2 billion sanitation need in Alaska, 
with 30 communities or 3300 homes unconnected, we face a $215 million 
sanitation need in the Bering Strait region. The need for clean water, 
and sanitation systems continues to be a silent crisis.
    NSHC would like to direct this Committee's attention to some 
concerning decisions made by the I.H.S in the management of their 
sanitation funds. As it executes the Federal trust responsibility the 
United States has with federally recognized Tribes, over the last 40 
years, the I.H.S has prioritized service to Indian communities, and 
pro-rated funds for Indians that live in non-Indian communities. Last 
October without any formal notice in writing nor consultation, the 
I.H.S changed their operation of the program removing the focus to 
Native communities. We believe this action is a direct assault to the 
Federal trust relationship, and urge that the Committee provide express 
and clear direction to the I.H.S to maintain its historical operation 
and focus on improving sanitation in Native communities.
    There is much work to be done. As Congress considers infrastructure 
expansion in the United States, NSHC urges it not forget the dire 
public infrastructure needs in our Native communities. NSHC believes 
that it is critical that our self-governance Tribes have the ability to 
innovate how we address the sanitation needs of our communities. We 
recommend establishing a program within the I.H.S that would allow 
Tribes to be innovative in addressing the need for basic sanitation 
systems. We thus request the subcommittees' support for establishing 
such a program within the I.H.S, and for expanding the current funding 
within the IHS budget that is allocated toward water and sewer 
projects. In this day and age, we should not have communities, nor 
homes within communities, that are unconnected to safe water and sewer.
    Increasing temperatures are changing Alaska: thawing permafrost and 
eroding costal and river shorelines are damaging and shortening the 
operating life of critical public infrastructure in Native communities 
including sanitation systems. The State of Alaska and the Federal 
Government Accountability Office have identified 31 threatened Native 
communities, 12 of which are looking at relocating their villages. 
Funding for programs impacted by climate change, such as those related 
to addressing flooding and erosion, must not be cut, and we ask the 
subcommittees to help encourage the Federal funding agencies to be more 
responsive to the need for research and development, in order to 
address the sewer and water needs in these communities that are 
threatened by climate change.

    Advanced Appropriations for I.H.S. For several years, Tribal Health 
Organizations have requested advance appropriations to facilitate 
budget planning, purchasing, hiring, and innovation, similar to the 
Veterans Administration enacted advanced appropriation in 2009. It has 
become nearly normal for appropriations to become chronically late. 
Both the VA and I.H.S provide direct medical care and both are the 
result of Federal policies. It is extremely challenging to prepare an 
annual operating budget without confirmed funding.
    Thank you for your consideration of the concerns and requests of 
the Norton Sound Health Corporation.

    [This statement was submitted by Megan Alvanna Stimpfle, Self-
Governance Liaison.]
                                 ______
                                 
                  Prepared Statement of OPERA America
    Madam Chairman and distinguished Members of the subcommittee, I am 
grateful for the opportunity to submit testimony on behalf of OPERA 
America, its Board of Directors and its more than 2,000 organizational 
and individual members. We strongly urge the subcommittee on Interior, 
Environment, and Related Agencies in the Committee on Appropriations to 
designate a total of $155 million to the National Endowment for the 
Arts (NEA) for fiscal year 2019. This testimony and the funding 
examples described below are intended to highlight the importance of 
Federal investment in the arts, so critical to sustaining a vibrant 
cultural community throughout the country.
    The NEA is a great investment in in the economic growth of every 
community. The NEA was established in 1965 with the mission to 
``strengthen the creative capacity of our communities by providing all 
Americans with diverse opportunities for arts participation.'' It has 
continued to meet this mission for over 50 years, recommending more 
than 2,400 grants in every Congressional District in the country in 
fiscal year 2017. Sixty-five percent of direct grants went to small 
(budgets under $500,000) and medium sized (budgets between $500,000 and 
$2 million) organizations. Additionally, 40 percent of NEA-supported 
activities took place in high-poverty neighborhoods and 36 percent of 
NEA grants reached underserved populations, such as people with 
disabilities and veterans. Between 2012 and 2015, NEA-supported 
programs reached 24.2 million adults and 3.4 children on average each 
year through 80,603 live events.
    Funding from the NEA continues to support arts organizations and 
their communities by providing a high return on investment. The ratio 
of private and other public funds matching every NEA grant dollar is 
approaching 9:1, generating more than $500 million in matching 
supporting.
    Before the establishment of the NEA, funding for the arts was 
mostly limited to larger cities. The NEA is the only arts funder in 
America, public or private, that supports the arts in all 50 States, 
the District of Columbia, and U.S. territories. Additionally, 40 
percent of the NEA's program funds are distributed through State arts 
agencies, reaching tens of thousands throughout the U.S. NEA funding 
provides access to the arts in regions with histories of 
inaccessibility due to economic or geographic limitations.
    At the national level, the arts and cultural sector contributed 
$763.6 billion to the U.S. economy in 2015, 4.2 percent of the GDP, and 
counted 4.9 million workers who earned $372 billion in total 
compensation. The tax-exempt performing arts organizations contributed 
$9 billion to the U.S. economy and employed 90,000 workers, who earned 
$5.6 billion in total compensation. Consumers spent $31.6 billion on 
admissions to performing arts events.
    Opera's increasing civic practice supports healthy and vibrant 
communities. Opera companies are finding new and exciting ways to bring 
the essence of opera to other local theaters and community centers, 
frequently with new and innovative works that reflect the diverse 
communities of the cities they serve. Strong partnerships with local 
schools extend the civic reach of opera companies as they introduce 
children to a multi-media art form and discover promising young talent.
    Founded in 1970, OPERA America is that national service 
organization for opera and the Nation's leading champion for American 
opera. OPERA America's membership includes 157 professional member 
companies in the United States and Canada, located in 41 States, the 
District of Columbia, and seven Canadian provinces.

  --Economic Impact: In fiscal year 2016, OPERA America's member 
        organizations had expenses that totaled $1.1 billion, including 
        both personnel and non-personnel expenses. As 501(c)(3) 
        nonprofit organizations, opera companies depend on support from 
        private philanthropy and governmental sources. In fiscal year 
        16, private support totaled $510 million, representing 47 
        percent of total operating income; while total city, county, 
        State, and Federal Government support consisted of 7 percent of 
        total operating income.
        According to data compiled by the NEA and the Bureau of 
Economic Analysis' U.S. Arts and Culture Production Satellite Account, 
revenues from opera companies totaled $955 million, suggesting that 
opera companies comprise roughly 9 percent of the value added by tax-
exempt performing art companies.
        OPERA America's members employed a total of 2,551 full-time, 
8,119 part-time, and 18,698 contract staff in 2017.

  --Communities Served: Opera audiences are growing more diverse. From 
        2008-2012, the percentage of African-American attendees 
        increased by 59 percent; and attendance by Latino audiences 
        increased by 8.3 percent. During those same years, audience 
        members in the 18-24 age bracket grew by 43.2 percent and those 
        in the 25-34 age bracket grew by 33.8 percent.

  --Opera Works: Much of the success of opera's increasing audience is 
        the result of the creation of new works, telling uniquely 
        American stories. Since 1900, over 1,000 new operatic works 
        have been produced in North America, with more than 600 operas 
        premiering between 1995 and 2017. In the 2016-2017 season 
        alone, 30 North American operas premiered.
        The two most frequently produced American operas in 2016-2017 
include: As One, a chamber opera, depicts the experiences of its sole 
transgender protagonist as she endeavors to resolve the discord between 
her self and the outside world; and Dead Man Walking, based on the book 
of the same name by Sister Helen Prejean. In fact, As One is also the 
10th most produced opera in the U.S., in a list that includes Carmen, 
La boheme, The Magic Flute, and Rigoletto.
                           nea grants at work
    NEA grants are awarded to opera organizations through its core 
programs: Art Works; Challenge America Fast Track Grants; and Federal/
State Partnerships. In fiscal year 2017, the NEA awarded 73 grants to 
the opera field through the Art Works category, totaling $2,095,000.
    OPERA America received an Art Works Grant to support programs and 
services for the entire field of opera in addition to an Our Town grant 
to help build opera companies' capacity to increase the scope and 
intensity of their civic engagement. Led by an experienced faculty, a 
powerful exchange of stories and case studies among members has created 
a core of expert practitioners who will lead the field in a coordinated 
effort to address important civic issues through reciprocal 
relationships with other arts and non-arts organizations. Below are 
just a few examples of the excellent initiatives. (Each organization 
referenced received an NEA grant in fiscal year 2017.)
Cincinnati Opera
    Through Cincinnati Opera's new 5-year initiative, CO Next: Diverse 
Voices, the company is co-creating new works with non-arts partner 
organizations. The first original work in this series, Blind Injustice, 
will be developed in partnership with the Ohio Innocence Project and 
the Young Professionals Choral Collective. The piece will tell the 
stories of four exonerated prisoners. By reimagining how engagement and 
artistic practice can function in relation to diverse constituencies, 
Cincinnati utilizes opera in service of the needs of non-arts partners.
Houston Grand Opera
    HGOco connects Houston Grand Opera's creative resources with the 
diverse and vibrant community. The ``co'' in HGOco stands for company, 
community, and collaboration. The Song of Houston initiative 
commissions new chamber operas and song projects that resonate with 
contemporary life in Houston and develops community projects that 
foster collaborations with many Houston-area organizations. The most 
recently completed initiative, The Veterans Songbook Project, provided 
an opportunity for veterans to participate in workshops held in 
collaboration with local veterans' service organizations and Houston-
based composers.
Michigan Opera Theatre
    Arts and sports are important sources of pride and revitalization 
for the city of Detroit. Michigan Opera will embrace both with ``Take 
Me Out To the Opera!'' presented alongside its Midwestern premiere of 
The Summer King, about baseball legend and Negro League player, Josh 
Gibson. Giving voice to Detroit's past and present commitment to equity 
and inclusion, this series of programs will explore the distinction of 
arts and sports as institutional leaders in breaking racial barriers 
during the era of segregation.
Opera Omaha
    In the fall of 2017 Opera Omaha established the Holland Community 
Opera Fellowship. This program engages four opera performers to reside 
in Omaha for 2 years to perform and conduct service-oriented activities 
to the benefit of the community. The Fellows are selected by a panel of 
community members who help develop reciprocal relationships between 
Opera Omaha and the organizations and neighborhoods served by the 
program. Through this Fellowship, Opera Omaha seeks to build bridges 
across the demographic and ideological divides in the community and 
continue the company's shift to more community-responsive and co-
created programming.
Opera Theatre of Saint Louis
    In order to better serve the community, Opera Theatre of Saint 
Louis initiated conversations with local African American leaders 
seeking honest feedback. The lack of diversity on Opera Theatre's stage 
was identified as a key impediment to engaging audiences of color. To 
address this issue, last year the company began tracking the diversity 
of the young artists and principal cast members being hired. Opera 
Theatre of Saint Louis is committed to changing their casting practices 
to achieve diversity that is more representative of the Nation.
    OPERA America is grateful for the $3 million increase to the NEA in 
fiscal year 2018. The continued bipartisan support for the agency has 
continued to support artists and audiences, allowing opera and the arts 
to address critical issues, making communities healthier and more 
vibrant.
    We urge you to continue toward restoration and increase the NEA 
funding allocation to $155 million for fiscal year 2019.
    On behalf of OPERA America, thank you for considering this request.

    [This statement was submitted by Marc A. Scorca, President and 
CEO.]
                                 <greek-l>
                                 ______
                                 
       Opposing the Inclusion of Any Anti-Environment Riders deg.
   Prepared Statement Opposing the Inclusion of Any Anti-Environment 
       Riders in the Fiscal Year 2018 Omnibus Appropriations Bill

 
 
 
The Honorable Mitch McConnell         The Honorable Paul Ryan
Majority Leader                       Speaker
United States Senate                  U.S. House of Representatives
Washington, DC 20510                  Washington, DC 20515
 
The Honorable Charles E. Schumer      The Honorable Nancy Pelosi
Minority Leader                       Minority Leader
United States Senate                  U.S. House of Representatives
Washington, DC 20510                  Washington, DC 20515
 
The Honorable Thad Cochran            The Honorable Rodney P.
Chairman, Committee on                 Frelinghuysen
 Appropriations                       Chairman, Committee on
United States Senate                   Appropriations
Washington, DC 20510                  U.S. House of Representatives
                                      Washington, DC 20515
 
The Honorable Patrick J. Leahy        The Honorable Nita M. Lowey
Ranking Member                        Ranking Member
Committee on Appropriations           Committee on Appropriations
United States Senate                  U.S. House of Representatives
Washington, DC 20510                  Washington, DC 20515
 


RE: Appropriations Rider Pertaining to Alaskan ``Small Remote 
Incinerators (SRIs)''

March 19, 2018

    Dear Majority Leader McConnell, Minority Leader Schumer, Speaker 
Ryan, Minority Leader Pelosi, Chairman Cochran, Ranking Member Leahy, 
Chairman Frelinghuysen, and Ranking Member Lowey,

    On behalf of our millions of members, we strongly oppose the 
inclusion of any anti-environment riders in the fiscal year 2018 
Omnibus Appropriations bill. Including damaging legislative provisions 
in a massive must-pass funding bill harms our public health and 
environment, and it undermines the democratic process.
    We have specific concerns with a rider in the Senate's fiscal year 
2018 Interior, Environment, and Related Appropriations bill that would 
damage important clean air protections established by EPA in 2011 for 
toxic pollution from commercial and industrial waste incinerators. 
These protections secure significant climate and health benefits, 
reducing 5,200 tons of sulfur dioxide, 5,500 tons of nitrogen oxide, 
25,000 tons of carbon monoxide, 710 tons of direct particulate matter, 
470 tons of hydrogen chloride, 4.1 tons of lead, 0.95 tons of cadmium, 
and 260 pounds of mercury each year. The monetized value of the PM 
health benefits alone was estimated at $310 million to $830 million per 
year.\1\
---------------------------------------------------------------------------
    \1\ EPA, Regulatory Impact Analysis: Standards of Performance for 
New Stationary Sources and Emission Guidelines for Existing Sources: 
Commercial and Industrial Solid Waste Incineration Units 5-9, 5-23 
(Feb. 2011).
---------------------------------------------------------------------------
    Section 435 of the Bill, ``Small Remote Incinerators'' (SRIs), 
would undo these protections as to certain commercial and industrial 
waste incinerators in Alaska. By allowing these facilities to freely 
emit particulate matter, sulfur dioxide, and various hazardous air 
pollutants including cadmium, dioxins, furans, hydrogen chloride, lead, 
and mercury, the bill will expose communities and families that live 
and work near such facilities to increased risks of cancer, heart 
disease, stroke, and other serious illnesses. The Bill would also set 
us on a dangerous path towards the piecemeal dismantling of clean air 
protections that are meant to provide consistent protection to all 
Americans.
    Clean Air Act regulations pertaining to SRIs should be maintained. 
In contrast with the significant health benefits of these standards, 
the requirements for compliance are not particularly burdensome. The 
D.C. Circuit noted that all of the 28 SRI facilities covered by EPA's 
standards are located in Alaska, and concluded that ``no record 
evidence suggests that the current SRI emission standards are not 
achievable.'' \2\ It's clear that EPA has given--and continues to 
give--serious consideration to compliance and cost concerns surrounding 
these standards, and they have already withstood judicial scrutiny.
---------------------------------------------------------------------------
    \2\ United States Sugar Corp. v. EPA, 830 F.3d 579, 622 (D.C. Cir. 
2016)
---------------------------------------------------------------------------
    There are few responsibilities as fundamental for our Government as 
ensuring the air we breathe is clean and safe. Passing an 
appropriations package that includes Section 435's attack on the Clean 
Air Act would endanger the health of people in Alaska and set a 
dangerous precedent. By establishing special legislative exemptions, 
the proposed amendments create the very ``race to the bottom'' and 
health inequities that the Clean Air Act was designed to avoid. We urge 
you to reject all anti-environment riders in the fiscal year 2018 
Omnibus Appropriations bill, including section 435 on small remote 
incinerators.

EDF Action
Earthjustice
Environmental Protection Network
Sierra Club
Greenpeace
Center for Biological Diversity
Alaska Wilderness League
The Wilderness Society
      
                                 ______
                                 
       Prepared Statement of the Oregon Water Resources Congress
    The Oregon Water Resources Congress (OWRC) is concerned about 
continuing reductions to the U.S. Environmental Protection Agency's 
(EPA) Clean Water State Revolving Fund Loan Program (CWSRF) and is 
requesting that appropriations for this program be increased to at 
least $2 billion in fiscal year 2019. The CWSRF is an effective loan 
program that addresses critical water infrastructure needs while 
benefitting the environment, local communities, and the economy.
    OWRC was established in 1912 as a trade association to support the 
protection of water rights and promote the wise stewardship of water 
resources statewide. OWRC members are local governmental entities, 
which include irrigation districts, water control districts, drainage 
districts, water improvement districts, and other agricultural water 
suppliers that deliver water to roughly \1/3\ of all irrigated land in 
Oregon. These water stewards operate complex water management systems, 
including water supply reservoirs, canals, pipelines, and hydropower 
facilities.
                    fiscal year 2019 appropriations
    We recognize that we must make strategic investments with our 
country's scarce resources and maximize benefits to the American 
people. The CWSRF is a perfect example of the type of program that 
should have funding increased because it creates jobs while benefitting 
the environment and is a highly efficient return on taxpayer 
investment. Oregon, like many other States, continues to face high 
levels of unemployment and the CWSRF funded projects provide much 
needed construction and professional services jobs. Moreover, as a loan 
program, it is a wise investment that allows local communities to 
leverage their limited resources and address critical infrastructure 
needs that would otherwise be unmet.
    Nationally, there are large and growing critical water 
infrastructure needs. In EPA's most recent needs surveys, The Clean 
Watersheds Needs Survey 2012: Report to Congress and Drinking Water 
Infrastructure Needs Survey and Assessment: Fifth Report to Congress, 
the estimated funding need for drinking water infrastructure totaled 
$384 billion (in 2011 dollars) and wastewater infrastructure needs 
totaled $271 billion (in 2012 dollars). Appropriations for water 
infrastructure, specifically CWSRF, should not be declining but 
remaining strong in order to meet these critical needs. In 2016 and 
2017 appropriations for the CWSRF program were approximately $1.394 
billion. We are concerned as we see this negative downward trend 
continuing while the status of our Nation's water infrastructure 
continues to decline.
    We also continue to be highly supportive of expanding ``green 
infrastructure,'' in fact, irrigation districts and other water 
suppliers in Oregon are on the forefront of ``green infrastructure'' 
through innovative piping projects that provide multiple environmental 
benefits, which is discussed in greater detail below. However, 
continually reducing the amount of funds available for these types of 
worthwhile projects has created increased uncertainty for potential 
borrowers about whether adequate funding will be available in future 
years. CWSRF is often an integral part of an overall package of State, 
Federal and local funding that necessitates a stronger level of 
assurance that loan funds will be available for planned water 
infrastructure projects. Reductions in the CWSRF could lead to loss of 
grant funding and delay or derail beneficial projects that irrigation 
districts have been developing for years.
    Additionally, OWRC is pleased that EPA continues ``strategic 
partnerships'' with the USDA's Natural Resources Conservation Services 
(NRCS) and other Federal agencies to improve water quality and address 
nonpoint source pollution. Oregon had one priority watersheds eligible 
for funding through the National Water Quality Initiative in 2017 and 
anticipates that additional watersheds will be included in the future. 
As Oregon is a delegated State, the Oregon Department of Environmental 
Quality (DEQ) administers the CWSRF and is an important lead agency in 
incentivizing voluntary efforts to improve these and other impaired 
waterways in the State. DEQ and its administration of the CWSRF has 
been an extremely valuable tool in Oregon for improving water quality 
and efficiently addressing infrastructure challenges that are otherwise 
cost-prohibitive.
                         cwsrf needs in oregon
    The appropriations for the CWSRF program over the past few years 
has been far short of what is needed to address critical water 
infrastructure needs in Oregon and across the Nation. This has led to 
fewer water infrastructure projects, and therefore a reduction in 
improvements to water quality. DEQ's most recent ``Proposed Intended 
Use Plan Update #2--State Fiscal Year 2018,'' lists 21 projects in need 
of a total of $166,079,756 in Oregon alone. The Federal capitalization 
grant funding awarded in fiscal year 2017 will total $14,977,000, which 
is wholly inadequate to address and complete these much-needed 
projects.
    Now that irrigation districts are once again eligible for principal 
forgiveness (which was recently reinstated with the passage of the WIIN 
Act), seven irrigation districts submitted applications for funding in 
2018. All totaled Oregon irrigation districts have submitted 
applications to DEQ for over $63,000,000 for the design and 
construction of multiple projects to improve water quality and quantity 
associated with irrigation diversions, canals and pipelines throughout 
the State. OWRC is hopeful that with an increase in money available, 
there will be enough funding available to complete projects that will 
not only benefit the environment and the patrons served by the water 
delivery system, but also benefit the economy.
                     cwsrf and irrigation districts
    OWRC and our members are highly supportive of the CWSRF, including 
promoting the program to our members and annually submitting Federal 
appropriations testimony to support increased funding for the CWSRF. We 
believe it is an important funding tool that irrigation districts and 
other water suppliers are using for innovative piping projects that 
provide multiple environmental and economic benefits.
    Many OWRC member districts have successfully received loans from 
the CWSRF over the last several years and many more continue to apply. 
Numerous irrigation districts and other water suppliers need to pipe 
currently open canals, which reduces sediment and water temperature and 
provides other water quality improvements as well as increasing water 
availability for fish and irrigators by reducing water loss from the 
delivery system. As an example of past success, in 2009, four 
irrigation districts received over $11 million funding in Oregon from 
the American Recovery and Reinvestment Act (ARRA) through the CWSRF for 
projects which created valuable jobs while improving water quality. 
These four projects were essential to DEQ not only meeting but 
exceeding the minimum requirement that 20 percent of the total ARRA 
funding for the CWSRF be used for ``green'' projects. Without the 
irrigation district projects, it is likely that Oregon's CWSRF would 
not have qualified for ARRA funding.
         the importance and success of local watershed planning
    Oregon's success in watershed planning illustrates that planning 
efforts work best when diverse interests develop and implement plans at 
the local watershed level with support from State government. Oregon 
has recently revised their CWSRF rules; thus making conservation easier 
and its benefits to be better achieved in the State. As the national 
model for watershed planning, Oregon does not need a new Federal agency 
or Executive Branch office to oversee conservation and restoration 
efforts. Planning activities are conducted through local watershed 
councils, volunteer-driven organizations that work with local, State 
and Federal agencies, economic and environmental interests, 
agricultural, industrial and municipal water users, local landowners, 
Tribes, and other members of the community. There are over 60 
individual watershed councils in Oregon that are already deeply engaged 
in watershed planning and restoration activities. Watershed planning in 
Oregon formally began in 1995 with the development of the Oregon Plan 
for Salmon Recovery and Watershed Enhancement, a statewide strategy 
developed in response to the Federal listing of several fish species. 
This strategy led to the creation of the Oregon Watershed Enhancement 
Board (OWEB), a State agency and policy oversight board that funds and 
promotes voluntary and collaborative efforts that ``help create and 
maintain healthy watersheds and natural habitats that support thriving 
communities and strong economies'' in 1999.
                               conclusion
    In conclusion, we applaud the CWSRF program for allowing Oregon's 
DEQ to make targeted loans that address Clean Water Act issues and 
improve water quality but also help incentivize innovative water 
management solutions that benefit local communities, agricultural 
economies, and the environment. This voluntary approach creates and 
promotes cooperation and collaborative solutions to complex water 
resources challenges. We respectfully request the appropriation of at 
least $2 billion for the U.S. Environmental Protection Agency's Clean 
Water State Revolving Loan Fund for Fiscal Year 2019.

            Sincerely,
                                   April Snell,
                                           Executive Director.
                                 ______
                                 
       Prepared Statement of the Oregon Water Resources Congress
    The Oregon Water Resources Congress (OWRC) is writing to express 
its strong support for the U.S. Fish and Wildlife Service Fisheries 
Restoration Irrigation Mitigation Act (FRIMA) Program and is requesting 
that appropriations for this program be $15 million in fiscal year 
2019, which is what FRIMA is currently authorized for. The FRIMA 
program is an essential cost-share funding program that helps water 
users and fishery agencies better protect sensitive, threatened, and 
endangered fish species while ensuring water supply delivery to farms 
and communities.
    OWRC was established in 1912 as a trade association to support the 
protection of water rights and promote the wise stewardship of water 
resources statewide. OWRC members are local governmental entities, 
which include irrigation districts, water control districts, drainage 
districts, water improvement districts, and other agricultural water 
suppliers that deliver water to roughly \1/3\ of all irrigated land in 
Oregon. These water stewards operate complex water management systems, 
including water supply reservoirs, canals, pipelines, and hydropower 
production.
                    fiscal year 2019 appropriations
    The FRIMA program meets a critical need in fishery protection and 
restoration, complimenting other programs through the U.S Fish and 
Wildlife Services (FWS), while leveraging State, local, and private 
funds. The program provides vital cost-share funding that helps meet 
fishery needs without placing the burden solely on the backs of farmers 
and ranchers who rely on the same water source. Fish passage and fish 
screens installations are a vital component to fishery protection with 
several benefits:

  --Keeps sensitive, threatened and endangered fish out of canals and 
        water delivery systems
  --Allows fish to be safely bypassed around reservoirs and other 
        infrastructure
  --Eliminates water quality risks to fish species

    There are over 100 irrigation districts and other special districts 
in Oregon that deliver water supplies to over 1 million acres of 
irrigated cropland in the State. Almost all of these districts are 
affected by either State or Federal Endangered Species Act listings of 
Salmon, Steelhead, Bull Trout or other sensitive, threatened or 
endangered species. The design and installation of fish screens and 
fish passage to protect the myriad of fish species is often cost-
prohibitive for individual districts to implement without outside 
funding sources.
    Oregon irrigation districts anticipate no less than $25 million in 
funding will be required to meet current fish passage and fish screen 
needs. Limited cost-share funds are available from the Oregon Watershed 
Enhanced Board (OWEB) program in Oregon, but the primary cost-share for 
fish screen and fish passage projects has been provided by the 
districts and their water users. Project needs include both 
construction of new fish screens and fish passage facilities as well as 
significant upgrades of existing facilities to meet new requirements 
(new species, new science) of the National Oceanic and Atmospheric 
Administration (NOAA) Fisheries Service and the FWS. Upgrades are often 
needed to modernize facilities with new technologies that provide 
better protection for fish species as well as reduced maintenance and 
increased lifespan for the operator.
   background of the fisheries restoration irrigation mitigation act 
                            (frima) program
    FRIMA, originally enacted November 2000, created a Federal 
partnership program incentivizing voluntary fish screen and fish 
passage improvements for water withdrawal projects in Idaho, Oregon, 
Washington and western Montana. The funding goes to local governments 
for construction of fish screens and fish passage facilities and is 
matched with non-Federal funding. Irrigation districts and other local 
governments that divert water for irrigation accessed the funding 
directly, while individual irrigators accessed funding through their 
local Soil and Water Conservation District (SWCD), which are local 
governments affiliated with the Natural Resources Conservation Service 
(NRCS).
    FRIMA was reauthorized as part of the Water Infrastructure 
Improvements for the Nation Act (WIIN) of 2016 for only $15 million, 
well short of the estimated $500 million in fish screening and passage 
needs in the Pacific Northwest alone. The original legislation in 2000 
(Public Law 106-502) was supported and requested by the Pacific 
Northwest Partnership, a coalition of local governmental entities in 
the four Northwest States. As one of the members of that coalition, we 
appreciate and strongly support your efforts to reauthorize the FRIMA 
program. The FRIMA legislation authorized $25 million annually, to be 
divided equally among the four States from 2001 to 2012, which was when 
the original authorization expired. The actual funding appropriated to 
the FRIMA program (through Congressional write-ins) ranged from $1 
million to $8 million, well short of the $25 million it was authorized 
for and far short of what is needed to address fish passage and 
screening needs across the region. However, that small amount funding 
was used to leverage other funds and assisted the region in making 
measurable progress towards addressing fish screens and fish passage 
needed to protect sensitive, threatened, and endangered fish species.
    FRIMA funding was channeled through FWS to State fishery agencies 
in the four States, distributed using an application and approval 
process based on a ranking system implemented uniformly among the 
States, including the following factors: fish restoration benefits, 
cost effectiveness, and feasibility of planned structure. All projects 
provided improved fish passage or fish protection at water diversion 
structures and benefitted native fish species in the area, including 
several State or federally listed species. Projects were also subject 
to applicable State and Federal requirements for project construction 
and operation.
                            program benefits
    FRIMA projects provide immediate protection for fish and fills a 
large unmet need in the Pacific Northwest for cost-share assistance 
with fish screening and fish passage installations and improvements. A 
report by FWS covering program years fiscal year 2002-2012 provides 
State-by-State coverage of how the Congressional provided funding has 
been used in the program. Compared to other recovery strategies, the 
installation of fish screens and fish passage infrastructure has the 
highest assurance for increasing numbers of fish species in the Pacific 
Northwest. Furthermore, the installation of these devices have minimal 
impacts on water delivery operations and projects are done 
cooperatively using methods that are well accepted by landowners and 
rural communities.
    The return of the FRIMA program will catalyze cooperative 
partnerships and innovative projects that provide immediate and long-
term benefits to irrigators, fishery agencies, and local communities 
throughout the Pacific Northwest. This program is also a wise 
investment, with past projects contributing more than the required 
match and leveraging on average over one dollar for each Federal dollar 
invested. FRIMA provides for a maximum Federal cost-share of 65 
percent, with the applicant's cost-share at 35 percent plus the on-
going maintenance and support of the structure for passage or screening 
purposes. Applicants operate the projects and the State agencies 
monitor and review the projects.
                       oregon's project benefits
    Twenty-six fish screens or fish passage projects in Oregon were 
previously funded using FRIMA for part of the project financing. These 
projects have led to:

  --Installation of screens at 17 diversions or irrigation pumps
  --Removal or modification of 12 fish passage barriers
  --Three-hundred sixty-five miles being re-opened to fish passage

    In addition, the Oregon Department of Fish and Wildlife (ODFW) has 
used some of the FRIMA funding to develop an inventory of need for fish 
screens and passages in the State. Grants ranged from just under $6,000 
to $400,000 in size with a local match averaging 64 percent of the 
project costs, well over the amount required under the Act (35 
percent). In other words, each Federal dollar invested in the FRIMA 
program generates a local investment of just over one dollar for the 
protection of fish species in the Pacific Northwest.

    The following are examples of how Oregon used some of its FRIMA 
money:

    Santiam Water Control District Project: Fish screen project on a 
large 1050 cubic feet per second (cfs) multipurpose water diversion 
project on the Santiam River (Willamette Basin) near Stayton, Oregon. 
Partners are the Santiam Water Control District, ODFW, Marion Soil and 
Water Conservation District, and the City of Stayton. Approved FRIMA 
funding of $400,000 leveraged a $1,200,000 total project cost. Species 
benefited included winter steelhead, spring Chinook, rainbow trout, and 
cutthroat trout.

    South Fork Little Butte Creek: Fish screen and fish passage project 
on a 65 cfs irrigation water diversion in the Rogue River Basin near 
Medford, Oregon. Partners are the Medford Irrigation District and ODFW. 
Approved FRIMA funding of $372,000 leveraged a $580,000 total project 
cost. Species benefited included listed summer and winter steelhead, 
coho salmon, and cutthroat trout.

    Running Y (Geary Diversion) Project: Fish screen project on a 60 
cfs irrigation water diversion in the upper Klamath Basin near Klamath 
Falls, Oregon. Partners are the Wocus Drainage District, ODFW, and 
Jeld-Wen Ranches. Approved FRIMA funding of $44,727 leveraged a total 
project cost of $149,000. Species benefited included listed red-band 
trout and short-nosed sucker.

    Lakeshore Gardens Project: Fish screen project on a 2 cfs 
irrigation water diversion in the upper Klamath Basin near Klamath 
Falls, Oregon. Partners are the Lakeshore Gardens Drainage District and 
ODFW. Approved FRIMA funding of $5,691 leveraged a total project cost 
of $18,970. Species benefited included red-band trout, short-nosed 
sucker and Lost River sucker.
                               conclusion
    Providing appropriations for the FRIMA program will fill a vital 
funding gap for fish screens and fish passage projects that are needed 
to better protect sensitive, threatened, and endangered fish species, 
which also benefits the economy, local communities, and the environment 
we share. FRIMA funds projects that are ready to be constructed and 
will provide both immediate improved protections for fish and immediate 
jobs for the construction of the projects. Dollar-for-dollar, providing 
screening and fish passage at diversions is one of the most cost-
effective uses of restoration dollars, creating fishery protection at 
low cost, with low risk and significant benefits. The return of the 
FRIMA program will catalyze cooperative partnerships and innovative 
projects that provide immediate and long-term economic and 
environmental benefits to irrigators, fishery agencies, and local 
communities throughout the Pacific Northwest. We respectfully request 
an appropriation of $15 million for U.S. Fish and Wildlife Service's 
Fisheries Restoration Irrigation Mitigation Act program for fiscal year 
2019.

    [This statement was submitted by April Snell, Executive Director.]
                                 ______
                                 
          Prepared Statement of the Pacific Salmon Commission
    Mr. Chairman, and Honorable Members of the Committee, I am Ron 
Allen, the Alternate Tribal Commissioner and Chair of the Finance and 
Administration Committee for the U.S. Section of the Pacific Salmon 
Commission (PSC). The U.S. Section prepares an annual budget for 
implementation of the Pacific Salmon Treaty. The integrated budget 
details program needs and costs for Tribal, Federal, and State agencies 
involved in the Treaty. Tribal participation in the Treaty process is 
funded within the Bureau of Indian Affairs budget.

  --In order to meet the increased obligations under the Pacific Salmon 
        Treaty Agreement, the 25 affected Tribes identified costs at 
        $5,200,000 for Tribal research projects and participation in 
        the U.S.-Canada Pacific Salmon Treaty process, an increase of 
        $857,278 over fiscal year 2017 enacted level. The funding for 
        Tribal participation in the Pacific Salmon Treaty is a line 
        item in the BIA's budget under Rights Protection 
        Implementation.

    Under U.S. Fish and Wildlife Service programs, the U.S. Section 
identified funding needs as follows:

  --USFWS participation in the Treaty process is funded at $372,362 for 
        fiscal year 2017. The Pacific States Marine Fisheries 
        Commission's Regional Mark Center (PSMFC) receives support from 
        the USFWS to provide data services to the PSC process at a 
        level of $236,189 for fiscal year 2017. The U.S. Section 
        recommends increasing the funding for PSMFC by $150,000. The 
        recommended total for the two programs for fiscal year 2019 is 
        $758,551.

    This base funding for the U.S. Fish and Wildlife Service supports 
critically important on-going work and participation in the process. 
The funding for Pacific States Marine Fisheries Commission's Regional 
Mark Processing Center is utilized to meet Treaty requirements 
concerning data exchange with Canada. These program recommendations are 
integrated with those of participating State and Federal agencies to 
avoid duplication of effort and provide for the most efficient 
expenditure of limited funds.
    The U.S. Section of the PSC is recommending an adjustment to 
support the work carried out by the 25 treaty Tribes' participating in 
implementation of the Treaty. Programs carried out by the Tribes are 
closely coordinated with those of participating State and Federal 
agencies. Tribal programs are essential for the United States to meet 
its international obligations. Tribal programs have taken on additional 
management responsibilities due to funding issues with State agencies. 
All participating agencies need to be adequately supported to achieve a 
comprehensive U.S. effort to implement the Treaty.
    The U.S. Fish and Wildlife Service activities are essential so the 
U.S. can maintain the critical database to implement the Treaty. The 
work of the Regional Mark Processing Center includes maintaining and 
updating a coastwide computerized information management system for 
salmon harvest data as required by the Treaty. This work has become 
even more important to monitor the success of management actions aimed 
at reducing impacts on ESA-listed salmon populations. Canada has a 
counterpart database. The U.S. database will continue to be housed at 
the Pacific States Marine Fisheries Commission.
    Funding to support activities under the Pacific Salmon Commission 
comes from the Departments of Interior, State, and Commerce. The U.S. 
Section can provide a cross-cut budget summary to the Committee. 
Adequate funding from all three Departments is necessary for the U.S. 
to meet its Treaty obligations. All the funds are needed for critical 
data collection and research activities directly related to the 
implementation and are used in cooperative programs involving Federal, 
State, and Tribal fishery agencies and the Department of Fisheries and 
Oceans in Canada. The commitment of the United States is matched by the 
commitment of the Government of Canada.
    Mr. Chairman, the United States and Canada established the Pacific 
Salmon Commission, under the Pacific Salmon Treaty of 1985, to conserve 
salmon stocks, provide for optimum production of salmon, and to control 
salmon interceptions. After 30 years, the work of the Pacific Salmon 
Commission continues to be essential for the wise management of salmon 
in the Pacific Northwest, British Columbia, and Alaska. For example, 
upriver bright fall Chinook salmon from the Hanford Reach of the 
Columbia River are caught in large numbers in Alaskan and Canadian 
waters. Tribal and non-Tribal fishermen harvest sockeye salmon from 
Canada's Fraser River in the Strait of Juan de Fuca and in Puget Sound. 
Canadian trollers off the west coast of Vancouver Island catch 
Washington coastal Coho salmon and Puget Sound Chinook salmon. In the 
Northern Boundary area between Canada and Alaska, fish from both 
countries are intercepted by the other country in large numbers. The 
Pacific Salmon Commission provides a forum to ensure cooperative 
management of salmon populations. The agreements in the current Annex 
Chapters for management of Chinook, Coho, Chum and transboundary 
populations expire at the end of 2018. The Annex Chapter for management 
of Fraser River Sockeye and Pink salmon expires at the end of 2019. The 
U.S. and Canada are negotiating revisions to the current agreements. It 
is critically important to have adequate resources for U.S. 
participants to implement the revised agreements and protect our Tribal 
Treaty resources.
    Before the Treaty, fish wars often erupted with one or both 
countries overharvesting fish that were returning to the other country, 
to the detriment of the resource. At the time the Treaty was signed, 
Chinook salmon were in a severely depressed state because of 
overharvest in the ocean as well as environmental degradation in the 
spawning rivers. Under the Treaty, both countries committed to rebuild 
the depressed runs of Chinook stocks, and they recommitted to that goal 
in 1999 when adopting a coastwide abundance based approach to harvest 
management. Under this approach, harvest management has complemented 
habitat conservation and restoration activities undertaken by the 
States, Tribes, and other stakeholders in the Pacific Northwest to 
address the needs of salmon listed for protection under the Endangered 
Species Act. The 2008 Chinook agreement continued these commitments and 
the upcoming revisions will continue to build on these efforts. The 
combination of these efforts is integral to achieving success in 
rebuilding and restoring healthy, sustainable salmon populations.
    Finally, you should consider that the value of the commercial 
harvest of salmon subject to the Treaty, managed at productive levels 
under the Treaty, supports the infrastructure of many coastal and 
inland communities. The value of the commercial, recreational 
fisheries, and the economic diversity they provide for local economies 
throughout the Pacific Northwest and Alaska, is immense. The Commission 
recently funded an economic study of the fisheries and determined that 
this resource creates thousands of jobs and is a multi-billion dollar 
industry. The value of these fish to the 24 treaty Tribes in 
Washington, Oregon, and Idaho goes far beyond their monetary value, to 
the cultural and religious lives of Indian people. A significant 
monetary investment is focused on salmon due to the listings of Pacific 
Northwest salmon populations under the Endangered Species Act. Given 
these resources, we can continue to utilize the Pacific Salmon 
Commission to develop recommendations that help with the development 
and implementation of solutions to minimizing impacts on listed stocks. 
We continue to work towards the true intent of the Treaty, and with 
your support, we will manage this shared resource for mutual 
enhancements and benefits.
    Mr. Chairman, that concludes my written testimony submitted for 
consideration by your Committee. I want to thank the Committee for the 
support that it has given the U.S. Section in the past. Please feel 
free to contact me, or other members of the U.S. Section to answer any 
questions you or Committee members may have regarding the U.S. Section 
of the Pacific Salmon Commission budget.
                                 <greek-l>
                                 ______
                                 
               Prepared Statement of PhilipsenBrenda deg.
                 Prepared Statement of Brenda Philipsen
Dear Committee Members:

    As an American citizen and taxpayer, I am very upset at Congress' 
inclusion of Section 116 language in the Omnibus spending bill.
    This provision could strip up to 50,000 wild horses and burros of 
Federal protections that were passed unanimously by Congress and have 
been in place for nearly 50 years. Especially troubling is the section 
authorizing of the killing of ``advanced age'' animals, which could 
mean that thousands of healthy middle- to older-aged animals who 
currently enjoy Federal protection will be destroyed. Other loopholes 
include no provisions for accountability, transparency or accounting 
for the fates of transferred horses and no penalty for violating the 
provisions. Additionally, there is no prohibition on the transfer of 
horses by receiving agencies to third parties that could then kill the 
horses or burros for non-commercial purposes. Further, the provision 
for ``immediate'' transfer could send thousands of unbranded, and 
therefore untraceable, horses into the slaughter pipeline.
    Language put in place by Congress to prevent commercial slaughter 
and restrict euthanasia is well intended but ineffective and 
unenforceable. Further, it is inappropriate to upend a unanimously 
passed Act of Congress through a last minute spending bill. Americans 
overwhelmingly oppose horse slaughter and support protecting wild 
horses and burros on our public lands. Please honor the will of the 
people by fixing the problem caused by this language this language when 
the Omnibus expires on September 30, 2017.
    Thank you for your consideration.
                                 ______
                                 
      Prepared Statement of the Pueblo of Santa Clara, New Mexico
Recommendations
     1.  IHS--Provide full funding and advance appropriations for the 
Indian Health Service.
     2.  IHS--Maintain funding for Community Health Representatives.
     3.  IHS--$150 million in mandatory funding for SDPI.
     4.  BIA--Increase funding for disaster recovery and prevention 
programs.
     5.  BIA--Establish a BIA Emergency Response Fund.
     6.  USFS--Increase support for Tribal Forest Protection Act 
implementation.
     7.  BIA--$3 million for the BIA Endangered Species Program.
     8.  BIA--$30 million for the Tribal Climate Resilience Program.
     9.  DOI--$30 million for Department-wide Landscape Conservation 
Cooperatives.
    10.  EPA--Provide full funding for the EPA General Assistance 
Program.
    11.  BIA OSG--$2 million in baseline funding for the Office of 
Self-Governance.
    12.  BIA--Maintain $1 million in dedicated funding for NAGPRA 
implementation.
    13.  BIA--Increase funding for Tribal Historic Preservation Offices 
under the NHPA.
Introduction
    Thank you Chairman Murkowski, Ranking Member Udall, and Members of 
the subcommittee for the opportunity to testify on the important topic 
of Federal funding for American Indian and Alaska Native programs under 
your jurisdiction. My name is J. Michael Chavarria and I am the 
Governor of the Pueblo of Santa Clara, also serving in the capacity of 
the Chairman for the Eight Northern Indian Pueblos Council and Vice-
Chairman for the All Pueblo Council of Governors (APCG). Santa Clara 
Pueblo is located north of Santa Fe, New Mexico, in the foothills of 
the Valles Caldera Park Service Unit. On behalf of my Pueblo, we thank 
you and your staff for your hard work in protecting the interests of 
Tribal nations in the Federal budgeting process. The Federal budget 
plays an essential role in fulfilling the Federal Government's trust 
and treaty obligations to Tribal nations by ensuring that critical 
programs and services receive adequate resources to fulfill their 
intended purpose. These programs are provided to Tribal nations because 
of the unique political relationship that exists between our sovereign 
governments.
    As a Tribal leader, I have developed a deep understanding of our 
community's pressing needs, as well as of the immense potential of the 
Santa Clara People to succeed if given the appropriate level of 
resources and support. To further these twin objectives of progress and 
achievement, I offer the following fiscal year 2019 budget 
recommendations for the subcommittee.
    i. promoting access to high quality healthcare in indian country
    Provide Full Funding and Advance Appropriations for the Indian 
Health Service. The IHS strives to provide Tribal citizens with access 
to high quality and comprehensive medical services. Unlike other 
Federal healthcare agencies, such as Veterans Affairs, the IHS must 
balance the delivery of services with years of under-resourcing and the 
detrimental, lingering effects of sequestration under the Budget 
Control Act of 2011. The sum of this equation is all too often 
manifested in negative health outcomes for American Indian and Alaska 
Natives who depend on the IHS for care. Full advance appropriations for 
the IHS would promote greater stability in services, medical personnel 
recruitment and retention, and facilities management. It would also 
provide the IHS with parity to other Federal healthcare agencies that 
have demonstrated success in delivering consistent medical services 
under advance appropriations that have otherwise been interrupted by 
budget-related complications like continuing resolutions. IHS 
appropriations reform is urgently needed to provide Indian Country with 
access to this same peace of mind and reliability in healthcare 
services. We urge Congress to fully fund advance appropriations for the 
IHS under the fiscal year 2019 budget and beyond.

    Maintain Funding for the Community Health Representatives (CHR). 
CHRs are a valued and valuable asset in the Indian healthcare systems. 
Providers come from the communities they serve and have the necessary 
Tribal cultural understanding to identify, respond to, and address our 
Pueblo members' needs. They also serve as important sources of basic 
healthcare services, disease prevention services, and health education. 
We are deeply disturbed by the President's fiscal year 2019 proposal to 
eliminate all funding for this unique and highly effective program.  We 
urge Congress to maintain funding for CHRs and promote community-
connected care in Indian Country.

    Maintain $150 million in Mandatory Spending for the Special 
Diabetes Program for Indians. As you are well aware, communities across 
Indian Country are associated with tremendous, alarming, and 
debilitating statistics related to incidences of diabetes and diabetes-
related complications among Tribal members. The Pueblo of Santa Clara 
is no exception. SDPI is a critical program that has demonstrated 
success in reducing incidences in diabetes and end-stage renal disease 
in Tribal communities, as well as in preventing, treating, and managing 
symptoms. We strongly urge Congress to maintain the current $150 
million in SPDI mandatory funds.
               ii. effective natural resources management
    Increase Funding for BIA Disaster Recovery and Prevention Programs. 
The stewardship of land, minerals, water and other natural resources is 
key to both the economic well-being of Pueblo people and to their 
cultural survival. As Tribal leaders, we strive to balance these 
interests through beneficial partnerships and the effective management 
of our natural resources. Nature, however, chooses her own course. Our 
Pueblo has been devastated by not one but three catastrophic 
wildfires--the 1998 Oso Complex Fire, 2000 Cerro Grande Fire, and the 
2011 Las Conchas Fire. We have invested heavily in the development of 
fire preparedness and suppression resources to protect life and 
property. The BIA and other Federal agencies have worked closely with 
us to carry out these activities and address what continues to be an 
existential threat to our Pueblo. Because of these efforts, we are 
proud to say that Santa Clara is home to top-tier Tribal forestry and 
land management departments. We urge Congress to increase funding for 
BIA natural disaster recovery and prevention programs to better protect 
Tribal and Federal lands.

    Establish a BIA Emergency Response Fund. Our experiences with 
disaster relief highlight the need for Tribal nations to receive 
assistance as soon as possible following a natural disaster. For many 
Tribal governments, however, the upfront investment in emergency staff 
and services, and the high cost-sharing requirements of certain Federal 
programs present significant financial barriers. When added to the 
unavoidable bureaucratic delays in distributing funds, it often takes 
an unacceptable amount of time for communities to receive disaster 
relief at a time when quick access to resources is of the essence. With 
the increased intensity and scope of wildfires, floods, and other 
natural disasters in recent years, we anticipate the need for these 
resources will only continue to grow. For this reason, we recommend the 
creation of a BIA Emergency Response Fund. The idea behind this fund 
would be for the BIA to have readily at hand significant funding that 
can be deployed as necessary to address short- and long-term disaster 
recovery and disaster mitigation needs in Indian Country. We recommend 
an initial amount of $5 million be allocated to establish a BIA 
Emergency Response Fund within the Office of Trust Services.

    Prioritize Implementation of the Tribal Forest Protection Act 
(TFPA) in the USFS. The TFPA (Public Law 108-278) authorizes the 
Secretary of the Interior to give special consideration to tribally-
proposed Stewardship Contracting or other projects on Forest Service or 
BLM land bordering or adjacent to Tribal lands to protect trust and 
Federal resources from fire, disease, and other threats. These 
stewardship agreements are an important tool for fighting the ever-
growing threat of wildfires in the West. Empowering Tribal governments 
as caretakers to protect Tribal lands by managing adjacent Federal 
lands is a smart policy. The TFPA was authorized, however, without a 
designated funding mechanism. As a result, efforts to the implement its 
beneficial provisions have been impeded. We urge the subcommittee to 
provide $5 million in fiscal year 2019 in priority funding for the 
implementation of the TFPAwithin the U.S. Forest Service.

    Protect Wildlife with Restored Funding for the BIA Endangered 
Species Program. The effective management and conservation of our 
natural resources is not limited to the waters, soil, and trees that 
form the rich landscape of Pueblo Country. We must also account and 
appropriately care for the diversity of wildlife that is meaningful to 
our culture and essential to maintaining our ecosystems' equilibrium. 
The BIA Endangered Species Program provides Tribal nations with the 
technical assistance and financial resources to protect endangered 
species on Tribal lands through natural resources restoration and 
management, as well as economic development. We recommend Congress 
provide $3 million for the BIA Endangered Species Program in fiscal 
year 2019.

    Promote Sustainable Tribal Communities Through the EPA General 
Assistance Program. EPA funding and grants enable our Pueblo to 
administer and support an array of projects that improve the quality of 
life for our people and safeguard the natural resources that provide us 
with physical and spiritual sustenance. Without these funds, our Pueblo 
would face tremendous hurdles in delivering essential services such as 
clean drinking water and hazardous waste management to our people. 
Among the most widely utilized EPA sources of funding is the Indian 
Environmental General Assistance Program (GAP), which assists Tribal 
nations in developing the internal capacity to manage their own 
environmental protection programs. Cuts to the GAP will directly impact 
front-line environmental staff working for Tribal governments and place 
our natural and cultural resources at unacceptable risk. We support the 
GAP's spirit of greater local control, cooperative Federalism, and 
exercise of self-determination in allowing Tribal nations to manage 
their resources. We strongly urge Congress to provide full GAP funding 
to advance sustainable environmental protection measures in Indian 
Country.

    Maintain Funding for the Tribal Climate Resilience Program. Across 
America, communities are facing mounting challenges related to our 
progressively unstable natural environment. We have seen this in 
catastrophic wildfires in the southwest, debilitating snowfalls in the 
northeast, persistent droughts in the northwest, and severe floods in 
the southeast. Invasive species, disappearing tree lines, and 
accelerated rates of erosion are also taking an increasing toll on our 
agricultural and natural resources. The BIA Tribal Climate Resilience 
Program and Department-wide Landscape Conservation Cooperatives 
(administered in agencies such as the BLM, FWS, NPS, BIA, and BOR) 
provide Tribal nations with the tools to manage resource stressors and 
develop adaptive management plans. Both programs prioritize 
intergovernmental coordination to mitigate and prevent further 
environmental degradation. Continuing these programs is critical not 
only for Tribal nations, but for all Americans. We, therefore, 
recommend Congress provide $30 million for the BIA Tribal Climate 
Resilience Program and $30 million for Department-wide Cooperative 
Landscape Conservation programs.
                iii. support for tribal self-governance
    Increase Funding and Support for the Office of Self Governance 
(OSG). The Pueblo of Santa Clara is a self-governance Tribe, meaning we 
have assumed control of many Bureau of Indian Affairs functions in our 
community. We provide our Tribal members with a full range of 
governmental and social services, including Tribal education, elder 
care, public works, and traditional cultural practices to support their 
spiritual and physical well-being. OSG plays a pivotal role in 
supporting the exercise of our Tribal sovereignty by providing 
financial assistance and compacting services to the 277 Tribal nations 
participating in the program. Yet, the OSG is constantly operating at a 
deficit--both financially and in personnel--that impairs its ability to 
fully support self-governance Tribes and the delivery of essential, 
timely services to our people. We recommend that Congress provide at 
least $2 million as baseline funding for the Office of Self Governance 
to fulfill its mission in serving self-governance Tribes.
                iv. protecting tribal cultural patrimony
    Maintain the $1 million in Dedicated Funding for NAGPRA 
Implementation. The theft, trafficking, and sale in objects of Tribal 
patrimony causes immeasurable harm to our way of life. An object of 
Tribal patrimony is not meant to be simply displayed in a museum or 
hung on the wall as art. It is a vital part of the community with both 
presence and purpose. Congress has recognized the special status of 
these objects and is working closely with Tribal nations to develop 
appropriate Federal protections. The $1 million in dedicated funding 
for NAGPRA implementation in fiscal year 2017 and fiscal year 2018 is 
contributing to tremendous progress in this area. We are happy to 
report that Congress's support has translated into the creation of a 
dedicated FTE position and Bureau-wide trainings on the nuances of the 
law and the importance of Tribal patrimony. We look forward to 
continuing to expand these achievements going forward. We strongly 
encourage Congress to maintain the $1 million in direct funding for 
NAGPRA implementation in fiscal year 2019.

    Support Tribal Historic Preservation Offices (THPOs). The 
preservation of Tribal sacred and cultural sites is a priority for the 
Pueblo of Santa Clara and all of Indian Country. Such sites may be 
found in natural geographic formations or in man-made markers and 
monuments. Damage or destruction of these sites is often irreversible, 
forever altering the way in which we can express ourselves as Pueblo 
People. More Tribal nations are choosing to establish THPO equivalent 
to State offices under the National Historic Preservation Act to 
protect Tribal heritage. Our officers use their expertise to identify 
sacred and cultural sites and coordinate with the appropriate officials 
and third parties to ensure that they are conserved for future 
generations. We appreciate that Congress has stood with Tribal nations 
in rejecting proposed cuts to THPO funding and we urge the subcommittee 
to include further support for this vital program in its fiscal year 
2019 budget recommendation report.
                                 ______
                                 
          Prepared Statement of the Puyallup Tribe of Indians
    Mr. Chairman and Members of the subcommittee, thank you for the 
opportunity to provide testimony on the fiscal year 2019 appropriations 
for American Indian and Alaskan Native programs. My name is David Z. 
Bean, Tribal Council Member for the Puyallup Tribe of Indians. The 
Puyallup Tribe is an independent sovereign nation having historically 
negotiated with several foreign nations including the United States in 
the Medicine Creek Treaty of 1854. This relationship is rooted in 
Article I, Section 8, of the United States Constitution, Federal laws 
and numerous Executive orders. The governing body of the Puyallup Tribe 
of Indians is the Puyallup Tribal Council which upholds the Tribe's 
sovereign responsibility of self-determination and self-governance for 
the benefit of the 4,875 Puyallup Tribal members and the 25,000 plus 
members from approximately 355 federally recognized Tribes who utilize 
our services. The Puyallup Reservation is located in the urbanized 
Seattle-Tacoma area of the State of Washington. The 18,061-acre 
reservation is a ``checkerboard'' of Tribal lands, Indian-owned fee 
land and non-Indian owned fee land. Our reservation land includes parts 
of six different municipalities (Tacoma, Fife, Milton, Puyallup, 
Edgewood and Federal Way).
    The following written testimony being submitted to the U.S. House 
Appropriations Subcommittee documents the Puyallup Tribe's views on the 
President's fiscal year 2019 Federal budget. The focus of the written 
testimony will be on the President's proposed budget for the Bureau of 
Indian Affairs (BIA) and the Indian Health Service (IHS). Within the 
BIA budget, $2.4 billion is proposed for fiscal year 2019, a decrease 
of $317 million from the fiscal year 2018 CR level. For the IHS, $5.424 
billion is proposed, a decrease of $113 million below the fiscal year 
2018 enacted level. Included in both budgets the President proposes to 
fully fund Contract Support Costs (CSC) in fiscal year 2019. The budget 
provides $231 million for BIA CSC and $822 million for IHS CSCs. We 
appreciate the increased funding being proposed for the BIA and IHS and 
funding CSCs at 100 percent. However, the years of inadequate funding 
and the effects of inflation has impacted the Tribe's ability to fully 
exercise self-determination and self-governance. As negotiations 
proceed on the fiscal year 2019 budget and future appropriations, 
efforts to insure adequate funding is provided for Indian programs will 
be paramount. To preserve the increased funding levels realized in 
recent years and contained in the proposed fiscal year 2019 budget for 
the BIA and IHS, the increases should be viewed by Congress and the 
administration as new ``base funding'' amounts with annual increases to 
meet actual need. Specific issues and needs are;
            department of interior--bureau of indian affairs
    Public Safety & Justice: The fiscal year 2019 budget request 
includes $350 million for BIA Public Safety & Justice. This represents 
a $55 million decrease from the fiscal year 2018 enacted level. We are 
requesting support from the Subcommittee to fund Public Safety & 
Justice at the fiscal year 2018 enacted level of $405 million. The $94 
million for Tribal and BIA detention and corrections funding is of 
great importance to the Puyallup Tribe. In fiscal year 2009, the 
Puyallup Tribe received a Department of Justice ARRA grant, in the 
amount of $7.9 million to construct a 28 bed adult corrections 
facility. Construction on the facility was completed in February 2014 
and came online in May 2014. Over the past four (4) years the Puyallup 
Tribe has worked closely with the BIA-Office of Justice Services 
National and Regional staff on identifying the operating and staffing 
costs associated with the Puyallup Tribe's new adult corrections 
facility. The Puyallup Tribe submitted a Public Law 93-638 contract 
request to the B.I.A. for Operations and Maintenance funding for the 
new facility, including Pre-Award, Start-up, Transitional funding, 
Staffing and O&M funding. The agreed upon estimated cost of operating 
the facility was set at $2.6 million annually. The BIA base funding 
offered to the Tribe in fiscal year 2018 was approximately $715,136 or 
27 percent of actual need. We cannot support the President's proposed 
fiscal year 2019 funding of $94 million, for Detention & Corrections. 
The Puyallup Tribe requests support from the subcommittee to fund the 
Tribe's Adult Corrections facility at the established true cost of 
operations, estimated at $2.6 million annually. Further, we request the 
subcommittee at a minimum fund Detention & Corrections at the fiscal 
year 2018 enacted level.
    In addition, we operate a Tribal Court program through a Public Law 
93-638 contract with the B.I.A. In fiscal year 2015, our base funding 
was increased from $45,000 to $194,996 and remains this amount for 
fiscal year 2019. While this increase to our Tribal Court Base funding 
is appreciated, it does not equal the amount of Tribal funds necessary 
to fully operate the Tribal Court program. In fiscal year 2018, the 
Tribe has allocated $1.172 million of Tribal funds for the Tribal Court 
budget. The President's fiscal year 2019 budget proposes an $8 million 
reduction. We are requesting support from the subcommittee to fund the 
Tribal Courts program at the fiscal year 2018 enacted level.
    Natural Resources Management: The Puyallup Tribe as stewards for 
land and marine waters in the Usual and Accustomed fish, shellfish and 
wildlife areas has treaty and governmental obligations and 
responsibilities to manage natural resources for uses beneficial to the 
Tribal membership and the regional communities. Despite our diligent 
program efforts, the fisheries resource is degrading and economic 
losses are incurred by Native and Non-native fishermen and surrounding 
communities. Our resource management responsibilities cover thousands 
of square miles in the Puget Sound region of the State of Washington 
with an obligation to manage production of anadromous, non-anadromous 
fish, shellfish and wildlife resources. Existing levels of support are 
inadequate to reverse the trend of resource/habitat degradation. For 
fiscal year 2019, a minimum funding level of $8.562 million is 
necessary for BIA Western Washington (Bolt) Fisheries Management 
program. Increase in funding would provide new monies for shellfish, 
groundfish, enforcement, habitat, wildlife and other natural resource 
management needs. As the aboriginal owners and guardians of our lands 
and waters it is essential that adequate funding is provided to allow 
Tribes to carry-out our inherent stewardship of these resources.
    The Puyallup Tribe continues to operate a number of salmon 
hatcheries that benefit Indian and non-Indian commercial and sport 
fisheries in the Pacific Northwest/Puget Sound. We work cooperatively 
with the Northwest Indian Fisheries Commission, neighboring Tribes, 
Federal agencies and State fishery managers to insure the success and 
sustainability of our hatchery programs. The Puyallup Tribe will 
continue to advocate and secure increased funding for Fish Hatchery 
Operations and Maintenance funding. The President's fiscal year 2019 
budget proposes a $3.4 million reduction from the fiscal year 2018 CR 
level for Fish Hatcheries Operations and Fish Hatchery Maintenance. We 
request the subcommittee fund Fish Hatchery Operations and Maintenance 
programs at $10.3 million for fiscal year 2019.
    The Timber, Fish and Wildlife (TFW) Supplemental and U.S./Canada 
Pacific Salmon Treaty programs has allowed for the expansion of Tribal 
participation in the State forest practice rules and regulations and 
participation in inter-Tribal organizations to address specific 
treaties and legal cases which relate to multi-national fishing rights, 
harvest allocations and resource management practices. We request 
subcommittee support the funding recommendations of the NWIFC for the 
fiscal year 2019 TFW Supplemental program and the U.S./Canada Pacific 
Salmon Treaty program.
    Education: The Puyallup Tribe operates the pre-K to 12 Chief Leschi 
Schools which included a verified 2017-2018 School student enrollment 
of 640 + students, including ECEAP and FACE programs. With an 
increasing number of pre-kindergarten enrollment, Chief Leschi Schools 
will exceed design capacity in the near future. Additional education 
facility space will be necessary to provide quality educational 
services to the students and Tribal community. Additional, the cost of 
operation and maintenance of the Chief Leschi School facilities 
continues to increase in the areas of supplies, energy, structural and 
student transportation costs. The President's proposed fiscal year 2019 
budget request for the Bureau of Indian Education (BIE) is $741 
million, a decrease of $173 million from the fiscal year 2018 enacted 
level of $914 million. Once again the funding level does not meet the 
actual operational needs of Tribal education programs. The Tribe will 
continue to work with Congress, BIE and the National Congress of 
American Indians to increase funding in fiscal year 2019, including; 
Tribal Grant Support Cost for Tribally Operated Schools--$78 million; 
Student Transportation--$73 million; School Facilities Accounts--$109 
million in facilities operations and $76 million in facilities 
maintenance; and Indian School Equalization Formula (ISEF)--$431 
million.
    Operations of Indian Programs & Tribal Priority Allocations: The 
President's fiscal year 2019 budget is in drastic need for increased 
funding for the B.I.A. Operations of Indian Programs. Within the 
Operations of Indian Programs is the Tribal Priority Allocations (TPA). 
The TPA budget functions include the majority of funding used to 
support on-going services at the ``local Tribal'' level, including; 
natural resources management, child welfare, other education, housing 
and other Tribal government services. These functions have not received 
adequate and consistent funding to allow Tribes the resources to fully 
exercise self-determination and self-governance. Further, the small 
increases ``TPA'' has received over the past few years has not been 
adequate to keep pace with inflation. The Puyallup Tribe is requesting 
support from the subcommittee to fund the Operation of Indian Programs 
at $2.411 billion, an increase of $411 million over the President's 
proposed fiscal year 2019 budget request and TPA at the fiscal year 
2018 enacted level.
     department of health and human services--indian health service
    Inadequate funding of the Indian Health Service is the most 
substantial impediment to the current Indian Health system. The 
Puyallup Tribe has been operating healthcare programs since 1976 
through the Indian Self-determination Act, Public Law 93-638. The 
Puyallup Tribal Health Authority (PTHA) operates a comprehensive 
ambulatory care program to the Native American population in Pierce 
County, Washington. The current patient load exceeds 9,000, of which 
approximately 1,700 are Tribal members. There are no Indian Health 
Service hospitals in the Portland Area so all specialties and hospital 
care have been paid for out of our contract care allocation. The 
Purchased/Referred Care (PRC) allocation to PTHA remains inadequate to 
meet the actual need. In fiscal year 2017, the Puyallup Tribe 
subsidized PRC with a $2.8 million contribution. In fiscal year 2018, 
the Tribal subsidy has grown to $6.2 million. Given that the PTHA 
service population is only comprised of 17 percent Puyallup Tribal 
members, Tribal budget priorities in fiscal year 2011 thru 2018 has 
made continued subsidies to the PTHA financially difficult for the 
Puyallup Tribe. The fiscal year 2019 budget requests $5.424 billion in 
discretionary budget authority for the Indian Health Service. This 
represents a $384 million increase above the fiscal year 2017 enacted 
level, but $113 million below the fiscal year 2018 omnibus 
appropriations. For Health Services programs the fiscal year 2019 
budget requests funding for Clinical Services ($3.689 billion), 
Purchased/Referred Care ($955 million), Hospitals & Health Clinics 
($2.19 billion) and Contract Support ($822 million). The Puyallup Tribe 
fully supports funding increases for existing I.H.S. programs and will 
work Congress to continue efforts to increase funding for I.H.S. and 
the critical programs administered by this Agency.
                                 ______
                                 
    Prepared Statement of the Ramah Navajo School Board Inc. (RNSB)
    On an annual basis, leaders of the Ramah Navajo School Board Inc., 
(RNSB) have been presenting to the House Appropriations Subcommittee on 
Interior, Environment and related Agencies in Washington, DC. 
Unfortunately, we were not selected to testify before the subcommittee 
this year to present our oral testimony; however, we still have 
piercing, continuing needs that we would like to discuss with you, 
including: (1) Facilities Improvement Repairs; (2) School Replacement 
Construction; (3) Water System Upgrade; (4) To return BIE to the 
structure before the Reorganization; (5) To maintain fiscal year 2019 
funding at no less than fiscal year 2018 levels; and (6) Maintain long 
range school construction priority list.
    Before we begin to elaborate on each of the items, we will refresh 
your memory of the people of Ramah Navajo who live in a very remote 
area in West Central New Mexico, on the Ramah Navajo reservation which 
is in the vicinity of Pine Hill, New Mexico. Historically (1950's-
1960's), our children attended the public school in Ramah, New Mexico 
as part of the Gallup McKinley County School District. Unimproved roads 
on Ramah Navajo reservation made it difficult to transport our children 
to school; therefore a dormitory was built near Ramah public school. In 
1968, the public school in Ramah was closed and students were bussed to 
Zuni, New Mexico, 50 plus miles one way. Doing this left Ramah Navajo a 
few options: bus the children an additional 3 hours per day, or to send 
their children to distance boarding schools located many miles away 
from their homes. Neither option was acceptable to the Ramah Navajo 
People.
    Later in 1970, the Ramah Navajo people had a vision, and 
determination to control their own destiny, in regards to educating 
their own children. After consideration of all options, a delegation of 
five (5) Navajo elders, who were the founding members of the RNSB, 
petitioned Congress for assistance in forming their own educational 
facility. They were successful in the endeavor, which eventually led to 
the creation of the ``Indian Self Determination Act'' of Congress. All 
buildings were turned over to Bureau of Indian Education (BIE) and the 
Bureau of Indian Affairs (BIA) for maintenance and repair, but BIE has 
been very lax in the performance of their trust responsibilities, which 
includes insufficient money to properly maintain our buildings and 
infrastructure.
(1) Facilities Improvement Repairs
    The majority of our buildings are nearly (50) fifty years old and 
the current work orders entered in MAXIMO have a projected cost over 
(5) five million dollars. In 2015, the school library and Kindergarten 
buildings were closed due to black mold and water damage in both 
buildings. The two buildings remain closed today, not usable by the K-
12 students. The gymnasium remains open however; the ceiling condition 
poses serious health concerns due to the fiberglass insulation that is 
uncovered which allows air borne particles to enter the atmosphere. We 
also have water damage and black mold problems throughout the 
buildings.
    While examining the MAXIMO entries we find that, over the past 
three (3) years, multiple entries were made for the library, 
kindergarten building and the gymnasium totaling $2,952,786 for costs 
to repair these three (3) buildings:

                PRIORITY REPAIR PROJECTS: THREE BUILDINGS
 
 
 
Library Repairs.....................................  $823,478
Kindergarten Repairs................................  $298,407
Gymnasium Repairs...................................  $1,830,901
                                                     -------------------
    Total Costs of Building Repair..................  $2,952,786
 


    Proposed Public Lands Infrastructure Fund. We sincerely appreciate 
that BIE-funded schools are included among the national parks and 
national wildlife refuges as eligible for repairs and improvement 
funding from the Trump administration's proposed Public Lands 
Infrastructure Fund, however, we do have a number of questions and 
concerns, including the following: (1) It is uncertain whether the 
Public Lands Infrastructure Fund will garner Congressional support in 
order to move forward; (2) Assuming that the Fund gains such support, 
revenue projections are unpredictable and would require significant 
increases in energy leases and development on public lands to achieve 
the projected revenue streams; and (3) Royalty rates from energy leases 
are decreasing, making it unlikely that revenue will increase above the 
fiscal year 2018 baseline in the near future. We respectfully ask that 
the subcommittees provide full, consistent funding for Facilities 
Improvement and Repair and should additional funds become available 
from the proposed Public Lands Infrastructure Fund to address the BIE 
School System's $634 million maintenance backlog, we do not object.
(2) School Replacement Construction: Estimated Square Footage: 186,000
    In light of our buildings being nearly fifty (50) years old, and 
considering the overall condition of those buildings, a new school 
would be a wiser decision, financially, rather than continuing to 
repair old, deteriorating facilities. Even with the requested funding 
for repairs, our buildings will still be in violation of existing laws, 
including health and safety, ADA and Environmental regulations. These 
building have exceeded their effective life.

        Estimated Cost of a Replacement School: $86,393,213
(3) Water System Upgrade
    Our water system is also antiquated; it remains an ongoing 
challenge to insure that sufficient water is available to satisfy the 
school, clinic and community. There were many days that the classroom 
temperature was either so cold, or there was insufficient water to 
support the student's needs; in those situations, we had no option but 
to send our students home for their safety and wellbeing. We have 
recently been notified by the BIE Safety Specialist that our water 
system lacks the capacity, and production, to adequately operate our 
fire suppression system on campus. Evaluation of the current water 
system and estimated costs to upgrade the system and insure its 
reliability, including wells, Pumps, Water lines, Tanks and Water 
Treatment Plant are as follows:

                          WATER SYSTEM UPGRADE
 
 
 
Pre-Engineering Report..............................  $150,000
Design and Engineering..............................  $500,000
Construction........................................  $3,500,000
                                                     -------------------
    Total Cost of the Water System Upgrade..........  $4,150,000
 


(4) Return BIE to the Structure Before the Reorganization
    RNSB is steadfast in its commitment to self-determination and 
believes that top-down reorganizations of offices, programs, and 
budgets by the BIA and BIE run counter to the principles of local 
control of local affairs. Since the earliest proposals were put forward 
to reform and reorganize the BIE, we have filed letters and testimony 
expressing our concerns. As the BIE Reorganization continues to move 
forward, we continue to have concerns both with the process and content 
of the Reorganization. In particular, the BIE reorganization process 
has made clear that moving boxes around on an organizational chart does 
not change organizational performance. Rather, a targeted focus on 
improving services is what will make the difference. We respectfully 
request that the BIE be returned to its original structure before the 
Reorganization began to be implemented and that the Department of 
Interior establish an advisory committee for its Indian education 
programs that is made up of local tribal school officials whose schools 
operate under Public Law 93-638, the Tribally Controlled Grant School 
Act (Public Law 100-297) and other authorities. Such an advisory body 
will help foster school-based reforms that would benefit students. 
Additionally, on an ongoing basis, an advisory committee will help 
improve communication, coordination and policy direction for Indian 
education.
(5) Maintain Funding at No Less Than fiscal year 2018 Levels and 
        Protect the FACE Program
    The Bipartisan Budget Act of 2018 was enacted on February 9, 2018, 
as Public Law 115-123. This law, among other things, increased the 
domestic discretionary budget cap for both fiscal year 2018 and fiscal 
year 2019. For 2018, we are deeply grateful to the subcommittees for 
rejecting the Trump administration's proposed budget cuts and for 
adding important increases under Education Construction for: 
Replacement School Construction; Replacement Facility Construction; and 
Facilities Improvement and Repair. These increases mean that faster 
progress can be made on the 2004 and 2016 Replacement School Priority 
Lists. Given that the discretionary spending cap was increased for 
fiscal year 2019 as well, we respectfully ask the subcommittees to 
continue the robust levels of funding for Education Construction and to 
reject the harmful proposals from the Trump administration to zero out 
important programs such as the Early Childhood and Family Development 
BIE budget category commonly referred to as the ``FACE'' program. The 
FACE program is designed to: (1) strengthen family-school-community 
relations, (2) increase parent participation in education, and (3) 
support parents in their role as a child's first and most important 
teacher. We run a successful FACE-funded program that plays a key role 
in preparing young children for a successful education. We were shocked 
and saddened to see that the administration's proposal to zero this 
critical program out.
(6) Maintain a Long Range School Construction Priority List
    We would first like to thank the subcommittees for providing 
important increases for Replacement School Construction; Replacement 
Facility Construction; and Facilities Improvement and Repair and for 
pressing the administration to draft the next School Replacement List 
and engage in long-range building replacement planning. Unfortunately, 
there are unsafe and decrepit schools all across Indian Country that 
desperately need to be on this next list. We believe that the only way 
this problem can be addressed is through good planning, oversight and 
robust, consistent funding. We respectfully ask the subcommittees to 
continue to provide robust funding each year and to continue to press 
the administration not only to draft the replacement list but to create 
a detailed lifecycle and replacement plan for all BIE school system 
facilities.
Conclusion
    All these many years, we have maintained our vision and 
determination to control our own destiny when it comes to educating our 
own children. To this end, we work to nurture and develop students who 
will meet the challenges of today's ever changing society while 
perpetuating their culture and language. We ask that Congress uphold 
its trust and treaty responsibility and be our partner in this 
endeavor. Thank you for the opportunity to provide written testimony on 
these critical matters. Please contact Ramah Navajo School Board Inc. 
President Marlene Martinez at: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4429253628212a2104362a37266a2f75766a2a296a3137">[email&#160;protected]</a> with any 
questions.
                                 ______
                                 
              Prepared Statement of the Recording Academy
    My name is Neil Portnow, I am the President/CEO of the Recording 
Academy, an organization that represents 23,000 individual music 
creators and professionals--songwriters, performers, studio 
professionals, and others creatively involved in making music. I 
appreciate the opportunity to submit this testimony to the Senate 
Committee on Appropriations Subcommittee on Interior, Environment, and 
Related Agencies and thank the Members of the committee for their 
efforts to fully fund the National Endowment for the Arts (NEA) for 
fiscal year 2018.
    For fiscal year 2019, the Recording Academy requests that the 
subcommittee funds the NEA at no less than $155 million.
    As appropriators you are tasked with difficult decisions, but as 
you set spending levels for the next year, please remember, as you did 
for fiscal year 2018, why we must continue to support the arts. 
American culture is our identity. Music and art make our Nation strong 
and prosperous. It gives value to us as a nation beyond defined 
borders, ensuring that America continues to be, to borrow a phrase from 
American literature and invoked by President Reagan, the ``shining city 
on a hill.''
    For less than $1 per American per year, funding the NEA is truly 
one of the most financially-sound investments our country makes. In 
2016, NEA funds yielded more than $500 million in matching support--
leveraging outside funds at a ratio of 9:1. The agency is at the center 
of our creative economy--a $700 billion industry that accounts for a 
larger share of our GDP than the American construction or 
transportation sectors. And with a $26 billion trade surplus, the 
American arts industry serves as a powerful ambassador abroad; it 
teaches our shared values and history in compelling ways, and it 
connects us as a people and as a world.
    When it comes to music, the NEA has been invaluable to the 
development of music creators across the country, while helping 
preserve America's rich music culture. The agency has provided more 
than $400 million in funding to domestic music programs--from teaching 
kids how to play an instrument to supporting festivals of international 
acclaim. The NEA is an essential part of American music culture, and it 
must be funded to ensure that Americans in all congressional districts 
can continue to enjoy and participate in our rich musical and cultural 
heritage.
    That is why I implore you and your colleagues in Congress to fully 
fund the NEA at a level of no less than $155 million for fiscal year 
2019. Help protect and renew America's commitment to the arts and to 
music. It's our collective responsibility to preserve what binds us and 
to ensure that the whole world continues to benefit from one of our 
most unique and economically and spiritually important assets--and 
exports: American music.

For Additional Information

Michael Lewan
Director of Government Relations
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cf82a6aca7aeaaa3e183aab8aea18fbdaaaca0bdaba6a1a8aeacaeabaaa2b6e1aca0a2">[email&#160;protected]</a>
                                 ______
                                 
    Prepared Statement of the Regional Air Pollution Control Agency

April 26, 2018

The Honorable Lisa Murkowski
Chair
Subcommittee on Interior, Environment, and Related Agencies
U.S. Senate
Dirksen Office Building, SD-131
Washington, DC 20510

Senator Murkowski:

    This letter is written to express this agency's concern with the 
administration's fiscal year 2019 budget request to Congress which 
calls for steep cuts in funding to EPA, including a 33-percent 
reduction in Federal grants to State and local air pollution control 
agencies under Sections 103 and 105 of the Clean Air Act (CAA), for a 
total of $152 million. Such cuts would be devastating for many 
programs, including to the Regional Air Pollution Control Agency 
(RAPCA) in Dayton, Ohio.
    RAPCA appreciates the work by Congress to avoid budget cuts to 
State and local clean air agencies in fiscal year 2018, however RAPCA 
urges Congress to approve additional funding in fiscal year 2019 to 
carry out our important public health responsibilities.
    Federal grants to State and local air quality agencies are the same 
now as they were 14 years ago in fiscal year 2004--$228 million. If 
adjusted for inflation, level funding would translate to approximately 
$303 million in today's dollars. Therefore, we ask Congress to increase 
State and local air grants by $75 million above fiscal year 2018 levels 
(i.e., approximately $151 million above the administration's request), 
for a total of $303 million.
    RAPCA is part of the Public Health--Dayton and Montgomery County 
organization and is the local air pollution control agency serving 
Clark, Darke, Greene, Miami, Montgomery and Preble counties in 
southwest Ohio. RAPCA is directly funded by U.S. EPA to implement the 
Clean Air Act and we work closely with Ohio EPA to accomplish the 
functions of issuing required air permits, conducting facility 
inspections and monitoring air quality, among other Clean Air Act 
requirements.
    While great strides have been made in cleaning up the environment, 
air pollution remains a serious threat to public health. It causes tens 
of thousands of premature deaths in our country every year, as well as 
tens of millions of cases of adverse health impacts, such as cancer and 
damage to respiratory, cardiovascular, neurological and reproductive 
systems. Under the Clean Air Act, State and local air pollution control 
agencies have the ``primary responsibility'' for preparing 
implementation strategies to address air pollution problems. These 
tasks include, among others, air quality monitoring, planning and 
modeling, compiling air emission inventories, adopting regulations, 
analyzing data, and inspecting facilities. In southwest Ohio, for 
example, we are particularly concerned about ozone pollution and 
assuring compliance of high-profile facilities such as the Stony Hollow 
Landfill and the Fairborn Cement Plant in addition to being responsive 
to industry business needs with regards to assisting facilities with 
obtaining requisite construction air permits. Accordingly, we work with 
the local Multi-Jurisdictional Planning Organization (MPO), the Miami 
Valley Regional Planning Commission to issue ozone air pollution 
advisories to alert the public when needed, as well as performing 
enhanced inspections and ambient air monitoring of high-profile 
facilities, in addition to meeting ``routine'' Clean Air Act 
requirements.
    There are many challenges facing our agency in meeting the Clean 
Air Act requirements. Reductions in staffing levels and training, as 
well as staff retirements and retention are major obstacles to 
accomplishing our mission to protect public health. Since 2012, RAPCA 
has reduced staff by over 30 percent and additional cuts of the 
magnitude proposed by the administration would devastate our program 
and our ability to protect vulnerable populations from the harmful 
effects of air pollution as well as provide timely services to the 
regulated communities.
    Maintaining the air pollution control program locally provides 
stakeholders in our region with opportunities for input to a local 
entity responsible for the air program. RAPCA staff is committed to 
serving the community in which we live and dedicated to being more 
responsive to the requests from the public, the media, the business 
community, and to providing timelier service than the State. RAPCA is 
part of the Dayton region and we seek to improve the quality of life 
for all residents.
    RAPCA is doing its best to improve air quality and provide quality 
services to the regulated community but adequate Federal funding is 
critical. Please help promote public health by ensuring Federal grants 
to State and local air quality agencies are increased to keep pace with 
inflation. RAPCA recommends Congress provide fiscal year 2019 grants in 
the amount of $303 million ($151 million above the administration's 
request) to maintain level funding from fiscal year 2004 levels, 
adjusted to inflation. Thank you for any assistance you can offer in 
this matter.

Sincerely,

Jennifer Marsee, RAPCA Administrator

cc:
Chairs of Appropriations Committees
Chairs of Interior, Environment, and Related Agencies Subcommittees

Senator Rob Portman, Ohio
Senator Sherrod Brown, Ohio
Congresswoman Marcy Kaptur, 9th District of Ohio
Congressman Michael Turner, 10th District of Ohio
Congressman David Joyce, 14th District of Ohio
Congressman Warren Davidson, 8th District of Ohio
                                 ______
                                 
         Prepared Statement of the Restore America's Estuaries
    Restore America's Estuaries is a nonpartisan, nonprofit 
organization that has been working since 1995 to restore our Nation's 
greatest estuaries. Our mission is to restore and protect estuaries as 
essential resources for our Nation. Restore America's Estuaries is an 
alliance of community-based coastal conservation organizations across 
the Nation that protect and restore coastal and estuarine habitat. Our 
member organizations include: American Littoral Society, Chesapeake Bay 
Foundation, Coalition to Restore Coastal Louisiana, Save the Sound--a 
program of the Connecticut Fund for the Environment, Galveston Bay 
Foundation, North Carolina Coastal Federation, EarthCorps, Save The 
Bay--San Francisco, Save the Bay--Narragansett Bay, and Tampa Bay 
Watch. Collectively, we represent over 250,000 members nationwide.
    As you develop the fiscal year 2019 Interior, Environment and 
Related Agencies appropriations bill, Restore America's Estuaries and 
our members encourage you to provide the following funding levels 
within the Department of Interior, U.S. Fish and Wildlife Service 
(USFWS) and the U.S. Environmental Protection Agency (USEPA) for core 
programs that significantly support coastal community and ecosystem 
resilience and local economies:

  --$15 million for USFWS Coastal Program
  (Interior: USFWS: Resource Management: Habitat Conservation: Coastal 
Program)
  --$27 million for USEPA National Estuary Program
  (USEPA: Water: Ecosystems: National Estuary Program/Coastal 
Waterways)

    These non-regulatory investments strengthen and revitalize 
America's coastal communities by protecting and restoring habitat, 
improving local water quality, and enhancing resilience. Healthy 
coastlines protect communities from flood damage and extreme weather, 
improve commercial fisheries, safeguard vital infrastructure, and 
support tourism and recreational opportunities.
                         usfws coastal program
    The Coastal Program (CP) is a voluntary, incentive-based program 
that provides technical and financial assistance to coastal communities 
and landowners to protect and restore fish and wildlife habitat on 
public and private lands in 24 priority coastal ecosystems throughout 
the United States, including the Great Lakes. The Coastal Program works 
collaboratively within the USFWS to coordinate strategic priorities and 
make landscape-scale progress with other Federal, State, local, and 
non-governmental partners and private landowners. Since 1985, the 
Coastal Program has:

  --Partnered with more than 5,000 Federal, Tribal, State, and local 
        agencies, non-governmental organizations, corporations, and 
        private landowners.
  --Restored 557,790 acres of wetland and upland habitat and 2,625 
        miles of stream habitat.
  --Protected more than 2.1 million acres of coastal habitat.
  --Provided technical assistance to a diverse range of conservation 
        partners.

    Our coastal communities and ecosystems are on the front lines of 
changing coastal conditions and increasing extreme weather. Support for 
the USFWS Coastal Program helps interested communities and partners 
address the new set of challenges facing coastal communities. The 
Coastal Program is the USFWS's key conservation tool delivering on-the-
ground habitat restoration and technical assistance. Despite the 
Program's relatively small cost, it has a tremendous impact. In 2015 
alone, the Coastal Program, along with 455 local partners, completed 
266 projects restoring or protecting more than 90,000 acres of wetlands 
and uplands and 194 miles of stream habitat. A recent estimate by USFWS 
Coastal Program staff shows that the program leverages, on average, $8 
non-Federal dollars for every Federal dollar spent. This makes the 
Coastal Program one of the most cost-effective habitat restoration 
programs within the U.S. Fish and Wildlife Service.
    The Coastal Program stimulates local economies by supporting jobs 
necessary to deliver habitat conservation projects, including 
environmental consultants, engineers, construction workers, surveyors, 
assessors, and nursery and landscape workers. These jobs generate 
indirect economic activities that benefit local hotels, restaurants, 
stores, and gas stations. In total, the Coastal Program estimates that 
the average project supports 60 jobs and stimulates 40 businesses 
resulting in nearly thirteen dollars in economic returns for each 
dollar of Federal investment. Additionally, restoration jobs cannot be 
outsourced and $0.90 of every dollar spent on restoration stays within 
the State.
    In Puget Sound, Washington, the Coastal Program invested $20,000 to 
support a project to clean up and remove old and abandoned fishing gear 
from the water, resulting in a direct economic impact to the local 
economy of $51,000. Lost and abandoned fishing gear like nets, lines, 
crab and shrimp traps pose many problems for people, fish and marine 
animals. Each year, derelict crab pots are estimated to trap and kill 
372,000 Dungeness crabs, resulting in losses to the fishery of $1.2 
million--30-40 percent of the value of the annual commercial catch of 
Dungeness crab in Puget Sound. This project removed 84 gillnets--
preventing the loss of approximately 370,000 crabs and returning an 
estimated value of well over $1.5 million to the crab fishery alone.
    In San Diego Bay, California, the Coastal Program provided funding 
and technical assistance to project partners to restore 300 acres of 
wetland, mudflat, and upland habitat to benefit more than 90 species of 
resident and migratory birds. Project partners transformed highly 
degraded salt ponds into lush habitat by breaching levees, regrading 
soils, and planting native vegetation. Just days after the completion 
of the project, tens of thousands of birds descended on the newly-
restored habitat to rest, roost, and feed. Not only did this project 
restore a ``Globally Important Bird Area,'' as designated by the 
American Bird Conservancy, but it also created 130 jobs and generated 
$13.4 million for the local economy.
    At recent funding levels of approximately $13.4 million, the 
Coastal Program is able to provide technical assistance and support to 
partners, but can only provide limited project dollars. A modest 
increase over the amount included in the fiscal year 2017 Omnibus would 
help the Coastal Program increase their capacity to leverage willing 
and interested partners to deliver highly-effective and site specific 
habitat conservation and restoration programs that prevent Federal 
listing of species, promote species recovery, enhance coastal 
resilience, and boost local economies.

Restore America's Estuaries urges your continued support and funding 
for the USFWS Coastal Program and asks that you provide $15 million for 
fiscal year 2019.
                     usepa national estuary program
    The National Estuary Program (NEP) is a non-regulatory network of 
voluntary community-based programs that safeguards the health of 
important coastal ecosystems across the country. The program utilizes a 
consensus-building process to identify goals, objectives, and actions 
that reflect local environmental and economic priorities.
    Currently there are 28 estuaries located along the Atlantic, Gulf, 
and Pacific coasts and in Puerto Rico that have been designated as 
estuaries of national significance. Each National Estuary Program 
demonstrates real environmental results through on-the-ground habitat 
restoration and protection and their efforts are tailored to the 
specific local environmental and economic realities. Collectively, NEPs 
have restored more than 1.5 million acres of land since 2000.
    NEPs work to ensure that Federal agencies work together with State, 
regional, NGO, and private partners to better manage ocean and coastal 
resources for the benefit of the Nation. Community partners are 
involved throughout the decisionmaking process to reduce conflicts, 
redundancies, and inefficiencies that waste time and money, and to 
ensure that restoration and conservation efforts are stakeholder-
driven. NEPs play a key role in implementing national policies that 
result in better, more cost-effective coastal management that benefits 
States and local communities.

Restore America's Estuaries urges your continued support of the 
National Estuary Program and asks that you provide $27 million for 
USEPA National Estuary Program/Coastal Waterways in the fiscal year 
2019 cycle.
                               conclusion
    Restore America's Estuaries greatly appreciates the support this 
subcommittee has provided in the past for these important programs. 
These programs effectively accomplish on-the-ground restoration work 
which results in major benefits:

    1.  Economic Growth and Jobs.--Coastal habitat restoration creates 
between 17 and 33 direct jobs for each million dollars invested, 
depending on the type of restoration. That is more than twice as many 
jobs as the oil and gas sector and road construction industries 
combined. The restored area supports increased tourism and valuable 
ecosystem services, including flood mitigation, shoreline protection, 
and enhanced fisheries, among others.
    2.  Leveraging Private Funding.--In 2015, Federal investment in the 
USFWS Coastal Program leveraged non-Federal dollars at a ratio of 34 to 
1. The NEPs leveraged non-Federal dollars at a ratio of 15 to 1. In a 
time of shrinking resources, these are rates of return we cannot afford 
to ignore.
    3.  Resiliency.--Restoring coastal wetlands knocks down storm waves 
and reduces devastating storm surges before they reach the shore, 
protecting lives, property, and vital infrastructure for the nearly 40 
percent of Americans that live in coastal communities.

    We greatly appreciate you taking our requests into consideration as 
you move forward in the fiscal year 2019 appropriations process. We 
stand ready to work with you and your staff to ensure the health of our 
Nation's estuaries and coasts.

    [This statement was submitted by Jeffrey R. Benoit, President and 
CEO.]

Contact information:

Leigh Habegger
External Affairs Senior Manager
Restore America's Estuaries
2300 Clarendon Blvd., Suite 603
Arlington, VA 22201
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b0dcd8d1d2d5d7d7d5c2f0d5c3c4c5d1c2d9d5c39edfc2d7">[email&#160;protected]</a>
                                 ______
                                 
   Prepared Statement of the Riverside-San Bernardino County Indian 
                              Health, Inc.
    I am Teresa Sanchez and I am the Board Vice-President for 
Riverside-San Bernardino County Indian Health, Inc. located in Southern 
California. I am also a member of the California Area Tribal Advisory 
Council and a member of the Morongo Band of Mission Indians. Thank you 
for the opportunity to testify concerning the health needs of Tribal 
beneficiaries in southern California.
    We are thankful for the support of Congress and the funding 
provided by the Subcommittee in the recently enacted fiscal year 2018 
Consolidated Appropriations Act, Public Law 115-141, to improve the 
health status of our people. This is why it is so disappointing to see 
that funding for Community Health Representatives (``CHRs'') has been 
eliminated from the President's 2019 budget for the Indian Health 
Service (IHS). We are adamantly opposed to such cuts, as the CHR 
program has been one of the most successful during our 50 years of 
operation. We also oppose the elimination of the Health Education 
program.
    Our organization provides services to Native Americans across two 
of the largest counties in the Country. We employ nine CHRs that are a 
critical part of our program. Each CHR is specifically trained in home 
healthcare and they fill an important gap, providing care to patients 
outside the Doctor's office. For instance, CHRs:

  --Ensure patients follow the Doctor's orders, such as eating 
        properly, taking their Medications timely and appropriately, 
        and exercising when needed;
  --Talk through tough healthcare decisions with patients; and
  --Direct patients to outside resources, such as local food pantries 
        or housing assistance.

    The list could go on and on. The loss of CHRs would be simply 
devastating to many Native American Communities that are located far 
from health clinics in urban areas. We therefore ask this Committee to 
keep the CHR and the Health Education program fully funded for fiscal 
year 2019 and thereafter.
    Another serious and long-term problem we face is the lack of IHS 
facilities construction funding. The three main IHS construction 
programs have largely excluded California Tribes.
    For instance, Tribes often sit on the priority list for decades 
without ever receiving funds to build a new clinic. While the fiscal 
year 2018 Appropriations Act contained $497 million of new IHS 
construction funding, half of these funds were designated for Joint 
Venture Construction projects and related staffing packages. No 
California Tribes were approved for such projects, leaving almost no 
new money for California and no associated staffing dollars. Indeed, 
only one California Tribe has ever participated in the Joint Venture 
Program, and that was many years ago. Why? Because IHS developed the 
selection criteria without consulting with California Tribes.
    Additionally, the 2017 Appropriations Act capped funding for the 
Small Ambulatory clinic program at $5 million, so no California Tribes 
received grants from the program that year. We appreciate that the 
subcommittee has identified $15 million for small ambulatory clinics 
construction in the fiscal year 2018 omnibus measure, within the 
$243.48 million appropriation for Health Care Facilities Construction. 
Our request is simple. We need help getting construction funds to 
California Tribes. We would like to see California Tribes receive a 
share of the fiscal year 2018 small ambulatory clinic and other IHS 
construction funds to address healthcare facility space needs in our 
Tribal communities.
    Lastly, we need help getting the Bureau of Indian Affairs (BIA) to 
complete a lease of our clinic land. We have previously expressed our 
concerns regarding the BIA's lack of responsiveness and delays in 
processing this lease. Members of the House of Representatives, 
Congressmen Aguilar, Garamendi and the Staff of Congressman Ruiz and 
Congresswoman McCollum heard our concerns and agreed to write a letter 
to the BIA. We thank them for their help in removing these barriers.
    Thank you for affording the Riverside-San Bernardino County Indian 
Health, Inc. the opportunity to submit testimony.
                                 ______
                                 
              Prepared Statement of the Sac and Fox Nation
    On behalf of the Sac and Fox Nation thank you for the opportunity 
to present our requests for the fiscal year 2019 budgets for the Bureau 
of Indian Affairs (BIA), the Indian Health Service (IHS), and for the 
Environmental Protection Agency (EPA). The Sac and Fox Nation is home 
of Jim Thorpe, one of the most versatile athletes of modern sports who 
earned Olympic gold medals for the1912 pentathlon and decathlon.
    Like all Self-Governance Tribes, we were impacted by the Federal 
Government's refusal to pay full contract support costs (CSC) for 
contracted and compacted programs since the statue was enacted. We 
appreciate that all arrearages are now up to date and ask that CSC be 
fully paid annually under the new budget structure without imposing any 
corresponding reduction in direct services to any Tribe. We continue to 
request full funding for CSC on a mandatory basis and that these funds 
will be made a permanent, indefinite appropriation.
    In general, all Tribal programs especially BIA and IHS line items 
should be exempt from any budget recessions, sequestrations and 
unilateral budget reductions that are not equally assessed to other 
funding beneficiaries.
Tribal Specific Requests:
    A.  +$35,000 increase to our Tribal General Assistance Program 
(GAP)--EPA--The GAP program the Sac and Fox Nation is currently 
administering is $125,000. It was announced April 9, 2019 that the 
program will be cut by $10,000 (8 percent) for fiscal year 2019.
    B.  +$20,000 increase to our solid waste and recycling funding and 
request to lift the 2020 Moratorium on solid waste and recycling under 
the GAP--EPA.
    C.  +$35,000--EPA--The country's largest system of pipeline 
infrastructure (the ``Pipeline Crossroads of the World'' in Cushing 
Oklahoma) is in Sac and Fox jurisdiction and we need funding to monitor 
our natural resources and ensure the safety of our citizens.
    D.  $5.35 million to Fully Fund Operations and Maintenance of the 
Sac and Fox Nation Juvenile Detention Center (SFNJDC)--Public Safety 
and Justice--Office of Justice Services--Detention/Corrections Facility 
Operations and Maintenance Account--BIA.

                        TRIBAL SPECIFIC REQUESTS

A. +$35,000 TO OUR TRIBAL GENERAL ASSISTANCE PROGRAM (GAP)--EPA
    We request a $35,000 increase to support sufficient staff (1.5-2 
FTEs) and to meet the needs of the community. The demand for Office of 
Environmental Services has escalated and created a shortage of 
available resources to fulfill the demand.
B. +$20,000 INCREASE TO FUND SOLID WASTE AND RECYCLING
    In May of 2013, the U.S. EPA released the GAP Guidance, to help set 
a national framework for how GAP funding may be used. Included was the 
directive that GAP funds could no longer be spent on the operation and 
maintenance of solid waste implementation activities, including the 
construction of facilities, trash collection, transportation, backhaul, 
and disposal services. EPA required that Tribes build self-sustaining 
solid waste programs supported by other funding sources by 2017. Tribal 
leaders, community representatives, regional and statewide communities 
made their concerns known to the EPA and expressed deep concern that 
the 2017 deadline would be too quick to transition to an alternative 
model to fund solid waste management. A key message by Tribal leaders 
was that no other funding sources were set in place of GAP to cover the 
services that Tribes had been providing for their communities since 
2002. The issue was brought before Congress in 2015 and in the fiscal 
year 2016 Consolidated Appropriations Act an extension was granted, 
giving Tribes until 2020 to transition to different funding sources for 
their solid waste operations and backhaul. Beginning in fiscal year 
2021, Tribal solid waste programs will no longer be able to use GAP 
funds for these specific efforts. EPA recently announced during the 
last Tribal Environmental Coalition in Oklahoma meeting on 3/27/18, 
that the 2020 Moratorium is being lifted. Sac and Fox Nation supports 
removing/lifting of the 2020 moratorium that will no longer prohibit 
the use of GAP funding to support solid waste programs.
C.  +$35,000--PIPELINE CROSSROADS OF THE WORLD--LOCATED IN THE SAC AND 
        FOX JURISDICTION NEEDS FUNDING TO ENSURE THAT WE CAN MONITOR 
        OUR NATURAL RESOURCES AND ENSURE THE SAFETY OF OUR CITIZENS
    While many owners and operators of the pipelines in and around 
Cushing believe there is no legal obligation to work with Tribes, the 
Sac and Fox Nation feels very differently and expect the United States 
to uphold its treaty and trust obligation to ensure the health and 
safety of our Tribal citizens. The environmental impacts to our 
community are significant and life threatening, and have sometimes been 
fatal. Oil is frequently referred to as the ``sacred cow'' but our most 
``sacred is our people''! Tribes continue to believe that it is the 
responsibility of the United States Government to honor the trust 
responsibility and protect us from environmental pollution, yet our 
pleas for help continue to fall on deaf ears. It is unfortunate that we 
have to seek legal remedies while our people continue to be subject to 
contamination of our soil and water.
D.  $5.35 MILLION TO FULLY FUND OPERATIONS AND MAINTENANCE OF THE SAC 
        AND FOX NATION JUVENILE DETENTION CENTER (SFNJDC)--BUREAU OF 
        INDIAN AFFAIRS--PUBLIC SAFETY AND JUSTICE--OFFICE OF JUSTICE 
        SERVICES--DETENTION/CORRECTIONS FACILITY OPERATIONS AND 
        MAINTENANCE ACCOUNT
    The Tribal Law and Order Act (TLOA) requires the Department of the 
Interior (DOI)--Indian Affairs (IA) to develop guidelines for approving 
correction centers for long term incarceration, as well as work with 
the Department of Justice on a long-term plan for Tribal detention 
centers. In the absence of appropriations to fully fund and fully 
implement TLOA, the intent of Congress and the effectiveness and 
benefits of TLOA to Tribal courts, law enforcement and detention 
programs in Indian Country are less of a reality and more of what 
Tribes have experienced in the past--an unfulfilled trust obligation. 
We do not understand the Federal Government's desire to fund the 
construction of more detention facilities while our beds remain empty.
    In 1996, the Sac and Fox Nation Juvenile Detention Center (SFNJDC) 
opened its doors as the first regional juvenile facility specifically 
designed for American Indians/Alaska Natives (AI/AN), as well as the 
first juvenile facility developed under Public Law 100-472, the Self-
Governance Demonstration Project Act. At that time, the BIA made a 
commitment to fully fund the SFNJDC operations; however this commitment 
was never fulfilled. Even though the Nation continues to receive and 
use Federal dollars to address the issue of juvenile delinquency and 
detention for Tribes in the Southern Plains Region and Eastern Oklahoma 
Region, it has never received sufficient funds to operate the facility 
at its fullest potential. As with all Tribal programs, ours is 
indicative of the ``trickle-down effect'' resulting in limited funding 
to pay for incarceration fees coupled with even less capability to 
transport juveniles to be transferred to our facility.

    Full funding would allow the Nation to provide full operations 
including (but not limited to):

  --Juvenile detention services to the 46 Tribes in Oklahoma, Kansas, 
        Texas and Louisiana;
  --Rescue more of our at-risk youth and unserved youth in need of a 
        facility like the SFNJDC;
  --Re-establish programs we have lost due to inadequate funding such 
        as: On-site Mental Health Counseling; Transitional Living, 
        Vocational Training, Horticulture, Life Skills, Arts and 
        Crafts, Cultural Education and Activities, Spiritual Growth and 
        Learning;
  --Offer job opportunities in an area that is economically depressed; 
        and,
  --Fully staff and expand staff training to address high volume of 
        staff turnover which will allow for continuity in operations 
        and service delivery.

    The lack of adequate funding from the BIA and decreases in base 
funding have mushroomed into underutilization and erosion of the 
programs our facility was built to offer. The current funding level 
represents only approximately 10 percent of what is needed to fully 
fund the SFNJDC operations and maintenance. Additional funding in the 
amount of $5.35 million, over what Sac and Fox already receives in base 
funding ($508,000), would fully fund the facility at a level to address 
the need of juvenile delinquency in the quad State area and create 
opportunities for employment for more Tribal members.
    The SFNJDC is a 50,000+ square foot, full service, 24 hour, 60 bed 
(expandable to 120 beds) juvenile detention facility that provides 
basic detention services to all residents utilizing a classification 
system based on behavioral needs to include special management, medium 
and minimal security.
    Through a partnership with the local High School, students are 
afforded an education at the public school level, including a 
graduation ceremony and issuance of a certificate upon successfully 
achieving the State requirements. Additionally, the Sac and Fox Nation 
has an on-site Justice Center providing Law Enforcement and Tribal 
Court services and the Nation also operates an on-site health clinic 
which provides outstanding medical services that include contract 
service capabilities for optometry, dental and other health-related 
services.
2. NATIONAL REQUESTS--BUREAU OF INDIAN AFFAIRS
    A.  Concern: lack of access to administrative law judges for 
probate.
    B.  The Sac and Fox Nation was one of the first Tribal governments 
to implement VAWA. But, we cannot take full advantage of VAWA because 
we don't have the funding to pay for incarceration/rehabilitation for 
individuals convicted under VAWA.
    C.  Fully fund all provisions of the TLOA that authorizes 
additional funding for law and order programs that affect Tribal 
nations.
    D.  Allocate $83 million in additional funding to the BIA to 
increase base funding for tribal courts, including courts in Public Law 
280 jurisdictions, and to incrementally move towards fully meeting the 
need for Tribal court funding.
    E.  Increase funding for Bureau of Indian Affairs (BIA) law 
enforcement and detention by at least $200 million over the fiscal year 
2017 funding level of $353 million, including an increase in funds for 
officer recruitment and training and for Tribal detention facilities 
operations and maintenance.
    F.  Increase Tribal Base Funding (instead of through grants). 
Provide increases via Tribal base funding instead of through grants to 
Tribal governments. Grant funding, particularly inside the BIA, is not 
consistent with the intent of Tribal self-determination.
3. NATIONAL REQUESTS--INDIAN HEALTH SERVICE
    A.  $6.4 billion Mandatory Funding (maintain current services) a 33 
percent increase over the fiscal year 2016 planning base.
    B.  Opioid Funding--Increase funding and include Tribal set asides 
in any funding decisions to States. Addressing the opioid epidemic is a 
nationwide priority. American Indians and Alaska Natives (AI/AN) face 
opioid related fatalities three times the rate for Blacks and Hispanic 
Whites.
    C.  Oppose moving Special Diabetes Program for Indians (SDPI) into 
the discretionary spending from the mandatory account.
    The Sac and Fox Nation supports the National Requests of the 
National Congress of American Indians, the National Indian Health Board 
and the National Indian Education Association.
    Thank you for allowing me to submit these requests on the fiscal 
year 2019 budgets.

    [This statement was submitted by Kay Rhoads, Principal Chief.]
                                 ______
                                 
  Prepared Statement of the Self-Governance Communication & Education 
                           Tribal Consortium
    On behalf of the Self-Governance Communication & Education Tribal 
Consortium (SGCETC), I am pleased to provide the following written 
testimony regarding funding priorities for Self-Governance Tribes 
participating in the Department of the Interior (DOI) and the Indian 
Health Service (IHS). Today, 272 federally-recognized Tribes and Tribal 
Organizations exercise Self-Governance authority within DOI and 360 
federally-recognized Tribes and Tribal Organizations exercise Self-
Governance authority within IHS to operate and manage health programs. 
SGCETC recognizes the hard work this subcommittee has committed over 
the last few years to uphold the Federal trust responsibility and 
Tribal sovereignty. It is only through continued partnership and open 
communication that Tribal governments can achieve self-sufficiency and 
self-determination. We hope that the subcommittee will continue to 
champion Indian Country's priorities and to empower Tribal governments 
to meet the needs of Tribal citizens.
    As such, Self-Governance Tribes make the following recommendations 
to strengthen Tribal governments, economies, and programs:
Hold Tribal Programs and Services Harmless From Future Sequestration, 
        Budgetary Rescissions, or Reductions
    Tribal governments experienced heavy budgetary cuts as a result of 
the 2012 sequester. These cuts affect direct services to Tribal 
citizens, which include, but are not limited to, public safety, social 
welfare, and healthcare services. As you begin to deliberate the fiscal 
year 2018 appropriations for the BIA and IHS, Self-Governance Tribes 
first, ask your support to urge Congress to restore Tribal funding cuts 
and, second, to uphold the Tribal trust responsibility and amend the 
Budget Control Act of 2011 to exempt Tribal funding from future 
sequesters.
Mandatory Funding for Contract Support Costs
    Self-Governance Tribes deeply appreciate the work that this 
subcommittee and others have done to achieve full funding for contract 
support costs (CSC). Tribal governments can now improve and expand 
services for Tribal citizens rather than decrease or eliminate services 
to cover indirect costs necessary to properly manage programs. Under 
the indefinite appropriation structure created by the fiscal year 2016 
Consolidated Appropriation Act, Tribal direct services are protected 
from reductions. Self-Governance Tribes ask that, at a minimum, the 
subcommittee protect this structure, but further request that the 
subcommittee consider moving CSC funding to a mandatory category to 
further protect from any future reductions.
                        bureau of indian affairs
Increase Tribal Base Budgets and Recurring Funding as Opposed to Grant 
        Funding
    Tribal Self-Governance is the most successful policy in the history 
of Tribal-Federal relations because it stimulates efficient and 
effective government spending. Increases to Self-Governance Tribal Base 
Budgets will allow Tribes to fund core Tribal government programs such 
as community and economic development, natural resource management, and 
community safety. However, Self-Governance Tribes have noticed a 
troubling trend that DOI and BIA are moving one-time funding 
opportunities to grants that are restrictive in nature--undermining 
core Self-Governance tenants. This trend allows DOI to heavily regulate 
the administration of Tribal programs and prevents grants from being 
transferred through Self-Governance Agreements, which in turn, hinders 
Tribal governments' ability to re-design programs to better meet the 
needs at the local level and impedes economic self-sufficiency.
Fully fund Fixed Costs and Tribal Pay Costs
    Most Federal agencies receive annual increases to their Fixed Costs 
levels each year to address inflationary costs associated with Fringe 
Benefits and Pay Costs. However, historically, Tribes are treated 
differently resulting in significant job losses. Self-Governance Tribes 
request that the subcommittee fully fund Fixed Costs and Tribal Pay 
costs and treat Tribes the same as our Federal counterparts who, prior 
to Self-Governance, operated similar programs to those that are now 
managed by Tribal governments.
Increase Funding for Tribal Courts, Including Those in Public Law 280 
        Jurisdictions
    Each year Self-Governance Tribes rank public safety as one of our 
highest priority need areas. Self-Governance Tribes often use other 
one-time funding or Tribal discretionary funding to support this public 
service without a regular tax base like other governments and despite 
the Federal trust responsibility to create safe communities. As 
recently as 2015, BIA estimated that only 6 percent of the total need 
for Tribal courts is currently funded. Self-Governance Tribes request 
that the subcommittee implement an incremental plan in order to close 
the gap between funding and the significant need in Tribal communities.
Instruct Indian Affairs to Internally Transfer Recurring Funding to the 
        Office of Self Governance to Properly Execute Its Mission
    The Office of Self Governance has 14 staff members who distribute 
$450 million to nearly half of all federally-Recognized Tribes 
participating in Self-Governance, negotiate annual funding agreements 
with eligible Tribes and consortia, coordinate the collection of budget 
and performance data from Self-Governance Tribes, and resolve issues 
that are identified in financial and program audits of Self-Governance 
operations. However, Indian Affairs currently provides just $1.5 
million on a recurring basis for an office that needs at least $1.9 
million to support a full staff. We request that the subcommittee 
include language that instructs Indian Affairs to internally transfer 
recurring funding to OSG in order to fully fund staff.
Fund the Indian Guaranteed Loan Program, Surety Bonds, and Development 
        Bonds at a Minimum of $15 Million
    The Office of Indian Energy and Economic Development's (OIEED) 
Division of Capital Investment oversees the Indian Loan Guarantee 
Program and loan subsidy program, and has authority to support surety 
bonding for Indian contractors. The Loan Guarantee Program promotes 
Tribal sovereignty, Tribal and Native-owned business, and economic 
development unlike SBA-certified support. Additionally, the OIEED 
operated revolving credit facility has a $15 return from private sector 
lenders for every $1 in Federal funds. With a small addition to the 
program's annual credit subsidy, the total amount of financing 
available in Indian Country could rise from $100 million to $250 
million. As this administration and Congress prioritizes rebuilding 
America's infrastructure and creating America's job, this relatively 
small investment could have a huge impact in Indian Country and rural 
America.
                         indian health service
Support Mandatory Funding for IHS
    The mission of the IHS is to raise the health status of American 
Indians and Alaska Natives (AI/AN) to the highest possible level. This 
mission stems from the Federal trust responsibility to provide health 
services, resulting from treaties, court decisions, and other 
agreements whereby Tribes ceded vast amounts of land. This trust 
responsibility is not only a moral and ethical obligation, but also a 
legal responsibility of the Federal Government to Tribes and AI/AN. 
Despite this responsibility, the IHS budget remains in discretionary 
appropriations. To ensure that the Federal obligations are more 
consistently met and to bring parity with other Federal health 
programs, Self-Governance Tribes recommend that the IHS appropriation 
be moved to instead be a mandatory appropriation.
Support Advanced Appropriations for IHS
    Since fiscal year 1998, there has been only 1 year (fiscal year 
2006) when the Interior, Environment, and Related Agencies budget was 
enacted by the beginning of the fiscal year. Providing sufficient, 
timely, and predictable funding is needed to ensure the Federal 
Government meets its obligation to provide healthcare for AI/ANs and 
bring IHS to parity with other Federal agencies that provide healthcare 
and receive advanced appropriations, such as the Veterans Health 
Administration. Enacting advanced appropriations for the IHS will 
provide more stable funding and sustainable planning for the entire 
system by appropriating funding 2 years in advance.
Advocate for an Increase in Funding To Support Current IHS Services
    Current services include mandatory cost increases necessary to 
maintain those services at current levels. These ``mandatories'' are 
unavoidable and include medical and general inflation, pay costs, 
contract support costs, phasing in staff for recently constructed 
facilities, and population growth. If these mandatory requirements are 
not funded, Tribes have no choice but to cut health services, which 
further erodes the quantity and quality of healthcare services 
available to AI/AN people. We urge the Committee to fully fund the IHS 
Budget Formulation Workgroup recommendations to maintain current 
services.
Restoration of the Community Health Representative (CHR) Program
    The President's proposed budget includes elimination of the CHR 
program--one of the most critical and important services provided to 
our Tribal citizens. The Community Health Representative (CHR) Program 
is a unique concept for providing healthcare, health promotion, and 
disease prevention services. CHRs are great advocates, in part, because 
they come from the communities they serve and have Tribal cultural 
competence. Their dedicated work has assisted many to meet their 
healthcare needs. We strong urge restoration of funding for the CHR 
program.
Modernization of the Resource Patient Management System (RPMS)
    The RPMS is essentially the health information technology system of 
the IHS. It is significantly supported by the Veterans Health 
Information Systems and Technology Architecture (VISTA). Planning is 
well underway for the Veteran's Affairs (VA) to replace VISTA with a 
commercial, off-the-shelf system, and the President's budget for 2019 
includes a significant request for this initiative. Without software 
and development support from VISTA, RPMS may no longer be viable or 
economical for the IHS to maintain. Self-Governance Tribes request an 
additional appropriation amount to plan for modernization of the 
Resource Patient Management System (RPMS), or conversion to a new 
system to avoid impacts on the provision of care.
Increase Funding for Purchased/Referred Care Program
    The Purchased/Referred Care (PRC) Program pays for urgent, 
emergent, and other critical services that are not directly available 
through IHS and Tribally-operated health programs. At current funding 
levels, most IHS and Tribally-operated programs are only able to cover 
Priority I (life and limb) and some Priority II services required for 
AI/AN patients. The current strain on PRC programs is not likely 
lighten as the industry trend to construct smaller, outpatient 
ambulatory care centers grows. Self-Governance Tribes urge the 
subcommittee to consider this priority area to increase access to 
critical care for AI/AN patients.
Increase Facilities Funding
    Self-Governance Tribes recommend that the subcommittee work to fund 
increases to the IHS Facilities funding, including increases for 
Maintenance & Improvement, Sanitation Facilities Construction, Health 
Care Facilities, and Environmental Health Support. Dedicated funding 
and coordination of other Federal agency funding to increase the number 
of facilities and take care of current facilities is critical to 
meeting Indian Country's growing need for quality healthcare and 
curbing public health concerns in rural and remote communities like 
Alaska.
                    environmental protection agency
Increase Funding for the Indian General Assistance Program
    The Indian General Assistance Program (IGAP) allows Tribes to 
leverage environmental programs to best serve their communities. Many 
of these programs include protecting communities, managing natural 
resources, initiating energy efficiency activities, and small scale 
renewable energy projects. In 1999, $110,000 was set as the average 
cost for a Tribe to sustain a basic environmental program. However, 
this amount has not kept up with inflation, leaving Tribes with just 67 
percent (67 percent) of the buying power in 2017. An additional $98 
million is needed to close the inflationary gap.
Increase the Tribal Set-aside for the Safe Drinking Water State 
        Revolving Fund (SRF) to 5 Percent of the National Drinking 
        Water SRF
    Access to basic modern amenities such as running water, sewage, or 
electricity, are an afterthought for many American citizens, however 
many AI/ANs do not have the same luxury. According to the U.S. Census 
Bureau, approximately 12 percent of Tribal homes do not have safe or 
basic sanitation facilities, which is twenty times as high as non-
Native homes. The lack of access to basic sanitation facilities poses a 
serious risk to the public health of Tribal communities. we ask that 
the subcommittee increase the Tribal set-aside to provide additional 
opportunities to build necessary infrastructure to support safe 
drinking water require all agencies with similar funding to coordinate, 
with IHS as the lead agency, to ensure that all AI/ANs have safe water.
                               conclusion
    Thank you for the opportunity to share the appropriations 
priorities of Self-Governance Tribes with the subcommittee. We look 
forward to your continued partnership.

    [This statement was submitted by the Hon. W. Ron Allen, Chairman, 
Self-Governance Communication & Education Tribal Consortium, and Tribal 
Chairman/CEO, Jamestown S'Klallam Tribe.]
                                 ______
                                 
             Prepared Statement of the Shoalwater Bay Tribe
    The requests of the Shoalwater Bay Indian Tribe (Tribe) for the 
fiscal year 2019 Interior, Environment, and Related Agencies budget are 
as follows:

  --Appropriate $500,000 through the Tribe's self-government agreement 
        with the BIA to address additional planning efforts in the 
        second phase of a necessary Tribal relocation.
  --Contract Support Costs (CSC) Funding
  --105(l) Clinic Leases
  --IHS Advance Appropriations
  --No Rescissions
  --Special Diabetes Prevention Initiative
Background.
    The Shoalwater Bay Indian Tribe provides this written testimony on 
fiscal year 2019 funding for programs affecting Indian Tribes which are 
funded through your subcommittee. My name is Charlene Nelson, and I am 
the Chairwoman of the Shoalwater Bay Indian Tribe which is located 
2,800 miles west by northwest of where we are meeting today on the 
beautiful north shore of Willapa Bay, facing out to the Pacific Ocean.
    My own personal history matches closely with many of you serving on 
this subcommittee, as I understand you consistently are tasked with 
determining how to fund and shape Federal programs that positively 
impact the health, environment, and learning of American people. I 
worked for decades in the field of education. As a former commercial 
fisherman in Alaska, I came to understand the economic potential of a 
healthy environment. Prior to my service on Tribal Council, I worked in 
the Tribe's Health and Women's Wellness Program, learning firsthand 
that vibrant and successful Indian communities are not possible without 
first attending to human health.
Relocation Assistance.
    I am here today to talk to you about survival. In this case, the 
survival of our Tribe, its lands, homes, businesses, and its people.
    This is my second term as Chairwoman of the Shoalwater Bay Tribe. 
During my prior period chairing the Tribe, I spent the vast majority of 
those 10 years spearheading an effort to help the Tribe and surrounding 
area survive the threat of coastal erosion. As a result of those 
efforts, the Army Corps of Engineers worked with the Tribe to construct 
an erosion control embankment south and west of the Reservation. The 
embankment went into service 5 years ago and this winter it took a 
beating and is now a new concern of the Tribe and the Corps. The 
embankment had temporarily halted the erosion that directly threatened 
the Reservation and State Highway 105, which connects the surrounding 
Tokeland community to schools, grocery stores, healthcare, banks, and 
housing. But that erosion has regained momentum and there is no clear 
sense of how long Highway 105 will survive.
    But through the process of fighting for the Tribe's survival from 
coastal erosion, we learned a great deal. We learned, among many other 
things, that essentially the entire Reservation, with one small 
exception on Eagle Hill, is no higher than 6 feet above the ordinary 
high water mark of the Willapa Bay tides. The low elevation of the 
entire reservation puts it squarely within a tsunami zone that ensures, 
in the case of a tsunami event, that the Reservation would be wiped 
out. Think about that for a moment--an entire Tribe wiped out in an 
instant.
    Attached to this testimony is a map entitled Exhibit A that lays 
out the Tribe's intentions: to continue the preliminary engineering, 
planning and initial funding to construct a road to an upland 
elevation, out of the tsunami zone, to begin the relocation process of 
the Tribe. The cost to carry out this next phase of work is $500,000, 
and the Tribe is seeking this subcommittee's support in developing a 
funding vehicle to support these efforts through the Tribe's existing 
BIA self-governance compact.
    Exhibit A shows a part of the Reservation at the bottom left 
intersection, as well as Highway 105 in yellow. The new road, to the 
north east of the main reservation, will provide access to a higher 
elevation land base that the Tribe owns that is safe from the threats 
of coastal erosion and tsunami.
    This relocation project will require a number of partners, the 
Tribe, State, Interior Corps of Engineers. While our request today is 
for planning and implementation money for the Tribe from the BIA, other 
temporary efforts are under serious consideration. For instance, 
realizing how dire she situation is, the State and Corps of Engineers 
have under serious and immediate consideration a joint project for a 
dynamic revetment to help protect the berm which is endangered because 
the wave action is now split where it hits the shore and part goes 
north and part comes toward the berm.
    We appreciate these efforts but the Tribe also needs the resources 
to be actively involved in what ultimately is our own relocation.
Contract Supports Costs
    We greatly appreciate the House and Senate Interior appropriations 
subcommittees work over the past several years in making a reality the 
full payment of Contract Support Costs (CSC) by both the IHS and the 
BIA. We are also very pleased that the administration--both the current 
and the previous one--has followed suit and requested that CSC be 
maintained as a separate appropriations account in IHS and in BIA and 
with an indefinite funding of `such sums as may be necessary''. This 
action has been crucial to the strengthening of Tribal governments' 
ability to successfully exercise their rights and responsibilities as 
governments.
    In both fiscal year 2017 and 2018 Act, however, the administrations 
proposed to reinstate provisions from the Fiscal Year 2016 
Appropriations Act for IHS which are contrary to the Indian Self-
Determination and Education Assistance Act with regard to CSC. The 
first is the ``carryover'' clause that could be read to deny the CSC 
carryover authority granted by the ISDEAA; the other is the 
notwithstanding'' clause used by IHS to deny contract support cost for 
their grant programs--Domestic Violence Prevention; Substance Abuse and 
Suicide Prevention; Zero Suicide Initiative; after-care pilot projects 
at Youth Regional Treatment Centers; funding for the improvement of 
third party collections; and accreditation emergencies. We are grateful 
that Congress has not gone along with those two proposals and are 
hoping and expecting that you will have the same reaction for the same 
tired administration requests for fiscal year 2019.
    105(l) Clinic Leases.--We are concerned by the administration's 
proposed request to amend the law in order to avoid full compensation 
for leases under section 105(l) of the ISDEAA. The proposed bill 
language in the IHS Administrative provisions is designed to overrule 
the decision in Maniilaq Association v. Burwell, 170 F. sup. 3d 243 
(D.D.C. 2016) which held that section 105(l) of the ISDEAA provides an 
entitlement to full compensation for leases of Tribal facilities used 
to carry out ISDEAA agreements. The proposed language would exclude 
section 105(l) of the ISDEAA as a source of entitlement to funding for 
section 105(l) leases, leaving it entirely within the discretion of the 
IHS. Tribes and Tribal organizations increasingly rely on section 
105(l) leases to address chronically underfunded facilities operation, 
maintenance, and replacement costs. Congress declined to include such a 
provision in the fiscal year 2018 IHS appropriation bill and we ask 
that you treat this year's repeat proposal the same way.
    IHS Advance Appropriations.--We ask for your support in placing the 
budget for the IHS on an advance appropriations basis. Under advance 
appropriations we would know a year in advance what the budget would be 
and importantly, would not be continue to be constrained by the start 
and stop level funding of Continuing Resolutions, each of which 
requires the same processing and manpower for each partial payment as 
one full apportionment. Even if CRs had not become the norm, having 
advance notice of funding levels would aid greatly in our health 
programs planning, recruitment, retention, and leveraging of funds. 
Finally, we note again that the Veterans Health Administration accounts 
have been receiving advance appropriations since fiscal year 2010. Both 
the VA and the IHS provide direct medical care and both are the result 
of Federal policies. The IHS budget should be afforded the same budget 
status consideration as the VA medical programs.
    No Rescissions.--We have heard the talk of possible fiscal year 
2018 rescissions and must object to that. After this year's enactment 
of the Bipartisan Budget Act and the Consolidated Appropriations Act, 
2018, it would be outrageous to break these Congressional budget 
agreements and to interrupt the planning that is taking place among 
Tribes and Tribal organizations (and others) with regard to facilities, 
staffing, and services. We are grateful for the increases in the IHS 
and BIA fiscal year 2018 budgets made possible by those Acts, increases 
that should be maintained in the fiscal year 2019 appropriations bills.
    Special Diabetes Program for Indians (SDPI).--The administration 
proposed, with no real explanation of why, that a number of health 
programs' funding be changed from a mandatory to a discretionary 
status. Among them is the SDPI program, and we are concerned that it 
could lead to a reduction in funding for this critical program which 
has demonstrated good results in Indian Country. The fiscal year 2019 
administration's proposal is for level funding of $150 million for SDPI 
in discretionary funding in the Indian Health Service budget. We 
understand it these funds would, if the administration's proposal is 
approved, come out of the Interior Appropriations Subcommittees' 
allocations. The current SDPI authorization extends through fiscal year 
2019 and we hope that the authorization can be made permanent and at an 
increased funding level of $200 million or higher.

    [This statement was submitted by Charlene Nelson, Chairwoman.]
                                 ______
                                 
        Prepared Statement of the Society of American Foresters
    The Society of American Foresters (SAF) sincerely appreciates this 
subcommittee's steadfast commitment to giving forestry and natural 
resources professionals the tools and support they need to improve the 
health and productivity of our Nation's public and private forests. On 
behalf of SAF's 11,000 members across the country, please accept this 
written public testimony on fiscal year 2019 appropriations for the 
USDA Forest Service (USFS) and the Department of the Interior (DOI).
    Just as forests are fundamental to our Nation, so too are the 
professionals who study, manage, and care for these precious resources. 
Founded in 1900 by Gifford Pinchot, SAF is the premier scientific and 
educational organization in the United States--promoting science-based, 
sustainable management and stewardship of the Nation's public and 
private forests. SAF members include public and private sector natural 
resource professionals, researchers, CEOs, administrators, investment 
advisors, educators, and students.
    Americans rely on the 751 million acres of public and private 
forests in the U.S. to provide clean and abundant air and water, forest 
products, fish and wildlife habitat, recreational opportunities, forage 
and range resources, energy, and scenic beauty. SAF is eager to work 
with Congress, Federal agencies, and partners to identify reasonable 
solutions to increase the pace and scale of management on Federal 
lands, find new ways to work with private landowners, work across 
boundaries, keep forests as forests, incentivize active management, and 
deliver practical innovations to meet future challenges and market 
demands.
    SAF's top priorities for fiscal year 2019 include a range of 
programs within USFS and DOI. With our forests facing unprecedented 
threats, these requests will assist forest managers and scientists in 
improving the health of our forests nationwide and providing a 
multitude of benefits for generations to come.
            saf top federal priorities for fiscal year 2019
    1.  Increase funding for USFS Forest and Rangeland Research to no 
less than $307 million, with no less than $83 million for the Forest 
Inventory and Analysis program.
    2.  Continue to improve forest health and reduce wildfire risks 
through increasing the pace and scale of forest management on Federal 
lands.
    3.  Maintain funding support for USFS State and Private Forestry 
Programs at or above the fiscal year 2018 funding levels.
    4.  Support Bureau of Land Management (BLM) Public Domain Forestry 
and Oregon & California Railroad Grant Lands funding levels at no less 
than $10 million and $113.7 million, respectively.

    Forestry Research.--Investments in forestry research are essential 
for the future health and sustainability of the Nation's forests, which 
include 22 million small private forest landowners. Although this 
testimony focuses on USFS Forest and Rangeland Research programs, SAF 
also recognizes and supports the full array of forestry research 
efforts led by the Bureau of Land Management, U.S. Fish and Wildlife 
Service, U.S. Geologic Survey, and others including land-grant 
institutions and other universities. USFS Research and Development 
(USFS R&D) research conducted at the five USFS research stations, the 
International Institute of Tropical Forestry, and in the Forest 
Products Laboratory is crucial. Federal forestry research develops new 
products and practical innovation; identifies forest ecosystem 
disturbance response and forest resilience; helps responses to shifting 
social demands and demographic changes; and quantifies the 
contributions of forests to air and water quality. Without USFS 
leadership, investigation of these critical research needs would 
largely be left unfulfilled. Clear and relevant research helps 
eliminate uncertainties and builds consensus on management actions 
potentially avoiding litigation and enabling more projects to move 
forward.
    If forest research capacity in the U.S. continues to decline, 
forest managers will not be able to meet current and future challenges 
with existing science and technical information. Continuing the trend 
of reductions in the USFS R&D budget will result in significant gaps in 
knowledge and in poor management of resources at a time of 
unprecedented threats posed by wildfire, drought, insects, disease, and 
invasive species. SAF supports a funding level of $307 million for USFS 
R&D, with emphasis on prioritization of research projects uniquely 
suited to R&D expertise furthering agency and partner objectives.
    FIA Funding.--SAF strongly supports the funding increases for the 
USFS R&D Forest Inventory and Analysis (FIA) program FIA is the 
backbone of U.S. forestry--providing the only national census of 
forests across all ownerships. Through FIA, USFS, with State forestry 
agency, university, and private sector partners, collects and analyzes 
forest data to assess trends on issues such as forest health and 
management, fragmentation and parcelization, and forest carbon 
sequestration. The data and information collected by FIA serve as the 
basis for identifying trends in forest ownership; assessing fish and 
wildlife habitat; evaluating wildfire, insect, and disease risk; 
predicting the spread of invasive species; determining capital 
investment in existing forest products facilities and selecting 
locations for new forest product facilities; and identifying and 
responding to priorities identified in State Forest Action Plans. The 
critical need for current information about the condition of our 
forests, with greater emphasis on the role of forests in maintaining 
and improving air quality, underlies the need for FIA program capacity 
to be increased in fiscal year 2018 and beyond. SAF requests additional 
investment in FIA with a funding level of at least $83 million. We urge 
the subcommittee to ensure that this increase does not come at the 
expense of other research programs, and provide direction for future 
increases to allow the program to keep pace with ever-growing and 
diverse information needs.
    Fire Science Program.--SAF has concerns with the proposed 
elimination of the Joint Fire Science Program (JFSP) in the 
administration's fiscal year 2019 budget coupled with reductions in the 
National Fire Plan Research and Development (NFP R&D) will negatively 
impact the joint research program with over 200 Federal agency, 
university, and nongovernmental partners. Eliminating JFSP and reducing 
funding for the NFP R&D will hinder exploration of fire research and 
negatively impact efforts to restore resilience to the landscape. SAF 
urges the subcommittee to restore the JFSP funding level to $6.9 
million and maintain the NFP R&D at the funding level included in the 
fiscal year 2018 Omnibus bill.
    Wildfire Funding and Federal Forest Management.--We appreciate this 
subcommittee's longstanding support and tireless efforts to change the 
way wildfires are funded. Thank you for helping to finally the pass a 
wildfire funding fix that treats wildfires like other natural 
disasters. SAF expects to work with this subcommittee over the next 2 
years to ensure that this new approach to funding wildfires is 
implemented, and that reduction of costs and transparency in fund 
expenditures continue to be pursued.
    While passing a wildfire funding fix was a huge step forward, it is 
only one piece of the more complex and long-term process of improving 
forest health and reducing wildfire risks. SAF is pleased with the 
continued commitment to increasing the pace and scale of management on 
Federal lands with the USFS harvest target of 3.7 billion board feet, 
up from approximately 3 billion board feet in recent years. With up to 
82 million acres in the National Forest System (NFS) still in need of 
restoration; however, SAF urges this subcommittee to encourage the 
agency to use all available tools to increase restoration levels by 
implementing more projects on Federal lands. USFS should expand 
collaboration with rural communities, partners, and industry to meet 
and exceed management goals outlined in forest plans. Authorizations in 
the 2014 Farm Bill and the 2018 Omnibus facilitate quicker responses to 
areas devastated by insects and disease, expand the use of Stewardship 
Contracting, and take advantage of Good Neighbor Authority and other 
mechanisms that work across boundaries to achieve shared objectives. 
Additionally, support for streamlining and enhancement of efficiencies 
through the Environmental Assessment and Decision-Making efforts should 
help to improve forest and community resilience. However, decreases in 
NFS Forest Products program, Capital Improvement and Maintenance, and 
the administration's proposed elimination of the Collaborative Forest 
Landscape Restoration Program could impede fulfillment of targets 
critical to economic sustainability and growth of local communities.
    Hazardous Fuels.--A comprehensive approach to averting wildfire 
threats and improving forest resilience is imperative. The Hazardous 
Fuels and Fire Risk Management line items in the USFS and DOI budgets 
are integral to restoring forest health and reducing the costs of 
wildfire suppression. Through restoring and maintaining fire-resilient 
landscapes and communities, these programs support the goals of the 
National Cohesive Wildland Fire Management Strategy. SAF appreciates 
this subcommittee's consistent support for wildfire management and 
encourages it to allocate funds to address wildfire risks inside and 
outside the wildland-urban interface. In addition to preventing and 
mitigating wildfire risks, these programs serve as an important source 
of jobs, maintain critical forest products processing capability, 
especially in rural communities, and expand markets for the use of 
biomass residuals as renewable energy through efforts like the USFS 
Woody Innovations Grant Program. SAF supports funding the USFS 
Hazardous Fuels Program at $430 million and $184 million for DOI.
    State and Private Forestry.--SAF encourages this subcommittee to 
recognize the importance of USFS State and Private Forestry (S&PF) 
programs. The Urban and Community Forestry, Landscape Scale 
Restoration, Forest Stewardship, and Forest Health Management programs 
provide important technical and financial assistance to private 
landowners and the resource managers responsible for managing more than 
60 percent of America's forests. Investments in these programs are 
leveraged by landowners, State and local agencies, and a variety of 
non-governmental organizations to help to build healthy and thriving 
forest resources that benefit all citizens. Likewise, the International 
Forestry program provides critical expertise, identification of new and 
diverse market opportunities for U.S. forest products, and advice to 
countries across the globe raising awareness of goods and services 
forests and U.S. exports can provide. Eliminating, consolidating, or 
drastically cutting funding for these programs would have profound 
adverse impacts on people and communities across the country--
particularly in rural communities--and will jeopardize the essential 
benefits all citizens rely on forests to provide. SAF recommends that 
these programs be at least maintained at fiscal year 2018 levels.
    Public Domain Program.--Finally, SAF is encouraged by the 
recognition of the important work of the BLM Public Domain Forestry 
(PD) program. SAF asks this committee to consider amending the 
extension of the Forest Ecosystem Health and Recovery Fund 
authorization in the 2015 Omnibus Bill to beyond 2020. SAF is concerned 
with the proposed funding reduction for the Oregon & California 
Railroad Grant Lands (O&C) in the President's proposed budget. SAF also 
requests that this subcommittee consider a provision to expand the 3000 
acres insect and disease categorical exclusions to include the Bureau 
of Land Management through designation of the Secretary of Interior 
through the amendment of Healthy Forest Restoration Act of 2003 in the 
2014 Farm Bill. SAF supports $10 million for the PD program and $113.7 
million for the O&C program. We also urge this subcommittee to extend 
authorization of the Emergency Insect and Disease Designations through 
requests from Governors to the Secretary of the Interior as well as the 
Secretary of Agriculture through amendment of the Healthy Forest 
Restoration Act.
    Thank you for your consideration of these important requests. SAF 
and its extensive network of forestry and natural resources 
professionals stand ready to assist with further development and 
implementation of these efforts and ideas.

    [This statement was submitted by Dave Lewis, President.]
                                 ______
                                 
           Prepared Statement of the Southcentral Foundation
    My name is Katherine Gottlieb and I am the President and Chief 
Executive Officer of Southcentral Foundation (SCF). SCF is the Alaska 
Native Tribal health organization designated by Cook Inlet Region, Inc. 
and eleven federally-recognized Tribes--the Aleut Community of St. Paul 
Island, Igiugig, Iliamna, Kokhanok, McGrath, Newhalen, Nikolai, 
Nondalton, Pedro Bay, Telida, and Takotna--to provide healthcare 
services to beneficiaries of the Indian Health Service (IHS) pursuant 
to a government-to-government contract with the United States under 
authority of the Indian Self-Determination and Education Assistance Act 
(ISDEAA), Public Law 93-638. SCF is a two-time recipient of the Malcolm 
Baldridge National Quality Award for health (2011 and 2017).
    SCF, through our 2,300 employees, provides critical health 
services, including pediatrics, obstetrics and gynecology, Native men's 
wellness, dental, behavioral health and substance abuse treatment to 
over 65,000 Alaska Native and American Indian patients. This includes 
52,000 people living in the Municipality of Anchorage, the Matanuska-
Susitna Borough to the north, and 13,000 residents of 55 rural Alaska 
Native villages. Our service area encompasses over 100,000 square 
miles, an area the size of Wyoming. More so than any other affiliation 
of Tribes, Alaska Native people have assumed the broadest 
responsibilities under the ISDEAA to own and manage healthcare systems 
which, together with the Alaska Public Health System, serve 150,000 
Alaska Native and American Indian people and thousands of non-Native 
residents in rural Alaska.
    I want to thank this subcommittee, especially Chairwoman Lisa 
Murkowski, our Senator, for its leadership in securing significant 
increases in Federal appropriations for the Indian Health Service for 
fiscal year 2018, a total of $4.82 billion for IHS Services and 
Facilities (excluding Contract Support Costs), a $580 million increase 
over the fiscal year 2017 enacted level, and nearly $800 million above 
the administration's request for fiscal year 2018. My remarks today are 
simple: continue to increase Federal appropriations for IHS programs 
and services until health disparities between Alaska Native and 
American Indian people and other Americans are extinguished. At 
present, IHS per capita spending on healthcare for Alaska Native and 
American Indian people is about one-third of the average national per 
capita healthcare spending level. Today, we are also fighting an opioid 
epidemic which is taking a disproportionate toll on Alaska Native 
people. As Senator Murkowski noted: ``Alaska may be a rural State, but 
we are not shielded from this epidemic.'' With a service population of 
65,000, our resources are wholly insufficient in comparison to the 
crisis.
    We are extremely troubled by the current administration's recent 
comments and actions that seek to undermine the sovereign status of 
Alaska Native and American Indian Tribes. We therefore ask that the 
subcommittee reject efforts by the administration to eliminate or cut 
appropriations to Indian healthcare programs. This subcommittee 
appropriated $450 million for programs such as the Community Health 
Representatives Program, the Health Education Program, the Tribal 
Management Grants Program and other programs that fund Indian 
healthcare in the Fiscal Year 2018 Consolidated Appropriations Act, 
passed only a few weeks ago. Investing in Native healthcare will only 
improve the health of the Nation's first peoples.
    SCF's testimony concerning the administration's fiscal year 2019 
budget for IHS would be quite different were it not for the actions by 
this subcommittee and Congress to rebuke, in passing the fiscal year 
2018 omnibus appropriation measure, the harmful cuts the administration 
proposed in fiscal year 2018 to Federal programs serving Alaska Natives 
and American Indians. We are confident that the subcommittee and the 
Congress will, in fiscal year 2019, advocate for continued increases in 
Federal programs serving Alaska Native and American Indian people and 
reject the administration's proposal to cut or eliminate important IHS 
programs and services.
1. Continue to Provide Increases for Behavioral Health Programs
    Last year, we stressed to this subcommittee how important it was to 
increase funds for behavioral health. Alaska Native and American Indian 
people are disproportionately represented in substance abuse, 
especially opioid addiction, and suicide statistics. According to the 
Centers for Disease Control (CDC), and recently confirmed by IHS Chief 
Medical Officer, Rear Admiral Michael E. Toedt, Alaska Native and 
American Indian people ``had the highest drug overdose death rates in 
2015 and the largest percentage increase in the number of deaths over 
time from 1999-2015 compared to other racial and ethnic groups.'' 
During that time, deaths rose more than 500 percent among Alaska Native 
and American Indian people. The CDC also found that the suicide rate 
among Alaska Native people is almost four times the U.S. general 
population rate and at least six times the national average in some 
parts of the State.
    This subcommittee supported a combined $16 million increase in 
fiscal year 2018 for the Mental Health ($100 million) and Alcohol and 
Substance Abuse programs ($228 million), a 5 percent increase over the 
fiscal year 2017 enacted level. We are pleased to see that the 
administration requests an increase for these programs in fiscal year 
2019 by an additional $12 million ($340 million total). We recommend 
the subcommittee increase these programs by at least 15 percent above 
the fiscal year 2018 enacted level. Behavioral health funds are 
critical to our most vulnerable population--our youth. SCF runs several 
programs that provide mental healthcare for Alaska Native youth which 
focus on building academic, vocational and leadership skills through 
culturally-appropriate methods. It is our firm conviction that only by 
addressing the root causes that drive individuals to drug misuse and 
addiction--domestic and child abuse, poverty and unemployment--can we 
heal them.
    We appreciate the administration including $150 million in the 
fiscal year 2019 budget for an Opioid Prevention, Treatment and 
Recovery program for Alaska Native and American Indian people. We 
recommend that these funds be distributed among Tribes and Tribal 
organizations as additions to our self-governance compacts and 
contracts. Alaska Native healthcare providers, like SCF, recognize that 
the size of the opioid and substance abuse problem in Alaska demands 
resources. Federal officials recently testified that far too few people 
suffering from addiction receive care. In a hearing last December 
before the Senate Appropriations Subcommittee on Labor, Health and 
Human Services, Education and Related Agencies, Federal health 
officials stated: ``It is well-documented that the majority of people 
with opioid addiction in the U.S. do not receive treatment, and even 
among those who do, many do not receive evidence-based care. Accounting 
for these factors is paramount to the development of a successful 
strategy to combat the opioid crisis.'' With insufficient funds to 
address behavioral health challenges, we cannot reach those who suffer 
from substance abuse, those struggling with PTSD, our military 
veterans, or victims of violent crime. Prevention, education, and 
timely medication-assisted treatment (MAT) programs remain our most 
potent tools to raise a new generation of Alaska Native people who 
practice positive, life-affirming behavioral traits and who will, in 
turn, pass on these life skills to their children and grandchildren.
    With our available funds, we established The Pathway Home, a 
voluntary, comprehensive, and individualized mental health program for 
adolescents aged 13 to 18 years. The Pathway Home teaches life skills 
to these Alaska Native youths so that they discontinue harmful 
behavior. Many of these youths have already experienced childhood 
trauma or seen family members struggle with drug and alcohol 
dependency, which puts them at greater risk of turning to drugs and 
alcohol. The Pathway Home creates a loving and supportive community 
environment and it is heartwarming to see how proud the graduates of 
this program are to go back out into the world with these new skills 
and new hope.
    We applaud the efforts by Senators Alexander, Murray, Daines, 
Baldwin and others, that are putting forth legislation to address the 
opioid, meth and heroine crisis in Indian Country, and amend the 21st 
Century Cures Act to make Indian Tribes and Tribal organizations direct 
recipients of Federal funds now being awarded to the States within the 
State Response to the Opioid Abuse Crisis program by establishing a 
Tribal set-aside.
2. Reduce the Disparity in Federal Healthcare Expenditures for Alaska 
        Native and American Indian People
    In our testimony last year, we asked the subcommittee to prioritize 
general program increases which are shared equally by all Tribal 
programs. We are pleased to see that in the fiscal year 2018 
appropriations for the IHS, the subcommittee included significant 
increases shared by all Tribal programs, such as a $110 million 
increase for Hospitals and Health Clinics, a $33.8 million increase for 
Purchased/Referred Care, a $6.3 million increase for Public Health 
Nursing, a $1.6 million increase for Urban Indian Health, and a $91.7 
million increase in funding for Facilities Maintenance and Improvement. 
We also appreciate your acknowledgment that housing shortages in Alaska 
contribute to the high vacancy rates for medical personnel, especially 
in rural areas. For that reason, we appreciate the $11.5 million in the 
fiscal year 2018 omnibus for staff quarters and the $15 million for the 
Small Ambulatory Program for clinic construction.
    For fiscal year 2019, we urge the subcommittee to prioritize 
general program increases. By the estimate of the National Indian 
Health Board (NIHB), IHS funding is only about 1/5 of the total Tribal 
needs budget of $30 billion. So long as appropriations for the Indian 
Health Service reside within the Interior, Environment and Related 
Agencies, this subcommittee will always be challenged to appropriate 
sufficient funds to address the healthcare disparities between Alaska 
Native and American Indian people and the rest of the population.
3. Continue to Support Increases for Section 105(l) Lease Payments
    As SCF testified last year, we recommend that the subcommittee 
create within the Direct Operations account a new subaccount to pay 
required Section 105(l) lease payments to Tribes and Tribal 
organizations that make tribally-owned or leased facilities available 
for IHS-financed health programs. This action is still necessary. For 
the second time, and in the face of two Federal court decisions 
addressing IHS's legal obligation to fund Section 105(l) leases, the 
administration's fiscal year 2019 budget asks Congress for statutory 
text, included in the Administrative Provisions concerning the IHS, to 
legislatively override Section 105(l), and the courts, and insert a 
``notwithstanding'' clause which would make all lease payments by the 
Secretary entirely discretionary on the part of the IHS. In short, the 
IHS would secure the right to use Tribal facilities to operate IHS-
funded programs without paying for them which they had been doing for 
years by short-funding Village Built Clinic leases.
    We urge the subcommittee to again reject IHS's efforts to repeal a 
key provision of the ISDEAA through the appropriations process. This 
subcommittee fully appreciates the challenges we face to build and 
maintain hospitals and clinics in unforgiving climates. Too often, lack 
of funds shortens the useful life of these vitally important 
structures. The cost to replace a hospital or clinic in Alaska is 
staggering. If Tribes and Tribal organizations are to extend the useful 
life of hospitals and clinics, we must be given the resources to 
properly operate and maintain them. Facilities worth having are worth 
maintaining.
    Also, despite the obligation of the IHS to fully fund 105(l) 
leases, we have found the IHS to be slow to finalize these leases 
because they are not given enough money to fund all of the leases they 
are now clearly required to pay for. We continue to urge you to 
increase appropriations for Section 105(l) leases.
4. Contract Support Costs
    With regards to Contract Support Costs, we appreciate the 
subcommittee's use of an indefinite appropriation, and the 
subcommittee's direction to IHS, in the fiscal year 2018 Conference 
Report, that transfers of Substance Abuse and Suicide Prevention 
Program and other funds be awarded to Tribes through Indian Self-
Determination Act compacts and contracts, and not through separate 
grants, so that associated ``administrative costs'' will be covered 
through the contract support cost process.
    In 2017 and this year, we have also been witness to the IHS making 
unilateral policy changes concerning its CSC policy, already an overly 
complicated process. It requires Tribes to submit additional 
documentation to IHS and engage in two separate CSC negotiations each 
year. We urge the subcommittee to direct the agency to simplify its CSC 
policy and not attempt to reduce the award of CSC funds to Tribes 
through an unnecessarily complex methodology.
    Thank you again for the opportunity to provide testimony on behalf 
of Southcentral Foundation and the people we serve.
                                 ______
                                 
 Prepared Statement of the Southeast Alaska Regional Health Consortium
    My name is Charles Clement and I serve as the President/CEO for the 
Southeast Alaska Regional Health Consortium (SEARHC). I am honored for 
the opportunity to provide written testimony concerning SEARHC's 
priorities for the fiscal year 2019 appropriations for the Indian 
Health Service (IHS). SEARHC is most appreciative to Chairwoman 
Murkowski, Ranking Member Udall, and the Members of the subcommittee 
for championing the health needs of Alaska Natives and American Indians 
in the recently enacted fiscal year 2018 omnibus measure, Public Law 
115-141. The appropriation includes critical funding increases to IHS 
Facilities and Services funding which SEARHC and countless Tribes and 
Tribal organizations assume under Indian Self-Determination Act 
compacts and contracts.
    SEARHC is a non-profit Tribal health consortium, comprised of 15 
federally-recognized Alaska Native Tribes, serving the southeast Alaska 
communities situated along the Southeast panhandle of Alaska. Our 
service area stretches over 35,000 square miles (about the size of 
Maine), and with no roads connecting many of the rural communities we 
serve, we work hard to provide quality health services to our 
communities.
    Through our 25-bed acute care Mt. Edgecumbe Hospital (MEH) located 
in Sitka, the Ethel Lund Medical Center in Juneau, and a network of 
some 27 community clinics, SEARHC performs a wide array of services to 
our patients including medical, dental, behavioral health, physical 
therapy, radiology, pharmacy, laboratory, nutritional, audiology, 
optometry and respiratory therapy services. We also provide 
supplemental social services, substance abuse treatment, health 
promotion services, emergency medical services, environmental health 
services and traditional Native healing.
    In fiscal year 2017, we logged 183,493 outpatient visits 
organization-wide, which include visits to our family and general 
practice, nursing clinics, behavioral health clinics, emergency 
department, telemedicine, radiology, rehabilitation and optometry 
services, nutrition, social services and specialty and surgery clinics. 
For the period 2016 through 2017, 100 babies were born at MEH.
    The urgent healthcare needs of our Tribal members are heightened in 
areas like Southeast Alaska. Our communities are isolated and 
transportation and facilities costs are high. Travel to MEH requires a 
lengthy combination of automobile, ferry, and airplanes. Travel takes 
at least a day and often involves an overnight trip. Inclement weather 
delays travel even further.
    We are therefore grateful for the subcommittee's rejection of the 
administration's proposed 18 percent cut in Facilities funding for 
fiscal year 2018 and appropriation of $322 million above the fiscal 
year 2017 enacted level for the current fiscal year. We appreciate the 
subcommittee's similar rejection of the administration's proposed 
reduction of $120 million to the IHS Services budget for fiscal year 
2018, from the fiscal year 2017 enacted level, and decision to 
appropriate $378 million above the administration's fiscal year 2019 
funding request.
    SEARHC is in the process of securing title to the lands and 
buildings within the Mt. Edgecumbe Sitka campus so that we may more 
easily secure finances to replace our outdated hospital. The estimated 
cost exceeds $32 million. With leadership by Senators Murkowski and 
Sullivan, the Senate passed S. 825 on November 29, 2017. The measure 
simply transfers title to the 19-acre parcel to SEARHC for continued 
health services. We anticipate House action on the measure this 
session. Sufficient IHS Facilities and Services funding is critical to 
our mission.
                         ihs facilities funding
    In a 2016 Facilities Needs Assessment report the IHS sent to 
Congress, the agency noted that: ``Aging facilities risk code 
noncompliance, lower productivity, and compromises for healthcare 
services. Aging has pushed up costs of maintenance and essential 
repairs. . . .  At the existing replacement rate, a new 2016 facility 
would not be replaced for 400 years.'' Needless to say, we can't wait 
that long. As the 2016 assessment further noted, older IHS facilities 
cannot adequately handle the needed level of services, even if fully 
staffed, and the resulting ``facility capacity bottleneck'' limits 
services well below the level required for current Alaska Native and 
American Indian populations. Modern facilities, with better designs, 
operate at lower costs and improve patient wait times, which remains a 
concern to us and to Congress.
    We are therefore deeply disappointed by the administration's 
proposed fiscal year 2019 budget for the IHS Facilities account of 
$505.8 million, roughly $40 million below the fiscal year 2017 enacted 
level and $362 million below the fiscal year 2018 enacted level which 
Congress and the President approved a few weeks ago.
    We urge the subcommittee to again prioritize IHS Facilities and 
Services funding in the fiscal year 2019 appropriation. We see no 
alternative to overcoming chronic and historical health disparities 
between Alaska Natives and American Indians and the rest of the country 
without increasing funding. Per capita spending for Alaska Natives and 
American Indians is about one-third the national health spending level 
($2,834 versus $9,990).
    Several years ago, in testimony to the subcommittee, we made four 
recommendations to help address the health disparities that exist among 
Alaska Natives and American Indians and the rest of the population 
caused by outdated health facilities and limited staffing and 
equipment.
    First, we asked Congress to replace aging IHS facilities like the 
MEH and to rank projects based on need rather than order of receipt to 
replace such facilities.
    Second, we asked appropriators to tackle the chronic shortfall in 
appropriations for IHS's Facilities funds. This is a tall order. 
According to a recent Facilities Needs Assessment report by IHS 
presented to Congress, the agency estimated that it would cost $10.3 
billion (2016) to construct an additional 18 million feet of new and 
replacement health facility space. That represents a 25 percent cost 
increase just from 2011, when the estimate was $8 billion. The Alaska 
Region's facilities space needs total 2.27 million at a cost of $2.16 
billion, about 21 percent of all IHS Facilities requirement needs in 
the country. According to the 2016 IHS assessment, the Alaska Region 
ranks first in estimated cost requirements for health facility space 
and third in total square footage.
    Third, we asked the subcommittee to provide staffing and equipment 
funds in the IHS appropriation for tribally-renovated IHS facilities as 
authorized under section 1634 of the Indian Health Care Improvement Act 
(IHCIA). Section 1634 allows Tribes to renovate IHS facilities and 
authorizes IHS to provide staffing and equipment, or to place the Tribe 
on a separate priority list for such funds, when the renovation or 
modernization is approved by the IHS Area Director. Congress has, 
however, never funded this IHCIA program. We again urge the 
subcommittee to include at least $10 million for the section 1634 IHCIA 
program. SEARHC would be delighted to be the Alaska demonstration 
project for the initiative in fiscal year 2019.
    Finally, we urged the subcommittee to appropriate additional funds 
to allow IHS to enter into more Joint Venture (JV) projects. The JV 
project provides IHS funds to staff facilities built with Tribal funds. 
SEARHC submitted a JV proposal to build a facility on Prince of Wales 
Island. Like 24 other applicants in a field of 37, our project was not 
chosen, although it received a high score. The JV model is not working 
sufficiently when only a third of projects are funded.
    At nearly 70 years old, the Mt. Edgecumbe Hospital is the oldest 
facility in Alaska and one of the oldest Tribal health facility in the 
Nation. This is nearly twice as old as the average IHS hospital (40 
years) and more than six-and-a-half times the age of the average U.S. 
hospital (10.6 years). The MEH was constructed toward the end of World 
War II by the War Department and focused largely on tuberculosis 
treatment through the 1950s. The hospital is in poor condition and ill-
suited to a 21st century model of healthcare dominated by primary and 
ambulatory care facilities.
    As noted above, the subcommittee responded in fiscal year 2018 with 
a $378 million increase in IHS Services and Facilities funding above 
the fiscal year 2017 enacted level and full funding of Contract Support 
Costs (CSCs). We applaud the subcommittee's strong endorsement of 
Tribal health needs. But for SEARHC to realize our goals of a well-
staffed and equipped replacement health facility for the MEH, and a 
critical access hospital to serve the Prince of Wales Island 
communities, including Craig and Klawock, the subcommittee must sustain 
and build on these important funding increases to the IHS budget in 
fiscal year 2019 and future years.
                              ihs services
    SEARHC appreciates the administration's effort to increase fiscal 
year 2019 appropriations to the IHS, but we fail to understand why the 
administration would eliminate Preventive Health programs such as the 
Community Health Representatives Program and the Health Education 
Program, which Congress funded at $62.88 million and $19.87 million, 
respectively, in fiscal year 2018, or reduce the budget for the Urban 
Health Program by $1 million, and eliminate the Tribal Management 
Grants. In no instance did the administration seek input from or 
consult with affected Tribes and Tribal organizations. While we 
appreciate the administration including $150 million in the fiscal year 
2019 budget for the Special Diabetes Program for Indians (SDPI) and 
$150 million for Opioid Prevention, Treatment, and Recovery Support 
(OPTRS), without modern hospitals and clinics, or the required funding 
for staffing and equipping these facilities, our challenge to improve 
the health of our communities is made more difficult.
                         contract support costs
    A great deal of progress has been made on the issue of Contract 
Support Costs (CSCs), thanks in large part to this subcommittee. We 
appreciate the subcommittee retaining CSCs as an indefinite 
appropriation to ensure full funding to Tribes. We further appreciate 
the subcommittee, in its Conference Report accompanying the fiscal year 
2018 omnibus appropriation, including language directing the IHS to 
award Substance Abuse and Suicide Prevention funds, the Domestic 
Violence Prevention Program, and the Zero Suicide Initiative, and 
related programs, through Indian Self-Determination Act compacts and 
contracts, rather than separate grant instruments which the IHS has 
used to avoid the payment of CSC funds.
    With regard to IHS's CSC policy, we remain concerned that the IHS 
is working outside the framework of the CSC Work Group, and its 
developing unilateral policies without consultation with Tribal 
representatives to the Work Group. The IHS's CSC policy is 
unnecessarily complicated and imposes additional administrative burdens 
on Tribal healthcare providers. The agency is falling behind in making 
fiscal year 2017 CSC adjustments, has not completed CSC adjustments for 
prior years, and miscalculates future CSC needs. These facts lead us to 
the conclusion that the IHS is working too hard to find ways to reduce 
such payments to Tribes.
    We ask the subcommittee to instruct the IHS to redirect its 
energies to better ensuring that Tribal healthcare providers have the 
administrative resources we require to carry out live-saving health 
services to our patients, rather than thinking of ways to limit the 
payment of these important administrative support funds.
    Thank you for affording SEARHC the opportunity to present our 
views.
                                 ______
                                 
             Prepared Statement of the Squaxin Island Tribe
    On behalf of the Squaxin Island Tribal Leadership and citizens, it 
is an honor to provide our funding priorities and recommendations for 
the fiscal year 2019 budgets for the Bureau of Indian Affairs (BIA) and 
Indian Health Service (IHS). We request that Tribal program funding 
throughout the Federal Government be exempt from future sequestrations, 
rescissions and disproportionate cuts.
    We express gratitude to the Committee for its foresight and 
leadership to fully fund Contract Support Cost (CSC) in the BIA and 
IHS. Although full funding in 2014 and 2015 was risky and did impact 
some other Tribal funding, in the fiscal year 2016 enacted spending 
bill you included an estimated amount to fully fund the CSC needs in 
2016 and 2017. Under the new budget structure, going forward, the full 
CSC that Tribes are entitled to will be paid and other programs will 
not be reduced if payments are underestimated in the President's 
budget. The Squaxin Island Tribe agrees that maintaining this structure 
achieves the Nation's legal obligation to fully pay CSC and those 
payments should not be achieved by reducing direct services to any 
Tribe. We further request that the BIA and IHS CSC be reclassified to 
mandatory (permanent) funding.
SQUAXIN ISLAND TRIBE Specific Requests:
    1.  $500,000 Shellfish Management Program--BIA
    2.  $2.5 Million to Build and Operate an Oyster and Clam Nursery 
for Southern Puget Sound--BIA
    3.  $2.5 Million Increase for Northwest Indian Treatment Center 
(NWITC) Residential Program in IHS
REGIONAL Requests and Recommendations:
    Squaxin Island Tribes supports the Regional Budget Requests of the 
Affiliated Tribes of Northwest Indians (ATNI), the Northwest Portland 
Area Indian Health Board (NPAIHB) and the Northwest Indian Fisheries 
Commission (NWIFC).
NATIONAL Requests and Recommendations:
    Squaxin Island Tribe supports the National Budget Requests of the 
National Congress of American Indians (NCAI) and the National Indian 
Health Board (NIHB).
NATIONAL Requests and Recommendations--Bureau of Indian Affairs:
    1.  BIA Rights Protection--Increase funding to $52 million for the 
BIA Rights Protection Implementation
    2.  Fully Fund Fixed Costs and Tribal Pay Costs
    3.  Increase Tribal Base Funding (instead of through grants)
    4.  Law Enforcement:
 a.  Allocate $83 million in additional funding to the BIA to increase 
base funding for Tribal courts.
 b.  Increase funding for BIA law enforcement and detention by at least 
$200 million over the fiscal year 2017 funding level of $353 million.
NATIONAL Requests and Recommendations--Indian Health Service
    1.  Oppose moving Special Diabetes Program for Indians (SDPI) 
funding into discretionary spending from the mandatory account.
    2.  IHS mandatory funding (maintaining current services)--Provide a 
total of $6.4 billion for the Indian Health Service in fiscal year 
2019, a 33 percent increase over the fiscal year 2016 planning base.
    3.  $150 million for Opioid Funding--Increase funding and include 
Tribal set asides in any funding decisions to States.
    4.  Purchased and Referred Care (PRC)--Provide an increase of 
$474.4 million.
                    squaxin island tribe background
    We are native people of South Puget Sound and descendants of the 
maritime people who lived and prospered along these shores for untold 
centuries. We are known as the People of the Water because of our 
strong cultural connection to the natural beauty and bounty of Puget 
Sound going back hundreds of years. The Squaxin Island Indian 
Reservation is located in southeastern Mason County, Washington and the 
Tribe is a signatory to the 1854 Medicine Creek Treaty. We were one of 
the first 30 federally-recognized Tribes to enter into a Compact of 
Self-Governance with the United States.
    Our treaty-designated reservation, Squaxin Island, is approximately 
2.2 square miles of uninhabited forested land, surrounded by the bays 
and inlets of southern Puget Sound. Because the Island lacks fresh 
water, the Tribe has built its community on roughly 26 acres at 
Kamilche, Washington purchased and placed into trust. The Tribe also 
owns 6 acres across Pickering Passage from Squaxin Island and a plot of 
36 acres on Harstine Island, across Peale Passage. The total land area 
including off-reservation trust lands is 1,715.46 acres. In addition, 
the Tribe manages roughly 500 acres of Puget Sound tidelands.
    The Tribal government and our economic enterprises constitute the 
largest employer in Mason County with over 1,250 employees. The Tribe 
has a current enrollment of 1,040 and an on-reservation population of 
426 living in 141 homes. Squaxin has an estimated service area 
population of 2,747; a growth rate of about 10 percent, and an 
unemployment rate of about 30 percent (according to the BIA Labor Force 
Report).
         squaxin island tribe specific requests/justifications
1. $500,000--Shellfish Management--BIA
    The Squaxin Island Tribe faces an ongoing budget deficit to 
maintain and operate the shellfish program at its current level of 
operation--a level that leaves 20 percent of treaty-designated State 
lands and 80-90 percent of private tidelands unharvested due to lack of 
funding. To address this shortfall and enable effective growth and 
development of the program, an annual minimum increase of $500,000 is 
requested. Shellfish have been a mainstay for the Squaxin Island people 
for thousands of years and are important today for subsistence, 
economic and ceremonial purposes. The Tribe's right to harvest 
shellfish is guaranteed by the 1854 Medicine Creek Treaty. Today, we 
are unable to fully exercise our treaty rights due to lack of Federal 
support for our shellfish management program.
2. $2.5 Million--Build and Operate an Oyster and Clam Nursery for 
        Southern Puget Sound--BIA
    A shellfish nursery is a capital project that is both proven and a 
cost effective technology that takes small oyster and clam seeds and 
provides a safe and controlled environment for the seeds to grow to a 
size that can survive integration onto a regular beach placement. 
Aquaculture is expected to provide almost two-thirds of the fish 
intended for global consumption by 2030. Aquaculture involves the 
breeding, rearing, and harvesting of freshwater and marine species of 
fish, shellfish, and aquatic plants. Producers farm in all types of 
water environments including ponds, rivers, lakes, oceans, and land-
based, closed recirculating-water systems. The Squaxin Island Tribe is 
uniquely positioned to meet the demand for increased seed production in 
the shellfish industry. Ocean conditions are affecting the shellfish 
industry as a whole; ranking ocean acidification as the top concern. 
Ocean acidification is making it hard for the tiny organisms to make it 
through the most important stage of their life. They may eat as much 
algae as they can, but with current ocean conditions, such as the 
decreasing pH of the water, they cannot eat enough to get the energy 
they need to grow their shell and increase body mass. In addition, due 
to weather and/or other environmental factors, the regional shellfish 
growers in southern Puget Sound continue to face a shortage of viable 
seed for their shellfish farms.
    Our original treaty-designated reservation, Squaxin Island, is a 
restricted-access area, and therefore an ideal location for such a 
nursery because it will not be disturbed by residents or recreational 
boaters. This project would be a capital cost of approximately $2.5 
million. The Tribal in-kind contribution to the effort would include 
land, shoreline and operating costs. Comparable land and shoreline, if 
privately owned, would be easily valued in the higher millions. The 
Squaxin southern Puget Sound oyster and clam nursery will be an 
extension of another project that was created through a U.S. Department 
of Agriculture appropriation two decades ago for the Lummi Tribe, which 
created an oyster and clam hatchery in Northern Puget Sound.
3. $2.5 Million Increase for Northwest Indian Treatment Center (NWITC) 
        Residential Program--IHS ``D3WXbi Palil'' meaning ``Returning 
        from the Dark, Deep Waters to the Light"
    The Squaxin Island Tribe has been operating the Northwest Indian 
Treatment Center (NWITC) since 1994. The Center, given the spiritual 
name ``D3WXbi Palil'' meaning ``Returning from the Dark, Deep Waters to 
the Light'', is a residential chemical dependency treatment facility 
designed to serve Native Americans who have chronic relapse patterns 
related to unresolved grief and trauma. NWITC serves adult clients from 
Tribes located in Oregon, Washington and Idaho. Since the original 
Congressional set-aside in the IHS budget for alcohol and substance 
abuse treatment for residential facilities and placement contracts with 
third-party agencies in 1993, NWITC has not received an adequate 
increase in the base IHS budget. With the well-documented nation-wide 
rise in prescription opioid and heroin abuse, it is more critical than 
ever to increase the NWITC's annual base in order to sustain the 
current services to the Tribes of the Northwest. AI/AN face opioid 
related fatalities three times the rate of non-Natives. An increase of 
$2.5 million would restore lost purchasing power, ensure adequate 
baseline operating funds and allow NWITC to continue to meet the needs 
of Native Americans and their communities.
    national requests and recommendations--bureau of indian affairs
    1.  BIA Rights Protection--Increase funding to $52 million--This 
Subactivity Account has a clear and direct relationship with the 
Federal trust obligation to Tribes. This program ensures compliance 
with Federal court orders by implementing effective Tribal self-
regulatory and co-management systems. The benefits of these programs 
accrue not only to Tribes, but to the larger communities as well. In 
addition, this program supports implementation of the United States/
Canada Pacific Salmon Treaty.
    2.  Fully Fund Fixed Costs and Tribal Pay Costs--Partial funding or 
failing to fund Pay Costs for Tribes has devastated Tribal communities 
by causing critical job losses. Over 900 Tribal jobs have been lost and 
an estimated 300 more jobs will be permanently lost on an annual basis 
if 100 percent Pay Costs are not provided. The Tribal losses are being 
further exacerbated by recent projections of costs that have been 
significantly underestimated. We strongly urge full funding of fixed 
costs and Tribal pay costs.
    3.  Increase Tribal Base Funding (instead of through grants)--Grant 
funding, particularly inside the BIA, is not consistent with the intent 
of Tribal self-determination. Tribal leaders have grown increasingly 
frustrated by the increase in Indian Affairs funding offer through 
grants. Allocating new funds via grants marginalizes and impedes Tribal 
Self-Determination and Self-Governance. Provide increases via Tribal 
base funding instead of through grants to Tribal governments.
    4. Law Enforcement:
 a.  Allocate $83 million in additional funding to the Bureau of Indian 
Affairs to increase base funding for Tribal courts, including courts in 
Public Law 280 jurisdictions, and to incrementally move towards fully 
meeting the need for Tribal court funding; and,
 b.  Increase funding for Bureau of Indian Affairs (BIA) law 
enforcement and detention by at least $200 million over the fiscal year 
2017 funding level of $353 million, including an increase in funds for 
officer recruitment and training and for Tribal detention facilities 
operations and maintenance.
      national requests and recommendations--indian health service
    1.  Special Diabetes Program for Indians (SDPI)--Oppose moving SDPI 
funds into discretionary spending from mandatory spending. That will 
mean SDPI will compete for other Indian program funding annually, as 
opposed to being funded automatically. Need to have Tribal 
consultation.
    2.  IHS mandatory funding (maintaining current services)--Provide a 
total of $6.4 billion for fiscal year 2019, a 33 percent increase over 
2016 planning phase. If these mandatory requirements are not funded, 
Tribes have no choice but to cut health services, which further reduces 
the quantity and quality of healthcare services available to AI/AN 
citizens.
    3.  $150 million for Opioid Funding--Increase funding and include 
Tribal set asides in any funding decisions to states. Addressing the 
opioid epidemic is a nationwide priority. American Indians and Alaska 
Natives face opioid related fatalities three times the rate on non-
Indians. Tribal governments must be included in major agency-wide 
funding decisions, including to states, to treat and prevent opioid 
misuse.
    4.  Purchased and Referred Care (PRC)--Provide an increase of 
$474.4 million. The Purchased/Referred Care program pays for urgent and 
emergent and other critical services that are not directly available 
through IHS and Tribally-operated health programs when no IHS direct 
care facility exists, or the direct care facility cannot provide the 
required emergency or specialty care, or the facility has more demand 
for services than it can currently meet.
    Thank you for accepting the fiscal year 2019 budget requests and 
recommendations for the Squaxin Island Tribe.

    [This statement was submitted by Ray Peters, Intergovernmental 
Affairs Liaison.]
                                 ______
                                 
          Prepared Statement of the Standing Rock Sioux Tribe
    The Standing Rock Sioux Tribe appreciates the opportunity to submit 
written testimony concerning the President's fiscal year 2019 budget 
for Indian programs within the Department of the Interior and the 
Indian Health Service. We would like to thank this Committee for 
supporting Indian Tribes. Our testimony will focus on healthcare, 
public safety, education, and infrastructure.
    The Standing Rock Sioux Tribe has a government to government 
relationship with the United States of America, reflected in our 1851 
and 1868 Treaties. These Treaties underscore the United States' ongoing 
promises and obligations of to the Tribe. Our testimony today is 
submitted with those promises and obligations in mind.
    The Standing Rock Sioux Reservation encompasses 2.3 million acres 
in North and South Dakota. Approximately 8,500 of our 16,000 Tribal 
members, and 2,000 non-members, reside in eight communities spread 
across our rural Reservation. The Tribe's primary industries are cattle 
ranching and farming. The Tribe struggles to provide essential 
governmental services to our members. The Tribe's desire is to provide 
jobs and improve the economic standard of living on our Reservation.
    Despite the Tribe's best efforts, our unemployment rate remains 
above 80 percent. In fact, over 40 percent of Indian families on our 
Reservation live in poverty--more than triple the average U.S. poverty 
rate. The disparity is worse for children, as 52 percent of the 
Reservation population under age 18 lives below poverty, compared to 16 
percent and 19 percent in North and South Dakota, respectively. The 
Federal programs to aid Tribes and their members--established and 
promised by treaty--are essential. We ask the government to honor its 
commitments by adequately funding these Federal programs enacted for 
our benefit, so that our members may enjoy a standard of living 
comparable to that enjoyed by the rest of the Nation.

    Our specific requests are as follows:

    Indian Health Service.--We greatly appreciate the $500 million 
increase Congress provided in IHS funding for fiscal year 2018. We 
depend on IHS to care for our 16,000 enrolled Tribal members, many of 
whom suffer from diabetes, heart disease, and hypertension.
    The Tribe requests increased funding for substance abuse response 
and treatment throughout Indian Country. The Standing Rock Sioux 
Reservation, like all of Indian Country, is facing an opioid and 
methamphetamine abuse crisis. Opioid addiction can be life long and 
must be treated as a behavioral health illness. Tribes need additional 
mental health specialists and substance abuse counselors to combat this 
issue in a holistic and productive way.
    The Tribe knows that this Committee supports Indian Country and in 
particular our health priorities, but we want to be sure to voice our 
strong objections to the administration's proposal to eliminate the 
Community Health Representatives Program (CHRs). CHRs are the frontline 
for medical care in our communities. They conduct wellness checks on 
our elders, ensure that our children make their dental appointments, 
and provide our members with rides to medical appointments. Without 
these dedicated professionals, many of our members would not get the 
care that they need.

    Child Protective Services.--Services to assist child victims are 
sorely lacking. The statistics demonstrate an overwhelming need. 
According to the Department of Justice, Indians have the highest rate 
of victimization in the Country. According to the 2016 ACF Report on 
Child Maltreatment, Indian children account for almost 30 percent of 
the abuse cases in North Dakota and almost 45 percent of the cases in 
South Dakota. However, we are only 5.5 percent of the population in in 
North Dakota and 9 percent in South Dakota. Finally, according to the 
Anne Casey Foundation, in 2015, 27 percent of the children in foster 
care in North Dakota were Indian and in South Dakota the statistic is 
even more startling at 49 percent of the children in that State's 
foster care system are Indian.
    The Tribe's Child Protection Service program works very hard to 
address the needs of our children facing this crisis. But there are 
only two investigators for this program to protect our children in 
eight widely scattered communities across our Reservation. The CPS 
program is outstanding, but it is overwhelmed by the scope and 
magnitude of the problems it must address. Where child victims need to 
be placed in a different environment for their safety, there are far 
too few alternatives. For example, for a service population of about 
8,000, there are only six approved foster homes on the Reservation. 
These homes are always at capacity, so we have no choice but to place 
some of these children--who have faced the trauma of violence in the 
home--off the Reservation, compounding trauma to the victim. There is 
simply an inadequate supply of safe housing alternatives for children 
who must be moved for their own safety.
    We urge the Committee to increase funding for both BIA social 
services and ICWA programs. Without these resources, we will not be 
able to meet the needs of our most vulnerable population.

    BIA--Public Safety and Justice.--Public safety is a priority for 
the Tribe. We applaud the final fiscal year 2018 enacted appropriations 
levels for Public Safety and Justice totaling $405 million, and urge 
the Committee to reject the administration's unwarranted reductions and 
continue to support increases for next year. As you know, funding is 
essential for public safety in Indian Country.

    Law Enforcement.--The Tribe has seen firsthand that adequate law 
enforcement funding is key to reducing crime. A number of years ago, 
the Standing Rock Sioux Tribe was selected to participate in the High 
Priority Program Goals initiative, which dramatically increased law 
enforcement positions on our Reservation. This had a significant 
positive impact in reducing crime. Increased numbers of police officers 
allowed proactive policing rather than reactive policing. This 
initiative enabled officers to be assigned within each Reservation 
community, which meant quicker response time to calls and more positive 
relationships between law enforcement officers and the communities they 
served. The increased law enforcement presence and patrols has deterred 
crime and resulted in our members feeling safer. The data confirms 
this. When compared to the number of violent crimes (homicide, rape, 
robbery, assault) that occurred between 2007 and 2009, the additional 
staffing reduced such crimes by approximately: 7 percent in 2010, 11 
percent in 2011, and 15-19 percent in 2012. The initiative demonstrated 
the critical importance that adequate law enforcement staffing can have 
in our community.
    HPPG ended after fiscal year 2013 and the Tribe's law enforcement 
personnel were reduced from the numbers that served us so well. We now 
have only 11 officers patrolling our entire 2.3-million-acre 
Reservation. We have only 1 School Resource Officer to serve the eight 
schools on the Reservation. This at a time when the need for public 
safety and security in our schools is at an all-time high. We strongly 
support an increase in funding for fiscal year 2019 for law enforcement 
services at Standing Rock.

    Bureau of Indian Education (BIE).--We urge you to reject the 
administration's proposed cuts for BIE programs. Standing Rock relies 
on BIE funding for three Tribal grant schools--the Standing Rock 
Community School (K-12), Sitting Bull School (K-8), and Rock Creek 
School (K-8). The Standing Rock Community School is operated through a 
Joint Powers Agreement between the Standing Rock Tribal Grant School 
and the Fort Yates Public School District. The Fort Yates Public School 
District, like other public schools on the Reservation (Cannonball, 
Selfridge, McLaughlin, McIntosh, and Wakpala), depends on Federal 
impact aid to cover the costs of the public school's share of the 
school operations. The children in the schools on the Reservation are 
among the most at-risk students in the Nation. At seven out of eight 
Public and Tribal Grant Schools on our Reservation, 100 percent of the 
students are eligible for the Free or Reduced Lunch Program. At the 
remaining school, 90 percent of students are eligible for the Free or 
Reduced Lunch Program. The high rate of our student eligibility for the 
Free or Reduced Lunch Program documents that the majority of our 
families live at or below poverty level.
    A critical source of funds for the operation of our Tribal grant 
schools is the Indian School Equalization Program (ISEP) Formula funds. 
The funds cover the costs of the schools' instructional programs, 
including salaries for teachers, teacher aides, school administrative 
staff and other operational costs. ISEP has not seen any meaningful 
increase in years. As a result, there has been a significant negative 
impact on the effectiveness of the schools' instructional programs. 
Academic programs are marginal at best and provide limited services to 
the students. It has become more difficult to attract and retain 
qualified staff. If the schools serving Indian children are to be 
effective and if our students are to succeed, and be college and career 
ready, ISEP funding must be increased.
    The near flat line funding for virtually all aspects of BIE 
programs does not account for population growth, increased costs, or 
inflation. Student Transportation funding, intended to cover the costs 
of buses, fuel, maintenance, vehicle replacements, and drivers, has 
remained at the same level for years. Proposed cuts to BIE funding are 
unjustified. The substantial increases in fuel costs alone make it 
impossible to cover such costs. For Standing Rock, funds are further 
strained because we are a rural community, where bus runs for many of 
our students may take 1\1/2\ to 2 hours each way and can include travel 
on unimproved roads. These factors result in higher maintenance costs 
and shorter vehicle life. A substantial increase in funds for Student 
Transportation is long overdue.

    Transportation.--Proper road maintenance on the Reservation is 
essential for the safety and health of our community, and for promoting 
economic opportunities. BIA Road Maintenance is responsible for 29,700 
miles of BIA owned road and 931 BIA owned bridges. The administration 
request of $28 million request would fund approximately 16 percent of 
the level of need for BIA road maintenance. Thus, 84 percent of the 
roads in the BIA systems will continue to be at poor or failing 
condition. These are roads used by school buses, first responders and 
police officers. In any other community this would be unacceptable. We 
urge the subcommittee to continue to increase funding for the BIA road 
maintenance program.
                                 <greek-l>
                                 ______
                                 
  Supporters of the Diesel Emissions Reduction Act Program (DERA) deg.
  Prepared Statement of U.S. Senators in Support of the Environmental 
   Protection Agency's Diesel Emissions Reduction Act Program (DERA)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <greek-l>
                                 ______
                                 
    Supporters of the Environmental Protection Agency's Brownfields 
                              Program deg.
  Prepared Statement of U.S. Senators in Support of the Environmental 
                Protection Agency's Brownfields Program
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <greek-l>
                                 ______
                                 
  Supporters of the Environmental Protection Agency's Lead Abatement, 
               Inspection, and Enforcement Programs deg.
  Prepared Statement of U.S. Senators in Support of the Environmental 
    Protection Agency's Lead Abatement, Inspection, and Enforcement 
                                Programs
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <greek-l>
                                 ______
                                 
 Supporters of the Environmental Protection Agency's Long Island Sound 
                        Geographic Program deg.
  Prepared Statement of U.S. Senators in Support of the Environmental 
        Protection Agency's Long Island Sound Geographic Program
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <greek-l>
                                 ______
                                 
   Supporters of the Environmental Protection Agency's Programs That 
Improve Children's Environmental Health and Educational Facility Issues 
                       for Fiscal Year 2019 deg.
  Prepared Statement of U.S. Senators in Support of the Environmental 
  Protection Agency's Programs That Improve Children's Environmental 
      Health and Educational Facility Issues for Fiscal Year 2019
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <greek-l>
                                 ______
                                 
      Supporters of the Forest Inventory and Analysis Program deg.
 Prepared Statement of Supporters of the Forest Inventory and Analysis 
                                Program
Dear Chairman Murkowski and Ranking Member Udall,

    The undersigned organizations are strong supporters of the Forest 
Inventory and Analysis (FIA) program funded by the USDA Forest Service 
(Forest Service). We rely on the inventory data and analysis of 
America's forests provided by the program, which make up the backbone 
of scientific knowledge on the current state of the Nation's forests. 
This critical information is needed to support sound policy and forest 
management decisions, both public and private, and is increasingly 
important for decisions regarding new and expanding markets. We urge 
the Congress to support the FIA program and request funding for the 
program in fiscal year 2019 of at least $83 million to move the program 
toward providing an accurate and timely inventory of America's forests. 
We also urge the inclusion of language ensuring that this funding 
would, at minimum, maintain historic remeasurement cycles--every 7 
years in the east and every 10 years in the west--as referenced by the 
administration.
    The data and information collected by FIA serves as the basis for: 
identifying trends in forest ownership; measuring carbon stocks; 
assessing fish and wildlife habitat; evaluating wildfire, insect, and 
disease risk; predicting the spread of invasive species; determining 
capital investment in existing forest products facilities and selecting 
locations for new forest product facilities; and identifying and 
responding to priorities identified in State Forest Action Plans.
    The FIA program is utilized by a large set of diverse stakeholders 
interested in the state of America's forests. These include forest 
resource managers at mills, land managers, conservation groups, 
university students and faculty, and State and Federal agencies, such 
as the U.S. Environmental Protection Agency (EPA).
    The undersigned organizations would like to work with Congress to 
further explore program potential. An annual funding level of $83 
million would support a 7 year annualized program in the east, and a 10 
year program in the west as recommended in the Forest Service's 2007 
FIA Strategic Plan. In 2015 the Forest Service released an updated FIA 
Strategic Plan, which outlines a variety of potential program 
deliverables at funding levels. While we are supportive of at least $83 
million in funding for fiscal year 2019, the 2015 Strategic Plan calls 
for $103 million to implement the 5 year annualized program called for 
in the 1998 Farm Bill. This reduction in cycle length would provide 
more accurate data to support important forest resource decisions. As 
engaged partners, we are interested in working with Congress and the 
Forest Service to make program delivery as efficient as possible and to 
support additional Federal investment to implement many of the useful 
tools outlined in the new FIA Strategic Plan--including full urban 
inventory, increased plot density, and improved carbon and biomass 
estimates.
    There is a need to make FIA data more robust and more useful for 
emerging uses, such as accurate information regarding carbon stocks, 
forest sustainability monitoring, wildlife habitat assessments, and 
much more. Given the increasing pressures facing our forests--from 
wildfire, insects and disease and development--the FIA program is more 
important now than ever before. Funding the FIA program at $83 million 
for fiscal year 2019 would move toward providing for our growing data 
needs.

            Sincerely,

Alabama Forestry Association
Aldo Leopold Foundation, Inc.
American Forest & Paper Association
American Forest Foundation
American Forests
American Wood Council
American Woodcock Society
Arkansas Forestry Association
Association of Consulting Foresters of America
Center for Invasive Species Prevention
Connecticut Forest & Park Association
Conservation Northwest
Conservation Resource Partners, LLC
Empire State Forest Products Association
Environmental Defense Fund
Enviva
Florida Forestry Association
Forest Business Network LLC
Forest Industry National Labor Management Committee
Forest Resources Association
Forestry Association of South Carolina
Green Forests Work
Indiana Forestry & Woodland Owners Association
International Paper
Kansas Tree Farm Committee
Kentucky Forest Industries Association
Louisiana Pacific
Michigan Forest Association
Minnesota Forestry Association
Mississippi Forestry Association
National Alliance of Forest Owners
National Association of Forest Service Retirees
National Association of State Foresters
National Lumber & Building Material Dealers Association
National Wild Turkey Federation
National Wooden Pallet and Container Association
Ohio Forestry Association, Inc.
Rayonier
Ruffed Grouse Society
Rural & Agriculture Council of America
Society for Range Management
Society for the Protection of NH Forests
Society of American Foresters
Sonen Capital
Texas Forestry Association
The American Chestnut Foundation
The Hardwood Federation
The Pennsylvania Forestry Association
The Westervelt Company
Treated Wood Council
Trees Forever
Vermont Woodlands Association
Virginia Forestry Association
Washington Farm Forestry Association
Washington Forest Protection Association
Western Wood Preservers Institute
Wisconsin Paper Council
      
                                 <greek-l>
                                 ______
                                 
   Supporters of the Greater Sage-Grouse and Sage-Steppe Habitat deg.
 Prepared Statement of Supporters of the Greater Sage-Grouse and Sage-
                  Steppe Habitat in the American West
Dear Chairman Murkowski and Ranking Member Udall:

    On behalf of the hundreds of thousands of sportsmen and women, 
conservationists and outdoor recreation enthusiasts represented by our 
organizations, we are writing to request your support for robust levels 
of fiscal year 2019 Interior, Environment and Related Agencies 
Appropriations funding for several key programs benefitting the greater 
sage-grouse and sage-steppe habitat in the American West. We have also 
included three subcommittee report language requests for your 
consideration as a companion to our funding requests. We would like to 
thank this subcommittee for your tremendous leadership on sage grouse 
priorities through a series of recent budget cycles and encourage your 
continued commitment to the following important priorities:

    BLM Resource Protection and Maintenance.--We support stable levels 
of fiscal year 2019 funding consistent with the final fiscal year 2018 
level and additional funding if available for the BLM Resource 
Protection and Maintenance account. The Resource Protection and 
Maintenance account supports BLM land use planning and compliance 
activities as required by the National Environmental Policy Act (NEPA) 
and Federal Land Policy and Management Act (FLPMA) and ensures public 
land conservation and environmentally sensitive resources, such as the 
greater sage-grouse, are fully considered during the land use planning 
process.
    BLM Resource Management Planning.--The BLM is guided by the Greater 
Sage Grouse Conservation Strategy which is the largest landscape-level 
conservation and restoration effort in contemporary U.S. history, and 
is unprecedented in geographic scale and complexity. As BLM continues 
implementing the 98 sage grouse plans, new information and challenges 
have identified further needed investments to keep plan implementation 
effective and on schedule. We support strong fiscal year 2019 funding 
consistent with the final fiscal year 2018 funding levels for the BLM's 
focus on sage-grouse conservation. Greater sage-grouse habitat has 
experienced a precipitous decline across the West, and ongoing 
collaboration across public and private lands is needed to ensure this 
species remains off the Endangered Species list. These efforts also 
benefit other game species such as mule deer and support recreational 
hunting and associated rural jobs across much of the West.
    We wish to thank the subcommittee for your support for increased 
fiscal year 2018 levels of funding for the Resource Management Planning 
subactivity and encourage the subcommittee to again recommend specific 
funding under this budget for greater sage-grouse, sage-steppe and 
other high priority conservation efforts. This activity includes 
funding for BLM's high priority planning efforts including the 
initiation of new resource management plans, plan evaluations and 
implementation strategies. Ensuring BLM has the resources necessary to 
integrate the most recent State and Federal fish and wildlife data; 
current trends in outdoor recreation and land use activities; and 
ongoing energy development within the planning process is paramount for 
ensuring the agency is achieving desired conditions across the more 
than 247 million acres of BLM-managed public lands. We support the BLM 
Land Use Planning function and its focus on collaboration with local 
communities and State and Tribal governments, as well as on science-
based analysis.
    BLM Assessment, Inventory and Monitoring (AIM) Program.--The BLM 
Resource Management Planning sub-activity includes the AIM Program 
account. The AIM Program is built around a strategy designed to reach 
across programs, jurisdictions, stakeholders and agencies to provide a 
framework for consistent data and information valuable to 
decisionmakers. The AIM Program has been important in ongoing DOI and 
BLM sage-grouse partnership efforts and we support maintaining this 
program consistent with final fiscal year 2018 funding.
    BLM Wildlife and Fisheries Management.--We support strong funding 
levels consistent with final fiscal year 2018 levels and increases if 
available for the BLM Wildlife and Fisheries Management account and the 
agency's work through this account to support the maintenance, 
restoration, and enhancement of fish, wildlife and their habitats on 
public lands throughout the BLM system. Important BLM activities such 
as conducting inventories of fish and wildlife resources and developing 
cooperative management plans while providing for responsible recreation 
and commercial uses are critically important for BLM's ongoing work 
with State fish and wildlife agencies and local communities across the 
West. A BLM Wildlife Management program increase would primarily 
support more on-the-ground vegetative treatments to protect, improve, 
or restore sage steppe habitat and other high priority habitats. Funds 
also would assist States in implementing greater sage-grouse 
conservation plans. In addition to strong annual levels of funding for 
this account, we support specifically identifying annual funding within 
this account for sage-grouse conservation efforts.
    BLM National Seed Strategy.--The BLM's efforts to implement the 
Greater Sage Grouse Conservation Strategy are reliant upon successful 
execution of the National Seed Strategy, which is integral to the 
Administration's wildland fire rehabilitation efforts and the success 
of the DOI Integrated Rangeland Fire Management Strategy. Congress 
approved a $5.0 million program increase in fiscal year 2017 within the 
Wildlife Management account to more aggressively implement the National 
Seed Strategy and develop much needed nationwide networks of native 
seed collectors, researchers developing wildland seed into commercial 
crops, farmers and growers increasing native seed supplies, and 
nurseries and storage facilities providing sufficient amounts of 
appropriate seed. Restoration ecologists will identify the appropriate 
timing and placement for seed and plant material to optimize treatment 
results. The seed materials and knowledge gained from BLM's investment 
in the National Seed Strategy will focus on restoring the sage-steppe 
landscape in the near term, with all BLM land rehabilitation and 
restoration efforts benefitting over the long-term. We support a level 
of funding consistent with fiscal year 2017 and final fiscal year 2018 
levels for the National Seed Strategy.
    BLM Office of Wildland Fire.--We support no less than $30 million 
in funding for the Resilient Landscapes program and increases 
consistent with fiscal year 2018 final funding and spend plans within 
the Office of Wildland Fire to allow the BLM to continue to support 
resilience work in the sagebrush ecosystem.
    USFWS Greater Sage-Grouse Conservation.--We support several 
important programs within the USFWS budget to support greater sage-
grouse conservation including the Conservation and Restoration; 
Wildlife and Habitat Management; and Partners for Fish and Wildlife 
accounts. Consistent with earlier recommendations, we support the 
subcommittee's focus on sage-grouse within these budgets and encourage 
the subcommittee to continue to identify funding within the Candidate 
Conservation account for the sagebrush steppe ecosystem. Similarly, the 
Partners for Fish and Wildlife Program coordinates closely with BLM and 
NRCS to work with private landowners on voluntary, non-regulatory 
partnerships to advance sage-grouse conservation across the West. We 
strongly support this program and urge the subcommittee to consider an 
increase to support the work of program staff and their ongoing efforts 
to advance on-the-ground sage grouse conservation in close coordination 
with the Nation's ranching and agricultural communities.
    USGS Greater Sage-Grouse Conservation.--We support funding 
consistent with fiscal year 2018 levels in fiscal year 2019 to provide 
the resources necessary for USGS engagement on sage grouse science, 
data collection and technical assistance.
    USFS Greater-Sage Grouse Conservation.--The USFS is a key Federal 
partner along with DOI and its agencies in on-the-ground collaboration 
on sage grouse conservation. In addition to USFS sage-grouse forest 
planning activities, the agency has been engaged in the Greater Sage 
Grouse Conservation Engagement Strategy and has established a national 
position to coordinate on sage grouse issues as well as new State 
liaisons responsible for transferring information to the States. We 
support this USFS engagement role and the resources necessary to ensure 
this coordination remains a priority.
      interior, environment and related agencies language requests
1.  We thank the subcommittee for your work to oppose new greater sage-
grouse language in the final Fiscal Year 2018 Omnibus Appropriations 
Act. In addition to continued support for BLM sage-grouse funding, we 
continue to encourage this subcommittee to oppose efforts to attach 
sage-grouse rider language during the fiscal year 2019 appropriations 
process.

2.  We have concerns regarding recent indications the BLM is shifting 
funding away from the Assessment, Inventory and Monitoring (AIM) 
strategy and its focus on the greater sage-grouse and data coordination 
activities. AIM is funded by both the BLM Wildlife Management and 
Planning subactivities. We strongly support maintaining this account 
consistent with fiscal year 2018 funding and ensuring sage-grouse 
remains a priority activity for this program.

    Recommended language: As many of the greater sage-grouse plan 
decisions operate across multiple BLM field offices and jurisdictional 
boundaries, it is critical that BLM field offices have a shared 
understanding of the commitments in the greater sage-grouse plans and a 
common approach to implementing them. BLM's development of the 
Assessment, Inventory and Monitoring (AIM) strategy has been critical 
in this effort and the Committee supports funding for AIM consistent 
with fiscal year 2018 levels.

3.  We have concerns regarding recent indications the BLM is shifting 
funding from resource programs designed to do proactive work (resource 
program subactivities: Cultural; Wildlife; Soil/Water/Air) to support 
oil and gas plan amendments. This has been a long-standing issue 
between programs at BLM. BLM Planning has long pushed the other BLM 
resource programs to use their funding to support oil and gas plans, 
planning amendments, and project assessments to help analyze how these 
proposed actions impact their resources (e.g., directing the BLM 
Wildlife Program to spend money studying how oil/gas amendments impact 
wildlife). Justifiably, we understand and support the resource programs 
using their funding for beneficial activities for their designated 
resources, but not for analyzing impacts from planning or project 
proposals from other programs.

    Recommended language: The Committee has concerns regarding BLM 
funding shifts from BLM resource program subactivities such as 
cultural, wildlife, and soil/air/water for use by BLM to analyze 
impacts to designated resources of proposed projects or plans. All 
proposed project assessments or planning should come from funding 
within the planning program or within the sub-activity that is the 
primary beneficiary of the project or plan rather than from other non-
planning, supporting resource program sub-activities.

    Thank you for your consideration of these appropriations and 
language requests and we look forward to working with you and your 
staff as the fiscal year 2019 budget process moves forward this year.

            Sincerely,

Archery Trade Association
Backcountry Hunters & Anglers
California Waterfowl
Fly Fishers International
National Bobwhite Conservation Initiative
National Deer Alliance
National Wildlife Federation
National Wildlife Refuge Association
Pheasants Forever
Pope and Young Club
Quail Forever
Quality Deer Management Association
Snook and Gamefish Foundation
The Nature Conservancy
Theodore Roosevelt Conservation Partnership
Wildlife Management Institute
      
                                 <greek-l>
                                 ______
                                 
            Supporters of the Investment in USDA Forest deg.
Prepared Statement of Supporters for Investment in USDA Forest Service 
                        Research and Development
Dear Chairman Murkowski and Ranking Member Udall:

    Improving the future health and sustainability of the Nation's 
forests and grasslands requires a strong investment in USDA Forest 
Service Research and Development (R&D), with benefits to forests, 
wildlife, and fish. The undersigned organizations and professional 
societies urge Congress to increase funding for all Forest Service R&D 
to a minimum of $307 million in fiscal year 2019 including all 
necessary increases for the Forest Inventory and Analysis program and 
at least $224 million for the remaining Forest and Rangeland Research 
program areas.
    Building on over 100 years of critically important research, Forest 
Service R&D programs inform policy and land-management decisions that 
improve health and use of the Nation's forests and rangelands, 
including aquatic systems. Funding for these important activities is 
critical to sustaining the Nation's natural resources. Showing value in 
this investment requires R&D leaders and scientists be attuned and 
responsive in providing relevant and timely information and support 
with an ability to effectively deliver assistance to all users.
    The work conducted at experimental forests and ranges, regional 
research stations, and the Forest Products Lab, incubates progress on 
new products and services; tracks disturbance responses; fosters 
greater forest resilience; quantifies contributions to air and water 
quality; and drives innovation in renewable energy and product 
development. Notable recent Forest Service R&D contributions include:
Using Science to Guide Drought Management Response
    Forest Service R&D has been a leader in reviewing impacts of 
drought on U.S. forests and rangelands to help better manage for 
drought resiliency and adaptation going forward. In 2016 Forest Service 
R&D released an assessment report that included management options to 
help Federal, State, and private organizations implement strategies to 
sustain healthy, resilient ecosystems that continue to produce vital 
goods and services, such as forest products and recreational fishing 
opportunities. This scientific synthesis of all recent research with 
additional research into identifying drought indicators on the 
landscape are important to natural resources managers as they consider 
how to integrate drought contingencies in planning efforts.
Helping to Identify Pragmatic Solutions for Species at Risk
    Through long-term monitoring and collaborative research efforts 
with state agencies and other partners, Forest Service R&D generates an 
understanding of wildlife-habitat relationships for multiple species 
and communities that enables informed land management decisions that 
benefit wildlife and people. This includes informing conservation 
efforts that have helped to avoid Endangered Species Act listings for 
several forest and rangeland wildlife species. The USFS works on the 
greater sage-grouse in cooperation with the Bureau of Land Management 
culminated in two USFS Records of Decision and associated land 
management plan amendments to conserve greater sage-grouse and its 
habitat on National Forest System lands and Bureau of Land Management-
administered lands.
Improving Smoke and Fire Management Capabilities
    The Prescribed Fire Combustion and Atmospheric Dynamics Research 
Experiment is a landmark study improving predictions of fire spread and 
smoke behavior. This behavior prediction tool with the Blue Sky Smoke 
Management Model allows fire managers to better understand where flames 
and smoke from wildland fires will go to alert affected communities 
sooner and reduce human health effects. These tools also support 
decisionmaking for prescribed fires, allowing managers to model a 
variety of different scenarios to evaluate potential impacts on air 
quality and soil under a variety of conditions. Research scientists 
continue to expand on this landmark study by mapping risk assessments 
for entire national forests to better determine risk, predict cross 
boundary transmission probabilities that aid safe and effective use of 
fire as a tool. The desired outcome is increasing forest resiliency to 
disturbances, improving forest health, and protecting communities.
Developing Innovative Solutions to Managing Invasive Species
    Forest Service R&D also develops innovative solutions to manage 
invasive pathogens and species that can decimate native plant and 
animal populations. This includes but is not limited to developing a 
cost-effective way to quickly identify the presence or absence of 
invasive species in an aquatic environment through eDNA technology; 
developing trees with a natural resistance to emerald ash borers; and 
successfully developing the first nonlethal treatment for white-nose 
syndrome (WNS)--a lethal fungal disease that has reduced bat 
populations by upwards of 80 percent in certain parts of the country. 
As voracious consumers of insect pests, bats reduce the pesticide bill 
of the U.S. agricultural industry by over $23 billion annually. Using a 
native soil bacterium to inhibit growth of the fungus that causes WNS, 
USFS researchers have been able to return previously sick bats to the 
wild.
Expanding and Protecting U.S. Market Opportunities for Forest Resources
    The Forest Products Laboratory drives innovation and expansion of 
commercial applications for forest products. The work at the Lab on 
woody biofuels, advanced composites and wood structures, and value- 
added wood products promotes healthy forest ecosystems and economies by 
creating, enhancing, and protecting markets for forest products. In 
partnership with universities, scientists from Research Stations across 
the country, and partners in the private sector, the Lab is exploring 
potential of mass timber structures by conducting work on building 
codes and wood utilization models to increase use of wood in building 
construction and potentially invigorate markets for materials that were 
previously considered low value or undesirable. The Lab also houses the 
leading producer of nanocellulose material in the U.S. and explores 
breaking the woody fiber down to the nanoscale and what commercial uses 
make sense for this high strength, low weight material that can be 
collected from nearly any source. Building on unparalleled 
understanding of wood properties, R&D scientists are also able to 
combat deforestation and timber and wildlife trafficking by identifying 
origin of wood products, thereby protecting U.S. supply chains.
Calculating the Value of Urban Forests and Trees
    The publication of Community Tree Guides helps managers calculate 
the value of new tree plantings in terms of property value increases, 
future energy savings, air pollutant uptake, and storm water runoff 
reduction. Credible information quantifying benefits of managed urban 
forests helps cities protect and restore environmental quality and 
enhance economic opportunity.
Guiding Conservation and Management of Aquatic Species
    Using stream temperature and fish data, Forest Service R&D is 
developing important tools to inform and enhance management and 
conservation of aquatic resources. Climate Shield produces spatially-
precise and user-friendly digital maps to guide conservation efforts in 
key watersheds. This tool forecasts specific locations that are most 
likely to continue supporting native cutthroat trout and ESA-listed 
bull trout allowing managers to make precise predictions about which 
streams are most likely to continue supporting native trout species 
based on future temperature scenarios.
Quantifying the Role of Forests in Providing Clean Air and Water
    This research directly linking trees to clean air and water 
underscores the economic value and benefits trees and forests provide 
to all residents and communities. Recent R&D work shows that forests, 
which make up 26 percent of U.S. land area, are the source of 46 
percent of the U.S. water supply--generating far better returns than 
other land uses. Forest Service R&D's understanding of how to manage 
forested landscapes to enhance production of sustained, low cost clean 
water supplies is critically important. Studies are also linking 
contributions of plants and trees to improved air quality and human 
health benefits. The community benefits that plants provide while 
removing pollutants and improving human health is valued at nearly $7 
billion every year and is significantly more cost effective than 
alternatives.
    Advancing forest science is integral to improving the health and 
welfare of U.S. forests and citizens, increasing the competitiveness of 
U.S. products in the global marketplace, and adapting to unforeseen 
future challenges. Continuing the trend of reductions in the R&D budget 
will result in significant gaps in the knowledge base and data sets 
necessary to address the many threats facing our Nation's forests and 
associated wildlife could result in competitive losses in the global 
economy. Therefore, our organizations request a funding level of $307 
million for USFS R&D with emphasis on research projects uniquely suited 
to R&D expertise and the furthering of agency and partner objectives.

Sincerely,

American Fisheries Society
Ecological Society of America
Society for Range Management
Society of American Foresters
The Wildlife Society
                                 <greek-l>
                                 ______
                                 
       Supporters of the Investments in Key Federal Programs deg.
  Prepared Statement of Organizations That Support Investments in Key 
        Federal Programs That Support State and Private Forestry
Dear Chairwoman Murkowski and Ranking Member Udall,

    As Congress begins the process of crafting a budget for fiscal year 
2019, we recognize the tough choices that must be made, especially in 
light of the ever-increasing costs of wildfires and the budgetary 
conflicts that challenge creates. In these tight budgetary conditions, 
maximizing the effectiveness of Federal dollars through partnerships 
with State and local actors can play a large role in addressing our 
national forest challenges. For this reason, the undersigned 
organizations support investments in key Federal programs that support 
State and private forestry. A critically important component of the 
Forest Service's budget, these programs help tackle some of the most 
pressing issues we face in forestry like wildfires, insects, and 
diseases while conserving and improving America's forests; enhancing 
and protecting our drinking water; contributing to healthy, livable 
communities; and encouraging forest product innovation and utilization. 
In turn, this helps the nation to foster strong economic growth, 
especially in rural communities.
    The USDA Forest Service's (USFS) State and Private Forestry Area 
(S&PF) serves as a linchpin for the conservation of America's forests. 
Providing critical technical and financial assistance to private 
landowners and the resource managers responsible for managing more than 
60 percent of America's forests helps to increase the pace of work and 
on-the-ground results, improve the resilience of the Nation's forests, 
avoid conversion of forests to other land uses, and protect communities 
and the environment from forest pests, invasive species, and wildland 
fires.
    In fiscal year 2019, funding for the following State and Private 
Forestry and related programs will help improve the health of the 
Nation's forests and encourage economic growth in a sector that 
sustains more than one million jobs in the United States. Our funding 
level requests include:

  --$29 million for the Forest Stewardship Program \1\
    Administered in cooperation with State forestry agencies, this 
program plays a fundamental role in keeping forests as forests. Forest 
insects, diseases, and wildfire know no bounds between Federal and non-
Federal forests. Assisting some of the 22 million private forest owners 
in managing non-Federal forests can help minimize the impacts to 
Federal lands saving the Federal taxpayer millions of dollars. A forest 
landowner with a forest stewardship plan is almost three times more 
likely to actively manage his or her land than one without a plan, 
leading to jobs and rural economic stimulus. Those who have stewardship 
plans are actively managing their lands for wildlife, clean water, and 
forest products. Ninety percent of the Nation's wood supply comes from 
private forest lands.
---------------------------------------------------------------------------
    \1\ President's budget proposes changing name of the Forest 
Stewardship Program to Working Forest Lands.

  --$107 million for the Forest Health Management Programs--$59 million 
        Federal Lands and $48 million Cooperative Lands
    Pests and disease are national problems affecting private and 
public lands. Nationally, their impact is in the tens of billions of 
dollars. The USFS Forest Health Management Program supports efforts to 
prevent, contain, and eradicate these costly and dangerous pests and 
pathogens affecting trees and forests. Support for Forest Health 
programs is critical on both public land and private land, as insects 
and disease know no boundaries and forest health outcomes on any 
landscape depend upon a cross-ownership approach.

  --$87 million for State Fire Assistance and $16 million for Volunteer 
        Fire Assistance Programs \2\
---------------------------------------------------------------------------
    \2\ President's budget proposes changing the name of these programs 
to National Fire Capacity and Rural Fire Capacity.
---------------------------------------------------------------------------
    Ninety percent of the Nation's wildfires are human-caused and most 
of these fires start on State and private lands, often spreading to 
Federal lands. Initial attack is the key to reducing large fire costs 
and these programs are critical to these suppression efforts. State and 
volunteer fire crews provide much of that initial attack response and 
are deployed to assist on Federal fires and other emergency or disaster 
situations, in compliance with national safety and training standards.

  --$23 million for Landscape Scale Restoration
    The USFS works collaboratively with States and other partners using 
State Forest Action Plans to target limited resources to the highest 
priority forest needs across ownerships to achieve results with 
meaningful local, regional, and national impacts. In an era when our 
forests are facing an increasing number of challenges, this program 
allows for a small Federal investment to be matched and leveraged by 
States and put towards the most pressing threats to the forests that 
sustain American communities.

  --$83 million for Forest Inventory and Analysis
    This program is our country's forest census, which has been ongoing 
since 1930 across all-ownerships, including the two-thirds of America's 
forests which are State or privately owned. FIA enables forest managers 
to understand the scope and scale of trends and changes in forest 
conditions, sustaining public benefits such as clean air and water, 
wildlife habitat, outdoor recreation, jobs and wood products. The 
collection and reporting of growth, removal, health, and other critical 
forest data in a timely manner is vital for forest industry and others 
in planning their future economic investments based on availability of 
forest raw materials.

    While not specifying suggested budget levels, we want to also call 
your attention to the need for funding for programs which support 
community forestry programs as well as forestry research, which 
provides opportunities to expand forest markets and improve the health 
and quality of urban and rural communities. A combination of 
responsible forest management combined with healthy forest products 
markets will benefit the forest landscape and the communities that live 
in and around them.
    Thank you for your consideration.

            Sincerely,

Alabama Forestry Association
Aldo Leopold Foundation, Inc.
American Forest Foundation
American Forests
American Wood Council
American Woodcock Society
Center for Invasive Species Prevention
Connecticut Forest & Park Association
Conservation Resource Partners, LLC
Empire State Forest Products Association
Environmental Defense Fund
Enviva
Florida Forestry Association
Forest Business Network LLC
Forest Industry National Labor Management Committee
Forest Resources Association
Green Forests Work
Indiana Forestry & Woodland Owners Association
International Paper
Kansas Tree Farm Committee
Kentucky Forest Industries Association
Louisiana Pacific
Michigan Forest Association
Minnesota Forestry Association
Mississippi Forestry Association
National Alliance of Forest Owners
National Association of Forest Service Retirees
National Association of State Foresters
National Lumber & Building Material Dealers Association
Ohio Forestry Association, Inc.
Rayonier
Ruffed Grouse Society
Rural & Agriculture Council of America
Society for Range Management
Society for the Protection of NH Forests
Society of American Foresters
Sonen Capital
Texas Forestry Association
The American Chestnut Foundation
The Hardwood Federation
The Pennsylvania Forestry Association
The Westervelt Company
Treated Wood Council
Trees Forever
Vermont Woodlands Association
Virginia Forestry Association
Washington Farm Forestry Association
Washington Forest Protection Association
Western Wood Preservers Institute
Wisconsin Paper Council
      
                                 <greek-l>
                                 ______
                                 
           Supporters of the Joint Fire Science Program deg.
   Prepared Statement of Supporters of the Joint Fire Science Program
Dear Chair Murkowski and Ranking Member Udall:

    As researchers, extension unit leaders, and practitioners who work 
with the Federal land management agencies on wildland fire, we urge you 
to maintain and fully fund the Joint Fire Science Program at historical 
levels of $6.914 million annually through the USDA Forest Service's 
Wildland Fire Management and $5.9 million annually through the U.S. 
Department of Interior Wildland Fire Management. Wildland fire is 
occurring over more acres at greater severity than in the past. Fire 
seasons are lengthening, exposing communities to greater risk from 
fire, post-fire floods, and smoke. The need for science is greater than 
ever to support strategic allocation of resources to meet the goals of 
the National Cohesive Strategy--restoring and maintaining fire-adapted 
landscapes, promoting fire-adapted communities, and fostering safe and 
effective response to fire.
    The Joint Fire Science Program model for funding critical research, 
based on management priorities and with requirements for active science 
delivery, makes the program uniquely valuable and the only one of its 
kind. No other program offers researchers the opportunity to address 
fire management challenges in direct response to manager priorities. 
Based on direction from Congress, the program is a partnership of six 
Federal land management agencies that work together to identify and 
address problems associated with managing wildland fuels, fires, and 
fire-impacted ecosystems. Fire and land managers from the USDA Forest 
Service and U.S. Department of Interior together identify issues of 
critical interest, competitively allocate funding to researchers to 
tackle those issues via applied research, and require active delivery 
of science to managers and policymakers, linking science to management.
    With a relatively limited budget, the Joint Fire Science Program 
has improved efficacy and accountability of agency activities by 
funding research to address important topics. Past research has focused 
on such salient issues as understanding smoke impacts to communities, 
overcoming barriers to prescribed fire, identifying how drivers of fire 
costs affect decisionmaking, analyzing fire behavior, and understanding 
fire effects on resources and communities. The program supports 
regional Fire Science Consortia that support science delivery to the 
management and practitioner communities. Research and science delivery 
under this program have proven valuable for both Federal land managers 
and partner organizations working to restore fire-adapted landscapes 
and promote fire-adapted communities.
    We ask Congress to reject the administration's proposal to cancel 
the Joint Fire Science Program and request you maintain the Joint Fire 
Science Program at its past funding levels. Further, it is important 
that the program remain funded from within the Forest Service's 
Wildland Fire budget, rather than from Forest Service Research. 
Embedding the program in an already constrained research budget 
undercuts this successful model of a management-driven research program 
that responds directly to the challenges of wildland fire. We thank 
Congress for its past support of the Joint Fire Science Program and ask 
you to continue to make a priority of this important science-management 
partnership.
    If you have any questions or need additional information, please 
feel free to contact Cassandra Moseley (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3e5d53514d5b525b477e4b514c5b595150105b5a4b">[email&#160;protected]</a>) or 
Courtney Schultz (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9ad9f5efe8eef4ffe3b4c9f9f2eff6eee0daf9f5f6f5e9eefbeeffb4fffeef">[email&#160;protected]</a>).
           membership organization and coalition signatories
Coalition of Prescribed Fire Councils
Forest Stewards Guild
National Association of State Foresters
Rural Voices for Conservation Coalition
Society of American Foresters
               university academic leadership signatories
John P. Hayes, Dean, Warner College of Natural Resources, Colorado 
    State University
Mark Paschke, Research Associate Dean, Warner College of Natural 
    Resources, Colorado State University
Anthony S. Davis, Acting Dean, College of Forestry, Oregon State 
    University
Ken Smith, Assistant Dean of the Environment, Integrated Program in the 
    Environment, The University of the South
J. Keith Gilless, Dean, College of Natural Resources, University of 
    California, Berkeley
Janet E. Nelson, Vice President for Research and Economic Development, 
    University of Idaho
Martin Main, Associate Dean for Extension, Institute of Food and 
    Agricultural Sciences, University of Florida
Thomas H. DeLuca, Dean, W.A. Franke College of Forestry & Conservation, 
    University of Montana
Cassandra Moseley, Senior Associate Vice President for Research and 
    Innovation, University of Oregon
Lisa Graumlich, Dean, College of the Environment, University of 
    Washington
Daniel J. Robison, Dean, Davis College of Agriculture, Natural 
    Resources and Design, West Virginia University
                          signatories by state
Alaska
Dawson Foster, Student and Wildland Firefighter, State of Alaska 
    Division of Forestry, Anchorage
Alison D. York, Researcher, University of Alaska Fairbanks, Fairbanks
Casey Brown, Post-doctoral Researcher, University of Alaska Fairbanks, 
    Fairbanks
Bob Christensen, Chief Executive, SEAWEAD, Gustavus
Aaron Ferguson, Sustainability Catalyst, Spruce Root Community 
    Development, Juneau
Brian Buma, Assistant Professor, University of Alaska, Juneau
Alabama
Nathan Hatch, Consultant Forester, Alabama Prescribed Fire Council, 
    Auburn
David Curry, Retired, Huntsville
Ted DeVos, Forester/Wildlife Biologist, Bach and DeVos Forestry/Alabama 
    Prescribed Fire Council-chair 2018, Montgomery
J. Kevin England, Science Instructor/Botanist, Ardmore High School, 
    Moulton
J. Ryan Mitchell, Outreach and Technical Assistance Coordinator, The 
    Longleaf Alliance, Stockton
Raien Emery, Undergraduate Research Assistant, University of Alabama, 
    Tuscaloosa
Justin Hart, Associate Professor, University of Alabama, Tuscaloosa
Kevin Willson, Graduate Student, University of Alabama, Tuscaloosa
Arkansas
Kyle Lapham, Fire Manager, The Nature Conservancy, Little Rock
Kenneth Wallen, Assistant Professor, University of Arkansas System, 
    Monticello
Tiffany Hackler, Human Resources Manager, Rogers
Arizona
Melanie Colavito, Human Dimensions Specialist, Ecological Restoration 
    Institute, Flagstaff
Andrea Thode, Professor, Northern Arizona University, Flagstaff
Clare Aslan, Assistant Professor, Northern Arizona University, 
    Flagstaff
Scott Goetz, Professor, Northern Arizona University, Flagstaff
Stephanie Mueller, Graduate Student, Northern Arizona University, 
    Flagstaff
Thomas D. Sisk, Olajos-Goslow Chair of Environmental Science and 
    Policy, Northern Arizona University, Flagstaff
Thomas Kolb, Professor, Northern Arizona University, Flagstaff
James Allen, Professor and Executive Director, Northern Arizona 
    University School of Forestry, Flagstaff
Barbara Satink Wolfson, Program Coordinator, Southwest Fire Science 
    Consortium, Flagstaff
Shere A. Fischer, Phoenix
Julia Rowe, Invasive Species Research Specialist, Arizona-Sonora Desert 
    Museum, Tucson
Kathy Voth, Publisher, On Pasture, Tucson
Jeffrey Gicklhorn, Program Coordinator, Pima County, Office of 
    Sustainability and Conservation, Tucson
Christopher Guiterman, Research Associate, University of Arizona, 
    Tucson
Erica A. Newman, Postdoctoral Researcher, University of Arizona, Tucson
Erica Bigio, Research Associate, University of Arizona, Tucson
Thomas W. Swetnam, Regents Professor Emeritus, University of Arizona, 
    Tucson
Jeffrey Rapp, Tucson
California
Gary Lauben, Project Manager, Western Shasta Resource Conservation 
    District, Anderson
Connie Stewart, Executive Director, California Center for Rural Policy, 
    Arcata
Leonard H. Rios, Fire Ecology Graduate Student, Humboldt State 
    Univeristy, Arcata
David Greene, Chair, Forestry Department, Humboldt State University, 
    Arcata
Harold Zald, Assistant Professor, Humboldt State University, Arcata
Jeffrey Kane, Associate Professor, Humboldt State University, Arcata
Yvonne Everett, Professor, Humboldt State University, Arcata
Sasha Berleman, Fire Ecologist, FirePoppy Consulting, Berkeley
Allison Shiozaki, Land Steward and Director, Hooves, Hands, & Hearts 
    Camp, Berkeley
Jacob Farris, Owner, Soil Life Consultant, Berkeley
J. Keith Gilless, Dean, College of Natural Resources, University of 
    California, Berkeley
Carmen Tubbesing, PhD Candidate, University of California, Berkeley
Daniel Foster, Master of Forestry Student, University of California, 
    Berkeley
Dr. Scott Stephens, Professor of Fire Science, University of 
    California, Berkeley
Gabrielle Boisrame, Visiting Researcher, University of California, 
    Berkeley
Jens Stevens, Postdoctoral Scholar, University of California, Berkeley
Jodi N Axelson, Cooperative Extension Specialist, University of 
    California, Berkeley
Rich Dean, Deputy Fire Marshal, University of California, Berkeley
Stacey Frederick, California Fire Science Consortium Coordinator, 
    University of California, Berkeley
Jean-Louis Carmona, Director, Van Duzen Watershed Fire Safe Council, 
    Bridgeville
Jennifer E. Fawcett, Extension Associate, North Carolina State 
    University, Campbell
Joe Rawitzer, Project Coordinator, Central Coast RX Fire Council, 
    Carmel Valley
Jose Luis Duce Aragues, Fire Training Specialist, Spatial Informatics 
    Group California, Cogolludo Spain
Andrew Latimer, Associate Professor, Department of Plant Sciences, 
    University of California, Davis
Chhaya Werner, PhD Candidate, University of California, Davis
Alexandra Weill, Graduate Student Researcher, University of California, 
    Davis
Allison Simler, PhD Candidate, University of California, Davis
Brian V. Smithers, Postdoctoral Researcher, University of California, 
    Davis
Carrie Levine, Postdoctoral Fellow, University of California, Davis
Clark Richter, PhD Candidate, University of California, Davis
Emily Brodie, Graduate Student, University of California, Davis
Jan Ng, PhD Candidate in Ecology, University of California, Davis
Jesse Miller, Postdoctoral Researcher, University of California, Davis
Jonah Weeks, Graduate Student, University of California, Davis
Kevin Welch, Research Scientist, University of California, Davis
Martha Wohlfeil, PhD Student, University of California, Davis
Rebecca Wayman, Associate Specialist, University of California, Davis
Sara Winsemius, Graduate Student, University of California, Davis
Zack Steel, Student, University of California, Davis
Tracy Katelman, Registered Professional Forester, ForEverGreen 
    Forestry, Eureka
Cybelle Immitt, Senior Planner--FSC Coordinator, Humboldt County Fire 
    Safe Council, Eureka
Julia Cavalli, Administrative Analyst, Humboldt County Fire Safe 
    Council, Eureka
Debra Harris, Burn Program Coordinator, North Coast Unified AQMD, 
    Eureka
Andrew Slack, Forest Fellow, Save the Redwoods League, Eureka
Yana Valachovic, Forest Advisor, University of California, Eureka
Jeffery Stackhouse, Livestock & Natural Resources Advisor, University 
    of California Cooperative Extension, Eureka
Lenya Quinn-Davidson, Area Fire Advisor, University of California 
    Cooperative Extension, Eureka
Steve Williams, American citizen, Folsom
Peter Brucker, Retired Program Coordinator, Salmon River Restoration 
    Council, Forks of Salmon
Lon Winburn, Fire Chief, Fortuna Fire Protection District, Fortuna
Susan Britting, Executive Director, Sierra Forest Legacy, Garden Valley
Karen Schambach, President, Center for Sierra Nevada Conservation, 
    Georgetown
Danny Manning, Assistant Fire Chief GIR, Greenville Rancheria, 
    Greenville
Katherine Van Pelt, Grants & Agreements Specialist, Watershed Research 
    & Training Center, Hayfork
Nick Goulette, Executive Director, Watershed Research & Training 
    Center, Hayfork
Ian Sigman, Chairman, Humboldt County Fire Safe Council, Honeydew
Stephen Underwood, Hydesville
Danny Fry, Wildland Fire Management Coordinator, Natural Communities 
    Coalition, Irvine
Jake Schweitzer, Senior Ecologist, Vollmar Natural Lands Consulting, 
    Kensington
Will Emerson, Assistant Chief, Bell Springs Fire Department, 
    Laytonville
Gary B. Fildes, Retired, US Forest Service, Loma Rica
Christopher Giesige, Fire Researcher, Westcats, Los Angeles
Joe Snipes, Business owner, Forestscapes LLC, Humbots Data & Analysis, 
    McKinleyville
Liisa Schmoele, Citizen, McKinleyville
Stephen C. Hart, Professor of Ecology, University of California, Merced
Nicholas C. Dove, PhD candidate, University of California, Merced
Jeanne H. Tomascheski, Registered Professional Forester, Independent 
    Contractor, Millville
Vince Cicero, Senior Environmental Scientist, California State Parks, 
    Morro Bay
Michael Lake, Fire Chief, Fruitland Ridge Fire, Myers Flat
Judson Fisher, Student, Sierra College, Nevada City
Chris Friedel, Executive Director, Yuba Watershed Institute, Nevada 
    City
Dee McDonough, DFSC Board Member, Diablo FireSafe Council, Oakland
Dinah Fischbach-Benson, Secretary, Oakland Firesafe Council, Oakland
Robert Sieben, Board member Oakland Firesafe Council, OFSC, 
    International Association of Fire Chiefs, Oakland
Marc Meyer, Concerned Citizen, Orange
Kimberly Baker, Executive Director, Klamath Forest Alliance, Orleans
Nancy Bailey, Fire and Fuels Co-Director, Mid Klamath Watershed 
    Council, Orleans
Ellie Cohen, President and CEO, Point Blue Conservation Science, 
    Petaluma
Erica N. Stavros, Self, Poway
Gabe Miller, Stewardship Director, Feather River Land Trust, Quincy
Hannah Hepner, Coordinator, Fire Safe Council, Quincy
Jack Bramhall, Registered Professional Forester, Retired, Red Bluff
Ricky Satomi, Forest Advisor, University of California, Redding
William Eastwood, President, Southern Humboldt Fire Safe Council, 
    Redway
Sequoia Kantara, Apprentice Forester, Redway
Owen Warner, Consultant, Berkeley Research Group, Richmond
Marko J. Spasojevic, Assistant Professor, University of California, 
    Riverside
Karen Converse, Environmental Scientist, California Department of Fish 
    and Wildlife, Sacramento
David Sapsis, Wildland Fire Scientist, California Department of 
    Forestry and Fire Protection, Sacramento
Greg Suba, Conservation Program Director, California Native Plant 
    Society, Sacramento
Louis Heinrich, Gen. Partner Heinrich Family Limited Partnership, 
    Heinrich Property Mgmt., Sacramento
Jamie M Lydersen, Associate Specialist, University of California, 
    Berkeley, Sacramento
John Fisher, Battalion Chief, San Diego Fire-Rescue, San Diego
Scott Rothberg, Environmental Planner/Geospatial Information Database 
    Administrator, San Elijo Lagoon Conservancy, San Diego
Laura Lalemand, Forest Fellow, Save the Redwoods League, San Francisco
Paul Beisner, Burn Crew Lead, The Nature Conservancy, San Francisco
Phillip Dye, Owner, Prometheus Fire Consulting, San Jose
Gary Evan Sanchez, Board President, Santa Clara FireSafe Council, San 
    Jose
Joe Christy, President, Fire Safe Santa Cruz County & Bonny Doon Fire 
    Safe Council, Santa Cruz
James Gore, County Supervisor, County of Sonoma, Santa Rosa
Jeff Schreiber, Program Development Manager, Sonoma Resource 
    Conservation District, Santa Rosa
Jennifer Potts, Resource Ecologist, Audubon Canyon Ranch, Sonoma
Patrick Koepele, Executive Director, Tuolumne River Trust, Sonora
Christina Restaino, Forest Health Program Manager, Tahoe Regional 
    Planning Agency, South Lake Tahoe
Susie Kocher, Forestry Advisor, University of California Cooperative 
    Extension, South Lake Tahoe
Joseph Restaino, Research Scientist, University of Washington, South 
    Lake Tahoe
Rosemary Chang, Counsel Member, Sunol Fire Safe Coalition, Sunol
Kyle Rodgers, Social Science Research Associate, Sierra Institute for 
    Community and Environment, Taylorsville
Charles Ashley, Independent, Tollhouse
Steven Frisch, President, Sierra Business Council, Truckee
Mary Mayeda, Forest Program Manager, Mendocino County RCD, Ukiah
Cathy M. Koos Breazeal, Executive Director (retired), Amador Fire Safe 
    Council, Volcano
David Jaramillo, Registered Professional Forester, Watershed Research & 
    Training Center, Weaverville
Colorado
Rodrigo Moraga, Chair -Colorado Prescribed Fire Council, Anchor Point 
    Group, Boulder
Elise Jones, County Commissioner, Boulder County, Boulder
Seth McKinney, Fire Management Officer, Boulder County Sheriff's 
    Office, Boulder
John Wold, Natural Resource Specialist, City of Boulder, Boulder
Chris Wanner, Forest Ecologist, City of Boulder Open Space and Mountain 
    Parks, Boulder
Lynn Riedel, Plant Ecologist, City of Boulder Open Space and Mtn Parks, 
    Boulder
Arika Virapongse, Research Scholar, Ronin Institute & Middle Path 
    EcoSolutions, Boulder
Jean Patton, Communications Lead, The Nature Conservancy/LANDFIRE, 
    Boulder
Emily Troisi, Program Associate, The Watershed Research & Training 
    Center, Boulder
David A. Sacher, Audio Engineer, University of Colorado, Boulder
Jonathan Salerno, Postdoc, University of Colorado, Boulder
Zachary Wurtzebach, Postdoctoral scholar, Colorado State University, 
    Carbondale
Sloan Shoemaker, Executive Director, Wilderness Workshop, Carbondale
Casey Cooley, Forest Habitat Coordinator, Colorado Parks and Wildlife, 
    Colorado Springs
Mike Bablert, Retired, The Nature Conservancy, Crested Butte
Garrett Stephens, Forester, Jefferson Conservation District, Denver
Gregory H. Aplet, Senior Science Director, The Wilderness Society, 
    Denver
Matthew D. Spinner, Open Space Supervisor, Town of Erie, Denver
Mitch Hart, Concerned citizen, Denver
Devyn Arbogast, Youth and Education Programs Manager, Friends of the 
    Dillon Ranger District, Dillon
Brad Pietruszka, US citizen and taxpayer, Dolores
Chris Metz, Weed management Technician/equipment operator, Larimer 
    County, Fort Collins
Daniel Godwin, Wildland Fire Analyst, Center for Environmental 
    Management of Military Lands, Fort Collins
John P. Hayes, Dean, Warner College of Natural Resources, Colorado 
    State University, Fort Collins
Mark Paschke, Research Associate Dean, Warner College of Natural 
    Resources, Colorado State University, Fort Collins
Antony Cheng, Professor, Colorado State University, Fort Collins
Camille S. Stevens-Rumann, Assistant Professor, Colorado State 
    University, Fort Collins
Carrie Frickman, MS Student Conservation Leadership, Colorado State 
    University, Fort Collins
Courtney Schultz, Associate Professor, Colorado State University, Fort 
    Collins
Erica Fleishman, Department of Fish, Wildlife and Conservation Biology, 
    Colorado State University, Fort Collins
Kat Morici, Research Associate, Colorado State University, Fort Collins
Katherine Mattor, Research Scientist, Colorado State University, Fort 
    Collins
Katie Lyon, Research Assistant, Colorado State University, Fort Collins
Linda Nagel, Professor and Department Head, Colorado State University, 
    Fort Collins
Megan Matonis, Colorado State University, Fort Collins
Miranda Redmond, Assistant Professor, Colorado State University, Fort 
    Collins
Monique E. Rocca, Associate Professor, Colorado State University, Fort 
    Collins
Philip N. Omi, Professor Emeritus, Colorado State University, Fort 
    Collins
Sonya Le Febre, Assistant Professor, Colorado State University, Fort 
    Collins
Tomas Pickering, PhD candidate, Colorado State University, Fort Collins
Wade Tinkham, Assistant Professor, Colorado State University, Fort 
    Collins
Merrill R. Kaufmann, Emeritus Fire and Forest Ecology Senior Scientist, 
    Rocky Mountain Research Station, U.S. Forest Service, Fort Collins
Peter M. Brown, Director, Rocky Mountain Tree-Ring Research, Fort 
    Collins
Laren A. Cyphers, Program Associate, Rural Voices for Conservation 
    Coalition, Fort Collins
Gloria J. Edwards, Program Coordinator, Southern Rockies Fire Science 
    Network, Fort Collins
Daniel, Squad Captain, State Agency, Fort Collins
Chad Hoffman, Associate professor of fire science, Colorado State 
    University, Ft. Collins
Denise Wilson, Botanist, Chicago Botanic Garden, Golden
Hillary King, Research and Grants Coordinator, Jefferson County Open 
    Space, Golden
Carissa Callison, Graduate Student, Western State Colorado University, 
    Gunnison
Jonathan Coop, Assistant Professor, Western State Colorado University, 
    Gunnison
Patrick Magee, Assistant Professor of Wildlife and Conservation 
    Biology, Western State Colorado University, Gunnison
Steve Orr, Wildfire Mitigation Coordinator, West Metro Fire Rescue, 
    Lakewood
Seth Ex, Assistant Professor, Colorado State University, Laporte
David Hirt, Natural Resource Specialist, Boulder County Parks & Open 
    Space, Longmont
Jennifer Muha, Geospatial Sciences Department Lead, Front Range 
    Community College, Longmont
Annie Oxarart, Administrative Director, Association for Fire Ecology, 
    Louisville
Amy Seglund, Biologist, Colorado Parks and Wildlife, Montrose
Brad Setter, Open Space, Trails, and Rodeo Supervisor, City of 
    Steamboat Springs, Steamboat Springs
Hilary Cooper, County Commissioner, San Miguel County, Telluride
Connecticut
Helen Poulos, Professor, Wesleyan University, Middletown
Emily Dolhansky, Graduate Teaching Fellow, Yale School of Forestry, New 
    Haven
Florida
Steven Brinkley, Wildlife Biologist and Land Manager, Florida Fish & 
    Wildlife Conservation Commission, Brooksville
Anne Blanchard, Wildlife Biologist, State of Florida, Brooksville
Patricia A. Cooke, Retired Master Gardener, Brooksville
Beth Christopher, Forester, Florida Forest Service, Carrabelle
Rosi Mulholland, Land Management Specialist, Burn Boss, St. Johns River 
    Water Management District, Clermont
Sofia Thordin, Urban Planner, Fort Lauderdale
Scott Crosby, Forester, Crosby Forestry & GIS Services, LLC, 
    Gainesville
Johanna Freeman, Biological Scientist, Florida Fish & Wildlife 
    Conservation Commission, Gainesville
Martin Main, Associate Dean for Extension, Institute of Food and 
    Agricultural Sciences, University of Florida, Gainesville
Alan J. Long, Professor Emeritus, University of Florida, Gainesville
Alexis Boenker, Graduate Student, University of Florida, Gainesville
Anonymous, University of Florida, Gainesville
Chris Demers, Extension Program Manager, University of Florida, 
    Gainesville
Eden Schoepflin, Student, University of Florida, Gainesville
Krissy Olson, Environmental Consultant, University of Florida, 
    Gainesville
Michael Andreu, Associate Professor, University of Florida, Gainesville
Raelene Crandall, Assistant Professor, University of Florida, 
    Gainesville
Kelly McPherson, Natural Resource Consultant, Workman Forestry, 
    Gainesville
Bryce Catarelli, Nurse Practitioner, Gainesville
Justin Littlejohn, Research Student, Gainesville
Ryan Kennelly, Ecosystem Restoration Team Lead, Gainesville
Stephen Wasp, Firefighter, Gainesville
Jeremiah Hatcher, Assistant Team Lead, Wildland Restoration 
    International, Gulf Breeze
Joseph Bell, Wildland Firefighter, Jacksonville
Scotland Talley, Conservation Biologist, Florida Fish & Wildlife 
    Conservation Commission, Lake City
Vincent Fioramanti, Wildlife Technician, Florida Fish & Wildlife 
    Conservation Commission, Lake Placid
Erik Moretuzzo, Agricultural Conservation Technician, Hillsborough Soil 
    and Water District, Lithia
Jonathan Baker, Land Management Specialist, Brevard County, Melbourne
Ronald Chicone, Land Management Technician, Brevard County 
    Environmentally Endangered Lands, Melbourne
Samantha Anderson, Biologist, University of Florida, Melbourne
Alice Matthews, Educator, Merritt Island
Ad Platt, Vice President for Operations, The Longleaf Alliance, Milton
Danielle Deming, Ecosystem Support Team member, The Longleaf Alliance, 
    Milton
Vernon Compton, Project Director, The Longleaf Alliance, Milton
Jean McCollom, Biologist, Natural Ecosystems LLC, Naples
Michael Duever, Ecologist, Natural Ecosystems LLC, Naples
Sabrina Philipp, University of Florida, Naples
Christina Powell, Parks Manager, Charlotte County, North Port
Deborah Blanco, Environmental Specialist, Sarasota County Government, 
    North Port
Laurie Dolan, Environmental Specialist II, Florida Dept. of 
    Environmental Protection, Ocala
Ken Weyrauch, Senior Planner, Ocala
Kristina Baker, Consultant, Orange Park
Christopher Kinslow, Land Management Specialist, St. Johns River Water 
    Management District, Palatka
Lucas Furman, GIS Support Specialist, Natural Resources Professional, 
    Pensacola
Donna Vassallo, Wildland Fire Ecologist, The Longleaf Alliance, 
    Pensacola
Paul Langford, Private Forest Landowner, Pensacola
Jack Smith, Forest Area Supervisor, Florida Forest Service, Perry
John Diaz, Assistant Professor, University of Florida, Plant City
Mike Olson, Firefighter, Port Orange
Catherine Ricketts, Wildlife biologist, Florida Fish & Wildlife 
    Conservation Commission, Port Saint Joe
Elysia Dytrych, Biologist II, Florida Fish and Wildlife Conservation 
    Commission, Sebring
Matthew Goode, Biological Scientist, Florida Fish & Wildlife 
    Conservation Commission, Sebring
Nathan Bunting, Wildlife Biologist, Florida Fish & Wildlife 
    Conservation Commission, Sneads
Paul Strauss, Volunteer Nature Interpreter and Wildland Firefighter, 
    Stuart
Thomas Christopher, Senior Forester, Florida Forest Service, 
    Tallahassee
Nicole Zampieri, Field Biologist, Florida Natural Areas Inventory, 
    Tallahassee
William Butler, Associate Professor, Florida State University, 
    Tallahassee
John Kevin Hiers, Wildland Fire Scientist, Tall Timbers Research 
    Station, Tallahassee
Kevin Robertson, Fire Ecology Program Director, Tall Timbers Research 
    Station, Tallahassee
Scott Pokswinski, Wildland Fire Science Lab Manager, Tall Timbers 
    Research Station, Tallahassee
David R. Godwin, Coordinator, University of Florida, Tallahassee
Jerrie Lindsey, Citizen, Tallahassee
Margaret Kargel, Private Citizen, Tallahassee
Sarah Godwin, Voter, Tallahassee
Ryan Proly, Recruiter, Tampa
Eric S. Menges, Program Director, Plant Ecology Program, Archbold 
    Biological Station, Venus
Bradley T Weller, Owner, Kings Birds Zoological, Webster
Kraig Krum, Environmental Program Supervisor, Palm Beach County, 
    Environmental Resources Management, West Palm Beach
Matthew Hortman, Biological Scientist III, Florida Fish & Wildlife 
    Conservation Commission, Wewahitchka
Philip Manor, District Wildlife Biologist, Florida Fish & Wildlife 
    Conservation Commission, Wewahitchka
Brian Christ, Wildlife Technician, Florida Fish & Wildlife Conservation 
    Commission
Georgia
Stephen Logan, Forest Consultant, F&W Forestry, Albany
Dave Coyle, Regional Forest Health Director, Southern Regional 
    Extension Forestry, Athens
Holly Campbell, Extension Association, Southern Regional Extension 
    Forestry, Athens
Leslie Boby, Extension Associate, Southern Regional Extension Forestry, 
    Athens
Jesse B. Sands, ACN, Atlanta
Mehmet Talat Odman, Principal Research Engineer, Georgia Institute of 
    Technology, Atlanta
Tiffany Woods, Program Manager, Southeast Forestry, National Wildlife 
    Federation, Atlanta
Brandon Sanford, Research Assistant and Environmental Engineer 
    Undergraduate, Atlanta
Erick Brown, Fire Manager, Atlanta
Megan Blizzard, LEED Certification Reviewer, Atlanta
Joe Butler, Manager/Owner, Forest Lodge Farms, LLC, Camilla
Andrew Edelman, Associate Professor, University of West Georgia, 
    Carrollton
Matthew P. Snider, Burn Boss, The Nature Conservancy, Columbus
Mike Worley, Chair Elect, Georgia Prescribed Fire Council, Covington
Mike Worley, President & CEO, Georgia Wildlife Federation, Covington
Theron Menken, Wildlife Biologist, Georgia Department of Natural 
    Resources, Fort Valley
Peter Whiteside, Insurance Professional, Hinesville
Emily Rushton, Wildlife Biologist, Georgia Department of Natural 
    Resources, McDonough
Mark A. Melvin, Chair, Coalition of Prescribed Fire Councils, Inc, 
    Newton
Seth W. Bigelow, Assistant Scientist, Jones Center at Ichauway, Newton
LuAnn Craighton, Environmental Educator, ValleyView Farms, Pine 
    Mountain Valley
Randy Tate, Fort Stewart/Altamaha Longleaf Partnership Coordinator, The 
    Longleaf Alliance, Savannah
Wayne Bell, Retired COO, International Forest Company, Valdosta
Reese J. Thompson, Longleaf Tree Farmer, Vidalia
Hawaii
Gantry Andrade, Assistant Fire Chief, Hawaii Fire Department, Hilo
Clay Trauernicht, Assistant Specialist in Wildland Fire Science and 
    Management, University of Hawaii, Manoa, Honolulu
Creighton M. Litton, Professor, University of Hawaii, Manoa, Honolulu
Pablo Akira Beimler, Community Outreach Coordinator, Hawaii Wildfire 
    Management Organization, Kamuela
Lance W. Holter, Council Member, US Forestry Research Advisory Council, 
    Paia
Idaho
Jonathan Oppenheimer, Government Relations Director, Idaho Conservation 
    League, Boise
April Hulet, Rangeland Extension Specialist, University of Idaho, Boise
Chris Bowman-Prideaux, PhD Candidate, University of Idaho, Boise
Corey L. Gucker, Project Coordinator, University of Nevada, Reno, Boise
John H. Cissel, Retired Fire Scientist and Manager, Boise
Thomas Laird, Wildlife Monitoring Technician, Oregon Department of Fish 
    and Wildlife, Caldwell
Gordon L. Sanders, Idaho Master Forest Steward, Idaho Forest Owners 
    Association, Idaho Lands Resource Coordinating Counsel, Coeur 
    d'Alene
Mark Masters, CEO, Chloeta Fire, Idaho Falls
Charles Goebel, Department Head and Professor, Department of Forest, 
    Rangeland & Fire Sciences, College of Natural Resources, University 
    of Idaho, Moscow
Dennis Becker, Director, Policy Analysis Group, University of Idaho, 
    Moscow
Aaron Murdock, Student, University of Idaho, Moscow
Adam Young, PhD Candidate, University of Idaho, Moscow
Carrie Minerich, Graduate Research Assistant, University of Idaho, 
    Moscow
Darcy Hammond, Research Assistant, University of Idaho, Moscow
Eva Strand, Associate Professor, University of Idaho, Moscow
Janet E. Nelson, Vice President for Research and Economic Development, 
    University of Idaho, Moscow
Josh Hyde, Fire Research Scientist, University of Idaho, Moscow
Katherine Wollstein, Doctoral Research Assistant, University of Idaho, 
    Moscow
Leda Kobziar, Associate Professor, University of Idaho, Moscow
Luigi Boschetti, Associate Professor, University of Idaho, Moscow
Penny Morgan, Professor, University of Idaho, Moscow
Illinois
Edward Warden, Naturalist, Chicago
Nicole Cavender, Vice President of Science and Conservation, The Morton 
    Arboretum, Lisle
Linda Premo, R.T., Saint Charles
Jacob Gawlik, Reverend, Evangelical Lutheran Church in America, 
    Sterling
Paul Brewer, Illinois Certified Prescribed Burn Manager, Illinois 
    Prescribed Fire Council, Toledo
Daniel A. Tortorelli, George B. Grimm Professor, Emeritus, University 
    of Illinois at Urbana-Champaign, Urbana
Indiana
Michael R. Saunders, Associate Professor, Purdue University, West 
    Lafayette
Kansas
Kyle Schumacher, Graduate Research Assistant, Fort Hays State 
    University, Hays
Tyler Warner, Rancher, Holton
Jeremy Robert Cox, Fire Fighter Type 2, GH Ranch, Hutchinson
John Blair, University Distinguished Professor, Kansas State 
    University, Manhattan
Rory O'Connor, PhD candidate, Kansas State University, Manhattan
Vickie Cikanek, Private Lands Biologist, Kansas Department of Wildlife, 
    Parks, & Tourism, Topeka
Kentucky
Chris Minor, President, Kentucky Prescribed Fire Council, Greenville
Louisiana
William J. Platt, Professor of Biology, Louisiana State University, 
    Baton Rouge
Nathan Yeldell, Biologist, LA Dept. of Wildlife and Fisheries, Hammond
Ann W. Stuart, Citizen, Lafayette
Julia E. Earl, Assistant Professor, Louisiana Tech University, Ruston
Massachusetts
Cristina Eisenberg, Chief Scientist, Earthwatch Institute, Boston
Bob Bale, President, Wildland Restoration International, Duxbury
Danelle Laflowerm, Research Assistant, Harvard University/Harvard 
    Forest, Petersham
Jonathan R. Thompson, Senior Ecologist, Harvard University/Harvard 
    Forest, Petersham
Matthew Duveneck, Research Associate, Harvard University/Harvard 
    Forest, Petersham
Maryland
Robert R. Schwartz, Forester, Maryland Forest Service, Hagerstown
Sylvia S. Tognetti, Adjunct Professor and Independent Consultant, 
    University of the District of Columbia Community College, Silver 
    Spring
Maine
Robert Hyson, Owner, Medomak Construction Inc., Bremen
Susan Conard, Editor in Chief, International Journal of Wildland Fire, 
    Northport
Michigan
Nancy H.F. French, Senior Scientist, Michigan Tech University Research 
    Institute, Ann Arbor
Matthew Hamilton, Postdoctoral Research Fellow, University of Michigan, 
    Ann Arbor
Alexandra Paige Fischer, Assistant Professor, University of Michigan, 
    School for Environment and Sustainability, Ann Arbor
Madelyn Tucker, PhD candidate, Wayne State University, Detroit
Chase Brooke, Graduate Student, Michigan State University, East Lansing
Jessica R. Miesel, Assistant Professor, Michigan State University, East 
    Lansing
Kathleen Quigley, Postdoctoral Research Associate, Michigan State 
    University, East Lansing
Noah Jansen, Conservationist, Little Traverse Bay Bands of Odawa 
    Indians, Harbor Springs
Gordon Vander Yacht, Equipment Manager, Hope College, Holland
Kathleen E. Halvorsen, Professor of Natural Resource Policy, Michigan 
    Technological University, Houghton
Rankin Smith, Field Technician, Michigan DNR, Ishpeming
Michele Richards, Wildland Fire Manager, Michigan Army National Guard, 
    Kalamazoo
Brenda Tiefenthal, Tax Payer, Kalamazoo
Andrew Vander Yacht, PhD, Research Specialist, Michigan State 
    University, Lansing
Erica Pfleiderer, Wildland Firefighter, Marquette
Darwin Micheal Schultz, Consultant/Fire Ecologist/Student, Oscoda
Christina DeGrush, Rise Kalamazoo, Plainwell
Kim Steinmann, Constituent, MI06, Portage
Minnesota
Craig R. Sterle, President--MN Division Izaak Walton League of America, 
    Barnum
Katie Zlonis, Plant Resource Director, Leech Lake Band of Ojibwe, Cass 
    Lake
Melissa Mokry, PhD Candidate, Colorado State University, Duluth
Todd Armbruster, Firewise Coordinator, Cook and Lake County, Duluth
Lane Johnson, Research Forester, University of Minnesota, Cloquet 
    Forestry Center, Duluth
Matthew Tyler, Forester, Grand Portage, Grand Portage
Tim Miller, Reservation Forester, Grand Portage Tribal Forestry, Grand 
    Portage
Tony Lenoch, Area Resource Specialist, Minnesota Dept. of Natural 
    Resources, Grand Rapids
Lori Knosalla, Graduate Student Researcher, University of Minnesota, 
    Minneapolis
Nancy Braker, Arboretum Director, Carleton College, Northfield
Matthew Lasch, Minnesota Contracting Manager, Applied Ecological 
    Services, Prior Lake
Eli Sagor, Associate Extension Professor, University of Minnesota, 
    Roseville
Ferin Davis, Environmental Technician, Shakopee Mdewakanton Sioux 
    Community Land Department, Shakopee
Annie Hawkinson, Graduate Research Assistant, University of Minnesota, 
    St. Paul
Rebecca Montgomery, Associate Professor, University of Minnesota, St. 
    Paul
Missouri
Elizabeth Middleton, Grassland Botanist, Missouri Department of 
    Conservation, Clinton
Clif Baumer, Member, East Central Prescribed Burn Association, Columbia
Connor Crouch, Graduate Research Assistant, School of Natural 
    Resources, University of Missouri, Columbia
Benjamin Knapp, Assistant Professor, University of Missouri, Columbia
Joseph Marschall, Senior Research Specialist, University of Missouri, 
    Columbia
Mary Wachuta, Graduate Research Assistant, University of Missouri, 
    Columbia
Michael Stambaugh, Research Associate Professor, University of 
    Missouri, Columbia
Gary Llewellyn, Rancher Retired, SRM, Excelsior Springs
Thomas Fielden, Chairman, Missouri Prescribed Fire Council, Van Buren
Calvin Maginel, Fire Ecologist, Missouri Department of Conservation, 
    West Plains
Mississippi
Marcus Lashley, Assistant Professor, Mississippi State University, 
    Mississippi
Montana
David McWethy, Assistant Professor, Montana State University, Bozeman
Todd Erdody, Concerned Citizen, Bozeman
Jon Warwick, Kalispell
Jeffrey Lombardo, Forester, Heirloom Woodlands LLC/Watershed Consulting 
    LLC, Missoula
Megan Keville, Coordinator, Northern Rockies Fire Science Network, 
    Missoula
Julie Gilbertson-Day, Senior Spatial Wildfire Analyst, Pyrologix, LLC, 
    Missoula
Thomas H. DeLuca, Dean, W.A. Franke College of Forestry & Conservation, 
    University of Montana, Missoula
Alan Tepley, Postdoctoral Fellow, University of Montana, Missoula
Andrew Larson, Associate Professor, University of Montana, Missoula
Christopher R. Keyes, Research Professor of Forestry, University of 
    Montana, Missoula
Eric Rowell, Wildland Fire Scientist, University of Montana, Missoula
Libby Metcalf, Associate Professor, University of Montana, Missoula
Philip Higuera, Associate Professor of Fire Ecology, University of 
    Montana, Missoula
Solomon Dobrowski, Associate Professor, University of Montana, Missoula
Mark Vander Meer, Forest Ecologist/Soil Scientist, Watershed Consulting 
    LLC, Missoula
Hannah Johlman, Fire Science Communicator, GPFSE, Wyola
North Carolina
Josh Kelly, Biologist, Mountain True, Asheville
Lauren Reker, Non-native Invasive Species Project Coordinator, Mountain 
    True, Asheville
Adam Warwick, Stewardship Manager, The Nature Conservancy, Asheville
Mamie Colburn, Stewardship Assistant, The Nature Conservancy, Asheville
Jenna Danckwrt, Concerned Citizen, Asheville
Nic Danckwart, Forestry Technician, Asheville
Richard L. Broadwell, President, Fork Ridge Environmental Consulting, 
    Bakersville
Alex Finkral, Chief Forester, The Forestland Group, Chapel Hill
Christa Rogers, Natural Resources Manager, Mecklenburg County NC, 
    Charlotte
Aixi Zhou, Associate Professor, University of North Carolina at 
    Charlotte, Charlotte
Dan Feola, NC Forest Service Ranger, North Carolina State University, 
    Columbia
Chet Buell, Technology Support Analyst, North Carolina State 
    University, Durham
Renee Strnad, Environmental Educator, North Carolina State University, 
    Durham
Margit Bucher, Fire Manager, The Nature Conservancy, Durham
Meyer Speary, Fire Environment Forester, North Carolina Forest Service, 
    Edenton
Edgar L. Peck III, Elk Park
Matthew Harrell, Practitioner, NC Prescribed Fire Council, Indian Trail
Colby Lambert, Area Specialized Agent -Forestry, NC Cooperative 
    Extension, Lillington
Thomas G. Crews, Jr., Retired Fire Management Officer, US Fish and 
    Wildlife Service, Manteo
Ryan Jacobs, Wildlife Forest Manager, North Carolina Wildlife Resources 
    Commission, Marion
Ryan Sparks, Conservation Associate, Foothills Conservancy of NC, 
    Morganton
Branda Nowell, Professor, North Carolina State University, Raleigh
Charles Sanders, Wildlife Biologist, North Carolina State University, 
    Raleigh
Fernando Garcia Menendez, Assistant Professor, North Carolina State 
    University, Raleigh
Jennifer Costanza, Research Assistant Professor, North Carolina State 
    University, Raleigh
Joseph P. Roise, Forester, North Carolina State University, Raleigh
Mara Omega, Professor, North Carolina State University, Raleigh
Myron Floyd, Professor, North Carolina State University, Raleigh
Robert Scheller, Professor, North Carolina State University, Raleigh
Ronald Sederoff, Professor Emeritus, North Carolina State University, 
    Raleigh
Ross Whetten, Professor of Forestry & Environmental Resources, North 
    Carolina State University, Raleigh
Stephanie Jeffries, Director, Environmental First Year Program, North 
    Carolina State University, Raleigh
Steven McKeand, Professor, North Carolina State University, Raleigh
Toddi Steelman, Professor, North Carolina State University, Raleigh
Laurel Kays, Project Manager, Southwestern NC RC&D Council, Waynesville
Ryan Bollinger, Local Implementation Team Consul, The Longleaf 
    Alliance, Whispering Pines
Kate Williams, Prescribed Fire Technician, The Nature Conservancy, 
    Wilmington
North Dakota
Betsey York, Research Associate, North Dakota State University, Fargo
Devan Allen McGranahan, Assistant Professor of Range Science, North 
    Dakota State University, Fargo
Jonathan Spiess, Graduate Student, North Dakota State University, Fargo
Micayla Lakey, Graduate Research Assistant, North Dakota State 
    University, Fargo
Nebraska
Jeanine Lackey, Director of Research and Stewardship, Fontenelle 
    Forest, Bellevue
Michelle Foss, Restoration Biologist, Fontenelle Forest, Bellevue
Noah Sundberg, Fontenelle Forest, Bellevue
Tim Dickson, Faculty, University of Nebraska, Omaha, Omaha
Jennifer Hopwood, Senior Pollinator Conservation Specialist, Xerces 
    Society for Invertebrate Conservation, Omaha
New Jersey
John Cecil, Vice President for Stewardship, New Jersey Audubon, Port 
    Murray
New Mexico
Matthew Hurteau, Associate Professor, University of New Mexico, 
    Albuquerque
Scott L Collins, Distinguished Professor, University of New Mexico, 
    Albuquerque
Emily Hohman, Executive Director, Chama Peak Land Alliance, Chama
Jeremy Gingerich, Assistant General Manager, Vermejo Park LLC, Raton
John Lissoway, Member, Forest Stewards Guild, Santa Fe
Sam Berry, Project Coordinator, Forest Stewards Guild, Santa Fe
Zander Evans, Executive Director, Forest Stewards Guild, Santa Fe
Mark Meyers, Forester, New Mexico State Land Office, Santa Fe
Tim L. Kirkpatrick, President, East Mountain Interagency Fire 
    Protection Association (EMIFPA), Tijeras
Nevada
Tim Brown, Research Professor, Desert Research Institute, Reno
Julie Hunter, Chair, Nevada Prescribed Fire Alliance, Reno
Alexandra Urza, Graduate Research Assistant, University of Nevada, 
    Reno, Reno
Eugenie MontBlanc, Project Manager, University of Nevada, Reno, Reno
Peter Weisberg, Professor, University of Nevada, Reno, Reno
Thomas Dilts, Research Scientist, University of Nevada, Reno, Reno
Carol L. Rice, Senior Wildland Fire Manager, Wildland Resource 
    Management, Inc., Reno
April Smith, Stay at Home Mother, Reno
New York
Kurt Gielow, Student, Homer
Sarah A. Moss, Accounting Staff Specialist, Saint Christopher's Inn, 
    Inc., Poughkeepsie
David Newman, Professor, SUNY College of Environmental Science and 
    Forestry, Syracuse
Robert W. Malmsheimer, Interim Chair and Professor of Forest Policy and 
    Law, SUNY College of Environmental Science and Forestry, Syracuse
Ben Zimmerman, Branch Manager, Managing Ecologist, Applied Ecological 
    Services, Waterloo
Ohio
Alia Dietsch, Assistant Professor, The Ohio State University, Columbus
Claire Rapp, Graduate Researcher, The Ohio State University, Columbus
Elizabeth Myers Toman, Visiting Assistant Professor, The Ohio State 
    University, Columbus
Eric Toman, Associate Professor, The Ohio State University, Columbus
G. Matt Davies, Assistant Professor, The Ohio State University, 
    Columbus
Rachel Gabor, Assistant Professor, The Ohio State University, Columbus
Robyn Wilson, Associate Professor of Risk Analysis and Decision 
    Science, The Ohio State University, Columbus
Roger A. Williams, Associate Professor, The Ohio State University, 
    Columbus
Virginia Rich, Assistant Professor, The Ohio State University, Columbus
Oklahoma
Jack Waymire, Senior Biologist, Oklahoma Department of Wildlife 
    Conservation, Clayton
Evan Tanner, Postdoctoral Fellow, Oklahoma State University, Stillwater
John Weir, Research Associate, Oklahoma State University, Stillwater
Oregon
Pat Uhtoff, Forester, Pat Uhtoff Forestry, Ashland
George McKinley, Executive Director, Southern Oregon Forest Restoration 
    Collaborative, Ashland
Carolyn Hunsaker, Retired Research Ecologist, US Forest Service, 
    Ashland
Karl J. Findling, Member, Steens Mountain Advisory Council, Bend
Michael O'Casey, Stewardship Coordinator, Bend
Kirk R. Metzger, Retired Wildland Hazardous Fuels Manager, US Forest 
    Service, Camp Sherman
Max Bennett, Extension Forestry & Natural Resources Faculty, Oregon 
    State University, Central Point
Kevin Vogler, Spatial Wildfire Analyst, Oregon State University, 
    Corvallis
Anthony S. Davis, Acting Dean, College of Forestry, Oregon State 
    University
Al Pancoast, Graduate Student, Oregon State University, Corvallis
Anna Talucci, Graduate Student, Oregon State University, Corvallis
Audrey Maclennan, Graduate Student, Oregon State University, Corvallis
Audrey Riddell, Graduate Research Assistant, Oregon State University, 
    Corvallis
Becky Miller, Graduate Student, Oregon State University, Corvallis
Bruce Shindler, Professor Emeritus, Oregon State University, Corvallis
Carrie Berger, Extension, Oregon State University, Corvallis
Chad Kooistra, Researcher, Oregon State University, Corvallis
Christal Johnson, PhD Student in Fire Science, Oregon State University, 
    Corvallis
Christine Olsen, Instructor, Oregon State University, Corvallis
Christopher J. Dunn, Research Associate, Oregon State University, 
    Corvallis
Claire Tortorelli, Graduate Student, Oregon State University, Corvallis
Clayton Sodergren, PhD Student, Oregon State University, Corvallis
Danielle Jackson, Student, Oregon State University, Corvallis
David Blunck, Assistant Professor, Oregon State University, Corvallis
Gabe, Graduate Research Assistant, Oregon State University, Corvallis
Janean Creighton, Associate Professor, Oregon State University, 
    Corvallis
Kayla Johnston, Graduate Teaching Assistant, Oregon State University, 
    Corvallis
Lisa Ellsworth, Assistant Professor, Senior Research, Oregon State 
    University, Corvallis
Lizz Schuyler, Doctoral Researcher, Oregon State University, Corvallis
M. E. Braun, Acquisitions Editor, Oregon State University, Corvallis
Meg Krawchuk, Assistant Professor, Oregon State University, Corvallis
Patricia Muir, Professor Emeritus, Oregon State University, Corvallis
Rachel Houtman, Faculty Research Assistant, Oregon State University, 
    Corvallis
Stephen Fitzgerald, Professor, Oregon State University, Corvallis
Timothy Facemire, Graduate Student, Oregon State University, Corvallis
Tom Spies, Courtesy Professor, Oregon State University, Corvallis
Will Downing, Fire Ecologist, Oregon State University, Corvallis
Lisa M. Ganio, Associate Professor, Oregon State University, College of 
    Forestry, Corvallis
David Shaw, Associate Professor, Forest Health Specialist, Oregon State 
    University, Corvallis
Neil Williams, Researcher, Corvallis
Lance Sargent, Citizen, Eagle Point
Allison Rossman, Botanist, The Nature Conservancy, Enterprise
Heron Brae, Botanist and Natural History Educator, Columbines School of 
    Botanical Studies, Eugene
Timothy Ingalsbee, Executive Director, Firefighters United for Safety, 
    Ethics, and Ecology (FUSEE), Eugene
Autumn Ellison, Research Faculty, University of Oregon, Eugene
Bart Johnson, Professor, University of Oregon, Eugene
Cassandra Moseley, Director, Ecosystem Workforce Program, University of 
    Oregon, Eugene
Heidi Huber-Stearns, Assistant Research Professor, University of 
    Oregon, Eugene
Jesse Abrams, Research Associate, University of Oregon, Eugene
John Koenig, South Willamette Forest Collaborative, Eugene
Mike Brinkley, Citizen, SW Fire Science Consortium, Eugene
Amanda Stamper, Fire Manager, The Nature Conservancy, Eugene
Alexis Engelbrecht, Volunteer & Outreach Coordinator, Walama 
    Restoration Project, Eugene
Alan Stearns, Teacher, Eugene
Janelle Cossey, Forestry Technician, Eugene
Leslie Dietz, Volunteer, Eugene
Louisa Evers, US Citizen, Gresham
Jack Shipley, Board Chair, Applegate Partnership and Watershed Council, 
    Jacksonville
Daniel Leavell, Assistant Professor of Practice/Forest Agent, OSU 
    College of Forestry Extension, Klamath Falls
Gene Rogers, President, Wildland Fire Technologies, Inc., Klamath Falls
James K. Walls, Executive Director, Lake County Resources Initiative, 
    Lakeview
Audrey Squires, Restoration Projects Manager, Middle Fork Willamette 
    Watershed Council, Lowell
Derek Anderson, Oregon State University, Monmouth
Mark Webb, Executive Director, Blue Mountains Forest Partners, Mt. 
    Vernon
Joan Lawrence, Prescribed Fire Practitioner, Interagency Wildland Fire, 
    North Bend
Paula Hebert, Member, Southern Willamette Forest Collaboration, 
    Oakridge
Sarah Altemus-Pope, Coordinator, Southern Willamette Forest 
    Collaborative, Oakridge
Susan Knudsen Obermeyer, Private Citizen, Southern Willamette Forest 
    Collaborative, Oakridge
Loren E. Hogue, Retired Board Member, SW Fire Science Consortium, 
    Oakridge
Megan Creutzburg, Faculty Research Associate, Institute for Natural 
    Resources, Oregon State University, Portland
Andres Holz, Assistant Professor, Portland State University, Portland
Cody Evers, PhD Student, Portland State University, Portland
Max Nielsen-Pincus, Assistant Professor of Environmental Management, 
    Portland State University, Portland
Melissa Lucash, Research Assistant Professor, Portland State 
    University, Portland
Greg Block, President, Sustainable Northwest, Portland
Kendal Martel, Forest Program Associate, Sustainable Northwest, 
    Portland
Susan Jane Brown, Wildlands Program Director & Staff Attorney, Western 
    Environmental Law Center, Portland
Kerry Kemp, Forest Ecologist, The Nature Conservancy, Prairie City
Alison E. Dean, Fire Effects Monitoring Coordinator, Central Oregon 
    Fire Management Service, Prineville
Nick Yonker, Oregon Smoke Management Program Manager, Oregon Department 
    of Forestry, Salem
Susanne Ranseen, Ecologist, Oregon State University, Salem
Cristina Horton, Student, Oregon State University, Salem
Robbye Lanier, Environmental Technician, Lane Regional Air Protection 
    Agency, Springfield
Emily Jane Davis, Assistant Professor, Oregon State University, The 
    Dalles
Teresa Zena Alcock, Fire Data and Geospatial Analyst, Oregon Department 
    of Forestry, Tualatin
Pennsylvania
Robert J. Fleming, President, Danamere Farms, Inc., Philadelphia
Alice Puchalsky, Student, Temple University, Philadelphia
Emily Booth, Postdoctoral Research Fellow, Temple University, 
    Philadelphia
Alan Taylor, Professor Department of Geography and Ecology, 
    Pennsylvania State University, State College
Warren Reed, PhD Candidate, Pennsylvania State University, State 
    College
Melissa M. Kreye, Assistant Professor of Forest Resources Management, 
    Pennsylvania State University, State College
South Carolina
Charles Babb, Longleaf Implementation Team Coordinator, Sandhills 
    Longleaf Pine Conservation Partnership, Chesterfield
Bridget Lorraine Blood, PhD Research Assistant, Clemson University, 
    Clemson
Dr. Donald L. Hagan, Assistant Professor of Forest Ecology, Clemson 
    University, Clemson
Emily Oakman, Masters Student, Clemson University, Clemson
Jenifer Bunty, Public Information Coordinator, Clemson University, 
    Clemson
Matthew Vaughan, PhD Student, Clemson University, Clemson
Darryl Jones, Forest Protection Chief, South Carolina Forestry 
    Commission, Columbia
Sudie Thomas, Member, South Carolina Native Plant Society, South 
    Carolina Exotic Pest Plant Council, Conway
Dylan Scott, Prescribed Fire Practitioner, Goose Creek
Thomas A. Waldrop, President, TomGen Forestry, Seneca
Brad McKelvy, Retired Fed FireFighter 38 Years USFS, US Forest Service, 
    Warrenvile
Tennessee
Steven Hromada, Adjunct Instructor, Austin Peay State University, 
    Clarksville
Trisha Johnson, Biologist, Cookeville
Jef Hodges, Grassland Coordinator, National Bobwhite Conservation 
    Initiative, Knoxville
Savannah Collins-Key, Graduate Teaching Assistant, University of 
    Tennessee, Knoxville
Tyler Gifford, Student, University of Tennessee, Knoxville
Courtney Madson, Associate Producer, Knoxville
Mark Gudlin, Assistant. Chief, Wildlife & Forestry, TN Wildlife 
    Resources Agency, Nashville
Ken Smith, Assistant Dean of the Environment, Integrated Program in the 
    Environment, The University of the South, Sewanee
Shannon Allen, Natural Resources Planner, Alabama and Tennessee Chapter 
    of the Wildlife Society, Sewanee
Texas
J. Kelly Hoffman, Environmental Scientist, Texas A&M University, Austin
Theron Tate, Property Owner, Beaumont
Aaron D. Stottlemyer, Forest Resource Analyst, Texas A&M University, 
    College Station
Alexandra Lodge, Postdoctoral Research Associate, Texas A&M University, 
    College Station
Charles Lafon, Professor, Texas A&M University, Dept. of Geography, 
    College Station
Christopher Roos, Associate Professor of Anthropology, Southern 
    Methodist University, Dallas
William Mobley, Postdoctoral Researcher, Texas A&M University, Fort 
    Worth
Dylan Schwilk, Associate Professor of Biological Sciences, Texas Tech 
    University, Lubbock
Robin M. Verble, Associate Professor, Texas Tech University, Lubbock
Xiulin Gao, PhD Student, Texas Tech University, Biological Science, 
    Lubbock
Rebecca Kidd, Assistant Professor, Stephen F. Austin State University, 
    Nacogdoches
Morgan Russell, Assistant Professor and Range Extension Specialist, 
    Texas A&M AgriLife Extension Service, San Angelo
Rob Galbraith, Director of Underwriting Research, USAA, San Antonio
Cynthia L. Dinwiddie, Principal Scientist, San Antonio
Utah
Sara Germain, Canine Search Specialist, FEMA, Logan
Alexander Howe, PhD Fellow, Utah State University, Logan
Erika Blomdahl, Graduate Student Researcher, Utah State University, 
    Logan
Gwendwr Meredith, PhD Student, Utah State University, Logan
Kendall Becker, USU Science Writing Center Assistant Director, Utah 
    State University, Logan
Lisa Green, Project Coordinator, Utah State University, Logan
Mark Brunson, Professor, Utah State University, Logan
Tucker Furniss, PhD Student, Utah State University, Logan
Jessica Kirby, Open Space Management Supervisor, Snyderville Basin 
    Special Recreation District, Park City
Bruce A. Roundy, Professor, Brigham Young University, Provo
Erin Banwell, Fire Ecology Program Coordinator, Gravitas Peak Wildland 
    Fire Module, Provo
Marjie Brown, Wildfire Communications Specialist, ScienceFire 
    Solutions, Inc., Salt Lake City
Maxfield Carlin, Biologist, Tracy Aviary, Salt Lake City
Virginia
Isa Bryant, Researcher, Arlington
Adam Coates, Assistant Professor, Virginia Tech, Blacksburg
Andrew Johnson, Student, Virginia Tech, Blacksburg
Anne-Lise Velez, Collegiate Assistant Professor, Virginia Tech, 
    Blacksburg
George Hahn III, NCRF 1826, PhD Research Assistant, Virginia Tech, 
    Blacksburg
Marc Stern, Associate Professor, Virginia Tech, Blacksburg
Harold Burkhart, Professor, Virginia Tech, Forestry, Blacksburg
Howard Epstein, Professor, University of Virginia, Charlottesville
Nikole Simmons, Restoration Coordinator, The Nature Conservancy, Hot 
    Springs
Anne M. Jewell, Fire Management Specialist, Forester, Center for 
    Environmental Management of Military Lands, Mechaniscville
Allison Jolley, Communications Manager, Fire Adapted Communities 
    Learning Network, Richmond
Stacey S. Frederick, Science Outreach, Richmond
Laurel Schablein, Private Citizen, Vesuvius
Vermont
Anthony D'Amato, Associate Professor, University of Vermont, Burlington
Kim Coleman, Postdoctoral Researcher, University of Vermont, Burlington
Cecilia Danks, Associate Professor and Gund Fellow, University of 
    Vermont, Burlington
Washington
Ray Guse, Principal, Smoked Goose Consulting, LLC, Cove
Rose Shriner, Natural Resources Project Manager, Kittitas County 
    Conservation District, Ellensburg
Brooke A. Cassell, Research Assistant, Portland State University, 
    Everett
Jon K. Culp, Secretary, Washington Prescribed Fire Council, Okanogan
Sarah Hamman, Restoration Ecologist, Center for Natural Lands 
    Management, Olympia
Tim Shearman, Postdoctoral Research Associate, University of 
    Washington, Olympia
David Wilderman, Natural Resource Scientist, Washington Dept of Natural 
    Resources, Olympia
Sarah Hart, Assistant Professor, Washington State University, Pullman
Keala Hagmann, Research Ecologist, Applegate Forestry, LLC, Seattle
Diana Olson, FRAMES Project Manager, University of Idaho, Seattle
Michael Tjoelker, Content Specialist, University of Idaho, Seattle
Lisa Graumlich, Dean, College of the Environment, University of 
    Washington, Seattle
Charles Halpern, Research Professor, University of Washington, Seattle
Claire Wainwright, Postdoctoral Ecologist, University of Washington, 
    Seattle
Ernesto Alvarado, Research Associate Professor, University of 
    Washington, Seattle
James K. Agee, Professor Emeritus, University of Washington, Seattle
Jonathan Bakker, Associate Professor, University of Washington, Seattle
Kara M Yedinak, Postdoctoral Research Associate, University of 
    Washington, Seattle
Michelle Agne, PhD Student, University of Washington, Seattle
Paige C Eagle, Research Consultant, University of Washington, Seattle
Saba Saberi, Graduate Student, University of Washington, Seattle
Paul F. Hessburg, Research Ecologist, College of the Environment, 
    University of Washington, Seattle
Brian J. Harvey, Assistant Professor, School of Environmental and 
    Forest Sciences, University of Washington, Seattle
Rae Morris, Community Coordinator, Tonasket
Dave Werntz, Science and Conservation Director, Conservation Northwest, 
    Twisp
Joel Dubowy, Software Engineer, University of Washington, Winthrop
Susan Prichard, Research Scientist, University of Washington, Winthrop
Reese Lolley, Director, Forest Restoration and Fire, The Nature 
    Conservancy, Washington Prescribed Fire Council, Yakima
Hilary Lundgren, Washington Fire Adapted Communities Learning Network 
    Coordinator, Washington Resource Conservation and Development 
    Council, Yakima
Wisconsin
Sarah Johnson, Associate Professor, Northland College, Ashland
Carl Cotter, Stewardship Coordinator, Aldo Leopold Foundation, Baraboo
Curt Meine, Senior Fellow, Aldo Leopold Foundation, Baraboo
Steven Swenson, Director of Conservation, Aldo Leopold Foundation, 
    Baraboo
Josh LaPointe, Regional Manager Ecosystem Restoration, Applied 
    Ecological Services, Brodhead
Josh Kraemer, Project Manager, Wisconsin Prescribed Fire Council, 
    Brodhead
Fred Wollenburg, Landowner, The Prairie Enthusiasts, Dalton
Stacey Marion, Restoration Ecologist, Adaptive Restoration, Madison
Mark Horn, Owner, Conservation Media LLC, Madison
Gary Werner, Volunteer Burn Boss, Dane County Chapter Ice Age Trail 
    Alliance, Madison
Jacob Griffin, Associate Professor of Biology; Director of 
    Environmental Studies, Edgewood College, Madison
Joe Lacy, Concerned Citizen, Prairie Enthusiasts, Madison
Hannah Spaul, Fire Manager, The Nature Conservancy, Madison
Thomas Pierce, The Prairie Enthusiasts, Madison
Ankur Desai, Professor, University of Wisconsin, Madison
H. Anu Kramer, Research Associate, University of Wisconsin, Madison
Adena Rissman, Associate Professor, Human Dimensions of Ecosystem 
    Management, University of Wisconsin, Madison, Madison
Laura Ladwig, Research Ecologist, University of Wisconsin, Madison, 
    Madison
Monica G. Turner, Odum Professor of Ecology and Vilas Research 
    Professor, University of Wisconsin, Madison, Madison
Paul H. Zedler, Professor of Environmental Studies, University of 
    Wisconsin, Madison, Madison
Tyler J. Hoecker, Graduate Researcher, University of Wisconsin, 
    Madison, Madison
Winslow D Hansen, PhD Candidate, University of Wisconsin, Madison, 
    Madison
Zakary Ratajczak, Postdoctoral Student, University of Wisconsin, 
    Madison, Madison
Amelia Fass, Student, University of Wisconsin, Stevens Point, Madison
Keith Phelps, Conservation Worker, University System, Madison
Megan Sebasky, Research Scientist, Wisconsin Department of Natural 
    Resources, Madison
Adam Gundlach, Board of Directors Chair, Wisconsin Prescribed Fire 
    Council, Madison
Jan Ketelle, Wisconsin Prescribed Fire Council, Mineral Point
Yari Johnson, Assistant Professor, University of Wisconsin-Platteville, 
    Mount Horeb
Curtis Wayka, Prescribed Fire/Fuels Technician, Menominee Tribal 
    Enterprises, Neopit
Angus Mossman, Student, University of Wisconsin, Madison, North Freedom
Evan Larson, Associate Professor of Geography, University of Wisconsin-
    Platteville, Platteville
Matthew Smith, Land Manager, Riveredge Nature Center, Saukville
Jeb Barzen, Founder, Private Lands Conservation LLC, Spring Green
Isabel Moritz, Fire Crew, University of Wisconsin, Stevens Point
Jacob Barkalow, Student of Fire, University of Wisconsin, Stevens Point
Julie Dickson, College Student, University of Wisconsin, Stevens Point
Korey Badeau, Student, University of Wisconsin, Stevens Point
Logan Wimme, Undergraduate Forest Management, University of Wisconsin, 
    Stevens Point
Max Richards, Student, University of Wisconsin, Stevens Point
Nick Bielski, Student, University of Wisconsin, Stevens Point
Dylan Wenker, Student, Stevens Point
Kelley Harkins, Undergraduate Wildland Fire Science Student, University 
    of Wisconsin, Stevens Point
Nathan Holoubek, Research Scientist, Wisconsin Department of Natural 
    Resources, Sun Prairie
Theran Stautz, Ecologist, Sun Prairie
Richard A. Hansen, Private land owner, Wautoma
West Virginia
Daniel J. Robison, Dean, Davis College of Agriculture, Natural 
    Resources and Design, West Virginia University
Nicholas Jeros, Supervisory Fire Engine Operator, Central Apps Fire 
    Learning Network, Davis
Adele Fenwick, Fire Instructor and Practitioner, Morgantown
Wyoming
Daniel Laughlin, Associate Professor, University of Wyoming, Laramie
Kristina Hufford, Associate Professor, University of Wyoming, Laramie
Alex Spannuth, Fire Effects Monitor, Wyoming
                                 <greek-l>
                                 ______
                                 
          Supporters of the Maintaining Effective Funding deg.
  Prepared Statement of Supporters for Maintaining Effective Funding 
Levels for Essential Wildfire Risk Reduction and Protection Programs at 
       the USDA Forest Service and the Department of the Interior
Dear Chairwoman Murkowski and Ranking Member Udall:

    The undersigned organizations are writing to express our strong 
support for maintaining effective funding levels in the fiscal year 
2019 appropriations process for essential wildfire risk reduction and 
protection programs at the USDA Forest Service (USFS) and the 
Department of the Interior (DOI). The important work accomplished 
through the State Fire Assistance and Volunteer Fire Assistance 
programs help decrease total Federal emergency wildfire suppression 
costs and reduce the threat of fire to people, communities, and both 
public and private lands.
    America's forests and forest-dependent communities are at risk from 
outbreaks of pests and pathogens, persistent drought, and the buildup 
of hazardous fuels. Urbanization and development patterns are placing 
more homes and communities near fire-prone landscapes, leading to more 
destructive and costly wildfires, like those that burned more than 10 
million acres in 2017 alone.
    We thank you for your leadership in developing and securing a long-
term wildland fire funding solution which will ensure that the USFS has 
the funding needed for both routine activities to local and State 
wildland fire preparedness and mitigation efforts as well as engage in 
emergency wildland fire suppression activities. This long-held goal of 
our organizations would not have been realized without your leadership 
and the work of this Committee. Additionally, our organizations thank 
you for providing additional funding to support the USFS until this 
fire funding fix takes effect in fiscal year 2020. We encourage you to 
continue providing this strong funding level to the USFS at least until 
the recently enacted fire funding fix takes effect in fiscal year 2020.
    The fiscal year 2019 appropriations bill can provide for both 
necessary wildland fire suppression and fire risk reduction activities 
that reduce firefighting costs in the long run. We appreciate this 
Committee's continued support for the State Fire Assistance program and 
the Volunteer Fire Assistance program and encourage you to continue 
providing strong funding for these important programs.
    State Fire Assistance (SFA) is the fundamental Federal mechanism 
for assisting States and local fire departments in responding to 
wildland fires and in conducting management activities that mitigate 
fire risk on non-Federal lands. The program helps train State and local 
first responders who are often first to arrive at a wildland fire 
incident, as well as equip them with the tools they need to put 
wildfires out in efficiently and safely.
    For example, in fiscal year 2017, SFA directly funded hazardous 
fuel treatments on 83,845 acres (with another 92,276 acres treated with 
leveraged funding from partners) and provided assistance to communities 
around the country, supporting 4,581 risk assessment and fire 
management planning projects in more than 3,100 communities. 
Additionally, between 2008 and 2012, the program helped deliver more 
than $150 million annually in equipment for use by State and local 
first responders.
    The localized support provided by SFA is crucial because most 
wildfires (80 percent during 2017) burn within State and local fire 
department jurisdictions. Even when it comes to wildfires on Federal 
lands, SFA-supported crews and engines are often the first to respond.
    Our organizations are grateful for the Committee's decision to 
increase SFA funding to $80 million in fiscal year 2018. However, 
additional modest increases in SFA funding can help expand wildland 
fire preparedness and mitigation efforts and support State forestry 
agencies in repurposing equipment through the Federal Excess Personal 
Property and the Firefighter Property programs. In fiscal year 2019, we 
urge you to provide $87 million for the State Fire Assistance program.
    The Volunteer Fire Assistance (VFA) program provides support to 
rural communities and is critical to ensuring adequate capacity to 
respond to wildfires, reducing the risk to communities, people, homes 
and property, and firefighters. This capacity is critical because these 
State and local resources are the first responders to more than 80 
percent of wildland fires--whether on State, Federal or private lands. 
According to the Forest Service, during fiscal year 2017, the VFA 
program helped provide assistance to 8,821 communities, train 17,140 
firefighters, expanded or organize 61 fire departments, and purchase, 
rehabilitate, or maintain nearly $9 million in equipment.
    Our organizations greatly appreciate the Committee's work to 
increase VFA funding to $16 million in fiscal year 2018. In fiscal year 
2019, we urge you to provide no less than $16 million for the Volunteer 
Fire Assistance Program.
    We appreciate the difficult task the Committee faces in the current 
budget climate. It is important to remember, however, that these vital 
programs safeguard human life, habitat, and property, and reduce the 
overall cost of wildland fire management. Accordingly, we urge you to 
support funding for these critical programs.
    Thank you for your consideration of this important request.

Sincerely,

National Association of State Foresters
National Volunteer Fire Council
International Association of Fire Chiefs
                                 <greek-l>
                                 ______
                                 
   Supporters of the National Environmental Education Act (NEEA) deg.
    Prepared Statement of U.S. Senators in Support of the National 
                   Environmental Education Act (NEEA)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
         Prepared Statement of the Susanville Indian Rancheria
    The Susanville Indian Rancheria submits the following 
recommendations regarding the fiscal year 2019 Interior appropriations 
bill:

  --Reject the large proposed cuts in the Bureau of Indian Affairs 
        Social Services program (37 percent) and the Indian Child 
        welfare Act (27 percent).
  --Retain the BIA's Johnson O'Malley Program Which is Proposed for 
        Elimination
  --Reject the Proposal to Eliminate the IHS Community Health 
        Representatives Program
  --Continue Full, Mandatory Funding for IHS and BIA Contract Support 
        Costs
  --Funding for a New Medical Clinic
  --Maintain the Special Diabetes Program's Funding as Mandatory
  --Reject Rescissions and Protect the IHS and BIA from Sequestration

    The Susanville Indian Rancheria includes over 1,180 Tribal citizens 
located in Northern California. The Tribe operates several programs 
through Indian Self-Determination Act compact and contracts with the 
Bureau of Indian Affairs (BIA), including the Tribe's two largest: The 
Consolidated Tribal Government Program and the Road Maintenance 
Program. Through these programs, the Tribe operates aid to Tribal 
government, Johnson O'Malley, social services, Indian child welfare, 
community fire protection, adult and higher education, and job 
placement programs, as well as projects to maintain the Tribe's 
infrastructure. Through these programs, the Tribe is a vital part of 
the Susanville and Lassen County economic community.
    The Tribe also operates the Lassen Indian Health Center via a Title 
V self-governance compact with the Indian Health Service (IHS). The 
Tribe and the Health Center serve not only our Tribal members, but also 
lineal descendants of California and other federally recognized 
Indians. As a result, our service population for Lassen County is over 
1,900 individuals of Indian descent. The Health Center is a vital link 
for our patients, who receive medical, dental care, behavioral health 
services, substance abuse counseling, and pharmacy services. Providing 
both governmental and healthcare services is an important role for the 
Tribe, although we depend on our partners, IHS, BIA, and Congress, to 
fulfill their contractual obligations.
    Reject the BIA Social Services Reduction of 37 percent. The 
administration's proposed cut to BIA social services is astonishing. We 
use our limited Tribal Priority Allocation funds ($22,506) toward 
urgent needs of our Tribal members. In the past two and one half 
months, the Tribal office has processed over 100 social services types 
of requests. We estimate that we would need a 141 percent increase in 
our TPA just to meet the minimum needs for our Tribal members.
    Reject the Proposed Indian Child Welfare Act Reduction of $5 
million or 27 percent. The Susanville Indian Rancheria uses what 
limited TPA funding it receives ($44,414) towards salaries, telephone 
costs, supplies, NICWA membership dues, expert witness fees, training, 
and legal fees. We have averaged slightly over 12 active cases each 
month with some cases being closed and others being opened due to 
various reasons (abuse, parent reunification, etc.). In addition we 
receive an average of 5-8 daily correspondences on ICWA matters that 
require a response. We have an urgent need for more Native foster homes 
and have worked with Lassen County Child and Family Services in 
certifying some Native foster homes. But many of our Tribal member 
children (and Tribal children who are not Susanville Indian Rancheria 
members) are being placed in homes that do not meet with ICWA placement 
preference law. It is very important that Native children do not lose 
their connection with their culture as this this connection is what 
keeps children whole and provides strength of mind and body. We 
estimate that would need a 323 percent increase to meet the minimum 
ICWA-related needs for our Tribal children.
    Retain the Johnson O'Malley Program. We strongly oppose the 
proposal to eliminate the Johnson O'Malley Program (JOM). The JOM 
serves a very important function for the Susanville Indian Rancheria as 
it makes possible three after school tutors and also provides the 
partial salary of our Education Programs Director. In addition, these 
funds are used for Renaissance learning dues that help our students 
increase their reading skills, as well as providing assistance for 
summer activities. We are pleased as we are on track with increasing 
the reading levels of our students, increasing their math proficiency 
and increasing cultural awareness. Without these funds we would lose 
all that we have gained in the past few years. We are proud of our 
students and what they have accomplished.
    Reject the Administration's Proposed Elimination of the IHS 
Community Health Representatives Program. We are astonished that the 
administration would propose the elimination of the Community Health 
Representatives Program (CHR) which was funded at $62.8 million in 
fiscal year 2018. The CHR program provides community-based essential 
home visiting services to elders and to people of all ages, serving 
both medical and psycho-social health needs. These home-based services 
increase the involvement of individuals in managing and improving their 
own health--especially with chronic disease management--and help 
prevent avoidable emergency room visits and hospital re-admissions.
    Funding for a New Medical Clinic. The Susanville Indian Rancheria 
is in dire need of a new medical clinic. Our current facility is no 
longer large enough to house our employees that provide services to our 
Indian people in Lassen County. It is not cost effective to update this 
very old facility. While we have undertaken the planning of a facility 
but we lack the funding for construction. We are pleased to see the 
fiscal year 2018 IHS health facility construction funding increase and 
encourage you to keep providing such funding for replacement of medical 
facilities.
    Maintain the Special Diabetes Program Funding as Mandatory. We 
oppose the administration's proposal to change the SDPI program from 
one which is funded on a mandatory basis to discretionary funding. We 
understand that the same would be true for the HHS Community Health 
Centers programming. It appears to be a way to require appropriations 
subcommittees to have to use their funding allocations for what 
previously was mandatory funding and thus not counted against their 
allocation. Many people in Indian Country would like all IHS funds to 
be mandatory. Making SDPI funds discretionary could open it up to 
reductions and also subject it to short-term Continuing Resolutions 
thus leading to difficulties in planning and recruiting and retaining 
staff.
    Continue Full Funding of Contract Support Costs. We are so 
appreciative of the House and Senate Interior Appropriations 
Subcommittees' support of full and mandatory funding for IHS and BIA 
Contract Support Costs and for finding a way to make that happen. This 
action has been crucial to the strengthening of Tribal governments' 
ability to successfully exercise their rights and responsibilities. We 
do feel that the IHS should pay Contact Support Costs on its grant 
programs and appreciate the House Committee Report language from fiscal 
year 2018 encouraging them to do so.
    Reject Funding Rescissions and Protect IHS and BIA from 
Sequestration. We are aware that there is an effort among some in 
Congress and by the Office of Management and Budget to rescind some 
funding made available by the Bipartisan Budget Act and the 
Consolidated Appropriations Act for fiscal year 2018, and we urge you 
reject such a proposal. The bipartisan agreement that was reached 
should not be broken. We are grateful for the fiscal year 2018 funding 
increases made available for the BIA and IHS--notably in the Facilities 
Accounts. Also of particular significance is the increase in funds to 
address the national opioid abuse epidemic for which Tribes will 
belatedly have direct access.
    While we have not had an automatic across-the-board sequestration 
of discretionary Federal funds since fiscal year 2013, the Balanced 
Budget and Emergency Deficit Control Act should nevertheless be amended 
to exempt the IHS and BIA from such reductions. Other health programs, 
e.g., the Veterans Health Administration, Medicaid grants, and Medicare 
payments (except for a 2 percent reduction for administration) are held 
harmless.
    Thank you for your consideration of the views of the Susanville 
Indian Rancheria.

    [This statement was submitted by Deana M. Bovee, Tribal 
Chairwoman.]
                                 ______
                                 
      Prepared Statement of the Sustainable Urban Forest Coalition
    The Sustainable Urban Forests Coalition (SUFC) is comprised of more 
than 30 national organizations and corporations representing hundreds 
of thousands of professionals and millions of supporters who care and 
support sustainable trees and green infrastructure where people live. 
Collectively, we are asking for your support for several programs under 
the Interior subcommittee's jurisdiction that support urban and 
community forests and green infrastructure.
    Our Nation's 138 million acres of urban and community forest lands 
impact over 190 million Americans that live in these communities and 
are vital to creating and maintaining healthy, livable communities of 
all sizes by providing many scientifically proven social, economic, and 
environmental benefits to people. The ability to mitigate air 
pollution, reduce energy consumption, mitigate the heat island effect, 
improve human health, and reduce storm water runoff have directly or 
indirectly reduced costs in communities by millions of dollars. The 
collective value and benefits of community trees equals over $10 
billion nationwide. With a projected 394 million Americans living in 
urbanized areas by 2050, investing in trees to create livable 
communities needs to happen now.
    While a Federal input of funds for urban forestry may be questioned 
because most urban forestry programs are accomplished at the State and 
local level, the Federal support and leadership through the USFS and 
overarching program leverages funds ranging from 2:1 to 5:1 in projects 
and grants. The Federal ``seed'' money is often the key to including 
these programs at the State and local level, the collaboration and 
leadership of the care for trees where people live every day in all 
sizes of communities across the country results in a cumulative 
national urban forest canopy that the Federal Government could not 
oversee or fund. Most smaller communities do not have the resources to 
practice urban tree management. The Federal funds passed through the 
States provides the resources to initiate their programs to manage the 
trees in their communities. These same funds set the bar for the 
management of the urban tree management in larger communities and at 
the State level. This reduces redundancy and sets a standard of care 
consistent across the Nation.
    SUFC greatly appreciates the leadership and support of this 
subcommittee in ensuring level--and even increased --fiscal year 2018 
funding levels for these important and effective programs. We ask you 
to again reject the drastic cuts proposed in the President's fiscal 
year 2019 budget, particularly the zeroing out of programs like Urban 
and Community Forestry, Landscape Scale Restoration, and Community 
Forests and Open Space Conservation. Defunding or severely cutting 
these programs would have profound and lasting repercussions on people 
and communities across the country.
            usda forest service: state and private forestry
Urban and Community Forestry Program (U&CF)
    U&CF directly assists State government, nonprofit organizations and 
partners that manage and steward our Nation's urban and community 
forests. Working with the State forestry agencies, the program provides 
technical, financial, research, and educational support and services to 
local government, nonprofit organizations, community groups, 
educational institutions, and Tribal governments.
    In fiscal year 2016, U&CF reached over 8,200 urban and rural 
communities and 200+ million people in all 50 States, the District of 
Columbia, U.S. Territories, and affiliated Pacific Island Nations. U&CF 
is a high-impact program and a smart investment as Federal support is 
often leveraged 2:1 (or in many cases significantly more) by States and 
partner organizations. U&CF engages citizens in cities and towns, 
brings together diverse partners, public and private resources, and 
demonstrates that Federal investment can have huge and lasting impacts 
on communities of all sizes.
    SUFC is deeply concerned by the President's proposal to defund the 
U&CF program in fiscal year 2019. Zeroing out this important program 
would completely erode the capacity that has been developed in cities 
and towns of all sizes and jeopardize many local public and private 
partnerships and collaborative projects in which Federal assistance is 
essential. SUFC recommends the Urban and Community Forestry Program be 
funded at $31.3 million in fiscal year 2019.
Landscape Scale Restoration (LSR)
    The LSR program strategically prioritizes resources by 
competitively allocating Cooperative Forestry Assistance Act funds. It 
focuses on targeting Federal investments--leveraged by State and local 
resources--to areas of greatest need, highest value, or strongest 
innovation potential, identified in each State Forest Action Plan. 
Urban and community forestry projects along with other cooperative 
programs have been supported by LSR in the past. However, we want to 
ensure that LSR is not a substitute to the Urban and Community Forestry 
program or other cooperative programs, but a supplement. SUFC 
recommends funding the Landscape Scale Restoration program at $23.5 
million in fiscal year 2019.
Community Forests and Open Space Conservation Program (CFP)
    CFP has made substantial progress in preserving forests by 
increasing opportunities for Americans to connect with forests in their 
own communities and fostering new public-private partnerships. CFP has 
supported nearly three dozen community forest projects in cities and 
towns across 17 States and Territories. In the latest round of CFP 
grants, project partners leveraged $10.6 million in Federal funds to 
secure $34.5 million in non-Federal funding, resulting in more than 
15,000 acres of community forests. This impressive leveraging ratio 
demonstrates the willingness of local entities to match Federal funding 
with significant commitments of funding and other resources. SUFC 
recommends an increase in funds to $5 million in fiscal year 2019.
Forest Health Management
    Forests across the country are threatened by insects and disease 
pathogens introduced from abroad as unwanted hitchhikers on imports. 
The damage usually starts in urban forests because most imported goods 
enter this country through urban ports. As a result, municipal 
governments across the country are spending an estimated $3 billion 
each year to remove trees on city property killed by non-native pests. 
Homeowners are spending an additional $1 billion to remove and replace 
trees on their properties and are absorbing an additional $1.5 billion 
in reduced property values. These costs are projected to rise to more 
than $36 billion as pests spread. The pests do not stay in the cities, 
however. They spread to the rural and wildland forests and threaten 
their many values. While preventing introductions are the desired 
approach, it is essential that the U.S. Forest Service initiate 
programs countering these pests as soon as they are detected. Only such 
prompt and aggressive actions can protect public and private forests 
from massive pest spread and tree devastation. This program provides 
essential expertise and assistance to State and municipal agencies and 
private landowners working to prevent these pests' spread and to 
develop effective strategies to minimize the damage they cause. SUFC 
recommends $48 million for cooperative lands programs under the Forest 
Health Management program.
           usda forest service: forest and rangeland research
    SUFC urges the subcommittee to provide $303 million for the overall 
R&D program.
Urban and Community Forestry Research
    The Forest Service Research and Development (R&D) program provides 
critical financial support for urban forestry research activities to 
develop information and tools for understanding conditions and trends 
in our Nation's urban and community forests. U.S. Forest Service 
researchers have made huge strides in recent years through 
collaborative efforts to develop new tools, such as i-Tree, for mapping 
current tree cover, assessing trends, developing local strategies, and 
building greater understanding of the environmental, economic, and 
social services that trees and forests provide to communities. We urge 
the subcommittee to continue including language in Interior 
Appropriations reports encouraging the Forest Service to maintain a 
strong and vibrant urban forest research program.
Non-native Insects and Diseases Research
    Among the major research challenges facing R&D is the destruction 
of our Nation's urban forests caused by non-native insects and 
diseases. People who value urban forests join supporters of rural and 
wildland forests in depending on Forest Service R&D to develop better 
tools for pest detection and protective strategies including chemical 
and biological controls and breeding of trees resistant to pests. 
Currently, however, Forest Service research stations allocate only 
about $3 million for research on non-native insects and diseases--
barely more than 1 percent of its total budget. In the absence of a 
budget line item for invasive species research, we urge the 
subcommittee to include language in its Interior Appropriations report 
encouraging the Forest Service to increase funding for research 
targeting non-native insects and pathogens.
Urban Forests in Forest Inventory and Analysis (FIA)
    The collaborative efforts between SUFC and the U.S. Forest Service 
brought urban forest data into the mainstream of the agency's national 
data-collection program. FIA has long provided the Nation's forest 
census, but it had not historically included urban areas because of its 
definition of forests. We ask the subcommittee to encourage the Forest 
Service to continue and strengthen its efforts to integrate urban 
forest data into FIA so that its critical data-collection efforts 
address all of our Nation's forests, including our current and 
expanding 138 million acres of urban forest.
                    environmental protection agency
Clean Water State Revolving Funds (CWSRF)
    Green infrastructure, including urban forests, can be a cost-
effective and resilient approach to managing stormwater. The use of 
green infrastructure for stormwater control also provides many 
community co-benefits enumerated above. SUFC is pleased that EPA 
supports the use of green infrastructure for stormwater management and 
that green infrastructure is an eligible use under the CWSRF--a 
critical financing program for local communities investing in water 
infrastructure. CWSRF funding was maintained in the President's 
Preliminary fiscal year 2018 Budget proposal at the fiscal year 2017 
level of $1.394 billion. SUFC supports robust funding for CWSRF along 
with efforts to expand the use of green infrastructure to 20 percent to 
meet Clean Water Act goals.
                       the national park service
Outdoor Recreation Legacy Partnership Program (ORLPP)
    The State and Local Assistance Program provides matching grants to 
States and localities for protection and development of parks and 
recreation resources and is the primary Federal investment tool to 
ensure that families have easy access to urban forests in parks and 
open space, and neighborhood recreation resources. This nationally 
competitive program complements the existing State and local assistance 
program by creating opportunities for outdoor play as well as 
developing or enhancing outdoor recreation partnerships in cities. SUFC 
requests $110 million for the State and local assistance program, which 
includes $12 million for ORLPP.
                              sufc members
_______________________________________________________________________
Alliance for Community Trees
American Forests
American Planning Association
American Rivers
American Society of Consulting Arborists
American Society of Landscape Architects
Arbor Day Foundation
Bartlett Tree Foundation
Center for Invasive Species Prevention
City Forest Credits
Green Infrastructure Center
International Society of Arboriculture
Keep America Beautiful
National Association of Clean Water Agencies
National Association of Conservation Districts
National Association of Landscape Professionals
National Association of State Foresters
National Recreation and Park Association
OPEI Foundation
The Davey Foundation
The Nature Conservancy
Society of American Foresters
Society of Municipal Arborists
Student Conservation Association
Tree Care Industry Association
TREE Fund
The Trust for Public Land
Utility Arborist Association
Water Environment Federation
                               supporters
_______________________________________________________________________
Audubon Naturalist Society
California ReLeaf
California Urban Forests Council
Community Design Assistance, Virginia Tech
Leibman Associates, Inc.
Maryland Environmental Health Network
Maryland Forestry Foundation
Minnesota Shade Tree Advisory Committee
Peninsula Urban Forestry LLC
Rachel Carson Council
ReLeaf Michigan
Shenandoah Valley Network
The Baltimore Tree Trust
Torrice Media
Trees Forever
Woodstock Tree Board
      
                                 ______
                                 
           Prepared Statement of the Tanana Chiefs Conference
    The Tanana Chiefs Conference (TCC) appreciates the opportunity to 
submit written testimony to the subcommittee regarding our priorities 
for fiscal year 2019 concerning appropriations for the Bureau of Indian 
Affairs (BIA) and Indian Health Service (IHS). We are grateful for this 
subcommittee's bipartisanship, reflected in the final fiscal year 2018 
omnibus measure, Public Law 115-141, which Congress passed in March, 
and for the positive results the subcommittee has made possible in 
Alaska. We ask the subcommittee to build on its successes realized in 
the fiscal year 2018 budget when deciding on funding for BIA and IHS 
programs for fiscal year 2019.
    TCC is a non-profit intertribal consortium of 37 federally-
recognized Indian Tribes and 41 communities located across Alaska's 
interior. TCC serves approximately 18,000 Alaska Natives in Fairbanks 
where TCC headquarters is located, and in the rural villages in 
Alaska's vast interior, located along the 1,400 mile Yukon River and 
its tributaries.
    To give you an idea of that great distance, Washington, D.C. is 
1,400 miles from Oakley, Kansas, which Senator Moran represents. 
There's a lot of country between Washington, D.C. and Oakley, Kansas. 
Imagine how our 41 Alaska Native communities feel in Alaska's vast 
Interior. These villages are remote, often inaccessible by car. Alaska 
Native residents must overcome many challenges to sustain healthy 
communities, educate their children, ensure their health and safety, 
and care for their elders and themselves. This subcommittee, better 
than most, understands the great unmet needs in healthcare, public 
safety, education and job training faced by Alaska Native communities 
which struggle to provide essential services to maintain their members 
and culture.
    About a year ago, across the capital, in a 2-day hearing held by 
your House counterparts, Congressman Tom Cole of Oklahoma laid out the 
stark truth; 2016 Federal per capita healthcare spending on Alaska 
Natives and American Indians, compared to Federal spending on Medicare, 
Veterans, and Medicaid recipients was ``at the absolute bottom, and not 
by a little bit, but by a lot.'' The figures don't lie: $2,834 in per 
capita spending for IHS medical care expenditures per person versus 
$12,744 in Medicare spending for 2016. That is about four and-a-half 
times the per capita expenditure level by the IHS. Federal 
appropriations for the IHS would need to more than triple just to match 
the per capita national health spending level of $9,990 per person. 
Congressman Cole could not understand the basis for the administration 
proposed cuts to IHS funding the administration proposed that year and 
neither could we. He stated that a $300 million cut in IHS funding was 
``not defensible or acceptable.''
    That is why TCC opposes the administration's fiscal year 2019 
budget for IHS. The administration's fiscal year 2019 budget for IHS 
Services and Facilities totals $4.451 billion, which is $368 million 
below the $4.819 billion enacted by Congress for fiscal year 2018 for 
IHS Services and Facilities (excluding Contract Support Costs), which 
Congress passed a little over 1 month ago. TCC supports the 
recommendation of the National Indian Health Board (NIHB) to fully fund 
the IHS through the enactment of a true ``needs based budget,'' phased 
in over 12 years, with at least a 33 percent increase (to $6.4 billion) 
in IHS funding for fiscal year 2019, as well as providing advance 
appropriations for the IHS. So long as the IHS budget is part of the 
Interior appropriation, such increases will remain our great collective 
challenge.
    Nonetheless, we urge the Committee to continue its bipartisan work 
and increase fiscal year 2019 appropriations above the fiscal year 2018 
enacted level to reduce continued healthcare disparities between Alaska 
Native and American Indians and non-Natives. According to the IHS:

  --Alaska Natives and American Indians born today have a life 
        expectancy that is 4.4 years less than the U.S. all races 
        population (73.7 years to 78.1 years);
  --Alaska Natives and American Indians continue to die at higher rates 
        than other Americans in many categories, including chronic 
        liver disease and cirrhosis (nearly 5 times the rate), diabetes 
        mellitus (3 times), unintentional injuries (2.5 times), 
        assault/homicide (2 times), suicide (2 times), and alcohol-
        induced death (7 times);
  --According to a 2016 study examining behavioral health programs and 
        Medicaid in Alaska: ``Statewide gaps in the continuum of care 
        combined with gaps in healthcare coverage perpetuate a cycle of 
        crisis response and create costly inefficiencies.''
  --According to the CDC, the suicide rate among Alaska Natives is 
        almost four times the U.S. general population rate and at least 
        six times the national average in some parts of the State.
  --According to the Alaska Department of Health and Social Services, 
        in 2011, over 50 percent of some 4,500 reports of maltreatment 
        substantiated by Alaska's child protective services, and over 
        60 percent of nearly 800 children removed from their homes were 
        Alaska Native children.

    We must stop this cycle of abuse and destruction. Alaska Native 
villages require the resources to build healthy families and 
communities. They do so by ensuring Alaska Native families have such 
basic necessities as housing, healthcare and public safety services. 
This subcommittee has worked in a bipartisan manner to increase funds 
for Alaska Native villages and Tribes in such areas in recognition of 
the great unmet needs faced by Alaska Native communities. When the 
administration requests so little funding for Tribal needs, it makes 
our job, as Tribal advocates, and your job, as Congressional 
appropriators, more difficult to obtain a greater share of fiscal year 
2019 discretionary dollars for Tribal needs. For rural interior Alaska 
Native communities, facing a State budget deficit for fiscal year 2019, 
Federal appropriations make the difference between the success and 
failure of our efforts and, in turn, the wellness of our Tribal 
members. We have faith that this Committee will defend and increase 
fiscal year 2019 Federal funding levels for Indian Country.
         1. improve tribal health care quality and access (ihs)
    Build on the fiscal year 2018 Enacted Budget for IHS. TCC greatly 
appreciates the nearly $500 million increase Congress included in the 
fiscal year 2018 enacted budget for the Indian Health Service, 
including a $244 million increase in funding for IHS Clinical Services, 
a $322 million increase in IHS Facilities funding, and full payment of 
Contract Support Costs. We are especially appreciative of the $33 
million increase in Purchased/Referred Care (P/RC) for fiscal year 
2018, $15 million for small ambulatory clinics construction, and $11.5 
million for staff quarters, which is critical to our Tribal 
communities. TCC remains one of the only Tribal health entities in 
Alaska that does not have a regional hospital so our members are more 
dependent on village clinics to provide routine and emergency 
healthcare. We also rely heavily on P/RC funds. We also appreciate your 
acknowledgment that housing shortages in Alaska contribute to the high 
vacancy rates for medical personnel, especially in rural areas.
    TCC cannot understand why the administration proposes in fiscal 
year 2019 to eliminate funding the Indian Health Care Improvement Fund 
(-$72 mil.), the Community Health Representatives program (-$62.8 
mil.), the Health Education Program (-$19.8 mil.), or reduce funding 
for the Alaska Immunization program below the fiscal year 2017 enacted 
level. Nor can we understand the administration cutting IHS Facilities 
program funding some $40 million below the fiscal year 2017 enacted 
level--and $362 million below the fiscal year 2018 level--when our 
needs are so great.
    TCC greatly appreciates the administration including $150 million 
in the fiscal year 2019 budget for the Special Diabetes Program for 
Indians (SDPI) and $150 million for Alaska Natives and American Indians 
to fight the opioid epidemic. We recommend that this Committee, in 
report language, or Congress, in legislation such as the Senate HELP 
Committee's S. 2680, the ``Opioid Crisis Response Act of 2018,'' direct 
the IHS to allocate the 5 percent set-aside for Tribes in a manner 
similar to how the SDPI funds are now allocated, to ensure every Tribal 
community receives a share of the $25 million set-aside within the 
State Response to the Opioid Abuse Crisis funds.
    With respect to the payment of full Contract Support Costs, we are 
appreciative of the Committee's use of an indefinite appropriation, as 
well as the Committee's direction to IHS in the fiscal year 2018 
Conference Report that transfers of Substance Abuse and Suicide 
Prevention Program and other funds be awarded to Tribes through Indian 
Self-Determination Act compacts and contracts, and not through separate 
grants, so that associated ``administrative costs'' will be covered 
through the contract support cost process.
    The IHS has made its CSC policy, however, unduly complicated and we 
urge the subcommittee to continue to monitor that the agency faithfully 
implements direction from the subcommittee on this subject as well as 
Supreme Court holdings. Full payment of CSCs means just that and the 
IHS should not be permitted, by its policies, to undermine that 
essential goal.
      2. expand public safety and tribal court in interior alaska
    As our Chief and President, Victor Joseph, testified last year, we 
cannot stress enough the importance village leaders place protecting 
our children, and all Tribal members from sexual abuse, domestic 
violence and substance abuse. TCC is on record with numerous 
resolutions to express our members' exasperation over insufficient 
public safety services in our remote Alaska Native Villages. We cannot 
state it any clearer: Interior Alaska's rates of sexual abuse, domestic 
violence, and child rape are among the highest in the Nation. We have a 
crisis.
    For that reason, we oppose the proposed cuts to the BIA budget 
included in the administration's fiscal year 2019 budget, a reduction 
of $600 million below the fiscal year 2018 enacted level of $3 billion, 
with a $409 million cut to the BIA Operation of Indian Program (OIP) 
programs, including a cut of $55 million to the Public Safety and 
Justice funds from the fiscal year 2018 enacted level. TCC urges the 
Committee to reject this budget.
    We appreciate the Committee's $13 million appropriation in fiscal 
year 2018 for Public Law 280 courts and Conference Report language that 
expresses the Committee's ``concern'' about Tribal courts' needs 
identified in the Indian Law and Order Commission's November 2013 
report, which highlighted the fact that ``Federal investment in Tribal 
justice in `Public Law 280' States [like Alaska,] has been more limited 
than elsewhere in Indian Country.'' The Committee directed the BIA to 
work with Tribes and Tribal organizations in Public Law 280 States to 
consider options that promote, design, or pilot Tribal court systems 
for Tribal communities that are subject to full or partial State 
jurisdiction under Public Law 280.
    TCC has limited recurring funds to pay for our Village Public 
Safety Officer (VPSO) program which works in conjunction with Alaska 
State Troopers. Our VPSOs are the ``First Responders in the Last 
Frontier'' and they respond to emergency calls, fire, EMS and search 
and rescue. With limited funds for public safety, the role of Tribal 
Courts in Alaska Native villages is critical. It allows our villages to 
address public safety concerns at the community level and break the 
cycle of arrest, prosecution and incarceration.
    We urge the Committee to provide increased funds for Public Law 280 
courts so that we may better address public safety issues in our remote 
Interior Alaska Tribal communities. We also appreciate the $7.5 million 
in fiscal year 2018 BIA Public Safety and Justice funds to help people 
affected by opioid addiction.
     3. expand tribal opportunities for job training and economic 
                              development
    TCC continues its mission to assist hundreds of Tribal members in 
Fairbanks and in our Native villages with CDL classes, employment 
training in such areas as facility maintenance, flooring and cabinet 
installation, plumbing, plastic and cooper pipe fitting, wildland 
firefighting training, and cooking. With unemployment rates among 
Alaska Natives and American Indians multiple times the national 
unemployment rate of 4.1 percent, we cannot understand the lack of 
funding within the BIA's Community and Economic Development Programs, 
nor the administration's proposal to reduce fiscal year 2019 funding 
for Job Placement and Training by 33 percent, to $8 million. We 
appreciate the subcommittee including $12.5 million for fiscal year 
2018 for job placement and training and hope that a portion of those 
funds reach Alaska Native Villages. There is great dignity in learning 
a trade and providing for your family.
    Please provide meaningful increases to the BIA budget for these and 
related programs in fiscal year 2019 to help promote job creation in 
our rural Native villages where work is seasonal and unemployment 
remains high. Our current resources are simply inadequate to the task 
at hand.
    Thank you for permitting the Tanana Chiefs Conference the 
opportunity to submit written testimony.
                                 ______
                                 
 Prepared Statement of the Theodore Roosevelt Conservation Partnership
Dear Chairman Murkowski and Ranking Member Udall,

    The Theodore Roosevelt Conservation Partnership is a national 
coalition of sportsmen, conservation, and outdoor industry 
organizations that seeks to ensure all Americans have access to quality 
places to hunt and fish. We partner with 56 hunting, fishing, and 
conservation organizations to unite and amplify the voices of America's 
more-than 40 million sportsmen and women whose activities help sustain 
the $887-billion outdoor recreation economy.
    We appreciate the opportunity to submit this letter in support of 
the critical programs and initiatives within the Department of Interior 
(DOI) and the Environmental Protection Agency (EPA) that conserve fish 
and wildlife habitat, protect clean water flows, combat invasive 
species, and preserve recreational opportunities for generations to 
come.
    As your subcommittee drafts fiscal year 2019 spending legislation 
for DOI and the EPA, we ask you to consider our recommendations below 
which we believe would constitute sound stewardship of our country's 
natural resources. Specifically, we support the following:

    302(b) allocation increase: TRCP is encouraged by the fiscal relief 
provided by the Bipartisan Budget Act of 2018, which provided a roughly 
12-percent increase in non-defense discretionary spending for fiscal 
years 2018 and 2019. In February 2018, TRCP submitted a formal request 
to full committee leadership for increases to each subcommittee's 
302(b) allocation proportional to the overall non-defense increase. 
Given the nationwide conservation impact that relies on spending 
crafted in your subcommittee, we urge the subcommittee to request an 
increase to its 302(b) allocation proportional to the overall non-
defense increase.

    For each of the following line items, our requested funding level 
will generally reflect a 12 percent increase over fiscal year 2018 
enacted appropriations. We believe this figure serves as a reasonable 
rule-of-thumb in light of the 12 percent non-defense discretionary 
funding increase provided by the Bipartisan Budget Act of 2018.

    Land and Water Conservation Fund: Our organization's defining 
mission is to guarantee all Americans a quality place to hunt and fish, 
and the Land and Water Conservation Fund provides a direct source of 
funding to accomplish this goal. Since its establishment in 1965, the 
LWCF has been used to invest more than $16 billion in conservation and 
outdoor recreation by establishing new public fishing areas, opening 
new access to landlocked public lands, and acquiring land specifically 
to benefit fish, wildlife, and the sporting public. While TRCP and its 
partners continue to build support for permanent reauthorization of the 
LWCF prior to the program's expiration this year, we strong encourage 
the subcommittee to provide strong and stable funding for the program.

We request $476,000,000 in funding for the Land and Water Conservation 
Fund.

    EPA Geographic Programs: TRCP sincerely thanks Congress for 
robustly funding EPA's Geographic Programs in fiscal year 2018, in 
light of the administration's budget request which zeroed-out these 
critical programs. The EPA Geographic Programs provide necessary 
Federal investments, leveraged several-fold by State and local dollars, 
to improve the quality of water and wetlands habitat for fish and 
wildlife, such as menhaden, Canadian geese, and other game species, of 
great import to the sportsmen's community, among other purposes.

We request $500,000,000 in total for the EPA Geographic Programs.

    Clean Water State Revolving Fund (CWSRF): This program is the basis 
for critical partnerships between States and the Federal Government 
that allows States to address their highest priority water quality 
needs. We support the program's efforts to fund nature-based 
infrastructure and water quality improvement projects, as well as its 
work to protect estuaries. CWSRF projects are key to ensuring fish and 
wildlife habitats are maintained.

We request $1,561,153,000 for the EPA Clean Water State Revolving Fund.

    Wetlands Program Development Grants: These categorical grants allow 
State, Tribal, and local governments to protect, manage, and restore 
wetlands, and they are an important component of any infrastructure 
investment. This voluntary program is crucial for restoration of a 
former or degraded wetland's restoration to their former States. In 
Colorado alone, these funds have helped to restore hundreds of 
thousands of acres of wildlife habitat and over 200 miles of streams.

We request $16,420,000 for EPA's Wetlands Program Development grants.

    Nonpoint Source (Section 319) Grants: Today, more streams are 
impaired due to nonpoint sources of pollution than by point sources, 
which makes the Nonpoint Source Grant program more important than ever. 
These funds are important for helping States to take watershed-based 
approaches to the restoration of waters harmed by nonpoint source 
pollution. Section 319 grants have been used partially or fully to 
restore 674 waterbodies, including the Corsica River Tributaries, which 
significantly decreased nutrient discharges into the Chesapeake Bay, 
and the Lower Rio Blanco, which provided year-long trout habitat.

We request $191,425,000 for EPA's Section 319 grants.

    National Estuary Program and Coastal Waterways: The National 
Estuary Program at EPA works to protect 28 key estuaries around the 
United States, including the Puget Sound, an important area to anglers 
that is home to cutthroat trout and salmon. This program works with 
State and local agencies as well as local nonprofits to create 
Comprehensive Conservation Management Plans that protect and improve 
the water quality and ecological integrity of each estuary. TRCP 
supports robust funding for this program. Without these funds, the 
progress made to rehabilitate these estuaries will be lost.

We request $29,930,000 for the National Estuary and Coastal Waterways 
Program.

    Water Quality Research and Support Grants: As water supplies become 
more stressed due to increased demand on a limited supply, it is key to 
have the science and tools available to develop sustainable solutions 
to water management issues. The EPA's Water Quality Research and 
Support Grants help ensure water quality and availability for people 
and fish and wildlife habitat. The Chesapeake Bay, in particular, has 
benefited greatly from this program since two ongoing studies are 
working to decrease pollution that comes into the Bay. Ending this 
grant program would have long-term negative consequences for fish and 
wildlife that depend on the Chesapeake Bay.

Having been unfunded in the fiscal year 18 omnibus spending bill, we 
request the EPA's Water Quality Research and Support Grants program to 
be fully funded at its authorized level.

    Hunters, anglers, and outdoor recreationists carry on long held 
traditions that contribute greatly to our Nation's culture while 
providing a financial foundation for land and water conservation 
efforts. Outdoor recreation spending is an economic engine across the 
country--Alaska sees $7.3 billion annually in consumer spending, 
supporting 72,000 jobs, while in New Mexico those figures are $9.9 
billion and 99,000, respectively. Effective management of our natural 
resources is necessary to enable the long term enjoyment of America's 
outdoors, and we believe that the investments requested above would 
constitute strong stewardship of those resources and enable future 
generations to maintain pursuit of our shared passions.
    Thank you for the opportunity to submit this testimony, and we look 
forward to working with you and your colleagues as fiscal year 2019 
spending legislation progresses through Congress.

Sincerely,

Whit Fosburgh
President & CEO
                                 ______
                                 
   Prepared Statement of the United States Department of Agriculture 
              Employees Concerning the New Telework Policy
Dear Committee Members:

    The United States Department of Agriculture (USDA) and Specifically 
Agriculture Secretary Sonny Perdue issued a new Telework Policy dated 
01/04/2018; which severely limits the amount of time USDA employees may 
telework from an alternate location. This appears to be directed at 
customer service type USDA positions; however, does not distinguished. 
This new policy also does not distinguish differences between permanent 
telework; which is full time from an alternate location, and routine 
telework, which is scheduled work from an alternate location less than 
full time.
    Secretary Perdue and the USDA says, ``USDA supports programs that 
improve air quality, reduce traffic congestion, reduce the cost of 
office space, and assist employees in managing their work and family 
life.'' \1\ However, with Mr. Purdue's recent change in the Departments 
telework policy this appears not to be the case. Previously, eligible 
employees were able to telework up to 4 days per week, with at least 2 
days per pay period working from their official duty location.
---------------------------------------------------------------------------
    \1\ https://www.dm.usda.gov/employ/worklife/telework/index.htm.
---------------------------------------------------------------------------
    In the Departments updated telework policy, dated 01/04/2018, 
stipulates an employee must telework a MAXIMUM of 2 days per pay 
period. In addition, employees must work from their official duty 
location at least 4 days per work. So if an employee works a 10 hour 
compressed schedule 4 days a week, this policy essentially dictates 
that employee can no longer telework. This policy punishes employees 
who choose to have a solid work-life balance and accomplishes their 
assigned work from an alternate duty location.
    There are many positions within USDA are customer facing, which 
need for staff to be in those offices; these positions should be 
identify and addresses separately. There are a vast range of position 
which are not customer facing and there is not a need for employees to 
be in one centralized office, regional office, or headquarters (HQ) 
office (i.e.; USDA staff, agency HQ staff, NASS, Compliance offices, 
OIG, OGC, Etc.).
    Employees at all levels have made personal decisions regarding 
employment, work/life balance, where to live, etc. all based on the 
previous policy, U.S. Code, Public Law, etc. allowing telework to the 
maximum extent possible. ``Each executive agency shall establish a 
policy under which eligible employees of the agency may participate in 
telecommuting to the MAXIMUM EXTENT POSSIBLE within diminished employee 
performance.'' \2\ This new telework policy may violate the U.S. Code, 
if not in specific texts, at least in the spirit of the statute.
---------------------------------------------------------------------------
    \2\ Public Law 106-346, Sec. 101(a) [title III, Sec. 359], Oct. 23, 
2000, 114 Stat. 1356, 1356A-36.
---------------------------------------------------------------------------
    In the fiscal year 2016 Status of Telework in the Federal 
Government Report to Congress, the Acting Director stated; `Telework is 
an important tool for promoting Government efficiency, performance, and 
emergency preparedness. I commend Federal agencies for the remarkable 
evolution of telework as a strategic tool in support of agency missions 
and in service to the American people.'' \3\ This new policy will 
increase overhead costs including: office space rent, utilities, 
transit subsidies, etc. and the morale of employees will plummet. Many 
agencies have been using telework in the past years in order to 
accomplish their mission. With decreasing budgets, telework is a way to 
reduce overhead costs; which can be redirected to other programs or 
mission in order to better serve the agriculture community.
---------------------------------------------------------------------------
    \3\ https://www.telework.gov/reports-studies/reports-to-congress/
2017-report-to-congress.pdf.
---------------------------------------------------------------------------
    In the fiscal year 2016 State of Telework on the Federal Government 
Report to Congress,\4\ the USDA identified goals for telework (Appendix 
19) including Goal of employee recruitment, Goal of employee retention, 
Goal of improved employee attitudes, Goal of emergency preparedness, 
and Goal of reduced commuter miles. With this change to the USDA 
teleworking policy, there is no upside; the new policy will have a 
negative effect on all of these goals.
---------------------------------------------------------------------------
    \4\ https://www.telework.gov/reports-studies/reports-to-congress/
2017-report-to-congress.pdf.
---------------------------------------------------------------------------
    Thank you for your time and I hope you will address this new policy 
with the Department to gain an understanding of why this change was 
needed, why eligibility and specific direction was not left to the 
individual agency or staff leadership, the cost of this change among 
other questions.
                                 ______
                                 
  Prepared Statement of the United States Geological Survey Coalition
    The USGS Coalition appreciates the opportunity to provide testimony 
about fiscal year 2019 appropriations for the United States Geological 
Survey (USGS). The USGS Coalition requests that Congress to fund the 
USGS at $1.2 billion in fiscal year 2019. The requested funding would 
allow the agency to sustain current efforts in scientific discovery and 
innovation and to make strategic investments that will produce the 
impartial knowledge and decision support tools needed by decision-
makers across the country.
    Few modern problems can be addressed by a single scientific 
discipline. The USGS is uniquely positioned to provide information and 
inform responses to many of the Nation's greatest challenges. The USGS 
is an agency that has a distinctive capacity to deploy truly 
interdisciplinary teams of experts to gather data, conduct research, 
and develop integrated decision support tools that improve ecosystem 
management, ensure accurate assessments of our water quality and 
quantity, reduce risks from natural and human-induced hazards, deliver 
timely assessments of mineral and energy resources, and provide 
emergency responders with accurate geospatial data and maps.

The USGS Coalition is an alliance of more than 80 organizations united 
by a commitment to the continued vitality of the United States 
Geological Survey to provide critical data and services. Coalition 
members include scientific organizations, universities, businesses, and 
natural resource managers.
                   essential services for the nation
    The USGS plays a unique role within the Department of the Interior, 
conducting research across a broad array of scientific disciplines and 
providing data that informs responses to many of the Nation's greatest 
challenges. To highlight just a few examples, USGS scientists:

  --Reduce risks from natural hazards--including earthquakes, 
        landslides, volcanic eruptions, flooding, drought, and 
        wildfires--that jeopardize human lives and result in billions 
        of dollars in damages annually.
  --Inform management of freshwater resources--both above and below the 
        land surface--for drinking water, agriculture, and commercial, 
        industrial, recreational, and ecological purposes.
  --Inform sound management of natural resources on Federal and State 
        lands, including control of invasive species and wildlife 
        diseases that cause billions of dollars in economic losses. 
        This information is shared with other Interior bureaus and 
        State agencies to allow for adequate monitoring and management.
  --Provide vital geospatial and mapping data used in economic 
        development, environmental management, infrastructure projects, 
        and scientific applications by States, Federal agencies, and 
        the private sector.
  --Help predict the impacts of land use and climatic conditions on the 
        availability of water resources and the frequency of wildfires. 
        The Landsat satellites have collected the largest archive of 
        remotely sensed land data in the world, which informs 
        agriculture production and our Nation's response to and 
        mitigation of natural hazards.
  --Help make decisions about the Nation's energy future by assessing 
        mineral and energy resources--including rare earth elements, 
        coal, oil, unconventional natural gas, and geothermal. The USGS 
        is the sole Federal source of information on mineral potential, 
        production, and consumption.
                                funding
    Over the years, Congress has worked in a bipartisan fashion to 
provide essential funding to the USGS. These efforts have paid 
dividends and helped the USGS provide answers to the challenging 
questions facing decision-makers across the country.
    The fiscal year 2019 budget proposes cuts of up to 20 percent for 
the USGS. The proposed funding level for USGS is very troubling, as the 
agency has made numerous economies in recent years. Any cuts in fiscal 
year 2019 or beyond would come at the expense of scientific programs. 
As a science agency, much of the USGS budget is dedicated to salaries 
and equipment that must be maintained and updated to ensure the 
continuity of data acquisition and that the data gathered are reliable 
and available for future scientific investigations. We believe that the 
leadership of the USGS is doing all they can, and has been for a number 
of years, to contain costs while continuing to deliver high quality 
science.
    One strength of the USGS has been its partnerships with many other 
Federal agencies, States, local governments, and private entities. 
These relationships, however, should not be mistaken as a means to 
transfer Federal activities to other entities. The work of the USGS is 
uniquely tied to the agency, as shown in the following examples.

  --Expected losses from natural hazards in the U.S. are approaching $6 
        billion per year. These losses can be significantly reduced 
        through informed decisions guided by the most current and 
        thoroughly-researched understanding of the hazards, risks, and 
        cost of mitigation. The USGS Science Application for Risk 
        Reduction Project was created to innovate the application of 
        hazard science for the safety, security, and economic well-
        being of the Nation by directing new and existing scientific 
        research toward addressing gaps in vulnerability to help 
        communities build resilience to natural hazards.
  --Precise elevation data is needed for a variety of applications, 
        including farming, infrastructure construction, flood 
        mitigation, and avian safety. The U.S., however, does not yet 
        have national coverage of high-quality topographic data. Given 
        its expertise in mapping, the USGS is the lead entity for the 
        3D Elevation Program, which will acquire precise national 
        elevation data coverage within 8 years. The program is 
        estimated to provide benefits worth $1.1 billion a year to 
        government and private entities.
  --Nearly half of America's drinking water comes from underground 
        aquifers. The large size of some aquifers, which can span the 
        boundaries of multiple States, puts them beyond the scope of 
        local water authorities. The USGS is evaluating water quality 
        in 20 principal aquifers as part of the National Water-Quality 
        Assessment Project. The program is testing for contaminants, 
        such as pesticides, pharmaceuticals, and other pollutants that 
        threaten human health.
  --A major geomagnetic storm has the potential to cause a continent-
        wide loss of electricity and substantial damage to power-grid 
        infrastructure. Although these events are rare, they do occur, 
        such as the 1989 geomagnetic storm that disrupted power to the 
        entire Canadian province of Quebec. The USGS monitors Earth's 
        magnetic field at 14 ground stations across the U.S. This 
        information is critical for utility companies, who use the 
        resulting geoelectric hazard maps to assess the vulnerability 
        of their systems and to mitigate the predicted damages, thereby 
        preventing costly power outages.
  --A potash mineral deposit worth $65 billion was identified in 
        Michigan as a result of the National Geological and Geophysical 
        Data Preservation Program. The initiative catalogs and archives 
        geological samples acquired during oil, gas, and mineral 
        exploration. The program is run by the USGS and helps States to 
        preserve and inventory their geological samples and data. The 
        rock samples from Michigan were entered into a national 
        database, where mining companies discovered their existence and 
        are now assessing the potential for mining potash in Michigan. 
        Without USGS funding, these mineral samples and their potential 
        for new revenue and jobs would likely not have been discovered.
  --Recent research by the USGS identified the potential for avian flu 
        to move between Europe and North America when migratory birds 
        congregate in Iceland during their migration. Wildlife diseases 
        threaten not only the ecosystem and economic values of wild 
        animals, but can also jeopardize human health. The USGS has 
        unique technical expertise for surveillance and diagnosis of 
        wildlife disease, such as identifying a potential transmission 
        route of a deadly disease.
                               conclusion
    We recognize the financial challenges facing the Nation, but losing 
irreplaceable data can increase costs to society today and in the 
future. Data not collected and analyzed today is data lost forever. 
This is particularly significant for environmental monitoring systems, 
where the loss of a year's data can limit the scope and reliability of 
long-term dataset analysis. Moreover, the United States Geological 
Survey has a national mission that extends beyond the boundaries of the 
Nation's public lands to positively impact the lives of all Americans. 
For these reasons, the USGS Coalition requests that Congress work to 
provide $1.2 billion for USGS in fiscal year 2019.
    The USGS Coalition appreciates the subcommittee's past leadership 
in strengthening the United States Geological Survey. Thank you for 
your thoughtful consideration of this request.

    [This statement was submitted by Elizabeth Duffy, Chair.]
                                 ______
                                 
       Prepared Statement of the United Tribes Technical College
    United Tribes Technical College (UTTC) has for 49 years, and with 
the most basic of funding, provided postsecondary career and technical 
education and family services to some of the most impoverished high 
risk Indian students from throughout the Nation. Despite such 
challenges we have consistently had excellent retention and placement 
rates and are fully accredited by the Higher Learning Commission. We 
are proud of our role in helping to break generational poverty and in 
helping to build a strong Indian Country middle class by training the 
next generation of law enforcement officers, educators, medical 
providers, and administrators; however, the need is great and we need 
to expand our efforts. We are governed by the five Tribes located 
wholly or in part in North Dakota. We are not part of the North Dakota 
University System and do not have a tax base nor do we receive State-
appropriated funds.
    The funding requests of the UTTC Board for fiscal year 2019 Bureau 
of Indian Education (BIE)/Bureau of Indian Affairs (BIA) are:

  --$11 million for the line item, Tribal Technical Colleges which 
        compares to the fiscal year 2018 enacted level of $7.5 million 
        and the administration's fiscal year 2019 request of $6.5 
        million. Of our requested amount, $6.8 million is BIE funding 
        for our Indian Self-Determination Act contract.
  --Continue fully funding Contract Supports Costs with establishment 
        of permanent, full, mandatory-funding.
  --Continue full funding for Tribal Grant Support Costs for tribally-
        operated elementary/secondary schools.
  --Establishment of a tribally-administered Northern Plains law 
        enforcement training center at UTTC.

    Thank you for supporting forward funding for UTTC several years ago 
and for supporting the forward funding for the remaining Tribal 
colleges and universities (TCUs) in the fiscal year 2018 appropriations 
bill, which includes Tribal and BIE-operated colleges on this schedule.
    TCUs are authorized under differing titles of the Tribally 
Controlled Colleges and Universities Act and there are other statutory 
authorities for three institutions administered through the Bureau of 
Indian Education.

    Base Funding. UTTC administers our BIE funding under an Indian 
Self-Determination and Education Assistance Act agreement, and has done 
so for 41 years. The UTTC portion of the Tribal Technical Colleges line 
item should be $6.8 million based on an $11 million appropriation. 
Acquisition of additional base funding is critical to our struggle to 
maintain course offerings and services to provide educational services 
at the same level as our State counterparts. BIE funds are central to 
the viability of our core postsecondary education programs and overall 
mission as a TCU. The following examples provide three of our most 
successful areas of study directed at addressing workforce shortage 
areas.
    The nurse shortage is one example and one reason why the Associate 
of Applied Science in Practical Nursing Program is the most popular 
program offered. Licensed practical nursing (LPN) positions are readily 
available in Bismarck, North Dakota, and throughout the Nation. 
Workforce development data project the need will continue to 2030 in 
part due to the aging population (Baby Boom), nurse retirement, and 
nurse faculty shortages. These factors result is nursing programs 
restricting student admission, as there are not enough faculty to meet 
the faculty/student ratio requirements of State Boards of Nursing.
    Business related programs are the second most popular and are set 
up as 2 + 2 program with the associates degree setting the foundation 
for a bachelor's degree should the student wish to continue their 
education to the next level. A significant need for administrators and 
human resource personnel continues to exist throughout North Dakota and 
the Great Plains Regions among Tribal and non-Tribal communities.
    Criminal Justice is setup much the same with associate's degree 
serving as the foundation for transition into the bachelor's degree 
program, and prepares graduates for employment as Federal, State, or 
Tribal law enforcement, in a variety of areas. A huge shortage of law 
enforcement officers exist throughout the Great Plains and throughout 
Indian Country. Graduates may also consider the opportunity to enter 
law as there is a significant shortage of law trained personnel within 
Tribal judicial systems. The Oil Boom brought significant resources to 
North Dakota communities; however, the financial impact also resulted 
in a significant increase in crime such as substance abuse (opioid, 
methamphetamine, and heroin) and the resulting social ills such as 
human trafficking and domestic violence. A partnership with Lake Region 
State College of the North Dakota University System is under 
development that will enhance both of our Criminal Justice programs 
through the sharing of faculty and resources.

    Funding for United Tribes Technical College is a good investment. 
We have:

  --Higher Learning Commission Accreditation through 2021. A campus 
        site visit held in April 2017 indicated we have a firm 
        foundation for furthering efforts as a data driven institution. 
        We offer 1 diploma, 4 certificates, 14 Associate degrees, and 4 
        Bachelor degree programs of study (Criminal Justice; Elementary 
        Education; Business Administration; Environmental Science and 
        Research). Business Management, Criminal Justice, Medical 
        Coding and General Studies are fully available and offered 
        online. UTTC continues to be the only TCU in the country 
        approved by the Higher Learning Commission to offer full 
        programs online.
  --Services including a Child Development Center, family literacy 
        program, wellness center, area transportation, K-7 BIE-funded 
        elementary school, tutoring, counseling, family and single 
        student housing, and campus security.
  --A projected return on Federal investment of 20-1 (2005 study).
  --From 2016-2017, UTTC had a fall to fall retention rate of 38.4 
        percent and a 2017 fall semester persistence rate of 49 
        percent. Of the 68 graduates in 2017, 45 students were 
        employed, for a placement rate of 66 percent. Additionally, 14 
        of those graduates continued their education.
  --Students from 51 Tribes were represented at UTTC during the 2016--
        2017 academic year.
  --Our students are very low income, and 69.6 percent of our 
        undergraduate students receive Pell Grants in 2016-2017.
  --An unduplicated count of 557 undergraduate degree-seeking students 
        and 4 non-degree seeking students; 1,382 continuing education 
        students; and 28 dual credit enrollment high school students 
        for a total of 1,571 of all students for 2016-2017.
  --A critical role in the regional economy. A North Dakota State 
        University study reports that the five Tribal colleges in North 
        Dakota made a direct and secondary economic contribution to the 
        State of $192,911,000 in 2016 and UTTC had a $59.6 million 
        dollar direct and secondary economic impact on the Bismarck/
        Mandan communities for the same period.

    Contract Support Costs. As mentioned above, we administer our BIE 
funding through an Indian Self-Determination and Education Assistance 
Act contract, and thus Contract Support Costs (CSC) are vital to us. We 
thank the House and Senate Interior Appropriations Subcommittees for 
the recognition of the legal obligation the Federal Government has to 
pay Tribal contractors their full CSC. This has been an enormously 
important development for Indian Tribes. We appreciate that the last 
three appropriations acts place Contract Support Costs for the BIA and 
the Indian Health Service (IHS) in their own accounts and that they are 
funded at an indefinite amount, thus assuring full funding. Given that 
this funding status for CSC is year to year, we join with others in 
Indian Country in supporting a long-term legislative solution that will 
provide full and permanent funding for Contact Support Costs. Placing 
CSC funding on a mandatory basis is the logical resolution to a long-
term solution for CSC that will also protect the programs funded on a 
discretionary basis in the BIA and IHS budgets.

    Tribal Grant Support Costs for K-12 Tribally-Operated Schools. We 
have a BIE-funded elementary school on our campus, the Theodore 
Jamerson Elementary School, and thus many of our college students and 
their children attend school on the same campus. For these elementary 
schools, Tribal Grant Support Costs are the equivalent of Contract 
Support Costs for Tribes although authorized under different statutory 
authorities. We thank you for providing what is estimated to be full 
funding for Tribal Grant Support Costs in fiscal year 2018 ($81 
million).

    A Northern Plains Indian Law Enforcement Academy. We again ask 
Congress to seriously look at the problem of addressing crime in Indian 
Country with an eye toward the establishment of a campus-based academy 
for training of law enforcement officers at UTTC. We ask that you 
direct the Secretary of Interior and the Bureau of Indian Affairs to 
work with the Northern Plains Tribes and others on the timely 
development of a plan for the establishment of an academy to better 
serve the Tribes residing in the Northern tier of the United States.
    Establishment of such an academy at UTTC continues to be strongly 
supported by the Great Plains Tribal Chairman's Association (GPTCA) via 
Resolution 5-1-20-16. The Resolution requests that the Secretary of 
Interior and the BIA consult with the Tribes on the details of a plan 
for establishment of the Academy. Cultural and legal differences 
further support why such training should be tribally-directed in order 
to be appropriate for the realities of Tribal communities within 
different parts of the Indian Country. North Dakota and other northern 
border regions have special problems relating to drug and human 
trafficking. Additionally, the expanded Tribal authorities under the 
Tribal Law and Order Act and the Violence Against Women Act, and the 
Murdered Missing Indigenous Women movement, only further the importance 
of trained law enforcement officers within our Tribal communities. 
State and national training resources would have an important role in 
this new endeavor. Given our Criminal Justice program, our location and 
our campus resources, we propose the establishment of a Northern Plains 
Indian Law Enforcement Academy.
    Basic law enforcement training is currently provided through the 
BIA's Indian Police Academy in Artesia, New Mexico, which often has 
waiting lists. The BIA is depending on the basic training provided by 
State academies to supplement what is provided at Artesia. UTTC is well 
positioned with regard to providing both basic and supplemental law 
enforcement training. An academy at UTTC would allow Tribal people in 
the Great Plains and other nearby regions a more affordable choice for 
training locations while minimizing the distance and long separation of 
trainees from their families.
    In short, the BIA should be utilizing and enhancing the resources 
of UTTC to make a real difference in the law enforcement capability in 
Indian Country. We can offer college credit to trainees, and our 
facilities include the use of a state-of-the-art crime scene simulator. 
Maintaining safe communities is a critical component of economic 
development for our Tribal Nations, and local control of law 
enforcement training resources is a key part of that effort.

    We know Members of this subcommittee have made a point to visit 
places in Indian Country and we would love to be able to arrange for 
you to visit United Tribes Technical College. Thank you for your 
consideration of our requests. Hecetu yedo. (It is so)

    [This statement was submitted by Leander R. McDonald, President.]
                                 ______
                                 
        Prepared Statement of the Western Governors' Association
    Chairman Murkowski, Ranking Member Udall, and Members of the 
subcommittee, the Western Governors' Association (WGA) appreciates the 
opportunity to provide written testimony on the appropriations and 
activities of the Bureau of Land Management (BLM), U.S. Fish and 
Wildlife Service (FWS), National Park Service (NPS), U.S. Forest 
Service (USFS) and Environmental Protection Agency (EPA). My name is 
James D. Ogsbury and I am the Association's Executive Director. WGA is 
an independent organization representing the Governors of 19 western 
States and three U.S Territories in the Pacific. The Association is an 
instrument of the Governors for bipartisan policy development, 
information-sharing and collective action on issues of critical 
importance to the western United States.
    The agencies within the subcommittee's jurisdiction wield 
significant influence over vast areas of the American West. Ninety-four 
percent of all Federal lands are located in the western States and the 
Federal Government owns over 46 percent of the land within active WGA 
States. The work of this subcommittee is of vital importance to Western 
Governors, as it establishes how these lands are managed and how 
Federal agencies interact with other levels of government and the 
public.
    There is a certain level of tension between States and the Federal 
Government, one that is embedded in the very fabric of our 
Constitution. These different layers of government must have a close 
and productive working relationship to increase efficiencies and 
maximize returns on taxpayer investments. The promotion of a greater 
partnership between States and the Federal Government is central to the 
mission of WGA and is reflected in our Policy Resolution 2017-01, 
Building a Stronger State-Federal Relationship, which I commend to your 
attention.
    Western Governors are eager to work with the Department of the 
Interior (DOI) to improve its efficiency, effectiveness, and 
accountability through deliberate and thorough consideration of the 
anticipated effects of its proposed reorganization. Governors have 
urged and continue to urge DOI to engage in meaningful, substantive 
consultation with States' top-elected officials on departmental 
reorganization, including the proposed revision of its regional office 
boundaries. Reorganization offers an excellent opportunity to improve 
State and Federal consultation, coordination, and communication.
    The promotion of greater partnership between States and the Federal 
Government is central to the mission of WGA and a key theme of two 
ongoing WGA projects: the National Forest and Rangeland Management 
Initiative and the Species Conservation and Endangered Species Act 
Initiative. Responsible forest and rangeland management can only occur 
when Federal, State and local stakeholders work collaboratively to 
increase the health and resilience of our lands. Likewise, fish and 
wildlife conservation, essential to preserving the heritage of the 
West, is only possible through the cooperative efforts of State and 
Federal officials across multiple disciplines.
    The National Forest and Rangeland Management Initiative has develop 
strategies to improve public land management regimes in the West. 
Western Governors are pleased that the Consolidated Appropriations Act, 
2018, addresses the pressing problem of ``fire borrowing,'' by which 
funding for routine Federal land management activities has been 
transferred to firefighting activities. The measure also includes a 
number of forest management reforms, many of which are recommended by 
the WGA initiative. Western Governors appreciate your leadership in 
enacting these commonsense, bipartisan solutions to problems land 
managers face in Western States. I hope the Governors' recommendations 
will continue to inform congressional action to address these 
challenges.
    Western Governors believe that States should be full partners in 
the implementation of the Endangered Species Act (ESA) and have the 
opportunity to participate in listing decisions, critical habitat 
designations, recovery planning and delisting decisions. The Act is 
premised on a strong State-Federal partnership. Section 6(a) of the ESA 
states that: ``In carrying out the program authorized by the Act, the 
Secretary shall cooperate to the maximum extent practicable with the 
States.'' WGA submits that such cooperation should involve meaningful 
consultation opportunities for States to comment, participate, or 
undertake proactive measures before the Federal Government takes action 
under the ESA.
    States possess primary authority to manage most fish and wildlife 
within their borders, and they are the principal recipients of economic 
benefits associated with healthy species and ecosystems. At the same 
time, species listings and their associated prohibitions and 
consultations can affect Western States' abilities to promote economic 
development, accommodate population growth, and maintain and expand 
infrastructure. Consequently, States should have the right to intervene 
in judicial and administrative proceedings regarding the ESA. Western 
Governors urge the subcommittee to support the legal standing of States 
to participate in administrative and judicial actions involving ESA 
that, by their nature, implicate State authority and resources.
    For the past 5 years, the subcommittee has adopted report language 
directing Federal land managers to use State fish and wildlife data and 
analyses as principal sources to inform land use, land planning and 
related natural resource decisions. Western Governors are deeply 
appreciative of your commitment to promote a positive relationship 
between the States and the Federal Government in the use of wildlife 
data while respecting the limitations of State data privacy laws. 
Federal managers need data-driven science, mapping and analyses to 
effectively manage wildlife species and habitat, and in many cases 
States generate the best available wildlife science. Western Governors 
encourage coordination between Federal and State agencies on wildlife 
data collection to avoid spending scarce resources on duplicative data 
collection efforts.
    With respect to funding levels of appropriated programs, WGA 
recommends the enactment and full funding of a permanent and stable 
funding mechanism for the Payment in Lieu of Taxes (PILT) program 
administered by DOI. PILT funding does not represent a gift to local 
jurisdictions; rather it provides important compensation for the 
disproportionate acreage of non-taxable Federal lands in the West. 
Similarly, payments under the Secure Rural Schools and Community Self-
Determination Act (SRS) are critical to compensating communities whose 
timber industries have been negatively impacted by actions and 
acquisitions of the Federal Government. Western Governors hope that you 
will appropriate full funding for both PILT and SRS payments in fiscal 
year 2019.
    Data for water management and drought response planning is critical 
to Western States. Western Governors request adequate funding levels 
for the Cooperative Water Program and National Streamflow Information 
Program, both administered by the U.S. Geological Survey. This data is 
integral to the water supply management decisions of States, utilities, 
reservoir operators and farmers. They are also used for flood forecasts 
and are, accordingly, essential for risk assessment and water 
management. These two programs are important elements of a robust water 
data management framework in the Western States, and they provide 
needed support for drought mitigation efforts throughout the West.
    Infrastructure management is another crucial element of drought 
response. The Environmental Protection Agency's (EPA) Clean Water and 
Drinking Water State Revolving Funds (SRFs) provide necessary support 
for communities to maintain and enhance their water infrastructure. 
Western Governors' Policy Resolution 2017-04, Water Quality in the 
West, encourages adequate funding for SRFs.
    Western Governors continue to be concerned about the number of wild 
horses and burros on BLM lands. This number is presently estimated to 
be almost triple the current Appropriate Management Level (AML). 
Overpopulation can degrade rangeland, causing harmful effects on 
wildlife and domestic livestock and threatened and endangered species 
habitat. WGA supports a process to establish, monitor and adjust AMLs 
for wild horses and burros that is transparent to stakeholders, 
supported by scientific information (including State data), and 
amenable to adaptation with new information and environmental and 
social change.
    The spread of invasive quagga and zebra mussels continues to be a 
major threat to Western water resources. To combat this threat, Western 
Governors request that the BLM, FWS, and NPS are provided with both the 
resources and statutory authority required to implement mandatory 
inspection and decontamination of all high-risk watercraft infested 
with quagga and zebra mussels leaving waterbodies under their 
jurisdiction.
    Western Governors previously expressed concern regarding the 
development of the EPA and U.S. Army Corps of Engineers' (USACE) 2015 
Clean Water Rule, as States were not adequately consulted by the 
agencies during the rulemaking process. EPA and USACE have recently 
begun efforts to promulgate new language to clarify the jurisdictional 
boundaries of the Clean Water Act and have taken positive steps to 
engage WGA and individual States with respect to this issue. WGA looks 
forward to working with the agencies to develop a new rule that takes 
into account the viewpoints of the Western Governors and adequately 
protects States' primary authority over the management and allocation 
of water resources.
    States have exclusive authority over the allocation and 
administration of rights to groundwater located within their borders 
and are primarily responsible for protecting, managing, and otherwise 
controlling the resource. The regulatory reach of the Federal 
Government was not intended to, and should not, be applied to the 
management and control of groundwater resources. WGA encourages 
Congress to include express and unambiguous language protecting States' 
authority over groundwater resources in any water-related legislation, 
as well as clear direction to administrative agencies to respect such 
authority. Accordingly, WGA appreciates the language included in the 
Consolidated Appropriations Act, 2018, addressing existing statutory 
authorities for groundwater protection. Federal agencies should work 
through existing State authorities to address their groundwater-related 
needs and concerns. Such collaboration will help ensure that Federal 
efforts involving groundwater recognize and respect State primacy and 
comply with all statutory authorities.
    States also possess delegated authority from EPA to manage air 
quality within their borders. Congress and EPA should recognize State 
authority under the Clean Air Act (CAA) and accord States sufficient 
flexibility to create air quality and emissions programs tailored to 
individual State needs, industries, and economies. State CAA programs 
require financial support from Congress, yet funding has declined since 
the CAA's enactment. In addition, given the unique character of the 
West and the region's attainment challenges, funding should be 
appropriated for EPA to assist Western States in research on 
background, interstate and transported ozone. More frequent and intense 
wildfires are steadily reducing the West's gains in air quality 
improvement. Smoke from wildfires causes exceedances under NAAQS for 
particulate matter and ozone, impacting public health, safety and 
transportation. Smoke management programs and prescribed fire (which is 
managed according to State SIPs) can reduce these impacts but is 
currently underutilized.
    Improving electricity transmission and distribution siting and 
permitting is also a priority of Western Governors. WGA encourages 
congressional direction to Federal departments and agencies to work 
with States on identifying infrastructure locations and expediting the 
permitting of facilities that improve the reliability and resilency of 
electricity in the Western States.
    Western Governors and Federal land management agencies deal with a 
complex web of interrelated natural resource issues. It is an enormous 
challenge to judiciously balance competing needs in this environment, 
and Western Governors appreciate the difficulty of the decisions this 
subcommittee must make. The foregoing recommendations are offered in a 
spirit of cooperation and respect, and WGA is prepared to assist you in 
discharging these critical and challenging responsibilities.
                                 ______
                                 
         Prepared Statement of the Western States Water Council
    The Western States Water Council (WSWC) is a government entity and 
instrumentality of each and every participating member State, created 
pursuant to a Western Governors' resolution in 1965. Our mission is to 
ensure that the West has an adequate, secure and sustainable supply of 
water of suitable quality to meet its diverse economic and 
environmental needs now and in the future. The Council is currently 
comprised of 18 States, including the 17 Reclamation States and Alaska. 
Water is a vital resource the availability of which has and continues 
to circumscribe growth, development, economic opportunity and our 
social and environmental quality of life. The following Federal 
policies and programs in support of State water needs require adequate 
and continuing appropriations.
                 federally reserved indian water rights
    The public interest and sound public policy require the resolution 
of federally reserved Indian water rights claims in a manner that is 
least disruptive to existing uses of water, and the negotiated 
quantification of Tribal water rights claims is a highly desirable 
process which can achieve quantifications fairly, efficiently, and with 
the least cost. Indian water rights settlements involve a waiver of 
both Tribal water right claims and Tribal breach of trust claims that 
otherwise could result in court-ordered judgments against the United 
States and increase costs for Federal taxpayers. The successful 
resolution of certain claims may require ``physical solutions,'' such 
as development of Federal water projects and improved water delivery 
and application techniques to provide the Tribes with ``wet'' water.
    The Western States Water Council urges the Congress to make a 
strong fiscal commitment for meaningful Federal contributions towards 
the negotiation and implementation of tribal water rights settlements 
that recognizes the trust obligations of the United States Government. 
Further, settlements are not and should not be defined as Congressional 
earmarks. In addition, settlements should be funded without a 
corresponding offset or cuts to some other Tribal or essential Interior 
Department programs.
                            reclamation fund
    The Western States Water Council strongly supports the 
appropriation and use of receipts that accrue to the Reclamation Fund 
for their intended purpose of financing authorized western water 
projects and programs, including infrastructure related to Tribal water 
rights settlements. While Interior has identified needs totaling $1.5 
billion for projects related to Tribal water rights settlements, only 
$100.7 million was requested for fiscal year 2019.
    The unobligated balance in the Reclamation Fund at the end of 
fiscal year 2017 was $13.824 billion and is estimated to be $15.442 
billion by the end of fiscal year 2019. This unobligated balance 
continues to grow larger and larger as Reclamation Fund receipts are in 
fact spent elsewhere for other Federal purposes contrary to the 
Congress' original intent. The unobligated balance essentially reduces 
Federal borrowing to finance other Federal expenditures.
    Regarding funding for the U.S. Geological Survey, Council member 
States and political subdivisions have long been partners in 
cooperative Federal water data collection and analysis programs, 
particularly the Groundwater and Streamflow Information (streamgaging) 
Program, as well as the Water Availability and Use Science Program. The 
Council also strongly supports continuing the National Land Imaging 
Program, including existing thermal imaging capabilities, and expresses 
its strong support for the expedited construction and launch of Landsat 
9. Many of our member States use the thermal infrared image data, 
archived and distributed by the USGS, to measure and monitor 
consumptive water use, particularly agricultural water use, now made 
available from Landsat 7 and Landsat 8.
    The Council urges the Congress to give a high priority to the 
allocation and appropriation of sufficient funds for these critical, 
vital USGS water resources observation and data gathering and 
management programs, which benefit so many. Inadequate funding allows 
the programs and equipment to erode to the point that it threatens the 
quantity and quality of basic data provided to a myriad, growing and 
diffuse number of decisionmakers and stakeholders, with significantly 
adverse consequences. There is a serious need for adequate and 
consistent Federal funding to maintain, restore, modernize, and upgrade 
Federal water observation and data management programs, not only to 
avoid the loss or further erosion of critical information and data, but 
also to address new emerging needs, with a primary focus on coordinated 
data collection and dissemination.
    Further, the Council urges the Congress to maintain the Federal 
financial support for the State Water Resources Research Institutes 
program--as authorized by the Water Resources Research Act of 1964. 
Today's institutes and centers provide a research infrastructure that 
uses the capabilities of universities to greatly assist and provide 
important support to Western State water agencies in long-term 
planning, policy development and management of the increasingly complex 
challenges associated with water in the West.
                       epa state revolving funds
    Lastly, the Council urges the Congress to ensure that stable and 
continuing Federal appropriations are made to the Environmental 
Protection Agency's (EPA) Clean Water State Revolving Fund and Drinking 
Water State Revolving Fund (SRF) capitalization grants and State and 
Tribal Assistance Grants at funding levels that are adequate to help 
States address their water infrastructure needs. The SRF capitalization 
grants are leveraged with State contributions to offer financial 
assistance to cities, towns, communities, and others for the planning, 
design, construction and rehabilitation of drinking water and 
wastewater-related infrastructure. These programs are one of the 
principal tools that States use to pursue the goals of the Clean Water 
Act and Safe Drinking Water Act. Many States and communities are 
struggling to meet their water and wastewater challenges in the face of 
growing populations and aging infrastructure. Any reductions in Federal 
appropriations for the SRF programs ignores the multitude of needs 
already facing a funding gap, as the program is oversubscribed. 
Additionally, State and Tribal Assistance Grants (STAG), including 
Performance Partnership Grants (PPG) and other grants, are critical to 
the support of State programs that assure that the Nation's drinking 
water and water quality remain safe for public health.
    Thank you for the opportunity to highlight the importance of these 
programs.
                                 ______
                                 
              Prepared Statement of the Wilderness Society
    The Wilderness Society (TWS) represents more than 1 million members 
and supporters who share our mission to protect wilderness and inspire 
Americans to care for our wild places. When deciding on funding that 
affects hundreds of millions of Americans, we urge you to consider the 
full economic, social, environmental and cultural value of the many 
programs overseen by our land management agencies.
    Additionally, we urge that in crafting the Interior and Environment 
Appropriations bill you avoid harmful policy riders that damage our 
land, air, water and wildlife. Must-pass appropriations legislation is 
not the appropriate venue for unpopular policy provisions which 
undermine bedrock environmental laws like the Wilderness Act, 
Antiquities Act, Roadless Area Conservation Rule and Land and Water 
Conservation Fund Act.
    The laudable goal of returning to regular order on appropriations 
must not continue to be undermined by the attempted inclusion of 
harmful policy riders which would damage the environmental protections 
all Americans value. Their inclusion only serves to further compromise 
an already challenging appropriations process.
    Lastly, with reported proposed funding freezes and continued 
combativeness on behalf of the administration when it comes to spending 
appropriated dollars, we urge Congress to use its full powers to 
prevent any slow-walking, impoundments or reallocations of appropriated 
funding, counter to the letter or intent of appropriations legislation, 
or otherwise detrimental to our environment
    Prudent investments in critical conservation programs will provide 
jobs and protect the health and economic wellbeing of local 
communities. With a great deal of focus from the administration and 
several in Congress on deferred maintenance backlogs, we urge 
appropriators to keep in mind that proper investments now mean not 
having to find more complicated fixes later. Proper investment today 
prevents the maintenance backlogs of the future. We urge bold action in 
support of conservation funding for fiscal year 2019. Specifically, TWS 
recommends:
                      recreation and public lands
Land and Water Conservation Fund
    Now in its second half-century, the Land and Water Conservation 
Fund (LWCF) remains the premier Federal program to conserve our 
Nation's land, water, historic, and recreation heritage. It is a 
critical tool to protect national parks, national wildlife refuges, 
national forests, Bureau of Land Management (BLM) lands, and other 
Federal areas. The companion LWCF State grants program provides crucial 
support for State and local parks, recreational facilities, and trails. 
Full funding for LWCF will allow land management agencies to manage our 
public lands more efficiently and cost-effectively. This is in part 
achieved through strategic inholdings acquisition which reduces 
internal boundary line surveying, right-of-way conflicts and special 
use permits.
    LWCF also funds two other important State grant programs--the 
Forest Legacy Program and Cooperative Endangered Species programs--that 
ensure permanent conservation of important forest lands and threatened 
and endangered species' habitat, as well as important wildlife and 
recreational habitat and ensures that public lands stay public for 
hunters, anglers, and other outdoor recreationists for generations to 
come.

  --TWS strongly supports fully funding LWCF at the authorized level of 
        $900 million. For fiscal year 2018, a discretionary funding 
        level of $561 million would have funded the priority projects 
        listed by the Department of Interior.
  --We will also note that as of the date of this public testimony, the 
        annual agency produced list of LWCF priority projects has not 
        been released, bypassing the required 30-day deadline for said 
        release. This is now a troubling trend under the Trump 
        administration.
  --The Land and Water Conservation Fund also must be reauthorized this 
        year, as its authorization from 2015 expires September 30.
BLM National Landscape Conservation System
    The National Landscape Conservation System (Conservation Lands), 
overseen by the BLM, comprises over 30 million acres of congressionally 
and presidentially designated lands and waters, including National 
Monuments, National Conservation Areas, Wilderness Areas and other 
designations. Stewardship of the Conservation Lands provides jobs for 
thousands of Americans while supporting vibrant and sustainable 
economies in surrounding communities. The Conservation Lands provide 
immeasurable public values from modest investments: outstanding 
recreational opportunities, wildlife habitat, clean water, wilderness, 
and open space near cities.

  --TWS strongly supported the fiscal year 2017 President's budget 
        request level of $50.645 million for BLM National Monuments and 
        National Conservation Areas. With increased budget caps, our 
        NLCS lands should see increased investment to ensure we are 
        appropriately investing in our lands and preventing the 
        maintenance backlogs of the future.
BLM Wilderness Management
    We want to call specific attention to the Wilderness Management 
program, housed within BLM's National Landscape Conservation System. 
The Wilderness program plays a critical role in supporting the agency's 
multiple use and sustained yield mission, emphasizing continued 
collaboration, public involvement and youth engagement.

  --TWS strongly supports restoring BLM Wilderness funding to the 
        fiscal year 2011 level of $19.663 million. The enacted level 
        for BLM wilderness management is a step in the right direction, 
        but still 7 percent lower than the fiscal year 2011 enacted 
        level in raw dollars. To just keep the fiscal year 2011 level 
        on pace with inflation the fiscal year 2018 request would need 
        to be $21.036 million.
U.S. Forest Service Recreation, Heritage, and Wilderness
    The Recreation, Heritage and Wilderness program provides critical 
funding to improve recreational access to our national forests, give 
training and employment opportunities for youth and veterans, modernize 
and improve the recreational permitting process, and protect our 
cultural heritage. We recommend that funding for the Recreation, 
Heritage and Wilderness program be restored to support much needed 
trails maintenance, update signage, fight invasive species, restore 
watersheds, and monitor effects of climate change, among other critical 
needs.

  --We urge Congress to support wilderness and recreation by restoring 
        funding to the fiscal year 2010 level of $285.1 million for the 
        Recreation, Heritage and Wilderness Program. Recreation is the 
        most ubiquitous use of our forest lands, and accounts for more 
        than half of all job and income effects attributable to Forest 
        Service programs (over 190,000 jobs and $11 billion in spending 
        effects by visitors).
BLM Recreation Resources Management
    The Recreation Resources Management program provides critical 
funding to improve recreation access for all visitors to BLM lands, 
engage youth, promote public health, protect visitor safety and 
strengthen rural economies. Investments in the Recreation program will 
support increased access for all types of recreation by maintaining 
trails and roads, increased access for hunters and anglers to world 
class fish and game habitat, and small businesses, guides and 
outfitters through processing commercial recreation permits.

  --TWS strongly supports funding the Recreation Resources Management 
        program at $56.5 million in fiscal year 2019. This is a small 
        increase over the currently enacted level and would support 
        record and growing recreational use of public lands to ensure 
        efficient processing of recreations permits, oversight, and 
        visitor safety.
U.S. Forest Service Legacy Roads and Trails
    The Legacy Roads and Trails (LRT) program provides essential 
funding to improve recreational access, advance collaborative watershed 
restoration projects, provide clean drinking water, and protect aquatic 
species. Legacy Roads and Trails works because it is targeted--taking 
aim at larger road projects that are not able to be fixed with general 
road maintenance dollars and which often require leveraging of non-
Federal funds by collaborative partners. It is results oriented. And it 
creates high-wage jobs. In 2018, Legacy Roads and Trails celebrated its 
10-year anniversary, and the program's accomplishments continue to 
accumulate: 19,201 miles of needed roads maintained and/or storm-
proofed to increase their ability to stand-up during powerful storms 
and ensure access to Forest Service lands; 1,072 culverts replaced 
opening 650 miles of stream habitat for fish; 7,411 miles of unneeded 
roads decommissioned greatly reducing the delivery of sediment to 
streams, many of which supply drinking water to rural and urban towns 
and cities; 141 bridges constructed or reconstructed for safety; 5,392 
miles of trails fixed helping to keep the $10.3 billion trail-
contribution to the Gross Domestic Product intact; 800-1,200 jobs 
created or maintained on average annually; and $3.5 million per year 
reduction in annual road maintenance costs.

  --TWS strongly supports funding Legacy Roads and Trails at $50 
        million, as an individual line-item distinct from other 
        accounts. We remain concerned about the consolidation of LRT 
        into the CIM account within the fiscal year 2018 Omnibus. The 
        highest appropriation for LRT was in 2010 at $90 million, and 
        still the need far surpassed the program's capacity. LRT 
        provides tremendous returns, through leveraging other public 
        and private funding, reducing future maintenance costs, and 
        creating jobs and contributing to local economies.
                                 energy
Bureau of Land Management Oil and Gas Policy
    TWS believes that our public lands should be treasured and 
maintained for the benefit of all Americans. As we continue to extract 
publicly owned resources--nearly 200 million acres of our public lands 
are currently available for leasing--BLM must do so with full funding 
for programs that support operational safety, inspections, and both 
environmental and fiscal stewardship. BLM funding should encourage 
balanced oil and gas development on public lands with natural resource 
benefits and recreation uses and ensure that public resources are fully 
and fairly valued for the American people.

  --TWS supports the recently increased Oil and Gas Inspections level 
        of $48.4 million, and increased Resource Management Planning 
        level of $60.125 million.
Sage Grouse Conservation Plans
    Ranchers and other Americans benefit from Federal assistance in 
managing sagebrush across the western United States. Congress should 
fully fund the sage-grouse conservation strategy, which helped to 
prevent a listing under the Endangered Species Act. Full funding for 
implementation is important for the recovery of this critical western 
game species and those who rely on its habitat for their livelihood.

  --TWS strongly supports a funding level of $89.7 million in fiscal 
        year 2019 to conserve and restore sage steppe habitat through 
        the Bureau of Land Management.
Renewable Energy
    TWS is a strong proponent of transitioning our country to a clean 
energy economy by developing our renewable energy resources 
responsibly. We believe renewable energy is an appropriate and 
necessary use of public lands when properly sited in areas that avoid 
habitat, resource, and cultural conflicts. Identifying and avoiding 
conflicts early helps ensure projects are permitted more efficiently 
with limited impact on wildlands. TWS hopes the Department will 
continue to support a program that ensures our public lands play an 
important role in supporting renewable energy infrastructure through 
environmental review, suitability screening, and identification of low-
conflict designated leasing areas where wind and solar projects are 
likely to succeed--an approach which cut permitting times in half in 
the Dry Lake solar energy zone outside of Las Vegas.

  --TWS strongly supports increasing funding for renewable energy 
        programs across the Department of Interior to $110.4 million in 
        fiscal year 2018. This increase would provide sufficient staff 
        capacity to ensure continued implementation of the wind and 
        solar leasing rule, mitigation strategies, the Western Solar 
        Plan and the Desert Renewable Energy Conservation Plan. 
        Implementation of these programs will facilitate efficient 
        permitting for projects in designated leasing areas and 
        identification of new designated leasing areas in regions with 
        strong development demand. Finally, this funding should support 
        the ongoing review of the West-Wide Energy Corridors to 
        facilitate more efficient and appropriate siting and permitting 
        for transmission lines to ensure greater access for clean 
        energy development.

    [This statement was submitted by Jonathan Asher, Senior 
Representative, Government Relations.]
                                 ______
                                 
        Prepared Statement of the Wildlife Conservation Society
    The Wildlife Conservation Society (WCS) would like to thank 
Chairman Murkowski, Ranking Member Udall and the Members of the 
subcommittee for providing this opportunity to submit testimony in 
support of funding in the Fiscal Year 2019 Interior, Environment and 
Related Agencies (Interior) Appropriations Act for the Multinational 
Species Conservation Fund (MSCF), Office of International Affairs (IA), 
Office of Law Enforcement (OLE), and Cooperative Landscape Conservation 
Program (CLCP) accounts at the U.S. Fish and Wildlife Service's (FWS), 
the International Forestry program at the U.S. Forest Service (FS-IF), 
and on preventing any rider from being attached to the bill that would 
adversely affect the 4(d) rule revision on the African elephant that 
was approved by FWS in 2016. WCS is deeply concerned by the President's 
budget proposal, which seeks to retreat from many of the important 
investments this subcommittee has made in domestic and international 
conservation under the Chair's leadership.
    WCS was founded with the help of Theodore Roosevelt in 1895 with 
the mission of saving wildlife and wild places worldwide. Today, WCS 
manages the largest network of urban wildlife parks in the United 
States led by our flagship, the Bronx Zoo. Globally, our goal is to 
conserve the world's largest wild places in 16 priority regions, home 
to more than 50 percent of the world's biodiversity. We manage more 
than 200 million acres of protected lands around the world, employing 
more than 4,000 staff including 200 Ph.D. scientists and 100 
veterinarians.
    The American conservation tradition is based on promoting 
sustainable use of our natural resources in order to preserve the 
world's species and environment for future generations. In recognition 
of the current fiscal constraints, it is important to note that 
effective natural resources management and conservation has indirect 
economic benefits, including contributing to local economies through 
tourism and other means. Internationally, by supporting conservation, 
the U.S. is increasing capacity and governance in developing nations 
and improving our own national security as a result.
    FWS--Multinational Species Conservation Fund--$11.1 Million: Global 
priority species, such as tigers, rhinos, African and Asian elephants, 
great apes, and marine turtles, face constant danger from poaching, 
habitat loss and other serious concerns. MSCF programs have helped to 
sustain wildlife populations by controlling poaching, reducing human-
wildlife conflict and protecting essential habitat--all while promoting 
U.S. economic and security interests in far reaching parts of the 
world. These programs are highly efficient, granting them an outsized 
impact because they consistently leverage two to four times as much in 
matching funds.
    WCS has had great success on projects using funds from the MSCF. 
One grant awarded to WCS in fiscal year 2016 through the African 
Elephant Conservation Fund will support park protection and management 
in and around Southern National Park in South Sudan, an area that has 
suffered severe poaching and a lack of governance during the recent 
civil wars. WCS is grateful that the Committee appropriated $11.1 
million for the program in fiscal year 2018 and support an 
appropriation of the same amount in fiscal year 2019.
    FWS--International Affairs--$15.8 Million: The FWS International 
Affairs (IA) program supports efforts to conserve our planet's rich 
wildlife diversity by protecting habitat and species, combating illegal 
wildlife trade, and building capacity for landscape-level wildlife 
conservation. The program provides oversight of domestic laws and 
international treaties that promote the long-term conservation of plant 
and animal species by ensuring that international trade and other 
activities do not threaten their survival in the wild. Within IA, the 
FWS Regional Programs for Africa, Eurasia, and the Western Hemisphere 
seek to address grassroots wildlife conservation problems from a broad, 
landscape perspective, building regional expertise and capacity while 
strengthening local institutions. WCS asks that the subcommittee 
maintains support for $15.8 million, equal to the fiscal year 2018 
appropriation.
    FWS--Office of Law Enforcement--$77.1 Million: The U.S. remains one 
of the world's largest markets for wildlife and wildlife products, both 
legal and illegal. A small group of dedicated officers at OLE are 
tasked with protecting fish, wildlife, and plant resources by 
investigating wildlife crimes--including commercial exploitation, 
habitat destruction, and industrial hazards--and monitoring the 
Nation's wildlife trade to intercept smuggling and facilitate legal 
commerce. As the United States developed and implemented a 
comprehensive strategy to combat the growing crisis of wildlife 
trafficking over the last 5 years, many of the new responsibilities 
placed on FWS are enforced by OLE, and WCS supports continuing to fund 
the agency at $77.1 million, and maintaining existing language that 
allocates at least $7.5 million for combating wildlife trafficking. 
Additional funding for the program will support their efforts to 
maximize the scope and effectiveness of FWS' response to the 
international wildlife trafficking crisis by strengthening forensic 
capabilities and expanding the capacity of their Special Investigations 
Unit. It will also ensure OLE has an adequate number of law enforcement 
agents deployed to enforce laws against wildlife trafficking in the 
U.S. effectively and allow the agency to continue to support 
coordinated law enforcement actions against wildlife trafficking 
overseas through the deployment of FWS attaches in targeted U.S. 
embassies.
    FWS--Cooperative Landscape Conservation--$13 Million: Many of the 
domestic conservation programs in this bill provide funding to States 
to implement their conservation goals. But wildlife does not recognize 
political boundaries, and scarce conservation dollars can best be spent 
when effective planning and coordination takes place across entire 
ecosystems. The CLCP funds a network of 22 Landscape Conservation 
Cooperatives in the U.S. and Canada, which use a collaborative approach 
between Federal, State, Tribal and local partners to identify landscape 
scale conservation solutions and work collaboratively to meet unfilled 
conservation needs, develop decision support tools, share data and 
knowledge, and facilitate and foster conservation partnerships. Funding 
would maintain support for landscape planning and design that will 
improve the condition of wildlife habitat and improve resilience of 
U.S. communities. WCS encourages the Committee to appropriate $13 
million for this program.
    USFS--International Forestry--$9 Million: The U.S. economy has lost 
approximately $1 billion per year and over 200,000 jobs due to illegal 
logging, which is responsible for 15-30 percent of all timber by 
volume. The FS-IF program works to level the playing field by reducing 
illegal logging and improving the sustainability and legality of timber 
management overseas, translating to less underpriced timber 
undercutting U.S. producers. Through partnerships with USAID and the 
Department of State, FSIP helps to improve the resource management in 
countries of strategic importance to U.S. security.
    With technical and financial support from FS-IF, WCS has been 
working to conserve a biologically rich temperate forest zone called 
the Primorye in the Russian Far East for over a decade, focusing on the 
Amur tiger and Far Eastern leopard and their habitat, species with 
approximately 400 and 35-40 individuals remaining the wild, 
respectively. Human encroachment, illegal logging, and widespread use 
of agricultural burning fracture and threaten the habitat of these 
endangered animals and increase human wildlife conflicts. Since the 
Amur tiger and Far Eastern leopard are dependent on large tracts of 
intact, functional forest ecosystems, WCS has been focusing on these 
two species as a means to address larger biodiversity conservation and 
scientific-technological capacity building goals throughout the region. 
WCS supports an appropriation of $9 million for fiscal year 2019, equal 
to the amount appropriated in the current fiscal year.
    No Harmful Rider on Ivory: On the ground in Africa and elsewhere, 
WCS scientists continue to see, first-hand, the devastating impact 
poaching is having on elephants, rhinos, tigers, and other iconic 
species. A study published by WCS found that in 2012 alone, 35,000 
African elephants were killed for their ivory--that is an average of 96 
elephants per day or one killed every 15 minutes. This finding is 
supported by a subsequent study which also found that 100,000 elephants 
were poached between 2011 and 2013. Both studies show that conditions 
are dire for the subspecies of African forest elephants, which has 
declined by about two-thirds in a little more than a decade. Poaching 
at these rates may mean the extinction of forest elephants in the wild 
within the next 10 years and the potential loss of all African elephant 
species in the wild in our lifetimes. Action must be taken now to 
prevent this catastrophe from occurring.
    There is broad consensus that the stunning increase in poaching is 
due to one factor--the illegal sale of poached ivory in commercial 
markets around the world. The illegal trade in elephant ivory and other 
products, like rhino horns and tiger skins, is worth at least an 
estimated $8 to $10 billion annually, and because of the lucrative 
nature of this industry, evidence is showing increasingly that 
transnational criminal organizations and extremist groups that are 
involved in other major trafficking operations--drugs, humans and 
weapons--are engaged in wildlife trafficking as well.
    There is no question that China is the largest market for illegal 
ivory. However, the United States is also one of the larger 
destinations, both for domestic consumption and as a transshipment hub 
for Asia. As part of Operation Crash, the U.S. Fish and Wildlife 
Service and Department of Justice have successfully arrested criminals 
and prosecuted cases in several States involving millions of dollars of 
illegal ivory and rhino horn. These busts are strong evidence that 
there is a domestic problem with illegal ivory, all of which is 
smuggled in from overseas and which frequently crosses State lines, 
placing it firmly under Federal jurisdiction.
    In 2016, the FWS began enforcing the U.S. Ivory Ban, which closed 
loopholes in the that allowed commercial ivory sales that have enabled 
illegal ivory to be sold in the U.S. for decades. The rule requires 
sellers to demonstrate that ivory items qualify for an exemption from 
the law so consumers may be assured they are purchasing a legal 
product. It also tightens the existing, Congressionally-mandated ban on 
the import of most ivory, with some narrow exceptions, including ones 
for sport-hunted trophies and musicians travelling with instruments 
that contain ivory. The rule continues to allow the domestic sale of 
items such as bona fide antiques and, to accommodate the concerns 
voiced by many stakeholders, also allows the sale of items like 
firearms, knives, instruments and artworks that contain only a small 
amount of ivory. It is also important to note that nothing in the rule 
makes the possession of legally-imported ivory illegal.
    Past Interior bills in the House contained a provision that would 
have blocked FWS from implementing the ban, forcing the continuation of 
a system that we know does not work and has been a contributing factor 
in the poaching of 100,000 elephants over the past 3 years. WCS is 
grateful that the Senate did not included a similar provision in its 
bills and appreciate that no adverse rider on the issue appeared in the 
final legislation that passed Congress. WCS encourages the subcommittee 
not to include the same or a similar rider in the fiscal year 2019 
bill.
    We appreciate the opportunity to share our perspective and to make 
a case for maintaining investments in conservation in the fiscal year 
2019 Interior, the Environment and Related Agencies Appropriations Act. 
Conservation of public lands is an American tradition and, as far back 
as 1909, Theodore Roosevelt recognized that the management of our 
natural resources requires coordination between all nations. Continued 
investment in conservation will reaffirm our global position as a 
conservation leader, while improving our national security and building 
capacity and good governance in developing countries.
    Contact: Colin Sheldon, Assistant Director of Federal Affairs, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1d7e6e7578717972735d6a7e6e33726f7a33">[email&#160;protected]</a>
                                 ______
                                 
               Prepared Statement of the Wildlife Society
    The Wildlife Society (TWS) appreciates the opportunity to provide 
testimony concerning the fiscal year 2019 budgets for the U.S. Fish and 
Wildlife Service (FWS), Bureau of Land Management (BLM), U.S. 
Geological Survey (USGS), and U.S. Forest Service (USFS). Founded in 
1937, TWS inspires, empowers, and enables wildlife professionals to 
sustain wildlife populations and habitat through science-based 
management and conservation. Appropriations for the following programs 
within the jurisdiction of the Subcommittee on Interior, Environment, 
and Related Agencies will affect the current and future status of 
wildlife and wildlife professionals in North America. To enable the 
appropriate use of science within these programs and beyond, TWS 
respectfully requests the following programmatic funding in fiscal year 
2019.

 FISCAL YEAR 2019 INTERIOR APPROPRIATION REQUESTS--THE WILDLIFE SOCIETY
------------------------------------------------------------------------
                                               Fiscal Year
      Agency                 Program               2018      Fiscal Year
                                                 Enacted      2019 TWS
------------------------------------------------------------------------
                   State & Tribal Wildlife           63.6M          70M
                    Grants.
                   National Wildlife Refuge         486.6M         586M
                    System.
                   Ecological Services.......       247.8M         255M
FWS                NAWCA.....................        40.0M          40M
                   NMBCA.....................         3.9M         6.5M
                   Partners for Fish and             51.6M          54M
                    Wildlife.
                   Migratory Bird Management.        48.4M          50M
------------------------------------------------------------------------
                   Wildlife & Fisheries             115.8M         121M
                    Management.
BLM                T&E Species Management....        21.6M          48M
                   Wild Horse & Burro                75.0M        80.6M*
                    Management.
------------------------------------------------------------------------
                   Ecosystems Mission Area...       157.7M         174M
USGS
                   Cooperative Research Units        17.4M          24M
------------------------------------------------------------------------
                   Wildlife and Fisheries           136.4M         140M
                    Habitat.
USFS
                   Forest and Rangelands              297M         307M
                    Research.
------------------------------------------------------------------------
* BLM Wild Horse & Burro Management funding request accompanies request
  to remove an associated policy rider.

                     u.s. fish and wildlife service
    The State and Tribal Wildlife Grants Program (STWG) is the Nation's 
only program that encourages developing and implementing State Wildlife 
Action Plans (SWAPs), thereby directly supporting States in preventing 
wildlife from being listed under the Endangered Species Act (ESA). 
Collectively, STWG funds support strong partnerships among Federal, 
State, Tribal, private, and nonprofit entities that enable wildlife 
professionals to implement on-the-ground conservation activities that 
benefit over 12,000 at-risk species. Between fiscal year 2002 and 
fiscal year 2010, appropriations for STWG were greater than $70 million 
per year. Subsequent budget reductions in STWG, however, have not 
allowed this highly successful program to reach its full potential. The 
Wildlife Society sincerely appreciates the $1 million increase provided 
for State formula grants in the fiscal year 2018 omnibus and requests 
at least $70 million in fiscal year 2019 to reflect pre fiscal year 
2011 funding levels. TWS also requests removal of the fiscal year 2018 
omnibus explanatory statement language that requires administrators of 
this program to place the highest priority for funding on ESA candidate 
species. While many States already utilize STWG funding for ESA 
candidate species conservation as outlined in their SWAP, other States 
utilize in whole or in part other conservation dollars --such as 
Federal Aid in Wildlife Restoration funds (i.e., Pittman-Robertson) or 
ESA Section 6 grants. Removing this language in the fiscal year 2019 
appropriations package will ensure States have the flexibility to spend 
funds as efficiently as possible through a program that is already 
highly accountable to Congressional reporting requirements.
    As a member of the Cooperative Alliance for Refuge Enhancement 
(CARE), TWS requests at least $586 million for the National Wildlife 
Refuge System's (NWRS) operations and maintenance accounts in fiscal 
year 2019. The NWRS has long been an economic driver, generating 
approximately $4.87 in economic activity for every $1 appropriated by 
Congress. However, CARE estimates that NWRS needs at least $900 million 
in annual operations and maintenance funding to properly administer 
more than 560 refuge units, 38 wetland management districts, and 5 
marine national monuments spanning over 850 million acres of land and 
water. Without adequate funding, ecosystems are not restored; invasive 
species are left unchecked; infrastructure for multiple use 
opportunities such as hunting, fishing, and biking are not realized; 
and illegal activities, such as poaching, are not curbed.
    Through the Ecological Services Program (ESP), FWS works with 
diverse public and private partners to help identify species facing 
extinction and reduce threats to their populations so that the 
requirement of Federal protection can be removed. Wildlife 
professionals in FWS are working on new strategies to increase efficacy 
of ESP and reduce regulatory burdens on private partners. The Wildlife 
Society was encouraged by a $2 million increase in funding provided for 
the Recovery line item. To efficaciously move species through all 
components of the ESA listing and delisting process, TWS also requests 
at least $23 million for Listing, $106 million for Planning and 
Consultation, and $35 million for Conservation and Restoration.
    The North American Wetlands Conservation Act (NAWCA) is a 
cooperative, non-regulatory, incentive-based program that has 
demonstrated success in maintaining and restoring wetlands, waterfowl, 
and other migratory bird populations by conserving more than 33.4 
million acres since 1989. This program has remained chronically 
underfunded despite its demonstrated effectiveness. The Wildlife 
Society greatly appreciates the $2 million increase in the fiscal year 
2018 omnibus and asks that Congress again provide at least $40 million 
for NAWCA in fiscal year 2019.
    Since 2002, the Neotropical Migratory Bird Conservation Act (NMBCA) 
has provided more than $62.2 million in grants to support 541 projects 
in 36 countries that enable wildlife professionals to conserve 386 
migratory bird species on 4.2 million acres in the U.S., Mexico, 
Central America, South America, and the Caribbean. Moreover, NMBCA has 
achieved a partner match ratio of nearly 4:1 despite requiring only a 
3:1 match. The needs of U.S. migratory bird species and conservation 
efforts to keep these species common extends to landscapes far beyond 
U.S. borders. As a result, TWS recommends Congress increase funding to 
at least $6.5 million in fiscal year 2019 to achieve greater 
conservation results under the program.
    TWS regularly expresses the importance of wildlife habitat on 
private lands. The Partners for Fish and Wildlife Program (PFW) allows 
voluntary habitat restoration goals, aligned with identified strategic 
priorities, on private lands to be achieved through cost-efficient 
financial and technical assistance. For the role this program plays in 
improving private lands wildlife stewardship while working to preempt 
ESA listings through projects like the Monarch Butterfly Conservation 
Initiative, TWS requests at least $54 million for PFW in fiscal year 
2019.
    The Migratory Bird Joint Ventures (MBJV), part of FWS' Migratory 
Bird Management program, are locally-directed partnerships that develop 
and implement science-based habitat conservation strategies for all 
species of birds across North America. These partnerships have 
leveraged Federal funds at 31:1 to enhance and protect over 27 million 
acres of avian habitat. The Wildlife Society supports $50 million for 
Migratory Bird Management for enhancing and promoting MBJV.
                       bureau of land management
    The Wildlife and Fisheries Management (WFM) program maintains and 
restores fish, wildlife, and their habitat across a large portion of 
America's western landscapes. This includes projects to balance effects 
of multiple public land uses, such as energy development and livestock 
grazing, with needs of native species. With the continued expansion of 
energy development on BLM lands--and the associated mitigation 
challenges--TWS recommends Congress support the WFM program with at 
least $121 million in fiscal year 2019.
    The Threatened and Endangered Species Management Program (TESM) 
allows wildlife professionals at BLM to meet the agency's 
responsibilities in recovering the over 480 ESA listed species that 
occur on BLM managed lands. Program funds also work toward conservation 
and recovery of the 31 ESA candidate species on BLM lands prior to ESA 
regulations being considered. In a March 2001 Report to Congress, BLM 
called for a doubling of the TESM budget to $48 million over 5 years to 
meet the needs of the program. Nearly 20 years later, this goal has yet 
to be met. TWS strongly encourages Congress to increase overall funding 
for TESM to $48 million in fiscal year 2019 to work toward recovery of 
ESA-listed species and to proactively conserve ESA-candidate species.
    TWS recognizes free-ranging horses and burros in the U.S. as 
ecologically invasive, feral species. Free-ranging horse and burro 
populations on the range reached >82,000 individuals in March 2018, 
exceeding BLM's estimated threshold for ecological sustainability by 
over 50,000 animals. To achieve ecologically sustainable levels of 
horses and burros on BLM rangelands without substantial budget 
increases, the current policy rider limiting sale and/or destruction of 
unwanted or unadoptable wild horses and burros must be removed from the 
Interior Appropriations bill. Until Congress enables BLM to responsibly 
manage free-ranging horses and burros by removing this text from the 
appropriations bill, Federal funds will continue to be wasted 
warehousing nearly 50,000 animals, rather than spent on productive 
rangeland management activities. Given the current management direction 
Congress has provided to the BLM, TWS recommends $80.5 million in 
fiscal year 2019, thereby restoring fiscal year 2017 funding levels. 
The Wildlife Society recognizes that removal of this appropriations 
rider will ultimately allow this program's budget to be reduced. The 
Wildlife Society is encouraged to see Congressional interest in this 
program detailed in the fiscal year 2018 omnibus explanatory statement, 
but we urge Congress to take the recommendations provided by the BLM 
and bodies such as the Wild Horse and Burro Advisory Board seriously 
when considering appropriated funds and associated riders.
                         u.s. geological survey
    As a member of the USGS Coalition, TWS supports the critical and 
unique mission of USGS to provide objective scientific research and 
data collection on the complex environmental issues facing our Nation. 
TWS specifically requests at least $174 million for the Ecosystems 
Mission Area, which contains programmatic resources for fisheries, 
wildlife, environments, invasive species, and the Cooperative Research 
Units (CRU).
    Within the Ecosystems Mission Area, TWS supports at least $24 
million for the CRU program. This program fosters Federal, State, non-
governmental organizations, and academic partnerships to provide 
actionable science tailored to the needs of wildlife managers on the 
front lines, and helps develop the next generation of wildlife 
professionals. These partnerships leverage more than three dollars in 
outside funds for every Federal dollar invested into the program. An 
increase of funding to $24 million would allow the CRUs to fill a 
record 36 CRU scientist vacancies (30 percent). These vacancies may 
continue to increase in scope if inflation-adjusted funding is once 
again neglected by Congress this fiscal year.
                          u.s. forest service
    Improving the future health and sustainability of the Nation's 
forests and grasslands requires a strong investment in USFS Research 
and Development (R&D). Through long-term monitoring and collaborative 
research efforts with States and other partners, USFS R&D generates 
broad environmental and societal benefits, including an understanding 
of wildlife-habitat relationships for multiple species and communities 
that enables informed land management decisions. The Wildlife Society 
encourages Congress to increase funding for all Forest Service R&D to a 
minimum of $307 million in fiscal year 2018, including at least $224 
million directed to Forest and Rangeland Research program areas 
exclusive of Forest Inventory and Analysis. Furthermore, TWS is 
concerned about the decrease in funding provided to USFS Wildlife and 
Fisheries Habitat in the fiscal year 2018 omnibus, and requests a 
return to fiscal year 2017 levels of $140 million.

    [This statement was submitted by Dr. John E. McDonald, Jr., 
President.]
                                 ______
                                 
            Prepared Statement of the Yakutat Tlingit Tribe
    The Yakutat Tlingit Tribe (hereinafter ``YTT'' or ``Tribe'') makes 
the following requests for the fiscal year 2019 Indian Health Service 
(IHS) appropriations:

  --Appropriate funds to fully cover Section 105(l) leases for 
        healthcare facilities.
  --Continue funding for the IHS Joint Venture Program and ensure that 
        funds for staffing packages for completed programs are timely 
        made available.
  --Support funding for telecommunications connectivity in rural areas.
  --Continue funding the Special Diabetes Program for Indians through 
        mandatory, multi-year appropriations and continue funding other 
        critical health programs, such as health education and 
        Community Health Representatives.
  --Continue to fully fund Contract Support Costs.

    The Yakutat Tlingit Tribe appreciates the opportunity to submit 
testimony on the fiscal year 2019 appropriations for several important 
programs. The Tribe is a federally recognized Indian Tribe located on 
the eastern shores of the Gulf of Alaska in the City and Borough of 
Yakutat, Alaska. We are in a very remote area 225 miles northwest of 
Juneau and 220 miles southeast of Cordova, Alaska, and can be accessed 
only by boat or air travel. Because of our geographic isolation, we 
believe it is absolutely critical that we are able to provide high 
quality health services in Yakutat. We currently operate the Yakutat 
Community Health Center (YCHC), at which we provide a substantial and 
increasing number of community healthcare services and counseling and 
prevention services.
    The YCHC is funded in part through a community health center grant 
with the Health Resources and Services Administration, and we are a co-
signer to the Alaska Tribal Health Compact under which we receive 
funding from the IHS under the Indian Self-Determination and Education 
Assistance Act self-governance program. Other funding comes to us 
through the State of Alaska and third-party collections such as 
Medicaid and private health insurance, and we have for many years 
received funding from the Universal Service Administration Company to 
support our information technology needs to provide health services and 
maintain critical connectivity, including our tele-health services and 
coordination with Tribal health programs throughout Alaska. The City 
and Borough of Yakutat operates a volunteer Emergency Medical Services 
squad, but the YCHC is the only healthcare provider in the community. 
The Yakutat Borough is in a Medically Underserved Area and is 
designated as a Health Professional Shortage Area for medical, dental 
and mental health.
               fund section 105(l) health facility leases
    While the YTT does not currently have in place a Section 105(l) 
lease with the IHS, we believe that being able to exercise that 
authority under the ISDEAA is imperative to the ability of the Tribe 
and other Tribes and Tribal organizations to being able to carry out 
health programs in a safe and effective environment. Tribes and Tribal 
organizations are increasingly relying on Section 105(l) leases to 
address chronically underfunded facilities operation, maintenance, and 
replacement costs. This is not just an issue in Alaska, as there are 
Tribes outside of Alaska who also desperately need funding for their 
healthcare facilities.
    However, the administration is again asking this year that Congress 
amend the ISDEAA so that the IHS does not have to fully fund such 
leases. The IHS's proposed bill language, which appears in the IHS 
Administrative Provisions, would effectively overturn the Federal 
court's decision in Maniilaq Association v. Burwell, 170 F. Supp. 3d 
243 (D.D.C. 2016), in which the court found that Section 105(l) of the 
ISDEAA requires full compensation for leases of Tribal facilities used 
to carry out ISDEAA agreements. Funding such leases should not be 
placed wholly in IHS's discretion as it proposes. We thus ask that the 
IHS's proposed amendment to the ISDEAA not be included in the fiscal 
year 2019 appropriations bill, and that it be rejected just as it was 
when the administration made the same request last year.
                   fund the ihs joint venture program
    The YTT is currently working toward building a new healthcare 
facility using its own Tribal funds. The Tribe is doing so under the 
IHS Joint Venture Program, authorized by Section 818(e) of the Indian 
Health Care Improvement Act. The program involves a competitive pool of 
Tribes and Tribal organizations who agree to construct, acquire or 
renovate a Tribal healthcare facility while IHS commits to funding the 
initial equipment and a staffing package for the operation and 
maintenance of the new facility. The Tribe was selected for the program 
among a competitive pool of applicants, and has not only committed to 
constructing the new facility, but also to providing equipment funding. 
The IHS will thus be responsible under the program for providing 
recurring funding for staffing on completion of the construction 
project.
    The new, 11,000 square foot facility will be built on land owned by 
the Tribe in Yakutat, Alaska. The facility will allow the Tribe to 
provide improved and increased health service delivery in our remote 
area, and we intend to expand our primary care services and dental 
care. We will also have space available for visiting specialty 
providers to use, as well as space for our health aides, behavioral 
healthcare providers, preventive care and our administrative staff.
    The Tribe asks the subcommittees to support the continued funding 
for the IHS Joint Venture Program, and in particular asks that staffing 
funds be appropriated and made available to the IHS on a timely basis, 
so the Tribe can afford to open and staff the new facility on 
completion of construction without delay. Tribes like YTT have to 
commit far in advance to the construction costs and rely heavily on the 
funding for staffing to be available to them as quickly as possible on 
completion of the facility. Otherwise, it would be impossible for YTT 
to plan for and operate the new healthcare facility once it is 
complete. We need the security of knowing that the funding for staffing 
will be made available to us on a timely basis, so that we can 
advertise for and select new healthcare professionals and other staff 
needed for the expanded services, and to allow them time to relocate to 
Yakutat, Alaska.
  support telecommunications connectivity funding from usac in rural 
                                 areas
    Last year in our testimony on the fiscal year 2018 appropriations, 
we identified what we called a ``potentially devastating development'' 
related to the subsidy the Tribe receives from the Universal Service 
Administrative Company (USAC) for Internet service. The Tribe has for 
many years received a subsidy from USAC that pays for our Internet so 
that we can connect through satellite. The cost at more than $20,000 
per month in the past would be prohibitive to our Tribal budget without 
the subsidies, which make it possible for the Tribe to instead pay 
around $500 a month.
    That devastating development has now come to pass--the USAC has 
imposed a pro-rata reduction in Rural Health Care funding due to a 
funding cap, which is resulting in an $18 million unplanned shortfall 
for connectivity in Alaska for Tribal health programs this year alone. 
Nationally, we understand there will be a $50 million cut to subsidies, 
meaning Alaska accounts for about one-third of the entire national 
cuts. It is expected to double next year, so the impact on Alaska 
Tribal programs could quickly rise to over $35 million. Because our 
connectivity is our lifeline for the provision of healthcare in Alaska, 
we are faced right now with trying to find funding out of our already 
limited budget, which will translate into greatly reduced healthcare 
services just to cover our Internet service costs.
    While we understand this is not within the direct purview of these 
subcommittees, and this is a case that needs to be made with the 
Federal Communications Commission, this is such an imperative part of 
how we are able to carry out healthcare and related services in our 
rural community that it will have a devastating effect on our delivery 
of quality healthcare. We ask for the Subcommittees' support for 
lifting the cap and fully restoring the USAC subsidies to the Tribe and 
other Tribal health organizations throughout the State of Alaska.
 mandatory funding for the special diabetes program for indians (sdpi)
    The Tribe very much appreciates that Congress has reauthorized the 
SDPI through fiscal years 2018 and 2019 at the mandatory funding level 
of $150 million each year. The SDPI continues to provide critical 
funding for diabetes treatment and prevention programs for the Tribe's 
Alaska Native and American Indian patients. We continue to see 
significant outcomes in our community in terms of increased access to 
treatment and prevention services and decreased incidence of new 
diabetes diagnoses.
    We are very concerned, however, that the President's budget for 
fiscal year 2019 proposes to move SDPI funding and a lot of other 
funding under the Department of Health and Human Services from 
mandatory to discretionary status, meaning that the funding would have 
to come out of other appropriated funds within the subcommittees' 
allocations. While the Tribe understands that this change from 
mandatory to discretionary funding for the SDPI would require Congress 
to amend the law establishing the SDPI, we are adamantly opposed to 
such a change. It would not only result in the loss of multi-year 
authorizations, which are imperative for being able to plan for and 
appropriately staff continued diabetes programs in our community, but 
would threaten the continued existence of the funding into the future. 
We strongly recommend that the subcommittees reject this proposal and 
maintain the SDPI as mandatory funding.
    On another issue related to the President's proposed budget for 
fiscal year 2019, we understand the administration proposes to entirely 
discontinue funding for Community Health Representatives and health 
education, both of which are crucial IHS programs throughout Indian 
Country in general. We support continued funding for those programs, as 
well as the Low Income Home Energy Assistance Program, Community 
Services Block Grants, and the Supplemental Nutrition Assistance 
Program--all of which have direct impacts on the quality of health in 
Tribal communities.
         continue full funding of contract support costs (csc)
    As in previous years, the Tribe wishes to extend its sincere 
gratitude to Congress for fully funding CSC in the past three fiscal 
years, and for making it an indefinite amount that is in a separate 
account in both the IHS and Bureau of Indian Affairs' budgets. The full 
funding of CSC has made a significant different in our ability to 
successfully carry out our ISDEAA agreements and recognize our rights 
and responsibilities under self-governance.
    We object, however, to the IHS's renewed proposal to reinstate 
restrictions from the fiscal year 2016 Appropriations Act, which we 
view as being contrary to the ISDEAA. The administration is again 
proposing that the ``carryover'' clause be read to deny the CSC 
carryover authority of the ISDEAA, and that the ``notwithstanding'' 
clause be used as a basis for IHS to deny CSC for IHS grant programs, 
like Domestic Violence Prevention, Substance Abuse and Suicide 
Prevention and other grants that have been important to YTT's mission 
of serving its community. We appreciate that the subcommittees did not 
adopt the IHS's proposal in the past two fiscal years, and request that 
you again reject the proposal for fiscal year 2019.
    Thank you very much for your time and consideration of the concerns 
and requests made by the Yakutat Tlingit Tribe.

    [This statement was submitted by John Buller, Chairman.]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
